<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2015</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


                                                                      
                                                                      
                                                                      
                                                                      

                   INTERIOR, ENVIRONMENT, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2015

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION

                                ________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES
       
                    KEN CALVERT, California, Chairman
 MICHAEL K. SIMPSON, Idaho          JAMES P. MORAN, Virginia
 TOM COLE, Oklahoma                 BETTY McCOLLUM, Minnesota
 JAIME HERRERA BEUTLER, Washington  CHELLIE PINGREE, Maine
 DAVID P. JOYCE, Ohio               JOSEE E. SERRANO, New York
 DAVID G. VALADAO, California
 CHRIS STEWART, Utah                
                                    
                                    
                                    

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

              David LesStrang, Darren Benjamin, Jason Gray,
                 Rachelle Schroeder, and Colin Vickery,
                            Staff Assistants

                                ________

                                 PART 8
                                                                   Page
 Native American and Alaska Native Testimony, April 7, 2014.......    1
 Native American and Alaska Native Testimony, April 8, 2014.......  291
 Public Witnesses, April 10, 2014.................................  539
  Written Testimony From Individuals and Organizations on Behalf 
of Native Americans and Alaska Native.............................  895
 Written Testimony From Individuals and Organizations.............  999

                                ________

         Printed for the use of the Committee on Appropriations
         
         
         
         
         
         
         
         
         
         

                   INTERIOR, ENVIRONMENT, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2015

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION

                                ________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES
                    KEN CALVERT, California, Chairman
 MICHAEL K. SIMPSON, Idaho          JAMES P. MORAN, Virginia
 TOM COLE, Oklahoma                 BETTY McCOLLUM, Minnesota
 JAIME HERRERA BEUTLER, Washington  CHELLIE PINGREE, Maine
 DAVID P. JOYCE, Ohio               JOSEE E. SERRANO, New York
 DAVID G. VALADAO, California
 CHRIS STEWART, Utah                               
                  
  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              David LesStrang, Darren Benjamin, Jason Gray,
                 Rachelle Schroeder, and Colin Vickery,
                            Staff Assistants

                                ________

                                 PART 8
                                                                   Page
 Native American and Alaska Native Testimony, April 7, 2014.......    1
 Native American and Alaska Native Testimony, April 8, 2014.......  291
 Public Witnesses, April 10, 2014.................................  539
  Written Testimony From Individuals and Organizations on Behalf 
of Native Americans and Alaska Native.............................  895
 Written Testimony From Individuals and Organizations.............  999
                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 
 87-891                     WASHINGTON : 2014











                                  COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 FRANK R. WOLF, Virginia             NITA M. LOWEY, New York
 JACK KINGSTON, Georgia              MARCY KAPTUR, Ohio
 RODNEY P. FRELINGHUYSEN, New Jersey PETER J. VISCLOSKY, Indiana
 TOM LATHAM, Iowa                    JOSEE E. SERRANO, New York
 ROBERT B. ADERHOLT, Alabama         ROSA L. DeLAURO, Connecticut
 KAY GRANGER, Texas                  JAMES P. MORAN, Virginia
 MICHAEL K. SIMPSON, Idaho           ED PASTOR, Arizona
 JOHN ABNEY CULBERSON, Texas         DAVID E. PRICE, North Carolina
 ANDER CRENSHAW, Florida             LUCILLE ROYBAL-ALLARD, California
 JOHN R. CARTER, Texas               SAM FARR, California
 KEN CALVERT, California             CHAKA FATTAH, Pennsylvania
 TOM COLE, Oklahoma                  SANFORD D. BISHOP, Jr., Georgia
 MARIO DIAZ-BALART, Florida          BARBARA LEE, California
 CHARLES W. DENT, Pennsylvania       ADAM B. SCHIFF, California
 TOM GRAVES, Georgia                 MICHAEL M. HONDA, California
 KEVIN YODER, Kansas                 BETTY McCOLLUM, Minnesota
 STEVE WOMACK, Arkansas              TIM RYAN, Ohio
 ALAN NUNNELEE, Mississippi          DEBBIE WASSERMAN SCHULTZ, Florida
 JEFF FORTENBERRY, Nebraska          HENRY CUELLAR, Texas
 THOMAS J. ROONEY, Florida           CHELLIE PINGREE, Maine
 CHARLES J. FLEISCHMANN, Tennessee   MIKE QUIGLEY, Illinois
 JAIME HERRERA BEUTLER, Washington   WILLIAM L. OWENS, New York
 DAVID P. JOYCE, Ohio                
 DAVID G. VALADAO, California
 ANDY HARRIS, Maryland
 MARTHA ROBY, Alabama
 MARK E. AMODEI, Nevada
 CHRIS STEWART, Utah                
  
               William E. Smith, Clerk and Staff Director

                                  (ii)

 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2015

                              ----------                              


         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              ----------                              

                                             Monday, April 7, 2014.

         PUBLIC WITNESSES--NATIVE AMERICANS AND ALASKA NATIVES

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. Good morning, the hearing will come to order.
    Welcome to our first of four public witness hearings over 
the next two days, specifically for American Indian and Alaska 
Native Programs under the jurisdiction of the Interior and 
Environment Appropriations Subcommittee. I especially want to 
welcome the distinguished tribal elders and leaders testifying 
today in the audience.
    Despite a somewhat abbreviated hearing schedule this year, 
I am proud that this Subcommittee is able to hold hearings on 
these very important programs. They have been and will continue 
to be a bipartisan funding priority for this Subcommittee.
    The chair will call each panel of witnesses to the table, 
one panel at a time. Each witness will be provided with 5 
minutes to present their testimony. We will be using the timer 
to track the progress of each witness. When the button turns 
yellow, the witness will have 1 minute remaining to conclude 
his or her remarks. Members will be provided an opportunity to 
ask questions of our witnesses, but in the interest of time, 
the chair requests that we keep things moving in order to stay 
on schedule.
    We have a large numbers of tribes that have come all over 
from the United States, and so we want to make sure everybody 
has an opportunity to be heard.
    The chair also wants to remind those in the hearing room 
that the Committee Rules prohibit the use of outside video 
cameras and audio equipment during these hearings. So Mr. Moran 
will be here shortly, but if Ms. McCollum, if you have any 
opening remarks, we would be happy to hear.
    Ms. McCollum. Thank you, Mr. Chair. I look forward to 
today's hearing, and I want to thank all of the people 
testifying for their travel to Washington, D.C. Thank you, Mr. 
Chair.
    Mr. Calvert. Thank you. Okay, first up is Mr. Vernon 
Miller, council member of the Omaha Tribe of Nebraska. Mr. 
Miller, you are recognized for 5 minutes.
    [Prayer.]
    Mr. Miller, you are recognized for 5 minutes.
                              ----------                              

                                             Monday, April 7, 2014.

                        OMAHA TRIBE OF NEBRASKA


                                WITNESS

VERNON MILLER
    Mr. Miller. Well, good morning, esteemed members of the 
House that are able to be here today. My name is Vernon Miller, 
and I'm a member of the Tribal Council for the Omaha Tribe of 
Nebraska. I was elected to this position in November, just a 
few months ago, so I am pretty green to this position. I am 
here on behalf of our chairman, Clifford Wolfe Jr. who couldn't 
be here today.
    Prior to my election, I was the high school business 
teacher at Omaha Nation, which is a public school, for the past 
8 years. And so, like I said, this is a new experience for me, 
and this is something that I am acclimating to slowly but 
surely.
    So because of that and because I lived on the reservation, 
and my past experience on a tribal council, I have some 
knowledge of how the budgets of BIA and IHS impact our tribe 
and by also the utilization of those services that I do as 
well.
    We are a federally-recognized tribe living on the Omaha 
reservation in northeast Nebraska and western Iowa. We have a 
population of 6,699 tribal members. Our land area is 
approximately a little over 307 square miles, and unfortunately 
we have an unemployment rate of 69 percent in our community.
    As a result of a lot of the treaties and things that have 
happened, we have inadequate funding, high poverty rates, and 
the loss of much of our land due to the federal policy such as 
federal allotment. Because of our rural location combined with 
the fact that it was only about four decades ago that we were 
able to run our own governmental programs, it has made it very 
challenging for our tribe to develop viable economic ventures 
to fund critical government and social programs.
    Our tribal community more recently has been devastated 
through two natural disasters due to climate change. In, 2011, 
a manmade flood. We lost deer and buffalo, which are crucial 
because of the diseases, to our livelihood through the debris 
that came down through the Missouri River and that flood that 
happened in that area. And thus we watch our nutrients just 
float away down the river.
    And so then we have been praying for and struggling for our 
tribal farm and our crops for this upcoming season. We can't 
purchase nutrients that have been lost and need to be replaced. 
Even though we are in a natural agriculture or farm belt, we 
don't have--we don't receive agricultural dollars in our TPA 
funding. Although we sit on the banks of the Missouri River, we 
weren't able to use this natural resource, the water itself, 
for any purpose unless we find a way to circumvent the U.S. 
Army Corps of Engineers for its use.
    We also just suffered a tornado that came through our 
community a few months ago, and that devastated our primary 
headquarter area. And so that is another natural disaster we 
are overcoming as well. We don't receive federal dollars to 
help pay for our water system, nor repair it. We have constant 
water breaks, we just had another one last week. We rely on 
what limited collections we do receive from the users of that 
water. But it is pretty hard with an unemployment rate as high 
as it is to receive any dollars from our users or tribal 
members. So you can kind of see the limitations that we have 
there.
    Our contract support dollars have been received at 100 
percent this year finally, but with the decision that we take 
out of funds that we have already provided. Our tribe has faced 
challenge after challenge with a flood and a tornado. It has 
taken out 11 homes of people that live in those communities, 
and it hasn't been replaced. Slowly we are trying to replace 
them. Our people are faced with the same drug and alcohol abuse 
that you find in overcrowded, overpopulated cities of America, 
yet we do not have a youth detention facility.
    And I bring these challenges to you and pray that you hear 
the reality of the lives that the Omaha who live back in 
Nebraska are living with. We don't receive HIP, Home 
Improvement Programming, to improve our homes. And so those 
vacant housings, some of our homes, are still vacant because 
they can't--we can't afford to, you know, revitalize those 
homes to make them livable.
    With regard to law enforcement for at least the last 
decade, we have lacked a dedicated criminal investigator 
through inadequate funding. And as a result, we lack the 
resources to investigate and ultimately prosecute in the areas 
such as white collar crime and so forth. Any resources we must 
have must be dedicated to the crimes of violence.
    We continue to wrestle with the issue of juvenile 
detention, and in this regard, the closest juvenile detention 
facility to us in Nebraska is located 1,000 miles away on the 
Ute Mountain Reservation in Colorado. Thus we are burdened not 
only with the cost of transportation, but also the loss and 
expense for police officers to travel to transport.
    With this in mind, I urge you to allocate additional 
funding to the BIA to increase the base funding for tribal 
courts and to finally fund the Indian Tribal Justice Act at $50 
million over the FY2010 funding level of $328 million including 
the funds for officer recruitment and training for tribal 
detention facilities, operations, and maintenance.
    I know I am getting close to the end of time, and I just 
want to reference my testimony I submitted. I didn't touch on a 
lot of it, but I just wanted to bring you what I had to heart.
    [The statement of Vernon Miller follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Everyone's complete testimony will be entered 
into the record. Thank you very much, Mr. Miller. Next, Mr. 
Scott with the Rosebud Sioux Tribe.
                              ----------                              

                                             Monday, April 7, 2014.

                          ROSEBUD SIOUX TRIBE


                                WITNESS

CYRIL SCOTT
    Mr. Scott. Mr. Chairman and members of the committee, I am 
Cyril Scott, the president of Rosebud Sioux Tribe. It is a 
great honor to be here to speak on behalf of our tribe, which 
is part of the great Sioux Nation.
    Mr. Chairman, we will cut right to the chase here. I want 
to talk a little bit this morning about health care. Service 
units are inadequately funded so people are being provided 
inadequate health care in our unit. We need these dollars, 
contract dollars, here in our units. Our people are suffering 
some major atrocities in IHS down there with the healthcare. 
Diabetes and all these things are running rampant.
    The United States government is putting more money into the 
health care of people incarcerated in federal institutions than 
they do Native Americans, which is a treaty-entrusted 
responsibility under 1868 Treaty Section 6. And we always thank 
you, thank everybody for that Treaty, but still, you know, some 
of the people, the upper-class, some of their pets are treated 
better than Indian country itself, Mr. Chairman and community.
    So the dollars need to be there for contract support. We 
cannot--it is life or limb in Indian country in IHS. And we 
can't send our people out for adequate service on contract 
dollars. In Rosebud, we send them to Sioux Falls Rapids, a city 
which right, right now it is almost impossible. We are ruining 
our children's credit to be able to go to universities because 
we send them out, and IHS is not paying their bills today. So 
then we have the bill collectors chasing our children.
    So we ask humbly that we actually go in and look for these 
dollars for IHS, and that is really needed and will surely be 
appreciated. IHS needs a complete overhaul in its expenditures 
as far as their procurement processes and their hiring and 
employment processes where they give contracts to doctors and 
nurses that come to Indian country for two weeks, then leave 
for two weeks and are still paid under IHS dollars.
    That is burdening. It is not the government's fault. IHS 
needs to watch their spending and put more spending back into 
healthcare. You know, if we bill for any insurance monies, that 
goes back into the administrative part of it, not into 
healthcare.
    So again when it comes to IHS, the monies are really needed 
for the American Indian and also the Alaskan natives, you know. 
4.1 years less life expectancy. We have all these things. We 
have 182 percent diabetes, so IHS needs these dollars. And we 
come to BIA, the flat budget here, across the board there is no 
money in there for economic development. In Indian country, we 
scream sovereignty, and to be sovereign, we need to be self-
sufficient. And how we do that is by the government, you folks 
going over there and asking for some economic development 
dollars so we can do this in Indian country. It is a must. 
Everyone in this room, as Native American leaders, we want to 
progress forward economically in agriculture or whatever we 
choose to do. But without the dollars being there in the flat 
budget, it is tough in Indian country.
    So then, we really ask for that, for some monies to be 
allocated just for economic development in Indian country and 
the vehicle to receive the dollars should be a short ride to 
the bank as we should say, I guess. And, if you look at what we 
are asking for, again is treaty and trust responsibility to 
Indian country.
    Wrapping up, I want to thank each one of you for hearing 
us, hearing me today to speak on behalf of the Rosebud Sioux 
Tribe and our funding issues. I have submitted testimony to 
you, and again I can't say it enough. Thank you for your time 
here this morning on behalf of the Rosebud Sioux Tribe, and 
thank you once again.
    [The statement of Cyril Scott follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank the gentleman for his statement. Next 
Mr. Roman Nose from the Executive Director, Tribal Education 
Departments National Assembly. Sir, you are recognized for 5 
minutes.
                              ----------                              

                                             Monday, April 7, 2014.

         TRIBAL EDUCATION DEPARTMENTS NATIONAL ASSEMBLY (TEDNA)


                                WITNESS

QUINTON ROMAN NOSE
    Mr. Roman Nose. Chairman Calvert, and other members of the 
committee, especially recognizing Representative Cole and also 
Representative McCollum who are strong supporters of the Indian 
Education. My name is Quinton. Roman Nose is my last name, two 
words. I am Cheyenne, and I am the executive director of the 
Tribal Education Departments National Assembly.
    It is a national nonprofit organization for tribal 
education agencies and departments also known as TEAs or TEDs. 
They are an important part of the executive agencies of 
American Indian and Alaska native tribal governments 
responsible for tribal education matters. TEDNA respectfully 
requests $2 million for a BIA grant program supporting TEAs 
which was authorized in the original No Child Left Behind Act 
of 2002, and even before then, 1988.
    Furthermore, TEDNA supports the president's request for $3 
million in order to implement the research-based reforms that 
the BIA grant kills. Federal education policy is failing Native 
American students. This subcommittee is well-versed in the 
shameful statistics that are more thoroughly discussed in my 
written testimony. It is suffice to say Native Americans score 
lower than any other student group on achievement tests and are 
falling behind in every educational level.
    While achievement results for every other major ethnic 
group has improved in recent years, those for Native American 
students have remained nearly flat, and in some cases, the gaps 
have actually widened. At the same time, tribal government 
involvement in education of Native American students is 
severely restricted.
    Although Congress authorized the funding to build tribal 
capacity to directly survey the students of BIA schools, funds 
have never been appropriated to fulfill this crucial need. A 
similar authorization aimed at public schools on Indian 
reservations has been funded since FY2012 resulting in the 
Department of Education's pioneering State Tribal Education 
Partnership program, also known as STEP.
    Though very important, STEP only addresses one aspect of 
the existing need. TEAs, TEDs are in the unique position to 
halt and reverse the negative outcomes for native students. The 
Chickasaw, a STEP grantee, is an excellent example. Many of 
their Native American students were falling behind through the 
cracks or were being expelled. Chickasaw Nation now moves 
expelled students into alternative high schools, addressing an 
acute problem for native students that federal, state, and 
local agencies were unable to remedy.
    Similarly, Idaho acknowledged its inability to provide 
training or technical assistance to meet the unique needs of 
Native Americans. The Nez Perce Tribe, using its STEP grant, 
began providing technical assistance in teacher training on the 
integration of cultural pedagogy, tribal education standards, 
and Common Core standards.
    Successful models of tribal involvement in education should 
be expanded to BIA schools. In order to meet this worthy 
objective, this appropriation would focus on three areas 
already identified and authorized in the ECSA.
    First, TEAs would support early education initiatives and 
develop culturally relevant curriculum and assessments.
    Second, TEAs would provide coordination in administrative 
support services, technical assistance to schools, and 
education programs on Indian reservations.
    Third, it would fund a development in enforcement of tribal 
education codes and policies. As Congress has already 
recognized, these three areas, our core educational functions, 
are most appropriately left to tribes.
    We applaud President Obama's request that Congress invest 
in incentivizing schools funded through the Bureau of Education 
to introduce reforms that improve student outcomes. We believe 
that TEDNA's request today for appropriation of capacity 
building dollars complements the President's initiative well.
    Additionally, we emphasize that TEAs should have an 
essential role in the reform of BIA's school system, fulfilling 
its essential administrative and governance functions. This 
type of reform TEDNA has encroached for many years. Investments 
in TEAs is sound policy and begins to implement the policy of 
tribal self-determination in education and further the United 
States trusting responsibility to Native American students.
    I want to thank the Subcommittee for this opportunity to 
testify, and I am happy to answer any questions you may have.
    [The statement of Quinton Roman Nose follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. I thank the gentleman, and we will now have 
questions. So, Mr. Moran, do you have any questions or 
statement you want to make or----
    Mr. Moran. Betty, Ms. McCollum, do you have anything?
    Ms. McCollum. I have been in a couple of eldercare 
facilities. I am just wondering if--the Rosebud Nation 
mentioned their eldercare facility was really inadequate. That 
might be more of a problem than many of us on the committee 
realize for some of our elders. Mr. Miller, are you having 
issues with elders being able to age--not just with the 
healthcare dollars, but adequate facilities for them.
    Mr. Miller. I will respond--we have a nursing facility and 
a clinic in our town.
    Ms. McCollum. You need to push the button too, sir.
    Mr. Miller. Thank you. We have a nursing home on our 
reservation, and, you know, because of the limited amount of 
beds, we do have one capacity for our elders to even utilize 
that facility and two, yes, the infrastructure itself does need 
some pretty deep renovations, and it does--it is highly 
inadequate, you know, even for--even to be culturally to our 
elders and their needs.
    I know it is oftentimes difficult for the route to other 
people that are residing in the nursing home facility for our 
elders to visit them. And oftentimes the quality of care is 
inadequate as well.
    Ms. McCollum. Thank you.
    Mr. Scott. When it comes to elderly in Indian country 
especially on the Rosebud, we have what we call the 20 flex 
service units. It is based apartments for our elderly. We need 
dollars for better medical care, in-house medical care. We are 
spending a lot of money on transportation to transport to an 
IHS service unit. We could do that and not cause so much stress 
on our elders, by providing some services in-house, in the 
facility itself. As Mr. Miller said, we also have an elderly 
care facility that is suffering right now.
    We were the first one in Indian country to do this, the 
Rosebud Sioux Tribe, to buy a nursing home in the city of White 
River. And we struggle every day to take care of our elderly. 
You know, we, as Native Americans, the elders are everything to 
us, and when we suffer in these fashions financially, we let 
our people suffer with healthcare and just their basic 
necessity needs in life at these facilities.
    So, yes, the elderly concerns, we need dollars to better 
provide services for our elders, whether it is in healthcare or 
just day-to-day activities. So thank you.
    Mr. Moran. Mr. Chairman.
    Mr. Calvert. Yes.
    Mr. Moran. If I might, the improvement in our contract 
support though, you figure, is going to have a direct benefit. 
I know the Chairman, Ms. McCollum, myself, and Mr. Simpson have 
all wanted stronger contract support services, and this is 
going to have a direct benefit to your healthcare, I assume. So 
you might just say a word about that.
    The other thing is we have been holding out hope that the 
Affordable Care Act with its provisions for the Indian Health 
Service within it would improve healthcare on reservations. We 
don't know. We have to hear from you, of course, on what impact 
is made. But over time, there was an assumption that it would 
make a substantial, I mean a substantial improvement, in 
funding for healthcare and in the quality of healthcare. Have 
you seen any of that as a result of the Affordable Care Act 
implementation?
    Mr. Scott. Mr. Moran, thank you for the question. Though we 
have the Affordable Care Act, until there is an overhaul of IHS 
and the dollars in IHS, the Affordable Care Act will not be 
effective, cost-effective for Indian country. When we are 
misusing so many of our health dollars, how could we justify 
the Affordable Care Act being implemented in Indian country 
when the norm of the day is to put more money into 
administration. And we will see it--with Obama Care, we will 
see the same thing. It will all go into administration from 
here in Rockville, Maryland and through our agencies at home. 
More money goes to administration than it does our healthcare 
needs of our people, and it can't be.
    So the Affordable Care Act, I believe, it is my own 
personal belief that that is going to cause Indian country to 
even suffer more because those dollars will not come as 
healthcare dollars. They will come at administrative dollars in 
Indian country, and thank you for your question, Mr. Moran.
    Mr. Calvert. Mr. Simpson.
    Mr. Simpson. Well, thank you. I don't really have a 
question, but I do want to thank you all for being here today. 
And, Quinton, education is obviously one of the things we have 
to improve on. We have been focusing kind of on healthcare, but 
many of us are looking at the education system that is woefully 
inadequate. You all have to be a part of any reform. In fact, 
you have to be the center of any reform that we do. So we look 
forward to working with you.
    I was very disappointed in the President's budget, not just 
this president, previous presidents also, that there was 
actually no request for any new schools construction in Indian 
country. And I will tell you what, some of the schools out 
there are dangerous. They are just--they are old. They are run-
down. They are unhealthy, and we have to make some changes to 
that. I saw that on the Rosebud and other places where we 
really need to invest in upgrading the schools in Indian 
country. And I would like to see you help us with our 
colleagues on the other side of the rotunda as we work through 
this budget so that hopefully we can get some reforms done in 
the school system and also in the buildings that are necessary. 
So thank you all for being here today. Go ahead.
    Mr. Roman Nose. Thank you for those comments. I just want 
to quickly say about the BIA school construction program, under 
the Bush Administration, there was adequate money funded for a 
lot of the buildings, and the money has decreased since then.
    Unfortunately until we improve the system of how the BIA 
goes about building those buildings, you know, it is always 
going to be a money pit. I mean it is just not going to meet 
the needs that Indian schools need for their buildings.
    We are woefully behind now as it is. I also serve on the 
school board for Riverside Indian School, a BIA-funded school 
in Oklahoma. So I know that for a fact.
    Mr. Simpson. Thank you.
    Mr. Miller. If I could just make a brief comment too in 
regard to the schools. Most people think of BIA schools as just 
being K-12, but there are also tribal colleges as well. And my 
sister, she is a freshman at Haskell Indian Nations University. 
When we took her down there, I mean it is a testament of how 
there is more funding that is needed there. I mean there are 
stains that were there that couldn't be taken care of because 
of funding levels, and so I agree. It is also not just K-12 but 
also higher ed.
    Mr. Simpson. And I, if I could, Mr. Chairman, and I should 
say also as much as I run down the schools and the inadequate 
job we have witnessed a number of years ago, same situation 
existed with military schools. And we started off on a program 
and said we are going to fix them, and they did some stuff. And 
they are in the process of doing that, but I don't mean to 
imply every Indian school is run down. There are some that are 
in very good shape that are doing a great job. Just depends on 
where they are, but every child deserves an education and in 
conditions that are safe. So we look forward to working with 
you on this subject.
    Mr. Scott. If I may, you know, you are exactly right, and I 
want to thank you for addressing the schools. You know, in 
Rosebud, we have an agreement, a lease agreement with the BIA, 
and we have three schools that are really inadequate. We spend 
more money in bringing in modular homes for classrooms than we 
do in maintenance and repair. What they have spent in our 
county alone, in our districts alone, in these modular homes, 
we could have built a new facility out in the low-lying 
communities.
    We believe what is going on here today is that they want us 
to start using the state school, the Todd County High School, 
which is going to be very hard on our children, especially the 
younger children. Some of them are going to have to be bused in 
the excess of 15 to 17 miles a day, and that is one day. So 
thank you for your question on education.
    Mr. Calvert. Thank the gentleman. And obviously healthcare 
and education will be a common theme here today. And so we need 
to address it. One quick question for Mr. Miller. 307 square 
miles in Nebraska. You primarily grow, what, wheat?
    Mr. Miller. No, it is corn.
    Mr. Calvert. Corn?
    Mr. Miller. We also have soybeans.
    Mr. Calvert. And do you contract farm all that, or do you 
farm it yourself?
    Mr. Miller. We just started our own farming business 
corporation, LLC. And so we take care of it might be like a 
quarter of our land, but the rest of it is leased out through 
the BIA.
    Mr. Calvert. So I see the 69 percent unemployment rate.
    Mr. Miller. Yes.
    Mr. Calvert. Boy, that is very----
    Mr. Miller. And we are trying to employ higher numbers to 
get them into the industry again, and so that is kind of a goal 
of ours.
    Mr. Calvert. Well good. I thank the three of you for coming 
out here today. We appreciate it, and we will be seeing you 
soon. Have a great day.
    Mr. Roman Nose. Thank you, Mr. Chair and committee.
    Mr. Calvert. Okay, next we have our second panel coming up, 
Mr. Brian Brewer, president of the Oglala Sioux Tribe, and Mr. 
Ervin Carlson, president of the Inter Tribal Buffalo Council. 
Good morning. You probably heard my opening statement about the 
5-minute rule we are operating under today because we have a 
large number of folks coming in. So we appreciate if we can 
stay on track here. So green light stays on for four minutes, 
and the yellow light comes on for the last minute. That kind of 
gives you an indication of how much time you have. We 
appreciate your courtesy on that.
    First we will recognize Mr. Bryan Brewer, president of the 
Oglala Sioux Tribe.
                              ----------                              

                                             Monday, April 7, 2014.

                           OGLALA SIOUX TRIBE


                                WITNESS

BRYAN BREWER
    Mr. Brewer. Thank you very much. My name is Red Buffalo 
Boy. My English name is Bryan Brewer. I am the president of the 
Oglala Sioux Tribe, and first, Mr. Calvert, I would like to 
congratulate you on your new position here, and----
    Mr. Calvert. Thank you.
    Mr. Brewer [continuing]. The Committee, I would like to 
thank you for everything that you do to help us and your 
efforts. We realize that it is a tough one that you have to do 
to represent us.
    But our reservation is one the largest in the United 
States. Our land is--we have 3.1 million acres of land. We have 
about 40,000 to 50,000 people on our reservation, people come 
on and off the reservation as the year goes, looking for jobs 
and things like that.
    We have 13 schools on our reservation, state BIA and 
contract schools. Our reservation schools, we are running at an 
over 50 percent dropout rate, close to 60 percent. One of the 
things I am concerned about is our off-reservation students in 
Rapid City. They are running at an over 85 percent dropout 
rate. So as the president, I am also concerned about our 
students that live off the reservation and the amount of impact 
aid that the schools receive and how that money being used. And 
this is something that we are hoping to meet with them on.
    You know, the last time I was here, I said we need 4,000 
homes. And I got back, and I got the updated data. And we don't 
need 4,000 homes. We need 12,000 homes. It is very difficult to 
get an accurate census because people are afraid to tell how 
many people are actually living in the home because it may 
affect their rent, things like that. But some, we have two to 
three families living in the home. We have one home that had 27 
people living in it. Very difficult.
    When you have poverty, this is real sad, but it brings on a 
lot of things that we don't want. We have abuse with our 
children, physical, mental, sexual abuse. Our children are 
being abused just because of the poverty, the drugs, the 
alcohol. It's very difficult for our children. And you can 
understand why maybe our dropout rate is so high when our 
children go to school hungry and they don't have their needs 
met with clothing and things like that. So very, very 
difficult.
    Our Indian health service, you know, it is very difficult 
for them to meet the needs of our people. It is just not 
happening. We don't have the doctors. They are not there. 
Everyone has to be flown out, you know, for any injuries, 
health issues. We don't have the doctors. Uses up all of our 
money. A lot of our people have to pay their own bills.
    IHS does not provide a way home. A couple weeks ago, I had 
a woman that IHS sent to Rapid City, South Dakota to see the 
doctors. When she was finished, she was left there, and a 
Laundromat called me the next morning. She slept at a 
Laundromat because they would not provide a way for her to get 
back to the reservation, which is over 100 miles away. So we 
had to send someone up to get her.
    The tribe--everybody that has an appointment with the 
doctors, we pay their way. We get them up there. So it is 
nothing that IHS is doing right now. They owe our tribe about 
$10 million in contract health. So we are really hoping that we 
can get this settled this year. Yvette Rubado said that all the 
tribes would be made an offer this year, so we are hoping. Only 
10 were.
    Our schools, you know, we are only funded at about 60 
percent of what is allocated to us. Right now, our schools that 
are--should be used to educate our children, it is being used 
for heat, vehicles, you know. It is very sad that the money 
that should be used to educate our children have to be used 
just to keep things going in the school. You know, when it 
comes down to it, they have to--they can't hire teachers 
because they need money for fuel or food or something like 
that. So our schools are really struggling.
    One of the things is that we are going to lose our language 
in about 25 years, the Lakota language. So it is something that 
we are very concerned about. Ryan Wilson, I hope he will be 
testifying. We are asking for $3 million for language 
initiatives and things like that. We are really hoping that you 
will support that because we really feel that once we lose our 
language, it will be the death of our culture.
    We are 3.1 million acres of land. We are the same size as 
the state of Connecticut, and we have 51 officers, you know. 
There are probably more than 51 officers in this building here 
alone right now. So we have a very difficult time. We brought 
in--the Bureau of Indian Affairs brought in 10 additional 
police officers a month ago, and they kept them on our 
reservation for about 60 days. And they gave our officers the 
opportunity to take a little time off. They have so much comp 
time built up that they gave them a break, but we really need 
more officers. We need more money.
    Our court systems, you know, we have so many cases that we 
just can't handle it. Our detention centers, we need 
everything. I just--it is hard to be specific on our needs, but 
I just want to say that federal government, you know, they are 
not meeting our needs.
    And with our treaties, we are a Chigi treaty tribe, and the 
tribe cannot meet the need of our people. You know, we had a 
lady that froze to death because she couldn't get propane up 
north. Right now, we have people without propane, without 
electricity. So it is very difficult to go back home and meet 
our people's needs.
    [The statement of Bryan Brewer follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Appreciate your testimony, sir.
    Mr. Brewer. Thank you.
    Mr. Calvert. Okay, Mr. Ervin Carlson, you are recognized 
for five minutes.
                              ----------                              

                                             Monday, April 7, 2014.

                      INTER TRIBAL BUFFALO COUNCIL


                                WITNESS

ERVIN CARLSON
    Mr. Carlson. Good morning, Mr. Chairman and committee 
members. I would like to thank you for allowing me here to 
testify before you gentlemen this morning on behalf of the 
Inter Tribal Buffalo Council. I don't know if you all are aware 
of the Inter Tribal Buffalo Council, but it is an organization 
that consists of--I think we are right at 60 tribes now, and 
every year, we do have a lot of other tribes joining the 
organization. Most of the tribes, I think, that you have 
listened to this morning, they are a part of the organization.
    We are requesting this year, I guess, an increase on our 
funding to $4.5 million which we have been at before. We have 
had a history of, since 1992, receiving funding from--we have 
earlier been in the President's budget. Now we are on to 
congressional earmark, and then on into the President's within 
the Interior. So we are requesting this from the Interior, the 
$4.5 million.
    And without ITBC, you know, all efforts to restore and 
protect buffalo wouldn't exist. As I said, we have consistently 
grown our organization, and consistent funding shows 
congressional commitment to buffalo restoration and management, 
as I said, since 1992 in its various--we kind of fluctuated, I 
guess, on our funding. And we had--I guess we are presently 
kind of in a shortfall. We have fallen down from where we were 
earlier, and at one time, I said $4.5 we would like to be 
restored to that if possible.
    ITBC is structured as a member cooperative, and 100 percent 
of the appropriated funds are expended on the development and 
support of tribal buffalo herds and buffalo product business 
ventures. A significant portion of ITBC funding is distributed 
directly to ITBC member tribes through herd development grant 
program, developed and administered by our ITBC members.
    The reduction in funding from '06 to level critically 
curtailed ITBC's successful marketing program at a point when 
tribes were close to accessing secure markets which would 
facilitate self-sustaining herds. Further, the funding cut 
seriously reduced efforts to solidify the ITBC health 
initiatives that has a potential to positively impact the 
incidental diet-related health programs among American Indian 
tribes.
    And a lot of the tribes here this morning talk about the 
health needs, and one of the things that we do as a health 
initiative is to help with, and we think it is in future, with 
tribes as for their funding that they need for diabetes, which 
is rampant in Indian country, heart disease. Those are rampant. 
So we want to--with a health initiative, curtail those problems 
that we have in Indian country, and I guess that would even 
help with the big need of the dollars that we also have within 
those health areas.
    As I said, our funding has been stagnant for many years, 
and our membership has grown each year. Every year, we do a 
one-page consult letter, and that is where the tribes will 
write down their needs and how much money they need to maintain 
their programs. And the funding there is used for staffing 
needs to their infrastructure, fencing, water development, 
harvesting, and processing the meat for the tribal members to 
consume.
    We are really working towards having our tribal members go 
back to eat buffalo, which is a really healthy diet for our 
people.
    One of the other areas that we are really working with you 
is with the Yellowstone National Park. Our biggest thing there 
is we want to bring out the animals alive to tribal herds.
    This year, we are helping with transporting those animals 
out and processing them and getting them to our tribes, you 
know, to eat. But our main goal is to get those animals out 
alive and get them out to our tribes. And, you know, as we put 
money out there probably it costs about $100,000 a year for 
trucking the animals, the process and getting paid for the 
process.
    Before that, there was a lot of the meat before we were 
helping was just ruined. It didn't get to our people in the 
proper manner. So we are providing that now where it is a lot 
easier and it is healthier. And we are using all of the meat.
    We are looking for funding for our current initiatives, 
and, like I said, our primary objective though is to restore 
buffalo back to Indian country. As I said, we provide 
assistance to all of the tribes in all of the infrastructure 
areas. We do help with surplus buffalo with the Park Service 
and U.S. Fish and Wildlife, and distribute these out to the 
tribes that request them, like the surplus animals. We pay for 
all of the shipping and all of the cost there to our tribes 
also. This enhances and grows their herds for further 
consumption.
    We are working on market initiatives. Some tribes are at 
marketing where it will help with their lack of funding just as 
many tribes talk about here today. We are trying to build 
revenue for them in that way also.
    Like I said, we do have a healthcare initiative. We have 6 
member tribes that are serving tribal-raised buffalo into their 
school lunch program to address all of the health concerns 
again there. And we anticipate expanding that program to 20 
tribes within the next 3 years.
    The organization, as I said, has existed for over 20 years, 
and there is no other program here within Indian country that 
assists tribes with buffalo restoration and protection.
    [The statement of Ervin Carlson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you very much, Mr. Carlson.
    Mr. Carlson. Okay, so with that, I guess I would just 
respectfully request that if you could help in returning our 
funding level to $4.5 million just to serve the tribes a lot 
better for their objectives and their needs. And also I thank 
you for listening to me today, and I sure would appreciate it 
if we would be able to do that. I say a lot of the issues today 
with the tribes that they brought up, it also helps with that, 
you know, alleviate those problems there.
    And we are building an economy, I guess, for the tribes 
also with the marketing.
    Mr. Calvert. All right, I thank the gentleman for his 
statement. Any questions for this panel? Ms. McCollum.
    Ms. McCollum. Mr. Brewer, I mean absolutely no disrespect 
in asking this question. Has the council considered putting 
forth some organizational planning so that there are cluster of 
villages around the reservation? Because it is so large, as we 
saw when we were traveling out there. There are places where 
there isn't Internet service. There is improper water. The 
propane shortage this year up north was just terrible. So when 
you told the story of the elders, my heart just broke because I 
have elders in Minnesota, off reservation that are having huge, 
huge problems.
    My thought was if that was something you were looking at 
doing, that would require extra money, extra planning and 
things like that. Your tribe and the council has the right to 
have people live where they choose to live within the tribal 
rules and regulations. But if there was a plan put forth, maybe 
with some help from us to organize in maybe a more efficient 
manner, is that something that has ever been discussed?
    Mr. Brewer. It is something that we are discussing, 
especially sustainable housing communities, because it is 
something that is so badly needed. One of the things with the 
buy-back program that is really going to help us out is getting 
land. We do have a lot of land, but we are running out. We ran 
out of land for our people to build homes. So we are really 
hoping with the land buy-back program we will be able to ride 
around to the different villages where there is no land.
    So we will be able to have land where we can build these 
communities. So it is something that we are looking at. We have 
Thunder Valley. They are really looking at building sustainable 
communities. They're going to start one, but our need is so 
great. It is going to take a lot of communities and many of the 
homes that we do have, they were built back in the '60s. So it 
is, you know, it is really dire conditions for the people that 
do have homes.
    Ms. McCollum. Thank you so much. Thank you, Mr. Chair.
    Mr. Calvert. I thank the gentlelady.
    Mr. Moran. Mr. Chairman, I want to thank Mr. Carlson for 
managing the Inter Tribal Buffalo Council. We put language in 
the bill last year to ensure that the National Park Service and 
the Fish and Wildlife Service must work with the tribes to 
address those surplus buffalo leaving national parks such as 
Yellowstone, and you have made that work. And so it is a good 
program. Not a lot of money, but it is the right thing to do. 
So we appreciate that. Thanks, Mr. Chairman.
    Mr. Calvert. Thank you. Mr. Simpson.
    Mr. Simpson. Thank you.
    Mr. Calvert. Yeah, one question on the buffalo meat itself, 
is it exclusively for Indian tribes, or do you sell that 
outside of the--to general population also?
    Mr. Carlson. Well, a lot of the tribes are at different 
stages, and the main purpose though is to get the meat to our 
people to eat for the healthy, like I said, for the diet and 
get back to eating that. And on the marketing part, there are 
some tribes are at that, selling it to outside. Their animals--
some of them might have two different type of herds that they 
use.
    Mr. Calvert. Yeah, I was in a store, and I saw the original 
Indian buffalo jerky. I was wondering if that was part of your 
program or whether it is just somebody, you know, promoting it 
from that perspective.
    Mr. Carlson. Well, we do, and I apologize today, we were 
going to bring some jerky for you guys. And I will get after my 
director for not bringing any, but that is one of the areas 
that we are looking at getting started to market that out 
there. And as I said, we are marketing some of the meat out 
there. There are a lot of tribes marketing it out there to try 
to make their herds self-sustainable.
    Mr. Calvert. Sure.
    Mr. Carlson. We have a long ways to go yet for that.
    Mr. Calvert. Okay, well thank you very much. Mr. Simpson.
    Mr. Simpson. Mr. Brewer, talk to me a little bit if you 
could about the Department of Justice's detention construction 
program. How is it going, and is it working well? Or should it 
be back with the BIA?
    Mr. Brewer. We requested that everything go back to the 
BIA. Nothing against the Department of Justice, but they are 
not into construction at all. When you have two entities that 
we have to answer to, it takes double the manpower just for 
reporting and everything else. But, you know, Department of 
Justice, we have to compete with everybody, and it is not just 
the needs. For the ones that really have the needs, we really 
feel that we get left out on the tribes. So we would really 
like to see everything go back to the Bureau, and we feel it is 
a must for us to survive.
    Mr. Simpson. Thank you for that. I have one other question 
on the buffalo and really the diet. As you know, I don't have 
to tell you anything you don't already know, but diabetes is a 
problem particularly among the Indian population.
    Mr. Carlson. Right.
    Mr. Simpson. And part of the effort is to try to get them 
back on traditional diets that they had always eaten before.
    Mr. Carlson. Right.
    Mr. Simpson. And the thought is that is going to reduce the 
diabetes rate and other things. Do we have any evidence of that 
yet, that that is----
    Mr. Carlson. We do. Actually we do have some of the tribes 
that have just gone completely back to eating just the buffalo 
and that has curtailed the diabetes that they had. There was 
one family in Fort Belknap that just had a lot of that within 
their family, and they went to just eating that. And it just 
curtailed the diabetes.
    Mr. Simpson. Yeah, that is very interesting.
    Mr. Carlson. And we are trying to get that back into the 
schools----
    Mr. Simpson. Right.
    Mr. Carlson [continuing]. So our young can start from 
there. You know as our diet and, I guess, a lot of other things 
in Indian country and our tribes has drastically changed for 
us. And so we are trying to get back to those, the traditional 
things that are pretty healthy.
    Mr. Simpson. And the one other thing that you mentioned 
that is very important to me is maintaining the languages. They 
just started Fort Hall.
    Mr. Carlson. Yes.
    Mr. Simpson. The Shoshone-Bannock Tribe started a school to 
teach the Shoshone language, I went out and spent a morning 
with them. Didn't understand a word because it was all spoken 
in Shoshone. It is very vitally important to maintain their 
culture.
    Mr. Carlson. You know, as a BIA, they have had the language 
in their school since early '70s, but yet the BIA has not 
produced one fluent speaker. So I think we have to look at 
that, and it is time for us, the tribes, to decide how these 
language programs will operate. Let us do that instead of the 
BIA. And, you know, BIA hasn't been very successful in 
educating our people, and the tribes, we would like to have a 
bigger part in that of how our children will be educated. And I 
think it is time for that we decide what our children need to 
know and how they will learn it, and I think we will have a 
better success rate.
    Mr. Simpson. Thank you for being here today.
    Mr. Calvert. Thank you both.
    Mr. Carlson. Thank you for listening.
    Mr. Calvert. Okay, the next panel is going to be Mr. Tex 
Hall Sherman of the Mandan Hidatsa, hope I am pronouncing these 
correctly, Arikara Nation; Mr. Dana ``Sam'' Buckles, Fort Peck 
Tribal Executive Board; Mr. David Gipp, Chancellor, United 
States Technical College; Mr. Ryan Wilson, President, National 
Alliance to Save Indian Languages.
    Good morning. You probably heard we have a lot of folks 
from around the country today, and we want to hear from 
everybody. We are operating under a five-minute rule so we 
would appreciate when the green light is on, that means you are 
still in your four minutes, and when the yellow light goes on, 
please try to wrap up your remarks. And then we will have some 
time for questions, and we would appreciate that very much.
    So with that, Mr. Hall----
    Mr. Hall. Thank you.
    Mr. Calvert [continuing]. You are granted five minutes.
                              ----------                              

                                             Monday, April 7, 2014.

                   MANDAN, HIDATSA AND ARIKARA NATION


                                WITNESS

TEX HALL
    Mr. Hall. Thank you, Chairman Calvert and members of the 
Committee for the House Appropriations, Subcommittee on 
Interior, Environmental-Related Agencies. I am Tex Hall, the 
travel chairman of the Mandan, Hidatsa, and Arikara Tribal 
Nation on the Fort Berthold Indian Reservation in North Dakota.
    I want to just start with about five points, but I want to 
start with the first one on energy, and as you may or may not 
know, our tribe is in Western North Dakota. And we are located 
in the Bakken Oil Formation, which is the largest oil formation 
in the lower 48, and we currently at over 1,000 wells, 180,000 
barrels of oil is being produced daily, which is more than most 
states. We have 30 drilling rigs and 20,000 plus semi truck 
traffic, who is all on the--it is a boom is what it is.
    And so as you know, North Dakota as a whole is now number 
two. It is nearing a million barrels of oil production now, and 
in 2020, they predict we are going to be--in the state we are 
going to be at 1.7. So we are moving in on Texas. I don't know 
if anybody is here from Texas, but we are getting close to you.
    And now secondly I want to talk about the red tape, and 
former Senator Dorgan talked about 49 steps, you know, it took 
to get a lease through the BIA. Well, my testimony today I want 
to talk about, there are seven boxes, seven bureaus, not only 
just BIA but BLN, Fish and Wildlife, EPA, Army Corps, Honor, 
OST. And so 49 steps is in the BIA. If you add those, it is all 
over 100 if you put seven of those bureaus together.
    So that is entirely too much red tape, and there are many 
other tribal nations who are trying to get through those boxes. 
We were the guinea pig in 2007, so to speak, and so we have--we 
are experts on those, all those steps and how to fight through 
them because it is your economy you are trying to develop. And 
so we have firsthand experience. An oil company will contract a 
drilling rig about approximately $30,000 a day. If they don't 
have any permits that are ready to drill, APDs that have been 
approved by BIA and DLM, they will go off the reservation, and 
it will make a doughnut. And it will develop around you. So we 
are fully aware of that whole thing.
    So we would like to proposed, based on our experience now 
and there is going to be other tribes that are going to be 
asking for this and they should because we have all met, the 
Navajo Nation, the Northern Utes, all of the other--the 
Jicarillas, the Fort Peck, the Crows. All the other tribes are 
going to be asking for the same type of thing is to create a 
Denver office, and this Denver office then, you still have your 
agency office, your Bureau of Indian Affairs, at the local 
level, which you need to have to help process the leases. And 
then it goes to the BLM, and that, in our instance, it goes to 
the Dickenson Mile City in Billings and then back through 
Denver. Now, if EPA has some concerns or Fish and Wildlife, it 
will juggle back to Denver. To make a long story short, you are 
going through 100 steps to get back to you and say yes, it is 
okay to drill.
    So what we are proposing, there are 12 regions in the BIA 
that has an Indian country across the United States. So we in 
the Dakotas are an Aberdeen Region. All the Montana/Wyoming 
tribes are in the Billings and et cetera, et cetera. Everybody 
is in different boxes. This would consolidate it all into the 
Denver. So you do the local level. If you have questions about 
your leases or your permits for final approval, you would not 
go to Denver, Billings, Phoenix, or Albuquerque. Instead you 
would go to this Denver office which should have the--all of 
the experts instead of experts, you know, spread 12 different 
regions, you would have them in one office.
    And you would have to have somebody from Interior that has 
authority over those seven boxes, the BIA, the BLM, the EPA, 
the Fish and Wildlife. All of those seven boxes then would have 
to have somebody under the Secretary of Interior authority to 
say that instead of shuffling to Billings to Phoenix to 
whatever, you know, to get the permit done. If there are 
questions about endangered species under Fish and Wildlife, 
then work it out because you are all in Denver now. You don't 
have to go through 100 boxes.
    So, Mr. Chairman, we are really proposing that. That would 
really be a key for us. And then finally, I notice the yellow 
light, so the map. And we are at zero funding again as you can 
see on this map with the BIA. And the BLM has, excuse me, $40.7 
million increase, and we are at zero.
    I mean I just don't understand why they don't, you know, 
and then 180,000 barrels a day is more than most states. We are 
trying to--we are only 33 percent through this development, and 
this is a great quality fuel, and we have a refinery that we 
are building, the first refinery since 1976 to produce propane, 
diesel, jet fuel, gasoline, at a very good price to help, you 
know, less dependence on foreign oil. It is like somebody at 
BIA doesn't get it, you know. We have to have this assistance 
in this capacity building to help us. We should at least get 
the same increase. We are not asking for more than BLM or Fish 
and Wildlife. Give the Bureau of Indian Affairs oil and gas 
energy budget, the same kind of authority.
    And then I will close with law enforcement. This 20,000 
semis has increased crime and all of the activity. In Justice, 
DOJ, transfer those funds back to BIA. It is about $80 million 
of law enforcement monies that are at DOJ and that we have to 
compete for. Put that back into our BIA budget, and that would 
put more cops on, you know, on the ground for us. And it 
wouldn't be any increase in Appropriations. It would just be 
simply a transfer. Thank you very much, Chairman Calvert.
    [The statement of Tex Hall follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you, Mr. Hall. Mr. Dana ``Sam'' Buckles, 
Fort Peck Tribal Executive Director.
                              ----------                              

                                             Monday, April 7, 2014.

     THE ASSINIBOINE AND SIOUX TRIBES OF THE FORT PECK RESERVATION


                                WITNESS

DANA ``SAM'' BUCKLES
    Mr. Buckles. Good morning, Chairman Calvert, Ranking Member 
Moran, Members of the Subcommittee. Thank you for inviting me 
to testify today regarding the President's 2015 budget. My name 
is Dana Buckles. I am a member of the Executive Board of the 
Assiniboine and Sioux Tribes, Fort Peck Indian Reservation. As 
a former tribal police officer and environmental health 
technician for the tribes, I am familiar with health and safety 
issues facing our tribes. That is my focus today. I will cover 
issues of combating substance abuse and diabetes, addressing 
increased crime, and adequate funding for our rural water 
system. Fort Peck is located in the Northeastern part of 
Montana. The reservation consists of 2.1 million acres, and is 
a five hour drive from Billings, and about an hour and a half 
to Williston, North Dakota. Our reservation borders the Bakken 
and Three Forks Formations.
    The President's proposed increase of 1.2 for BIA programs 
and four percent increase for IHS is inadequate to meet these 
challenges, especially on a large rural reservation like Fort 
Peck. In addition, the President's 2015 budget for BIA 
endangers the health of our tribal members and residents for 
our surrounding communities by shorting our water system of 
nearly a million dollars in operations and maintenance costs. 
With oil and gas developments neighboring our reservation, we 
have seen both economic development, and the downsides of rapid 
growth. One downside is increased use of drugs, 
methamphetamine, and prescription drugs, which become 
increasingly available. Last month we had two babies born on 
the reservation who were addicted to meth.
    There are no tribal foster families trained to care for 
children born with meth addictions, so we had no choice to 
place them in foster families off our reservation who are 
qualified to care for these special needs babies. We ask the 
subcommittee to provide funds for 2015 to strengthen our tribal 
foster care programs. The IHS budget for substance abuse, 
alcohol, and family counseling is insufficient for needs.
    Also, more of our members have been diagnosed with 
diabetes. Our one dialysis center is too small to handle the 
growing numbers of members who require dialysis. IHS services 
and IHS construction funds must be increased to address this 
crisis. Drug related crime is also rising. Our chief of police 
estimates that 70 to 80 percent of criminal activity on our 
reservation is drug related. We have 16 police officers that 
patrol the entire reservation, and two officers who are full 
time drug enforcement agents. As you can imagine, it is tough 
for the tribal police to timely respond to emergency calls.
    With the help of the DOJ, we are completing construction of 
a new 88 detention facility in 2014, but the BIA has estimated 
it can only provide half the level required staff for 
corrections, and operations maintenance funding is also a 
concern to us. Will this new facility fall into disrepair due 
to lack of staffing, operations, and maintenance and repair 
funds?
    Finally, the President's budget request for BIA endangers 
both the tribe's rural water system and the availability for 
safe drinking water for our reservation residents, and for 
surrounding communities. Since 2001 we built a raw water intake 
pump station, a 30,000 square feet water treatment plant, then 
laid hundreds of miles of pipes to bring water to different 
communities on our reservation. Now we treat raw water from the 
Missouri River and distribute it to different communities on 
our reservation.
    Our system will soon connect to the Dry Prairie Rural Water 
System, which serves rural communities off the reservation. 
Once we are connected, Dry Prairie will eliminate these interim 
water resources and rely on the tribes' water system. At full 
build-out, we will serve over 30,000 Northeaster Montanans. The 
tribes have estimated operations and maintenance and repair 
costs for its water system in 2015 at 1.8 million. Without 
consulting us, the BIA operations funding for our rural water 
system next year is 750,000.
    Taking into account that 192,000 contribution from the Dry 
Prairie, the BIA funding is 900,000 less than we need to 
maintain our water system. A breakdown in the treatment would 
be felt on and off our reservation, and endanger ranches, 
farms, health clinics, schools, our dialysis center, 
businesses, and homes. We ask that you adequately fund BIA and 
IHS for the services and infrastructure so necessary to our 
community's health and safety. And thank you.
    [The statement of Dana ``Sam'' Buckles follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank the gentleman for his testimony.
    Next, Mr. David Gipp, Chancellor, United Tribes Technical 
College.
                              ----------                              

                                             Monday, April 7, 2014.

                    UNITED TRIBES TECHNICAL COLLEGE


                                WITNESS

DAVID GIPP
    Mr. Gipp. Thank you, Mr. Chairman. I have some additional 
handouts, which just basically brochures that I was not able to 
deliver earlier. I can provide further copies for the other 
members of the subcommittee. Mr. Chairman, thank you very much 
for the honor to testify. I would ask that our prepared 
testimony is accepted for the record.
    Mr. Calvert. Your full testimony will be accepted for the 
record. Everyone's testimony today will.
    Mr. Gipp. Thank you so much. I will summarize our three 
basic requests, and then I would like to elaborate a little bit 
within the time given about the school, and some other plans 
that we are working on.
    We have been in business for 45 years at United Tribes 
Technical College, originally United Tribes of North Dakota, 
and it was created by the tribes of North Dakota, as well as 
some of our tribes from South Dakota. We serve anywhere from 77 
to 85 different tribes in our student body, about 1,300 to 
1,500 students annually on a semester and summer basis, and we 
serve also roughly 400 to 450 children in our three early 
childhood centers on campus, as well as another 180 to 200 
students in our K through 8 elementary school. Our belief is to 
invest in the family, the whole family, if at all possible, and 
so the adults are attending school, the children are attending 
school. We have single adults as well.
    We occupy an old military fort that was built between 1900 
and 1910, originally called Fort Abraham Lincoln, not to be 
confused with the Fort Abraham Lincoln that Colonel Custer rode 
out and went west for, told the BIA to wait until he got back, 
and not do anything until then. Well, they are still waiting 
for his return. But, not to get into history here, Mr. 
Chairman, there are, I know, a few Custer buffs that are my 
friends in both Mandan and Bismarck, by the way.
    Our request covers $6.8 million in BIE funding under the 
Self Determination Act for both United Tribes and the Navajo 
Technical University. It is a line item in the BIA budget, and 
it is 2.5 million over the Administration's request. We are 
asking for a one time BIA forward funding for United Tribes and 
Navajo Tech, as well as the three Federally operated colleges. 
We were left out of the forward funding strategy about five, 
six years ago, when the rest of the tribal colleges were 
allowed to participate in forward funding. The details are in 
my testimony.
    Third, we are asking for Congressional support for a 
tribally administered law enforcement training center to be 
based at United Tribes. We have the support of our region of 
tribes, and many other tribes around the country. We have been 
working on this for well over 10 to 12 years, and that is based 
on the lack of law enforcement personnel within the whole 
Bureau of Indian Affairs, Law Enforcement Division. You heard 
Chairman Hall talk about the growth issues, and you heard him 
talk about the shortages of public safety. I will not go into 
all of those details. We have an existing program, but it is 
not yet adequate to be funded at the level that we need to to 
address some of the concerns of lack of public safety 
throughout Indian Country.
    We occupy, as I mentioned, buildings that are over 100 
years old. We have some new buildings. Our housing on campus is 
over 50 years old, and in some cases students occupy some of 
the old 100, 110 year old buildings, so we have a great need to 
expand. There is a big demand for us to train more and more 
Native students. I think I had mentioned that 51 percent of our 
population throughout Indian Country is now under the age of 
24. And if you go to Turtle Mountain, or other tribes, you will 
find that that 51 percent applies to those that are 18 and 
under. So you look at that, we have growth throughout Indian 
Country, and we need to address it. We need to upgrade our 
technology and our facilities throughout United Tribes.
    So I mentioned these things. The Administration has asked 
for about a 200,700 increase for United Tribes, and an increase 
for Navajo Tech University in their request. We receive funds 
from the Department of Ed, but it is not adequate to meet the 
total needs of training that I had mentioned.
    I mentioned the forward funding. We are trying to address 
some of the issues of Bakkan oil, and what is happening there. 
We have added back things like welding, electrical, 
construction technology, GIS training, small business 
management, and the list goes on. There is a great need for 
more and more training to address just the region that I am 
talking about, much less Western North Dakota. So I mentioned 
these things, and I have talked a little bit about the forward 
funding. We have been late in funding for FY '13 and '14. For 
this year, in the first six months, we received only 25 percent 
of our funds.
    Our successes, well, we have anywhere from an 85 percent 
retention rate, 77 to 100 percent placement rates, depending on 
which vocation you are talking about, and we offer about 25 
different programs, the one and two year programs, and three 
four-year degree programs as well. So we have an unduplicated 
count as we speak right now of about 1,391, not counting the 
children that I had mentioned. This Northern Plains Law 
Enforcement Academy is something that is very, very crucial to 
the well-being of Indian Country.
    So we ask that you take a look at our testimony, and look 
at the needs of these, as well as the other institutions.
    [The statement of David Gipp follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Calvert. Thank the gentleman for his testimony.
    Next, Mr. Ryan Wilson, President of the National Alliance 
to Save Native Languages.
                              ----------                              

                                             Monday, April 7, 2014.

               NATIONAL ALLIANCE TO SAVE NATIVE LANGUAGES


                                WITNESS

RYAN WILSON
    Mr. Wilson. Chairman Calvert, I thank you for this 
opportunity. Ranking Member Moran, thank you as well. 
Congresswoman McCollum, you know, appreciate all your support. 
And, again, Congressman Simpson, we thank you for coming to 
Pine Ridge, and for coming to Lakota Country several summers 
ago, and we would like you to talk him into coming over there 
as well. Yeah, we wanted to make sure the record was known also 
that Tex as named Tex before oil was found over there, you 
know.
    But, that being said, you have heard already a couple 
references to Native languages. That is what I am here to talk 
about, and I am going to be very brief, and fast, and get to 
the point as well. I am going to show you some research. I am 
also going to talk about what our request is, which is for a 
new demonstration project in the BIE to support immersion 
schools. And I am also going to kind of talk a little bit about 
that budget that they had rolled out recently. And, finally, 
the support, the broad based support that exists for it, you 
have already had a taste of it. As the days go on here, and as 
you receive other testimony, you are going to get a good sense 
that this is an idea that its time has come, and it could not 
come at a more important time, as a matter of fact.
    So, with that being said, if you read my testimony, you see 
we are requesting $3 million for demonstration projects for 
that. And this is not a request for new money, it is a request, 
actually, to repurpose existing resources there. They, as 
President Brewer indicated, had been teaching Native languages 
in schools for quite a long time, mostly using bilingual money 
from Department of Ed, mostly for an hour a day at various age 
levels.
    There are only three existing BIE schools that are engaged 
in this right now, in full immersion. That is Rock Point in 
Arizona, and Rough Rock in Arizona, and Niigaani School, Bug O 
Nay Ge Shig, that your colleague is very familiar with, in 
Minnesota. What we are asking is, those schools have received 
budget cuts from these budgets as well. There have been 
rollbacks on what they have been doing, and we are trying to 
protect that, but also expand. And we have got two schools in 
Pine Ridge, Wounded Knee School, and also Little Wound, that 
are interested in doing this. And there are a lot of other 
schools that are interested, but they have been prohibited by 
these rules. The promulgation of these regulations have really 
stunted that growth. And so this is basically what we are 
asking for here.
    So in my packet that I wanted to submit of support, this is 
being supported by the National Congress of American Indians, 
also the Great Plains Tribal Chairman's Association, who he is 
chairman of here, also the National Indian Education 
Association, and NCAI have released joint recommendations for 
the ESCA which call for immersion schools. We have also the 
United Tribes of North Dakota, and we have a joint policy paper 
that is presented by the National Indian School Board 
Association on Tribal Education Department's National Assembly 
and American Indian Higher Education Consortium to support this 
culturally based education approach too. So, with your 
permission, Chairman, I wanted to submit these for your record 
as well.
    And then, I am not going to go through this, but I am going 
to just briefly highlight this. I wanted to provide for you 
guys too, this is some of the most comprehensive literature 
review on the research supporting immersion schools. And I want 
to be very clear to the committee, I am not talking about 
teaching a language for a couple classes in a day. We are 
talking about using your heritage language as the medium of 
instruction for academic content as well. This is done by all 
of our best researchers in Indian Country. The educators that 
are presenting in the next couple days will corroborate, you 
know, a lot of this as well. So, with your permission, 
Chairman, I would like to submit this into your record as well.
    Mr. Calvert. Without objection, all testimony will be----
    Mr. Wilson. Thank you. I appreciate that. I am going to 
give this to you. This is a copy of our treaty, the Fort 
Laramie Treaty, and in Article 7, Article 13, you will see some 
of the education provisions in there. All of us talk about 
treaty rights, but I wanted you to have a copy of that too.
    So you know two things, these two streams of research. 
Everything we are doing now is not working. Not only isn't it 
working, it has been an abysmal failure. I think my colleagues 
would also attest to the restructuring of the Bureau of Indian 
Education from the BIA has been a complete failure as well. It 
is time to go ahead and say that. We should not be fearful in 
saying that. This, on scale, is not going to turn that failure 
around, but it will address a real critical need, and a 
critical mass of students that need that as well.
    With that being said, I am going to conclude. I want to 
give the committee this book also. This is an eyewitness 
account of Wounded Knee, so these are pictures. And so we have 
that old saying, a picture is worth 1,000 words, there are 
almost a million words in this book. But I wanted this to go to 
the committee. And I am going to just share real quick that my 
great-grandmother was 10 years old when this happened. She 
helped take care of me and my younger sister when my mom was 
teaching at our tribal college, not a bitter person at all. Her 
name was Julia Genese. Our old--back here are familiar with 
her, but her sons, she sent four of them to World War II. They 
all were decorated. They all came back alive and well, very 
patriotic people. They are part of that similar generation that 
you guys just recognized, our code talkers. My grandpa and his 
brothers were not code talkers, but they served with other 
Native American code talkers.
    These are people that did everything for this country. And 
it is really an important thing, I think for us to kind of 
recognize that. This happened because we were simply talking 
our language, and practicing our religion, our spiritual 
beliefs. And this did not happen very long ago, so I wanted to 
just give this to you guys as well. So, with that, I am happy 
to close, and answer any questions that the committee may have.
    [The statement of Ryan Wilson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Certainly. I thank the gentleman for his 
statement, and I am sure there will be a number of questions. I 
think I will start on this one.
    Mr. Hall, a fantastic success, and I know you are 
frustrated. I think I talked to you a number of years ago on 
the permitting frustrations that you are having up there. But 
you have made enormous progress--180,000 barrels a day. Are you 
working with one primary, or are you working with a whole 
number of independent petroleum producers, just a mix of folks? 
And I am just curious about the royalties that you are able to 
provide for your nation. How has that been working out?
    Mr. Hall. Chairman, that is a great question, and it really 
is a management issue, and it is boots on the ground. Oil does 
not sleep. You have to manage it seven days a week, and we have 
regular scheduled monthly meetings with all of our oil and gas 
partners. So we look at it as a partnership, and it is a 
triangle. You have the tribe, and its regulatory authority, and 
its landowners, because we have allotments too. So we are 70 
percent allotted, 30 percent tribal minerals, and then you have 
the oil companies, and you have the Feds. So that triangle 
really needs to be, you know, always looked at, discussed.
    And so when we meet with the oil companies, we ask them, 
you know, do you have any concerns in the permitting, in the 
leasing on the rights of ways? And they will let us know, 
because that is their job. That is their business, and they 
will be very straightforward about--we have a backlog, they 
will say, for example, in permits or right of ways. Then we ask 
the Feds, and they may say, no, we do not have any backlog. So 
then you have to get right down to, let us do a spreadsheet.
    Every oil company, you let us know, is it a right of way, 
and what is the land description? You know, is it for a well 
pad, is it for a road, is it for a pipeline? What is it? And 
then we put that on a spreadsheet, then we give it to the Feds, 
the BIA, the BLM, all the Feds. And then we say, you said there 
was no backlog, well, we say there is, here is the spreadsheet. 
So we have to get right down to the science in order to cut 
through all of the red tape, and then try to get success that 
way. So it has been pretty successful for us to get through.
    And I do have a copy of that Denver office, there are 
copies of the resolution----
    Mr. Calvert. Submit that for the record also, and----
    Mr. Hall. Thank you, Chairman.
    Mr. Calvert [continuing]. We will look at it. Thank you. 
Let's see. Other questions?
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. I have some.
    Mr. Calvert. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. I have got a couple of 
questions, and I am going to ask you gentlemen to help me get 
through my questions by being brief.
    So, Mr. Hall, you mentioned about doing propane.
    Mr. Hall. Yes.
    Ms. McCollum. So does that mean you will not be flaring 
off? With all the flares, the Bakkan is lighting up larger than 
the Twin Cities. We are a little unhappy about you showing up 
bigger on a map than we do.
    Mr. Hall. I saw that.
    Ms. McCollum. So your intention is not to waste anything, 
is that correct?
    Mr. Hall. Right, absolutely, Congresswoman McCollum. We are 
very concerned, and we are at 70 percent flaring, and it is 
because there was no infrastructure in place. There was no 
natural gas pipelines. And so we are at a feasibility stage to 
do a study to see how much, you know, what location, and where 
could a possible gathering system and a natural gas plant be 
developed. And once we get to that stage, we are going to build 
a natural gas plant and a power plant, and we are going to 
start developing our own electricity using natural gas, and 
maybe it is going to be co-gen with solar or wind----
    Ms. McCollum. Um-hum.
    Mr. Hall [continuing]. As well. And so that way it is 
continuous power. There is no reason that Native homes, or any 
home, should have to be at a shortage for propane or fuel, or 
pay high electricity costs.
    Ms. McCollum. Thank you. And propane prices were at record 
high this year, as was pointed out in earlier testimony.
    It is a shame that we would lose Native languages not only 
just for the First Americans, but to lose the languages that 
saved lives during World War II, and really, many would argue, 
affected the outcome of World War II. What a shame for our 
history, for our culture, to let that go.
    The immersion schools that you are talking about, Mr. 
Wilson, you have to have tribal input on the immersion schools. 
The tribes would petition to do that, because you need 
significant numbers of elders who can talk and speak the 
language. We do immersion schools in public schools for French. 
There is an immersion school for German not that far from my 
house, ones for Spanish and many others. So this is not an 
unusual concept to teach a language this way. But if you could 
comment, one of the things that we found out at Leech Lake was, 
that, without the immersion school, just doing the hour or two 
isn't enough. At home, many of these children's parents were 
not given the opportunity to learn their language, so there is 
no reinforcement outside. That is why the immersion school is 
more important, and it draws the parents in to learn the 
language as well. Would you comment on that for a second?
    Mr. Wilson. Well, that is a good model. And so what we are 
saying is, because there is a moratorium on building and 
creating new BIE schools is, we create these demonstration and 
immersion magnet schools within existing schools. And so I laid 
out the three schools that are already doing this that are 
successful. It works. They have high parental involvement, high 
professionals that are involved as well.
    I think it is very important for this committee to 
understand too that Secretary Jewell has asked for hundreds of 
millions of dollars in new resources under the auspices of 
saving national treasures, saving these historical sites, these 
things. These are still living, and not only can they be saved, 
and should they be saved, it is the best academic approach that 
we have right now, and culturally based education, it is really 
shown to work.
    Ms. McCollum. Mr. Chair, if you will indulge me, I think 
this will be a quick answer.
    Mr. Calvert. Okay.
    Ms. McCollum. Mr. Gipp, one of the things that I heard, 
because we are close to the Bakkan too, is that Minnesota's 
trade schools are having a hard time keeping teachers in 
carpentry, in pipe fitting, and some of the other things that 
they are asking for. These instructors can make so much more 
money out on the field, but yet we still need young students. 
So my two questions are, one, are you working with any of the 
building trade councils around in your area to help with this, 
and then two, will your law enforcement also include law 
enforcement for natural resources?
    Mr. Gipp. Right now, quick answer, excuse me, quick answer 
on the impact on jobs, yes, we are having to be much more 
competitive for teachers and instructors. We are looking for a 
lot of retirees who would want to come out and teach. But, the 
point being is we have to work with the associations. We have 
to work with the unions. We work with employers as well to try 
to set up more congruent partnerships. It is very critical, but 
the competition is on for people, because they can go and make 
much, much bigger money. That is the issue. As to the law 
enforcement issue, that would be an element of the overall 
curriculum that we hope to provide, if we had adequate support 
for that effort.
    I should add one more thing, Mr. Chairman, and members of 
the committee. Chairman Hall is also a chairman of our Board of 
Directors for the North Dakota and South Dakota tribes, so we 
appreciate the help that they give us as well.
    Mr. Calvert. Thank the gentleman. I imagine there is almost 
no unemployment up in North Dakota right now. Booming along.
    Mr. Wilson. We do need the skills, though.
    Mr. Gipp. Need the skills, right.
    Mr. Simpson. And housing costs are a little expensive in 
North Dakota now also.
    Mr. Wilson. 2,700 a month.
    Mr. Simpson. Ryan, thank you for being here today, and this 
focus on education is very important, and these immersion 
skills are, I think, vitally important to preserving a culture, 
one that we cannot let die. And have you seen any improvement 
to the Federal Government's support for Native languages and 
preservation since the 2012 MIU between the BIE, the Department 
of Education, and HHS?
    Mr. Wilson. No, not at all. We have been on this slide, and 
you can see it, one, just reading through the budgets, but also 
through their application of No Child Left Behind, where they 
are letting everybody else have waivers. That has not been the 
case. And they are moving towards this unified AYP system. It 
is very oppressive. And it is confusing in Indian Country, 
because, one, they are managing the schools, and they are also 
evaluating the schools, so it is like one finger talking to the 
other and scolding each other.
    Mr. Simpson. That is what I like to do with my wife.
    Mr. Wilson. Yeah. Yeah, exactly. I do not want to be one-
upped by Dr. Gipp, so I will also acknowledge Chairman Hall is 
on our Board for National Alliance to Save Native Languages 
also. But you guys could fix this in your report language. You 
could fix this, and get us going in the right direction, and 
let us close the deal that was started, you know, in the '60s 
by Rough Rock.
    Mr. Simpson. As I said, I went out to Fort Hall reservation 
when they started this immersion school out there, which is 
fascinating. I am going to go back either this spring, or 
sometime--and see how they are getting along with it.
    But, David, you mentioned that you want to start an officer 
training program?
    Mr. Gipp. Yes.
    Mr. Simpson. Most of the tribal officers that I know now 
on--I do not know if it is true across the country, but in 
Idaho, anyway, they go to the State Academy----
    Mr. Gipp. State Academies probably, yeah.
    Mr. Simpson [continuing]. That helps, if they have gone to 
the State Academy, to get cross-jurisdictional agreements in 
place with counties. Are you worried that, if you start this 
program, that they will not have gone through the State 
approved program? What would you do to make sure that they 
still have that ability to be recognized by the State? Because 
part of this problem is allowing tribes to be able to manage 
their own affairs on their own lands, and that means cross-
jurisdictional stuff between counties, and so forth.
    Mr. Gipp. Right. Good question, Mr. Chairman. We are post-
Board approved by the State of North Dakota by the Attorney 
General's Office, so in most cases, whether they are going to 
another State or not, they will be accepted. The second thing 
is we have conformed our curriculum to match up that of 
Artesia's. What we need, though, is greater cooperation from 
the Bureau of Indian Affairs, and that really is not happening 
as it should be.
    Mr. Simpson. Okay. Great. Just one other question, quickly, 
if I could, and you can answer these probably pretty quickly, 
Tex. Who owns the land of the reservations?
    Mr. Hall. In the Southwest it is primarily tribal land. Up 
in the Northern Plains, we are a combination of allotments, so 
it is individual Indian trust allotments, which is 70 percent, 
and then 30 percent tribals, so that is----
    Mr. Simpson. But those allotments, you control the 
reservation, and the laws on the laws on the reservation.
    Mr. Hall. That is correct. The tribe has the regulatory 
authority to, you know, to pass regulations for anything for 
the oil and gas for water usage, flaring----
    Mr. Simpson. Are you competent to make decisions of what is 
in the best interest of your tribe on your own lands?
    Mr. Hall. Absolutely, and we have a vested interest because 
we live there. We drink the water, we breathe the air, and we 
are going to pass it down to the next generation.
    Mr. Simpson. That is what frustrates me, is we have so many 
Federal agencies telling you what to do on your land, and I 
think we have got to change that.
    Mr. Hall. And they do not even live there. They are trying 
to tell us from Washington, or from Denver, or wherever else.
    Mr. Calvert. I thank this panel for your testimony. I 
appreciate your coming out here today. Mr. Simpson is going to 
take over for a couple of minutes while I have a little 
meeting.
    Mr. Simpson. Thank you, Mr. Chairman. Thank you for being 
here today. We appreciate it very much.
    Next we have Mr. Ben Shelly, President of the Navajo 
Nation, and Mr. Walter Phelps, Chairman of the Navajo Hopi Land 
Commission.
    Ms. McCollum. Mr. Simpson, while the panel is coming up, 
the Esther Martinez Language Revitalization Act needs to be 
reauthorized. You know how sometimes we have problems in the 
full committee when we go to give the resources out to the 
right line item, and that has not been reauthorized yet. So we 
should talk to the policy committee. I will on my side, if you 
could on your side, please.
    Mr. Simpson. Sure.
    Thank you both for being here today. Ben, you are up first.
                              ----------                              

                                             Monday, April 7, 2014.

                             NAVAJO NATION


                                WITNESS

BEN SHELLY
    Mr. Shelly. Wow. I should have been up before Tex Hall. 
Just because he has oil does not mean he gets first crack. I 
have more oil than he has. All right.
    I would like to go ahead and continue testifying here to 
you, Mr. Chairman, and also the committee, and Madam 
Congresswoman, and all of you. Thank you for allowing us to 
state our concerns, and bring a budget to you. My testimony 
this morning will focus on five major budget topics, reflecting 
the Navajo Nation Federal budget priority to strengthen 
sovereignty.
    The Navajo Nation, like the majority of the tribe, relies 
heavily on Federal. Two thirds of our budget comes from the 
Federal budget, through the 638 grants program. One thing I 
would like to say is the Navajo Nation thanks this body for 
recommending the full funding of contract support costs, and 
that really helps quite a bit.
    The first priority is natural resources. We talked about 
natural resources here a while ago. The Navajo Nation advocates 
for an increase in the natural resource management line item. 
This is where the large land-based tribe can see real progress, 
and we can progress. We have abundant natural resources, you 
would not believe. Regulatory approval and permit requirements 
have always been a burden. It is the red tape of the Federal 
Government, and we cannot do it ourselves, always have to go to 
the Federal Government for this. And this is something that is 
really plaguing us at this point in time. Funding this line 
item will allow us to use our resources the right ways, to 
create jobs and revenue.
    The second one is public safety and justice. We need to 
safeguard our tribal laws and order. Assistant Tribe agreed 
that this is a top priority. As you know, the ratio of police 
on the reservation is one police officer for 10,000. In our 
land, this is the size of West Virginia. Three states in the 
Union were bigger than that. With other areas, there are 22 
officers per 10,000, compared to ours, one officer per 10,000.
    There are currently 280 commissioned officers on this 
great, wonderful land of ours, 27,000 square mile Navajo 
Nation. Our Tribal Court on the Navajo Nation are considered 
the benchmark of Tribal Court system. We have the best courts, 
judicial system, and it has been tested here. It has been 
amended through the Congress here, and we had the best, we 
believe that.
    Despite being a 93-638 contract, the Navajo Nation funds 
over 91 percent of the court costs, and the Federal Government 
funds only eight percent. We cannot continue to operate--
critical piece of Federal law, such as the Tribal Law and Order 
Act and Violence Against Women Act, without full support and 
funding. The bipartisan Law and Order Commission released a 
recent report to Congress recommending sufficient funds to be 
directed to Indian Country law enforcement to address immediate 
public safety needs. The Navajo Nation fully support the 
finding of the commission, the administration public safety 
recommendation to increase the overall public safety in just 
this line item. Most of these increase goes to fire safety.
    Third, health, for most of the Navajo Nation, IHS is the 
only healthcare facility option. We ask that funding for IHS be 
allocated, with the priority being facility and direct service. 
One of the funding facility within the President's request is 
the Kayenta Arizona Healthcare Center. We, with the completion 
of this facility, will provide quality healthcare to over 
19,000 people. The Navajo Nation support the proposed 
opportunity growth and security initiative, which includes an 
additional 200 million for construction of Indian Health.
    Regarding education, more than a third of our tribal 
citizens are younger than 18 years old. The Navajo Nation 
awarded scholarship over 3,500 students, but received more than 
17,000 applicants a year. We had to turn away 60 percent of 
these seeking financial assistance. Some of the funding comes 
from BIA higher education and grant program. Also, the money is 
often delayed due to continued resolution. Whose fault is that 
here? So when this happens, we get into a lot of mess. To fix 
this problem, Congress should forward fund this line item. 
Other educational programs operate this way. The Navajo 
National fully supports the Administration proposal for the 
ongoing evaluation of the Bureau of Indian Education System.
    The Navajo Nation has the largest numbers of Federal funded 
school, 66 out of 183, over a third. And we also support the 
funding of the Johnson-O'Malley Program. The JOM Program serves 
more than 49,000 eligible students, age through 12th grade, on 
or near the Navajo Nation reservation.
    Lastly, the Navajo Nation have critical environmental 
needs. The Navajo Nation have faced many hurdle with burdens 
and Federal regulation. Again, thanks--here. We ask that 
resources be put forth to assist tribal coal basis. We have 200 
years of coal, natural gas, and we have oil--to invest in both 
cleaner coal technology, we are happy for that, and renewable 
projects. We have a power plant. We own a coal mine now. We 
would like to go to cleaner technology of coal.
    Also, the Navajo Nation continues to live with the Cold War 
legacy of uranium mining, as you have heard, that we endorsed 
$1 billion that is going to clean up 49 uranium mines. Of the 
up to nearly 500 abandoned uranium mine sites located 
throughout the Navajo Nation, only one has been fully assessed. 
The Navajo Nation requests the Federal Government fully fund 
the ongoing five year plan conducted by the EPA in cleanup. 
This is what is so bad about having papers. Where is my iPad? 
Okay. We also ask for funding for long term comprehensive 
health assessment, and research on the impact of uranium mining 
on the Navajo Nation. There are over 100 left. 49 is just a 
part of it.
    In conclusion, the Navajo Nation subsidizes a majority of 
the Federal trust responsibility. All of our general fund is to 
subsidize Federal responsibilities, these Federal programs. It 
is hurting us quite a bit. The priority outlines the Navajo 
Nation seeks to strengthen the sacred trust relationship and 
assist the Navajo Nation in promoting self-sufficient tribal 
sovereignty.
    The Navajo Nation has a lot of educated kids who are coming 
back. Our young grandkids are coming back with Bachelor 
Degrees, Master's Degrees. We have an abundance of young people 
that can rebuild this nation. And they are talking. When I 
listen to them talk, in 30 years to 40 years from now, the 
Navajo Nation could declare independence as a state. And I 
think this is what they are asking for, and right now is the 
best time to start promoting self-sufficient true sovereignty 
of a nation. Let us regulate ourselves. Let us be the landlord 
of our reservation. Let us do what we need to do with our 
natural resources to create jobs and revenue for our nation. 
This is where we are at. We are growing. We will be a million 
people that are all in the nation. So, again, this is the 
vision of the young people, and I wanted to be here to endorse 
their ideas, and I hope you do too.
    And, again, thank you very much for listening to our 
testimony here.
    [The statement of Ben Shelly follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. I thank the gentleman for his testimony.
    Next, Mr. Walter Phelps, Chairman of the Navajo Hopi Land 
Commission.
                              ----------                              

                                             Monday, April 7, 2014.

                      NAVAJO HOPI LAND COMMISSION


                                WITNESS

WALTER PHELPS
    Mr. Phelps. Chairman Calvert, honorable members of the 
subcommittee, thank you this morning for giving us this 
opportunity to provide testimony. On behalf of the Navajo Hopi 
Land Commission of the Navajo Nation Council, my name is Walter 
Phelps. I am Chair of the Navajo Hope Land Commission, and the 
commission is entrusted with addressing ongoing effects of two 
Federal actions, first, the relocation of Federal Government of 
nearly 15,000 Navajos off their ancestral lands. Second, the 
well-being of 12,000 Navajos living in the former Bennett 
Freeze area, where a strict 40 year construction freeze left a 
desperate need for rehabilitation and reconstruction. This past 
year this subcommittee investigated the relocation program. We 
thank you for your interest, and encourage your continued 
oversight of the Office of the Navajo Hopi Indian Relocation.
    The Office of Navajo Hopi Indian Relocation is relocating 
approximately 10 to 12 families per year. There are 
approximately 100 certified applicants awaiting relocation. 
Perhaps 10 or so of these are in the contract stage, and can 
expect a home in the next year. The rest will have to wait for 
another decade. Meanwhile, we project at least another 100 
families will be deemed eligible, perhaps more.
    To address these long delays, in addition to the 
President's request of approximately $8.5 million, we ask the 
subcommittee to seriously consider an additional allocation of 
$13 million to the Office of Navajo Hopi Indian Relocation for 
the sole purpose of addressing and clearing up the backlog, so 
that the additional money would explicitly be restricted for 
building homes and related infrastructure. We also request a 
GAO study of ways that ONHIR could be made more efficient, and 
how it could be reoriented to focus on home construction, 
rather than denying eligibility through a costly appeals 
process.
    As to the former Bennett Freeze area, we believe there is a 
need for a sustained rehabilitation and reconstruction program 
be implemented for a decade or more. Key needs including 
housing, related infrastructure, solid waste facilities, fire 
department facilities, telecommunication facilities, assisted 
living centers for senior citizens, and improved community 
facilities, such as cemeteries and recreation parks.
    Finding resources for proper maintenance of roads within 
each of these communities is a huge challenge. Similar to the 
Promise Zone initiated under HUD, which benefits impoverished 
communities in the U.S., the Land Commission continues to 
advocate for a Navajo sovereignty empowerment designation. The 
Navajo Nation asks the subcommittee to support an increase in 
funding housing related improvements in the former Bennett 
Freeze of $20 million in FY 2015.
    We request that the subcommittee require the Department of 
Interior to conduct a study and furnish a report regarding 
lease payments due the Navajo Nation to the Hopi Tribe. The BIA 
delayed for years making these determinations, resulting in 
huge interest payment obligations on the part of Navajo Nation.
    We would also ask that the subcommittee include report 
language that would establish a DOI task force to undertake a 
review of Interior programs, inclusive of the BIA Bureau of 
Reclamation, U.S. Geological Survey, U.S. Fish and Wildlife 
Services, Office of Surface Mining, that could assist the 
Navajo Nation in creating jobs, support workforce development, 
with the goal to strengthen the impact of Navajo chapters.
    Additionally, the focus of rural water authority under 
their reclamation was somewhat changed, effectively frustrating 
ongoing collaborations working with the Navajo Nation's 
initiatives involving rural water delivery. The Bureau of 
Reclamation must continue work with the Navajo Nation to 
complete studies on how it can bring resources of scale to the 
Navajo Nation.
    Although the Navajo Hopi land dispute and Bennett Freeze 
are painful issues, I thank this subcommittee for this 
opportunity to provide testimony on a path forward to ensure 
that the many Navajo families who have suffered as a result of 
these Federal actions can hope for a better life. Thank you.
    [The statement of Walter Phelps follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. I thank the gentleman for his statement. I 
apologize, I was out for a few minutes, so I missed most of 
your statement, Mr. Shelly. I apologize for that. But I am just 
curious, how many tribal members do you have now?
    Mr. Shelly. We have a total of, off reservation, on 
reservation, about 300,000. And we are foreseeing projecting 
about 15,000--close to a million. So that is how fast we are 
growing. And you cannot afford us when we get to a million, so 
you better start doing something here right now.
    Mr. Calvert. How many square miles is in the Navajo 
reservation?
    Mr. Shelly. 27,000 square miles.
    Mr. Calvert. 27,000 square----
    Mr. Shelly. Um-hum.
    Mr. Calvert [continuing]. Miles. I have been on it a long 
time ago now, but I want--get back over there. Okay. Some 
questions? Ms. McCollum?
    Ms. McCollum. Thank you. Mr. Shelly, there was recently, 
and I think you alluded to it in your testimony, a settlement 
of some of the cleanup for some of the uranium mining. Could 
you gentlemen comment on that a little farther? I was at some 
early meetings almost five years ago. Mr. Udall was leading 
them, and we had to get Housing, and EPA, and everybody in a 
room all around the table, because everybody was pointing 
fingers with each other.
    I know this does not address everything, but do you think 
the process that we have in place is a good way forward? Any 
suggestions or comments you might want to give the committee?
    Mr. Shelly. Yeah. The $1 billion that came through, we have 
been fighting for cleanup for years and years. This is an issue 
that the Navajo Nations have been pursuing, and I am glad to 
hear that some part of that settlement for the lawsuit, the 
people that caused the contamination and the open pit mine, 
have come through with a settlement from the judgment of $1 
billion for 49 mines only. We have over 100 still out there 
yet, and we are still faced with that. We have the EML, which 
is subsidized by mined coal, and that is something that we 
still need to have that coming through so that we can use that 
money to clean up the rest of the 100.
    One thing I would like to mention here is that this $1 
billion for cleanup of 49 mines, we had a Superfund. We have 
been training our Navajos to be qualified to work with uranium. 
It is supposed to create jobs for the Navajo people, but we 
have a Superfund that comes through that does training. We have 
19 using Superfund, and we are trained by the people to handle 
uranium. This is pertaining to Church Rock cleanup. That is the 
general--going to do a cleanup. We are just waiting for a 
permit to have to go-ahead to do it. So, again, through all 
this program, Superfund training our Navajos to understand 
uranium.
    Believe it or not, we have a large deposit of uranium on 
the Navajo reservation too. I do not put that in there, because 
it is mandated that we do not talk about uranium. We outlawed 
that. So maybe by educating our young people what uranium is 
all about, and how to handle it, you might open the door for 
paths. We have a rich ore. I will tell you, we are sitting on 
one of those. So, again, it is a creation of jobs, and 
educating our Navajo people about uranium, what they are. See, 
right now it is unknown to them, so what they read in the paper 
is what it is. So, again, thank you.
    Mr. Simpson. Maybe the most honest statement that has ever 
been made in Congress, you cannot afford us.
    Mr. Shelly. We are all growing. Remember that, we 
reproduce. The Lord says----
    Mr. Simpson. I was going to make it out to the Navajo 
reservation, I think it was the summer before last now, and it 
got interrupted, and we did not get there. But it is a place I 
still want to go, and I am sure members of the committee would 
still like to go, and see it, and talk to you about it on site, 
because you actually learn quite a bit when you are actually 
out there, rather than talking about it right here.
    Mr. Shelly. Call me.
    Mr. Simpson. So if the committee does not go--and I have 
talked with Chairman Calvert, and he is interested also. But 
this is my question. I am still trying to wrap my head around 
this Navajo Hopi land settlement and the commission. 8.5 
million dollars is requested this year, plus you would like 13 
million to address the backlog in one time funds. 8.5 million, 
and we are relocating 10 to 12 families.
    Mr. Phelps. Right.
    Mr. Simpson. Either that is some really expensive homes, or 
there is an awful lot of this money that is not being used to 
build homes, but is being used in court.
    Mr. Phelps. That is correct, sir.
    Mr. Simpson. How do we change that? I have no problem 
meeting our obligations, and building homes, and doing the 
necessary things. I really hate spending money in court. How do 
we address that so we can use the resources to actually do some 
good?
    Mr. Phelps. Am I allowed to answer?
    Mr. Simpson. Yes. Please answer.
    Mr. Calvert. The gentleman is recognized.
    Mr. Phelps. Thank you, Honorable Simpson, for your 
question. Yes, that is a big concern to us, because we see it 
as, the focus of a government agency that was established to 
relocate is now spending most of its time processing appeals, 
and handling, you know, the applications that are being 
submitted are all being challenged internally by the agency 
itself. They have their own attorneys, they have their own 
Judges, all internally, and that is a big concern to us. And 
that is why we do support oversight, and maybe even the 
appointment of a commissioner. There has not been a 
commissioner for over 10 years or 15 years now. There needs to 
be a commissioner appointed over the Hopi Indian Relocation 
Office.
    Mr. Simpson. Well, I look forward to working with you as we 
try to resolve this, because I do not think anybody on this 
committee has any problem with doing what we are obligated to 
do.
    Mr. Phelps. Yeah.
    Mr. Simpson. But we would like the resources at a time of 
decreasing budgets, and I am trying to find money to build new 
schools among other things in Indian Country, so it is 
disappointing to see so few homes being built with the amount 
of money that we are putting into it, which gives us a 
resistance to try to put more money into it.
    Mr. Calvert. You should look into----
    Mr. Simpson. Yeah.
    Mr. Calvert [continuing]. Some language----
    Mr. Simpson. I look forward to working with you to solve 
the problem.
    Mr. Calvert. Yeah. Let us hope we streamline this process. 
Okay. Mr. Moran.
    Mr. Moran. No, I am good, just----
    Mr. Calvert. Okay.
    Mr. Moran. I want to thank Mr. Simpson for raising the 
issue. I mean, it just boggles the mind.
    Mr. Calvert. Yeah. Hopefully we can come up with some 
language, maybe, that will help that process be less crazy. I 
appreciate the two of you being here today, and we look forward 
to our next panel. Thank you very much.
    Mr. Phelps. Thank you.
    Mr. Calvert. Next is Mr. Michael Chavarria, Governor of the 
Santa Clara Pueblo, and Mr. Fred Vallo, Senior, Governor of the 
Acoma Pueblo.
    Mr. Vallo. Acoma.
    Mr. Calvert. Acoma Pueblo. Good morning.
    Mr. Chavarria. Good morning.
    Mr. Vallo. Good morning.
    Mr. Calvert. We are operating under the five minute rule, 
which we have been trying to stick to. So when the green light 
is on, you are fine, and when the yellow light is on, you have 
got one minute left. Kind of gives you the go, and slow down, 
and stop, or hurry up, whatever way you want to look at it. 
With that, Michael, you are recognized. Michael Chavarria, 
Governor of the Santa Clara Pueblo.
                              ----------                              

                                             Monday, April 7, 2014.

                           SANTA CLARA PUEBLO


                                WITNESS

MICHAEL CHAVARRIA
    Mr. Chavarria. All right. Good morning, Chairman, members 
of the committee. I appreciate the opportunity to testify 
before you today. What I said in my native language, which is 
Tewa, is thank you for the opportunity for being here, and 
that, as we move forward, we work together on these various 
issues, come together from the local agency here to Washington, 
D.C.
    My name is J. Michael Chavarria. I am the Governor of Santa 
Clara Pueblo, but also serve as Chairman for the eight Northern 
Indian Pueblos Council there in New Mexico. I will testify on 
four areas this morning. First is the emergency disaster 
funding, appropriations for the IHS joint venture construction 
program. Talk a little bit on the Tribal Forest Protection Act, 
stewardship contracting, and then IHS and BIA.
    In the summer of 2011, Santa Clara Pueblo was impacted by 
the Las Conchas Fire. At the time, in 2011, it was the largest 
fire in New Mexico history. Although no lives were lost, many 
of our traditional cultural properties, watershed, our 
commercial timber, was impacted by the fire. Roughly 16,000 
acres were impacted by this fire in 2011. The Santa Clara 
Canyon is our spiritual sanctuary, a place that we hold dear to 
our hearts.
    Santa Clara Pueblo has been impacted by four fires over the 
last decade. These fires stem from coming off the reservation, 
and that is why we are looking into how do we get 
appropriations for the stewardship contracting and Tribal 
Forest Protection Act. This Act was enacted in 2004. Public Law 
108-278 authorizes the Secretaries of Agriculture and Interior 
to give special consideration to tribally proposed stewardship 
contracting on Forest Service or BLM lands which border, or are 
adjacent to, Indian trust land to protect the Indian trust 
resource from fire, disease, and other threats coming from 
forests and BLM lands.
    The stewardship contracting is very important to empower 
the tribes as a caretaker to protect the tribal lands, but also 
the traditional cultural properties from future impacts, such 
as fire, so we urge the committee to support the expansion and 
appropriations of this program, both at the Department of 
Agriculture and the Interior.
    Santa Clara Pueblo is also engaged in discussions with the 
Indian Health Service, or Santa Fe Service Unit, in Santa Fe, 
New Mexico, talking about refunding the joint venture 
construction program for the Indian Health Service. From 2007 
to 2009, our annual patient visits at the Health Center in 
Santa Clara, from 2007 was 14,878, and in 2009, jumped up to 
27,000, roughly 87 percent. Our little facility is not in a 
position to handle those extra patients coming to the Santa 
Clara Health Center. Santa Clara is looking at constructing a 
new health facility, however, we need some funding in the joint 
venture program which will provide the IHS to provide staffing 
for this facility.
    Right now our staffing needs is very important. We do have 
an adult day care regional facility there in Santa Clara 
Pueblo, but in order to help grandma and grandpa, and our 
constituents, we do need an additional health care facility to 
cover those 87 percent of additional patients we are seeing. 
Right now Santa Clara Pueblo has retained consultants to give 
us advice and to design a new facility.
    And then, also, looking at the least payments, I know right 
now there is a joint venture program. If the tribe builds it, 
there are staffing needs, but yet the tribe cannot recoup any 
costs through any type of lease payments through this joint 
venture program.
    The Tribal Forest Protection Act, as I mentioned, is very 
important. This is going to protect our future remaining green 
stands of timber, the impact of our commercial forest. So right 
now we still face the imminent threat of flooding. We have four 
Presidential disaster declarations there Santa Clara Pueblo, 
totaling $200 million. Our match is almost $10 million to cover 
those four disasters. Right now, working with FEMA, we are part 
of the National Disaster Recovery Framework, NDRF. This 
framework helps to then bring in all the agencies, utilizing 
their existing authorities within to help support these 
mitigation efforts on behalf of the Pueblo.
    My biggest need today is a temporary dam to be constructed 
through the advance measures program from the Corps of 
Engineers as a temporary type of structure, which is $40 
million. Through this advance measures program, within the 
existing authority of the Corps, hopefully allow, then, the 
Pueblo to build this facility at 100 percent Federally funded.
    As I mentioned, if we add on another 40 million, that 
brings us now to $240 million in damages. My tribe is in a 
financial hardship at this time. We have also partnered with 
the Corps to the 205 authority, to the 203 authority. We looked 
at various existing authorities within. One of the things we 
are looking at, though, is through WRDA, Water Resources 
Development Act, is to see if there are any languages to then 
limit that cost match, or find out how the tribe can be in a 
position to cover these type of costs.
    We are in a life and death situation. I do not know what to 
expect, knock on wood, this upcoming what we call monsoon 
season, from July through September. But with the Corps, what 
they say a 100 year flood event, 20,000 cubic feet per second 
coming down a little creek, while on a given day, it is only 
five to seven cubic feet per second. So where is that other 
additional 12,000 CFS going to go? Well, that is going to 
impact our adult day care center, our tribal government, our 
Head Start, our day school, community members, where they do 
not have any type of flood insurance.
    So it is very important that we look at these different 
authorities that we do have as a trustee from the Federal 
agencies to support our needs there in Santa Clara Pueblo. We 
appreciate the 100 percent of the contract support cost to 
support the BIA and IHS, however, I feel that we need new 
monies to be appropriated, because right now it was given back 
to both IHS and BIA to look at the 100 percent coming from the 
direct funding we got in the current FY '14 budget. So I think 
we need to find new ways of how do we get new monies in there, 
because we have got to take within our direct budgets, we are 
not in a position to adequately provide the program services--
--
    Mr. Calvert. We will take a look at that.
    Mr. Chavarria. And I thank you.
    [The statement of Michael Chavarria follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. I appreciate your opening statement.
    Next, Mr. Fred Vallo, Senior. You are recognized.
                              ----------                              

                                             Monday, April 7, 2014.

                              ACOMA PUEBLO


                                WITNESS

FRED VALLO, SR.
    Mr. Vallo. Thank you, Chairman. I just have a small 
presentation this morning. You have received my written 
statements, and there is more detail in that written statement. 
However, I do want to express that I represent a small tribe of 
Pueblo in Southwest New Mexico, the Pueblo of Acoma, and, 
contrary to the Navajo Nation, you can still afford us. I 
represent about 4,800 of my tribal members, and my governorship 
is appointed. I am not a politician. I do not run for the 
office. It is just, you are it this year, so I am it.
    Thank you again, Chairman Calvert, and members of the 
committee, for this opportunity to testify before your 
subcommittee. As this subcommittee understands, the 
relationship between the United States and the tribes is 
unique. Because of the course of history, there has arisen a 
trust responsibility on behalf of the United States to 
supporting Native tribes in our efforts to develop and maintain 
thriving, healthy communities, as you have heard my brothers 
from other tribal nations. Regrettably, that responsibility has 
not been fully met.
    Although I would like to thank this subcommittee for 
frequently proposing increased funding levels for Federal 
Indian programs, I ask again the subcommittee to consider what 
it would take to fully meet that responsibility and to stand 
strong in defense of America's first commitment, which is to 
its native peoples.
    Tribes are not like any other groups within American 
society. We are sovereign governments, and have a government to 
government relationship with the United States. I do not know 
if you know this, every Pueblo governor carries a cane from 
Abraham Lincoln which was specifically presented to the 
governors 150 years ago to acknowledge our sovereign authority 
over our lands and our people. This was carried over as a 
symbol and affirmation from the Spanish government, and the 
Mexican government, and then the United States. The cane is a 
symbol of our status and the commitment of the United States to 
protect and respect our sovereign rights, as well as to support 
the well-being of our communities. That commitment is also 
embodied in the Federal budget.
    I would like to emphasize several points, and there are 
more specifics in my written testimony as well. First, BIA 
funding has declined as a percentage of overall Federal budget 
since 1995, at 35 percent. In years of plenty, we received 
smaller increases. Now we must bear the full burden of 
sequestration.
    Second, we need support to address crumbling infrastructure 
and build critical new infrastructure. Acoma is bisected by a 
major transcontinental rail line, with over 80 freight trains 
and various passenger trains passing through the reservation 
every day, but no bridge over the tracks. Acoma has experienced 
significant safety issues, as the hospital and the other 
emergency response folks are on the other side of the tracks, 
while the school, the Head Start, and main communities are 
located on the southern part of the railroad tracks.
    Third, the smaller IHS hospitals are the front line of 
healthcare in Indian Country, and need your support. Acoma's 
health facility provides critical care services to the Pueblos 
of Laguna and Acoma, as well as some of the Navajo Nation's 
small communities. However, the quality and quantity of 
services offered at this facility has declined markedly in 
recent years, resulting in an adverse effect on the health 
status of the Pueblos, which already suffer from high rates of 
diabetes, and other serious medical conditions. The sequester 
only make this much worse.
    Fourth, there is a need to increase funding for cultural 
preservation before irreversible development errors are made. 
For example, Acoma remains deeply concerned about the potential 
impact of renewed uranium mining on Mount Taylor, a mountain 
sacred to the Acoma people, and some of the neighbor tribes. 
Acoma believes that the mining companies in the United States 
have an ongoing obligation to clean up the environmental damage 
created by past uranium mining. Also, it is very important to 
increase funding to the tribal historic preservation office 
program within the National Park Service to assure cultural 
preservation issues are fully addressed, especially when 
massive development is proposed.
    Fifth, the Johnson-O'Malley Program provides supplementary 
educational programs for Indian children attending public 
schools by promoting student achievement, and incorporating 
Native American languages, and culturally based educational 
activities into the learning process. This is a worthy program, 
and should be fully funded. Finally, the Acoma supports the 
Carcieri fix, even though we are not directly affected by this 
issue.
    In conclusion, I would like to thank you for this 
opportunity to provide testimony before this Subcommittee. Your 
work is of great importance to America's Native peoples, and is 
greatly appreciated. Thank you very much.
    [The statement of Fred Vallo, Sr. follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. I thank the gentleman for his testimony. Mr.--
am I pronouncing your name correctly--Chavarria?
    Mr. Chavarria. That is correct.
    Mr. Calvert. Okay. Temporary dam, I have worked with the 
Corps of Engineers, and Mr. Simpson over the years, he chairs 
the Energy and Water Committee, but----
    Mr. Chavarria. Um-hum.
    Mr. Calvert [continuing]. I cannot imagine the Corps of 
Engineers doing anything less than a permanent dam as a 
temporary dam. That is probably one of the problems you are 
enduring, because they have to build it for the worst case 
scenario, supposedly.
    Mr. Chavarria. That is correct.
    Mr. Calvert. So a temporary dam, in effect, would be a----
    Mr. Chavarria. Permanent.
    Mr. Calvert. Permanent facility, wouldn't it?
    Mr. Chavarria. Yeah. That is where we are kind of going, 
because of the life expectancy, 20 years. So 20 years or less, 
it will be a temporary. 20 years or more, it will be a 
permanent, just depending on the stabilization of the 
environment.
    Mr. Calvert. So why are you referring to it as a temporary 
dam?
    Mr. Chavarria. Because right now that is the terminology we 
are using to get the advance measures program to fund 100 
percent of the funding.
    Mr. Calvert. Does the Corps refer to it as a temporary 
facility also?
    Mr. Chavarria. They referred to it as a temporary, but now 
they are switching to a permanent type of structure because of 
the life expectancy of that dam.
    Mr. Calvert. I see. Any other questions for this panel? Ms. 
McCollum?
    Ms. McCollum. Along that line, if I understood correctly, 
if the dam is temporary, there is one funding stream; if it is 
permanent, it is another funding stream; and you would be best 
served out of the temporary funding stream because your cost 
share would be different?
    Mr. Chavarria. That is correct. 100 percent if it is 
temporary, 25 percent if it is full, or permanent.
    Ms. McCollum. Wow.
    Mr. Chavarria. In addition to the 200 million that we have 
already sustained in damages. That is why we want it temporary.
    Mr. Calvert. If the gentlelady would yield, is there money 
coming out of FEMA for this?
    Mr. Chavarria. This is 100 percent under the advance 
measures program under the Corps. The other program, 200 
million, is coming under FEMA, to them do our match at the 25 
percent.
    Mr. Calvert. I see. Interesting.
    Mr. Chavarria. And right now, because there is no type of 
structure between 25 miles in our community, that is why we are 
looking at a temporary type of facility, 24/7 type of 
operation, to have this in place before the next monsoon 
season, to protect our community.
    Ms. McCollum. On the property, when the forest fire went 
through, sometimes forest fires burn everything clear, 
sometimes things are left that can become tinder again. Do you 
need help with cleaning anything up in case another fire came 
through, or is there funding available for you for that?
    Mr. Chavarria. Yes, we do, and that is why that stewardship 
contracting, the Tribal Forest Protection Act, would be very 
important, because those are adjacent to our land. Right now we 
did get some emergency funding through BIA for emergency 
stabilization, but because we have not seen any stabilization, 
we are in a position to request additional funds. Right now, 
with such a high burn intensity fire, it is just all down to 
bedrock. There is not even no sediment.
    Ms. McCollum. Okay. Thank you. And to the governor of 
Acoma, Mr. Vallo, we were out there, so we saw the division 
with the railroad tracks. I was on the city council of a city 
that, when it was first built, was divided literally in half by 
railroad tracks, same thing that you are talking about. Now it 
is a freeway. It took us 46 years, but we finally got a bridge 
across for our emergency vehicles. Has there been any movement, 
any discussion at all, in the transportation departments that 
you work with about providing a bridge?
    Mr. Vallo. We are planning a bridge across one part of our 
lands, and we have the New Mexico Department of Transportation 
that--highways, as well as the railway assisting in our plans 
to build a bridge. So we are inviting folks from all over, 
hopefully funders, that will make this come true. We invite you 
as well to a forum we are having in August to talk about the 
bridge. And it is going to be costly. So far it is running 
around 28 million, but it will really provide for access to our 
hospital, and other emergency vehicles. So it is something that 
is greatly needed.
    Ms. McCollum. So, sir, we are seeing a vast increase in 
rail transportation in my part of the country. Are you seeing 
the frequency of the trains coming closer and closer together, 
or trains being longer than in the past?
    Mr. Vallo. We have. There is all kinds of activity on the 
railway. There are cars of oil, more oil coming through there. 
There is more coal coming mainly through the west, looks like, 
and there is a lot of activity. The study of 80 trains per day 
was done two years ago.
    Ms. McCollum. So it is going to be higher than that now?
    Mr. Vallo. It is probably much higher----
    Ms. McCollum. And maybe the trains themselves even longer, 
as well as more of them?
    Mr. Vallo. Yes. I believe they are limited to, like, a two 
mile----
    Ms. McCollum. Right.
    Mr. Vallo [continuing]. Stretch.
    Ms. McCollum. Right. Thank you, Mr. Chair.
    Mr. Calvert. Mr. Schuster is working on a freight movement 
section in his bill that hopefully he is going to have up next 
year. I doubt if we get it done this year. Mr. Simpson?
    Mr. Simpson. I would just say what we need is restoration 
dollars for those fire ravaged areas across the country. And, 
unfortunately, with the way we currently fund wildfires, we use 
all the funds to do restoration and hazardous fuels, reduction, 
and everything else fighting the wildfires. So there is 
actually a bill in Congress to try to address that. Anyway----
    Mr. Calvert. CBO apparently sent it to----
    Mr. Simpson. Yeah.
    Mr. Calvert [continuing]. Fiscal----
    Mr. Simpson. CBO said it is a neutral score. All we are 
trying to do is manage the account differently.
    Mr. Chavarria. Yes.
    Mr. Simpson. But that is neither here nor there. 
Stewardship contracting, I had not thought about that before, 
but it is a program that we tried to get authorized again, and 
again, and again, but, because of the way we score things 
around here, it was almost impossible to do. But in the Farm 
Bill they made that permanent, didn't they? I thought it was 
permanent for stewardship contracting in the future. I thought 
it went beyond one year. Yeah.
    And the main reason is, if you are going to go out and do 
stewardship contracting, it is a multiple year, that is 
correct, sort of thing. But I would think that would be a very 
valuable thing, for tribes to be able to enter into MOUs with 
the Forest Service, or BLM, or whoever are the adjacent 
property owners to actually do some management, and you might 
find other partners that want to participate also, whether they 
are environmental groups, whether it is a local county, or 
something like that. I think this has some opportunity to be 
very, very beneficial to how we manage these public lands, 
particularly around the reservations, but also in general.
    So that is an interesting concept that you brought up. I 
had not thought about it with the concept of a tribe doing a 
stewardship contracting provision.
    Mr. Chavarria. Yes, Chairman of the Committee. Right now we 
do have some management within the Valles Caldera, same type of 
situation for a beaver habitat restoration. And so our thing is 
just go to ahead on the forest lands and BLM just to do the 
hazardous fuel reduction, but looking at the protection of the 
traditional cultural properties on the watershed that we still 
have the----
    Mr. Calvert. Do you have any beavers down there?
    Mr. Chavarria. We have beavers.
    Mr. Calvert. Do you really?
    Mr. Chavarria. Yes. Valles Caldera is 10,000 elevation----
    Mr. Calvert. Yeah.
    Mr. Chavarria [continuing]. And so, because of this fire, 
it wiped out both our projects on the reservation and in the 
Valles Caldera, so it is a matter of going back and doing the 
restoration efforts. Thank you.
    Mr. Simpson. Thank you both for being here today. I 
appreciate it very much.
    Mr. Calvert. Thank you both for being here, and we 
appreciate all our panelists today, and we will come back to 
order two o'clock. Thank you.
    Mr. Chavarria. All right. Thank you.
                                             Monday, April 7, 2014.

                           AFTERNOON SESSION

    Mr. Calvert. The hearing will please come to order.
    Good afternoon, and welcome to the second of four public 
witness hearings over the next two days, specifically for 
American Indian and Alaskan Native programs under the 
jurisdiction of the Interior and Environment Appropriations 
Subcommittee. I especially want to welcome the distinguished 
tribal elders and leaders testifying today, and in the 
audience. I can assure you that your voices are heard and that 
this Subcommittee will continue to be as responsive to your 
concerns as possible. Even though the wheels of change turn 
much slower around here than we would like, I would ask that 
you continue to communicate with the Subcommittee throughout 
the budget process, not just for the 5 minutes we have here 
today. And you probably know that because of the large number 
of Native Americans that have come to the Nation's capital, we 
are operating under a 5-minute rule so we can hear from all the 
witnesses and then have hopefully some time for some questions 
after your testimony. So when the green light is on, that means 
that you have gone through 4 minutes. When the yellow light is 
on, that means you have a minute left to finish your testimony. 
So we would appreciate if everybody tries to stay within that 
timeline. And with that, the first person I am going to 
recognize is Mr. Moran, the Ranking Member.
    Mr. Moran. I think we should move on. We are here to listen 
to the people we are elected to serve on this Committee, so 
let's just move ahead with the witness testimony. It has been 
very good and compelling, and I thank you, Mr. Chairman, for 
having--enabling all of these tribes to have a hearing. There 
was a time when they didn't all get an opportunity to speak 
before the Subcommittee. I appreciate your accommodating all of 
them. Thank you, Mr. Chairman.
    Mr. Calvert. I appreciate that. Thank you. Ms. Angela 
Barney Nez, Executive Director of the, and if I pronounce this 
correctly, Dine Bi Olta School Board Association. Close?
    Ms. Nez. Yes.
    Mr. Calvert. Okay, good. Thank you. You are recognized for 
5 minutes.
                              ----------                              

                                             Monday, April 7, 2014.

                 DINE BI OLTA SCHOOL BOARD ASSOCIATION


                                WITNESS

ANGELA BARNEY NEZ
    Ms. Nez. Thank you, Mr. Chair. My name is Angela Barney 
Nez----
    Mr. Calvert. Is the red light on? Push that button.
    Ms. Nez. Okay. My name is Angela Barney Nez. I am the 
Director for the Dine Bi Olta School Board Association. We are 
an organization that represents the local community school 
boards on the Navajo Nation. There are currently 66 federally 
funded schools, and 34 of them are operated by a grant.
    My testimony will focus on four areas and not specifically 
a comprehensive look at the fiscal year 2015 budget. However, 
we would like to report that we expect the Interior is 
requesting a mere 1.3 percent increase in BIA in a year when we 
are trying to rebuild from the damaging effects of 
sequestration.
    But first I would like to talk about, Mr. Chair, is 
administrative cost grants, and Dine Bi Olta School Board 
Association respectfully requests that $73.3 million is 
appreciated. However, it is not enough to meet the needs of the 
schools in this budget category.
    BIE realignment, Mr. Chair and Committee Members, Dine Bi 
Olta respectfully requests the Committee provide oversight to 
ensure the Department of Interior plans for restructuring the 
management and support services of the BIA and the BIE are 
consistent with the authorizing statute. And under Education 
Program Enhancement, the BIE has received $12 million for year 
for several years to provide technical assistance to the 
schools. The Dine Bi Olta School Board Association requests 
that the committee specify no less than $5 million for the 
funding for education programming enhancements to be set aside 
for contracting with tribes and tribal organizations for the 
establishment of federal tribal partnerships. More detail can 
be found in the written testimony.
    The next area is Education Program Evaluation. The Bureau 
is requesting $1 million in fiscal year 2015 for an evaluation 
of the care or education programs. We have no information at 
this time regarding the focus of that evaluation. However, the 
Dine Bi Olta School Board Association requests that two areas 
be a focus in the evaluation. One is to look at successes in 
Indian education, successes over failure. The next one is to 
review of compliance with the Bureau's implementation of the 
applicable statutes. We are of the belief that the Bureau is in 
many ways, in many respects, in violation of both the letter 
and the spirit of the law. We further believe that going by 
with such violations in the past has created an environment 
where the Bureau is emboldened to expend the violations in the 
future.
    I would like to add in my testimony, Mr. Chair and members 
of the committee, a congressional record of the fiscal year 
2014 budget that was approved, and in the Interior budget is 
the BIA and the BIE funding lumped together.
    Mr. Calvert. All your comments and additional information 
will be entered into the record with unanimous consents.
    Ms. Nez. Okay, but there is a prohibition of--funded 
programs, funding to be used for their turnaround project which 
is in effect, the Bureau is implementing the turnaround project 
in our federally operated schools on the Navajo Nation. And we 
have serious concerns regarding the violation of what the 
Bureau is exercising and implementing with this fund. We want 
that to be on the record, Mr. Chair. Thank you.
    [The statement of Angela Barney Nez follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you. The gentlelady is finished with her 
testimony, and so our next witness is Earl Apachito.
    Mr. Apachito. Apachito.
    Mr. Calvert. Apachito. Thank you. Board President, 
Association of Navajo Community Controlled School Boards. I 
will get the names down. Thank you.
                              ----------                              

                                             Monday, April 7, 2014.

        ASSOCIATION OF NAVAJO COMMUNITY CONTROLLED SCHOOL BOARDS


                                WITNESS

EARL APACHITO
    Mr. Apachito. Good afternoon, Mr. Chair, and members of the 
Subcommittee. My name is Earl Apachito. I am from Alamo, New 
Mexico, and also the president of the Association of Navajo 
Community Controlled School.
    The Association of the Community Controlled School Boards 
is incorporated, is an organization of 11 school boards who 
operate federally funded schools on their Navajo Reservation in 
Arizona and New Mexico under contracts and grants from the 
Bureau of Indian Education.
    Today I would like to go over a topic on Indian School 
Equalization Formula. ISEF is the core budget account for 
Indian and education and residential program of the BIE 
elementary and secondary schools and dormitories. These funds 
are used for instructional programs at BIE-funded schools and 
residential programs and dormitories and include salaries of 
teachers, educational technicians, principals and other school-
level program administration, kitchen and dormitory staff. The 
ISEF amount due to each school is determined by the statutory 
mandates formula established by regulation 24 C.F.R.
    During the 8-year period of fiscal year 2003 to fiscal year 
2010, the ISEF account increases by the amount of $45 million, 
but only 2 years of those, fiscal years 2009 and 2010. The 
increase was actually an increase in programs funding. For the 
other years the requested increase were limited to accounts 
needed for fixed costs and related changes as opposed to actual 
program increases. For most Bureau-funded schools, the chronic 
shortfall in their key school amounts has a negative impact on 
ISEF fundings because ISEF fundings are most often reverted to 
make up the shortfalls in the other accounts, school 
transportation facilities, tribal support costs, from the 
administrative costs, et cetera. When the tribe or tribal 
school has no other source of revenue to satisfy those 
shortfalls, this means fewer dollars are available for 
education and residential program.
    Association of Community Controlled School Board members, 
schools respectfully requesting a full funding of ISEF at $431 
million or above the fiscal year 2010 in the Act level of 
$391.7 million.
    I thank you, Mr. Chair.
    [The statement of Earl Apachito follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. I thank the gentleman for his testimony. Next, 
Mr. Jeffrey Mike, President of the Board, the Pinion Community 
School District of the Navajo Indian Reservation. Sir, you are 
recognized.
                              ----------                              

                                             Monday, April 7, 2014.

      PINION COMMUNITY SCHOOL DISTRICT, NAVAJO INDIAN RESERVATION


                                WITNESS

JEFFREY MIKE
    Mr. Mike. Good afternoon. Good afternoon, Mr. Chair, and 
Members of the Subcommittee. My name is Jeffrey Mike, and as 
you pointed out I am on the Board of the Pinion Community 
School, and I will be presenting our testimony.
    I wish to note the following specific critical areas of 
funding need for Pinion Community Schools and other schools 
within the BIA school system which are not included in the 
Bureau of Indian Education's fiscal year 2015 funding. Denoted 
from the requests are essential for our students to achieve 
academic success to address the real educational issues facing 
our and other Native American communities and for us to operate 
our school safely and responsibly.
    There are seven items I would like to--that are here, but I 
will focus on three.
    One is fully fund our actual transportation needs. Almost 
all of the roads serving PCS and most of the schools within the 
Navajo Nation are poorly maintained, dirt roads that are 
frequently impassable, especially during the winter and spring 
months. Our buses must be 4-wheel drive, and even so equipped, 
regularly get stuck in the mud and mire. This creates an 
extremely arduous and dangerous scenario for our Kindergarten 
and other students. Some of our students are picked up at 5:30 
in the morning and dropped off again at their homes at 5:00 in 
the evening. No other group of students in the United States is 
subjected to this kind of shameful treatment.
    Due to the underfunding of our actual needs, we cannot 
procure sufficient buses, towing vehicles or safety vehicles as 
needed for these conditions. Operating an educational home 
living program under these conditions is sometimes harrowing 
and always frustrating. Of course, there is a larger problem of 
the pathetic infrastructure resulting from years of BIA roads 
department neglect and under-construction.
    While greater funding for BIA road development cannot be 
part of my present request, it is essential to a full 
resolution of this problem. We immediately need an additional 
$250,000 to address our transportation shortfall.
    Two, funding for pilot alternative school. There are a 
large number of high-school age young adults in the forgotten 
population on the streets of the Pinion Community School and 
across the Navajo Nation because they have either dropped out, 
been expelled, suspended or otherwise rejected by other high 
schools in the geographic area, and there are no alternatives 
for this sector of our population. This forgotten population 
appear to have a connection with increasing problems in the 
community with gangs, drugs, drug trading, shooting, domestic 
violence, break-ins and other criminal and social disorder. 
This forgotten population appears related to a growing 
community dysfunction which is causing increased general 
concern and fear. We know that both problems arise from the 
community's failure to meet the needs of this forgotten 
population. There are no coordinated efforts of agencies or 
entities serving Pinion to effectually respond to this group. 
Our principal has examined this issue and feels a holistic 
intervention program for this group of forgotten youth is 
needed.
    The concept to develop an alternative school that would 
include online courses, teachers on site, counseling 
technicians available and the possibility of residential 
opportunities. The program would be focused on the needs of 
this group, the forgotten population, and it would be based on 
Navajo language, culture, counseling, traditional boundaries 
and principles.
    Pinion Community School may have facilities available that 
could be segregated for this alternative school and provide the 
basic infrastructure for alternative school. Funding is needed 
to initiate this pilot program. We are requesting a special 
funding of $15 million to initiate this pilot program with the 
strong belief that we can develop a response to this nationwide 
program. Development of a model could be an answer for a great 
many Native American communities facing this problem.
    Number three, conversion of uninhabitable housing. There is 
crumbling housing surrounding the PCS campus. It cannot be 
inhabited, and it cannot reasonably be repaired or remodeled. 
However, conversations with agency personnel, the agency 
personnel have noted that the foundations could be salvaged and 
the buildings converted into useful school buildings which 
could house, among other things, the alternative school program 
noted above. It is estimated that renovation of this former 
housing would require approximately $10 million, and it would 
not only remove a safety hazard and an eyesore but also provide 
the needed infrastructure for the above-described alternative 
school and other PCS programs.
    In conclusion, the Native American Educational Improvement 
Act of 2001, this Congress stated that PCS and other BIE 
schools were the sole responsibility of the Federal Government, 
and the Federal Government would provide schools of the highest 
quality. These high-sounding phrases are shamefully hollow and 
not supported by action. We request the above action and bring 
an end to hollow promises.
    [The statement of Jeffrey Mike follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. I thank the gentleman for his testimony. Next, 
Mr. Ron Gishey, a member of the Board, the Rough Rock Community 
Schools.
                              ----------                              

                                             Monday, April 7, 2014.

                      ROUGH ROCK COMMUNITY SCHOOLS


                                WITNESS

RONALD GISHEY
    Mr. Gishey. Thank you, Mr. Chair, and good afternoon, and 
Subcommittee. My name is Ronald Gishey. I am the school board 
members on behalf of the Navajo Rough Rock Community School.
    The Rough Rock Community School is the oldest tribal 
operating school in the United States, and our school has been 
in continuous service since the founding after 1966. We operate 
a K to 12 education program and dormitory program for the 
students in the grades 1 to 12.
    Rough Rock is primarily funded through the appropriation 
from the Bureau of Indian Affairs, has provided Tribal 
Controlled School Act under Public Law 100-297. We operate 
under the authority of our local school board, and accordingly 
for Navajo--we set a high standard and challenge our students. 
Our education program integrates unique horsemanship program 
and study with the modern-day technology. The learning has 
inspired and motivate our student. The horsemanship is very 
important and very helpful for our student that develop the 
discipline for success.
    To the Rough Rock Community School to increasing the 
funding to meet the student transportation challenges. Our 
location, school is very remote area. Almost all of our 
students needs to travel a long distance by the bus to attend 
the school. Our transportation programs are vital to success 
for students is a top priority in our community.
    For this reason, I am here with the Transportation 
Director, Lucius Sells. He is sitting in the room. For each 
day, Mr. Sells oversees the school bus service to cover 878 
miles in six directions to transporting the students in the 
evening and the morning. Extra-curricular activities extend 
this responsibility even more, such as the sports program over 
three seasons and the basketball and the football and many 
other sports, and even students' school trip. And in the 
typical school year, we travel enough miles on our bus to 
circle maybe seven times on the Earth. Our student travels 
unimproved roads which means there are not even great roads, 
just the bare dirt.
    During rain or snow it makes it nearly impossible to travel 
on these roads. It has been like that for the 7 years, and talk 
about road improvement. That is not such or any have been done 
yet to the road improvement such as a gravel road or installing 
the culvert. When it rains, a quarter of our students can't 
make it to the school.
    Our school is judged on the academic yearly progress which 
takes into account daily attendance. Our school has been left 
behind due to the weather. This is a problem that can be solved 
with the gravel and a road grader.
    No other students in America must miss the school when it 
rains because their buses can pick them up. Our remote location 
and a poor road condition add to the cost only for the fuel and 
wear and tear in our vehicle. The fact that the closest repair 
shop for our buses is more than 2 hours away from Rough Rock, 
Arizona, to Gallup, New Mexico, and one way is 170 miles and 
two ways is 240 miles just for the bus service.
    The shortfall for the student transportation service 
virtually impact this classroom program. We need funding 
increase. As you know the tribal received in the Construction 
Fund from the Highway Trust Fund Account with proceedings from 
the gas tax. Road maintenance funding, however, is the 
responsibility for the Secretary of the Interior, and the 
only--the Bureau of Indian Affairs--testified the BIA has a--
deferred the needs of the tribal roads at $240 million. This 
year the BIA requested only $240.4 million for the road 
maintenance, only $158,000 more than last year and the level. 
This is even 10 percent of the Agency own estimate which means 
it is discontinued and--the student on a dangerous road just to 
get to the classroom.
    We need increased funding for the road maintenance and the 
student transportation safe and passable route to the school to 
vital for our students' education achievement. We urge Congress 
to adopt a major--direct transportation funds toward their own 
school bus route on the Navajo Reservation to have our children 
to get to the school safely.
    We need funding to the best way to be ensure that our 
students excel in all subjects by providing them with the early 
and continue emerging and native language. For this reason, 
Rough Rock Community School support the Congress' calling 
Native Language Emersion Student Achievement Act, H.R. 4214. 
Rough Rock has offered a Navajo land emersion program in the 
elementary school for many years. The student in program 
performs better and all their course, non-language class, 
science, math and the reading. The language programs not only 
provide the student with the vital link to their heritage and 
culture but learning the Navajo enabled them to success in 
their education overhaul.
    We call the Subcommittee to increase the funding to 
language programs. These programs are provided to be a 
fundamental part of the improving Navajo education overhaul. 
The program has proved to be a great stepping stone to help the 
student success in the core subjects such as science and math, 
et cetera, and related area, even to the language instruction 
has ended.
    School facility. School facility is meant to be a welcome, 
safe and healthy place to learn. Any school at the Rough Rock 
School should be no different. But reality, our school are 
older, more worn down, less safe than the other school in the 
Nation. According to the GAO report in 2001, 65 percent of BIA 
school and 76 percent of BIA dormitories suffered from less-
than-adequate conditions. Unfortunately, this 13-year-old GAO 
report paint an accurate picture of the Rough Rock and other 
BIA school today. Our administration built back in the early 
1900s, and it is not currently safe for the staff and they have 
no other place to work. Yet the administration purports to 
reduce the school facility construction funding by $3 million 
this year.
    As you consider the administration's request, please 
remember the other federally funded school system. Department 
of Defense school system was awarded to special--building 
school to repair and replace appropriately. As a matter of 
fundamental fairness, would the BIA school system deserve a 
similar consideration? We asked the student and the staff to 
live, work and learn at the school in the condition with the 
appearance of administration and--with nothing--to. This cannot 
be allowed to continue. The tribal grant costs in ISEF, the BIA 
budget requests a tribal grant supported costs would not only 
45 percent--tribal grant support costs fund have been reduced 
by 20 percent in the 4 years. This decrease is taking place at 
the same time of the course program funding from ISEF. This has 
been declined by other BIA schools, and we have to sacrifice 
this essential materials, staff or student service in order to 
operate within this reduced budget.
    A fully funded tribal grant support costs would increase 
ISEF which is essential to all affected and deliver a quality 
education served to our Navajo student. Thank you, 
consideration to----
    Mr. Calvert. I thank the gentleman for his testimony. I 
appreciate it.
    Mr. Gishey. Thank you.
    [The statement of Ronald Gishey follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. I have a few minutes for questions. I have a 
comment first. We told the BIE not to do that turnaround 
projection fiscal year 2014 because the feedback we receive in 
these hearings, and your testimony last year and now again this 
year. We will take this allegation seriously. We will look into 
this matter immediately and see if we can't get a change on 
that as quickly as possible.
    Any questions, Mr. Simpson.
    Mr. Simpson. No.
    Mr. Calvert. Other questions? Betty.
    Ms. McCollum. More of a comment. I was on a school bus with 
Mr. Simpson in parts of the Dakotas. We have heard again today 
about funding for the roads and the schools, as well as the 
roads and healthcare. You can't take them apart and the 
transportation costs for maintaining these buses. So maybe we 
can figure out something in language directing the Bureau to 
account for what is going on between the roads and the schools 
and how much is being spent on transportation so you get a 
better handle on it. And then maybe we can do a push for roads.
    Mr. Simpson. If I could, Mr. Chairman? Do you get any 
funding from the state to maintain roads on the reservation?
    Mr. Apachito. None.
    Mr. Simpson. None?
    Mr. Apachito. None.
    Mr. Simpson. Okay.
    Mr. Gishey. The county provides the funds, but that is not 
covered the mileage. It just covered just a few miles.
    Mr. Gishey. Yeah.
    Mr. Calvert. And these are mostly gravel roads?
    Mr. Gishey. Yeah, it is a dirt road.
    Mr. Simpson. If they have gravel.
    Mr. Calvert. Okay.
    Mr. Simpson. The challenge is--I know you mentioned you 
need $250,000, and the challenge for this committee as we hear 
this testimony all the time is we can't appropriate $250,000 
for you to do that because that would be kind of an earmark. We 
have been banned from doing those kind of things. And the 
question, what would the need be to appropriate money for a 
roads program that was general within the BIA that would 
actually get down to you to actually do those projects? When we 
appropriate it to the BIA, does it ever get down to you to 
actually do that work?
    Mr. Calvert. That is the problem.
    Mr. Mike. In our area, we have been told BIA can only 
maintain or grade roads 15 miles, each road that they are 
responsible for each March. And we have over 100-some miles of 
roads in our area. One tractor, it is only 15 miles that we can 
do so they can improve grade or whatever.
    Mr. Calvert. Okay. Certainly--we will look into that. We 
are going to try to do some traveling this year and get out to 
some of these areas.
    Mr. Mike. You are more than welcome to come to the Pinion 
area here.
    Ms. McCollum. Yes.
    Mr. Gishey. I don't know if I've been near Pinion.
    Mr. Calvert. We certainly thank all of you for your 
testimony and appreciate your coming out here to Washington to 
talk to us. You are relieved, and we will have our next panel 
come on up.
    Mr. Nez. Thank you.
    Mr. Calvert. Thank you.
    Mr. Apachito. Thank you.
    Mr. Calvert. Okay, the next panel is Mr. Arthur Ben, 
Principal of the----
    Mr. Ben. Lukachukai.
    Mr. Calvert. Yeah. There are some good ones here. I will 
take your word for it. Ms. Faye BlueEyes, Principal of the--
    Mr. Simpson. Go ahead. Say that one.
    Mr. Calvert. Dzilth-Na-O-Dith-Hle Community Grant School. 
Mr. Darnell Maria, member of the Board, the Ramah Navajo School 
Board. Ms. Pam Agoyo, President of the National Indian 
Education Association.
    Before we start out again, out of fairness to other 
witnesses, we ask that witnesses please be mindful of their 5-
minute time limit and the blinking red light when the time is 
up. That way we have more time for questions. We would like to 
do that if we can.
    The first person we will recognize is Mr. Arthur Ben who is 
Principal of what?
    Mr. Ben. Lukachukai Community School.
    Mr. Calvert. There you go.
    Mr. Ben. Lukachukai, Arizona.
    Mr. Calvert. That is----
    Mr. Ben. Navajo Nation.
    Mr. Calvert. That is a tough one.
    Mr. Ben. That is a tough one, yeah.
    Mr. Calvert. You are recognized for 5 minutes, sir.
    Mr. Ben. And that is in English.
    Mr. Calvert. Oh, that is in----
    Ms. BlueEyes. You could say Luke Skywalker and it would 
almost sound the same.
    Mr. Calvert. Luke Skywalker.
                              ----------                              

                                             Monday, April 7, 2014.

               LUKACHUKAI COMMUNITY SCHOOL NAVAJO NATION


                                WITNESS

ARTHUR BEN
    Mr. Ben. Thank you, Mr. Chairman, Mr. Vice-President, 
Members of the Committee. I thank you for the opportunity to be 
here and be the voice of our children who are enrolled in the 
BIE schools, the school systems, and are funded by the BIE 
school systems. On behalf of the Lukachukai Community Board of 
Education and the Bureau of Indian Education funded schools and 
more importantly, the students enrolled in the Bureau of Indian 
Education schools, I thank the committee for the opportunity 
for testimony, and my testimony is on school facility 
replacement and construction. Vice Chairman Simpson made a 
comment about that this morning, and I appreciate his support 
to bring that out on the table.
    I am here to testify for new school construction, and in my 
testimony, on the fourth page, under the Office of Facilities 
Management and Construction, the index, the Facility Condition 
Index, there is a list of 37 schools, and each one of these 37 
schools listed are in poor condition, and these schools are 
throughout the country. They are in Arizona, New Mexico, South 
Dakota, Minnesota. So throughout the country, and so we are 
here to testify on that.
    Back in the past there was some money appropriated for 
school facility construction, and not all the schools made it. 
So I am here to provide testimony so we can finish up on new 
school construction on the schools that remain, and those are 
on this list.
    Our school, Lukachukai Community School, is ranked number 
one on this list in addition to all the other 36. So we are all 
aware of that, there is a need there. The schools, which are 
generic, were commonly--a lot of them were founded back in the 
early '30s, and Lukachukai is like that, okay? We have got some 
historic buildings. We don't get the funds to renovate them and 
all that because they are historic, and we work on that area. 
However, there was a shortfall of school facility construction, 
and I am here to ask for that funding to be restored for new 
school construction.
    A lot of it has to do with life safety concerns and also 
this being the 21st Century, we are inadequately preparing our 
students for college and career readiness in these facilities. 
You know, the internet. I have got technicians that have to 
crawl under the building, where in most places they are in the 
ceiling. So that makes it difficult.
    I have a dirt parking lot. You know, we get Title 1 funds, 
and we are asked to have family engagement activities, bring 
the families in, get that parent involvement, and we do that. 
They got to park in the dirt road. Somebody has got to park 
across the street and walk across the street. No street 
crossing. And in the wintertime, we are dealing with mud, which 
is pretty common. We don't have snow days. We come to school on 
snow because our school buses can travel in snow. We cancel 
school on mud days. We call them mud days. And we also have 
parking issues. ADA compliance, I have got one parking spot for 
handicapped at our school. And that is the only one I can mark. 
We try to look for others, and if we do others, there is just 
no parking. We have got to park in a dirt area. And that dirt 
area is not lit at night. There are no lights. And we put 
lights up, and they go out. The ballast goes out, we put them 
in. And when we ask for service, we are told it is not part of 
the BIA property, it is not on the--listing. So we can't fix 
it. So you know, we go about the best we can to get light.
    A lot of our ADA compliance issues are in our rest rooms, 
wheelchairs, accessibility. Some of the doors are narrow. We 
are working on that. We have a lot of asbestos in the 
classrooms. We got four or five classrooms that are smaller 
than half of the size of this room. And I have got 25 students 
in those classrooms.
    Our student is 388, Kindergarten through eighth grade. And 
we have--our Kindergarten tops out at 30 students. It is very 
congested. So our parents are asking, you know, open up a third 
classroom. I am like, where? We got a modular, and that is what 
we are using.
    Our support services for our special ed students, ESS 
student services, physical therapy, occupational therapy, I got 
no place for their equipment. They are in a small room. So you 
know, if we expanded, got a bigger place, we can provide those 
services, speech services, those types of things. So there is a 
lot of stuff that we can put in a new school. And furthermore, 
the community of Lukachukai is working on withdrawing 44-acre 
tract for new school construction. So we are being proactive.
    Got an elder by the name of Edward Bia Harvey [phonetic]. 
He had a vision of putting up a new school, and he set his 
sights on proper and some land from his grazing rights. And his 
grandchildren are honoring his work. He is deceased. He is 
passed on but his vision is still alive.
    So with that testimony, I hope you take it to heart and 
assist us with new school construction for our children. You 
know, actually we prepare our children for the military, for 
the workforce and for post-secondary education, and we can't 
prepare them adequately in these types of facilities. So I 
appreciate your time.
    [The statement of Arthur Ben follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. I thank the gentleman for his testimony. His 
chart will be entered into the record.
    Next, Ms. Faye BlueEyes, and you are with the--how do you 
pronounce----
    Ms. BlueEyes. You said it very well the first time.
    Mr. Calvert. Just take my word for it.
    Ms. BlueEyes. Dzilth-Na-O-Dith-Hle Community Grant School.
    Mr. Simpson. Say that again?
    Ms. BlueEyes. Dzilth-Na-O-Dith-Hle Community Grant School. 
You got to make your tongue roll.
    Mr. Calvert. You are recognized for 5 minutes.
                              ----------                              

                                             Monday, April 7, 2014.

              DZILTH-NA-O-DITH-HLE COMMUNITY GRANT SCHOOL


                                WITNESS

FAYE BLUEEYES
    Ms. BlueEyes. Thank you, Mr. Chairman, members of the 
Subcommittee. Again, my name is Faye BlueEyes, and no, I don't 
have blue eyes but it is Navajo blue. I am the Assistant 
Executive Director of the Dzilth-Na-O-Dith-Hle School. My 
testimony is being made on behalf of the school board. We have 
four focus areas of the Bureau of Indian Education fiscal year 
2015 funding, and one is directed the BIE and GSA to do 
something about the GSA's aging fleet, fully funded Indian 
School Equalization program at $431 million, provide $109 
million in facilities operation and $76 million in facilities 
maintenance and fully fund the Tribal Grant Support Costs at 
$70 million.
    I will only focus on two areas of our concerns because the 
other school representatives have given their input. Regarding 
the GSA buses, we learned that the guidelines in GSA allows for 
us to replace the buses every 80,000 miles or 7 years, 
whichever comes first. However, we have our buses that have 
over 100,000 miles, and we had them more than 7 years. And the 
concern with the buses, the way it works is if Rough Rock 
decides that they don't need this bus anymore and we request 
for a bus across the reservation at Dzilth-Na-O-Dith-Hle, we 
get assigned that bus. And when we get it, it is already pretty 
much beaten up, worn out. So when we are driving it down the 
dirt, unpaved roads--they don't have gravel--and that is when 
like the windows will just start sliding down on its own. Maybe 
the side mirrors fall off. The bumpers will even fall off. And 
driving on this dirt road and all that dirt will just be inside 
the bus. Then you have the students coughing and whatever, 
including the bus driver. So those are some of the concerns 
that we have. So when these buses that we get used from Rough 
Rock, they end up in the shop. So then we end up paying for the 
maintenance and additional costs to keep these buses operating. 
And therefore it is sapping the school's funds that could be 
used elsewhere.
    So that is one of our biggest concerns, and maybe what they 
need to do is relook at the guidelines, especially for the 
reservation buses. Instead of the guidelines are probably for 
the cities and where all the roads are paved but not out on the 
reservation. So that is one of the biggest issues that we see.
    The second area is that we request funding for facilities 
maintenance in the amount of $76 million and facilities 
operation for $109 million. The facility maintenance are for 
the preventative, routine and unscheduled maintenance for all 
school buildings. As we have testified numerous times before, 
our school also is on this list the gentleman has, and we are 
also one of the poorest-rated facilities. We have had all sorts 
of problems at our schools. Last year we have had a huge amount 
of sewers leaking because our pipes were breaking, and while we 
had to bring in people to fix it, you hear this jackhammer 
going and the kids are right next door trying to learn. And the 
smell was horrible. And when they barely banged into a water 
line which was also corroded, then that busted. So we had water 
again. I mean, it was horrible. And the kids are expected to be 
learning in these types of conditions. So what we had to do was 
move them to where they told them this rest room is closed. Go 
to the other side of the building. It was very frustrating for 
the students and the staff, and that is what they had to 
endure.
    The other thing that happened this year is our boilers are 
so outdated that we closed our kitchen a few times. The 
dishwasher didn't have hot water, so the staff had to boil 
water on the school kitchen stove in order to pour it into the 
dishwasher so at least they could wash the dishes. And then we 
also discovered some leaks under the building. There was a huge 
puddle under the kitchen again, and we were trying to figure 
out how to get rid of that because then we didn't want mold to 
form.
    Our school faces all types of facility issues along with 
the other schools are the same way. And then the electrical is 
another area where like these fluorescent lights are flickering 
when the students are trying to read, and the letters are 
jumping around. I mean, that is like really frustrating for us, 
too.
    So there is a lot of issues with facilities, and like he 
stated, our school, the replacement cost would be $19.1 million 
to replace. The backlog is $7.7 million. So those are our 
issues. Thank you very much for your attention.
    [The statement of Faye BlueEyes follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. I thank the gentlelady. Next, Mr. Darnell 
Maria, member of the Board, the Ramah Navajo School Board. You 
are recognized for 5 minutes.
                              ----------                              

                                             Monday, April 7, 2014.

                       RAMAH NAVAJO SCHOOL BOARD


                                WITNESS

DARNELL MARIA
    Mr. Maria. Thank you, Chairman, and members that are here. 
I stopped by your office, Ms. McCollum, this morning.
    My name is Darnell Maria, and I have with me my colleague, 
Carolyn Coho, sitting by me, and also here on this travel is 
with our local tribal government, The Ramah Navajo Chapter 
seated to my right here.
    Basically, I have three main requests. I know that you all 
don't do earmarks anymore. Nevertheless, we are requesting for 
a total amount of $4.4 million, and one of the areas is the 
public water system upgrade and maintenance for the Pine Hill 
School campus for $1.85 million and also improvement to our 
school security for $385,000 and economic development 
initiative for over $2 million. And these are really our needs 
here.
    Perhaps you know a little bit about the Ramah Navajo 
community, but it is found more or less at Public Law 96-638, 
Indian Self-Determination Act, and it has been known throughout 
the country as such. And so we have come this far for over 40 
years.
    One of the areas that I just mentioned this, the renovation 
and upgrade of the Pine Hill campus water system. We are 
located above 7,000 feet near the Continental Divide, and I 
love this rain out here. It is what we need back in the 
Southwest. We have no water. We have no, I mean, like rivers or 
ponds or streams like that. So we are in dire need, especially 
in the area of health. We do have 3,500 community people, and 
then there are other non-natives that live in the area, too. So 
we really rely on the aquifers that are there that pumps the 
water out. And so we are in dire need of anther well and also 
the water line. The water lines that are there have been there 
for over 40 years. They are corroded. They are rusted. There 
are always water breaks that are coming up which hinders the 
education of the students as well as the health center that we 
have a Pine Hill School. So the copies that you have summarizes 
the needs that we have at Pine Hill.
    The second area is a security system. This is very, very 
important. Just a little over a month ago we had to have a 
lockdown because there was an individual that came on campus 
with a gun. Fortunately, the two individuals that were 
threatened came to help with the security, but we could never 
find that individual. So we really are in dire need security 
system and funding. Our current fencing area around the school 
are so torn down that it needs to be replaced and it needs to 
have a better security system, including the alarm and also the 
bell system to ensure that the students receive the required 
education that they need right now. We don't have anything in 
place, and we are constantly have to remind the students to get 
to class on time and all of that.
    So those are the very important matters that I bring before 
you. And just as--see, we have all heard in the week or two 
about the gunman that came on the military base. We don't want 
to experience the same tragedy back home. So I would like to 
avoid that as much as possible by securing funding for the 
security system at our school.
    The third area is economic development. We are 
geographically isolated from the main Navajo Nation, and we are 
an hour away from the nearest town. So economic development is 
pretty hard to establish, especially on trust land when we 
don't have the very much tax base. And one of the things that 
occurred is that we were able to scrape some funds and able to 
purchase a building for $350,000 out in Ramah. We would like to 
renovate that and then convert it into an economic development 
initiative. And one of the things that we are thinking of doing 
is doing housing paneling that consists of Styrofoam, metal and 
then you have the plywood on the outside and then the sheetrock 
on the inside. And we thinking that this would be a really good 
opportunity for housing, not for only our community members but 
outside our community. And it would be a very good economic 
development project for us to do.
    So in a nutshell, that is what I am requesting today, and I 
hope that you will be able to fund the projects that we have 
identified, not only myself but other tribes that are here with 
me today.
    I thank you very much and thank you [indiscernible].
    [The statement of Darnell Maria follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. I thank the gentleman. Next, Pam Agoyo.
    Ms. Agoyo. Yes, sir.
    Mr. Calvert. National Indian Education Association. You are 
recognized for 5 minutes.
                              ----------                              

                                             Monday, April 7, 2014.

                 NATIONAL INDIAN EDUCATION ASSOCIATION


                                WITNESS

PAM AGOYO
    Ms. Agoyo. Thank you. Chairman Calvert and Members of the 
Subcommittee, thank you for convening this hearing. As you have 
heard, my name is Pamela Agoyo. I am the President of the 
National Indian Education Association, otherwise known as NIEA, 
and I am from Cochiti, Kewa, Ohkay Owingeh Pueblos in New 
Mexico.
    NIEA is the most representative and inclusive Native 
education organization in the United States whose principal 
goal is to advance comprehensive and equal educational 
opportunities for American Indian, Alaska Natives and Native 
Hawaiian students.
    Last year NIEA was privileged to testify before this 
Subcommittee and provide insights on the state of Native 
education. We look forward to continuing to build upon those 
suggestions and provide new recommendations to ensure this 
year's work creates results.
    For instance, bureaucratic issues between the Bureau of 
Indian Affairs and the Bureau of Indian Education have 
decreased the ability of the BIA to meet the educational needs 
of our youth. As an individual bureau, the BIE should have the 
ability to dictate funding for its programs and ensure 
education is maintained as a priority within the Department of 
the Interior.
    Transferring budget authority from the BIA to the BIE will 
not only increase efficiency but also ensure effectiveness as 
BIE officials better understand needed funding within their 
programs.
    In addition to budget authority, the BIE should be seen as 
a capacity builder for tribes. Since the late 20th Century, 
Congress has worked to strengthen tribal capacity to directly 
serve their citizens. In this spirit, we request additional 
funding of $5 million for tribal education agencies to ensure 
more tribes can participate in providing education services to 
their students.
    Because tribes and their education agencies understand 
their students' cultural and academic needs best, this local 
authority would provide tribes the responsibility in providing 
the necessary services to raise student achievement and protect 
native cultures.
    Furthermore, as the BIE becomes increasingly suitable for 
supporting tribes and their education agencies, Congress should 
appropriate funds to create a competitive grant pilot that 
incentivizes capacity building and tribally controlled grants 
and contract schools. For $5 million, the BIE would administer 
a pilot to help spur systemic reform that would include tribal 
prerogatives and local knowledge in order to improve its 
student success, close achievement gaps, raise high school 
graduation rates and prepare students for success in college 
and careers.
    Three-year competitive incentive-based grants similar to 
existing Department of Education initiatives for which the BIE 
continues to be excluded would provide resources to tribes for 
accelerating local reforms and aligning education services to 
tribal education priorities that include language and culture. 
Further, performance metrics for the grant would track student 
attendance rates, graduation rates, college enrollment rates, 
and measures on educator accountability.
    In order to catalyze reform efforts and create a set of 
high-performing, tribally controlled grant and contract 
schools. The BIE would also provide ongoing technical 
assistance to build the capacity of those schools that applied 
for but did not receive a grant.
    We also continue to request increased funding for Interior 
programs such as BIE school construction and replacement with 
an allocation to be set at $263.4 million. NIEA was grateful to 
see funding appropriated by Congress to begin work on the first 
phase of the Beatrice Rafferty School. However, I was 
disappointed to see Interior Secretary Sally Jewell recently 
state before this Subcommittee that, ``DOI is focusing more on 
the classrooms than the buildings.''
    This limited concentration is unacceptable. While focusing 
on the classroom is to be applauded, no child can be expected 
to successfully learn while the structure around them is 
falling apart and potentially dangerous. All vested interests 
must work together and support efforts to drastically increase 
replacement funds and address the long outdated list of more 
than 60 BIE school buildings in disrepair.
    Finally, NIEA was happy to see Indian Health Service and 
Bureau of Indian Affairs contract support costs fully funded 
this year. However, Public Law 297 and 638, schools contracted 
under the BIE, were exempt from full funding. The BIA currently 
funds only 65 percent of the support costs needed in the 126 
tribally managed schools and residential facilities under the 
BIE purview. This forces the schools to divert critical 
education funding in order to cover unpaid operational costs, 
making it unrealistic to support those classroom services 
needed to improve educational outcomes for Native students.
    NIEA appreciates the continued leadership of this 
Subcommittee. I look forward to working with you to increase 
the success of the BIE and tribes as they increasingly work 
together to educate Native students. I also request that our 
fiscal year 2015 budget document be included into the record as 
a supplement. It provides appropriation levels for additional 
Native education programs within this Subcommittee's 
jurisdiction. Thank you again, and I look forward to addressing 
any questions you may have.
    [The statement of Pamela Agoyo follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you for your testimony. It seems it is a 
common theme here that the schools in Indian Country throughout 
the United States are in horrible condition and that we are not 
doing enough to fix that. That is certainly a challenge ahead 
of us.
    Ms. Agoyo, as you know, the BIA funding isn't currently 
controlled by the BIA. Instead, the funds are split between the 
Assistant Secretary of the BIA and the BIE. Will you clarify? 
Should the Subcommittee move all the BIE funds under the BIE? 
Is that what you're asking us to do?
    Ms. Agoyo. Yes. In fact, we feel that, you know, the Bureau 
of Indian Education really, because they are working directly 
with tribes and ultimately the goal is to allow tribes to have 
more control right over many of the facets regarding education 
in their communities. But this would just be a much more 
efficient and effective operation and plan.
    Mr. Calvert. Okay. Ms. McCollum.
    Ms. McCollum. Thank you. To follow up and to ask your 
thoughts on this, a lot of Indian Education funding is tied up 
with the Department of Education in and of itself. One of the 
things that you are asking for is to be able to compete for 
Race to the Top and some of the other competitive grant 
programs.
    I am going to give you my opinion.
    Ms. Agoyo. Okay.
    Ms. McCollum. My opinion is I am not a fan of Race to the 
Top, and I was not excited to hear that the President was 
taking this program and putting it in pre-K and I will tell you 
why. I watched repeatedly, just in Minnesota and surrounding 
States as thousands and thousands of dollars were put together 
for grant writers and everything else needed to compete for 
these funds. It didn't go to education; it went towards these 
grants. Some of the ideas that you have for Indian Country are 
very innovative, and I think you know some of the best 
practices that are out there. You know whether what your 
students need is more original language teachers, more science, 
more whatever. Have you ever thought of coming up with a best 
practices packet yourself and then kind of grading schools on 
it and then helping them implement? In other words train the 
trainer, train the teacher. Have a team that would go in and do 
something because you have identified your needs. I am sure you 
have identified the successes. Race to the Top makes you come 
up with a whole other program.
    Ms. Agoyo. So you know, I certainly share your perspective 
regarding Race to the Top, and I think it is also important to 
point out that, you know, BIE continues to be excluded as an 
eligible entity from that process to begin with. So that is an 
important point to make. But to your second point about best or 
promising practices, certainly at NIEA we recognize that there 
are immense amounts of great work going on and tremendous 
successes, even in these schools in spite of the challenges 
right with structure that our students are still progressing 
and they are brilliant.
    So as an organization, we are working very hard with all of 
our constituents to really identify those best practices and 
those promising practices, and certainly your idea about sort 
of cataloging and putting something together in sort of a 
storehouse or a think tank if you will, to have all those 
together I think is an important one that we will certainly 
take back.
    You know, I personally feel as well, too, that you know, 
the statistics that describe our students, our students are not 
responsible for those statistics. We know, right, that they are 
not responsible for those statistics. We know that when they 
have equal access and opportunity, they perform and they exceed 
overwhelmingly, and I think that that is the basis also of our 
perspective.
    Ms. McCollum. Thank you, Mr. Chairman.
    Mr. Calvert. Thank you. Mr. Simpson.
    Mr. Simpson. Thank you for being here and for your 
testimony. You have rightly focused on education which is one 
of the biggest challenges facing us.
    It is clear to me that if we are really going to have a 
change in how we construct school buildings and so forth on the 
reservation, it is going to have to come from this committee. 
It seems like, and I hate to say this, but it seems like we are 
the only ones that care about it, besides you. And it is 
something that we continue to struggle with, but we have got to 
have an initiative that takes this on.
    And I am curious. Let me ask you about your list that you 
give us there. It is 37--where did this list come from?
    Mr. Ben. It came out of the FMA system, Maximo. I had my 
facility manager access this, and he printed it.
    Mr. Simpson. Okay. It is not the list of schools that the 
BIA has for construction, is it?
    Ms. Agoyo. No.
    Mr. Simpson. Okay. That is different? Because I was 
wondering----
    Mr. Ben. Yeah. This is like the backlog list----
    Mr. Simpson. Yeah.
    Mr. Ben [continuing]. Where you keep putting in what you 
need repaired.
    Mr. Simpson. Yeah.
    Mr. Ben. And then you will see the----
    Mr. Simpson. But this isn't for the whole country, is it? 
Because this is just the region. I was looking here and----
    Mr. Ben. Yeah.
    Mr. Simpson [continuing]. All of a sudden----
    Mr. Ben. It is a--
    Mr. Simpson [continuing]. Out of 37, 19 of them are in 
Arizona and 9 in New Mexico. So this has got to be regional.
    Mr. Ben. It's regional, yeah.
    Ms. McCollum. Yeah.
    Mr. Simpson. So there is a much greater demand than just 
this list shows here?
    Mr. Ben. Yeah. This is a fraction of it.
    Mr. Simpson. I will guarantee you we are going to work on 
this.
    Mr. Ben. I appreciate it.
    Mr. Simpson. Because while I appreciate the fact that the 
Secretary wants to focus on what is in the classroom, what is 
in the classroom is very important. But you cannot put children 
in unsafe, unsanitary, dangerous buildings and expect them to 
learn. Besides that, it says a lot about what we think of our 
children when we send them to those places. So we have got to 
do something about them, and I will guarantee you this 
committee will work on it. I know Chairman Calvert in the last 
negotiations was able to keep at least some money in school 
construction working on this when the Administration didn't 
request any and has not requested any this year. And sometimes 
we have a fight with our colleagues that we love dearly across 
the rotunda. But Ken was able to do that in this bill, and I 
thank him for that.
    Mr. Calvert. As a matter of fact, the school that was 
funded is in Mrs. Pingree's district. So Mrs. Pingree, do you 
have any questions?
    Ms. Pingree. Thank you. First, thank you for your 
testimony. Thank you to the Chair for having the hearing. I am 
fortunate enough to have the Bernice Rafferty School in my 
district, and Chief Socobasin is actually testifying in the 
next panel. So I was holding back. But I do want to echo the 
remarks of my colleagues. I am relatively new on this 
committee, but everything I have learned since I joined the 
committee and everything that all of you have reinforced today 
about the horrendous conditions that we expect you to teach 
your children in. I thank my colleagues for their remarks. It 
is unreasonable to think that we could ask young people to 
learn in an environment where it is hard to maneuver, it is 
hard to operate, and the stories of transportation, getting 
back and forth to the school, I truly hope we can make some 
changes here and happy to support them.
    Mr. Calvert. Thank you. Certainly we have some challenges 
ahead of us, but this is certainly high on the list of 
possibilities. And we heard you. So thank you for your 
testimony, and thank you for attending today.
    Mr. Ben. Thank you.
    Ms. BlueEyes. Thank you.
    Mr. Maria. Thank you very much.
    Mr. Calvert. The next panel, and then Chairman Simpson is 
going to take over for a little while while I have to make some 
phone calls. But I will just announce who the panel is, and 
then I will----
    Mr. Simpson. Because I can't pronounce them.
    Mr. Calvert. I can't either. Ms. Nancy Martine-Alonzo, 
Secretary/Treasurer of the Ramah Navajo Chapter. Mr. Joe 
Socobasin, Chief of the Passamaquoddy Tribal Government.
    Ms. Pingree. Passamaquoddy.
    Mr. Calvert. I came close, came close.
    Ms. Pingree. We can do our own states.
    Mr. Calvert. Okay. Mr. William Harris, Chief of the Catawba 
Indian Tribe, and Mr. Colley Billie, Chairman--this is a big 
one.
    VOICE: Miccosukee.
    Mr. Calvert. Miccosukee Tribe of Indians of Florida. If you 
would please come forward?
    VOICE: If not, I will want all of their time.
    Mr. Calvert. There you go. Sounds like my attorney.
    Mr. Simpson. That is right.
    Mr. Calvert. And with that, I am going to--let's see. We 
have one other gentleman who is going to join us, and I am 
going to delegate this over to Mr. Simpson----
    Mr. Simpson. Who is not up here, yet? If you are not up 
here, raise your right hand.
    Ms. Pingree. Chief Socobasin.
    Mr. Simpson. Okay.
    Mr. Calvert. Chief Socobasin.
    Ms. Pingree. There is your place. It is not easy getting 
in.
    Mr. Calvert. So we are waiting for Chief Socobasin.
    Mr. Simpson [presiding]. Okay. Sounds good. Nancy, you are 
first.
    Ms. Martine-Alonzo. Okay.
                              ----------                              

                                             Monday, April 7, 2014.

                          RAMAH NAVAJO CHAPTER


                                WITNESS

NANCY MARTINE-ALONZO
    Ms. Martine-Alonzo. Good afternoon Honorable Chairman and 
committee members. I am Nancy Martine-Alonzo. I'm the elected 
Secretary/Treasurer of the Ramah Navajo Band, and I am also the 
former President of the Ramah Navajo School Board. Our 
testimony focuses on four areas, on the contract support cost 
issues and concerns on retention of the Ramah agency and also 
the annual budget formulation and the appropriation versus the 
actual funds, and four, operations and maintenance funds.
    The contract support cost issues and concerns, from the 
very beginning, in 1970, there have been two amendments, in 
1988 and 1994, and the first one allows contractor programs to 
be operated at the same level that the secretary would operate 
those programs and services. And the second amendment was that 
there was a category established called the contract support 
costs, and so all of those amendments have been made so that 
there is parity of opportunity to operate the programs. But 
what has happened over the years is that there has been a 
failure to pay the adequate contract support costs, and that 
has really impact the services to Indian people.
    And so one of the immediate problems that we have in our 
community of Ramah Chapter is that we have not been paid the 
direct support contract cost for 2012 and 2013, and that amount 
is about $700,000 and also for 2014 when we have now been 
allowed to receive the 100 percent, we have barely received the 
first installment of the payments. And so we would like to 
ask--we are wanting to ask Congress to compel BIA to pay all 
the appropriate funds to us immediately. And so that is one of 
our requests.
    The second portion of the contract support cost is the 
settlement of the Ramah class action lawsuit. That has been 
settled in June of 2012, in the case Salazar v. Ramah Navajo. 
And the negotiations to settle those funds have been ongoing 
now for a long time, over a year, and we have just not been 
able to make very much progress on it. And in fact, some of the 
criteria and requests have been to look at a number of the 
tribal funds that were received and to subject them to a 
forensic audit. And we feel that that is not appropriate. Maybe 
if it was a big company like Enron or Bernie Madoff, that is 
big corporations and big money. Maybe in that you would allow 
something like that. But as tribes, we don't receive, you know, 
a whole lot of money and it has been determined that we should 
be paid all of the contract support costs. And so we are asking 
this committee to compel the BIA, the IHS to conduct an 
accounting of the true cost and to be able to provide all of 
the operating services that we need at this time.
    In addition to that, even though it has been established 
that we should be providing the same quantity and the same 
quality of services, the process and the way that it has been 
implemented has sometimes put us in a situation where it treats 
differently those that contract and those that are not choosing 
to contract. And it shouldn't be. The choices are up to the 
tribes, whichever way that they choose. They should be given 
the full benefit of what they are entitled to and how they 
implement that.
    And so instead of putting in those kinds of barriers, we 
are asking that--our request is that you should look at what is 
the burden for the shortfalls that happen to come up with ways 
that that can be paid across the board. And so instead of just 
looking within the program to see where you can find those 
funds and using the already appropriated programs from where to 
get those funds, we would like to ask that you look at other 
sources of revenue instead of borrowing from Peter to pay Paul 
concept, that you look for other sources where there are funds 
available to make up for the shortfall and to pay the full 100 
percent cost. And we feel that that is the right thing to do, 
and that doesn't further penalize the tribes.
    And then another concern that we have is we have a BIA 
Ramah agency that was established, and that was the result of 
about over 100 years of neglect, back when the Treaty was 
signed with the Navajo Nation in 1868 to 1968 when our fore 
leaders came here and they asked for some way to remedy all 
those hundred years of neglect, of not having the services the 
agency was established there so that we can speed up the 
infrastructures that were needed for water, housing, road and 
all of schools and all of that, et cetera. And now we find in 
the 2015 budget, that the funds to give the Ramah agency was 
taken out. And so we have worked with congressional offices so 
far, and they have said that they will put that back. And so we 
just want this committee to ensure that those funds will be 
there for not only 2015 but in the future to the extent that we 
need--because of two really compelling reasons. One is the 
Trust responsibility cannot be contracted out, and Ramah has 
the most mature contracts, over 20 of them, out of all the 
Southwest region as far as the tribes and all of that concern--
--
    Mr. Simpson. Thank you.
    Ms. Martine-Alonzo. Between the school board and the 
chapter, and we need that partnership and that oversight in 
order to carry out those programs. And then because our land is 
very checker boarded, we have eight different ownership types 
of land. We have BLM. We have Indian Allotment. We have Navajo 
Tribe. We have Ramah Band land. We have Ramah Navajo School 
Board. We have state land. We have federal land. So we have all 
of these jurisdictions that we have to look, and we have over 
300 in--and based on the recent Cobell lawsuit that are higher 
standards now in making sure that all of those assets are taken 
care of.
    And so because of those reasons, we feel that it is not 
right that they should close the agency. And then----
    Mr. Simpson. I appreciate that and out of respect for all 
the witnesses that we have to get in today, I appreciate your 
testimony. Your full statement will be in the record.
    Ms. Martine-Alonzo. Okay. Thank you.
    Mr. Simpson. But I appreciate it. Thank you very much.
    Ms. Martine-Alonzo. Thank you very much.
    [The statement of Nancy Martine-Alonzo follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. William.
                              ----------                              

                                             Monday, April 7, 2014.

                         CATAWBA INDIAN NATION


                                WITNESS

WILLIAM HARRIS
    Mr. Harris. Thank you, Mr. Chairman. Thank you, Committee 
Members. On behalf of the Catawba Nation, thank you for this 
opportunity to testify before this subcommittee. My name is 
William Harris. I am the Chief of the Catawba Nation.
    Since time immemorial, the Catawbas have lived in the 
Piedmont generally along and upon the Catawba River. Our 
aboriginal lands cover most of South Carolina, a third of North 
Carolina and into the borders of Southern Virginia.
    In ancient times, Catawbas lived off the land and the 
river, hunting, fishing and farming. We grew the Three Sisters: 
corn, squash and beans. However, these pursuits of the past are 
not sufficient to enable the tribe to survive economically 
today.
    I am here to urge the Subcommittee to support our tribe and 
our plans to achieve economic self-sufficiency. Our Settlement 
Act specifically refers to the policy of the United States to 
promise tribal self-determination in economic development 
sufficiency, and it is about fulfilling this promise of support 
for economic self-sufficiency that I appear before you today.
    In the 2000 census, the Catawba Indian Nation had a per-
capita income of just $11,096. The estimated current employment 
among the Catawba today has more than doubled out of the State 
of South Carolina, which has a very high unemployment itself.
    The Catawba Nation is one of a handful of federally 
recognized tribes that do not enjoy the range of sovereign 
powers possessed by most federally recognized Indian tribes. 
Under the terms of our Settlement Agreement, we possess what I 
would term second-class tribal sovereignty.
    In our case, the state government has enormous civil and 
criminal jurisdiction on our lands, far in excess of that 
commonly accorded to states over other tribes. This state 
jurisdiction has ended up greatly limiting our ability to 
develop our economy. For example, we are not authorized to 
establish gaming operations pursuant to the Indian Gaming 
Regulatory Act. Instead, we are limited to two bingo halls, 
neither of which has been in operation since the state adopted 
a lottery. Although we plan to reopen one of the facilities 
within a month, it will employ about 30 people, and this is a 
huge accomplishment for us.
    We are also not allowed to entertain electronic play 
devices on our reservation, if the state authorizes. Since the 
state authorizes casino cruise ships, we believe that we can 
have similar games on our reservation. However, the State 
Supreme Court just ruled against us. I guess it is okay for the 
state to tax gaming and okay for state citizens to participate 
in gaming and okay for South Carolina communities to profit 
from gaming, but that does not mean that the state has 
authorized gaming. And our settlement in which we gave up 
treaty-based right works only one way. It is the same old 
story.
    We are trying to rewrite that history by taking land into 
trust within our federal reserve service area in North Carolina 
pursuant to our Settlement Agreement. We ask this committee 
urge the Department of Interior to expedite that application to 
a mandatory basis. This is perhaps the most significant and 
major single action you could take to help the Catawba people.
    Besides bingo, we are moving ahead with our projects. 
Specifically the Catawba tribe is seeking to examine whether we 
can offer any tax benefits that would attract outside investors 
to our land. It would be helpful if this committee could 
support funding such a legal research. We also need to make 
some additional land purchases where we can and cannot afford 
them. In this regard, it would be helpful if the committee 
supported funding for land acquisitions for smaller tribes.
    It is through initiatives like these that smaller and less 
well-off tribes like the Catawbas who have limited or no 
economic development can take control of their future and have 
the hope that the next generation of Catawba will know a more 
prosperous life than this generation. I thank you for this 
time.
    [The statement of William Harris follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. Mr. Colley.
                              ----------                              

                                             Monday, April 7, 2014.

                 MICCOSUKEE TRIBE OF INDIANS OF FLORIDA


                                WITNESS

COLLEY BILLIE
    Mr. Billie. Thank you, Chairman Calvert, Ranking Member 
Moran and the other Members of the Subcommittee for the 
opportunity to testify. My name is Colley Billie. I am the 
Chairman of the Miccosukee Tribe of Indians of Florida. With me 
today are tribal members, Wayne Billie, and Houston Cypress.
    The Everglades have been the home of Miccosukee people for 
hundreds of years, and our commitment to its restoration is 
unwavering. Protecting our home and our traditional ways of 
life depends on it. To give you an idea of the everglades, here 
is a satellite map. Gordon.
    [Slide]
    Mr. Billie. Here are our tribal lands, in red, in the heart 
of The Everglades. Here is Everglades National Park. Here is 
the Tamiami Trail where the National Park Service is trying to 
construct a series of skyway bridges. To the north are sugar, 
orange and cattle farms that generate high levels of phosphorus 
and other pollutants damaging The Everglades. Water flows from 
north to south in The Everglades.
    Here is the L-28 Canal System that ends on our reservation 
dumping untreated water from the north and west.
    Given the enormous cost of Everglades restoration, limited 
resources must be used wisely and effectively. However, we see 
a disjointed approach on projects resulting in decisions that 
harm the Miccosukee people.
    One of these projects is the massive skyway bridging of the 
Tamiami Trail. The tribe strongly opposes this. With one mile 
of bridging completed at a federal taxpayer cost of over $80 
million, National Park Service has begun efforts to build a new 
2.6 mile bridge that will cost at least $193 million. The 
fiscal year 2014 omnibus provided only $7.5 million for this 
new bridge but also had an important provision requiring 
National Park Service to secure all fundings before entering 
into any contracts. This year, National Park Service seeks to 
fund a bridge through a new transportation program in the 
highway bill. However, this program is not authorized or 
funded. National Park Service will defer up to $30 million from 
other projects to fund the bridge. This would be a violation of 
the Subcommittee's provision requiring full funding. The tribe 
requests that the requirement to secure all funding before 
construction be strictly applied.
    The skyway bridges are a waste of taxpayer dollars. 
National Park Service has yet to resolve fundamental questions 
regarding the effectiveness of the bridging. National Park 
Service claims that bridging is needed to provide ecological 
connectivity from water conservation areas in the north to the 
park. This is a fancy term that basically means that National 
Park Service wants to connect water from a canal to the park. 
For the bridges to deliver increased water volume to the part 
that it seeks, the water in this canal just north of the bridge 
needs to be raised. However, the State will not permit the 
water to be raised in the canal because there is no operational 
plans due to significant downstream flooding concerns and the 
potential for water quality violations. The park still hast not 
resolved the need for close easement on non-federal property in 
the park.
    Further, significant flooding concerns remain for nearby 
communities due to water seepage from the park into these 
communities. Under the best case, up to 50 percent of water is 
lost on the eastern side of the park, then pumped back into the 
canal from which it came from and ultimately into the park 
again in the circular pattern. This is not restoration. It is 
wasted effort and money.
    The Florida Department of Environmental Protection will not 
authorize an operational plan due to water quality violation 
concerns. Already water flows into the park have exceeded the 
phosphorous limits established by the 1991 Everglades 
Settlement Agreement and are routinely barely meeting the 
limits. Given the water quality in water conservation area 3A 
including the tribe's land, the Florida Department of 
Environmental Protection cannot be assured that increased water 
flows will not result in water quality violations Without the 
ability to move more water, water stacks up on the tribe's 
land, damaging our tree islands and flooding our traditional 
homes. How would you like your home flooded every year due to 
actions by the Federal Government?
    With its focus on bridging, the park has neglected existing 
culverts under the Tamiami Trail that would deliver a 
significant amount of water into the park if they were simply 
cleared of downstream vegetation.
    The tribe asks the Subcommittee to direct the park to clear 
the culverts out to increase water flow and alleviate high 
water levels on the tribe's land. The tribe's second priority 
is the need to improve water quality. The L-28 Canal System 
dead-ends on our reservation dumping water that often has 
phosphorous level over 10 times the EPA approved standards. Our 
land is a de facto storm water treatment area.
    Addressing contaminations in the L-28 Canal System must be 
a top priority for true restoration. I thank you for 
recognizing this problem last year and urging the Department of 
Interior to work with the tribe. This year the tribe asks the 
Subcommittee continue to support cleanup efforts by directing 
Department of Interior and EPA to work with the tribe to 
develop solutions to improve water quality.
    Thank you for the opportunity to testify today.
    [The statement of Colley Billie follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you, Colley. Joseph.
                              ----------                              

                                             Monday, April 7, 2014.

                    PASSAMAQUODDY TRIBAL GOVERNMENT


                                WITNESS

JOSEPH SOCOBASIN
    Mr. Socobasin. Thank you. Honorable Chairman and Members of 
the Subcommittee, my name is Joseph Socobasin. I serve as the 
Tribal Chief of the Passamaquoddy Tribe in Maine. Thank you for 
inviting me here today to provide testimony regarding American 
Indian and Alaskan Native programs. My comments today will 
reference Indian Health Services and the Bureau of Indian 
Affairs. In my written testimony, I have historic preservation 
and climate change, but because I am limited to 5 minutes, I 
have cut those out of my testimony.
    Mr. Simpson. Your full statement will be in the record.
    Mr. Socobasin. Thank you. The Passamaquoddy Tribe of Indian 
Township is located in Washington County, Maine, the 
northeastern part of the State, bordering Canada. Our county 
covers 2,568 square miles with fewer than 34,000 residents. 
Approximately 2,000 residents are Passamaquoddy. We are known 
as the People of the Dawn.
    As a smaller tribe, our needs are often overlooked. Limited 
economic development and restrictions of our main Indian land 
claim settlement have resulted in inadequate employment 
opportunities for the Passamaquoddy people with unemployment 
rates reaching 65 percent compared to 10.7 percent for 
Washington County and 29 percent of adults making less than 
$10,000 per year.
    The Indian Township community is one of the most 
impoverished communities in Maine. Economic deprivation and 
lack of access of programs and resources have taken their toll 
on our population. American Indian and Alaska Natives have life 
expectancies of 4.1 years less than the United States, all 
races, population. The majority of Passamaquoddy people do not 
live that long. Only 11 percent of Passamaquoddy tribal members 
are 60 years or older, and 65 percent is under the age of 35 
reflecting the mortality rates in my community. The average 
death of the Passamaquoddy tribal member is 50 years of age. It 
is unacceptable for the Passamaquoddy Tribe to have the health 
status similar to a third-world country.
    I am surrounded daily by those in my community who are 
dying way too young and who feel hopeless and tired from the 
struggle of trying to meet their basic needs. I am here today 
to advocate on behalf of the Passamaquoddy Tribe and other 
American Indians and Alaska Native people that have similar 
challenges.
    In order to address these disparities, the Indian Health 
Services is a key partner in providing access to healthcare. 
The President's fiscal year 2015 budget request reflects an 
increase of $228 million, but it does not adequately address 
how severely underfunded the IHS has been historically. The IHS 
remains funded at 56 percent level of need. I would be remiss 
not to request additional funding for the IHS to support 
direct-patient care.
    The national IHS tribal budget formulation team has 
requested $5.3 billion for fiscal year 2015 in an attempt to 
bring Indian Country slightly closer to the actual cost of 
delivering adequate healthcare to tribal citizens.
    In addition to increased funding, there is a need to manage 
appropriations more efficiently for Indian healthcare delivery 
systems. Advanced appropriations for the Indian Health Services 
would allow Indian health programs to effectively and 
efficiently coordinate healthcare for American Indians and 
Alaska Natives.
    Any delay in acting on the final budget makes it difficult 
to adequately address these health needs. Advanced 
appropriations will allow IHS and tribal health programs time 
improving access to care through continuity, staff recruitment 
and retention while decreasing administrative costs.
    An additional cost-savings measure that would extend the 
limited funding that IHS and tribal programs receive would be 
to establish Medicare-like rate cap for all purchased and 
referred care, formerly known as Contract Health Services. 
Medicare participating hospitals are reimbursed by Indian 
Health Services' tribal and urban health programs using a 
Medicare-like rated. That corresponds generally to the 
applicable Medicare payment methodology.
    Tribal advocates are working on draft legislation that 
would amend Section 1866 of the Social Security Act to expand 
the application of Medicare-like rate to all Medicare 
participating providers and suppliers. The Government 
Accountability Office recently examined the Purchase/Referred 
Care, a program, and found payments for care two-and-a-half 
times higher than the Medicare rate. And they have been capped 
at the Medicare rate. This would have resulted in a savings of 
$62.8 million for services provided by tribal health programs. 
I ask that you support this expansion of the Medicare-like rate 
to all Medicare providers and suppliers.
    The President's fiscal year 2015 budget request for Indian 
Affairs is $2.6 million, a $33.6 million increase over fiscal 
year 2014 enacted levels. The request includes support for 
increases to the TPA of $19.3 million over the 2014 enacted 
level. This provision is critical in the importance to the 
Passamaquoddy Tribe. Over the last several years, the Bureau of 
Indian Affairs has absorbed reductions in funding and resulted 
in a decrease or loss of vital services to our communities. In 
2000, the Passamaquoddy Indian Township TPA funding was 
$714,000. This year fiscal year 2014 funding was $742,000, 
reflecting a $28,000 increase in 14 years, which actually 
reflects a reduction in funding.
    TPA funds are critical to the operations including 
administration of crucial programs such as Social Services, 
adult education and natural resources. And I am trying to read 
fast. I know I am over my time.
    Mr. Simpson. Yes. Very quickly.
    Mr. Socobasin. So I will skip right to my closing remarks. 
I ask that you give careful consideration to the issues I have 
highlighted. The Passamaquoddy Tribe respectfully asks that the 
committee support funding increases for federal Indian programs 
that consistently exceed the relevant rate of inflation in 
order to achieve real progress in closing the service gaps for 
American Indians and Alaska Natives. This support translates 
into the changes and to the quality of life and the health of 
Passamaquoddies in our community. It is crucial and essential.
    I hope that you will recognize the importance and act 
accordingly to allow fair access to the Passamaquoddy Tribe to 
resources it desperately needs. Thank you for this.
    [The statement of Joseph Socobasin follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. I notice that Chairman Calvert was 
keeping this hearing right on schedule, and as soon as he turns 
it over to me I blow it and I am off schedule. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. One of the shots up 
there showed the culverts. You can say it different in 
different parts of the country. So would you point those out? 
And then if you would, Chairman Billie, that is what you would 
like to see cleaned out, is that not correct?
    Mr. Billie. Right. What you are looking at is the culverts 
under the Tamiami Trail. These culverts are already in place. 
What we are asking is that the National Park clean out the 
dense, unnatural growth that you see in the picture that is 
caused by the phosphorus and pollutants that is in the water. 
That is all unnatural. And the whole 'Glades is starting to 
look like that because of the contamination that is in the 
water.
    Right now, our homeland is being flooded, and with these 
culverts, they can be cleaned out the water can be allowed to 
flow through the culverts and into the part that the park says 
that they need. So what I----
    Ms. McCollum. To your knowledge, when was the last time 
when they were cleaned out?
    Mr. Billie. They have never been cleaned out since 
construction as far as I know.
    Ms. McCollum. So if they would have been properly 
maintained, this probably wouldn't have happened.
    Mr. Billie. Exactly.
    Ms. McCollum. Thank you.
    Mr. Simpson. Mrs. Pingree.
    Ms. Pingree. Thank you, Mr. Chair. Thank you to all of you 
for your very articulate presentations, and I just want to make 
sure I recognize the great work of Chief Socobasin. I have been 
privileged to work with the tribes in my state since I served 
in the state legislature. Maine is one of the few states that 
has tribal representation that sits in the legislature and 
serves on committees with us. That has been very beneficial, 
and you have been extremely helpful to me since I came here in 
educating me along with other tribal members about some of the 
challenges. We have already talked a little bit about the 
Beatrice Rafferty School and how fortunate we are to have 
already received some design money and to have it continuing in 
this President's budget. But I just want to reiterate, we have 
heard from so many people today and otherwise at the 
significant need of the many schools that really need to be 
upgraded and funded. And I thank you for your earlier words, 
Mr. Chair, about how it just doesn't give the right message to 
eager young people who want to live and learn. We are not 
valuing them enough if we can't put them in the right kinds of 
places. I also just want to quickly thank you for making the 
point to this committee about Indian health. Washington County 
is one of the poorest counties in the country, and many tribal 
members live at a lower level of poverty, at a higher level of 
unemployment. To imagine people trying to exist on $10,000, it 
is no wonder that health problems are so significant, and I 
hope we can find a way to do more with that. But thank you very 
much for taking the time to be all the way down here and all of 
you, of course, for coming from all over the country.
    Mr. Simpson. Thank you, and thank you all for being here. 
William, I sympathize with your problem. It has always amazed 
me that states can go out and open up gaming and then try to 
restrict it when tribes try to do it on their reservations. We 
kind of went through the same thing.
    Mr. Harris. Going through that----
    Mr. Simpson. Same issue in Maine. Kind of went through the 
same thing in Idaho for a lot of years and if a state decides 
that they don't want to do gambling--Utah has decided that--
they don't do anything. And they have been able to control it 
because they don't do it.
    But it is kind of hypocritical for an awful lot of states. 
You say the State Supreme Court ruled against you. Do you 
challenge that now in the U.S. Supreme Court?
    Mr. Harris. That is what we are going to have to look at 
and see if it is going to be--it is something we wish to go 
further with. Oh, sorry. That is where we plan to go next. But 
we will look at that issue. And the tribe did, in 2005, try to 
appeal to the U.S. Supreme Court on the issue of rule to--South 
Carolina Supreme Court, and no, the U.S. Supreme Court didn't 
take it up. So I don't know if they will take this one up or 
not.
    Mr. Simpson. Okay. Well, I sympathize with the problem that 
you are facing there, and I guess it is just an education issue 
more than anything else. Trying to get people to understand if 
they visit--I was surprised when we visited a few years ago, 
Ms. McCollum and I and Tom Cole.
    Gaming, whether you agree with gaming or not, has done a 
great deal on a lot of reservations. Unfortunately, the bad 
thing that it has done is a lot of people say, oh, we don't 
need to fund that because Indians have all those monies from 
gaming. It is not true for every tribe. Some tribes it is just 
a little bit. They get the kind that helps them. Others make a 
great deal out of it, and how the tribes use it is different 
within each of the tribes, whether they individually pay 
members of their tribes or whether they take the tribal portion 
and use it to build hospitals and schools. They have done some 
great things around the schools, and the tribes are better off 
because of it.
    So it is a challenge still for all of us.
    Mr. Harris. Well, let me just touch on one subject that 
when you said, you know, the tribes benefits. It is not only 
the tribes that benefit, it is the surrounding communities that 
benefit and it is also the states that benefits.
    Mr. Simpson. That is true.
    Mr. Harris. So it is not just a trial benefit.
    Mr. Simpson. That is true. Thank you all for being here 
today. I appreciate it very much.
    Mr. Billie. Thank you.
    Mr. Socobasin. Thank you.
    Mr. Simpson. Our next panel. My eyes are so bad I can't see 
that small print anymore. Mr. Carroll, Nathan Small. I thought 
I saw Nathan when he walked in. Mr. Joel Moffett and Mr. Joel 
Moffett. We have you here twice.
    Mr. Moffett. Should I bring multiple hats?
    Mr. Simpson. Yeah, we have you here twice.
    Mr. Moffett. I don't trust the guy following me.
    Mr. Simpson. Which Joel showed up today? Mr. Carroll, you 
are first.
    Mr. Moffett. Only one of them, though.
                              ----------                              

                                             Monday, April 7, 2014.

                    UNITED SOUTH AND EASTERN TRIBES


                                WITNESS

KITCKI CARROLL
    Mr. Carroll. Vice Chairman Simpson, the Members of the 
Committee, other Members of the Committee, thank you for the 
opportunity to speak to you today on behalf of the United South 
and Eastern Tribes, otherwise known as USET. We are in a tribal 
organization representing 26 federally recognized tribes from 
Maine down to Florida across to Eastern Texas.
    My name is Kitcki. I am a proud citizen of the Cheyenne 
Arapaho Nation of Oklahoma. I am equally proud to be a United 
States citizen as well, and I serve as Executive Director for 
United South and Eastern Tribes.
    Briefly, USET tribes are within their Eastern Region and 
Southern Region, Plains Region of the Bureau of Indian Affairs, 
and also the national area of Indian Health Services covering a 
large expanse of land compared to other BIA and IHS regions.
    Due to this large geographic area, the USET tribes have 
great diversity. From an economic standpoint some of our tribes 
have highly developed economies while others remain mired in 
poverty.
    First, on behalf of USET and those tribal member Nations, I 
wish to express our appreciation of this Committee's consistent 
support for increased funding for federal Indian programs. Your 
support reflects the commitment by this Committee to honor its 
fiduciary trust obligations. It provides the critical resources 
necessary to ensure for the provision of vital programs and 
services within our communities.
    However, I would be remiss not to take this opportunity to 
state for the record that fulfillment of the fiduciary trust 
obligation still continues to evade us. As a consequence, our 
efforts to rebuild our tribal Nations after years of failed 
federal policy moves forward at an unacceptable pace. Because 
of this reality, many of our communities are still plagued with 
proportionate rates of poverty, unemployment, health 
disparities, among other social and communal challenges. We 
must be stronger governmental partners to reverse this reality, 
and Congress must constantly remind itself of the unique and 
special relationship that it has with tribal Nations.
    All of you particularly understand the history of U.S. 
tribal relations, the related government-to-government trust 
relationship and our status as tribal nations providing for the 
needs of our citizens.
    Regardless of whether a congressional district has a tribal 
Nation presence, all Members of Congress must come to realize a 
strong tribal community equates to a stronger America.
    I implore all of you to assist us in our education of those 
Members of Congress who do not share in your understanding or 
commitment to the sacred trust obligation.
    Today and tomorrow you have already heard and you will 
continue to hear from many respected and dedicated tribal 
leaders throughout Indian Country about issues, opportunities 
and challenges that are most important to the respective tribal 
Nations. Everything you will hear is important, and everything 
is a priority as we collectively strive to improve the overall 
well-being of our communities and people.
    Today I wish to highlight a few areas from my written 
testimony that USET believes to be principled and systemic in 
nature. USET firmly believes that greater appreciation of these 
points will help to move towards greater fulfillment by the 
Federal Government by meeting its fiduciary trust obligations.
    First, the role and actions of this committee defend 
American values, defense and execution of the trust 
responsibility and the protection and promotion of tribal 
sovereignty should always be a priority. This committee can and 
should demand that all federal Indian programs be funded in a 
manner consistent with this important American value, our 
Nation's commitment to its first people.
    Two, the Constitution, treaties and the laws of the United 
States serve as the foundation to our nation-to-nation 
relationship. From the early stages of the United States, the 
founders recognized the importance of America's relationship 
with Native nations and Native peoples. They wove important 
references to those relationships into the Constitution. 
Natives influenced the founders in the development of the 
Constitution as recognized by the 100th Congress when the 
Senate and the House passed a concurrent resolution 
acknowledging the historical debt the United States owes to 
Indian tribes.
    Three, because of the history, the trust obligation of the 
Federal Government to Native peoples as reflected in the 
federal budget is fundamentally different from ordinary 
discretionary spending and should be considered mandatory in 
nature.
    At a 1977 U.S. Congress American Indian Policy Review 
Commission Report stated, the purpose behind the trust is and 
always has been to ensure the survival and welfare of Indian 
tribes and people. This includes an obligation to provide those 
services required to protect and enhance any lands, resources 
and self-government and also includes those economic and social 
programs that are necessary to raise the standard of living and 
social well-being of the Indian people to a level compared to 
the non-Indian society.
    Four, the specter of sequestration remains. Although this 
may seem early to raise this concern, USET urges this Committee 
to educate other members of the House that the application of 
sequestration to Indian violates the trust responsibility.
    Five, fully funding contract support costs is a significant 
achievement, but it should not come at the expense of program. 
Congress provided that the Indian Health Service and Bureau of 
Indian Affairs must pay the full amount of contract support 
costs in the fiscal year 2014 as they are contractually 
obligated to do. However, Congress, while fully funding 
contract support costs in fiscal year 2014 did so principally 
the restoration of sequestration funding. This meant that fully 
funding contract support costs was at the expense of other 
federal Indian programs. Full funding of contract support costs 
must come without a penalty, mainly a reduction in program 
funding or effective permanent sequestration of the new program 
funds.
    Additionally, some of the past contracts for cost claims 
must be prioritized and resolved expeditiously.
    Seven, the United States is a global leader and must 
demonstrate leadership for other nations by fairly and justly 
meeting its moral and ethical obligations to tribal Nations as 
expressed in the United Nations' Declaration of the Rights of 
Indigenous People.
    Eight--sharing must finally be fixed as it directly erodes 
our collective sovereignty, and we implore you to include--
fixed legislation in the Appropriations Bill language.
    So in conclusion, USET recognizes that we are in 
challenging times and that all Americans must be called upon to 
sacrifice for the common good of all. USET suggests, however, 
that when it comes to sacrificing for the good of all Americans 
that the historic record demonstrates that nobody has 
sacrificed more than Native Americans. We ask that this 
committee continue to support and advocate for a budget based 
on American values that reflects the trust responsibility and 
fair and just dealings with Indian tribes. Thank you very much.
    [The statement of Kitcki Carroll follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. Nathan, it is good to see you 
again. Welcome to Washington. I have to admit, when I went out 
and visited the immersion school, they taught me how to say 
welcome, and I can't remember how I was supposed to say it.
    Mr. Small. You will have to repeat that class I guess.
    Mr. Simpson. Yeah, I will.
                              ----------                              

                                             Monday, April 7, 2014.

   FORT HALL BUSINESS COUNCIL, SHOSHONE-BANNOCK TRIBAL GOVERNING BODY


                                WITNESS

NATHAN SMALL
    Mr. Small. Good afternoon everybody, Chairman Simpson and 
Vice Chair, Ms. McCollum and Ms. Pingree who just stepped out I 
guess. But anyway, my name is Nathan Small. I am the Chairman 
of the Fort Hall Business Council of the Governing Body of the 
Shoshone-Bannock Tribes of Southeastern Idaho. First I would 
like to thank Representative Simpson for his help in enforcing 
flexibility with the Bureau of Indian Education regarding our 
sixth grade and his help with flexibility using the existing 
funds to educate our juveniles.
    First and foremost, I want to discuss our healthcare needs 
and the dangers of sequestration. In only six months last year 
sequestration imposed $220 million in cuts to Indian health. 
This led to 3,000 fewer admissions and more than 800,000 fewer 
visits. Bottom line, people got sick and they suffered.
    In fact, despite the increase in Indian health funding, we 
are already in priority one, 6 months into this fiscal year. 
That means we are in a life and limb situation.
    Indian health should not be a discretionary program. 
Through treaties, the United States took hundreds of millions 
of acres of our homelands, and in return, one of the most basic 
promises it made was to provide healthcare to our people.
    To prevent future harm, I urge you work to exempt Indian 
healthcare from sequestration and to forward fund Indian 
health.
    Second, I ask that Congress fund long-term elder care 
services and direct IHS to work with tribes on a plan to 
address long-term elder care which is a growing need throughout 
Indian Country.
    Last, on healthcare I want to point out the most cost-
effective way of improving the future of our people is through 
effective mental health and substance abuse treatment. Our Four 
Directions Treatment Center is one of the few Native-run 
centers in the United States on a shoestring budget. It is 
doing its best to help our community. The program reduces costs 
for public safety and long-term disease and helps to heal our 
community. I ask the Subcommittee to increase funding for the 
IHS mental health and substance abuse treatments.
    I now want to turn to the needs of our at-risk kids. Native 
youth are among the most vulnerable groups in America. They 
suffer the highest dropout rates and the highest suicide rates. 
In the last few months, government studies confirm these tragic 
facts. In the 2013 Indian Law and Order Commission Report 
stated that Indian Country juveniles' justice exposes the worst 
consequences of our broken justice system.
    One of the purposes of building our Justice Center was to 
improve the lives of our at-risk youth. This Justice Center was 
purchased or built on tribal money and through a loan. So the 
government did not help us in getting that building there. To 
meet this vision, we have to rehabilitate our kids, which 
includes educating and heal them. If we don't, we might as well 
sentence them to a life in prison. Education and treatment are 
the last and only hope. However, the BIA and IHS have 
completely ignored these needs. The 2013 report confirmed that 
the BIA has not requested any and Congress has not funded 
treatment and education for juveniles--from BIA-funded 
detention centers like our Justice Center.
    Last year, thanks to the work of this Subcommittee, 
Congress authorized tribes to use BIA correction dollars to 
provide education to Native youth in custody. This will help 
relieve some of the burden. However, more needs to be done. We 
ask the Subcommittee to direct the BIE to permit teachers to 
teach juveniles and direct the Indian Health Service to permit 
professionals to treat and heal our at-risk youth. Currently, 
these agencies prohibit this.
    I have three final requests. First, Indian roads are our 
only link to economic development. This link is badly broken. 
We have some of the most dangerous road in America. I urge the 
Subcommittee to increase funding for the BIA's road maintenance 
program.
    Second, I ask the Subcommittee to direct EPA to force the 
cleanup of the Eastern Michaud Flatts Superfund site on our 
reservation. The hazardous waste from this now-closed plant has 
polluted our sacred hunting grounds, is poisoning our 
groundwater and is harming the health of our people. The EPA 
wants to cover up this mess, but for the tribes in Southeast 
Idaho, it must be cleaned up.
    Finally, if Congress moves to reauthorize the Federal Land 
Transaction Facilitation Act as requested in the President's 
budget, it must first acknowledge the Shoshone-Bannock Tribes' 
property rights to hunt, fish and gather on federal lands under 
the 1868 treaty with the Shoshone-Bannock Tribes.
    In closing, I want to again thank the Subcommittee for this 
opportunity and for your dedication in Indian Country. The 
bipartisan work of this Subcommittee is unmatched and we 
applaud all your efforts. Thank you. It is good to see you, Mr. 
Calvert.
    Mr. Calvert [presiding]. Good to see you, Mr. Small, Good 
to see you.
    [The statement of Nathan Small follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Next, Joel Moffett, the Nez Perce Tribal 
Executive Committee. Thank you for coming. Looks like you had a 
hard time here today.
    Mr. Moffett. Yeah, you know the sacrifices we make as 
tribal councilmen.
                              ----------                              

                                             Monday, April 7, 2014.

                  NEZ PERCE TRIBAL EXECUTIVE COMMITTEE


                                WITNESS

JOEL MOFFETT
    Mr. Moffett. Well, good afternoon, Honorable Chairman, Vice 
Chairman, Committee Members. My name is Joel Moffett. I serve 
as Vice Chairman of the Nez Perce Tribe, and thank you for the 
opportunity to provide testimony here while you evaluate and 
prioritize the funding levels of the U.S. Government and how to 
reconcile that with the needs of Indian Country and honoring 
the treaties and executive orders that you have made with the 
tribes.
    The Nez Perce tribe does a wide array of work and provides 
a multitude of services to the tribal membership as well as the 
community at large. We have two health clinics, tribal police 
force, social services program, comprehensive natural resources 
program that does work in forestry, wildlife, fisheries, water 
quality, air quality, habitat restoration.
    The Nez Perce Tribe has long been a proponent of self-
determination for tribes and believes its primary obligation is 
to protect the Treaty Reserve Rights of the Nez Perce Tribe and 
its members, and all of the work that we do back home is guided 
by the principle. As a result, the tribe works with a lot of 
federal agencies. And this work cannot be accomplished unless 
the United States continues to affirm and follow through on its 
trust responsibility and properly fund these programs.
    Regarding Indian Health Service, our two health clinics 
provide service to 3,820 patients last year and that 
represented 47,600 individual visits, and that doesn't even 
count pharmacy and laboratory visits. That is just medical 
provider visits. Our expenditure total for fiscal year 2013 was 
almost just short of $13.5 million, and our purchase and 
referred care costs for outpatient services was $4.3 million.
    So the tribe supports the proposed $200 million increase in 
funding over fiscal year 2014 levels for IHS. But it is also 
important to note that this increase still lags far behind 
where funding should be to offset the growth in the programs 
and medical inflation which is huge.
    Also, the $50 million increase in funding proposed for the 
purchase and referred care is vital. But it, too, falls well 
short of the true need in Indian Country. Finally, the tribe 
fully supports the $617 million that has been proposed by the 
President to be allocated for contract support costs. Full 
funding of these allocations is essential and important and is 
appreciated.
    Regarding the BIA, the tribe supports the funding levels 
for contract support costs as well proposed in the President's 
budget of $251 million. We also support the increased funding 
overall for the BIA. The tribe supports the $12 million 
commitment in the President's budget to address the Child and 
Family Welfare in Indian Country and job training issues. This 
Tiwahe initiative is important and recognizes that the 
significant gap in culturally sensitive social service programs 
and the high unemployment due to lack of adequate job training, 
that plagues a lot of our reservation communities.
    In relation to the BIA public safety and justice budget, 
the tribe advocates for at least $351 million in funding 
proposed in the President's budget. The Nez Perce Reservation 
covers 1,200 square miles. It covers five counties, mixture of 
tribal, non-tribal residents, checkerboard, and through all 
that we provide a full law and justice program, fully trained, 
staffed police force, tribal court, prosecutor. And then we 
actually cover the costs of all those offices. We have to 
supplement them. The BIA doesn't come up with a sufficient 
amount of funding. So $718,000 would make up a shortfall for 
the law enforcement, $339,000 for prosecutorial services, 
$300,000 for prison board. And the funding for these programs 
needs to be increased to account for these shortfalls in 
funding that the tribe has to absorb to continue the operation 
of these vital services on the reservation.
    In regards to education, the tribe requests $42 million for 
Johnson-O'Malley funding, $5 million for tribal education 
departments, $88 million for tribal colleges. We have a branch 
of the Northwest Indian College on our reservation. It is the 
second-highest students that we have in higher ed go to 
Northwest Indian College. It is vital, and we request increased 
funding for that.
    It should be noted that the scholarship funding we receive 
from BIA has been stagnant for the last decade, and you have 
all seen the graphs on the cost of tuition over the last, you 
know, a couple of decades. I think I saw a congressional study 
over 30 years of 12-fold. And so we need the scholarships to 
keep pace with inflation and the cost of higher education 
tuition.
    The tribe also relies on the BIA for funding its work 
related to endangered species protection of the tribe's treaty 
resources including Chinook and Steelhead salmon. The BIA 
Endangered Species Program should be restored at $3 million as 
it provides tribes with the technical and financial assistance 
to protect endangered species on trust lands. But the funding 
has actually declined significantly over the last 8 years.
    The tribe supports funding for the Fish and Wildlife 
Service and the Forest Service. First, the Tribal Wildlife 
Grants administered by the U.S. Fish and Wildlife Service is a 
really cost-effective expenditure for the government. You get a 
lot of bang for the buck. It is a small pot of money but has 
had huge successes. Since 2005, Nez Perce received four grants 
totaling $800,000. That has allowed us to work on such diverse 
issues as gray wolf monitoring, bighorn sheep research and rare 
Platte conservation. Continued funding for the Tribal Wildlife 
Grant Program will allow tribal recipients to build capacity 
and maintain involvement in key conservation issues. It should 
be noted that this is a competitive grant, and so the awards 
are based on the quality of the proposal, but in that 
framework, the funding was still reduced in 2012 and 2013, and 
the tribe strongly urges this Committee to increase the funding 
to $8 million as it provides a large return on a small 
investment.
    In closing, thank you for the opportunity to testify today, 
and as you can see, the Nez Perce Tribe does a tremendous 
amount of work in a variety of areas, and it is important that 
the United States continue to fund this work and uphold its 
treaty obligation to the tribes. Thank you.
    [The statement of Joel Moffett follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you, and we are now going to recognize 
Joel Moffett, Chairman of the Columbia River Inter-Tribal Fish 
Commission.
    Mr. Moffett. I should have had a little break of it, gee.
    Mr. Simpson. You used up a minute of your 5 minutes on----
    Mr. Moffett. I yielded a minute to the Honorable Joel 
Moffett.
                              ----------                              

                                             Monday, April 7, 2014.

              COLUMBIA RIVER INTER-TRIBAL FISH COMMISSION


                                WITNESS

JOEL MOFFETT
    Mr. Moffett. Well good afternoon again, and putting on this 
hat, I serve as Chairman of the Columbia River Inter-Tribal 
Fish Commission, and that is a coalition of four tribes: The 
Nez Perce Tribe, the Acoma Nation from Washington, the Warm 
Springs and the Umatilla Tribes from Oregon.
    It is my pleasure to address you today regarding funding 
needs for the Columbia River Inter-Tribal Fish Commission and 
the fisheries programs of its four-member tribes.
    Our base program funding comes from BIA, the Rights 
Protection Implementation Account, and our programs are carried 
out pursuant to the Indian Self-Determination and Assistance 
Act. We conduct a comprehensive treaty rights implementation 
program intended to maintain compliance with our tribal 
treaties, court orders, regional intergovernmental agreements 
and international salmon treaties. Together our tribes manage 
and co-manage lands equivalent to the size of the State of 
Georgia. We are leaders in ecosystem management working in 
collaboration and partnership with five states, 13 federal 
agencies and several private entities.
    The CRIFC and our member tribes have a goal through the 
region's efforts to halt the decline of salmon, sturgeon and 
lamprey populations and rebuild them to levels that support our 
ceremonial and subsistence in commercial harvests. To achieve 
these objectives, we have emphasized the highest level of 
scientific rigor, cost-effective management strategies and 
holistic approaches for the protection of our first foods.
    While many of the Pacific Coast salmon stocks remain in 
distress, our tribes are building Columbia Basin successes, 
acre by acre, tributary by tributary and stock by stock. As an 
example, I would like to hand out a brochure on the Snake River 
Fall Chinook Program, and if you turn to the interior pages, 
you can see in no uncertain terms the success of our program as 
the graph. So if you look in the mid-'90s, 20 years ago, we had 
just a couple thousand Snake River Fall Chinook come back to 
Idaho. They had to go over eight dams, go up the Columbia and 
up the Snake River, and just this past year, this past fall, we 
had 56,000. And that is because of tribal supplementation 
programs, tribal hatcheries. And you can see that our----
    Mr. Calvert. And so for the record, hatcheries do work?
    Mr. Moffett. Hatcheries do work.
    Mr. Calvert. Good. I want----
    Mr. Moffett. Yes. Yeah. Exactly.
    Mr. Calvert [continuing]. Some people to hear that.
    Mr. Simpson. The right people aren't here to hear that.
    Mr. Moffett. We need a megaphone to shout that. If you run 
them right, they are successful. They can rebuild the runs. The 
abundance is coming back. Everyone is enjoying the runs, 
tribal, sports, commercial fishermen, and also we are bringing 
back the wilds. You can see in that graph is the wild 
component, and the total, the blue, is the total amount of Fall 
Chinook coming back.
    So we are on our way to accomplishing the goal of giving 
these stocks off of the ESA list, and we can do that with 
proper management of our hatcheries.
    We deeply appreciate the Subcommittee's ongoing support for 
tribes in our core programs including the Rights Protection 
Implementation, but the need remains high. We are asking the 
Subcommittee to meet or exceed the President's request for 
these based programs for CRIFC and our member tribes, 
specifically $7.7 million for the Columbia River Fisheries 
Management under the Rights Protection Implementation, $4.8 
million for the U.S./Canada Pacific Salmon Treaty, $500,000 for 
youth program initiatives, $352 million for the public safety 
and justice and just to give you scale, we have a tribal 
fishing zone on the Columbia River. We call it Zone 6. It is 
150 river miles, and you have two states. And this funding for 
public safety and justice is critical to provide the funding 
for the conservation enforcement staff that we have, to provide 
safety and effectively manage our fisheries. You know we have 
fisheries all year round now because of the successes. We are 
bringing them back. You know, Fall Chinook, Spring Chinook, 
Summer Chinook and Steelhead through the winter. So we need our 
folks out there on the ground to ensuring that the fisheries 
are carried out according to the regulations and we are 
providing safety and emergency response to people out on the 
river.
    One thing I would like to talk about is a congressional 
requirement that was put on the Appropriations Bill by 
Congressman Norm Dicks a couple years ago, and it required all 
salmon that are produced in federally funded hatcheries to be 
visibly marked. The cut the adipose fin off the top of the 
salmon, and you know, in these hard-budget times, we understand 
it is hard to find money lying around in the couch and increase 
funding, so we want a closer examination, scrutiny, on these 
mass marking programs. We don't believe it is accomplishing the 
goal of bringing back the stocks and getting them off of the 
ESA list, and we think it is a waste of taxpayer dollars. But 
we want to see that analysis done so that you can see if it is 
consistent with ESA delisting and prevailing laws and 
agreements such as U.S. v. Oregon, the Pacific Salmon Treaty 
and the Columbia Basin Fish Accords.
    The CRIFC and the member tribes are working hard towards a 
unified Columbia River hatchery strategy to replicate the 
success that I handed out in the brochure. And this sort of 
gives individual salmon managers the flexibility to make case-
by-case decisions whether to mark the fish or not or in what 
percentage they want to mark them. We don't think there should 
be a mandate just because you receive federal funds for your 
hatchery.
    In summary, the CRIFC and its four member tribes have 
developed the capacity and infrastructure to lead and 
protecting, restoring and rebuilding Columbia River Basin 
salmon populations. Our collective efforts to protect our 1855 
Reserve Fishing Rights for the next seven generations through 
collaboration and partnerships with the states, federal and 
non-Indian community is showing some success to provide 
healthy, harvestable salmon populations for all citizens to 
enjoy. This is a time when increased effort and participation 
are demanded from all of us, and we ask for your continued 
support of a coordinated comprehensive effort to restore the 
shared salmon resource of the Columbia and Snake River Basins. 
Thank you.
    [The statement of Joel Moffett follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you very much. We need to have you come 
up to California and run our bay delta salmon.
    Mr. Moffett. We would welcome that.
    Mr. Calvert. Sorry, coming down. You are obviously doing a 
better job than we are.
    Any questions from the panel?
    Mr. Simpson. I have some but I will talk to you 
individually about them later on.
    Mr. Calvert. Okay. Ms. McCollum.
    Ms. McCollum. Well, not a question, just a comment. We have 
heard this just recently, and now from you, that IHS should go 
toward more doctor payments at a Medicare-based rate. But I 
want to just reiterate that you would like the savings put back 
into Indian health because this is so under-funded and so 
desperately needed. I look forward to hearing what is going on, 
as you gentlemen have been saying, on the other side of the 
rotunda because I think we are ready to go over here on the 
House with your request.
    Mr. Calvert. Okay.
    Mr. Carroll. Mr. Chairman, can I have----
    Mr. Calvert. Yes.
    Mr. Carroll [continuing]. One comment.
    Mr. Calvert. Yes.
    Mr. Carroll. I was in the audience a little bit earlier 
when you guys were having your conversation on roads. I just 
want to offer one thing. It may take 30 seconds.
    I am one of the eastern area representatives for BIA on the 
Tribal Interior Budget Council, TIBC. Every year, tribal 
leaders are asked to go through a process and prioritize what 
their greatest needs are. One, we take issue with the fact that 
they are even identified as needs. These are obligations that 
the United States owes to Indian County.
    But one thing that I want to make note of in this contract 
support cost, you know, USET fully supports the full funding of 
contract support costs but again not at the expense of program. 
So specifically on this issue of roads, in fiscal year 2012, 
BIA dollars were at 2.5. Fiscal year 2014 enacted was at that 
same level. What happened to fully fund that contract support 
costs is programs took a hit. So the very thing that you were 
talking about earlier, roads was one of those line items that 
took a hit. They took a 4.3 percent hit when they are already 
severely underfunded.
    So again, we fully support because this is what should be 
going on from day one is full payment of contract support costs 
but not at the expense of programs that are already severely, 
severely underfunded. So I just wanted to make that point.
    Mr. Calvert. Okay. Thank you for your testimony. I 
appreciate your attendance. And we are going to call up the 
next panel and then I am going to make a special introduction 
here. First, I will introduce the panel. Mr. Dennis Smith, Sr., 
Tribal Chairman of the Shoshone-Paiute Tribal Business Council; 
Mr. McCoy Oatman, U.S. Alternative Commissioner, Pacific Salmon 
Commission; Mr. Charles Clement, President of the Southeast 
Alaska Regional Health Consortium; and Mr. Andy Teuber, Chair 
and President of the Alaska Native Tribal Health Consortium.
    After you are seated, I am going to recognize our colleague 
and friend, Don Young of Alaska, who would like to read an 
introduction of all the Alaskan tribes testifying today. And 
you will not be able to stay for the whole hearing, I 
understand, but I will be happy to recognize Mr. Young.
    Mr. Young. Mr. Chairman, thank you, and thank you for your 
courtesy. It is always a pleasure to allow me to introduce my 
constituents, being I am the only Congressman they have. Good 
or bad, I am the only one here.
    But Charles Clement serves as the President and CEO of 
Southeast Alaska Regional Health Consortium and the Intertribal 
Consortium of 18 federally recognized tribes. President Clinton 
has--what tribe?
    Mr. Clement. Metlakatla.
    Mr. Young. Metlakatla, okay. An Athabascan and of the 
Killer Whale Clan. Now, keep in mind, Mr. Chairman, this is way 
to the south and then we have Andy Teuber who serves as chair 
and president of the Alaska Native Health Consortium, a 
nonprofit organization that provides statewide medical care, 
sanitation and social services. It operates a state-of-the art 
Alaska Native medical center in Anchorage. And may I say, Mr. 
Chairman, Andy serves as probably one of the finest medical 
institutions in the United States of America. They have done 
well with the money this Committee has been able to achieve for 
them and does an outstanding job and I am just very proud of 
that organization.
    If I can, Mr. Chairman, I will not be able to stay and 
introduce everybody else, but can I introduce them now?
    Mr. Calvert. Sure.
    Mr. Young. Okay. The next panel you will have Ms. Donna 
Galbreath. She started at the Southcentral Foundation as a 
family primary care center and she is of Athabascan heritage.
    And Patty Brown-Schwalenberg is the executive director of 
the Chugach Regional Resources Commission, a nonprofit 
intertribal fish and wildlife organization. She is enrolled as 
a member of the Lac du Flambeau Band of Lake Superior Chippewa 
Indians. How she got on there I am not sure but she is with the 
Indians of Wisconsin. But anyway, I am just giving her a bad 
time.
    Angela Cox serves as the vice president of the 
administration of Arctic Slope Native Association, the largest 
area up next to where they do the whaling, et cetera. They have 
a tribal health organization that is located in Barrow and 
serves eight federally recognized tribes.
    Elsie Sampson Vaden serves as the self-governance 
coordinator of Norton Sound Health Corporation, the tribal not-
for-profit healthcare organization in Nome, which serves 15 
villages. And originally Elsie is from Noorvik and has worked 
for the Norton Sound Health Corporation since 2001, just about 
as long as I have served in Congress.
    Jessica Mata-Rukovishnikoff serves as the primary care 
services regional administrator at the Aleutian Pribilof 
Islands Association, a federally recognized tribal organization 
of the Aleut people. Jessica works on implementing and 
overseeing the association's primary care services.
    And Victor Joseph is the current president and former 
health director of the Tanana Chiefs Conference, a consortium 
of 42 Native villages primarily in the Fairbanks area, 
including my hometown, Fort Yukon, and he is a member of the 
native village of Tanana, which is below Fort Yukon. And we 
will have a little discussion about that later on.
    But these are all great Alaskans, who traveled here, and 
have done a good job. And we have done well with the money this 
Committee has been able to appropriate over the years and we 
hope they continue that.
    I want to offer one last thing, Mr. Chairman. You take all 
the land east of the Mississippi to the Atlantic Ocean to the 
tip of Maine to the tip of Florida, that is part of Alaska. In 
that area they have 253 Congressmen and 52 Senators. So just 
keep that in mind; there is only one of me.
    Mr. Teuber. But we have got Don Young.
    Mr. Young. Thank you, Mr. Chairman.
    Mr. Teuber. I would rather take on the 253 than you.
    Mr. Calvert. Me, too.
    Well, thank you for your participation, Don. First, we have 
Dennis Smith. You probably feel a little left out; you are from 
Idaho. I have heard of that state. It is a great state, and 
also thank you for your service to our country. And you are 
recognized for 5 minutes.
                              ----------                              

                                             Monday, April 7, 2014.

                SHOSHONE-PAIUTE TRIBAL BUSINESS COUNCIL


                                WITNESS

                           DENNIS SMITH, SR.

    Mr. Smith. Thank you. I am not only from Idaho; I am also 
from Nevada. My reservation, the line runs right down--the 
middle of our reservation is half in Nevada and half is in 
Idaho.
    But anyway, I would like to start out by thanking you 
people. I really do appreciate you people. I think you heard 
some testimonies from the brothers and sisters here about the 
real need for some more money. We know it is tight and we know 
it is tough but we have got to remember trust responsibility.
    First of all, good afternoon, Chairman Calvert, Ranking 
Member Moran, and Members of the Subcommittee. My name is 
Dennis Smith and I am Chairman of the Shoshone-Paiute Tribes of 
the Duck Valley Indian Reservation. Thank you for inviting me 
to testify. I also want to thank this Subcommittee and our 
Congressman Mike Simpson for their long-standing support for 
Indian Country and for listening to tribal leaders. We have 
great needs and limited resources. If the Subcommittee does not 
increase the President's modest 2015 funding request for Indian 
Country, our needs will only increase. The President asked for 
a 1 percent increase to BIA funds for 2015, less than 1 percent 
for Indian education needs, and a 4 percent increase for IHS 
services and construction programs. What is needed so great in 
Indian Country for public safety and health services: staffing, 
facilities, construction, operation and maintenance, housing, 
and broadband. These modest increases are too small to address 
tribal needs.
    Duck Valley is a large ranching and farming reservation in 
northern Nevada and Idaho. The reservation is about 400 square 
miles and about a 2\1/2\ hour drive from Boise, 2 hours from 
Elko, Nevada. We are faced with many challenges this year and 
2015 funding will be critical to how well we recover from the 
sequester cuts in 2013. These cuts forced us to make difficult 
choices and reduce services to our members. I would like to 
focus on contract support cost funding, irrigation and other 
drought assistance and public safety and healthcare to 
illustrate how important federal appropriations are to Indian 
Country.
    First, thanks for standing up to the Administration and 
rejecting their proposal last year to cut our contract support 
costs. Our battle with IHS over contract support cost 
shortfalls which were featured in a December article in the 
Washington Post, and I would like for you to know that was--I 
cannot remember her name, but she came to the Duck Valley 
Indian reservation, spent 2 days with us, came back, put it in 
the newspaper, and there has been a lot of concern about that, 
what she learned from our little reservation in our isolation 
and what is going on. Bless her for doing that. We really do 
appreciate it and I think if some of you here did not get that, 
I wish you guys would get in touch with her and get that 
article and take a look at what she has seen out in our 
country, one of the most isolated reservations in any country.
    But I tell you what, we are proud we are natives. And 
regardless of what the Federal Government does to us, we are 
going to survive. Grandpa above assures us of that. We do not 
give up, I always say in my prayers or whoever. Never, ever 
give up on hope, I say. Keep faith, hope, and love life. You 
give up on hope, you are lost. Do not ever give up on that.
    And like in 2005 when I had just settled and paid is 
probably after a Supreme Court when that IHS has chosen to 
fight tribes. Now, that is a pretty harsh word but that is the 
way we feel about it. That is the way we feel about it. Please 
urge IHS to promptly settle outstanding contract support 
claims. I wrote Dr. Roubideaux and agreed to settle our old 
claim for $4.5 million. We are desperate for these dollars.
    I understand maybe 2 years, 1\1/2\ ago, Choctaw and 
Cherokee came, bless them for getting and meeting with the 
President of the United States. And when they had a meeting 
with the President of the United States, after they laid it out 
about contract support and other issues, especially contract 
support costs, from what we understand, they went back and were 
telling in Indian Country the President says that is really a 
no-brainer. Why is that? Because you have got a judgment from 
it. You can go over and you can get into that judgment and you 
can pay these.
    Now, I think it is really a sad day in the Federal 
Government's time when you come back now and show them this 
$4.5 million. Where in the world are we going to get $4.5 
million? Well, if you make them do their job and pay us every 
year because the Supreme Court ruled you have a legal, binding 
contract with these tribal governments, you got it. Take care 
of it. But we let it go, we let it go. And we come back. Now, 
we are saying $4.5 million.
    I got my attorney over here. I talked to Dr. Roubideaux. I 
am a member of the Self-Governance Advisory Committee on IHS 
and BIA. And the last time I was in D.C. we met with them. I 
said, Dr. Roubideaux, I am going to get a hold of you and we 
are going to set up face-to-face, none of this smoke signal, 
none of this computer, none of the teleconferences. I want to 
sit across the table from you and we are going to negotiate our 
contract support costs. I have got people here in Washington, 
D.C., that want to go and sit and listen to that and I welcome 
them. You people need to hear, you guys need to know what in 
the world is going on behind those closed doors. If I were 
sitting over there and you are here, you probably do not know 
what is going on. I want you people to understand that because 
that is a huge issue.
    And this is how bad it is that when we do not get our 
contract support cost we have to go right down the line to all 
of our programs in Indian Health Service providing healthcare. 
We take a little here, a little there, little there, little 
there. So what we do is we cut our services to our tribal 
membership. And if somebody is lurking around and somebody is 
going to tell Indian Health Service you had better go check out 
Duck Valley because they are not providing good quality--how 
can we? When you have got $4.5 million, that is a big chunk of 
change and that has a lot to do with providing healthcare to 
our people. I mean this is important.
    I got a call in to her, like I said. Wednesday I am going 
to drive all the way over there and I am going to set up a 
meeting with her. I am going to say, Dr. Roubideaux, you told 
me 4 months ago we would have this meeting. I have been writing 
you, leaving you messages. You do not set up a meeting with me 
so I am here today. I am telling you I am coming back the week 
of the 20 something or whatever. I am going to meet with you 
and Kevin Washburn. There are going to be issues that need to 
be resolved. And I tell you what, I may get a hold of this 
Kimberly at the Washington Post and put an article in there. We 
have got to wake up back here and stuff.
    Mr. Calvert. I agree with you. We need to keep focus on 
that, Mr. Smith, and we certainly appreciate your testimony.
    Mr. Smith. Good, good. Second, we are experiencing a 
terrible drought that is affecting our ranchers and farmers and 
we are working with the Department of Agriculture, FSA, NRCS, 
USDA, the Farm Bureau. Eighty percent is for food, 20 percent 
is for farming and ranching. But the BIA's budget for 
irrigation projects and drought relief is inadequate. Families 
may have to stop ranching and farming and leave the reservation 
to find work as costs rise due to the drought.
    I want you guys to understand how important it is because 
we are so isolated. We really have the Indian Health Service, 
BIA, Elko County School District. Other than that, we do not 
have anything. We produce some of the best beef you ever want 
to go and find. You know, what do they call that? We do not 
pump a whole bunch of medicine into them. We do not go and 
fertilize the heck out of our land.
    Mr. Calvert. Organic.
    Mr. Smith. Yes, organic. There you go. Thank you, sir. And 
we go right down to Mr. Simpson's area and we buy their 
replacement heifers and we go buy them. We are proud of what we 
have got. But a guy like me, ever since I was just a little 
guy, whenever you are old enough to realize what life is about, 
on my grandma and grandpas' side, on both grandpa's side we had 
livestock, we had horses, we had cattle. It may be coming to 
the point where I am going to sell out. I cannot afford when 
that wild horse reservoir, there is no water. We cannot 
irrigate. We are in bad shape.
    Mr. Simpson. Mr. Chairman, I would tell you that Dennis 
told me earlier today that he could not even introduce himself 
in 5 minutes and now you know.
    Mr. Smith. You know, I appreciate that because it is hard. 
It is hard. You know, we bomb, steal, rob whatever to get an 
airplane ticket to come back and talk to you guys and only got 
5 minutes. I mean it is hard for us guys to try to tell you 
guys----
    Mr. Calvert. I understand. We have a lot of people out here 
today.
    Mr. Smith. Right. Right. So are you telling me I am 
through?
    Mr. Calvert. Well, can you just maybe wrap it up in 30 
seconds? We have taken up 10 minutes rather than the 5, but----
    Mr. Smith. Well, I appreciate it. And when you get through 
listening to me, you go home tonight, you are going to sure 
like it. You are going to say, boy, we gave that man a chance 
to talk. I will.
    Mr. Calvert. Thank you.
    Mr. Smith. I will. I will cut it off because my testimony 
is in the written part of it anyway so you guys can read that.
    Mr. Calvert. Your complete testimony is in the record.
    Mr. Smith. Yes. Yes. Yes.
    Mr. Calvert. We will be looking closely at that. So thank 
you.
    Mr. Smith. But anyway, I appreciate everything you do for 
us.
    Mr. Calvert. Thanks, Dennis. Thank you very much.
    Mr. Smith. Thank you very much.
    [The statement of Dennis Smith follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Next, Mr. McCoy Oatman, the U.S. Alternate 
Commissioner, you are recognized for 5 minutes.
                              ----------                              

                                             Monday, April 7, 2014.

                       PACIFIC SALMON COMMISSION


                                WITNESS

McCOY OATMAN
    Mr. Oatman. Thank you, Honorable Chairman and committee 
Members. My name is McCoy Oatman. I have the privilege of 
serving on the Nez Perce Tribal Executive Committee with Mr. 
Moffett, who testified earlier. I serve as the treasurer for 
the tribe. I was going to have him give his testimony but I 
think he has done enough today. But I serve as alternate tribal 
commissioner for the U.S. Section of the Pacific Salmon 
Commission. Ron Allen is the principal commissioner and he 
would have been here today but he had other obligations.
    The U.S. Section prepares an annual budget for 
implementation of the treaty. The integrated budget details 
program needs and costs for tribal, federal, and state agencies 
involved in the treaty. The tribal participation in the Pacific 
Salmon Treaty process is funded in the Bureau of Indian Affairs 
budget, which Mr. Moffett talked about earlier. Tribal programs 
are essential for the United States to meet its treaty 
obligations. And also recently tribal programs have been taking 
on more management responsibilities due to the decrease in 
funding to state agencies.
    So in order to meet the increased obligations under the 
2009-2018 Pacific Salmon Treaty Agreement the 24 affected 
tribes identified costs at $4.8 million for tribal research 
projects and participation in the Pacific Salmon Treaty 
process, which is an increase of $520,000 over the fiscal year 
2014 enacted level. The funding for tribal participation in the 
Salmon Treaty is a line item in the BIA's budget under the 
Rights Protection Implementation, Wildlife and Parks, Other 
Recurring Program Areas.
    Under the U.S. Fish and Wildlife Service programs, the U.S. 
Section identified needs as follows: The U.S. Fish and Wildlife 
Service participation in the treaty process is identified at a 
base level of $417,000. The Pacific States Marine Fisheries 
Commission's Regional Mark Center receives support from the 
U.S. Fish and Wildlife Service to provide data services to the 
PSC process. Those costs are identified at $315,000. This 
funding level represents an increase of $75,000 over the fiscal 
year 2012 enacted levels for the Mark Center. The Regional Mark 
Center is utilized to meet treaty requirements concerning data 
exchange with Canada. These program recommendations are 
integrated with those of the state and federal agencies to 
avoid duplication of effort and provide for the most efficient 
expenditures of scarce funds.
    A copy of the integrated U.S. Section Budget Justification 
will be made available to the committee. The budget summary 
justifies the support needed to carry out necessary functions 
in implementing the treaty. Funding to support activities under 
the Pacific Salmon Commission comes from the Departments of 
Interior, State, and Commerce. Adequate funding from all three 
departments is necessary for the U.S. to meet its treaty 
obligations. All of the funds are needed for critical data 
collection and research activities directly related to 
implementation and are used in cooperative programs involving 
federal, state, and tribal fishery agencies and the Department 
of Fisheries in Canada. The commitment of the United States is 
matched by the commitment of the Government of Canada.
    Mr. Chairman, the United States and Canada established the 
Pacific Salmon Commission under the Pacific Salmon Treaty of 
1985 to conserve salmon stocks, provide for optimum production 
of salmon, and to control salmon interceptions. After more than 
20 years, the work of the Pacific Salmon Commission continues 
to be essential for the wise management of salmon in the 
Northwest, British Columbia, and Alaska. The Commission 
provides a forum to ensure cooperative management of salmon 
populations. In 2008, the U.S. and Canada successfully 
concluded lengthy negotiations to improve this management, 
including the adjustments to the coast-wide abundance-based 
management regime for Chinook salmon, also known as the Chinook 
Agreement, and the framework for abundance based-management for 
southern Coho populations. The agreement is intended to last 
through 2018. The U.S. and Canada completed a revised Fraser 
River sockeye and pink chapter in 2013.
    Finally, I would just like the Committee to take into 
account the fact that the value of the commercial harvest of 
the salmon subject to the treaty, managed at productive levels 
under the treaty, supports the infrastructure of many coastal 
and inland communities. The value of the recreational fisheries 
and the economic diversity they provide for local economies 
throughout the Pacific Northwest and Alaska is also immense. 
The value of these fish to the 24 treaty tribes in Washington, 
Oregon, and Idaho goes far beyond their monetary value.
    I would like to finish with as we say in tribal 
communities, as the salmon go, the tribal communities go. And 
so as you see from Mr. Moffett's testimony earlier, when the 
populations are up, you know, it is really good for the 
communities, for our economy, also for our well-being as you 
will see people talk about diabetes and things of that nature. 
And if we had more of our traditional foods to rely on, then we 
would not have as many health problems as we have today.
    So with that, Mr. Chairman, I thank you for your time 
today.
    [The statement of McCoy Oatman follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you, Mr. Oatman. I appreciate your 
testimony.
    Mr. Charles Clement, President of the Southeast Alaska 
Regional Health Consortium.
                              ----------                              

                                             Monday, April 7, 2014.

              SOUTHEAST ALASKA REGIONAL HEALTH CONSORTIUM


                                WITNESS

CHARLES CLEMENT
    Mr. Clement. Thank you, Mr. Chair.
    My name is Charles Clement. I am the President and CEO of 
Southeast Alaska Regional Health Consortium. It is an 
intertribal consortium of approximately 18 tribes in the 
panhandle of southeast Alaska. If you are not familiar, the 
panhandle of southeast Alaska is mostly islands, which makes 
delivering healthcare and health services throughout the region 
unique and somewhat challenging and difficult.
    I have a couple items here I would like to discuss with you 
and maybe recommendations or suggestions for consideration. 
Much of what I will be talking about has probably been talked 
about previously and will be talked about again, so I do not 
want to belabor some of it. But I think the uniqueness is 
possibly some fairly small technical corrections that this 
committee may be able to employ that they be able to go a long 
ways towards resolving some of the challenges that many tribes 
and tribal organizations throughout Indian Country face.
    First, I would like to talk a little bit about contract 
support cost claims, which have been mentioned several times in 
my short time here, but I think one of the things that I would 
like to focus on is really the idea that the solutions are 
largely in front of us now, thanks to the work of this 
Committee in the last session. But challenges remain 
specifically around settling old claims. And I think what would 
make sense is it seems it would be very easy for this body to 
insert language into the appropriations that would direct the 
IHS to use the existing shortfall reports.
    These reports have been compiled every year, as far back as 
I am familiar with all of our claims already listed on a 
report. And that report is good enough for the IHS to give to 
you to describe their claims in very specific detail. I am not 
sure why it is not good enough for them to use to settle our 
claims. It seems one of those things, you know, good for the 
goose, good for the gander. And it would make resolving these 
outstanding claims very timely, very efficient. And I think 
people would be well served if people could get on with all the 
important work that they have to do and the agency could stop 
hearing from the tribes, the committees could stop hearing from 
the tribes, and things would be able to move forward in a 
reasonably timely fashion.
    We have at least $30 million of outstanding claims. Like 
the gentleman prior said, those dollars are spent. They have 
come out of direct services that would otherwise go towards 
people who very much need those services throughout Indian 
Country. And so I think if it would work, it would seem to make 
a lot of sense to go ahead and insert that language to direct 
them to use the report.
    And if there are errors, which have been claimed in the 
past, I think the chances are that there are fewer errors than 
there are corrections, and we could deal with the errors on the 
report one by one instead of, you know, right now it seems like 
we are doing it backwards. We are assuming everything is wrong. 
The chances are everything is probably not wrong. Maybe there 
are a few things that need to be straightened out, but it would 
be easier to rectify those problems than to spend all of our 
time just starting from ground zero because what has been 
happening is an incredible amount of resources are being spent 
and utilized to fight tribes. You know, auditors are hired and 
lawyers are hired and it makes it a very inefficient and 
adversarial process, which I think by the work of this 
committee, the work of the Supreme Court, the work of, you 
know, eventually the administration, we have all gone to the 
place where we all understand that this needs to get wrapped up 
but yet we are still here dragging our feet and making people 
essentially, you know, making people beg for their money that 
is rightly and justly due them. And there is really no need for 
it.
    The other thing I would like to talk a little bit about is 
now that largely at least for '14 and '15 these issues of 
contract support costs are hopefully behind us and we look 
forward to the new challenges that we need to face, I think one 
of the greatest areas of opportunity is really investing in the 
IHS program space. Specifically I think for us, you know, we 
look at the opportunity to develop facilities. Right now, if 
you look at throughout Indian Country there is a backlog of 
somewhere between 25 and 30 years of the facilities development 
based on existing appropriations. And the challenge with that 
is at some point in time it was a first-come, first-served 
process which people got in line. You know, they needed a 
facility, they got in line, they got on a list, and it is 
ranked by virtue of when you stepped in line and it does not 
really reflect the need throughout Indian Country. And it also 
does not reflect the challenges.
    And what I am getting at is right now at the rate at which 
facilities are funded within the IHS, there are more facilities 
falling into disrepair and un-serviceability than there are 
facilities coming online. You know, so essentially for every 
facility that comes online to go offline because the investment 
window is not strong enough. And I think what to me would make 
sense is there is an opportunity to look at the list and figure 
out how to prioritize it in a more meaningful way rather than 
essentially a first-come, first-served lineup.
    But also with the passage of the Indian Health Care 
Improvement Act, the reauthorization, there is the ability to 
do repair and replace funding, which the agency--and I do not 
think the Administration or any of the congressional bodies 
have dealt with before, but there is an opportunity to really 
be more thoughtful about how those facilities are ranked and 
developed and maintained, and I think there are any number of 
ways to do it.
    You know, I mean this is really for you to consider but I 
think the reality is the thoughtfulness, you know, in 
consideration of these financial times, there needs to be more 
thought put into how these things are organized and make sure 
we are not throwing good money after bad or wasting money or 
letting facilities fall into disrepair. So I think asking the 
agency or addressing the agency to take a look at a more 
thoughtful way to come up with facilities development, repair, 
and maintenance sort of efforts would make a lot of sense.
    So, Mr. Chair, thank you.
    [The statement of Charles Clement follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you very much.
    Next, Mr. Andy Teuber, Chair and President of the Alaska 
Native Tribal Health Consortium.
                              ----------                              

                                             Monday, April 7, 2014.

                 ALASKA NATIVE TRIBAL HEALTH CONSORTIUM


                                WITNESS

ANDY TEUBER
    Mr. Teuber. Thank you, Mr. Chairman, Vice Chair McCollum.
    I am the president and chairman of the Alaska Native Tribal 
Health Consortium, which serves 229 tribes across the State of 
Alaska. The State of Alaska, as our Congressman Young stated, 
is a large place to try and do business and particularly 
difficult to try and ensure that the needs of the U.S. or the 
Nation's neediest and most vulnerable people are being met when 
transportation and communication difficulties exist as they do.
    We would love to welcome you, members of the committee, to 
Alaska to try and see for yourselves precisely what it is that 
causes the challenges that we confront, but we also want to 
represent issues for the entire nation. And so I would ask that 
my written testimony be entered for the record.
    Mr. Calvert. Everyone's full testimony is entered into the 
record.
    Mr. Teuber. Thank you very much.
    And I will touch on a couple of items that my predecessor 
Mr. Clement in his testimony gave and focus on contract support 
costs, the Village Built Clinic Lease Program, and also the 
solution that he had described on how we might look to reinvest 
resources to keep our facilities online.
    For fiscal year 2015, the IHS budget, we are requesting 
many of the same things that you have heard other witnesses 
testify today about. Contract support costs, restoration of 
sequestration cuts, the IHS advanced appropriations, and for a 
definition of ``Indian,'' which I think this committee could 
provide some solution to within the Affordable Care Act.
    In addition to those which are covered in my written 
testimony, during my time today I would like to focus on 
finding the solution for Mr. Clement's issue, the renovation 
and expansion of existing IHS facilities. And while the item 
was brought up as a matter of discussion, I think that we have 
a solution that we might be able to present that would allow 
this committee to effectively address that very issue.
    So according to the IHS 2012 report to Congress on 
healthcare facilities needs, the average age of IHS-owned 
health facilities is over 30 years old and over \1/3\ of IHS 
hospitals and health centers are over 40 years old. This is in 
contrast to the average age of private sector hospitals, which 
is in the area of 9 or 10 years.
    As existing facilities age, without renovation or 
expansion, they become increasingly inefficient to operate and 
costly to maintain. In addition, this disrepair often prevents 
the deployment of new technology or medical best practices.
    So this is a solution that I would like to propose to the 
committee is the reauthorization of the Indian Health Care 
Improvement Act in 2010 amended Section 301 to direct the 
Secretary of HHS to ensure that the renovation and expansion 
needs of IHS and travel facilities are fully and equitably 
integrated into the IHS healthcare facility priority system and 
to consult and cooperate with tribes to develop innovative 
approaches to address unmet needs for construction of health 
facilities.
    Next on the Village Built Clinic Program, the Village 
Built, or VBCs, are essential to carrying out the Community 
Health Aide Program in the villages of rural Alaska. Community 
health aides are often the only health providers available in 
rural communities and are of critical importance to the Alaska 
Tribal Health System. CHAP practitioners use VBCs to provide 
CHAP services in all of our 200 plus villages.
    The majority of VBC lease payments from IHS have not 
substantially increased since 1989, and current funding is not 
nearly sufficient to cover inflationary increases and the cost 
of repair or renovation of the facilities needed to keep them 
in safe condition. Under Section 119 of the Indian Health Care 
Improvement Act, the IHS is responsible for operating the CHAP 
program. Many VBCs are struggling to meet operating costs to 
stay open and maintain adequate conditions. Without VBC 
facilities to provide CHAP services, the CHAP program cannot 
properly be operated. To ensure the continued operation of CHAP 
program, the IHS has a responsibility to provide lease payments 
that cover the actual costs of operating.
    For fiscal year 2013 an estimated 4-1/2 million dollars was 
provided for the VBC lease program by IHS as part of the 
recurring base budget. This amount likely only covers a little 
over 1/3 of the full cost of operating VBCs. We request an 
additional $8 million for the operation and funding for the 
program for fiscal year 2015. We would be looking for $15 
million for the renovation and expansion funds.
    And finally, Mr. Chair, I would like to thank this 
committee for its leadership in addressing the contract support 
cost issue that has hindered tribal health programs for 
decades. Not only did this committee reject the CSC cap that 
was proposed in fiscal year 2014 but it saw to it that tribal 
health programs were finally provided the CSC funding they are 
contractually due. We are pleased to see that the 
administration is now following the guidance provided by the 
committee and requested full funding for IHS contract support 
costs for fiscal year 2015 in the President's budget request 
and we request that this committee continue its leadership and 
diligence on the issue to fully fund IHS contract support costs 
in fiscal year 2015.
    Thank you, Mr. Chair.
    [The statement of Andy Teuber follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you. And thank you all for your 
testimony. And we will have just a comment from me.
    Obviously, contract health support costs is a big deal. We 
were happy to resolve this last Congress as far as what we are 
going to do from this point forward. Obviously I think the 
administration, I do not know what they are spending in trying 
to--I have got a feeling the administration is spending a lot 
of money trying to not make a deal. I think they might be much 
better off if they sat down with Dr. Roubideaux and others and 
met with the individual tribes to get these things worked out. 
And I do not think there is any disagreement with anybody here 
that they need to do that. If there is a dispute about the 
cost, they need to resolve that but it seems like they have 
plenty of time to do that. So certainly I think we would all 
agree that this is something that needs to occur. With that, 
are there any additional questions?
    Ms. McCollum. Mr. Chair.
    Mr. Calvert. Yes.
    Ms. McCollum. Thank you.
    First off, thank you for your testimony on the salmon and 
the negotiations and having the right people at the table. 
Negotiating with Canada about fish is very, very important. We 
have different issues in the northland but we also have to go 
toe to toe or head to head with our Canadian brothers and 
sisters every once in a while, so thank you for your comments 
on that.
    Mr. Smith, we do look at your full testimony because I am 
going to ask these two gentlemen a question based on 
telecommunications.
    I know a lot of quality rural healthcare is provided with 
upgraded telecommunications--good cameras linking to hospitals 
and that. You can speak on behalf of probably Alaska--maybe you 
can speak on other parts of the country that you are doing some 
of that.
    Mr. Smith is just asking for $250,000 just to close the 
loop on his reservation for better telecommunications. He 
points out, if he is correct--and I am sure you are, sir--that 
is 29 percent of the total budget for telecommunications. So I 
know there is money in ag for rural telecommunications.
    I have heard from Leech Lake about telecommunications needs 
as well. It is really a hodgepodge putting this together. Could 
you tell me as we talk about upgrading our schools, we also 
need to talk about upgrading our healthcare facilities like 
telecommunications. Maybe Alaska has a leg up on it because you 
started out in the days of kind of communicating with radio, so 
maybe you are far more advanced in using telecommunications for 
healthcare.
    Mr. Teuber. Thank you for your question. Speaking on behalf 
of the Alaska Native Tribal Health Consortium, which really 
works with tribes and tribal organizations across the state to 
ensure that distance delivery for telemedicine and telehealth 
care services is made possible, oftentimes the ability to have 
a provider in one of our village communities is not there. You 
cannot have a dentist or a doctor that will serve as a resident 
of a community. And so distance delivery really becomes 
essential.
    And we have employed technology that allows for that to 
occur but it is technology that is predicated on the assurance 
that those broadband connections exist. And while technology 
continues to improve that allows for decreased bandwidth to 
make effective videoconferencing and other services usable, the 
importance of ensuring the funding for the subsidized 
connections is there.
    And I would say that for other parts of the state because 
the program really was not designed exclusively for the rural 
parts of the Nation but also for the urban part, that that 
subsidy is extremely important to ensure that for education and 
healthcare both, that that broadband connection or conductivity 
continues to exist. We have in the areas of healthcare 
proprietary technology that allows for the operation of 
telemedicine and telehealth, so both on the behavioral health 
side and on the actual primary or ambulatory care side. So I am 
happy to describe for the benefit of the committee through 
written correspondence additional information that might help 
you.
    Ms. McCollum. That would be great. Mr. Chair, the VA is 
doing that a lot with mental health. I saw in rural North 
Dakota and South Dakota and working with Sanford medical how 
they use some of the cameras and equipment available. They 
either let somebody know that they need to see a specialist 
right away. Sometimes the specialist can provide triage while 
they are moving forward. So I just think it is good for our 
kids, it is good for our health, and we should figure out a way 
to do that.
    Thank you, Mr. Chair.
    Mr. Calvert. Thank you. Mr. Simpson.
    Mr. Smith. Mr. Calvert, real quick.
    Mr. Calvert. Yes, sir.
    Mr. Smith. I really want to thank you for your comments 
about how you guys thought you had this resolved and contract 
supports for somebody in that system is spending a lot of money 
not to get this thing done. The only thing the Federal 
Government and IHS have done is make some attorneys really 
happy because, boy, they are sitting down, they are really 
going at this.
    And the last thing I want to say is I would like to invite 
you or anybody when I get this meeting set up by Dr. Roubideaux 
that if somebody in this system here could go out there and 
actually hear what we are going through with Dr. Roubideaux, 
that would give you guys a real insight.
    Mr. Calvert. I appreciate that. I will see if we can do 
that. But we need to get this thing resolved.
    With that, this panel is released. Thank you very much. 
Appreciate it.
    The next panel is going to be Ms. Donna Galbreath, 
President of the Southcentral Foundation; Ms. Patty Brown-
Schwalenberg, Executive Director of the Chugach Regional 
Resources Commission; Ms. Angela Cox, Vice President of the 
Arctic Slope Native Association; and Ms. Elsie Sampson Vaden, 
Self-Governance Coordinator for the Norton Sound Health 
Corporation.
    Everybody, thank you for attending. And in case you have 
not heard, we are trying to stay within the 5-minute rule. So 
when the little green light is on, you are great, but when that 
little yellow light is on, that means we have 1 minute 
remaining. And the red light means we are done.
     I am going to recognize Donna Galbreath first, President 
of Southcentral Foundation.
    Ms. Galbreath. Hi.
    Mr. Calvert. Hi.
                              ----------                              

                                             Monday, April 7, 2014.

                        SOUTHCENTRAL FOUNDATION


                                WITNESS

DONNA GALBREATH
    Ms. Galbreath. Hi. I am Donna Galbreath and I am actually 
the medical director for quality assurance for Southcentral 
Foundation I am testifying on behalf.
    SCF is a tribal organization that provides medical, dental, 
optometry, behavioral health, substance abuse treatment, and 
tertiary OB/GYN and pediatrics for about 120,000 Alaska Native 
American Indian people who live in Alaska. I am really excited 
to tell you that, thanks to the efforts of this committee, our 
Mat-Su Clinic is now open and we just received the staffing 
funding packet last week. So we are really excited to get that 
clinic fully staffed. It is quite an opportunity. Since we have 
opened our clinic less than 2 years ago, the population that we 
served at that clinic has increased by 60 percent.
    I also want to thank the committee for helping us 
successfully defeat the administration's proposal last year to 
cap contract support costs. These costs go to pay for health 
insurance for our employees, employee technicians, accountants, 
attorneys, human resources, all the costs that go into 
administrative costs for running a successful healthcare 
system. We hope IHS's funds that are promised to fund these 
costs in 2014 come through. And we will not have to deduct 
these costs from services we are already providing, as other 
people have already said.
    However, if IHS only continues to pay a portion of our 
contracts, we will never be able to keep pace with the needs of 
our expanding population to provide competitive salaries to 
recruit and maintain talented healthcare professionals and to 
provide high-quality care for what our people deserve. Just in 
Anchorage alone, our population increases to the point that 
every year we could hire a full team of healthcare providers to 
satisfy that need. So our needs are continuing to increase.
    This is not a small issue. Our claims which are unresolved 
exceed $200 million. We are way overdue to settle this. IHS 
needs to settle these claims. IHS knows about this. It is very 
simple math actually. They know what they owe us, they know 
what they paid us, and they know what they have not paid us. We 
do not need expensive audits. We do not need to have request 
for documentation all the time, and we do not need to go into 
renegotiation on what they are going to reach us because we 
reached these agreements 15 years ago and they were good faith 
agreements. We want to ask this committee to take whatever 
measures you can to see that our claims are fully resolved this 
year.
    As for current appropriations, we encourage the committee 
to focus primarily on general program increases. In prior 
years, the increases have been mainly with contract health 
services, which is very, very important and I understand that, 
but you cannot ignore the rest of the programs at all, 
especially for tribal organizations that provide direct 
services like Southcentral Foundation does.
    Priorities should also be placed on overcoming the 2 years 
of sequestration that have occurred. And the reason that I say 
2 years is because last year's increases were diverted by 
Indian Health Service to cover contract support cost 
shortfalls. These increases to general funds should also take 
into account inflation, population growth, dental services, 
mental health, and health education programs. These accounts 
were significantly impacted by sequestration and have not been 
restored.
    To summarize, SCF requests continued full funding for our 
contracts, resolution of our issues with Indian Health Service, 
and that the appropriation focus on the general program 
increases.
    I want to thank you again for all the support that you have 
provided us and I want to thank you for allowing me to testify 
on behalf of Southcentral Foundation and the people we serve. 
Thank you.
    [The statement of Donna Galbreath follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you. Thank you for your testimony.
    Next, Ms. Patty Brown-Schwalenberg, Executive Director, 
Chugach Regional Resources Commission.
                              ----------                              

                                             Monday, April 7, 2014.

                 CHUGACH REGIONAL RESOURCES COMMISSION


                                WITNESS

PATTY BROWN-SCHWALENBERG
    Ms. Brown-Schwalenberg. Thank you, Mr. Chairman.
    And thank you to the Committee for holding hearings. I 
think it is really important for the native voices to be heard, 
and this opportunity is, I feel, very valuable. So I appreciate 
that on behalf of my colleagues and I.
    The Chugach Regional Resources Commission is an intertribal 
fish and wildlife commission based in south-central Alaska, so 
we serve the 7 tribes of the Chugach region in Prince William 
Sound and Lower Cook Inlet dealing strictly with natural 
resource issues, subsistence, marine animals, migratory birds, 
that sort of thing.
    So I wanted to testify today on two parts of the Interior 
budget. One is the Bureau of Indian Affairs and the other one 
is the Fish and Wildlife Service.
    So the Bureau of Indian Affairs, under the Trust Natural 
Resources Management, there was a decrease in the natural 
resources sub activity by $76,000 and a decrease in fish and 
wildlife and parks by $246,000. And these were just diverted to 
other subaccounts. And it is really difficult to get funding 
for natural resource management anywhere, states, tribes, 
whatever. So if we could possibly bolster that program back up 
and at least replace the money that was taken, it would be nice 
to even get an increase, but we know the battle when you are 
reviewing the budget, so we would really like to get that money 
back to where it was.
    The Fish and Wildlife Service budget has $46.9 million in 
their budget and it is a $166,000 increase over 2014 and a 
$71.7 million increase for Resource Management. So our 
relationship with the Fish and Wildlife Service is that we 
handle the spring and summer subsistence harvest of migratory 
birds for the State of Alaska for the rural communities. We 
have been funded through the Fish and Wildlife Service budget 
for about $1 million a year since the Migratory Bird Treaty Act 
was amended back in the late '90s. And that funding has 
steadily decreased. We are around about 700,000. And that 
funding is not specifically identified for the Alaska Migratory 
Bird Co-Management Council, so we are basically dependent upon 
the goodwill of the Region 7 directorate to decide if we were 
going to get funding or not. So it would be our request that 
some of that increase for resource management be diverted to 
the Alaska Migratory Bird Co-Management Council in Region 7.
    I, along with the rest of the tribal people that have been 
testifying, support the fully funding of contract support, and 
we would like to thank you for the support we have gotten in 
the past for the work that we do at the Chugach Regional 
Resources Commission. In addition to the migratory bird 
management and marine mammal activities, we also have worked on 
tribal natural resources curriculum development with the 
University of Alaska Fairbanks, the National Oceanic and 
Atmospheric Administration, and the Native American Fish and 
Wildlife Society. So we are able to put these curricula in 
place at the K through 12 level and we have piloted the program 
in the Chugach region. So we are working to try to institute 
that. So what it does is it takes traditional knowledge and 
partners it with science so it will hopefully encourage more 
young people to pursue higher education degrees in the natural 
sciences.
    Also, we are looking at climate adaptation planning with 
the assistance from the Bureau of Indian Affairs funding. And 
our stellar program, the Alutiiq Pride Shellfish Hatchery, has 
been doing some groundbreaking work in the culture of clams, 
other shellfish, and red king crab and blue king crab. So we 
are working with many partners on that project in the Kodiak 
area and in the Aleutian Pribilof Islands. They have not been 
able to harvest crab for over 20 years, so we were trying to 
figure out what happens to the crabs, where they go when they 
are born, and if there is any way that we might be able to 
figure out why that population is not returning and maybe 
enhance the population, maybe not in my lifetime. It may be in 
10 years or so. Anyway, so that is one of the exciting things 
that we have been working on.
    So just in closing, I thank you for the funding that we 
have received in the past, the $410,000. I would urge you to 
sustain that funding in the BIA's 2015 budget and again 
increase the funding for the BIA's Trust Natural Resource 
Management programs and discourage the BIA from decreasing 
funding for sub activities like natural resources and fish, 
wildlife, and parks.
    We also urge the Subcommittee to support the President's 
request for increased funding for Fish and Wildlife Service but 
to again designate $1 million of the proposed increase to the 
Alaska Migratory Bird Co-Management Council and support the 
administration's proposal to fully fund the contract support 
costs.
    So thank you for the opportunity to provide this 
information and it is an honor to be here. And I would like to 
thank you again.
    [The statement of Patty Brown-Schwalenberg follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. I thank the gentlelady for her testimony.
    Next, Ms. Angela Cox.
                              ----------                              

                                             Monday, April 7, 2014.

                    ARCTIC SLOPE NATIVE ASSOCIATION


                                WITNESS

ANGELA COX
    Ms. Cox. [Speaking native language.]
    Good afternoon, Honorable Chair and Members of the 
Subcommittee. Thank you for the opportunity to testify before 
you today regarding the fiscal year 2015 budget for the Indian 
Health Service. My name is Angela Cox. I am Inupiaq from the 
northernmost tribe in the United States, and I serve as the 
vice president of administration for Arctic Slope Native 
Association in Barrow, Alaska.
    We are proud to report the opening of our new hospital in 
Barrow has been a great success, happening on time and on 
budget. We can now provide more specialty services like CT 
scans and physical therapy on location and without the need to 
send our patients across the state to access these services. 
Additionally, we are expanding our use of telemedicine and have 
developed a home model for primary care services so that the 
people we serve no longer have to leave their communities to 
obtain the basic healthcare they deserve.
    We are proud of these achievements and know we could not 
have done it without the contributions we received from this 
committee. For these reasons, we cannot thank you enough.
    I would also like to thank the Committee for making full 
funding of contract support costs a reality. On that topic, we 
are fortunate to be one of the few tribes that have resolved 
our pending claims for underpayments of these costs in prior 
years. However, we had to wage a decade-long litigation battle 
against the Indian Health Service to get there, including three 
Court of Appeals decisions, a Supreme Court ruling, and 18 
months of intense and costly negotiations. We hope the IHS 
changes its policies, becomes more transparent and willing to 
share data with the tribes, and pay the money and does so on 
time so tribes never again have to deal with the expense and 
delay of a legal battle simply to receive what we were promised 
in the first place.
    To help facilitate this process, we ask this committee to 
support advanced appropriations for IHS, which would give the 
agency the flexibility it needs to adapt to changing funding 
levels that occur throughout the contract year. We would also 
like to thank the Committee for its continued support of the 
Contract Health Services Account, now called the Purchased/
Referred Care Program, without which our people would not be 
able to obtain healthcare unless it was available inside our 
own facility.
    I can assure you that flights from the North Slope to 
Anchorage are not cheap and one cannot even fly commercially 
from Barrow to Seattle directly, but these two cities have the 
closest facilities for highly specialized care. In this year 
alone we have purchased care from the Seattle Children's 
Hospital for 18 pediatric cardiology patients, paid for 
medevacs from the surrounding villages to our facility in 
Barrow and purchased ophthalmology services for over 40 
patients. Without the PRC program, these services would not be 
available.
    I must say a word about the agency's proposed 
implementation of the new medical coding system. IHS has 
indicated that this change will require 31 software patches, 
each of which will need time to be tested and perfected. 
However, IHS's planned release of monies would not have given 
us enough time to complete these updates thereby crippling our 
current medical billing system. And now that we have additional 
time to comply, we ask that this committee designate special 
funding for the agency so they can have the new system up and 
running in time.
    The last issue I would like to quickly mention that you 
have heard about previously is the Village Built Clinic Lease 
Program. You have heard how important it is to rural Alaska. 
Our CHAP program needs those VBCs. In 2013 an estimated $4.5 
million was provided for the VBC lease program only covering a 
little over \1/3\ of the operating cost necessary. So we do 
request an additional $8 million for VBCs for fiscal year 2015.
    In conclusion I simply want to say quyanaq, or thank you. 
It is a great pleasure to be here today.
    [The statement of Angela Cox follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you very much.
    Next, Ms. Elsie Sampson Vaden, Self-Governance Coordinator, 
Norton Sound Health Corporation. You are recognized.
                              ----------                              

                                             Monday, April 7, 2014.

                    NORTON SOUND HEALTH CORPORATION


                                WITNESS

ELSIE SAMPSON VADEN
    Ms. Vaden. Thank you. Thank you so much. I appreciate the 
opportunity to be here, too.
    Our healthcare system at Nome is a tribally owned regional 
hospital and it is operated under the Indian Self-Determination 
Act agreement, and we have 15 village-based clinics. We just 
moved out of our 66-year-old hospital into our new hospital and 
we have been there for over a year and it is making such a 
world of difference just allowing us to have more services that 
we can provide in the primary acute-care areas, including 
chronic disease prevention management and increased trauma and 
emergency services.
    IHS provided us in fiscal year 2014 staffing package 
funding that is about $400,000 short of what was signed into 
the validated resources requirements methodology. The amount 
should be $8.8 million and not $8.4 million. Staffing package 
funding is recurring and the shortfall of $400,000 annually 
plus associated contract support costs is a considerable amount 
of money and will affect our ability to make crucial hires. We 
already have one of the highest health professional shortage 
areas scores in the nation.
    One of the things that I do in the region there is I am on 
the volunteer ambulance department, and when we pick up a 
trauma patient within the community or one that is medevaced 
from the villages and we have to assist sometimes with CPR, so 
even when we get into the emergency room, we continue to assist 
doing CPR. And when you are doing compressions on a family 
member, it makes it very painful sometimes. And that is the 
request that we are asking that we can get our professional 
people there so we can just deliver our patients and not feel 
like, you know, we have to carry the pain around when you lose 
a patient when it is a family member.
    So we ask the Subcommittee to work with the IHS to see if 
this shortfall can be made up in fiscal year 2014, and if not, 
then to provide these funds in the fiscal year appropriations 
bill.
    On the Village Built Clinics, as I indicated, we have 15 
village-based clinics. It is absolutely crucial to provide 
healthcare to our villages. These clinics are leased by the IHS 
and they house the Community Health Aide program and some 
visiting dentists and doctors come in and they provide that 
healthcare as well. Most of the time in some of our smaller 
villages we do not have the space to give up or we have one or 
two exam rooms with a population of 884 or even 300 people. You 
know, we have to find another place within the community if we 
need to get specialty care into our villages.
    So we really appreciate the teleconferencing equipment, the 
teleconferencing and the Afghan equipment, because it really 
makes a difference in being able to work with the doctors in 
Nome and with the health aides in the villages. That has saved 
lives and we really appreciate those tools.
    The lease rental amounts have not been increased since 
1989. IHS instead takes a position that this is all the funding 
that Congress has appropriated. There is no line item in the 
IHS budget for village-based clinics. In fact, the lease rental 
is of construction and IHS could use maintenance and 
improvement funding or other discretionary for this purpose. 
The result is that many of the VBCs are unsafe or have had to 
be closed temporarily.
    I have some pictures here that I can share with you because 
they say pictures speak a thousand words. So the Indian Health 
Care Improvement Act requires that there be a Community Health 
Aide Program in rural Alaska in part of what is having the 
clinic space for them to work. We ask that Congress provide at 
least an additional $8.5 million for the VBC program, as Angela 
alluded to earlier.
    I also want to thank this subcommittee for its role in 
bringing about full funding for the contract support in fiscal 
year 2014, and we are hopeful that this will also happen in 
fiscal year 2015. We join with others in Indian Country in 
supporting placing contract support costs on a mandatory 
funding basis. It is a legal obligation and should be treated 
as such.
    On injury prevention, northern Alaska is a dangerous place 
to live and work due to its climate and the Bering Sea. We have 
an injury prevention program funded in part through and IHS 
grant which is now in its 4th out of 5 years. And under the IHS 
program, IHS pays for 2 percent from the budget and we provide 
safety education in the areas of transportation and home 
environment and would like to increase education on elder fall 
prevention and do not have the facilities to care for more than 
a handful of elders who may fall and need assistance to 
recuperate.
    Not only will the injury prevention program be able to 
educate our elders and the tools that we have like the ice 
cleats so they will not fall, I mean, you know, hips break 
easy, arms break easy, wrists break. You know, at that age, you 
know, we need to be able to teach them how to use these tools 
that we have for them. And we have a safety shop in our 
hospital, and having some of that equipment and products, we 
have increased our sales on ice cleats, those float coats, and 
other safety products.
    And I was thinking about this and I thought, boy, if I can 
come back to this Committee and say in 6 years thank you so 
much for continuing to provide the injury prevention program, 
when I am 65, I will say, listen, I am still here without a 
broken bone because you allowed me to have the ice cleats. You 
allowed me to have the vest where I am visible in the dark if I 
am taking a walk or, you know, boating with a float coat on. So 
I would like to do that in 6 years when I am 65 and say thank 
you to all of you for that. So funding for injury prevention is 
a good investment saving pain and healthcare dollars, and for 
elders, helping them to stay in their homes. We ask Congress to 
place more resources and emphasis in the IHS budget on this 
matter.
    Finally, our testimony covers two matters that affect this 
Subcommittee but that will require authorizing legislation. 
First, we support placing the IHS on an advanced appropriations 
basis. Second, we support allowing the IHS and tribal Medicare 
health providers utilizing the purchase referred care package 
to charge Medicare-like rates for nonhospital services.
    Thank you for supporting us and our brothers and sisters in 
Alaska and I will continue to pray for all of you.
    [The statement of Elsie Sampson Vaden follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you for your prayers.
    And thank you for your testimony.
    And ice cleats, I am from Southern California near Palm 
Springs. I did not know what ice was until I got here to 
Washington, D.C., and I still do not know what ice is compared 
to Minnesota or to Michigan. But I have been to Barrow, Alaska, 
a couple of times and what I certainly respect about Alaska is, 
as Don was pointing out, is its size. It is a big, big state 
and a lot of remoteness is up there. I went up there with Ted 
Stephens once and it is just a big, big place and difficult to 
manage because of the separation distances. And so it is a 
special place that we need to work with you on as a committee 
and make sure we take care of our responsibilities.
    Certainly, teleconferencing is a great technology. I 
imagine getting the internet throughout a state that size is a 
difficult proposition but it has to be done over time. So I 
look forward to working with you on that.
    Any other questions?
    Mrs. McCollum.
    Ms. McCollum. Do you want to go first?
    Mr. Calvert. No, go ahead. You go ahead.
    Ms. McCollum. Thank you, Mr. Chair. A couple of things. We 
were colder in Minnesota--you should have been in Wisconsin 
this winter--than Alaska was. I woke up every morning to hear 
what the temperature was in Alaska and went, yes, I wish I 
lived there. Yes, it was colder in Minnesota and Wisconsin. You 
still have more snow, though.
    I am going to look into the relationship that you have with 
U.S. Fish and Wildlife because I know tribes have the Circle of 
Flight in the Great Lakes region. You do not have a similar sit 
down with them?
    Ms. Brown-Schwalenberg. No. What happens is because of the 
change in the Migratory Bird Treaty Act and the creation of the 
Co-Management Council, the council consists of one tribal 
representative, one state representative, and then a native 
caucus of attendant native representatives from each of the 
regions where the birds occur and where the subsistence 
activities are happening. And so regulations are proposed and 
then adopted by the Service Regulations Committee here in 
Washington, D.C., but we do not really have any input into the 
budget. So because it is a regulation based, you know, with the 
amendment----
    Ms. McCollum. Yes.
    Ms. Brown-Schwalenberg [continuing]. They are willing to 
put the money into it. But what my fear is is if the leadership 
changes at the Region 7 level, we may not always be able to 
enjoy the level of support that we are at this point in time. 
And so in order to secure that funding I think it would make 
everyone feel a little more comfortable if there was an actual 
designation for the Migratory Bird Co-Management Council.
    Ms. McCollum. I will take a look into that and learn more 
about it. Thank you.
    I do not want to make an assumption but it is my 
understanding from talking to some of my physicians that 
voluntary gun locks often prevent a juvenile from committing 
suicide. So if you could maybe comment on that and then I will 
ask my other question.
    When I was with Chairman--well, you are still the chairman 
of Energy and Water--Simpson, we visited an IHS hospital and 
they did not do delivery there because, let's face it, IHS's 
delivery record is not very good and Indian Country's mortality 
rate is not very good. So do you identify high-risk? Are you 
delivering at IHS hospitals or are you referring people out? 
Those are the two questions I have.
    Ms. Sampson Vaden. For the gun locks we do get some of 
those in Nome where we go out for grants to try to come up 
with--for the 15 surrounding villages we have 10,000 tribal 
members and that is not counting the rest of the community 
members within each village. So, yes, it costs money to get 
those things, I mean fire alarm systems, smoke alarm systems. 
And the gun locks that they use sometimes, they are easy to 
break open with a knife, so that is not always secure. We are 
looking at every injury prevention way of, yes, committing 
suicide. And I can see Big Diomede from Little Diomede, so 
Russia is our neighbor.
    Mr. Calvert. Can you see that from the front door?
    Ms. Sampson Vaden. Right from the clinic.
    Mr. Calvert. Okay.
    Ms. Cox. And then to address your question about high risk 
pregnancies, we do feel like over the years have become very 
risk-averse. And maybe with our new facility, that may shift a 
little bit because of our new labor and delivery and recovery 
rooms and new equipment. But, you know, I think we deliver--I 
mean the averages may be about 130 babies a year that are born 
to parents on the North Slope and we maybe deliver 20 to 30 of 
those. So if there is any indication, even if it is their first 
child, we usually send them down to the Alaska Native Medical 
Center.
    Ms. McCollum. Mr. Chairman.
    Mr. Simpson. Personally, being from Idaho, Alaska is the 
one state I have never been to, one of the two or three, which 
is kind of surprising. And I have been invited up there a 
number of times and just never made it. Senator Murkowski has 
invited me up and Don has invited me up a lot of times. How 
long does it take to get from Barrow to Anchorage?
    Ms. Cox. Quite long. I started out Saturday evening and got 
here yesterday afternoon around 1:00 p.m. And that was Barrow 
to Anchorage, Anchorage to Chicago, Chicago to D.C.
    Mr. Simpson. How long of a flight is it from Barrow to 
Anchorage, about 3 hours?
    Ms. Cox. About 2 hours if it is a direct, but there are 
very few flights that are actually direct so you usually stop 
in Prudhoe Bay or Fairbanks.
    Mr. Simpson. It is a big, big state. But thank you all for 
being here today. It is one of the challenges we have about how 
to get practitioners up into Alaska. I mean you have so many 
Alaska native villages that are out in the hinterlands that for 
a practitioner, or a dentist like I used to be, to get to these 
villages is difficult because they have to make a living, too. 
And how do you do that out in some of these very, very remote 
areas? And so I know the ADA has tried some different programs 
to try and help.
    But I appreciate all the testimony that you give us and the 
perspective and I will make it up there to Alaska. And quyanaq, 
is that the right way to say that?
    Ms. Cox. Quyanaq.
    Mr. Simpson. Thank you.
    Ms. Galbreath. I have one comment that I--well, I actually 
have two now. I wanted to say that you are welcome any time and 
that you would find the dental program and Alaska pretty 
interesting. So it would be nice if you could come.
    Mr. Simpson. Yes.
    Ms. Galbreath. And I wanted to talk more about OB/GYN. We 
are the tertiary center at ANMC and so all of our providers are 
the OB/GYNs that work within the hospital there. Alaska, it is 
very unique, and because it is so large, we kind of had a 
spoke-and-hub system. So you have a lot of different sites that 
deliver healthcare but then the tertiary referral comes in to 
the main hospital at ANMC. And I work for--it is complicated--
the primary care system but we also deal with the OB/GYN 
doctors in the hospital. So we support all the areas for 
deliveries that are referred into the hospital and we try to 
support rural areas in deliveries because most of the 
deliveries happen within Anchorage. So if a provider is out in 
a rural area and wants to deliver babies, we allow them to come 
in in our hospital and get the numbers up so they can keep 
their skills up.
    And I also wanted to point out that Alaska has the lowest 
infant mortality in the Nation.
    Mr. Simpson. Why?
    Ms. Galbreath. And it is because we all work together. The 
whole state works together on this.
    Ms. McCollum. And, Mr. Chair, real quick--what is your 
cesarean rate, then?
    Ms. Galbreath. It is also the lowest in the Nation.
    Ms. McCollum. Yea.
    Ms. Galbreath. Yes.
    Ms. McCollum. I knew this panel rocked.
    Mr. Calvert. Interesting. Okay. Again, thank you very much 
for attending and coming a long distance that you flew to get 
here.
    Ms. McCollum. Good job.
    Mr. Calvert. Good job, yes.
    Okay. The next and final panel for today is Ms. Jessica 
Mata-Rukovishnikoff.
    Ms. Mata-Rukovishnikoff. It is Americanized now.
    Mr. Calvert. Okay. Primary Care Services Regional 
Administrator, Aleutian Pribilof Islands Association; and Mr. 
Victor Joseph, Health Services Director of the Tanana Chiefs 
Conference. Okay. Got it.
    Okay. Everybody grab a seat.
    First, I am happy to recognize--how do you pronounce your 
last name again?
    Ms. Mata-Rukovishnikoff. It is Rukovishnikoff, and it is 
actually Americanized. So it is obviously Russian.
    Mr. Calvert. A lot of Russians in your part of the world.
    Ms. Mata-Rukovishnikoff. Yes.
    Mr. Calvert. Okay. I will take your word for it and you are 
recognized.
                              ----------                              

                                              Monday, April 7, 2014

                 ALEUTIAN PRIBILOF ISLANDS ASSOCIATION


                                WITNESS

JESSICA MATA-RUKOVISHNIKOFF
    Ms. Mata-Rukovishnikoff. I was starting off with good 
afternoon but it is a good evening now I guess.
    And I am Jessica Mata-Rukovishnikoff. I am an Aleut born 
and raised on St. Paul Island, which is the Pribilof Islands, 
so around, if you are familiar with the Deadliest Catch, we 
have the richest crab and halibut. So we are out north. You 
heard from north, the southeast panhandle. We are off towards 
Russia but down southwest.
    So I am the primary care services regional administrator 
for the Aleutian Pribilof Islands Association. We were actually 
laughing about that because my name, where I work, and my title 
is going to take up all 5 minutes.
    But APIA is the federally recognized tribal organization of 
the Aleut people in Alaska. We have a 13-member board that 
governs the association, and each director represents one of 
the 13 Aleut tribal governments in the Aleutian chain and 
Pribilof Islands of St. Paul and St. George. They are appointed 
by the community's tribal governments. They establish overall 
policy and direction for APIA and guides the services that we 
deliver, including health, education, social, psychological, 
employment, and vocational training and public safety.
    Our mission is it to provide self-sufficiency and 
independence of the Aleuts through advocacy, training, 
technical assistance, and economic enhancement, to assist in 
meeting the health, safety, and well-being needs of each Aleut 
community, and to promote, strengthen, and ensure the unity of 
the Aleuts, and finally to strengthen and preserve our culture, 
which all leads into why I am here today, to request your help.
    There are four issues that I am going to address, and the 
first one is funding for reconstruction of the Unalaska 
Hospital and Atka Island facility clinic. On June 4, 1942, the 
Japanese bombed the BIA-operated 24-bed hospital that we had 
out in Unalaska, and then 10 days later the residents of Atka 
Island were forcibly evacuated from home by the U.S. military 
for their own safety. The military then burned down the 
structures on the island to the ground, so the whole village 
was burned down, including the health clinic, and this was to 
prevent their use by the Japanese.
    So as a result, and to this day, the nearest hospital is 
800 miles away in Anchorage and not accessible by any roads, so 
this would be the Alaska Native Medical Center that Andy Teuber 
testified on. So every village out in the Aleutian and Pribilof 
Islands fly into Anchorage for everything, so there is no 
hospital. We are the only region in Alaska that does not have 
our own hospital.
    And we would have thought that there would have been 
reconstruction and restitution for the loss of these healthcare 
facilities but there was not. The Aleutian and Pribilof Islands 
Restitution Act limited restitution to partial losses suffered 
by Aleut people who were evacuated from our communities from 
1942-45. The Aleut people sent to the evacuation camps suffered 
horribly. Many died, and those that return home found 
everything destroyed, possessions taken, and churches stripped 
of religious artifacts.
    We want to replace the hospital and clinic through IHS's 
Joint Venture Program, which requires non-IHS construction 
funds and in turn the IHS will provide staffing and operating 
funds. The Joint Venture Program has been successful. It is 
competitive, and APIA ranks high on the priority list. We are 
in the top five, and just last week, Friday, the IHS invited us 
to update our application, so they are moving along so they 
must have some money.
    The non-IHS funds would come by amending the Aleutian 
Islands Restitution Act to provide for $100.4 million to 
construct the hospital and clinic. $96.9 million is estimated 
for the hospital and $3.5 million for the Atka Island clinic. 
Replacing the hospital would save the huge cost of sending 
referrals to Anchorage, the airfare for which averages about 
$1,400, so 13 villages in our region traveling to Anchorage for 
their care. There is also the cost of lodging and meals and the 
personal hardship of having to leave the community. People in 
Atka are 350 miles away from Unalaska so it is pretty vast a 
region and they are often isolated by weather conditions.
    Our testimony includes a proposed amendment to the Aleutian 
and Pribilof Islands Restitution Act, and we would ask for your 
support of such amendment.
    The second one is the IHS advanced appropriations, and you 
have heard from many tribes and others about the problems 
caused by late appropriations and continuing resolutions. The 
planning for and execution of health programs, it makes it 
difficult under those conditions. The appropriations this year 
were signed 3-1/2 months after the beginning, and in fiscal 
year 2013, it was 6 months late. So we are getting closer to 
October 1, but if we had a year, then we would be able to 
assist in planning and help us provide continuity of care, 
including recruitment and hiring, which is one of our biggest 
issues.
    Congress has provided advanced appropriations for the 
Veterans Administration's medical accounts, and the IHS, whose 
budget is totally devoted to healthcare, should also be 
afforded this treatment. Both the VA and IHS provide direct 
healthcare and both are the result of federal policies. And we 
are thankful to Representative Young and Senators Murkowski and 
Begich for introducing the legislation to authorize advanced 
appropriations for IHS.
    The third one is contract support costs, and definitely 
thanks to this Subcommittee for bringing about full funding for 
contract support costs in '14 and we are hopeful that this will 
also happen in '15. And we join with others in Indian Country 
in support of pricing contract support costs on a mandatory 
funding basis.
    Finally, Village Built Clinics and Medicare-like rates, you 
heard from others and we do join them, Alaska native 
organizations, in supporting an increase for the Village Built 
Clinics. The Atka Island clinic alone is like just falling 
apart so I could not even take pictures. And we join with other 
tribes and tribal organizations around the Nation in supporting 
the use of Medicare-like rates for a non-hospital portion of 
the IHS referred and purchased care program.
    Thank you for your time and attention to these matters. The 
time is definitely now and I invite you to join the Aleut 
people in restoring healthcare services in our region and begin 
the healing of our people from World War II.
    [The statement of Jessica Mata-Rukovishnikoff follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you. I thank the gentlelady for her 
testimony.
    Next, Mr. Victor Joseph, the Health Services Director.
                              ----------                              

                                             Monday, April 7, 2014.

                        TANANA CHIEFS CONFERENCE


                                WITNESS

VICTOR JOSEPH
    Mr. Joseph. Thank you, Mr. Chairman and Members of the 
Committee. I just want to thank you for this opportunity to 
testify today.
    I am currently the Tanana Chiefs' president and I was just 
elected about 3 weeks ago, so relatively new to my job.
    First of all, I just want to really thank you for the 
support that this Committee has given for approving the 
staffing package, for getting the staffing package authorized 
and approved. That helped us tremendously. Our services have 
increased by over 20 percent and we have seen our user 
population increased by about 500. And more and more people are 
coming every day, not just recently, that is today. The person 
that went back to our services and it was really good and a lot 
of it is due to that clinic being built.
    And there has been a lot of talk about contract support 
costs and I agree with all the requests there. But what I would 
like to ask for is to break the current stalemate with IHS and 
we ask you to insert language into the appropriation act that 
will instruct IHS to settle up based on its own certified 
reports. And if there is a problem there on the reports, let's 
fix that and let's just end this fight once and for all and 
move on.
    Purchased and referred care, previously known as contract 
health services, I also want to thank you for that recent bump 
that we received. But right now, it still is not adequate. TCC 
is currently at 63 percent of expenditures in that program when 
we are only halfway through the year. If we keep on going at 
this pace, we will be done by June and we still have 3 months 
left to go or a few months left to go. Increased funding in 
there would be really appreciated.
    Alaska native women need Congress' help and they need it 
now. When we look at the Law and Order Commission Report in 
tribal villages and native communities in Alaska, the report 
rates that domestic violence is up 10 times higher than the 
rest of the United States. Physical assault victimization rates 
are 12 times higher. The DVPI program should be substantially 
increased, even tripled. We ask you that you have to direct the 
IHS director to continue funding this important program and 
help us stop this.
    Also, too, when it comes to Department of Interior, we ask 
the Committee to consider increasing funds allocated to three 
specific areas within the real estate service items, the first 
one, the Probate in the Trust Real Estate Services budget. 
Despite the importance of this program, there are still not 
enough funds to cover the need. TCC alone has to deal with a 
backlog of 230 cases. A probate backlog locks up the title on a 
property and transactions that cannot be processed on lands 
with pending probates. Please help us help our people achieve 
ownership, self-sufficiency and increasing funding for the 
probate program.
    The second one is rights and protection and litigation 
support. This program helps tribes defend and protect their 
trust lands and resources through funding and support 
litigation, negotiations, and administrative proceedings. At 
TCC we have an ongoing need to provide the protection, and we 
receive 40 trespass complaints a year. With proper support we 
can continue to help allotment owners so that their rights are 
not violated and their resources are not damaged or stolen.
    Lastly, environmental quality programs, this program is 
critical to our ability to use our land. In development for 
housing, leasing, timber, and resource extraction, among other 
activities, requires completion of an archaeological 
investigation, and that investigation must be approved by the 
BIA and the state historic preservation officer. Environmental 
quality funds support this activity, which is the first step in 
any land development. With Congress' support, we can safeguard 
our cultural heritage while also developing our lands and 
resources to better the lives of our people.
    There are just a couple statements that I would like to add 
on this. Ms. McCollum, you were asking specifically about 
teleservices, telepresence. I would really like to have an 
opportunity later to talk to you about it and what we are doing 
at Tanana Chiefs and how we are expanding it through all the 
healthcare services throughout our interior. It is vitally 
important to us in the delivery of healthcare.
    Also, too, village-based clinic lease has been spoken of 
several times, no running water or even hooked up to sewer. So 
anything that we can do there would be greatly appreciated.
    Once again, Mr. Chairman, just thank you for this 
opportunity to have a few minutes with you and I look forward 
to any questions. Thank you.
    [The statement of Victor Joseph follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you very much.
    You know, when you think about World War II, and of course 
we always remember the attack on Hawaii, the number of people 
we lost and so forth, but one of the forgotten battles is the 
battle of the Aleutian Islands. And it was a very bloody 
battle. As a matter of fact, we lost a number of military 
personnel in that battle and I did not know that there was a 
hospital there that was destroyed.
    How many members do you have that live in the 13 villages?
    Ms. Mata-Rukovishnikoff. Tribal members, we have up to 
1,800.
    Mr. Calvert. Eighteen hundred.
    Ms. Mata-Rukovishnikoff. Like out in the Pribilofs alone we 
have anywhere from 3 to 5,000 people come in around the islands 
because of the crab and halibut and salmon fisheries. So 
probably five of our villages out in the region, Unalaska 
included, anywhere--well, Unalaska is probably like 20,000 
fishery people that come in.
    Mr. Calvert. And you really can see Russia from your front 
porch?
    Ms. Mata-Rukovishnikoff. Well, yes. I moved to Wasilla, so 
I live in Wasilla. Now that I do not live in St. Paul anymore, 
I moved to Wasilla.
    Mr. Calvert. Well, there you go. Okay.
    Ms. Mata-Rukovishnikoff. It is really I see over there.
    Mr. Calvert. Okay. Well, we certainly need to look into 
that problem.
    Mr. Moran. What, the problem with seeing Russia?
    Mr. Calvert. No, to replace that hospital. Gee, I did not 
know that.
    I know the issue of domestic violence throughout the native 
population is a huge problem and we have to, culturally, deal 
with that, along with other issues.
    Any other questions?
    Ms. McCollum. Victor, how many days are you here? Are you 
going to be leaving because I am going to be doing this again 
tomorrow.
    Mr. Joseph. I am here tomorrow but I would be more than 
happy to contact your staff and arrange a teleconference here--
--
    Ms. McCollum. Well, see if you can talk to my chief of 
staff. Okay. Thank you.
    Mr. Joseph. Thanks.
    Mr. Simpson. You just said that violence against women was 
10 times higher.
    Mr. Joseph. On the report that was presented, the Indian 
Law and Order Commission reported that women in tribal villages 
and native communities in Alaska have reported rates of 
domestic violence up to 10 times higher, and this was----
    Mr. Simpson. It is 10 times higher, or 10 percent higher?
    Mr. Joseph. No, 10 times higher than the rest of the United 
States.
    Mr. Simpson. Okay. Several people testifying today have 
suggested and recommended forward funding for contract support 
costs for Indian Health Services. You know what the challenge 
with that is, do you not?
    Mr. Joseph. I believe I understand the challenges, yes.
    Mr. Simpson. And for anybody that does not, the challenge 
is while everybody thanks us for the fact that we are 
addressing the situation from what it was several years ago, 
Indian Health Services and getting additional money in there, 
we are still short. I think you said something like it met 60 
percent of the need.
    And so as we are trying to address that that exists. To do 
forward-funding you have got to find another year of funding on 
top of that in order to get it forward-funded a year. And until 
we can address the need in the annual budget, it is really hard 
to find the money to forward-fund anything. While I understand 
it would be nice, in fact I bet every agency in the Federal 
Government would like forward-funding. There are some things 
that make sense that we do it that way when planning is years 
out. But it is a challenge to try to do that, and that is one 
of the challenges we have frankly.
    And while I understand that we are trying to address what 
is owed under the purchased contract, things to the different 
tribes and the courts that we need to pay. The challenge we 
really have is that when we are looking for dollars and we are 
trying to increase the funding for the programs right now to 
address the need right now, it is hard to go find the money to 
take care of what we owe in the past, although I fully agree 
that we owe it and I would love to find the money for it. And 
if we could find it in the judgment fund, I think that is 
wonderful. That is something we will certainly be looking at. 
But it is not because we do not want to address these needs. It 
is the challenge of trying to address such a great need with 
the limited resources.
    But I do appreciate the fact you recognize we have been 
moving in the right direction.
    Mr. Calvert. I think that is exactly what that judgment 
fund is for from my perspective.
    Again, I want to thank our witnesses and I would encourage 
you all to ask our counterparts in the United States Senate to 
hold similar hearings so they can listen to you also because 
sometimes our difficulties are not here. We tend to agree on a 
lot of things. It is just our friends on the other side. As Sam 
Rayburn used to say--he was a Democratic Speaker here for many 
years--he said the Republicans are our adversary; the Senate is 
the enemy.
    With that, we are adjourned for the day. Thank you.
                                            Tuesday, April 8, 2014.

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

         PUBLIC WITNESSES--NATIVE AMERICANS AND ALASKA NATIVES

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. Good morning, and welcome to the third of four 
public witness hearings specifically for American Indian and 
Alaska Native Programs on the jurisdiction of the Interior, 
Environment Appropriations Subcommittee.
    I especially want to welcome the distinguished tribal 
elders and leaders testifying today, and in the audience. I can 
assure you that your voices are heard by this Subcommittee. For 
us to listen through these hearings and not feel compelled to 
do all we can to try and help would be unconscionable.
    Just as they were under the chairmanships of Norm Dicks, 
Jim Moran and Mike Simpson, American Indian and Alaska Native 
Programs shall continue to be a priority for this Subcommittee.
    Before we begin, I have a bit of housekeeping items to 
share. Committee rules prohibit the use of outside video 
cameras and audio equipment during these hearings. That is to 
ensure that if anything is said here today, it is not unfairly 
reproduced or out of context. An official hearing transcript 
will be available at GPO.gov.
    I will call each panel of witnesses to the table, one panel 
at a time. Each witness will have 5 minutes to present his or 
her oral testimony. Each witness' full written testimony will 
be included in the record, so please don't feel pressured to 
cover everything in 5 minutes. We will be using a timer right 
there to track the progress of each witness. When the light 
turns yellow, the witness has 1 minute remaining to conclude 
his or her remarks. When the light blinks red, we will ask the 
witness to please stop.
    Members will be provided an opportunity to ask questions to 
the witness, but because we have a full day ahead, which will 
be interrupted by votes this afternoon, I request that we keep 
these things moving in order to stay on schedule.
    Yesterday, a tribal elder expressed his frustration about 
flying all the way out here, only to be able to talk to us for 
5 minutes. I want to know everyone--I want everyone to know 
that I consider these hearings to be just the start of an 
ongoing dialogue. I encourage all of you to continue to 
communicate with the Subcommittee throughout this budget 
process, and not just for the 5 minutes we have here today.
    You traveled a long way to be here this week, and I hope 
that you will seize the opportunity to meet with other members 
of Congress outside of this Subcommittee and, of course, our 
friends in the United States Senate, including not just those 
representing where you live, but where your ancestor lives as 
well. Help us explain the trust obligation and to show not only 
the disparities in Indian Country as compared to the United 
States population as a whole, but what is possible when 
American Indians are fully empowered to exercise their self-
determination rights.
    With that, I thank you all again for being here today, and 
I am happy to yield now to our distinguished Ranking Member, 
but Mr. Moran will be here shortly, so I am going to ask if Ms. 
McCollum would like to give some opening remarks.

                    Opening Remarks of Ms. McCollum

    Ms. McCOLLUM. Well, thank you, Mr. Chair. And this has been 
very, very good testimony that we had yesterday. I am looking 
forward to the testimony today.
    You reinforced some of the work that we have been doing, 
you gave us directions and suggestions on how to do it better. 
So as the Chairman said, I know it is only 5 minutes to speak, 
but it is 5 very powerful minutes and then all your testimony 
is in the record. Thank you, Mr. Chair.
    Mr. Calvert. Thank you. Thank you.
    Our first witness today is Ms. Jessica Burger, Tribal 
Manager of the Little River Band of Ottawa Indians.
    Ms. Burger, you are recognized.
                              ----------                              

                                            Tuesday, April 8, 2014.

                  LITTLE RIVER BAND OF OTTAWA INDIANS


                                WITNESS

JESSICA BURGER
    Ms. Burger. Thank you, Mr. Chairman. Good morning, 
respected committee members. I am Jessica Burger and I am the 
tribal manager of the Little River Band of Ottawa Indians. We 
are located in Manistee, Michigan, on the beautiful shoreline 
of Lake Michigan. Our Tribal Ogema, Larry Romanelli, was unable 
to travel here this morning to deliver this testimony himself, 
but he sends his regards to the committee.
    We were pleased to see the Administration made a commitment 
to stand with Indian Country this year by requesting increases 
for the Bureau of Indian Affairs and the Indian Health Service. 
At 34 million and 200 million respectively, the increases will 
have a negative--or a total impact to restore our community, 
and to also support necessary jobs in our communities.
    Appropriations are a good investment. In Indian Country, 
when we have meaningful appropriations and the communities 
prosper, so does America. It builds strong tribal nations, and 
we believe in the strength of tribal nations.
    Little River Band is one of the largest employers in our 
county. We have 1,300 employment positions that are supported 
by our revenues that we generate through gaming operations and 
other enterprises, and the federal appropriations we receive 
and the programs that we provide to our citizens. That 
effectually creates a payroll of over $112 million in a 
community of just about 8,500 persons total.
    The surrounding community is very reliant upon us, as we 
are them, to support our operations, and we believe that this 
demonstrates our commitment to government-to-government 
relationships, not only with the Federal Government, but with 
the local municipalities that we also help subsidize through 
tax assessments and other revenues. And a part of our effort is 
dependent upon contract support cost. This--contract support 
costs are very critical for us to be able to retain and sustain 
full-time employment positions, and we are pleased that the 
President made a request for full contract support costs for 
both the Bureau of Indian Affairs and the Indian Health 
Service.
    And we would ask the Committee as you consider these 
requests, that you would also ask the Administration to settle 
outstanding claims as expeditiously as possible. My tribe has 
pending claims, we are in active discussion for settlement. 
These dollars will go directly into providing necessary 
programs such as healthcare, law enforcement, tribal courts, 
and natural resources management.
    We like that there was a new initiative included in the 
President's request this year, and that was the Tiwahe Family 
Initiative, and that is to address poverty in Indian Country. 
We would like to see that appropriation, however, which is at 
$12 million, be increased to $20 million, so that will have a 
better opportunity to have a further reach in Indian Country, 
and we would anticipate that there would be demonstration 
projects that would--and we would welcome the opportunity to 
collaborate with state and local governments in that 
initiative.
    We also noted that the President made a request for an 
increase in the Bureau of Indian Affairs Natural Resources 
line, and I will say that in the Midwest region, we have an 
unmet need of approximately $17 million to meet the natural 
resources management and enforcement responsibilities that our 
tribes have. Little River Band alone has enforcement 
responsibility for about 13 million acres in our seeded 
territory. That includes the waterways and lands within that 
district, and natural resources being a priority for all of our 
region, I am sure you will hear other distinguished panels 
discuss that today. And we also agree with the President's 
request for the increases to the Indian Health Service, and we 
would ask the committee to please consider implementing the 
recommendations of the National Tribal Budget Formulation 
workgroup in enacting a $5.3 billion budget for fiscal year 
2015.
    For us at Little River, purchased and referred services, 
hospitals and clinics, mental health and substance abuse are 
priorities, and we recommend that the Committee adopt the 
increases that are recommended by the workgroup to sustain and 
support the continued services to--and decreasing health 
asperities is key, and those increases will assist that 
process.
    We believe in the partnership of the Federal Indian Trust. 
We believe in the partnership of Little River Band and the 
Federal Government and our surrounding communities, and the 
testimony that I have provided outlines just a few of our 
priorities. Tribal self-determination and the ability of tribal 
governments to determine how to build and sustain their own 
communities is necessary for successful and prospering 
communities, and a successful and prospering United States. We 
respectfully seek the assistance of the Committee and the 
Federal Government to support meaningful appropriations, and we 
believe that through these efforts, we can work together to 
realize that vision.
    And I appreciate the opportunity to speak before the 
Committee this morning. [Speaking native language] Many thanks, 
and [Speaking native language], all my relations.
    [The statement of Jessica Burger follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you.
    Next testimony is from Mr. Levi Carrick, Sr., Chairman of 
the Chippewa Ottawa Resource Authority.
                              ----------                              

                                            Tuesday, April 8, 2014.

                   CHIPPEWA OTTAWA RESOURCE AUTHORITY


                                WITNESS

LEVI CARRICK, SR.
    Mr. Carrick. Okay. Good morning, Mr. Chairman, members of 
the Subcommittee. My name is Levi Carrick. I am here today on 
behalf of CORA, as their Chairman.
    CORA is the Chippewa Ottawa Resource Authority, which is 
made up of 5 tribes in Michigan that oversees the natural 
resources for the treaty area, which includes like about 2/3 of 
the State of Michigan. So it is a vast area, like close to 14 
million acres. And we have been, excuse me here, I have got to 
go in here. Wait a minute, I want to personally express CORA's 
appreciation for the Rights Protection of Information Program, 
RPI, funding requests for CORA that is contained in the 
President's 2015 budget. RPI Program funds enable CORA's tribes 
to provide for the exercise by tribal members of the reserved 
right to hunt, fish, trap and gather on the lands and waters 
that were ceded the United States by our ancestors. These 
rights were essential to the existence of our ancestors, and 
continue to be essential to the existence of our Indian people.
    One of my fondest memories as a child growing up was going 
in the woods with my grandmother and my mother harvesting. What 
we harvested today, we ate tomorrow. And it was always stressed 
that we never take what we don't need, never--always use what 
you do take, and they are memories that lasted, you know, to 
now. We are taking--that was a healthy way of living, the food 
that we gathered. We are taking now and utilizing some of our 
resources to bring that back to our young children. This year, 
we have taken our healthy start programs and brought our 
youngsters out in the woods to harvest rabbits. We have brought 
them out on the lake to harvest fish through the ice, utilizing 
gill nets, trying to teach them the ways of subsistence that we 
are accustomed to, rather than going to McDonald's or 
somewhere.
    So that has been going pretty well, but we have been doing 
it on our own funds that we don't really have. That is why this 
natural resource funding that we are getting for this is very 
vital.
    So because of that, the Tribes have always believed that 
these treaty rights continue to exist, and will not extinguish 
or diminish by any act of the Federal Government.
    In a decision, in United States v. Michigan of '79, 
upholding these rights to fish in the ceded waters of the Great 
Lakes upheld that belief that we retained. Let us see here. And 
the Great Lakes model consent decree that was drafted from that 
court decision provided a template our inland resources. And 
this was between the United States and Michigan and all the 
parties, and we voluntarily entered into negotiations to 
resolve the scope of the rights reserved by the Treaty of 1836 
for that 14 million acres.
    In 2007, that consent decree, it encompassed the nature and 
extent of the right to hunt, fish, trap and gather by tribal 
members, established the protocols by which the resources are 
allocated between the tribal and state license harvesters, and 
provides collaborative resource management procedures for the 
CORA tribes and the State of Michigan.
    I am very pleased to personally thank the Subcommittee for 
the inland funds contained in the 2014 Interior Budget as 
enacted in the more than $1.6 million. These funds--this is for 
the inland resource that was added on for this year that we 
are--okay. As the funds have yet to be distributed to the 
Tribes, I cannot report on the specific uses to which these 
funds will be applied. I can only state that the CORA tribes 
are anxious to begin the important and complex task of creating 
the programs and hiring the staff needed to carry out in the 
inland consent decree.
    For fiscal year 2015, the green book clearly identifies the 
inland consent decree funds by name. There is a small increase 
in the treaty fishery's funding which the CORA tribes support 
as necessary effort to partially restore the funds for these 
purposes back to their 2010 levels. No increase is requested 
for an inland consent decree this year, a decision which the 
CORA tribes do not oppose. The CORA tribes will use the 
remainder of the 2014 and '15 funds to put in place those 
programs and staff for which RPI funds are provided, and to 
realistically assess the need for additional funding to carry 
out the inland decree's tribal responsibilities.
    One final item is included in the RPI funding 2015 budget 
for the Inter-Tribal Resource Management Organizations which is 
entitled evaluation and research activities. CORA supports an 
allocation of those funds among the organizations based on the 
percentage that each listed in the tribal organization will 
receive in RPI funds, as encompassed in the total amount 
request for all RPI purposes for 2015.
    For decades, we have been at the forefront of efforts to 
protect, enhance and restore the natural environment so that 
all human beings can enjoy the fish, wildlife and plants of our 
region for generations to come. Already, the U.S. Fish and 
Wildlife Service is asking to consult with us on what type of 
resource management that we should replace when the Great Lakes 
Consent Decree expires in 2020. The CORA tribes have proven to 
be an effective partner with agencies of the United States, the 
states and the province of Ontario to manage our natural 
resources to the seventh generation and beyond. For these 
reasons, the CORA tribe respectfully requests for your support 
for fiscal year 2015, RPI funding at a level of $4,463,464 in 
reoccurring base funding, which is the amount outlined for the 
CORA and the RPI portion of the Department of the Interior's 
Green Book for fiscal year 2015.
    [The statement of Levi Carrick, Sr., follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Okay, thank you very much. Thank you for your 
testimony.
    Next, Mr. Chapman with the Lac du Flambeau Band of Lake 
Superior Chippewa.
                              ----------                              

                                            Tuesday, April 8, 2014.

             LAC DU FLAMBEAU BAND OF LAKE SUPERIOR CHIPPEWA


                                WITNESS

ERIC CHAPMAN, SR.
    Mr. Chapman. Good morning, Mr. Chairman, members of the 
subcommittee. My name is Eric Chapman, Sr., Tribal Council 
Member with the Lac du Flambeau Band of Lake Superior Chippewa 
Indians of Northern Wisconsin.
    With me today is Mr. Larry Wanowitz, he is our natural 
resource director.
    Mr. Wanowitz. [Speaking foreign language.]
    Mr. Chapman. We appreciate the opportunity to provide our 
testimony regarding the needs of the Lac du Flambeau Band and 
our members.
    We face many challenges at Lac du Flambeau. One such 
challenge that has become a threat to our reservation 
community. Over the last few years, we have faced a growing 
epidemic of drug abuse. This problem has been initiated largely 
by outsiders who seek to sell illegal drugs to our youth, and 
the situation has become widespread and dangerous. The problem 
is not limited to a single drug, as there is widespread abuse 
of prescription drugs, synthetic marijuana and even heroin. Our 
tribal government has taken broad steps to address this 
problem. We declared a state of emergency, we have stepped up 
law enforcement efforts to stop those who sell drugs to our 
people. These efforts have led to significant drug busts, and 
we believe strong law enforcement along with a viable court 
system is key in deterring further wandering. However, we also 
recognize that this problem has many dimensions and why law 
enforcement and courts are vitally important. Drug abuse 
requires a wide range of professionals to help those who are 
affected. We need to educate our community, especially our 
students, about the dangers of drug abuse, and we need to 
provide counseling and support for those who become addicted. 
More significantly, we need to provide cultural and economic 
opportunities to provide positive and healthy alternatives for 
individuals who might otherwise turn to drugs.
    One of the great tragedies of the drug abuse problem is 
that it affects many of our children. Our children are often 
caught up in unsafe situations at home that they have no way 
out unless the alternate program steps in. This has led to an 
increase in foster care and temporary placements for our tribal 
children. We must do more to protect our children.
    The Administration budget provides us with some hope in 
addressing these problems. The budget provides for an increase 
of $5 million for the--welfare Program, and this funding is 
badly needed. More broadly, the Administration calls for the 
Tiwahe Family Initiative to provide a comprehensive approach to 
deal with the kinds of problems faced by many Indian families. 
We strongly support this initiative, and hope the Subcommittee 
will consider this funding request.
    In dealing with our drug crisis, we look to making our 
community healthy, and we recognize that the foundation of a 
healthy community is a healthy environment. Lac du Flambeau is 
a reservation that has abundant water, and reservation in the 
north which has great natural beauty. This is our homeland, and 
we are committed to preserving our clean water, land and air 
for our future generations. This requires broad efforts to 
address the environmental challenges we face, including 
increased mining activity which threatens our reservation 
resources. One important program along these lines is the EPA's 
Tribal General Assistance Program. The GAP program provides one 
of the tribes to build their environmental capacity, assess 
conditions, and gather and analyze data. We strongly support 
the Administration's proposed $3.8 million increase in this 
program.
    Other environmental programs such as the Clean Water Act, 
Brownfields, and the Great Lakes Restoration Initiative are 
likewise critical to protecting our resources for the future.
    Tribes have long been--in natural resource protection and 
the Lac du Flambeau Band has a comprehensive natural resource 
department with dedicated staff, with expertise in natural 
resource and land management. For example, our work includes 
stocking fish, collecting water quality data, developing well 
head protection plans, conducting wildlife surveys, and 
administering-projects. These natural resource programs are 
vital to the tribe's future, and we strongly support full 
funding for the tribal resource management and development, 
tribal fish hatchery operations and management--excuse me, 
maintenance, circle of flight and cooperative landscape 
conservation.
    We particularly would like to note the importance of public 
tribes to plan for and address climate change impacts at the 
local level. In serving on the tribal council, I also have the 
opportunity to function as the chief conservation officer for 
my reservation. This includes, for instance, hunting, fishing 
and gathering, rights without our reservation boundaries. This 
work and that of our conversation office also involves being 
first responders in many emergency situations.
    I urge the Subcommittee to support increased funding for 
conservation law enforcement, which is a major component of 
overall public safety on our reservation. I would also like to 
expect strong support for the work done by the Great Lakes 
Indian Fish and Wildlife Commission. That Commission does 
vitally important work protecting and implementing our treaty 
guaranteed hunting, fishing and gathering rights within the 
stated territories.
    Education remains a major priority for the Lac du Flambeau 
Band. In order for our children to compete international and 
global economy, higher education is critical. Given the levels 
of poverty on our reservation and the staggering costs of 
higher education, many of our tribal members do not have the 
opportunity to pursue higher education without some help. We 
support increased funding for the BIA Scholarship and IHS 
Programs. Tribal health programs have never recovered from the 
impact of sequestration. As healthcare costs rise and tribal 
population has increased, tribal healthcare remains at risk. 
One program of particular concern is Purchased Preferred Care, 
which has been tragically underfunded for years, leaving our 
people without needed healthcare for part of the year. We 
strongly support the Administration's proposed increases in 
Purchased Preferred Care, and full funding for all IHS 
programs.
    We appreciate this Subcommittee's commitment to working 
with the tribes to address our needs within the BIA, EPA and 
IHS programs.
    [The statement of Eric Chapman, Sr., follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you very much for your testimony.
    Next Mr. Zorn.
                              ----------                              

                                            Tuesday, April 8, 2014.

            GREAT LAKES INDIAN FISH AND WILDLIFE COMMISSION


                                WITNESS

JAMES ZORN
    Mr. Zorn. Thank you, Mr. Chairman, Members of the 
Committee. My name is James Zorn, Executive Administrator of 
the Great Lakes Indian Fish and Wildlife Commission. I am 
honored today to be joined by the Chairman of our Board, Mic 
Isham, the chairman of the Lac Court Oreilles Band of the Lake 
Superior Chippewa Indians, who is available if you would like 
to ask him some questions about the importance of these rights 
to his community. Mr. Carrick is also on my Board, as is Chief 
Executive Melanie Benjamin, who I believe is here from Mille 
Lacs. So very honored to have them provide me for this 
opportunity to tell you about how important these programs are 
to their communities.
    So on behalf of our 11 tribal nations, and their 40,000 
tribal citizens, their families and their communities and 
surrounding communities, we are honored to be here today to 
thank this Committee for over 30 years of support for these 
programs that cover 60,000 square miles and 3 states.
    Mr. Chairman, you are kind of the newcomer here, and you 
asked us today to tell you what is possible, if you can help 
us. Well, I think all of us on this panel are very proud to 
tell you what is possible through the power of presence by the 
tribes, when they have the capacity to exercise their sovereign 
prerogatives with appropriate science, with appropriate policy 
participation, with the infusion of traditional knowledge into 
co-management of the natural resources, in support of CORA 
federal treaty obligations and tribal self-determination.
    The Great Lakes Indian Fish and Wildlife Commission and 
their member tribes undertake a comprehensive treat rights and 
natural resource management program, to regulate the exercise 
of hunting, fishing, gathering rights, to manage and co-manage 
the ceded territory natural resources, especially to protect 
what already is very pristine up in our area.
    Towards that end, our tribes seek healthy communities. We 
like to link, as Mr. Carrick said, get out in the real world, 
eat the food that the Creator provided to you, so we can 
address these health problems. We are very happy that our 
biologists provide the science and management expertise that 
helps not only tribal communities, but surrounding communities. 
That knowledge is universal. The science that tribes bring to 
the table helps everybody.
    Same thing with the conservation law enforcement. Our 
officers are there for everyone, not just for the tribes.
    As we note in our written testimony, we are here to support 
the BIA's Trust Natural Resource Management Budget, in 
particular, the rights protection implementation. We are here 
to support the Great Lakes Restoration Funding. That is all in 
our testimony.
    One of the real critical things we are seeing right now is 
that the tribes are being asked to do more, as others do less, 
as other governments, state and federal, face budget problems. 
The tribes have a job to do for themselves, and it is through 
these programs and with this committee's support that they are 
able to do that, to address things like invasive species. We 
are particularly proud of our youth initiative where we have 50 
kids come to a summer camp up in the National Forest in the UP 
of Michigan. It has been in place now since 2009. We are 
finally get a class of students that are ready to enter 
college, the future natural resource leaders for their tribes. 
We have kids who are counselors now. So it is through these 
types of programs that we are trying to have the tribes realize 
the benefit of their treaty rights, for subsistence, for 
culture, for spirituality, for medicinal and economic purposes.
    We thank you very much for your support, and we are happy 
to answer any questions.
    [The statement of James Zorn follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. I thank you all for your testimony, and I 
would love to get up to that part of the world. It seems like--
just looking at the pictures, it is a beautiful place. My 
experience with the Great Lakes is usually Cleveland and around 
Lake Erie and the urban areas. This is not the area that you 
are representing, I know. I would like to get up there and take 
a good look at that.
    Would you like any questions, Ms. McCollum?
    Ms. McCollum. Thank you. First a comment, and then I do 
have a question on natural resources.
    It was when I was visiting Wisconsin tribes back a couple 
of years ago that the northern alliance tribes had taken a real 
aggressive conversation on what to do about drugs and drug 
addiction. Schools and parents and everything that you heard 
Eric talk about is really critical, but they also, with their 
leadership, work with pharmacies, work with hospitals, work 
with Indian Health Service because prescription drug abuse was 
a major problem. So when people go in and get prescriptions, 
that it was able to be tracked and people wouldn't get large 
prescriptions that they could turn around and sell. It is a 
model program which I think ``main street'', traditional 
America, could use in some of its drug problems. And the first 
I heard about the heroin crisis that we are all reading about 
in the paper, Indian Country was talking to me about it first, 
saying you need to get involved, you need to pay attention to 
what is going on.
    I would like the folks to just comment on the importance of 
water quality. I saw a bag of wild rice on the chair. Did you 
bring that, Chairman? Is that your rice?
    Mr. Calvert. Yeah.
    Ms. McCollum. I just want to note that wild rice is 
different--Indian wild rice--there is paddy wild rice and there 
is native wild rice. Native wild rice is very, very fragile. It 
needs absolutely pristine water to grow in. This is a 
livelihood for Native Americans. It is an income, it is 
traditional food, it is healing. Could you just maybe--not all 
of you will be able to say something about the importance of 
working with state EPA, state natural resources, your natural 
resources and with universities to keep this rice pristine. We 
are fighting for it right now in Minnesota.
    Mr. Zorn. I would be happy to address that from a 
management perspective. The factors that affect wild rice are 
primarily beyond the tribe's control. You know, the habitats 
out there are being influenced by invasive species, we have 
phragmites, we have purple lustrite, we have changing water 
levels. We have pollution that, you know, makes the rice toxic 
to eat. You know, the whole notion of what good are the treaty 
rights if you can't keep the fish if they are contaminated with 
mercury. We have the notion of increasing temperatures. And so 
without the research, without sea banks, without fully 
functioning wetlands, as we had a tribal elder at one of our 
meetings recently say, where is wild rice going to be in 50 
years? If that literally migrates north to Canada, we can't 
follow it. There is that thing up there called a border now. It 
used to be tribes could go freely up there.
    And so without this cooperative effort of multiple 
agencies, whether it is USDA, whether it is Fish and Wildlife 
Service, Army Corps, people who regulate water levels, the 
state pollution control agencies to make sure the clean water 
standards and non-degradation standards are in place, this wild 
rice will disappear quickly. And we do see it, and what we are 
seeing now through reseeding efforts, because of funding 
through the Great Lakes Restoration Initiative and the BIA, 
that tribal members are relying now about 25 to 30 percent of 
their wild rice harvest in our treaty ceded territories on 
reseeded and restored rice beds. We see when a rice bed in one 
area fails because of a high water event. Now, we have other 
places where tribal members can go. So if it wouldn't be for 
that adaptation and resilience planning, tribal members would 
really be out of luck for what really is a spiritual food, and 
that nourishes the body. It nourishes both the body and the 
spirit.
    Ms. McCollum. Thank you, Mr. Chair.
    Mr. Calvert. Thank you. Mr. Simpson?
    Mr. Simpson. No questions.
    Mr. Calvert. Mr. Moran?
    Mr. Moran. All said.
    Mr. Calvert. All said? Mr. Cole?
    Mr. Cole. I'm good.
    Mr. Calvert. Well, I want to thank this panel. And I 
understand this epidemic of drug abuse is horrific, and it 
seems to affect Indian Country more than most areas. We need to 
attack it and we will do what we can to help, but thank you for 
your testimony and you are relieved of your responsibility 
today.
    Voice. Thank you.
    Mr. Cole. Mr. Chair, thank you.
    Mr. Calvert. Thank you. And we are going to move to the 
next panel.
    Ms. Crystal Redgrave, the Interim Superintendent of the Bug 
O Nay Ge Shig School. I'm getting better at this. With the 
Leech Lake Band of Ojibwe of Minnesota.
    Voice. Ojibwe.
    Mr. Calvert. Okay.
    Voice. That's good.
    Mr. Calvert. All right. Ms. Melanie Benjamin, Chief 
Executive, the Mille Lacs Band of, how do you pronounce that 
again? Ojibwe? Ojibwe?
    Voice. Ojibwe.
    Mr. Calvert. Ojibwe. Ms. Cathy Abramson, Chairperson of the 
National Indian Health Board. I can do that. And Ms. Aurene 
Martin, heck, we know Ms. Aurene, Member of the Board of the 
National Indian Child Welfare Association.
    Okay, welcome.
    Voice. Thank you.
    Mr. Calvert. Okay. So everybody, good morning.
    Voice. Morning.
    Mr. Calvert. Good morning. Everybody ready to go. You 
probably heard my little lecture about the 5-minute rule, and 
the green light and the yellow light, and try to stay--we are 
trying to--we have a lot of folks from all over the country, 
and so we are trying to listen to all of them.
    I will recognize Crystal Redgrave. Thank you.
                              ----------                              

                                            Tuesday, April 8, 2014.

                 LEECH LAKE BAND OF OJIBWE OF MINNESOTA


                                WITNESS

CRYSTAL REDGRAVE
    Ms. Redgrave. Well, good morning. My name is--can you hear 
me? Good morning. My name is Crystal Redgrave, and I am 
[Speaking native language] of the--nation. I am the 
superintendent of the Bug O Nay Ge Shig School. Today I am 
testifying on behalf of the----
    Voice. You say that so easily.
    Ms. Redgrave. Yeah. Bug O Nay Ge Shig. Today I testify on 
behalf of the school and the Leech Lake Band of Ojibwe on the 
need to replace the high school facility. The school is a 
tribal ground school, funded by the bureau, it is also 
administrated by the Bureau of Indian Education. The estimated 
cost is $25 million to replace the facility.
    I am accompanied by the Leech Lake Band members--raise your 
hand.
    Voice. Yeah.
    Ms. Redgrave. And Ryan White. Since 2011, the Band has 
testified before this Subcommittee on this need. Our hope is 
that finally, something, you know, we may spur some action 
here. We have serious health conditions and safety risks that 
are posed to our students who attend the school.
    At this time, I would like to thank Ms. McCollum for her 
efforts in supporting the school's initiatives.
    The school serves about 200 Native American students K 
through 12. The school is unsafe. Many of our students have 
withdrawn from the school to attend other schools. It has been 
said students are embarrassed about the condition of the 
school, and they, therefore, leave the school district, which 
results in a lower enrollment rate.
    The high school, in the first picture, as you can see, is a 
metal-clad iron pole barn. It was not intended for an academic 
space, and it is not intended for students to learn in winter--
extreme cold winters in Minnesota. The facility suffers from 
rodents, uneven floors, poor lighting, severe sewer problems, 
faulty electrical wiring, outdated heated and cooling systems, 
the lack of classroom and outer space, and overall we believe 
that the safety, the fire and security standards are not met.
    The second picture shows the damage from the high school 
last year, the weight of the ice and the water, basically, you 
know, cracked the wooden beams. This not only damaged this 
school, but it also compromised the integrity of the overall 
structure.
    The third picture shows the damage to the ceilings caused 
by the constant leaky roofs, and our O&M job continually does 
the patchwork.
    The final picture shows a student actually holding her hand 
out, catching water that is leaking from the ceiling. Just last 
week, the ice melted and caused the roof to cave in, and, you 
know, students were passing but no students were hurt.
    So as an educator, I have walked the halls of many tribal--
well, many schools, tribal, bureau, private, public, and I have 
noticed that there is an extreme difference between the types 
of schools that serve native students and those who don't. One 
public school that comes to mind was a school in Arizona, and I 
visited it and it had this panoramic view of the mountains. It 
was beautiful. The technology, there were books, tables that 
were not broken, the kids were carrying their tech tools and 
they had books, like I said, and that school did not have very 
many Native American students enrolled in that, you know, in 
that school.
    In contrast, schools like Bug O Nay Ge Shig have rickety 
tables, broken chairs, outdated textbooks or even no textbooks, 
limited technology, poorly ventilated classrooms, wires that 
are basically taped to the tin walls, and unreliable access to 
technology.
    So this is what, you know, in Indian Country, you know, our 
school basically fits that description.
    The BIA must think that it is all right for our children to 
go to school in these conditions, since it requests funding 
primarily for improvement and repairs and not on the overall 
construction or replacement of facilities. So I am here to say 
that the school is beyond a band-aid replace--repair, and we 
need to look at replacing that.
    The BIA's fiscal year 2015 budget proposes funding to begin 
at, for one school, about $3 million, and that is not going 
to--that is not sufficient at all. It might have a wall or a 
foundation. You can't do much with that. According to the 
Bureau, more than 63 schools, including our high school, are in 
poor condition, and there exists a $1.3 billion backlog for 
construction. So it must be stressed that we need adequate 
funding over a sustained period of time in order to address the 
issues that our children need in Indian Country.
    I just have to remind everybody that we must not forget 
Leech Lake Nation was established through a series of treaties 
and presidential orders, millions of acres of the Band's 
homelands were stolen. In return, the U.S. promised the Band 
welfare, which includes education. The Band's forefathers 
already paid for the education of their children. These treaty 
promises remain the law of the land. Logically if the U.S. 
cannot replace the high school and schools as such, then it is 
only right that the U.S. begin to cede back land to the 
Natives.
    I have 2 final comments. First, we recently learned that 
our language immersion program will no longer be receiving 
funding. We are in dire need; we have an immediate need to 
continue this program for next year. So we do ask assistance 
for this program.
    And second, our students, and I think the panel before, you 
know, gave--illustrated the situations in Indian Country, but 
as an administrator and as an educator, and being with native 
students, I have had very, well, several, more than I want to 
even remember, kids coming to me and telling me situations that 
they encounter, and one situation that was so riveting in my 
mind is a 15-year-old girl came to me and she was having issues 
in school. She ended up telling me that--and nobody really knew 
how to address her, and she trusted me and she told me 
everything, but she said when she was younger, her mother 
committed suicide and she hung herself. The daughter fell 
asleep underneath her. And so to me, the students that are, you 
know, in Indian Country should not have to worry about an 
unsafe school because they have other things that they need to 
really work through.
    So again, I just, you know, stress that there needs to be 
adequate funding for native communities, schools. And [speaking 
native language.]
    [The statement of Crystal Redgrave follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you. Thank you for your testimony.
    Next, Cathy Abramson, you are recognized for 5 minutes.
                              ----------                              

                                            Tuesday, April 8, 2014.

                      NATIONAL INDIAN HEALTH BOARD


                                WITNESS

CATHY ABRAMSON
    Ms. Abramson. Hello. Hello. Okay.
    Mr. Calvert. There you go.
    Ms. Abramson. Good morning, Chairman Calvert, Ranking 
Member Moran, and Members of the Committee. Thank you for 
holding this important hearing on fiscal year 2015 budget. On 
behalf of the National Indian Health Board, and the 566 
federally recognized tribes we serve, I submit this testimony.
    I am Cathy Abramson. I am the Chair of the National Indian 
Health Board, and I also serve as Councilwoman for the Saulte 
Sainte Marie Tribe of the Chippewa Indians. And yes, you really 
do need to come up north up in Michigan to see the beautiful 
country.
    First, I would like to thank this Committee for all the 
work that has been done to advance healthcare priorities for 
our people. In fact, due to the help of many members of this 
Committee, we are able to change the minds of the 
Administration on the cost care, cost support--contract cost 
support. Support--let me say it again. Contract support costs. 
For this and all you have done and continue to do for the first 
people of this country, [speaking native language], or thank 
you.
    Despite important changes in healthcare funding that we 
have achieved over the last several years, we still experience 
many disparities. Devastating risks from historical trauma, 
poverty and a lack of adequate treatment resources continue to 
plague tribal communities. According to IHS data, 39 percent of 
our women experience intimate partner violence, the highest 
rate of any ethnic group in the United States. Dental health 
concerns also continue to affect American Indians and Alaska 
Natives at higher rates than any other Americans. Our children 
have an average of six decayed teeth, when children in the U.S. 
all races population only have one. This has to stop. America 
is too great a nation to stand by while we live with all these 
realities.
    Enacting a fiscal year 2015 budget that does not 
aggressively tackle these issues would be--approval of the 
state of affairs in Indian Country.
    When considering the level of funding appropriated to IHS, 
these statistics do not surprise me. In 2013, the IHS per 
capita expenditure for patient health services were just 
$2,800, compared to almost $8,000 per person for healthcare 
spending nationally. The first people of this nation should not 
be last when it comes to health. So let us change that now.
    For 2015, NIHB echoes the recommendation of the tribal 
budget formulation workgroup and recommends $5.3 billion for 
IHS overall. This request would allow the funding to current--
of current services, and include program expansion increases in 
several key areas, including Purchased Referred Care, hospitals 
and clinics, mental health and alcohol and substance abuse. 
These programs represent the core of IHS work in the areas of 
most critical need to our people. You will see in NIHB's 
written testimony greater detail about each priority.
    We also ask that sequestration cuts from 2013 and '14 be 
fully restored. Congress did not provide enough funding to fund 
contract support costs and restore sequestration or provide 
increases in other crucial service areas. Some counts even 
received cuts beyond 2013 sequestration level in 2014. This 
combined with medical inflation and additional staffing costs 
have not really allowed these budgets to move forward. We are 
once again losing ground in addressing health disparity 
suffered by our people. This cannot happen again.
    I would also like to support several policy changes that 
will enable our IHS budget to be used in a better way. First, 
NIHB strongly supports Medicare-like rates for IHS. In 2003, 
Congress enacted legislation to require hospital providers to 
only pay Medicare rates when billing IHS through Preferred--
Purchased Referred Care Program, but non-hospital providers did 
not have this requirement. We echo the recommendation of the 
GAO who said that reimbursements for all providers should be 
capped at Medicare-like rates.
    Second, advanced appropriations for IHS will allow 
tribally-operated and IHS programs to know what kind of funding 
they have a year in advance. This would mean that we could not 
only save on administrative costs, but it would also be a 
better care--provide better care for our people. We could plan 
way ahead much better.
    Finally, we support the long-term renewal of the special 
diabetes program for Indians at $200 million for 5 years. It is 
saving lives and taxpayer dollars and must be renewed to ensure 
a sustainable, our people get the care they deserve.
    Thank you again for this opportunity to testify before the 
Committee today, and for all the work you do to support Indian 
health. Thank you.
    [The statement of Cathy Abramson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you.
    I think we will just go right along here. Aurene Martin, 
you are recognized for 5 minutes. Thank you.
                              ----------                              

                                            Tuesday, April 8, 2014.

               NATIONAL INDIAN CHILD WELFARE ASSOCIATION


                                WITNESS

AURENE MARTIN
    Ms. Martin. Is this still on?
    Mr. Calvert. If that little light is on, it is on.
    Ms. Martin. Morning, everyone. My name is Aurene Martin, 
and I am member of the Bad River Band of Lake Superior 
Chippewa. Yay, Wisconsin. I am also a member of the National 
Indian Child Welfare Association Board of Directors, and that 
is why I am here today to talk to you.
    NICWA is the National American Indian and Alaska Native 
Association, with over 30 years experience in public policy 
development, focused on native families. Our mission is 
twofold. First, it is to address issues of child abuse and 
neglect in Indian Country, and second, it is to support 
compliance with the Indian Child Welfare Act.
    Studies show, and I think you have heard some of these 
statistics before, they are in our written testimony, but 
studies show that native children are over-represented in the 
child welfare system, with rates of over, on average, two times 
the rate of the general population to be placed in foster care, 
and in some states it is over 10 times that rate. Yet, tribal 
governments have the most limited access of all governments to 
assistance to provide services for these types of families that 
have children in foster care.
    So, accordingly, the primary focus of my comments today 
will be on three program areas at BIA that provide direct 
funding to tries to provide these kinds of services.
    Our first recommendation is to fully fund programs 
authorized under the Indian Child Protection and Family 
Violence Prevention Act. It is a mouthful. This Act was first 
passed in 1990 to provide tribes with the resources to 
establish child abuse prevention and child abuse treatment 
services. It also established requirements for background 
checks and for reporting of child abuse in Indian Country. 
These are the only programs that have been authorized for 
federal--under federal law specifically to address child abuse 
prevention and treatment services, but they have never been 
funded since they were established in 1990.
    We know that when children are faced with abuse, when they 
are faced with maltreatment, and they are unable to access 
treatment services, the residual effects of these--of this 
trauma can last for many years, and can affect them for an 
entire lifetime. So we think that the Indian Child Abuse 
Treatment Grant Program, if funded, would help fill a void that 
just isn't being addressed anywhere right now. We also are 
recommending that you fund other programs under the Act, 
including the Indian Child Protection and Family Violence 
Prevention Grant Program, and the Indian Child Resource and 
Family Service Center Program. These address prevention of 
child abuse, and also provide for a service center to kind of 
coordinate these efforts. As I said, these programs haven't 
been funded since 1990, but I think that they would fill a huge 
void that is out there for tribes.
    Our second priority that I would like to talk about is with 
regard to the President's Tiwahe Initiative, which would 
increase equal funding for tribes in the amount of $5 million. 
We think that is great, but we think that it should be 
increased even more than that, and we would recommend another 
$5 million in funding for that program. On average, or--well, 
not on average, actually, more than \2/3\ of tribes that 
receive this funding receive an average of $30,000 a year, yet 
they have to provide child protective services, family 
reunification services, rehabilitation services, case 
management, foster care recruitment retention and adoption 
services with that $30,000. This increase would be fantastic, 
it would be about $75,000 a year per tribe on average, but 
there is just so much there to do that we think that more 
funding is necessary to achieve that goal.
    Finally, NICWA provides benefits to native children across 
the country, but the funding really focuses on reservation 
services. The problem is that Indian populations are moving to 
urban areas, so when the Indian Child Welfare Act was passed, 
only 38 percent of Indian people lived off reservation in urban 
areas. In the 2010 Census, 67 percent of Indians reported 
living in urban areas, that self-identified as Indians, and 
yet, there is zero funding for those types of programs.
    I can tell you from my own personal experience, having 
litigated Indian Child Welfare Act cases, it is a huge burden 
on tribes to not only keep track of the caseload of kids that 
they have living on reservation, but to keep track of all of 
those kids living off reservation, and these kinds of dollars 
can really--the small amount of dollars can really go a long 
way to help keeping track of those kids. It is hard to do phone 
appearances in court, and just having one person there really 
would help.
    So in closing, I really appreciate the time you have given 
me, and I hope that you can look at child welfare and make that 
a budget priority this year. Thanks.
    [The statement of Aurene Martin follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you for your testimony.
    Next, Melanie Benjamin.
                              ----------                              

                                            Tuesday, April 8, 2014.

                       MILLE LACS BAND OF OJIBWE


                                WITNESS

MELANIE BENJAMIN
    Ms. Benjamin. [Speaking native language] greetings. First, 
education. Pine Grove Academy. Our reservation stretches across 
3 districts, one over 60 miles to the northeast of Lake Mille 
Lacs, and one 80 miles east. These distances make educating our 
children a challenge, especially in the winter. We have--school 
on the Mille Lacs Reservation in district 1 and 2, but not in 
district 3. We have tried bussing the children over 80 miles 
from district 3 to the Band's--school in district 1, but that 
is over 3 hours a day for our children, 800 miles each week.
    About 8 years ago, a group of parents worked with the Band 
to establish the Pine Grove Leadership Academy in district 3, 
located in a beautiful forest that had a CORA curriculum and 
classes in Ojibwe language and traditions, and it worked, but 
the leadership academy's authorizer, a private college revised 
its internal priorities and made the decision to withdraw its 
authorization. The result was the academy was forced to close, 
despite being financially healthy.
    I want to work with the Subcommittee to reopen Pine Grove 
with BIA support. The Band proposes today that Pine Grove 
should become a satellite of our BIA supported--school using 
21st century technology and smart planning. We require very 
little funding from BIA, but we do need BIA support, especially 
in training professionals and board members. In fact, we have a 
good relationship with the Bureau of Indian Education, but the 
BIA is currently unauthorized to support school expansion. 
However, this not an expansion. Whether we bus our children 
to--school in district 1, or provide them with the--education 
through a satellite school in district 3, they would be counted 
and supported by BIA either way.
    The U.S. Department of Education just reported that Native 
Americans in Minnesota have the lowest high school graduation 
in the country, the lowest, but a Minnesota report found that 
Native American schools are making strong academic gains 
because they introduce cultural emersion programs. This is 
exactly what we want to do for our children in district 3.
    We ask that the Subcommittee respectfully request that BIA 
work with us.
    Second, IHS diabetes and dialysis. I thank the Subcommittee 
for its strong commitment to fighting diabetes in Indian 
Country. We say [speaking native language] to our friend Betty 
McCollum for being the champion of the Special Diabetes Program 
for Indians. Mille Lacs faces the same diabetes challenges 
other tribes across America, especially accessing dialysis 
within a reasonable driving distance. As a consequence, I have 
seen too many of our people just give up. For some of our most 
prominent Band members, at some point spending several hours in 
the car, in addition to several hours in dialysis just becomes 
too much. These Band members who die of kidney failure also die 
of our failure to provide them with a better way to get 
dialysis treatment. We are working with our neighbors to get a 
dialysis unit closer to our aging population, Indian and non-
Indian alike, and ask the Subcommittee to join us in finding 
creative ways to provide dialysis to all people in our rural 
communities.
    Third, the BIA and IHS and self-governance. Mr. Chairman, 
over 20 years--25 years ago, a group of tribal leaders, 
including my mentor, testified before this subcommittee in 
hearings that led to the tribal self-governance demonstration 
project. Mille Lacs was one of the original self-governance 
tribe. Today, most of these leaders have since walked on, but 
those men and this subcommittee made history. They knew the 
future of federal Indian policy was Indian tribal governments 
making decisions and studying spending priorities, rather than 
Washington, and as it became permanent, this Subcommittee 
ensured that BIA and Indian Health Service properly implemented 
it.
    We have two requests: that you remove the language 
exempting BIA central office funding from the tribal share 
negotiation. There is no sound policy reasons for this, and the 
BIA has used this and reorganization to keep significant 
appropriations from us. Also, we ask the Subcommittee in 
helping in reducing the Indian Health Service and the BIA 
withholding of significant money as somehow inherently federal. 
We need the money at our reservations.
    Thank you for your bipartisan support of self-governance.
    Finally, please continue to uphold the promises made to 
Indian tribes under the treaties and laws over the past 
centuries. [Speaking native language] thank you.
    [The statement of Melanie Benjamin follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you. Thank you for your testimony.
    Ms. Redgrave, if this Subcommittee can provide the funds to 
finish the construction of the last three schools on the 2004 
priority list, what happens next, and is there a new priority 
list and is your school on it?
    Ms. Redgrave. I am not familiar with a new priority list. I 
have inquired and my investigation is that there is not a 
priority list at this point from the Bureau. So----
    Mr. Calvert. We were shown a list yesterday, but it was a 
regional list that--and I don't have it in front of me and I 
don't know if your school was on that list or not. So 
apparently there are lists running around the Bureau, so I 
guess we need to look into--to find out where that is at, but 
we know we have a tremendous need to build schools.
    I think it is a common--I think we will all agree that we 
need some help on the other body over there in the United 
States Senate to also prioritize school construction. So I 
would recommend that you also talk to your Senators and let 
them know of the need for school construction in Indian 
Country.
    Ms. Redgrave. Thank you.
    Mr. Simpson. Can I----
    Mr. Calvert. Yes.
    Mr. Simpson. Would you mind if I ask a question before I 
have to go start a hearing. Thank you. I appreciate that, 
Betty.
    As the Chairman said, we need some help across the rotunda. 
We are not doing it fast enough, but it is even slowed down 
when both the Administration and the Senate don't put any money 
in for school construction, and it is frustrating the heck out 
of me.
    Ms. Redgrave. Um-hum.
    Mr. Simpson. But we will try to solve this.
    Let me ask you, does the IHS budget, Cathy, include enough 
funding so that every eligible American Indian and Alaska 
native can receive preventative dental care at least every 12 
months, let alone every 6 months?
    Ms. Abramson. No.
    Mr. Simpson. How much is it underfunded is it? Do you know?
    Voice. Microphone.
    Ms. Abramson. I am sorry. I don't know that exact number, 
but I will find out.
    Mr. Simpson. Substantially under?
    Ms. Abramson. Yes.
    Mr. Simpson. Thank you.
    Ms. Abramson. As everything else.
    Mr. Simpson. Yeah. I appreciate it. Thank you, Betty, 
appreciate that. Thank you.
    Mr. Calvert. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. At the risk of making 
members of the other 11 Minnesota tribes, think that you are 
not deep in my heart, I really think if we took a field trip we 
could go to Leech Lake and Mille Lacs as well to look at what 
is going on in the immersion schools. If we went, maybe we 
could invite someone from the Administration to come with us 
and visit the Bug School. And then see how we had a school on 
Mille Lacs that was working, but through no fault of their own, 
they lost a partner on it, and how it will add significantly to 
the number of students who aren't graduating from high school 
by not having that put together.
    So, Mr. Chair, thank you for the work that this committee 
has done in bringing the Bug School forward. None of the 
children I represent go there----
    Ms. Redgrave. Um-hum.
    Ms. McCollum [continuing]. But they are Minnesota students. 
And I am so frustrated, I am so embarrassed when I talk to 
those students. I did a cable show with them and they talked 
about traveling an hour and a half, and all the work that they 
went through, and what all the elders have done. Then for them 
to have to walk in that building is just a real stain on the 
United States of America. I know that there are other schools 
like that around the country, but we had an earmark all set to 
go--just as we did on the dialysis for Mille Lacs--and they 
disappeared. So to the tribes in Minnesota, we are working 
together bipartisanly, very, very hard to solve this, but I 
think the Administration needs to visit some of these schools.
    Thank you, Mr. Chairman.
    Mr. Calvert. Thank you. We call that a plus-up nowadays, 
but--Mr. Cole, do you have any questions?
    Mr. Cole. Just quickly, and a quick comment first of all.
    My friend, Ms. McCollum is much too modest, quite frankly. 
She would care about those kids wherever they went, whether it 
was Minnesota or Oklahoma or even California because she has 
been tireless working on their behalf.
    I don't know if this is a question but we are going to hear 
this theme over and over and over today, and it is right that 
the United States Government has not met its obligations, and 
that we are woefully underfunded, and we are going to see that 
in education, and we are going to see that in healthcare, and 
we are going to see that in special diabetes programs, and we 
are going to see that in Indian Child Welfare, and we are going 
to see it law enforcement. I can go through the list.
    This Committee has done about as good a job as it could do, 
I think, on a bipartisan basis, beginning certainly with 
Chairman Dicks and Chairman Moran, working on through Chairman 
Simpson, now Chairman Calvert, to try and deal with some of 
these things within the context of the interior budget, but my 
friend, Mr. Calvert, will find out what his predecessors, there 
is just not enough money in Interior, period, to take care of 
all the lands, all the parks, all this--but we have tried to 
make this actually the priority in terms of increased funding, 
particularly in the healthcare area. It is pretty sad when the 
Administration does not put any money in for new school 
construction. Not a dime. And, we have about 2\1/2\ million to 
3 million Native Americans, tribal members. If you put them in 
a state, their country--all the reservations together, I am 
told would be about the size of Wyoming. There is about \1/2\ 
million people in Wyoming. I guarantee you they are building 
schools some place in Wyoming every year, all the time, and to 
not always have a school construction budget is just 
inexcusable, and that is why we are in this mess that we are in 
today. And I don't aim that just at the Administration, because 
there has been a succession of Administrations of both parties 
that have done this and bear responsibility. I don't think 
either side looks very good in this regard, but this Committee, 
for several years, again, on a bipartisan basis, has done a 
good job--with what it has. But I think in the end, Mr. 
Chairman, we are going to have to do, on these schools in 
particular, what we did for military schools. There are only 
two groups of students that the United States has direct 
responsibility for in Federal Government, and that is the 
children of American men and women in uniform, and children 
that are in Indian Country where we have a treaty obligation. 
What we did, we had the same situation. My friend, Mr. Calvert, 
sits on--and my friend, Ms. McCollum, sits on Defense 
Appropriations, and several years ago we just got a big 
appropriation that put us in a position to deal with about 100 
of these schools, and get ahead of the problem. I don't see how 
we ever piecemeal it because there are so many situations like 
Ms. Redgrave mentioned all across Indian Country. It is not 
just simply one particular----
    Ms. Redgrave. Um-hum.
    Mr. Cole [continuing]. School, or two or three or four. We 
are going to have some sort of funding strain that will let us, 
as a Federal Government, get ahead. And that is probably true 
in other areas too, but particularly with construction which is 
expensive. It takes a long time, but the facilities, if they 
are cared for, will last a long time. And I do think it makes a 
difference to those kids when they walk in the door, what they 
are walking into, because it kind of tells them what society 
thinks about their chances and their prospects. And we send a 
really powerful message with schools.
    I know I uncorked here a little bit. All I can tell all of 
you is that we will continue to work with you, and I am sure 
every member of this Committee will as best as it possibly can, 
and we have been robbing, and appropriately so, I would argue, 
some of the other areas because at the end of the day, forests 
are important, but, trees are trees, people are people. And so 
we have got other things that I would like to take care of, but 
you have to remember when you are taking care of Indian 
Country, you are really taking care of Indian people. And this 
committee has a direct responsibility, and more importantly, 
this Government does. And we just have not lived up to our 
obligations. So you are nice to say nice things to us, but we 
have got a very long way to go. And I want to echo my friend, 
Mr. Simpson's, remark, please help us in the United States 
Senate. And one of the great things, again, we have this 
testimony here because Mr. Dicks began it, because he saw so 
much of the problems and he wanted to make sure every year 
Congress would be confronted in some way with the kind of 
testimony that you are offering us. I don't know that the 
Senate has the equivalent, and they should, and I think they 
would. I mean we have got some good people over there. Mr. 
Tester is the new Chairman of Indian Affairs. He is a very good 
man, and very interested in this problem, but we need to 
confront the Senate, and, frankly, we need to confront the 
Administration which overall has a pretty good record. Again, I 
am not here to bash the President. There has been a lot--the 
Cobell settlement, they're on the right side on Carcieri, they 
have done some really good things. They have done some things 
like fighting all the way to the Supreme Court against contract 
support services that mystify me, but all Administrations 
mystify me on Indian Affairs. So again, the President's heart 
is in the right place, we have just got to get them to 
prioritize just a little bit more in their budgetary process.
    So we will continue to work with you on that.
    All right, thank you, Mr. Chairman.
    Mr. Calvert. I thank the gentleman, and I thank this panel 
for your testimony. We appreciate your coming out here to 
testify. You are excused, and we are going to ask for the next 
group to come up.
    We have a number of hearings going on today. Mr. Cole is 
going to cover for me for a little while, and then I will be 
back for Mr. Cole to go back to the Defense Committee too, 
because we have a Defense going on at the same time here today, 
so we are trying to do both.
    Our next panel is Mr. Thomas Wabnum, Council Member, the 
Prairie Band of--Tom is probably better at this than I am in 
pronouncing this, Potawatomi Nation.
    Voice. Potawatomi.
    Mr. Calvert. Mr. George Thurman, Principal Chief of the Sac 
& Fox Nation, Mr. Bill John Baker, Principal Chief of the 
Cherokee Nation, and Ms. Alfreda, is it Doonkeen?
    Voice. Doonkeen.
    Mr. Calvert. Founder and CEO of the American Indians for 
Health Quality.
    I want to just say welcome to all of you, and I am going to 
turn the gavel over to Chairman Cole, and I will be back in a 
little while. Thank you.
    Voice. Thank you, Chairman.
    Mr. Cole  [presiding]. Thank you, gentlemen. Sorry to keep 
you waiting. We have one more to come, or is she not here?
    Voice. Okay, we are running behind, so we can't----
    Mr. Cole. Okay, well, let us--if we can, we will just go in 
order. So I am going to begin, Mr. Thurman, with you, 
representing the Prairie Band of Potawatomi Nation.
    Mr. Wabnum. Good morning, committee members.
    Mr. Cole. Good morning.
                              ----------                              

                                            Tuesday, April 8, 2014.

                     PRAIRIE BAND POTAWATOMI NATION


                                WITNESS

THOMAS WABNUM
    Mr. Wabnum. Good morning, committee members. As elected 
leaders of our country, I keep you in my daily prayers so that 
we can lead your country, my country, our country into 
prosperity.
    Thank you for this opportunity to present testimony. My 
name is Thomas M. Wabnum, Council Member of the Prairie Band 
Potawatomi Nation. My reservation was destroyed by the Dawes 
Allotment Act. While under federal care, our money was 
mismanaged, forcing us to selling our lands, and we were almost 
terminated as a tribe in 1954. I lived in a Dawes Allotment 
house and have numerous interests in several allotments, but 
cannot build a home on any. I attended Indian boarding school, 
attended Haskell Indian Nations University, was the tribal 
council treasurer, worked for the Bureau of Indian Affairs, and 
retired from the Office of Special Trustee for American 
Indians. I have an Indian--account, and I am also a Vietnam 
veteran. During my employment with BIA and OST, I helped create 
the budgets for those agencies.
    My testimony sets forth funding priorities for the Prairie 
Band Potawatomi Nation, which aligned with the priorities of 
the Southern Plains region of the Tribal Interior Budget 
Council. The Prairie Band Potawatomi Nation currently serves on 
the Tribal Interior Budget Council as a representative for the 
Southern Plains region. This testimony was also focused on the 
Office of Special Trustee and changes needed to that agency. 
The priorities include the following: restore pre-sequestration 
funding levels and make up for the losses due to sequestration, 
adequately fund the Johnson O'Malley Program and Haskell 
University, fully fund contract support costs without 
detracting from Indian programs, ensure sufficient funding for 
aid to tribal governments, focus on increases for human 
services programs, appropriate sufficient funds for public 
safety and justice, enable the BIA to effectively assist tribes 
in energy development, sunset the Office of Special Trustee and 
reallocate funding to the BIA and BIA programs.
    There are five additional measures that I would like to 
talk about, and this concerns the Office of Special Trustee.
    In addition to the budget priorities set forth above, there 
is a need over overarching reform, and the way the United 
States' fulfills its trust responsibility to tribes, 
particularly when it comes to the functioning of OST. To 
fulfill the United States' obligations to tribes and Indian 
people the following reforms are needed: Congress needs to 
create an enforceable Indian trust policy in consultation with 
the tribes. Congress should create a Department of Indian 
Affairs, eliminating the inherent conflict of interest that 
often exists between the tribes and the Department of the 
Interior. This new department needs to be fully funded and 
staffed with experienced tribal-minded people who are motivated 
to foster in a new era of fiduciary trust responsibility to 
tribes and individual Indians. Congress should create a 
Permanent Trust Commission tasked with recommending updates to 
federal laws, regulations, policies regarding tribes and Indian 
people. Congress must sunset the OST. The $139 million the 
President has requested in 2015 for OST should be reallocated 
to the new Department of Indian Affairs and the Trust 
Commission. Until then, the fiscal year 2015 budget, this money 
should be reallocated within the BIA and BIE budgets. Annual 
appropriations should include money for tribes to buy back 
fraction of the interest until such time as all available 
interest can be purchased for tribes. The buy-back program has 
funding through settlement of the Cobell class action to 
purchase--interest, and now has less than 10 years left to 
reach the goals of this program. Also annual land purchases 
will generate a savings by reducing the--cost. However, annual 
appropriations for this purpose will address the deficiencies 
in the current buy-back program and fulfill the United States' 
obligation to remedy the crippling consequences of the Dawes 
Act.
    Each of these five measures must be taken in consultation 
with the tribes. These five steps will help the United States 
fulfill its trust responsibility to tribes, and ensure the 
federal dollars are more effectively spent towards furthering 
tribal self-determination. Federal--have consistently been 
underfunded or mismanaged, and historically by the same 
Department of the Interior. Since BIA inception, multi billions 
have been appropriated with deteriorating effects and the loss 
of Indian land, money and sovereignty. The BIA's purpose has 
been many, removal, incompetent, allotment, termination, self-
determination--reform, consultation and now rebuilding tribal 
nations. We can do it better.
    The new business success that tribes are having should not 
force them to respond to decreasing federal budgets, and being 
forced to accept and fund federal trust responsibility 
activities. Each fiscal year, tribes are planning for federal 
budget cutbacks, and it seems the United States is accelerating 
efforts to get out of the Indian business.
    Any Indian affairs budget should not suffer cutbacks. This 
would allow tribes in the United States to utilize their 
financial resources together to strengthen and improve poor 
tribal conditions caused by historical inadequate funding. It 
always has been termination by appropriation.
    We have been invited to attend the budget formulation 
process with the BIA, but not for the OST. More importantly, 
tribes should attend annual closeout meetings to account for 
success or failure of these organizations. The United States 
has consistently asked tribes to bury the hatchet, and we have, 
but each budget cutback is a strike against our health, 
education and welfare of our tribal citizens. We are a 
different generation with new technology, and we understand our 
problems more than any other. Further, tribes will now become 
business partners with states in business win-win situations, 
sharing Native American enterprise zones and acting sovereign 
to sovereign.
    We want to help by utilizing all resources in a manner that 
enables a true nation-to-nation partnership. We don't have to 
be dependent domestic nations, but rather independent domestic 
nations with full cooperation of the United States. We can live 
better under a new trust with mutual respect for each other. 
Let us not relive a horrible history, but forgive and create a 
new future.
    [The statement of Thomas Wabnum follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cole. Thank you, and I want to apologize, I mixed name 
and tribes up there at the opening part of that, so that is my 
fault.
    Mr. Thurman, you are recognized next for your testimony.
                              ----------                              

                                            Tuesday, April 8, 2014.

                            SAC & FOX NATION


                                WITNESS

GEORGE THURMAN
    Mr. Thurman. Okay.
    Voice. Press the button.
    Mr. Thurman. Since we are one short, do we get more time?
    Mr. Cole. I think they are trying to take advantage of it 
to get us back on schedule, but we are usually pretty generous 
with time here, so----
    Mr. Thurman. Okay. Okay, good morning to the subcommittee 
members. I am George Thurman, Principal Chief of the Sac & Fox 
Nation, from whom emerged Jim Thorpe, one of the most versatile 
athletes of modern sports, who earned Olympic gold medals in 
the 1912 games.
    Although tribes have made some progress in addressing 
terribly inadequate public services that many Americans 
routinely take for granted, they are still experiencing what 
the U.S. Commission on Civil Rights called a quiet crisis of 
unmet federal funding needs.
    And because of time restraints, I want to address just one 
of the requests that we are making, and that is the tribal-
specific request of $4.95 million to fully fund operations of 
the Sac & Fox Nation Juvenile Detention Center, under the 
Bureau of Indian Affairs, Public Safety and Justice Office of 
Justice Services Detention Corrections Account. Eighteen years 
ago, in 1996, the Sac & Fox Nation Juvenile Detention Center 
opened its doors as the first regional juvenile facility 
specifically designed for American Indians and Alaska natives, 
as well as the first juvenile facility developed under Public 
Law 10472, the Self-governance Demonstration Project Act. At 
that time, the Bureau of Indian Affairs made a commitment to 
fully fund the Sac & Fox Nation Juvenile Detention Center 
operations, however, this commitment was never fulfilled.
    Full funding would allow the nation to provide full 
operations, including but not limited to juvenile detention 
services to the 46 tribes in Oklahoma, Kansas and Texas, rescue 
more of our at-risk youth and unserved youth in need of a 
facility, like the Sac & Fox Nation Juvenile Detention Center, 
re-establish programs we have lost due to inadequate funding, 
such as on-site mental health counseling, transitional living, 
vocational training, horticulture, life skills, arts and 
crafts, cultural education activities, spiritual growth and 
learning. It would also offer job opportunities in an area that 
is economically depressed, and would fully staff and expand 
staff training to address high volume of staff turnover which 
will allow for continuity in operations and service delivery.
    Most recently, at the fiscal year 2016 Regional Budget 
Formulation Session, the Southern Plains tribes continued to 
support and endorse full funding for operation of our juvenile 
detention center, and included it as a priority in their top 10 
budget increases for the fiscal year 2016 Bureau of Indian 
Affairs Budget.
    The Sac & Fox Nation Juvenile Detention Center has the 
facilities, staffing, ability, commitment and capacity to 
provide superior detention and rehabilitation services to 
Native American youth, as well as any youth in the tri-state 
area in need of our services. We do not understand the Federal 
Government's desire to fund the construction of more detention 
facilities while our beds remain empty. With access to full 
funding for operations, the Sac & Fox Nation Juvenile Detention 
Center will have the stability to fulfill the mission the 
tribal leaders envisioned to help our youth once again find 
their way and recover from the ills that resulted in them 
coming to our facility. With adequate funding, we believe it is 
possible to thrive and benefit the lives of juveniles in our 
center, and are desperately in need of our help to develop and 
assist them to have a more healthy and productive future. Our 
facility is 60 beds. It can be expanded to 120, and we have had 
youth in there from as far away as Montana, Arizona, but the 
cost is astronomical in transporting these youth there, so it 
is more of a regional facility, and that is what--more 
facilities are being built regionally, but who is going to fund 
them to operate them? We are a good example of that.
    So I thank you for allowing me to submit these requests on 
the fiscal year 2015 budgets.
    [The statement of George Thurman follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cole. Thank you very much. You finished ahead of time 
which is pretty remarkable, so thanks, because we are running a 
little behind.
    Just so everybody in the audience knows, number one, 
obviously, everybody is scheduled to testify, we are going to 
be here, you are going to have the opportunity, but this is 
primarily an opportunity for you to put things on the radar 
screen, so to speak, for this Committee. So we probably won't 
have as much dialog and questions until I abuse my privilege, 
which I do quite frequently as my friend, Ms. McCollum, can 
tell you, but we are going to try and move it along.
    But next if we could, Chief Bill John Baker, great Cherokee 
Nation, good personal friend. Great to have you here, Chief.
                              ----------                              

                                            Tuesday, April 8, 2014.

                            CHEROKEE NATION


                                WITNESS

BILL JOHN BAKER
    Mr. Baker. Thank you, Chairman Cole, and Committeewoman 
McCollum.
    I am Principal Chief Bill John Baker of the Cherokee 
Nation, the largest sovereign Indian nation in the United 
States. Thank you for the opportunity to share a few of our 
priorities this coming year.
    The Joint Venture Construction Program is a public-private 
partnership that allows tribes to build health facilities. 
Funding comes from the tribes' own resources. Tribes apply for 
the Joint Venture during a competitive process with IHS, and 
they select the facilities for the program. Then IHS agrees to 
fund staffing for the construction once it is completed, or for 
the staffing once the construction is completed. This program 
has enabled Indian Country to build badly-needed facilities. 
Since 1992, more than 20 facilities have been built, improving 
healthcare in Indian Country and reducing the cost to the 
Federal Government. Innovative programs like Joint Venture can 
help reduce the $2.2 billion health construction backlog.
    Last year, the Cherokee Nation businesses committed $100 
million to expand and improve our healthcare system. Our plan 
includes building a new hospital in our capital city of 
Tahlequah. This will replace an existing hospital which was 
built 3 decades ago, and constructed to serve 65,000 patient 
visits per year. We outgrew that structure long ago, and we are 
seeing 400,000 patient visits a year.
    The Cherokee Nation desperately needs a state-of-the-art 
hospital, and we have committed millions to the project. I am 
here seeking an opportunity to compete for the right to partner 
with IHS in a joint venture.
    I appreciate the Subcommittee's continued support on Joint 
Venture, and thank you for the inclusion in past report 
language. I thank Representatives Cole and McCollum for leading 
a bipartisan letter to IHS to reopen this program, and 
Representatives Moran, Simpson, Joyce, Valadao, for signing on 
to the letter.
    On the Web site, IHS states they anticipate opening the 
applications for Joint Venture in late 2013. That has still not 
been done. The only thing delaying construction is the Agency's 
delay to opening the program. I request that the Subcommittee 
urge IHS to reopen the Joint Venture Construction Program.
    Secondly, the Cherokee Nation also invests in our 
communities and countless other ways, including education and 
infrastructure. We strive to be good neighbors, and we are in 
part, through the 8(a) Program. We have leveraged the program 
to diversify our non-gaming portfolio, creating opportunities 
for tribal citizens and non-citizens alike, 100 percent of our 
profits are either reinvested in businesses creating jobs, or 
to provide services for our citizens. Congress recently altered 
the 8(a) Program through the National Defense Authorization 
Act. And Section 811 of that Act requires a justification and 
approval for all direct awards within the program over $20 
million during the life of the contract. This figure was 
intended to be a threshold, however, many federal agencies 
believe it is a cap.
    We understand the need for a threshold and encourage 
accountability in the federal contracts.
    Mr. Cole. I think you inadvertently turned off your button 
when you shifted. Thank you very much.
    Mr. Baker. All right.
    Mr. Cole. It will be lit if you are on.
    Mr. Baker. Okay, it is on. I--okay. The policy has been a 
drastic effect on Indian Country and the Cherokee Nation. A GAO 
report revealed 60 percent decline in direct awards, and 
revealed no new direct awards above the threshold. We 
respectfully request this Subcommittee to work to clarify 
language that the threshold is not a cap. The 8(a) Program and 
Joint Venter Construction Programs are important recognitions 
of federal trust responsibility. As you consider your Bill, 
please urge IHS to reopen the Joint Venture, and consider the 
guidance to the 8(a) Program that confirms Congressional 
intent.
    Thank you for your continued support of Indian Country, for 
your service to this country, and for giving me the opportunity 
to address you this morning. [Speaking native language.]
    [The statement of Bill John Baker follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cole. Thank you.
    Let me make a couple of quick comments and I will go to my 
friend, Ms. McCollum.
    I couldn't agree with you more about Joint Venture. I mean 
it is a bargain for the American taxpayer. I have seen this 
work in my own tribe. They have participated in that program 
and like you, we made a very substantial investment on our own, 
with our own dollars, on something that is really effectively a 
federal responsibility. We were happy to do it, but we needed 
that Joint Venture Program to get up and running. And so again, 
any time that we can encourage tribes to invest with us, we 
ought to be doing as much of that as we possibly can. It long 
term saves money. And on the 8(a) Program, I can assure you, 
you certainly will have my cooperation. I think our problem has 
been in the United States Senate on that. That is where the 
provision came from that was inserted in the Defense 
Authorization Bill. I couldn't agree with you more. It has been 
misinterpreted, and if you actually look at the records, I 
think all the contracting out the government does, less than 3 
percent of it goes to Native Americans. So it is not as if 
Native Americans are a big threat in this area to somehow cause 
somebody else business, but the ability to diversify the 
economic base for tribes is just absolutely critical going 
forward. So those are 2 really important considerations, and we 
will try to work with you on both of them.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. I agree with your 
statements on increasing the ability for contracting, Mr. Cole. 
We heard a couple of people testify about detention centers 
yesterday, and so this is a reoccurring theme, one of which I 
don't think we have a full grasp. I will just speak for myself 
right now, but I think there are others who would agree on what 
is going on with the detention centers. I am hearing a couple 
of themes here. One, we need better schools. Two, we need to 
have schools that excite and engage our native youth at schools 
that they go to, whether it is immersion or other best 
practices in teaching. We heard a lot of that yesterday. When 
it comes to the detention centers, I know that there is one I 
visited in Minnesota which was built, all the money was put 
into it, and then it sits abandoned. So we need to do our 
oversight. Whether, as we heard, tribes don't want the funds in 
the Department of Justice, they want them in the Bureau of 
Indian Affairs. We need to figure out what is going on with 
this because there are a lot of facilities sitting empty, there 
are a lot of youth who need help, there are a lot of 
communities who stand ready to help their youth. Several 
witnesses have been bringing it up, even though we didn't ask 
any questions about it yesterday. Mr. Cole, this is something 
that this committee is very serious about addressing. The drug 
problem, educational opportunities that are missed, and a lot 
of other things, all lead youth to the facilities. Eventually I 
would like to see the facilities closed but not because there 
isn't the staff to operate them for the youth who need them 
today. I would like to see them closed because we don't have 
our youth needing them.
    Thank you.
    Mr. Cole. Well, we thank the panel for their--yes, sir?
    Mr. Wabnum. Mr. Cole, I would like to provide testimony 
to--in which I submitted to the Secretary Commission on Indian 
Trust Administration and Reform, I believe----
    Mr. Cole. Provide it for the record, you bet. We are happy 
to have it.
    Mr. Wabnum. Yes.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cole. And I couldn't agree with you more about the 
Dawes Commission by the way, but that is a pretty common 
sentiment for where I am from.
    Mr. Wabnum. Thank you.
    Mr. Cole. Thank you. Thank all 3 of you for your testimony. 
Appreciate it very much. If we could, we will have our next 
panel come up, and that is Mr. Mickey Pearcy, Executive 
Director of Self-Governance, Choctaw Nation of Oklahoma, Mr. 
George Thompson, Chief of the Hickory Ground Tribal Town at the 
Muscogee Creek Nation of Oklahoma, Mr. Gordon Howell, Chairman 
of the Ute Tribe of, is it Fort----
    Mr. Howell. Fort Duchesne.
    Mr. Cole [continuing]. Duchesne, that is what I thought, 
okay, and Mr. Eaglefeathers, President of the National Council 
of the Urban Indian Health Association. So good to have all of 
you here. And we will once again proceed in the order called, 
if we may. Mr. Peercy, you are recognized.
    Mr. Peercy. Good to see you.
    Mr. Cole. Good to see you.
    Mr. Peercy. I have not seen you since I shaved my head. You 
did not recognize me.
    Mr. Cole. Well, I do not know whether to tell you you look 
better or not, but I think you do. Looks pretty good.
    Mr. Peercy. How are you, sir?
    Mr. Cole. Very good.
                              ----------                              

                                          Wednesday, April 8, 2014.

                       CHOCTAW NATION OF OKLAHOMA


                                WITNESS

MICKEY PEERCY
    Mr. Peercy. I want to thank the Committee on behalf of 
Chief Powell for allowing us to participate in this hearing 
with the Subcommittee. I submit this on behalf of Chief Powell 
and Choctaw Nation, the third largest tribe in the Indian 
Nation.
    One thing I want to say before I get into the specifics, we 
request the Subcommittee work with the tribes and not allow 
tribal programs in the Indian Health Service or the BIA to be 
subject to any further sequestration or rescissions. It just 
puts you back. You never recover from that.
    I have several things to talk about, and I will not beat 
dead horses because I have heard other testimony. Five things I 
want to mention, but I will finish before my time.
    One is the joint venture program we have just discussed, 
the special diabetes program we have discussed, restoring the 
funding to the Office of Tribal Self-Governance, contract 
support cost issues, and I just mentioned the sequestration and 
rescissions, and I will not go there again.
    We just heard Principal Chief Baker talk about the joint 
venture. We do recognize that the President's 2015 budget has 
recommended $85 million for 2015 in the joint venture. We 
request that that be doubled to $170 million. You heard again 
of the success stories. It is getting to where that is the only 
way facilities throughout Indian Country get established, and 
we are interested ourselves in that program, and we need the 
solicitation out so we can move forward quickly. It is a long 
process, 3- to 4-year process anyway, and we need to get that 
started.
    Additionally with the joint venture, when we do the joint 
venture and we talk about staffing, we need to ensure that 
contract support cost is included in that so we are not in the 
dilemma that we have been in with contract support cost issues.
    The special diabetes program for Indians has been one of 
the most successful programs. No one can argue that. You all 
have got the books on reports that we have done, and we 
appreciate the effort in H.R.--was it 4302--for the 1-year 
funding. I spoke with Congressional staff in a hearing 2 or 3 
weeks ago, and I know you guys have to run every 2 years, what 
I put an analogy to, what if every year you were on the hit 
list and you did not know if you were going to be there next 
year or not. How do you recruit epidemiologists? How do you 
recruit diabetes educators to stay with the program that is 
funded year by year? It is just really difficult to keep 
quality staff. We are asking for two things. First, somehow we 
work together, can we get that permanent? Get it out of the 
grant cycle, get it into permanent recurring funding for the 
Indian Health Service. And plan B would be 5-year funding at 
least at $200 million instead of the 150 is what we are 
suggesting, but it is a great program. It has shown remarkable 
successes throughout Indian Country. You have heard the 
anecdotal stories, and you recognize that it is a successful 
program, so why do we have to work every year to hold our 
breath and see if it is going to be there on the next one.
    Restore funding to the Office of Tribal Self-Governance. 
Within the Indian Health Service, you have the Office of Tribal 
Self-Governance which has been there since the early 1990s. In 
2003, it had a $10 million budget to assist the tribes in 
Indian Country. In 2003, $4 million was taken. I am going to 
lie on this time thing. But in this year again to offset the 
contract support cost issue, another million was taken. Restore 
that back to the regular time.
    Contract support cost--we appreciate the language to make 
the agencies to do contract support cost funding totally, make 
them whole, but what they do is, they take money out of the 
rest of the program. So a mandate without appropriations does 
not get is anywhere.
    I am going to quit right there and say we never recover 
from sequestration and rescission. We should never have to. In 
the Indian Health Service, we are the ones who provide care 
just as the veterans do, and for us to get sequestered is not 
acceptable. So I would request that we really take a look at 
that, and that is my testimony.
    [The statement of Mickey Peercy follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cole. Let me make two quick points in response. Two 
years ago, this Subcommittee actually put tens of millions of 
extra dollars in contract support because we believed the 
figure was much higher than the Indian Health Service did. They 
came back and the Administration came back and requested that 
we take that out and put it someplace else. We said if we do, 
are you sure you can get the Senate to agree. They said they 
could; they could not. And we actually lost the money for the 
entire health program and in the end it turned out that our 
staff on this Committee was much closer to being right about 
the true cost of contract support than they were at the Indian 
Health Service. So it is a mistake I do not think this 
Committee will make again. We did not make the mistake but I 
think it is one where we will rely on our own judgment.
    Your second point about sequestration is absolutely 
correct. Indian health should have never been subjected to 
that. Actually, everybody admits that now. It was a mistake in 
the original budget. We do have the assurance, which I got 
again last night at Rules Committee when Mr. Ryan appeared that 
that will never happen again. So even if we go through a 
sequester, which we should try to avoid, early next year 
hopefully in a large agreement Indian Health Service will not 
be subjected to sequester in any different way ever again. So 
that does not make you whole for what happened.
    Mr. Peercy. It is hard to say without sounding greedy, we 
better get our money back.
    Mr. Cole. Yeah, well, I do not know if you really want that 
in the record but you are right. I do not know, I mean, because 
it is very hard to go back in a situation like this. But the 
first thing to do is at least make sure it does not happen 
again, and that at least appears to have been done. Thank you 
very much. Excellent points.
    Let me move on to the others if that is okay with Ms. 
McCollum, and then we will go to her directly for questions.
    Ms. McCollum. Mr. Chair, I mean no disrespect. I had foot 
surgery and I have an ice bag on my foot, so no disrespect to 
the people that I am not facing.
    Mr. Cole. The fact that you are here has proven that.
    Ms. McCollum. I have not turned my back on you. I love you, 
Mr. Cole.
    Mr. Cole. That is mutual.
    Mr. Thompson.
                              ----------                              

                                            Tuesday, April 8, 2014.

  HICKORY GROUND TRIBAL TOWN OF THE MUSCOGEE CREEK NATION OF OKLAHOMA


                                WITNESS

GEORGE THOMPSON
    Mr. Thompson. Thank you, Chairman Cole and members of the 
Subcommittee. My name is Mekko George Thompson. Some of you 
wonder what Hickory Ground is all about. I am going to try to 
explain that.
    Within nation, each tribal town has religious traditional 
and cultural aspects so that is where we come from. We carry 
out on our traditions and so forth.
    Well, anyway, I am here today on behalf of not only our 
nation but our brother and sister nations as well that have 
certainly huge debt we are faced with today.
    What the issue is about, it is about, you know, we were 
removed from the State of Alabama back in the 1830s. Anyway, 
since that time our old homelands have been desecrated. There 
were 60 human remains that were dug up and put in trailers on 
the site. I saw that firsthand, and it was not something that--
what they were, they were wrapped in newspapers and buckets and 
put on shelves in a trailer. There was no temperature control 
or anything. But anyway, this issue came up on us back in 2006. 
It was a big challenge for us because we are religious. But I 
realize that the remains that were being dug up were my great-
grandparents. We have ties back to our old homelands.
    So that gave me the incentive to look at the issue, and we 
have been dealing with this since 2006, like I said, and we 
have had numerous meetings with different entities relating to 
different agencies. All these years. What I was looking at was 
the results. As I was looking at what we were experiencing, I 
realized that we have to take another step forward to go before 
a committee or something that will help us with our issues, and 
one of the things that we are asking for is to, the Poarch 
Band, they receive grants for historical preservation, and my 
belief is that why should you receive grants when you desecrate 
the site. That is kind of defeating the purpose there. And 
also, the land that was purchased used federal grants, protect 
and preserve grants, but that never came about. And as of 
today, they are continuing their destruction, building a $240 
million casino expansion and a luxury high-rise hotel right 
there where our sacred place was. They removed our remains and 
built the casino on top of that.
    The Poarch has also used tribal police force to keep our 
people away from the site. Under the Religious Freedom Act, I 
believe that we have the right to perform our ceremonies. 
Recently, last year when some of our warriors were down there 
to perform ceremonies, they were locked up for trespass and so 
forth. Like I said, the results are in my written testimony, so 
I will try to make my time short as I know you people are busy, 
so I will end my testimony now.
    [The statement of George Thompson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cole. We appreciate it, and we appreciate you coming 
all the way to give the Committee your views.
    Mr. Howell, you are recognized.
                              ----------                              

                                            Tuesday, April 8, 2014.

                       UTE TRIBE OF FORT DUCHESNE


                                WITNESS

GORDON HOWELL
    Mr. Howell. Good morning, Mr. Chairman and members of the 
Subcommittee. Thank you for inviting me to testify this 
morning. My name is Gordon Howell. I am the Chairman of the 
Northern Ute Tribe. The Ute Tribe asks the Subcommittee to 
focus on two areas with increased attention and funding that 
would make a real difference on a reservation and across Indian 
Country.
    The first is the tribal law and order, and the second is 
energy development on our Indian lands. First, the tribe asks 
the Subcommittee to fulfill its trust responsibility to provide 
enough funding for law enforcement on our reservation. In the 
past 3 years, the Subcommittee provided a small increase to the 
BIA law enforcement funding but none of that funding makes it 
down to our reservation. Our reservation is the second largest 
in the United States, 4.3 million acres, but we have only eight 
federally funded officers. This leaves two or three officers on 
per shift that is covering an area larger than the State of 
Connecticut. This results in long response times, loss of 
evidence and difficulty in making convictions. We are pleased 
the BIA is requesting an increase of $1.6 million to hire 
additional officers in Indian Country but we know that when the 
$1.6 million is distributed nationwide, it will not even cover 
the increase of gas prices.
    Because of a lack of law enforcement on our reservation, we 
see a lot more gang activity and see a lot of illegal drugs. In 
just the past few weeks we have had kids involved in gang 
shootings at each other and on moving cars. Our people and our 
homes are caught in the crossfire. It is painful for me to see 
our tribal youth falling victim to the dangerous behavior.
    We support the Tribal Law and Order Act of 2010, and more 
recently, the Violence Again Women Act. These laws should have 
been the start of a new era in tribal law and order. However, 
we have seen no increase in police officers, no increase in law 
enforcement equipment, no increase in drug or gang crime and no 
increase in tribal court funding. Congress cannot simply pass 
laws and expect change to happen. Congress and the Subcommittee 
must also make funding available for the BIA and Indian tribes 
can make change happen at the local level.
    The second thing is the tribe asks the Subcommittee to 
begin taking Indian energy seriously. Indian development on 
Indian lands needs the same attention and energy on federal 
lands, if not more. Energy development on Indian lands supports 
tribal governments, provides jobs, allows us to provide 
services for our tribal members, and make less dependent on 
federal budgets.
    The tribe is a major oil and gas producer. We are only able 
to produce 10 percent of our capacity. We have about 7,000 
wells that produce 45,000 barrels a day. We also produce about 
900 million cubic feet of gas per day. Despite our success in 
the oil and gas industry, our partners say that the federal 
permit process is still their single biggest business risk.
    We ask this Subcommittee to direct the Department of the 
Interior to create an Indian Energy Permit Coordination Office 
and provide funding for the office to support the energy 
permitting process. The office could be organized within the 
existing Division of Energy and Minerals Development Office in 
Lakewood, Colorado. This concept is supported by a number of 
energy tribes in our region including the Coalition of Large 
Tribes, which recently passed a resolution supporting the 
creation of this office. This office could bring the same 
federal permit coordination to Indian lands and provide for 
federal lands in Section 365 of the Energy Policy Act of 2005.
    In addition, we ask the Subcommittee to redirect tens of 
millions in the President's fiscal year 2015 budget for energy 
development on federal lands to Indian Country. For the second 
year in a row, as you can see in this chart, the President has 
proposed no increase in funding in energy development on Indian 
lands and provided substantial increases in every other 
Interior energy program. If you take a look at the chart, you 
can see that there are increases all through this but there is 
none for the Bureau of Indian Affairs. And also in energy too, 
there is no increase, but there is increase in all the other 
departments.
    In fact, it has the smallest conventional-energy budget in 
the entire Department. The BIA's $2.4 million is only 1\1/2\ 
percent of $154.8 budget as proposed for the BLM. This is a 
failure of the Federal Government's trust responsibilities.
    The tribe asks the Subcommittee to redirect funds from BLM 
to BIA where additional energy expertise is needed to help 
tribes develop the resources and provide jobs for revenues.
    Of course, the BLM does provide some energy services to 
Indian land. BLM currently processes applications and permits 
to drill and does inspections on oil and gas operations. If BLM 
continues to provide these services, the Subcommittee should 
direct BLM to prioritize inspections of the Indian trust lands 
and fees collected for processing, APDs on Indian lands be 
included and the state and federal field offices where the APDs 
are being processed.
    Thank you for your cooperation.
    [The statement of Gordon Howell follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. I thank the gentleman for his testimony.
    Ms. McCollum, do you have any questions?
    Ms. McCollum. Thank you, Mr. Chair.
    Mr. Eaglefeathers is not here to talk about urban Indian 
health but I want you to know, representing St. Paul-
Minneapolis where there are many, many nations that are living 
in the Twin Cities and surrounding area, I will look at his 
testimony again more carefully, and Mr. Chair, then I will talk 
to you about some of the needs that he pointed out in there.
    Thank you, gentlemen.
    Mr. Thompson. Mr. Calvert, just one more statement, if I 
may?
    Mr. Calvert. Sure, very quickly.
    Mr. Thompson. I forgot to mention that our Principal Chief, 
George Tiger of the Muscogee Nation, is with us today.
    Mr. Cole. Welcome.
    Mr. Calvert. I have just a quick question and I will turn 
it over to Mr. Cole. When you mentioned the Colorado office, is 
that the same office that the tribes from the Bakken were 
referring to when they wanted to have the coordination out of 
one office?
    Mr. Howell. Yes.
    Mr. Calvert. They referred to it as the Denver office, and 
you referred to it as where? Somewhere else in Colorado.
    Mr. Howell. Lakewood.
    Mr. Calvert. Lakewood?
    Mr. Howell. Yes.
    Mr. Calvert. We are talking about the same thing?
    Mr. Howell. Yes, we are.
    Mr. Calvert. I just wanted to put that on the record. Okay.
    Mr. Cole.
    Mr. Cole. First, just quickly, Mr. Thompson, very smart to 
recognize the Principal Chief, so good move.
    I want to quickly associate myself with some remarks Mr. 
Howell made. Had you been here last week, we had some pretty 
pointed questions directed at the BLM on this very issue, so I 
could not agree more. We have got tribal governments, we do not 
give the ability to tax, and here we have got a source of 
revenue that they could have and it ought to be a priority. It 
should not be treated routinely the way any other application 
coming in because it is literally life and death services to 
tribal nations in many cases, and we have a unique opportunity. 
I mean, the Utes have been at this for a long time but the 
three federated tribes have not, and this is a really 
potentially life-transforming experience for them in terms of 
being able to get ahead of this, but all our tribes ought to 
have the ability to use their resources in a way that they see 
fit and ought to be able to develop them at the pace that they 
think is appropriate.
    I want to ask you one question about a concept that was 
presented to me on one occasion by a person in the energy 
industry that does quite a bit of development in the Bakken, 
and it was this. He said, of course this would always be a 
tribal decision but instead of relying on the federal 
regulatory regime, which is very cumbersome and expensive and 
slow, would it make sense for tribes, if they wanted to--it 
would be a tribal decision--to open up negotiations with the 
state governments in those various areas and use their services 
on their land if they chose do to that. Is that something--
because we usually we find that the state processing is much 
faster and much cheaper than frankly what they do, and 
honestly, they seem to hold their people for whatever reason a 
little bit better. It is pretty tough in all these energy 
rights right now to get qualified people for these governmental 
positions because we get outbid pretty quickly by the energy 
companies themselves. So there is a constant turnover in a lot 
of these offices and we have not been able to develop the 
professional cadre of regulators honestly that can speed this 
permitting process along. So any thoughts you have on that 
would be very welcome to this Committee.
    Mr. Howell. Okay. My opinion on that is that we are a very 
proud people that we are sovereign, and with the state getting 
involved, all it does it prolong it because they implement as 
well as with the government. They implement more and more 
regulations on us, and it just slows down the process.
    What I agree with is that like the Coalition of Large 
Tribes and all the tribes that are getting together, like you 
said, the three tribes that are coming together with us that we 
are willing to give our expertise developing it and getting it 
together. In other words, we are meeting together all the time 
to actually see what is holding up the process and we are 
willing to work together and solve the problem because we know 
what the problems are.
    Mr. Cole. Well, I think the preferred way would be of the 
tribes themselves wanted to take over the functions and had the 
expertise. That is the best solution, no question about that, 
and anything you can submit to this Committee that would help 
give us an idea of what we could do to facilitate that so 
tribes could self-regulate, you know, controlling your 
resources is controlling your destiny, and whether it is the 
Federal Government or the state government, you know, I think 
our experience in health care has demonstrated that the tribes 
that have actually contracted and taking control of their 
health care, usually the health care quality improves. Nobody 
cares about tribal members like a tribe, and frankly, those 
tribal governments then become very responsive to their own 
citizens and are saying hey, we want some changes here.
    I think the same thing would happen in terms of this 
regulatory stuff, and we had a very serious discussion with BLM 
to remind them that public land is not the same as Indian land. 
They are very different. That is not their land. It is not the 
land of the Federal Government. That belongs to the tribes, and 
tribal desires ought to dictate what goes on in their own 
property.
    Mr. Howell. And if you do not mind, you hit it perfect. You 
know, we are sovereign, and they treat it like it is public 
lands, and that is where they interfere with our energy 
processes that they implement and put these regulations on us 
like it is public land, and in fact, that is where we are right 
now. We are having a lot of issues with Fish and Wildlife, BIA, 
BLM and stuff, so you are right. It is not public lands.
    Mr. Cole. Well, Chairman, I hope these are areas we can 
work on with report language and refocusing, reminding the BLM 
and the other government agencies of that reality and making 
them prioritize these tribal needs. They ought to go to the 
head of the line. They should not just be in the line.
    Thank you. Yield back.
    Mr. Calvert. Good advice. Thank you.
    Ms. McCollum. Mr. Chairman?
    Mr. Calvert. Ms. McCollum, real quick.
    Ms. McCollum. If I could, Mr. Howell, really quickly, Mr. 
Hall, was in here earlier. I talked to him about some of the 
plans that they have of capturing some of the gas so that they 
were not doing the flare-ups so that the Bakken was not 
brighter in the sky than the Twin Cities. Are you working on 
doing some of that yourself with your tribe?
    Mr. Howell. We are not flaring.
    Ms. McCollum. You are not flaring?
    Mr. Howell. No. We have been in this, as Mr. Cole said, in 
this oil and gas business for decades, so no, you know, no 
disrespect to Texas, but we have been doing this for a long 
time and no, we are not flaring nothing.
    Ms. McCollum. No, I knew you meant it as no disrespect, and 
he is probably looking to your leadership and entrepreneurship 
on capturing that. This is not the Committee that deals with 
the flaring that is going on, but I just want to point out, 
Indian Country treats every resource with great respect and 
tries to use everything to its best ability. I wish our oil and 
gas producers in the private sector in the Bakken were doing 
the same thing.
    Thank you, Mr. Chair.
    Mr. Calvert. Thank you. And I thank this panel for your 
testimony, and you are excused, and we are going to introduce 
our next panel.
    Next is Dr. Robert Martin, President of the Institute of 
American Indian Arts; Ms. Carrie Billy, President and CEO of 
the American Higher Education Consortium; Ms. D. Bambi Kraus, 
President of the National Association of Tribal Historic 
Preservation Officers; and Mr. Lloyd B. Miller, Legal 
Counselor, the National Tribal Contract Support Cost Coalition, 
I think we are missing somebody. Who are we missing?
    Mr. Cole. No, we are good.
    Mr. Calvert. Okay. Very good. There he is. Lloyd Miller.
    Thank you for your attendance today. As you know, we are on 
a 5-minute rule. The green light is on. That is good. When the 
yellow light is on, close it up, and we will try to stay on 
time.
    So with that, Mr. Martin, you are recognized.
                              ----------                              

                                            Tuesday, April 8, 2014.

                   INSTITUTE OF AMERICAN INDIAN ARTS


                                WITNESS

ROBERT MARTIN
    Mr. Martin. Good morning, Mr. Chairman, members of the 
Subcommittee. Thank you for the opportunity to present 
testimony for the Institute of American Indian and Alaska 
Native Culture and Arts Development, more commonly known as the 
Institute of American Indian Arts.
    Mr. Cole, the President of the Student Government sends her 
regards, Tawny Growing Thunder. She said to be sure to tell you 
hello. She was in your office a couple weeks ago. She has 
applied for an internship in your office, and I wish her good 
luck with that.
    Mr. Cole. I think her chances just went up.
    Mr. Martin. All right. The Institute of American Indian 
Arts is chartered by the United States Congress and of course, 
our core funding comes through this Subcommittee, and for the 
last 5 years we have almost matched our $42 million in core 
funding with funding from other sources, so I am very proud of 
that.
    In terms of program and campus development, we have seen an 
evolution of the mission of the Institute of American Indian 
Arts from a high school to a college. We currently offer 
bachelor's degrees in studio arts, indigenous liberal studies, 
museum studies, cinematic arts and technology, and creative 
writing, and we have also expanded our mission in 2013 by 
offering an M.F.A. in creative writing, a low-res program. 
Sherman Alexei is on the faculty. We have 29 students currently 
enrolled in that program and 46 have been accepted for the next 
cohort group in the fall, so we are very proud of launching 
that program. Also, our enrollment has doubled from 200 in 2007 
to 450 this year, and we have 84 tribes represented.
    One of our priorities, of course, has been the campus 
build-out. We have a beautiful campus with 140 acres. For the 
first 38 years, we were in temporary facilities, and this has 
really made a difference in terms of the stability and 
permanence of our programs and strategic planning for the 
institution. March 26, we opened our fourth building since 
2009. It is a welcome center. It provides a front door to the 
campus. It is multipurpose. It has student galleries. It also 
has offices for admissions and recruitment and administrative 
offices and for IT as well, and we also have classrooms there, 
so we are very proud of that, and we will continue the build-
out of our campus.
    For the fiscal year 2014 budget, I wanted to thank the 
Subcommittee for your support. You supported the President's 
request of $9.369 million. That really rejuvenated the 
institution. We are reinstating and restoring our summer school 
program. We are offering a bridge program for the local tribes 
in New Mexico and across the region and Nation. We have been 
doing recruiting in Alaska and we have 78 applications for the 
summer bridge program from Alaska Natives, so we are very 
excited about that. But it also allowed us for the first time 
to give our employees a small COLA increase. That was the first 
time in almost 4 years. The sequestered amount of $8 million 
really presented some challenges for us, but thank you for your 
support and increasing our budget.
    You also supported the President's request for $2 million 
in forward funding, and unfortunately during the budget 
process, that was lost. In fiscal year 2015, we are asking you 
to support that increase that we received in fiscal year 2014 
plus $100,000 for a small COLA for faculty and staff, and also 
the $2 million that the President is requesting for forward 
funding. With the Continuing Resolution that provides 
uncertainty and sometimes we do not know what that amount is 
going to be until halfway through the school year, and it is 
difficult to plan and really do the best job that we can for 
our students. The government shutdown was devastating for the 
morale of our faculty, staff and students no matter what we 
said. You know, we were able with our reserves to continue 
operations but they heard rumors, they heard of other agencies 
furloughing their employees and so they were expecting the same 
thing to happen, and the students were asking about food 
service, was that going to be eliminated, were they going to 
have to go home. So it really had a devastating effect.
    The Institute of American Indian Arts is one of five tribal 
colleges that are not forward funding, thanks to the work of 
President and CEO Carrie Billy several years ago. About 3 years 
ago, they received forward funding, so the shutdown and 
Continuing Resolutions do not impact them the way it does the 
Institute of American Indian Arts, Navajo Technical University, 
United Tribes Technical College and Haskell. So we are hoping 
that you will support not only the President's core funding 
request for us but also the request for the $2 million in 
forward funding.
    Thank you again for the opportunity to speak today on 
behalf of the American Indian Arts, and if there are any 
questions, I will be glad to answer those.
    [The statement of Robert Martin follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you, Mr. Martin.
    Next is Ms. Carrie Billy, President and CEO of the American 
Indian Higher Education Consortium. You are recognized.
                              ----------                              

                                            Tuesday, April 8, 2014.

              AMERICAN INDIAN HIGHER EDUCATION CONSORTIUM


                                WITNESS

CARRIE BILLY
    Ms. Billy. Mr. Chairman and members of the Committee, I am 
Carrie Billy, President and CEO of the American Indian Higher 
Education Consortium, which is AIHEC, and I ask that my full 
statement be included in the hearing record.
    Mr. Calvert. Without objection, full testimony will be in 
the record.
    Ms. Billy. On behalf of the Nation's 37 tribally and 
federally chartered colleges and universities which 
collectively are AIHEC, thank you for this opportunity to speak 
about American Indian tribal higher education.
    First, I want to thank you and the Committee for your past 
support which has enabled tribal colleges to serve more than 
88,000 American Indians and Alaska Natives each year through 
academic and community-based programs at more than 75 sites in 
16 states. Mr. Chairman, your investment in tribal colleges is 
yielding a tremendous return. It is transforming families, 
communities, tribal nations one student at a time.
    Over the course of these hearings, the Committee has heard 
about the challenges facing Indian Country. These challenges 
are real and they are serious but they are not insurmountable 
and they do not define us. Hope defines us. It is in our 
ability to look back and hearing our studies and songs, our 
history and our language, and from that to shape a foundation 
for a better world on our own land. Tribal colleges are the 
catalyst for transforming this vision into reality. Tribal 
colleges take hope and a pitifully few dollars and shape them 
into opportunity.
     A few weeks ago, I was talking with a young man who had 
been in and out of jail several times. By 18, he dropped out of 
high school. He was drinking, getting involved in gangs and he 
was a father, at least in name. He had tried different things 
to improve his situation--college, the military, short-term 
employment. None of these things worked for him, and the gangs 
were still calling. When his second child was born, he had to 
make a decision and stick with it. He could easily have chosen 
a life of criminal behavior, violence, drugs, and eventually, 
prison. He would have been a statistic within our penal system, 
and without a father, his children might easily have repeated 
the same pattern, all at tremendous cost to taxpayers. But he 
found Lac Courte Oreilles Ojibwa Community College and he 
enrolled. Now he is the tribal college student body president. 
He is planting community gardens throughout his reservation, 
working with high school students, helping his children with 
homework and exceling in college. This story is repeated over 
and over at tribal colleges.
    Mr. Chairman, our funding requests are modest and they are 
listed in our prepared statement. I will mention just two, one 
that President Martin mentioned. AIHEC is seeking an 
appropriation of $22 million to forward-fund the five tribal 
colleges that are the only schools whose operating funding 
comes from the Department of Interior that are not forward 
funded. All other BIE and Interior schools are forward funded, 
and they are able to plan multiyear budgets and begin and end 
the school year with semidependable funding. Forward funding 
will not increase the federal budget over the long term. It 
simply allows these vital education programs to receive basic 
operation funding on time, which, as Dr. Martin said, is 
critically important when the Congress continues to operate on 
continuing resolutions. Please help us with this modest 
request. I believe that if CBO scored it over 10 years, it 
would probably have zero impact.
    What will you get for that investment? I can guarantee a 
rate of return of at least 14.3 percent. I can guarantee you 
hundreds of more stories like the story I just told about that 
student. According to an independent analysis, the Nation's 
community colleges, which includes tribal colleges, yield a 
rate of return of $5.80 for every dollar spent in academic 
programs alone. This accounts for a third of all of our 
students. Tribal colleges are academic institutions. They are 
producing an American Indian workforce of teachers, agriculture 
and land management specialists, engineers, computer 
programmers, artists and nurses, but they do so much more. 
Their community centers, public libraries, tribal archives, 
entrepreneurial and economic development centers, child care 
centers. They run Head Start programs, establish community 
gardens, build wellness centers, conduct regional and 
reservation-based research in critical areas such as invasive 
species mitigation and Native and traditional plant 
restoration. Tribal colleges, more than any other entities in 
Indian Country, preserve and revitalize Native languages. They 
operate the only GED training and testing facilities in many of 
our communities. They work with the K-12 schools, sometimes 
even putting math teachers in local high schools at the 
college's expense to improve student outcomes and their chance 
of graduating from college. They offer dual credit programs and 
they do so much more. They do it all with $5,850 per Indian 
student.
    The only other minority-serving institution funded by the 
Federal Government, Howard University, receives about $30,000 
per undergraduate student for a total of more than $200 million 
in annual operating funding. Tribal colleges receive a quarter 
of this amount. We are not asking for even half the amount that 
Howard receives. We are asking for the Congressionally 
authorized level of $8,000 per Indian student.
    In closing, I will just mention that tribal colleges are 
growing. In fiscal year 2015, the College of Muscogee Nation in 
Oklahoma will be eligible to receive operating funding for the 
BIE. Over the past 10 years, six tribal colleges have been 
added to the Tribal College Act, but our funding has not grown. 
Please help us grow to the authorized level of $8,000 per 
Indian student. This request represents hope for thousands of 
American Indians and it is a wise investment in success for 
America. Thank you.
    [The statement of Carrie Billy follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. I thank the gentlelady for her testimony. We 
hope that the era of Continuing Resolutions is over and we are 
back to regular order.
    With that, we recognize Bambi Kraus.
                              ----------                              

                                            Tuesday, April 8, 2014.

   THE NATIONAL ASSOCIATION OF TRIBAL HISTORIC PRESERVATION OFFICERS


                                WITNESS

D. BAMBI KRAUS
    Ms. Kraus. Thank you. Good morning, Mr. Chairman and 
members of the Committee. Thank you for your time.
    This is the third year that the National Association of 
THPOs has appeared before your Committee, and from my point of 
view, it is probably one of the more interesting committees 
because this really is reality for Indian Country. It is 
actually what is going on, and thank you for your time.
    I want to make one quick note that I actually served on the 
Board of IAI that actually brought on Dr. Martin to head the 
institution, and he has done an exceptional job to create both 
a functional and a beautiful campus in Santa Fe, so I just 
wanted to make my support known.
    We are actually talking about a small amount of money that 
will make a huge difference in Indian Country for cultural 
perpetuation, and in particular, I am referencing three federal 
programs that already exist and asking for the creation of 
another. The first federal program is the Historic Preservation 
Fund that is funded and administered by the National Park 
Service. We are actually requesting more money than the 
President requested because the funds are not keeping pace with 
the need in Indian Country. The number of tribes has gone up 
again by 10 in terms of participating in the program so the 
Park Service is stating that there will be 151 tribes 
participating in the THPO program in fiscal year 2015. So that 
is a huge step from where we started in the fiscal year 1996 
when there were only 12, so it has gone from 12 to 151, and we 
expect the program to keep growing and so we are asking that 
the funds keep pace with the interest of the tribes, and we 
consider it a success to have so many tribes participating in 
the program.
    Also funded out of the Historic Preservation Fund are the 
state historic preservation officers. We are seeking $50 
million in support of their request. I think you will hear from 
them next week. And then also $5 million for a new program 
called Underrepresented Communities in the National Register 
program, and that is a new program, and I believe that most 
people in Indian Country would feel like they have an 
underrepresented community. We hope that this year will be the 
year the tribes can get money directly rather than going 
through the states as what is currently the process for fiscal 
year 2014.
    Moving on to the second national program that already 
exists, also administered by the Park Service, is the Native 
American Graves Protection and Repatriation Act. That is called 
NAGPRA, and it has been around for over 20 years, and it has 
had some measure of success but there is still a lot of work 
remaining to be done. Unfortunately, the funds have been cut by 
25 percent over the past 2 years. I have no clear understanding 
of why there has been a cut but the need has not decreased. 
Rather, the Park Service has apparently not requested the level 
that was historic amount of $2.3 million and so I believe that 
they are asking for $1.75 million in 2015, and we request that 
the amount go back to the $2.31 million.
    The other program that already exists is the Smithsonian 
Institution, and perhaps we are the only group that is asking 
for support for the Smithsonian's repatriation work. They have 
quite a few Native American human remains in their possession 
and sacred objects, and so we are asking for more money for 
them to be able to do their work.
    The creation of a new program is within the Bureau of 
Indian Affairs. They currently do not have any kind of 
mechanism that allows them to have clear authority for cultural 
resource work, even though they have the same mandates to 
comply with federal laws such as NEPA and the National Historic 
Preservation Act.
    I think with my last minute and 24 seconds, I want to just 
say that this is probably one of the more interesting aspects 
of working in Indian Country. The Historic Preservation Act, 
for example, has brought the tribes in contact with the 
railroads, the historic railroads, on positive train control, 
and we are in the midst of finalizing a process that will 
streamline it so that the tribes and the railroads can comply 
with the Historic Preservation Act in order to implement 
positive train control, and I think that without 20 years of 
experience with the tribes, we would not have been able to 
respond to this, and I just wanted to make sure that you 
understand the tribes are stepping forward, they are getting 
ready to hire staff in order to make the process go as smoothly 
as possible.
    And the other aspect that you hear about, you do not 
understand how the tribes have a role in it, is that a year ago 
when I testified, I mentioned that the country of France was 
about to auction off many, many sacred ceremonial objects, and 
that auction went forward. We were all unable to stop it. This 
year, another unusual situation is that the FBI has discovered 
a private collection, and preliminary information is that there 
are probably over 100 Native American skeletal remains in his 
possession. So I have been asked to try to help get Indian 
Country to see if we can get people to start identifying some 
of these Native American ancestors and sacred items.
    So I just wanted to give you an idea of the type of work we 
do, and it is not easy work. It is definitely not easy work, 
and I have to applaud anyone who steps forward to help protect 
their culture.
    So thank you very much for your time.
    [The statement of D. Bambi Kraus follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you.
    And next, Mr. Lloyd Miller, Legal Counsel, National Tribal 
Contract Support Cost Coalition.
                              ----------                              

                                            Tuesday, April 8, 2014.

            NATIONAL TRIBAL CONTRACT SUPPORT COST COALITION


                                WITNESS

LLOYD B. MILLER
    Mr. Miller. Thank you, Mr. Chairman, Congresswoman 
McCollum, Congressman Cole. Let me begin by praising your 
lifetime of work, Bambi. You have been a terrific public 
servant to Indian Country.
    I have been working with Indian tribes for over 20 years on 
issues pertaining to contract support costs both in the 
appropriations committees and in the authorizing committees but 
perhaps most famously in the courts. We have had two Supreme 
Court decisions, countless Court of Appeals decisions, co-
counsel in the Ramah class action against the BIA. I am 
counselor in unfortunately 55 cases against the Indian Health 
Service including the Cherokee, Choctaw, Chickasaw tribes, 
Citizen Potawatomi, the Red Lake Band, the Riverside Southern 
Indian Health, California Rural Indian Health, Tule River. It 
goes on and on. It is sad. It is sad because this should never 
have happened.
    But I want to begin by thanking this Committee. This 
Committee took courageous action. It was not easy. The 
Administration saw an anomaly in the first Continuing 
Resolution. I am sure there was pressure on some members of the 
Committee, and you were up to the pressure and you delivered 
for Indian Country, and you really did start a course change 
under the Indian Self-Determination Act. Never in 39 years have 
these contracts ever been paid in full. If Providence were 
asked to run a federal hospital, they would be paid in full. If 
Acme Construction Company were asked to run a federal 
construction project, they would be paid in full. If a private 
company were asked to run a BIA prison or jail, they would be 
paid in full. But never until you acted this year have tribes 
been paid in full on their contracts. It seems ordinary. It 
seems natural, the Supreme Court said. So thank you for very 
much for your leadership. I know it was not easy.
    I have to salute the Administration. In 2015, they have 
gotten with the program. They were not last year but they are 
this year, and we support the Administration's proposal to 
continue the full funding of these contracts. I have noted in 
my testimony a couple of technical corrections which I think 
would facilitate this contracting process. Now that the 
agencies are at full funding of these contracts, and given the 
dynamic way in which the contracts are priced, there is a 
possibility there could be slight overpayments and slight 
underpayments through the course of the year. Adjustments will 
need to be made as that occurs. It is important when money 
comes back to the agencies it does not go to the Treasury, that 
it remains with the agencies so they can pay those who are 
slightly underfunded. If it happens late in the year, it is 
important that the agencies can use the money in the next 
month, even though that may be in a new fiscal year. So that 
would require having either some of the money or all of the 
money be 2-year money, but these are technical things to now 
adjust to the new era.
    We have offered some language to improve transparency. This 
Committee demands an annual shortfall report from the agencies 
showing exactly how they have spent their money on the 
contracts; if anything is due, reporting to you on what is due; 
if anything has been overpaid, reporting to you on what is 
overpaid. This is a very important budgeting tool for you. It 
is a very important document for Indian Country. But oddly, 
given the trends in other areas, transparency in this area has 
gotten worse in the current Administration. This Committee can 
make sure that those reports are transparent, that they are 
disclosed to Congress in a timely way, and that tribes have an 
opportunity to comment on them as they are being developed. 
Language along those lines has been included in my testimony.
    Finally, I would be remiss if I did not talk about the 
claims process, and I am happy to answer your questions, Mr. 
Chairman, about this process. In one sense, there is nothing 
for the Committee to do. The claims process works on its own. 
If a claim is satisfied, if it is settled or if there is a 
judgment, it is paid out of the judgment fund. It never comes 
through this Committee. But there is a problem, and if I may 
distribute some charts, I think they will tell more than I 
could possibly tell you about what is going on.
    The first two charts will tell you how many claims have 
been settled since the Supreme Court decided the Ramah case in 
June 2012. The second chart will tell you how many tribes have 
claims. You can express it either way. A tribe might have one 
claim or a tribe might have 20 claims, so whether you want to 
look at it from the standpoint of tribes or the standpoint of 
claim years, this reflects our best information to date. The 
last document for your information is the actual claims, the 
specific tribes and the amounts of the settlements. We have 
worked with other law firms to make sure this is as accurate as 
possible for the Committee. We will continue to update this.
    If the Committee would look at the tribes with settled 
claims chart, there is just one thing missing on this chart. 
This axis does not go up to 60. It goes up to 200. There are 
200 tribe claims, and we have accumulated them so you have 13 
tribes piled up here out of 200, and that is in almost 2 years. 
The settled claim years document also is telling. The left axis 
should go up to 1,600. According to the Director's answers to 
questions for the record in the Senate Indian Affairs Committee 
provided last summer, there were 1,550 claims at that time 
filed against the agency. We know of a number of claims that 
have been filed afterwards, so I would guesstimate 1,600. That 
is how many have been settled. That is a cumulative amount, so 
the last item is the total number of claims settled, about 105 
claims.
    We work collaboratively with the agency. The agency has 
wonderful lawyers. They are lovely people. But this is broken. 
It if keeps going like this, we are going to be at it for 10 
years, and to what good end, I do not know because the 
settlements end up coming pretty much in at where those 
shortfall reports arrive, which is what I mentioned earlier. 
Those shortfall reports are pretty good shortfall reports. If 
we want to get this thing closed in our lifetimes and my 
lifetime, I would suggest that the Committee include language 
in Sections 404 or 405 of the bill, which would establish a 
presumption that the shortfall reports you receive, which are 
certified by the agency, are a proper basis for resolving these 
claims, and when they are certified, that is the next best 
thing to be sworn under oath. They are good enough for 
government work. They are good enough to settle historic 
claims, and I think most tribes would be satisfied with a 
resolution on that basis. Section 405 provides technical 
protection for the agencies from the judgment fund coming after 
them, and that is appropriate. We support that. No way should 
their funds be taken. But if that is going to happen, let us 
establish a presumption and get these things wound up.
    Thank you, Mr. Chairman.
    [The statement of Lloyd B. Miller follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you for your testimony.
    Dr. Martin, for the past 2 years you have been requesting 
forward funding in order to bring the budget in line with the 
school year instead of the fiscal year, and we understand that, 
and to bring the budget in line with other but not all tribal 
colleges, which are already forward funded. As you mentioned, 
in fiscal year 2014 we could not deliver on the forward 
funding, thanks to a Budget Committee limitation. Instead, we 
changed your 1-year funding to a 2-year funding. If we cannot 
deliver on forward funding for fiscal year 2015, does the 2-
year funding at least help a little bit?
    Mr. Martin. Not exactly because most of that funding we 
will be expending for services such as the summer school 
program I mentioned, and we have a growing enrollment and 
campus. You know, that is what allowed us to survive during the 
shutdown was a reserve, so we are interested in doing that, but 
with accounting and our audits, we have to budget and expend 
those funds in the given fiscal year.
    Mr. Calvert. All right. Ms. Billy, can you give us a sense 
of appropriations for tribal colleges as compared to other 
colleges that directly receive federal appropriations such as 
Howard University here in this area?
    Ms. Billy. Well, Howard University receives for their 
undergraduate program alone, not their medical school, $200 
million a year. That is appropriated through the Department of 
Education, or funded through the Department of Education and 
Labor HHS appropriation bill. That works out to about $30,000 
per full-time undergraduate student.
    Mr. Calvert. And what do you receive?
    Ms. Billy. The tribal colleges, their funding is about 
$5,850 per student, so less than a quarter of the amount that 
Howard University receives, and Howard receives that because it 
is on what used to be federal trust land, and the tribal 
colleges are still on federal trust land.
    Mr. Calvert. Mr. Miller, just for the record also, 
obviously here we understand the judgment fund, but how would 
the judgment fund if in fact the agency decided to settle all 
these claims out of the judgment account, how would that affect 
our deficit, our budget line? How would that affect that, in 
your judgment?
    Mr. Miller. Well, I think it would affect the federal 
deficit infinitesimally but it would have some slight impact. 
The Congressional Budget Office, however, no doubt has already 
budgeted for the impact of the claims because the Supreme Court 
at the time it was making its decision was informed by the 
Justice Department that the claims could cost about $2 billion. 
So I think the judgment fund is budgeted for the payment of the 
claims in the Ramah case.
    Mr. Calvert. We have money in the judgment account that is 
always there for various claims to the Federal Government for 
one purpose or another including obviously this instance. So 
this is not anything that--some people would argue that it does 
not affect the deficit because it comes out of the judgment 
account and that we could go ahead and pay these claims and get 
them dealt with quickly.
    Mr. Miller. All money costs money, Mr. Chairman.
    Mr. Calvert. Yes, all money costs money.
    Mr. Miller. I agree with that. All I would say is that 
these are past obligations that were already performed so it is 
funds that are owed. I would think the American people would 
recognize that services rendered to the United States should be 
paid.
    Mr. Cole. Around here, all money is not money, you know, 
because we have arcane rules of scoring, and that actually--
this is one of the few times I have ever seen scoring work to 
our advantage instead of our disadvantage. So this is a case, I 
actually agree with the Chairman, where I suspect these 
compensations could be paid out of a preexisting fund simply 
because that is what it is there for and it technically does 
not add to the deficit under the CBO rules for scoring. So very 
important because it will speed the process if it does not 
score.
    Mr. Calvert. And I think all of us on this Committee want 
us to get this thing resolved and get it behind us as quickly 
as possible.
    Mr. Moran.
    Mr. Moran. Without having to ask, I know what you are 
talking about, and I completely agree with you. The three of us 
are wholly in accordance on a bipartisan basis. I would like to 
think we are bicameral, and more important, I do hope that Mr. 
Cole is right. He is on the Budget Committee and has been there 
for a while, so if that is the way CBO is going to score it, 
that would be terrific. But nice to see you, Mr. Miller.
    Mr. Miller. Thank you. It is very nice to see you.
    Mr. Moran. It is nice to see you all. I do not have any 
questions. Thanks.
    Mr. Calvert. I want to take this opportunity to thank Mr. 
Moran. This is going to be his last Indian hearing today, and 
Mr. Moran has been a champion for Native Americans throughout 
this country, and I know will continue to be. So I want to 
thank him personally for all the good he has done both as 
Chairman and as Ranking Member, and we are going to spend the 
rest of the year together. I just wanted to butter you up for 
the rest of the year and let you know how good a guy you are. 
So I appreciate all you have done.
    Mr. Moran. It means a great deal to me. Thank you, Ken, Mr. 
Chairman. It is a pleasure working with you and Tom.
    Mr. Cole. Would it be appropriate to have a round of 
applause?
    Mr. Moran. Oh, no. Thanks very much.
    Mr. Calvert. Mr. Cole.
    Mr. Cole. Thank you. Actually, I am not inclined to applaud 
because I am pretty mad that he is leaving, and as the Chairman 
said, he has been absolutely terrific to work with and has been 
a leader on these issues, to say the least. He made a big 
difference in the lives of lots of people that are not his 
constituents and that he has never met but believe me, their 
lives are a little bit better off because of what Jim Moran has 
done on this Committee, both in the majority and in the 
minority. So a great pleasure to serve with you, my friend.
    A couple of things real quickly. Let me start with you, Ms. 
Billy. I am curious. You know, one of the good byproducts of 
the Cobell settlement was the scholarship program, and we got a 
good report out of Interior recently in terms of at least their 
activity with the National Fund for American Indian Education, 
that some funds are being released. How, if at all, are those 
funds impacting tribal colleges? Are we seeing as those funds 
become available more Native American students able to use 
them?
    Ms. Billy. Well, the funds have not become available yet. 
In fact, I think the first payment will be some time--they are 
actually hoping to distribute the first round of scholarships 
for fall fiscal year 2014, and I think it is about $600,000. 
Most of that will be for administrative costs, we have been 
told, so we are not sure how many scholarships there will be. A 
portion will be for Indian graduate students and then the rest 
will be for either tribal college students or American Indians 
at mainstream institutions. The schools have to have a 4-year--
they have to be for bachelor degree programs or for workforce 
development programs. All the tribal colleges have workforce 
development programs so I imagine students will get funding for 
that. Thirteen have 4-year degree programs and then five, 
including IAIA, have master degree programs.
    Mr. Cole. Well, it would really be helpful as we go forward 
to get your continuing input on whether or not as synergy 
develops between what Congress did in that place but this 
should be a source. Obviously not every tribal student is going 
to want to go to a tribal college, and that is fine. They need 
to go wherever they want to go and wherever they think is best 
for them, but I particularly hope that the tribal colleges 
benefit out of this, and if there is some mechanism that helps 
us in that regard or, frankly, if you see too much being eaten 
up in other costs that are not directly student related, I 
would hope you would bring it to the attention of this 
Committee.
    Ms. Billy. We will definitely do that. Thank you.
    Mr. Cole. And Ms. Kraus, if I could, you talked very much, 
and I could not agree with you more, about some of the programs 
that are needed from a federal standpoint but we also have a 
lot of tribes beginning to do things on their own, which is 
really heartening as they get resources. It is amazing. I know 
my own tribe maintains an archaeologist in northern 
Mississippi. We have the same burial issues, by the way, that 
other people have, and we have tried to buy some properties 
there both to preserve them, and frankly, to work with local 
people sometimes who frankly do not understand that what they 
see is kind of innocent trophy hunting really is not, and we 
have acquired collections and tried to do it in a sensitive way 
both to not set off a stampede and to not punish people for 
something that had become something of a local tradition that 
they did not see anything wrong with but now they are beginning 
to understand and are working with us in a very positive way. 
Can you give us some idea of how many tribes are engaged on 
their own and some idea of the amount of resources that are 
already expending on their own?
    Ms. Kraus. Well, in NATHPO's written testimony, we state 
that most tribes match the federal program support that they 
get by at least two to one because you cannot currently operate 
a tribal historic preservation officer program with the funds 
that are coming from the Federal Government. So that is just 
the tribal historic preservation officer program but there are 
indeed a lot of tribes that do not have a THPO program for, you 
know, different reasons, but they generally--well, I am 
thinking, for example, Chickasaw is doing quite well. But I 
think that once they understand, though, the superior benefits 
of having a THPO program in terms of efficiencies to implement 
the Historic Preservation Act that most do. Whether or not they 
take the money is a different story. But thank you for your 
comments on collecting. Actually, I think that the THPO program 
and just this, you know, growing up of historic preservation is 
bringing to general American public this understanding that 
collecting Native American skulls is not something that they 
should be doing.
    Mr. Cole. It has been very helpful, and again, I appreciate 
you expanding for the record and for the Committee because 
again, this is money that is very similar to seeing money in a 
lot of programs that we do. You put a little money in and it is 
amazing what gets matched by the tribes, and so it really 
multiplies well beyond the federal dollars. You have to 
recognize, every time we add a half million or a million 
dollars, the multiplying effect is really tremendous because I 
think particularly as tribes are able to meet some basic needs, 
those that are fortunate enough to have done it, they have 
turned to their heritage very quickly. It is something they 
want to preserve. Everything from traditional artifacts and 
practices to languages and again, the investment that the 
tribes are making far, far exceeds anything the Federal 
Government is doing, but this is quite often the trigger that 
sets that off, so thank you for your work.
    And I just want to add, Mr. Martin, I appreciate what you 
do.
    Mr. Miller, I really appreciate what you have been doing 
for a long time, and while I know you are not and should not be 
satisfied with these numbers, when I look at where we were and 
I look at some of these claims being repaid and how many 
millions of dollars have flowed back to tribes because of your 
efforts and your coalition's effort. I just want to tell you I 
am very grateful, and I am proud of this Committee but somebody 
had to bring it to the Committee's attention and keep pushing 
it and then tribes did that themselves, and you certainly were 
a big part of that, so thank you very much. Yield back.
    Mr. Calvert. Thank you. Just one last comment, maybe a 
quick question for Ms. Kraus. How many Indian remains are at 
the Smithsonian? Can you approximate that?
    Ms. Kraus. I think they started with 18,000. They are split 
between the National Museum and Natural History and then the 
American Indian.
    Mr. Calvert. Is there any other group of people that have 
even close to that kind of--it seems a little ghoulish to have 
that, and why is our government not moving to repatriate those 
remains? Is there some scientific reason? What is their 
reasoning behind this?
    Ms. Kraus. Well, for example, the Natural History Museum 
has a very, very, very high standard where you actually have to 
know enough to request a repatriation claim and then they start 
researching the actual claim.
    Mr. Calvert. There has to be a better way to do that.
    Ms. Kraus. Well, I would be happy to work with you and try 
to find out.
    Mr. Calvert. Yes, because that just seems to me that should 
be resolved.
    Mr. Cole. If I may, Mr. Chairman, because I actually sit on 
the Smithsonian board. Actually, most of my focus has been on 
artifacts, and there is a very robust program to try to partner 
with tribes. In that case, they try to make sure if it is 
leaving the Smithsonian that it is going back to someplace that 
has the technical capabilities to protect it, and that is a 
negotiated thing with the tribes. I mean, their aim is to get 
these things back in many cases to the tribes, and again, I 
think they would welcome a dialog in this regard because they 
are trying to do the right thing on this. They get a lot of 
competing attention, but I would be happy to work with you on 
that.
    Mr. Calvert. Thank you, and I thank this panel, and you are 
excused. We are adjourning and we will reconvene at 1 o'clock.
                                            Tuesday, April 8, 2014.

                           AFTERNOON SESSION

    Mr. Calvert. The Subcommittee will come to order.
    Good afternoon, and welcome to the fourth public witness 
hearings, specifically for American Indian and Alaskan Native 
programs under the jurisdiction of the Interior and 
Appropriations Subcommittee. I especially want to welcome the 
distinguished tribal elders and leaders that are testifying 
today and in the audience. I can assure you that your voices 
are heard by this Subcommittee. For us to listen through these 
hearings and not feel compelled to do all that we can try and 
help would be unconscionable.
    Just as they were under the Chairmanships of Norm Dicks, 
Jim Moran and Mike Simpson, American Indian and Alaska Native 
programs shall continue to be a priority for this Subcommittee.
    Before we begin, I have a few housekeeping items to share. 
This is important because we are having votes later this 
afternoon, and I want to be able to hear from everybody before 
we end our testimony today. We have rules about outside video 
cameras and audio equipment during the hearings. This is to 
ensure that today's hearing is not unfairly reproduced out of 
context. Official hearing transcripts will be available at 
GPO.gov. I will also call each panel of witnesses to the table, 
one panel at a time. Each witness will have 5 minutes to 
present his or her oral testimony. Each witness' full testimony 
will be in the record. So don't feel pressured to cover 
everything in 5 minutes. We will be using this timer to track 
the progress of each witness. When the light turns yellow, the 
witness will have 1 minute remaining to conclude his or her 
remarks. When the light blinks red, we would ask the witness to 
stop. And I will be using the gavel this afternoon, because if 
I don't, not everybody is going to be able to testify. So I 
apologize for that. As long as we stay on schedule, we will not 
likely be interrupted by votes. But if we get behind, our last 
panel might have to wait for an hour or more. So that is why I 
want to try to get this done for fairness to them.
    Yesterday a tribal elder expressed his frustration about 
flying all the way out here, only to be able to talk to us for 
5 minutes, and I want everybody to know that I consider these 
hearings just a start of an ongoing dialogue. I encourage all 
of you to continue to communicate with the Subcommittee 
throughout the budget process, not just for the 5 minutes we 
have here today. And many of the leaders of the Native tribes I 
know personally, and trust me, they talk to me often.
    You traveled a long way to be here this week. I hope that 
you will seize the opportunity to meet with other Members of 
Congress outside this Subcommittee and the Senate, including 
those representing where you live now and where your ancestors 
lived as well. Help us explain the trust obligation and show 
not only disparities in Indian Country as compared to the U.S. 
population as a whole but what is possible when American 
Indians are fully empowered to exercise their self-
determination rights.
    Mr. Calvert. With that, I thank all of you for being here 
today, and there are all kinds of hearings going on. So members 
will be coming in and out. We will go ahead and start now.
    First I would like to recognize Mr. Tim, is it Ballew?
    Mr. Ballew. Ballew.
    Mr. Calvert. The second, Chairman of the Lummi Nation. You 
are recognized for 5 minutes.
                              ----------                              

                                            Tuesday, April 8, 2014.

                              LUMMI NATION


                                WITNESS

TIM BALLEW II
    Mr. Ballew. On behalf of the Lummi Nation----
    Voice. Press your mike on button, please.
    Mr. Ballew. On behalf of the Lummi Nation I would like to--
--
    Voice. Get closer to the----
    Mr. Ballew. Closer, even? Okay. I thank the Committee Chair 
and Members for this opportunity to request the Lummi Nation's 
appropriations request for the upcoming fiscal year.
    Since time immemorial, the ancestors of the Lummi occupied 
and used the vast areas of lands and waters of what is now 
known as the Salish Sea to support a fishing lifestyle as well 
as residing, hunting, gathering and other purposes. The Pacific 
salmon have played a central and enduring role, in Lummis and 
other local tribes' subsistence, culture, identity and economy.
    In 1855 at the signing of the Point Elliott Treaty in which 
tens of thousands of lands were ceded, among other things, a 
reserve right to take fish at all usual and accustomed stations 
and grounds in common with all citizens of the Washington 
Territory was negotiated and also recognized and provided to 
the Lummi and local tribes.
    Fish stocks have plummeted in the past decade. The Lummi 
Nation, and in turn, Commerce and NOAA, have declared sockeye 
fish disasters in 1999, 2008 and 2013. And I know it is out of 
the purview of this committee, but we do urge Congress to 
recognize and appropriate funding of that $4 million sockeye 
disaster to restore the stocks of the Fraser River sockeye. And 
although the Lummi people did not cause the mass decline of a 
once-great wild run, we continue to make efforts to restore the 
abundance by operating and maintaining two outdated hatcheries 
built in the '70s, the Skookum and Lummi Bay Hatcheries.
    These hatcheries provide commercial, angler, subsistence 
and ceremonial opportunities to all residents of the Salish Sea 
and 15 different user groups outside of the Lummi Nation. Both 
hatcheries have struggled with adequate water sources since 
their construction. The proposed $13.5 million in the BIA Fish 
and Wildlife Parks project and Fish Hatchery program set-aside 
for 85 hatcheries is insufficient, and we request that the line 
item is increased an additional $5 million to support the fish 
hatcheries for all tribal communities.
    Furthermore, the Washington State Department of Ecology has 
authority under state law to manage the water of Washington 
State and presently, and has been for several years, managing 
the water rights and water that remains in streams in a way 
that harms the fish that are protected under the Treaty of 
Point Elliott. The BIA Water Resource Department has a key role 
in protecting the water resources that are necessary for the 
Lummi treaty right and our way of life.
    The bulk of Water Resource Department has proposed funding 
that is based on outstanding obligations that the BIA has with 
tribes under existing water right settlements and does not 
allow the BIA to carry out its trust responsibility to protect 
the water rights of all tribes. The Lummi Nation requests that 
the Department be funded with $5 million to be proactive in 
addressing water rights for not just the Lummis but all of the 
tribes of the United States.
    To keep in line with the Federal Government's trust 
responsibility and upholding its treaty obligations to the 
Lummi Nation, we request $230,000 for the newly constructed 
Early Learning Childhood Facility, which we run our Head Start 
program out of, to furnish and equip and staff two classrooms 
for BIE preschool funds. The Lummi currently invested in the 
building by fully funding the construction and bringing a new 
facility that would allow for twice the amount of students that 
we were previously teaching, and there is still an unmet need 
for our early learning.
    In closing, I would like to highlight that the Lummi Nation 
request is very similar to previous years, and we have concerns 
it will be the same in the future. We attribute this to the 
inability of the trustee to meet its treaty obligations, and if 
there is a potential breach of trust, people will continue to 
suffer. If Congress continues to defer this fiduciary 
obligation, the Lummi Nation requests that, at a minimum, give 
Indian Country its freedoms back. Give us that next generation 
of policies that will allow us to grow our economies, be fully 
independent and also strengthen our sovereignty and fully 
recognize our jurisdiction. One such said policy would be the 
allowance of tribal Nations to collect its own taxes so that we 
can provide more revenues for our tribes and tribal communities 
and would allow us to backfill this unmet need.
    [The statement of Tim Ballew II follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you very much for your testimony, sir.
    Mr. Ballew. I thank you for the time, and I appreciate your 
attention.
    Mr. Calvert. Thank you. Next, Mr. Mel Tonasket.
    Mr. Tonasket. Yeah, that is pretty close.
    Mr. Calvert. Okay. Confederated Tribes of the Colville 
Nation Reservation. You are recognized, sir, for 5 minutes.
                              ----------                              

                                            Tuesday, April 8, 2014.

            CONFEDERATED TRIBES OF THE COLVILLE RESERVATION


                                WITNESS

MEL TONASKET
    Mr. Tonasket. Thank you, sir, and I would like to thank the 
Chairman for the time today. I hail from the Colville Indian 
Reservation over in Washington State, just to lead into what I 
am going to be asking for.
    You know, I was born in 1937 in an old government hospital 
in the middle of the Colville Indian Reservation which is 
divided by three mountain ranges. I don't have some maps like 
you are going to see from some other presenters, but that old 
hospital was turned into an outpatient clinic in the '50s, and 
I eventually came back and ran that old facility as an 
outpatient clinic in the early '90s. Same size, same number of 
rooms, same--everything was the same. We could not change it 
because it was on the historical listing. I would like to say 
that when I was born there that we had about 3,200 tribal 
members. When I came back to run the facility, we had almost 
7,000 members with the same size facility and the same staffing 
pattern.
    In '07 we were up to almost 9,000 tribal members in the 
same clinic, same numbers of everything again. So the Tribal 
Council was talked into building another clinic by the Indian 
Health Service, but there was no staffing package with it. So 
the tribe built it, put in over $3 million, and then we lease 
it back to the Indian Health Service for $1 a year. But it is 
still the same staffing package. We have also built another 
clinic over on the east side of the reservation that is all 
tribal.
    The reason that I come here today is to remind you that 
when Congress authorized the Indian Healthcare Improvement Act 
in 2010, it included Section 301(f) which requires IHS to 
consult with Indian tribes and tribal organizations in 
developing innovative approaches to address all or a part of 
the total unmet need of construction of health facilities. That 
brought about an Area Distribution Fund, ADF, which is supposed 
to help us. This Section 301(f) was supported by more than 500 
tribes throughout the United States, but yet, despite the 
tribe's support, IHS has not taken steps to implement Section 
301(f).
    The Colville Confederated Tribes strongly supports the 
implementation of funding Section 301(f) as a path forward for 
facility construction needs, and we are looking at requesting 
about $15 million to fund that section. I would also like to 
add that the Colville Tribes would like to support at least a 
$10 million increase for police officers' salaries. On the 
Colville Indian Reservation, we are about 1.4 million acres of 
land as I said, divided by three mountain ranges. And there are 
times when we only have one police officer to cover half of 
that reservation, and in the wintertime that is really almost 
impossible. So we are in critical need. We have trained, we 
have sent our officers to academies. We get them trained, and 
then because of the salary ranges, we get outbid and they go to 
some county or somewhere else so we lose them. So it is really 
important for us that we can handle at least $1.67 million to 
increase our officers' salaries.
    And with that, I would just like to thank you for your 
time, and I hope that was short enough.
    [The statement of Mel Tonasket follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Yes, sir. You did very good. Thank you very 
much. I appreciate that. Next, Ms. Gina James, Vice President 
of the Quinault Indian Nation.
                              ----------                              

                                            Tuesday, April 8, 2014.

                         QUINAULT INDIAN NATION


                                WITNESS

GINA JAMES
    Ms. James. Good afternoon, Chairman Calvert, and your 
staff. Thank you for this opportunity to testify. Joining me 
today is my First Councilman, Tyson Johnson, from the Quinault 
Nation.
    We have a map over here which shows our reservation.
    [Chart]
    Ms. James. Quinault entered into the Treaty of Olympia with 
the United States in 1855 and 1856. Our reservation consists of 
more than 200,000 acres and 26 miles of Pacific Coastline. 
Quinault's government offices are in Taholah, Washington, which 
consists of two neighborhoods known as the Upper Village and 
Lower Village. More than 70 percent of our members live in the 
Lower Village which is the ancestral homeland of our people. 
This area is a tsunami hazard zone.
    We also have a picture of a temporary sea wall of riprap 
rock. It is supposed to protect the Lower Village. As you can 
see, the seawall borders the village. Our public services are 
located in this area.
    Two weeks ago, high winds and intense storms caused a 
breach in the sea wall, the last picture on the right. The 
riprap rock that was meant to arm the sea wall disappeared. 
When the sea wall was no longer capable of stopping the ocean 
from advancing into the village, Quinault declared a state of 
emergency and issued a voluntary evacuation order because our 
people and properties in the village were in imminent danger. 
There is also a picture there of flooding in our village.
    The Army Corps of Engineers approved our request for 
emergency assistance and responded with reinforcing the sea 
wall with riprap rock. While we appreciate the Corps' 
assistance, temporary fixes do not work. Only a permanent 
solution will address the ongoing natural disasters that 
increasingly damage homes, facilities, utility structures and 
erode the natural resources in the area.
    Funding from federal and state agencies is too often 
emergency based and do not adequately cover preventative 
measures to address our increasing hardship, property loss and 
infrastructure damage to our village. Because the Lower Village 
is no longer safe for our people, we are taking steps to 
relocate above the tsunami zone to the Upper Village.
    Our relocation project includes working with the BIA to buy 
individual allotments in the Upper Village. Our goal is to 
develop a safe neighborhood that provides housing and 
government services to our members. We hope to secure funding 
through a combination of public and private sources. Coastal 
tribes suffer the most devastating impacts of natural 
disasters. The BIA provides modest funding for activities 
related to ocean and coastal planning. However, coastal tribes 
need more support.
    We urge the Subcommittee to direct the BIA to work with 
federal partners that provide specialty assistance to develop a 
long-term plan. For coastal tribes, that includes mitigation 
support and assistance with relocation plans.
    While we take steps to relocate, we are committed to 
protecting our homelands in the lower village. As explained 
earlier, temporary efforts to reinforce our sea wall are 
failing. We need a new concrete sea wall. We request the 
Subcommittee to urge the BIA to work with the Corps and other 
federal partners to develop the plan to fund the construction 
of a new sea wall to permanently protect our homelands.
    In addition, our village is limited to a single highway. In 
2007, there is the picture of a major storm which downed trees 
on the highway and left our village inaccessible to emergency 
vehicles for days and contributed to the death of an elder. We 
propose linking an unimproved BIA road to a nearby highway so 
that our villages have two access points. We urge the 
Subcommittee to increase funding for the BIA roads maintenance 
program, to address the safety concerns of tribes that have 
limited access to their communities.
    Another priority for us is restoration of the Upper 
Quinault River and productivity of blueback salmon, sockeye. 
Quinault has invested $5 in our restoration plan that has the 
support of several federal, state and non-government entities. 
The BIA invests in similar restoration projects throughout 
Indian Country. We urge the Subcommittee to provide $5.79 
million over a period of 5 years to support our restoration 
project.
    Finally, because our reservation is densely forested, we 
are vulnerable to the criminal activities of drug cartels. We 
invest $500,000 annually to pay for drug enforcement and 
interdiction. However, this is not enough. Access to federal 
drug interdiction grant programs is difficult. We urge the 
Subcommittee to direct the BIA to work with federal partners to 
fund drug interdiction efforts, especially for coastal tribes.
    In closing, I want to thank the Subcommittee for this 
opportunity and for your commitment to address the needs of 
Indian Country.
    [The statement of Gina James follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you for your testimony. Mr. Tonasket, 
does the BIA have the authority as you understand it and the 
flexibility to make police officers' salaries more competitive 
or does Congress need to provide that authority or are salaries 
instead limited by funding?
    Mr. Tonasket. I think it is limited by funding.
    Mr. Calvert. You have the flexibility to raise those 
salaries if you choose to but it is just a matter of money?
    Mr. Tonasket. Yes, sir. We have contracted that function 
from the Bureau of Indian Affairs, and they don't have any 
Bureau of Indian Affairs' officers on our reservation. It is 
all put into the tribes' officers.
    Mr. Calvert. All right. Thank you.
    Mr. Tonasket. Yes, sir.
    Mr. Calvert. Ms. James, that road, I was wondering, what is 
the estimate on the sea wall? Does the Corp give you an 
estimate on a concrete sea wall yet or what it costs?
    Ms. James. Preliminary investment is over $3 million.
    Mr. Calvert. Three million dollars? Thank you. On the road, 
have you been discussing this with the BIA about linking those 
roads and is it just a matter of funding or there are other 
issues involved?
    Ms. James. Yes, we have been discussing with BIA. We were 
hoping that we would get some of the funding from the Cobell, 
the land consolidation money, but we haven't been rewarded any 
funds yet. That would have helped us to purchase interest along 
the roadway because there are several parcels, and as you know, 
they are highly fractional so there are a couple hundred 
landowners or more that we would have to purchase their 
allotments or interests from.
    Mr. Calvert. Okay. Mr. Ballew, one quick question, or a 
comment, really. We like fish hatcheries, so I think you will 
have some support there from our perspective. I think the 
tribes have been doing quite frankly a better job of 
restoration of fish stocks than the U.S. Government. So we 
congratulate you on the good work that you are doing, and 
hopefully we can support you in the future on that.
    Mr. Ballew. We appreciate that.
    Mr. Calvert. Thank you. And thank you. This panel is 
excused, and we will be going to our next panel, Mr. Joseph 
Pavel, Vice Chairman of Skokomish Tribal Nation. I probably 
mispronounced that. Mr. David Bean, Councilman, the Puyallup 
Tribe of Washington. Mr. Taylor Aalvik, Council Member, the 
Cowlitz Indian Tribe and Ms. Twa-le Abrahamson-Swan, Air 
Quality Program Manager, Spokane Tribal Natural Resources. I 
have got to get some help on pronunciation here. Thank you. Are 
we missing somebody?
    Ms. McCollum. There she is.
    Mr. Calvert. Okay. Great. Thank you. Okay. Thank you for 
your attendance today. You probably heard we are under a very 
tight time schedule today because of votes that are going on 
and off, and we are trying to give everybody the opportunity to 
testify and ask a couple of questions along the way. I will be 
strictly monitoring the 5-minute rule today. I just wanted to 
give you notice of that. But we will stay in touch. If you have 
any other comments, talk to our staff directly or me, either 
way. Mr. Pavel, you are recognized for 5 minutes.
                              ----------                              

                                            Tuesday, April 8, 2014.

                        SKOKOMISH TRIBAL NATION


                                WITNESS

JOSEPH PAVEL
    Mr. Pavel. Hello. I am Joseph Pavel. I am the Vice Chairman 
of the Skokomish Indian Tribe. I thank the Committee for 
hearing us today.
    I would just like to note that I am here on behalf of the 
Skokomish Tribe to talk about the needs of our community with 
respect to the health, education and welfare of our community 
and our tribal members. You might know from--you know, we 
submitted some written testimony. It is heavy on the law 
enforcement, et cetera. You know, health of course is a big 
issue and our health needs there. And I think one unique 
perspective to our testimony this year would be the natural 
resources. We usually rely on Northwest Indian Fisheries 
Commission to represent that so that we can make a more 
productive use of our time here before the Committee.
    But we have a unique need with respect to our shellfish 
programs. With recent court orders and some of the settlement 
arrangements and stuff, we have evolved a rigorous and complex 
system that is highly demanding upon our resources, our staff 
resources, and our law-enforcement resources, and I think we 
need a little help there, you know. With that decision and the 
efforts to implement the conditions that were set out there by 
the courts and by joint agreements, we didn't receive any 
supplemental funding to--that, you know. With the salmon 
decision, with the original Boldt decision, there were 
implementation funds provided to meet the responsibilities of 
the provisions that were established based upon court order. So 
we need a lot of help there.
    We have a unique situation with respect to some very 
aggressive growers, the grower community. Part of the 
settlement was some provisions to protect their interests and 
to be able to enhance their interests, and those are in 
conflict or competition with tribal interests. So we have 
developed protocols and standards to be able to resolve and 
address those, but they are very labor intensive and we need 
resources to meet those. So enough about that.
    You know, this is about the wellness of our communities, 
the ailing of our communities and being able to take care of 
our people, you know. As councilmen, we accept that 
responsibility and you know, we take it to heart, and we are 
very sincere about that. That is what brings us here.
    Like I said, unfortunately, we lead off with the justice 
component but you know, we are talking about the health and 
wellness of our community, and when we address it through the 
justice system, you know, we are talking about the back end, 
you know? We need to be talking about prevention, health, 
education, recreational opportunity. That is another issue that 
we strive to deal with is try to provide those opportunities 
and assets for our community, and we will be visiting our 
delegation in the various agencies. We are looking at trying to 
serve and address the priorities of our community, and the 
community center has been a longstanding issue that our 
community has been wanting and addressing, wanting the Council 
to address the tribe to address. You know, we have been pulled 
in any number of directions, trying to serve some of the 
priorities of our people and some of the needs, and we are 
slowly taking them off and this one has always been near the 
top, and I think it has risen to the top to where we need to 
get serious about developing some community facilities and some 
community infrastructure.
    Right now we kind of missed the boat. Like I said, we were 
pulled in different directions with serving the needs of our 
people. I think when resources were available, a lot of tribes 
took advantage of those opportunities, and we are here now. 
Like I said, we will be exploring those opportunities. I would 
like to look for the Committee's favor on trying to develop and 
enhance those sorts of opportunities. There haven't been 
programs in the past. They may still be statutory on the books, 
but they are not--you know, funds aren't being appropriated, 
and we have gone the way of loans and putting money into 
justice systems. You know, the justice dollars have been, you 
know, popular of recent. And like I said, that is approaching 
the problem from the back end.
    As a small tribe and not having our own school, but we do 
have education programs. I would like to speak to that to be 
able to have, you know, education resources available to non-
BIA schools or non-tribal schools but just as a program where 
we support our community through GEDs. We supplement the public 
school system through providing some tutoring and so forth, 
after-school programs and you know, computer labs at a small 
facility and some tutors and a program manager, and we ought to 
be able to--you know, those are things we have made as a 
priority with, you know, our limited resources.
    [The statement of Joseph Pavel follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. All right. Well thank you. Thank you very 
much. Next, Mr. David Bean, Councilman. How do you pronounce 
that again?
    Mr. Bean. Puyallup.
    Mr. Calvert. Puyallup. Okay.
    Mr. Bean. Good job.
    Mr. Calvert. Thank you.
    Mr. Bean. You did almost as good as the President did.
    Mr. Calvert. There you go. You are recognized for 5 
minutes. Thank you.
                              ----------                              

                                            Tuesday, April 8, 2014.

                      PUYALLUP TRIBE OF WASHINGTON


                                WITNESS

DAVID BEAN
    Mr. Bean. Thank you, Mr. Chairman, Members of the 
Committee. I want to thank you for this important opportunity 
to talk about fiscal year 2015 appropriations, which is an 
important step towards honoring your trust responsibility to 
the tribes across the United States. I want to talk to you 
today about several topics, all of which are related.
    First, I would like to talk about public safety and justice 
which is the number one priority as providing for the safety 
and welfare of our people. The Puyallup Tribe is located in a 
highly urbanized area. We are 30 miles south of Seattle in the 
State of Washington, right along Interstate 5. It comes right 
through the heart of our reservation. And so with limited 
resources, you know, we find that working with the neighboring 
jurisdictions, the City of Tacoma, Pierce County, and engaging 
in cross-deputization type agreements, we are able to stretch 
resources. We recognize that. Not just the Puyallup Tribe has 
limited resources but the city and the county law enforcement 
agencies have limited resources. So we find that by working 
together we are able to address, you know, the problems that 
plague our communities, and then the most common one is drug 
activity.
    Being on Interstate 5, it is considered a major drug 
corridor. And so to protect our members, to protect our 
community members and neighboring communities, we found that by 
working together we are able to address those problems.
    We would also like to talk about natural resources 
management. We are fishing people, you know. We grew up, we 
were right on the water. The Puyallup River, again, goes 
through the heart of our reservation. Puget Sound is right 
there at our doorstep, and we rely on the health of the Puget 
Sound to continue to produce fish stock for our citizens, for 
our community members. Non-Natives and Natives alike rely on 
the fishing stock, the salmon, that runs in the river and runs 
in the Puget Sound. So, you know, we are looking for increased 
funding. We appreciate the funding that has put in place. We 
stand with the Northwest Indian Fish Commission and their 
request for increased funding for Western Washington fisheries 
management; fish hatchery operations and maintenance; timber, 
fish and wildlife supplemental; and lastly, unresolved hunting 
and fishing rights.
    In the area of education, the Puyallup Tribe, we consist of 
4,400 members. So we are a small tribe. Our land holding is 
right around 18,000 acres, yet we serve a Native population of 
25,000 Natives from over 200 federally recognized tribes. And 
through our school, we have--our Chief Leschi Schools are able 
to accommodate up to just over 900 students pre-K through 12 
annually. And you know, we are experiencing a large rise in 
pre-K enrollment, and if you forecast forward, you know, the 
school is going to be beyond its design capacity very shortly. 
So we are looking for expanded funding in education, you know, 
in the area of tribal grants, school costs for tribally 
operated schools, student transportation, school facility 
accounts, facility operations and maintenance and Indian school 
equalization formula. In addition, the operation of Indian 
programs, in child priority allocations, we are looking for 
increased funding for these line items generally but 
specifically, the Indian Child Welfare, Urban Indian Child 
Welfare and Child Welfare Assistance.
    And my last two items, the Bureau of Indian Health Services 
has historically been underfunded and our ability to offer 
quality healthcare to not just our members but the, you know, 
20,000-some other federally recognized Indians that live in our 
area. We are able to, you know, provide medical assistance, but 
the funding simply isn't enough and we need your help in 
expanding that funding.
    Affordable housing is another component. Now, if you take a 
step back, and we recognize that you have to carefully balance 
priorities in your consideration of appropriations, and 
likewise we at the Puyallup Tribe have to do the same, as well 
as in any country, you know? These are ours. They are all 
related. You know, if you are able to provide good quality 
education, you can reduce the amount of crime on the 
reservation and good quality healthcare and affordable housing. 
So we are looking for a comprehensive approach. We are looking 
for your help, and we certainly appreciate this opportunity to 
share our concerns, our priorities with you. And on behalf of 
my Chairman, Herman Dillon Sr., who wasn't able to be here 
today, you know, back home we raise our hands to say thank you, 
and so I am raising my hands to each and every one of you for 
the opportunity to be here today, to share our priorities and 
to engage in open dialogue with you.
    [The statement of David Bean follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Great. Thank you very much for your testimony. 
Next, Mr. Taylor Aalvik, Council Member. Did I pronounce that 
right?
    Mr. Aalvik. That's Taylor Aalvik.
    Mr. Calvert. Taylor Aalvik. Okay. Thank you. With the 
Cowlitz Indian Tribe?
    Mr. Aalvik. Cowlitz, yeah.
    Mr. Calvert. Okay. You are recognized for 5 minutes.
                              ----------                              

                                            Tuesday, April 8, 2014.

                          COWLITZ INDIAN TRIBE


                                WITNESS

TAYLOR AALVIK
    Mr. Aalvik. Chairman Calvert, distinguished Members of the 
Subcommittee, including our own, Congresswoman Jaime Herrera 
Beutler, I am honored to testify today in support of important 
funding for tribal Nations. I am also honored and humbled to be 
in the company of great tribal leaders that are here today.
    My name is Taylor Aalvik. I have served on the Cowlitz 
Indian Tribal Council since 2005. The Cowlitz is located in 
Southwest Washington State. I carry on more than 150 years of 
struggle, perseverance and dedication of my ancestors in the 
pursuit of fair and just treatment of our people by the Federal 
Government. The Cowlitz Tribe was restored to federal 
recognition in 2002, thought we still do not have a reservation 
on which to establish much-needed economic basis. Our landless 
status makes us even more dependent on adequate funding of the 
federal programs under your jurisdiction.
    There are seven programs that are critical to our ability 
to provide services to our people. My written testimony 
provides additional insights. First, we ask that Congress 
increase funding for the BIA's Aid to Tribal Government Funding 
program from the $24.6 million proposed in the President's 
budget to $30 million. This program provides the primary 
backbone of support for our tribe's general operations.
    Second, we ask Congress to ensure that the IHS 
appropriations is adequate and includes a provision to revise 
the health facilities construction priorities system as was 
directed in the fiscal year 2000 approved Interior 
appropriations. We still believe the current system is 
antiquated and needs updating.
    Third, we ask Congress to support the President's request 
of $96.4 million for the EPA's Indian General Assistance 
program. This program has allowed us to build capacity for many 
natural resource programs and helps us address the health and 
well-being of our people.
    Fourth, we ask Congress to increase the President's 
proposed budget for the fish and wildlife agencies' Tribal 
Wildlife Grant program from $4 million to $10 million. This 
program has helped to develop positive partnerships with state 
and federal managers for recovery of important first foods to 
our tribe.
    Fifth, we ask Congress to support $1.2 million for the 
Secretary of the Interior's leadership and administration 
activity for federal tribal collaborative work during domestic 
reconsideration for the Columbia River Treaty. This is 
important to many tribes who are currently working with the 
Federal Government on the future disposition of Columbia Basin 
water management.
    Sixth, we ask Congress to support the tribal 
transportation--proposed increased for BIA administered tribal 
transportation programs.
    And finally, seventh, we ask Congress to increase funding 
for the National Parks Service's NAGPRA Grant program from the 
President's $1.6 million request to $2 million. This is an 
important program associated with dealing with sensitive 
cultural concerns.
    The sanctity of the relationship between the United States, 
American Indians and Alaskan Natives is embodied in the United 
States Constitution, and it is the Constitution which lays out 
Congress' special relationship to tribes and we gather strength 
from the long continuance of that protection. It is in the 
spirit and knowledge that we come as a tribe and as tribal 
representatives to lay before you efforts to secure assistance 
for our tribal Nations, to grow alongside with the United 
States. Since time immemorial, we continue to carry on our duty 
as the trustees of this land we revere as Mother Earth. We 
believe that it is important not only to provide for our 
people's well-being but also work with our neighbors to be a 
positive and contributing influence.
    Thank you for the work on behalf of Indian Country and for 
the opportunity to testify here today. I would be happy to 
answer any questions you have.
    [The statement of Taylor Aalvik follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. I thank the gentleman for his testimony. And 
lastly, Ms. Twa-le Abrahamson-Swan. Hopefully I didn't screw 
that up too much, Air Quality Program Manager of Spokane Tribal 
Natural Resources.
                              ----------                              

                                            Tuesday, April 8, 2014.

                    SPOKANE TRIBAL NATURAL RESOURCES


                                WITNESS

TWA-LE ABRAHAMSON-SWAN
    Ms. Abrahamson-Swan. Thank you, Mr. Chairman, and members 
of the committee. My name is Twa-le Abrahamson-Swan, an 
enrolled member of the Spokane Tribe of Indians located in 
Northeast Washington. Thank you for the opportunity to share my 
personal experiences related to radon and the impacts that 
proposed cuts will have across Indian Country.
    My testimony concerns EPA funding for the radon categorical 
grants known as SIRG, the radon program's environmental program 
management and science and technology budget. Radon is the 
leading cause of cancer mortality. Radon is a known Class A 
carcinogen, and the deaths caused by radon each year are 
preventable. Radon is a naturally occurring radioactive gas 
released in rock, soil and water from the natural decay of 
uranium. Concentrations depend on natural geology and how each 
individual home breathes. Testing is the only way to know how 
much radon is in each home, office or school.
    The U.S. Surgeon General and EPA estimate that radon causes 
more than 21,000 lung cancer deaths each year, second to 
smoking. According to the Centers for Disease Control, American 
Indian and Alaska Natives have a higher prevalence of current 
smoking than most other racial and ethnic groups in the United 
States, making cigarette smoking plus exposure to radon gas a 
serious problem in the health of tribal populations.
    Radon has been found in elevated levels in every state. No 
area of our country is risk free. Almost one in three homes on 
the Spokane Indian Reservation have elevated radon levels 
compared to 1 in 15 homes nationwide.
    To date, my house has the highest levels identified by our 
program with peaks at 53 picocuries per liter and an average of 
33 picocuries per liter. EPA's action limit is four. I don't 
smoke, neither do my kids, but our risk for lung cancer is the 
same as each of us smoking 106 cigarettes per day or 5 packs. 
That is at home. In my office, it is a pack-and-a-half a day or 
16 cigarettes. In our schools, kids are being exposed to this 
odorless, colorless, tasteless radioactive gas. There are 
communities like ours across Indian Country and rural America 
that don't have any information about radon, let alone a close 
place to buy a radon test kit.
    Funding to address indoor air quality in Indian Country is 
vital. It needs to be increased, not cut.
    Since 2004, $3.1 million has been awarded to over 30 tribes 
that have participated in the SIRG program. In fiscal year 
2013, EPA awarded a total of $7.32 million. Ten tribes received 
grants equaling only about 4 percent of the total SIRG budget. 
Competing with states and the 40 percent match requirement are 
major barriers for many tribes wanting to implement radon 
programs. Some tribes are just learning now about their risks 
from radon. In February and March of 2014, 24 tribes submitted 
radon canisters to the EPA Radon Lab for analysis. There is not 
only an interest but a need in Indian Country to address radon 
and protect the people.
    Our tribe was unable to provide the 40 percent match, so 
like other tribes, we sought alternatives. Ninety-nine tribes 
have utilized the EPA Radon Lab which is in the process of 
closing its doors. The EPA Radon Lab mails canisters at no cost 
to newly developing programs, and they have to be mailed back 
within one day, which is difficult for a lot of rural 
communities. We purchased testing equipment that allows us to 
be the lab and measure and calculate our own results. This has 
allowed this to become a more efficient and sustainable 
program. A radon-resistant new construction building 
requirement for all new homes and buildings has been 
implemented. Our goal is to keep our people safe by building 
right. Directing funds for training programs for tribes in 
radon mitigation would help build their internal capacity to 
address indoor radon and save lives.
    Last year, Congress approved reinstatement of not only this 
state funding but reinstated the FTEs in the regional offices 
of the EPA so that funding could be properly funded and 
administered.
    On behalf of the Spokane Tribe, I would like to thank 
Congress for both reinstatements and specifically ask for the 
following. More details are in the written testimony, but we 
are opposing the cuts to the radon categorical grants and 
recommending that $14.5 million be allocated to adjust for 
inflation, increased ability of SIRG grantees and to fund the 
tribes' territories and states. I also support the 
Environmental Program Management budget for 2015.
    And again, I just want to thank you for this opportunity. 
Our Nation needs this program to keep our citizens informed. 
Please reinstate the cuts to the SIRG program and the regional 
support staff so that we can continue doing this important 
work. Thank you for the opportunity to provide this testimony, 
and thank you for your attention in this matter.
    [The statement of Twa-le Abrahamson-Swan follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you. Thank you for your testimony. Just 
as a point, in fiscal year 2014, the Administration proposed 
eliminating radon grant funding. We restored the radon grant 
funding on a bipartisan basis at $8 million in fiscal year 
2014. So I am sure we will be considering that as we go through 
the budget process.
    Ms. McCollum, you are recognized.
    Ms. McCollum. Thank you, Mr. Chair. Is your home vented 
then and who paid for the venting?
    Ms. Abrahamson-Swan. No, it is not yet.
    Ms. McCollum. Do you know how much it is going to cost to 
have your home vented?
    Ms. Abrahamson-Swan. Each home we are finding is about 
$1,200 to $2,000. So it is not a big cost, and it is even 
drastically less in new home construction. So it may only add 
$200 to $300 in new construction. So for existing homes, we are 
finding a lot of roadblocks in finding funding to fix existing 
homes.
    Ms. McCollum. So, on the reservation would you be applying 
to the Bureau for help with housing for venting for radon?
    Ms. Abrahamson-Swan. Yes. We are looking at as many 
different sources as we can and trying to find those that don't 
exclude radon from their funding opportunities.
    Ms. McCollum. Well, thank you. That is something that we 
should take a look at and that perhaps should be a requirement 
for new construction. I know it is in Minnesota, but I don't 
know if that is a requirement for tribal housing. Do you know 
if it is a requirement that the Federal Government is putting 
on tribal construction or not?
    Ms. Abrahamson-Swan. No. There is no requirement right now. 
And a lot of states are unregulated, and it is only an item 
that is tested during a real estate transaction. So for 
communities of color or disadvantaged communities across the 
United States that aren't buying and selling property, we don't 
have that advantage of the requirements for testing.
    Ms. McCollum. Thank you for your testimony, and thank you 
for bringing this up because I hadn't thought about the impacts 
on tribal communities of radon. I know that we have a program 
in Minnesota, and especially for those of us who are in 
northern climates where we are enclosed more at times during 
the year. I am sure in some of the southern climates where 
there is air-conditioning, there are challenges there, too. So 
thank you for your testimony.
    Ms. Abrahamson-Swan. Thank you.
    Mr. Calvert. Thank you. Ms. Herrera Beutler? This is from 
your neck of the woods.
    Ms. Herrera-Beutler. Thank you, Mr. Chairman, and thank you 
all for being here. I am learning new things. Last year I 
learned a lot, actually. I wanted to mention, too, on the--you 
mentioned resources, Pacific salmon and salmon runs and the 
importance not just to Indian Country but to the communities as 
a whole. I mean, it is incredibly important in our neck of the 
woods to make sure that we are protecting those runs.
    Mr. Bean. Yes, ma'am.
    Ms. Herrera-Beutler. And seeing them increase and do what 
we can. And I have been asking about our budget, and you 
mentioned hatchery and other funding programs. And I am trying 
to understand a little bit about what our budget does. I do 
know last year we were successful in getting in the CGIS budget 
I believe about $60 million for Pacific salmon recovery funds 
which was a step forward considering I think it was completely 
zeroed out.
    Mr. Bean. Right.
    Ms. Herrera-Beutler. But I would like to identify with you, 
with any of the members who are here, other areas where we can 
carve out some protection. I am not totally sure how, within 
BIA, how they make those determinations, but if we can help 
influence that, it is very important to our entire community.
    Mr. Bean. If it is possible, we would love to have a 
follow-up meeting with you as well as I believe the Northwest 
Indian Fish Commission will be following me, and we fully 
support all of their comments.
    Ms. Herrera-Beutler. Okay. Absolutely. Any thoughts or 
comments on--it seems like there are some different issues 
represented at the table today. So I am learning a lot about 
radon as well.
    Mr. Pavel. With respect to your prior question, I think, 
you know, those salmon recovery funds are certainly very, very 
vital. We do a lot of good work with our habitat restoration 
projects and some of our research with interest of trying to 
maintain and provide harvest in ongoing fisheries. I think the 
hatcheries maintenance fund is a key component of being able to 
have that.
    Ms. Herrera-Beutler. Thank you very much.
    Mr. Aalvik. In regards to the salmon funding, which is 
highly important, there are other agencies that deal with that 
that I think fall out of this Subcommittee's jurisdiction. But 
I was hoping to address that, but I had to pull that out 
because----
    Ms. Herrera-Beutler. And I apologize.
    Mr. Aalvik [continuing]. I have to take that to another 
door.
    Ms. Herrera-Beutler. Thank you.
    Mr. Calvert. As appropriators, everything is under our 
jurisdiction.
    Ms. Herrera-Beutler. Exactly.
    Mr. Aalvik. Hey, let's go.
    Ms. Herrera-Beutler. With that, thank you, Mr. Chairman.
    Mr. Calvert. Thank you. Mr. Simpson?
    Mr. Simpson. Just quickly. I don't remember a lot of 
people, and I don't know if anybody else has brought up the 
issue of radon. Has anybody else?
    Mr. Calvert. Yes, there was some brief conversation.
    Mr. Simpson. Was there? I must have missed that part of it. 
So truly, the first time I have heard about it. I know it is an 
issue, but apparently it is a big issue on your reservation.
    Do you know of any provision in the EPA that allows them to 
require a lesser-than-40-percent match?
    Ms. Abrahamson-Swan. They were historically 25 percent, and 
I don't know when that was changed.
    Mr. Simpson. So they have to do 40 percent match? They 
can't do a lower one?
    Ms. Abrahamson-Swan. Yes.
    Mr. Simpson. We will take a look into that because in STAG 
grants we allow under certain conditions a lower match rate 
that might be beneficial. Are you, Taylor, as a landless, non-
reservation tribe, trying to acquire land for reservation?
    Mr. Aalvik. Yeah, we certainly are. Currently it is under 
litigation to other folks that think that we shouldn't have a 
reservation where it is at.
    Mr. Simpson. Thank you. Thank you all for being here and 
traveling such a long distance. It took Lewis and Clark a heck 
of a lot longer to get here than it took you. I think about 
that as I fly across this country a lot. Anyway, thank you all 
for being here.
    Mr. Calvert. Thank you for being here. This panel is 
excused. We are going to call up our next panel, Mr. Aaron A. 
Payment, Vice President, the National Congress of American 
Indians. Mr. Tex Hall makes his return with the Great Plains 
Region Tribal representative, Tribal Interior Budget Committee. 
Mr. Billy Frank, Chairman of the Northwest Indian Fisheries 
Commission, and Mr. Phil Rigdon, President of the Intertribal 
Timber Council. Mr. Simpson is going to help me right now. We 
are kind of going back and forth. We have a Defense 
Appropriation meeting going on at the same time. Mr. Valadao 
was here to do that, but since Mike was right here, he is going 
to help me out. So with that, I am going to turn over the gavel 
to Mike, and I will be back in a little bit. Thank you.
    Mr. Simpson [presiding]. Mr. Payment.
                              ----------                              

                                            Tuesday, April 8, 2014.

                 NATIONAL CONGRESS OF AMERICAN INDIANS


                                WITNESS

AARON A. PAYMENT
    Mr. Payment. My name is Aaron Payment. I serve as the 
Midwest Vice President for the National Congress of American 
Indians, and I am also the elected Chairperson of the Sault 
Ste. Marie Tribe of Chippewa Indians. It is on. Am I not close 
enough?
    Okay. And I am also the Chairperson of the Sault Ste. Marie 
Tribe of Chippewa Indians, the largest tribe east of the 
Mississippi. On behalf of NCAI and Brian Cladoosby, our 
President, we thank you for holding this important hearing on 
fiscal year 2015 budget for Native American programs.
    As Congress considers this budget and beyond, tribal 
leaders call on Congress to ensure that the promises made to 
Indian Country are honored in the federal budget. Just as we do 
not have the discretion over the millions of acres of land we 
ceded to create peace and make this great Nation, we ask that 
you no longer treat our funding as discretion.
    Sequestration-level funding, arbitrarily cap and contract 
support and similar practices are perceived by Indian Country 
as an abrogation of this trust obligation guaranteed in the 
treaties. We ask that you enact an honorable budget, one in 
which the Federal Government can be proud and one which puts 
the trust in trustee.
    Let me begin by saying that NCAI supports the testimony of 
the National Indian Health Board, National Indian Child Welfare 
Association, National Indian Education Association and the 
American Indian Higher Education Consortium. The fiscal year 
2015 budget request for the operation of Indian programs is a 
$2.4 billion amount, an increase of $33.8 million or 1.4 
percent above the fiscal year 2014 enacted levels. The budget 
request for the construction account is $109.9 million which is 
a decrease of $216,000. The budget also proposes $922.6 million 
in tribal priority allocations, that is, TPA, an increase of 
$19.3 million over the fiscal year 2014 level or a 2 percent 
increase. The request for contract support is $251 million, an 
increase of $4 million above the fiscal year 2014 enacted 
level. The requested amount will fully fund estimated fiscal 
year 2015 contract support costs. NCAI commends the 
administration and of course, with the impetus of the Congress 
and this body, for requesting full funding for contract support 
costs in fiscal year 2015. We recommend that the tribal grant 
support costs for tribally controlled schools and residential 
facilities also be fully funded. In school year 2012/2013, 
tribally controlled grant schools experienced a 36 percent 
shortfall of the grant support funding needed as defined by the 
administration cost grants formula.
    The proposed budget would provide a new $11.6 million for 
the Tawhay initiative, $10 million to build on social services 
and Indian child welfare, $550,000 to expand job placement 
training programs, the BIA law enforcement to create a pilot 
project to implement a strategy for alternatives to 
incarceration and increased treatment, a $1 million amount to 
develop and establish a program for evaluating social service 
and community development.
    Tribal leaders through the Tribal Interior Budget Council, 
or TIBC, have repeatedly called for increases for social 
services and Indian child welfare, and with the Supreme Court 
ruling last year, this is more important now than ever.
    Education increases include half-a-million for JOM to redo 
their count for 2015 and the expected increase in the number of 
students as a result; $1 million for the ongoing evaluation of 
the BIA school system. NCAI also recommends a $263 million 
increase for school construction and repair, $73 million for 
tribal grants support costs, $431 million for Indian school 
equalization program formula funds, $73 million for Indian 
student transportation, $42 million for JOM and as a doctoral 
candidate in Indian education, former school board president 
and then a high school dropout, I am asking for some support 
for a logistical regression study to get to the bottom of why 
the 92 percent who are not covered under the BIA, 92 percent, 
we have a 50 percent dropout rate for Native Americans. We have 
the worst dropout rate of any racial ethnic population. This 
warrants a national study, and the study is--and I happen to 
know because I am a doctoral student--logistical regression 
study and what are the factors that influence Natives to 
graduate or not.
    Public safe communities invite economic investment. The 
Indian Law and Order Commission found that tribal Nations would 
benefit greatly if law enforcement officers were staffed at 
levels equitably to their brothers and sisters in blue. In 
2010, the Department of the Interior's High Priority 
Performance Goal initiative resulted in a 35 percent decrease 
in violent crime. This is to be commended that you funded this, 
it worked and we need to expand that effort.
    In the BIA, in the proposed fiscal year 2015 budget, the 
Department of the Interior current appropriations would 
increase by 2.6 percent. For the BIA to approach parity with 
that increase, because we lag behind the DOI increase, would 
cost just $69.2 million to keep parity with that.
    For Indian Health Service, NCAI requests that fiscal year 
2015 Congress truly restore the sequestration cuts remaining 
from 2013 and adjust for inflation and population growth. While 
discretionary spending is not facing sequestration cuts for 
fiscal year 2015, NCAI urges you to support advanced 
appropriations and continue to advocate for permanent full 
exemption of sequestration and budgetary decisions. Again, the 
federal trust obligation should not be considered 
discretionary.
    Finally, I want to give a plug for a clean cursorary fix. I 
know that Representative Cole introduced H.R. 279. It is a 
bipartisan issue. It has been supported by this committee in 
the past. Tribes and associations have supported it. There are 
these phantom tribes that apparently don't support it, and I 
think that you should ask and expect them to come forward if 
they do have any concerns. Otherwise, as far as we understand 
in Indian Country, we support universally and united support a 
clean fix for cursorary. Thank you.
    [The statement of Aaron Payment follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. Tex, welcome back.
    Mr. Hall. Thank you, Mr. Chair. I am subbing in today for 
the co-chairs for TIBC on the BIA budget.
    Mr. Simpson. Okay.
    Mr. Hall. So glad to be a sub to come in.
                              ----------                              

                                            Tuesday, April 8, 2014.

                     TRIBAL INTERIOR BUDGET COUNCIL


                                WITNESS

TEX HALL
    Mr. Hall. The TIBC is the Tribal Interior Budget Council, 
and I was one of the founders of this organization back in 1999 
in Fredericksburg, Virginia. Previously, tribal leaders would 
come into the BIA budget, and the BIA would say, here is your 
budget and this is what you get. And so we said, you know, we 
are tired of coming to Washington and not having a voice. So 
this vehicle represents two regional representatives from the 
12 regions of the United States. So all of the tribes elect the 
regional members to this TIBC, this Tribal Interior Budget 
Council.
    You know, for the most part, it has worked very well. You 
know, we get to talk about priorities and things like that, but 
we are a little disappointed in the 2015 budget. So I will be 
real brief, and I will go with our talking points, and our 
testimony, Mr. Chairman, has been submitted.
    TIBC has repeatedly mentioned that the 2015 budget proposes 
an increase of 2.6 percent for all programs but not including 
BIA, and to place the BIA at the same 2.6 percent increase will 
require an additional $69.2 million over the fiscal year 2014 
enacted level which is more than the administration has 
proposed. So we really basically have a flat budget. Equally 
wrong is attempting to solve these under-funded problems at BIA 
by dipping into another federal agency's budget, or stove 
piping, and it simply does not work.
    For example, funding a sizable portion of Indian law 
enforcement through the Department of Justice grants, you know, 
affects the base funding at BIA. So we are taking BIA and 
giving it to DOJ. We are taking base funding and giving it to 
competitive grants. And you heard witness after witness explain 
why this was and continues to be a big mistake. It has been 
going on for about 12, 15 years now, you know, where the money 
has been transferred to the Department of Justice. But stove 
piping hurts tribes that are actually in need for law 
enforcement funding and it disjoints our program operations and 
it wastes dollars. These are taxpayers' dollars that are 
wasted.
    I wanted to mention that when we put funding in, there are 
members of Congress I really believe that don't understand that 
this is really, truly, an investment into a tribe's school, 
into a tribe's roads. These are public roads. These are for our 
students. And when we underfund, or if we are funded at about 
49 to 50 percent, it really jeopardizes the viability of a 
program, if there actually can really be truly an investment. 
So I really want to stress the need for this funding that the 
tribes have. They are treaty rights, and they are an investment 
into the tribe's programs.
    We also support the Tiwahe. The BIA had proposed that 
family initiative because it will provide an additional 11.6 
million to expand Indian Affairs capacity and address Indian 
child, family welfare, and job training issues, and implement 
processes to better sustain and keep Indian families together. 
So tribal leaders at TBIC have long called for increases in 
social services and Indian child welfare, and so case level 
standards in my region of the Great Plains alone fall far below 
recognized national standards. And while national standards 
call for a maximum of 12 active cases per month per social 
worker, our social workers in the Great Plains handle an 
average of 40 cases per social worker.
    Tribal courts were very concerned that if you increase 
funding for tribal law enforcement officers, and do not 
increase the courts, you know, we are going to have a backlog 
of cases. My tribe alone, our court had to dismiss 5,000 cases, 
and it is simply because we did not have the staffing to do it. 
So we are really, you know, and we are an example of many 
tribes, of the underfunding of tribal courts. And, as I 
mentioned earlier about law enforcement, approximately $80 
million is funded at DOJ. If that would return to BIA, it would 
put more officers into the streets, and it would be base 
funding, versus competitive grants.
    Road maintenance is a huge neglected, underfunded program, 
and the road maintenance budget is around 20 million, and it 
has been the same for the last 20 years. And recent studies 
from Federal highway confirmed that the actual unmet need is 
$150 million. So I have asked Kevin Washburn, Assistant 
Secretary, and Mike Black to prioritize and look at the 
formula, and try to get an increase in the road maintenance 
budget for the '16. But the '15 is the same thing, about 20 
million plus.
    And, finally, contract support, the TBIC has went on record 
to say that, you know, to fully fund, you know, appreciates 
Congress efforts to fully fund contract support, but when it 
takes it from programs, again, it takes it from programs that 
are already funded at 49 and 50 percent, really jeopardizes the 
actual viability of that program, so it really should be off 
budget, so to speak, for contract support. Thank you, Mr. 
Chairman.
    [The statement of Tex Hall follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thanks, Tex.
    Billy, it is always good to see you again.
                              ----------                              

                                            Tuesday, April 8, 2014.

                 NORTHWEST INDIAN FISHERIES COMMISSION


                                WITNESS

BILLY FRANK
    Mr. Frank. Thank you, Mr. Chairman.
    Mr. Simpson. You bet.
    Mr. Frank. Thank my representatives here. They are all 
looking good. Saw you all last year. My name is Billy Frank. I 
am Chairman of the Northwest Indian Fish Commission, as you 
know, and my life goes back to Senator Magnuson, and 
Congressman Norm Dix, when he was Chief of Staff for Senator 
Magnuson. And, you know, that is a long time ago. Now, I am 83 
years old now, and I am going to start going down here pretty 
soon. But I would like to have Ed Johnstone come up. He is 
sitting right here, and he is a member of the commission, one 
of the officers, and he can continue my testimony. Thank you.
    Mr. Simpson. Ed, please give your name for the record.
                              ----------                              

                                            Tuesday, April 8, 2014.

                 NORTHWEST INDIAN FISHERIES COMMISSION


                                WITNESS

ED JOHNSTONE
    Mr. Johnstone. Ed Johnstone. I am a member of the Quinault 
Tribe in the Northwest Coast of Washington State, and it is a 
privilege to be walking with my uncle, Billy Frank, and my 
mentor, and a voice that speaks for our people in the 
Northwest, and it speaks for the people of the tribes all over 
the United States, and we appreciate his leadership.
    We are also bringing our appreciation to you, as your 
committee has considered over the years the importance of our 
programs, both at the Bureau of Indian Affairs, and the EPA, 
under this committee. And we have worked very hard over the 
years to represent the needs of our 20 member tribes, treaty 
tribes, that were formed after the Boldt Decision in 1974, 
1975, and affirmed by the United States Supreme Court in '79.
    And some of the prior testimony, when David Bean from the 
Puyallup talks about support for the Northwest Indian Fish 
Commission, it is likewise that the Northwest Indian Fish 
Commission, and all its member tribes, support our tribes. And 
the subject that was breached just a little bit about 
hatcheries are very important for all of the United States, for 
all of the states of Oregon, California, Idaho, Washington. 
Through their different programs, not only are Bureau of Indian 
Affairs hatcheries, but the Michalak Hatcheries, and other 
hatcheries authorized under different acts, Bonneville Power 
Administration and so forth.
    Those hatchery fish are critical. They are critical for our 
salmon recovery plans, that in particular Puget Sound tribes 
have under coverage under NOAA, and the Endangered Species Act. 
They are critical for communities that thrive on the 
recreational opportunity, and they are critical for the tribes 
for our way of life, our food, our medicine, our ability to 
practice what we have always practiced in the harvest of our 
resources.
    So hatcheries account through the Bureau for 6.582 for 
hatchery maintenance, and the 3.35 million for hatchery 
operations are critical to us. And we have got in our written 
testimony a little bit of context that talks about our need. 
And the need is greater than that, but we appreciate the work 
from the committee, and the numbers that we got in '14. And we 
have a little bit to work on for '15, but the hatchery 
maintenance, and hatchery operations are critical to us.
    You know, in those budgets, the first time, there is the 
recognition of climate, for instance. There is a small amount 
of money in there that is small in the big picture world, but 
it is a big number for us. And we are working through the 
implementation of those dollars, but we are seeing the effects 
of climate on the ground in our villages. We are seeing them 
first on the coastal community, and we are seeing storm surges 
like we have never seen before, and coastal erosion, and 
activities such as that. So the ability for the tribes to be 
engaged in this question is very important to us.
    So that is just a little bit about what we hope is the 
beginning of a recognition that the tribes need to have the 
capacity to be in this discussion. And I mentioned earlier the 
Pacific Coastal Salmon Recovery funds are very key to those 
recovery plans that I mentioned earlier, that, once upon a 
time, had a high water mark of 110 million, but, through the 
good work of several folks, Congressional, and staff, and the 
tribes, and the states, because it is important to the states 
that money is still there, not at the high water mark, but we 
are still there, and we are still working to restore those 
stocks.
    So there are the other funds that I mentioned in our 
written testimony. I probably spent a little bit of time on the 
fish, but, you know, some of those EPA, you know, really feel 
for the young lady that is talking about radon, and what she 
faces with her children every day must be horrible, to think 
about that. So I appreciate Billy, the Northwest Indian Fish 
Commission, and our member tribes. We appreciate your help.
    [The statement of Billy Frank follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. We appreciate you coming and offering your 
testimony here today for the committee.
    Phil?
                              ----------                              

                                            Tuesday, April 8, 2014.

                       INTERTRIBAL TIMBER COUNCIL


                                WITNESS

PHIL RIGDON
    Mr. Rigdon. Thank you, Mr. Chairman, Members of the 
Subcommittee. I am Phil Rigdon. I am a member of the Yakama 
Nation, but also have the honor to represent the Yakama at the 
Intertribal Timber Council, and I am the President of the 
Intertribal Timber Council. I also oversee Department of 
Natural Resources for the Yakama Nation.
    Several of the Intertribal Timber Council's requests were 
based on the recently issued third Indian Forest Management 
Assessment Team report. We mailed copies to the subcommittee 
about a month ago, and we do have copies available, but they 
are not really for the record in the thing. IFMAT III is the 
third report of Indian Forest Management Assessment, an 
independent panel of forestry experts convened to produce a 
statutorily required assessment of the Indian forests and 
forestry every 10 years. IFMAT I and II were issued in 1993 and 
2003.
    In addition to eight topics mandated by the National Indian 
Forest Resource Management Act, IFMAT III examined climate 
change and ITC's Anchor Forests initiative, and implementation 
of the Tribal Forest Protection Act. IFMAT III finds that 
Federal funding of Indian trust forestry is chronically 
insufficient, only \1/3\ of the forest service for fire and 
forest management on a per acre basis. An $100 million increase 
is needed for funding equity. For FY 2015, the Intertribal 
Timber Council ask that a first step be taken with BIA forestry 
funding by increasing it by $25 million.
    IFMAT III also finds that forestry staffing shortages are a 
growing problem caused by inadequate funding, and a diminishing 
trained workforce. BIA needs an additional 800 forestry 
positions. On my reservation at the Yakama, 33 of the BIA's 55 
forestry positions are unfilled. The BIA is unable to meet its 
trust obligations, and are having an enormous impact on our 
ability to continue our businesses, contributing to 
unemployment and lack of economic opportunity. ITC asks for a 
separate $12.7 million increase to BIA forestry to start a 
forestry workforce development program, as recommended by IFMAT 
III.
    Elsewhere, the BIA natural resource, and within BIA natural 
resources, the Intertribal Timber Council requests an 
increasing cooperative landscape conservation to $20 million 
for tribal input, and increase that there, an increase in BIA 
endangered species funding to $10 million, and supporting the 
BIA's invasive species proposal at $6.7 million.
    In the Interior Wildland Fire Management budget, the 
Intertribal Timber Council supports the Administration's 
preparedness proposal. It will cover contract support costs, 
improve tribal wildfire management capacity, and help 
recruitment and training for tribal firefighters, who are truly 
a national resource.
    We ask that fields management be increased to $206 million, 
the amount that was funded in 2010. This is really important to 
protect our communities, and to do sound management across the 
landscape. Also, the Intertribal Timber Council supports 
treating wildfire suppression costs, over 70 percent of the 10 
year average through disaster funding. We are pulling too much 
money away from doing treatments on the land to cover these 
large catastrophic fires. We also support Administration's 
Resilient Landscape Initiative to apply needed forestry 
treatments beyond the wildland urban interface.
    For the Forest Service, the Intertribal Timber Council asks 
the subcommittee to specifically encourage two things. The 
first is our Anchor Forest Initiative, which seeks landscape 
coordination among various forest landowners, including tribes, 
the State, Federal, and other local partners to sustain both 
forest health and forest product supply, and to maintain local 
forest dependent infrastructures.
    With Forest Service support and participation, we now have 
three anchor forest feasibility study areas in Washington State 
and Idaho, and have received express interest from the lake 
states, the Midwest, the Southwest. We ask that you urge the 
Forest Service to continue its active management in this 
initiative.
    Finally, we ask you to encourage the Forest Service to 
reform the implementation of the 2004 Tribal Forest Protection 
Act, or TFPA. This law allows tribes to undertake fuels and 
forest health projects on adjacent forest lands, Forest 
Service, or BLM lands, that pose a fire disease, or other type 
of risk, threat to tribal trust, and cultural resources. But 
implementation has been slow, and in 2003 the Intertribal 
Timber Council, with the Forest Service, and BIA, we did a 
review, with recommendations to improve the Tribal Forest 
Protection Act utilization. And we ask you to encourage the 
Forest Service to actively embrace, and review, and make the 
TFPA implementation a good thing.
    And so thank you, and that concludes my remarks.
    [The statement of Phil Rigdon follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you, and I apologize for having to cut 
anybody off, we have got to do the five minute time limit, 
because we are going to vote about 2:45 to 3:00, and would like 
to get everybody in, and it is courtesy to everybody else.
    Billy, one question. Marked, or not marked salmon?
    Mr. Frank. You know, they are marked, and they are not 
marked.
    Mr. Simpson. That is a diplomatic answer. Well, we are 
going to have that debate, I am sure, when we are marking up 
these bills.--on what to do on marking salmon.
    Mr. Frank. Okay.
    Mr. Simpson. I have got a little bill to deal with that 
little fact, that we are taking all the money out of other 
programs in the Forest Service to fight wildfires that will 
help address that. I will give you a copy of it. Take a look at 
it, and I think we can get it through. Anyway, Betty?
    Ms. McCollum. Mr. Chair, thank you.
    Mr. Payment, we have been told by the BIE that they are 
committed to completing the long awaited Johnson-O'Malley 
student count this year. Not next, this year. Every year I have 
been hearing, the count is coming, the count is coming. And a 
lot of previous testimony has brought up the importance of 
Johnson-O'Malley. Could you, on behalf of the National Congress 
of American Indians, tell the Subcommittee how we should use 
the results of that updated count?
    Mr. Payment. Sure. So our funding levels have been 
constant, but they have been the same for probably the last 15 
to 20 years. And so what it will do is it will give us 
corrected counts of the number of American Indians that the 
Federal Government is fulfilling the trust obligation to. And 
that will, obviously, mean additional funding. But, remember, 
our populations are increasing, and we are funded at a level 
that is about 20 years old, so it will give us additional 
funding. What we do at JOM is we do a number of different 
things, recreation, culture revitalization, tutoral support, 
anything that we need to do in order to benefit our youth. So 
it will be greatly appreciated.
    Ms. McCollum. Thank you, and thank President Cladoosby, 
when you see him, for his great editorial in the Washington 
Post on change the name.
    Mr. Payment. Yes, absolutely.
    Ms. McCollum. Thank you.
    Mr. Simpson. Mr. Valadao.
    Mr. Valadao. Thanks, Mr. Chairman. Quick comment. National 
Congress of American Indians, thank you for your support of my 
bill, H.R. 3391, the Indian Health Service Professionals Tax 
Fairness Act. I appreciate the support. And just one question 
for Tex.
    In your statement, you made the comment about 5,000 cases 
were basically thrown out. How long of a period was that, for 
5,000 cases?
    Mr. Hall. It was probably about, I would say around four 
years, maybe three, four years old. And if you don't address 
the court cases, you are denying, you know, somebody a right to 
a speedy trial, and it is just a violation of civil rights. And 
so man positions, you know, didn't have the funding to take 
care of that backlog, and so we had to dismiss them. You know, 
and many of them were requests for jury trials and other 
things, and that takes staff to get that put together. So we 
had to dismiss them.
    That was based on our chief tribal Judge, who was a law 
trained lawyer for the last 25, 30 years. And so it was really 
gut wrenching, she said, to have to do that, to dismiss, you 
know, but that is what her recommendation was.
    Mr. Valadao. All right. Thank you.
    Mr. Simpson. Thank you, and thank all of you for being here 
today, and for your testimony. We appreciate it very much.
    Next we have Mr. Ralph, the Executive Director of the 
Seattle Indian Health Board. Chairman Calvert is braver than I 
am.
    Ms. McCollum. I am going to tell on you.
    Mr. Simpson. And Mr. Andy Joseph. See, I got that through 
there. Mr. Charles Norman, and Dr. Jacque Gray, former 
President of the Society of Indian Psychologists.
    Ralph, do you want to pronounce your last name for me 
first?
    Mr. Forquera. It is pronounced Forquera, so think of four 
carrots----
    Mr. Simpson. Okay.
    Mr. Forquera [continuing]. And you will never forget it.
    Mr. Simpson. I can see that. Floor is yours.
                              ----------                              

                                            Tuesday, April 8, 2014.

                      SEATTLE INDIAN HEALTH BOARD


                                WITNESS

RALPH FORQUERA
    Mr. Forquera. Thank you very much. Good afternoon. My name 
is Ralph Forquera. As mentioned, I am the Executive Director 
for the Seattle Indian Health Board, and I am pleased to be 
here. It is a pleasure to be here with my tribal colleagues 
from around the country. I am actually here to represent Urban 
Indian Health, the Urban Indian Health Program.
    I run the Seattle Indian Health Board in Seattle, 
Washington. It is a community health center, was established in 
1970 as a free clinic, has been operating ever since that time. 
Part of our resources come from the Indian Health Service 
through the Title V allocation that comes through this 
committee, and we serve both Federally recognized Indians and 
non-Federally recognized Indians. I actually come from a tribe, 
the Juanenno Band of California Mission Indians. It was a 
terminated tribe back in the 1950s, and the tribe was 
recognized by the State of California in 1993, so it is now a 
State recognized tribe.
    The purpose of my testimony is really to provide some 
information about the fact that there are a growing number of 
Indian people who, for a variety of reasons, are moving to 
cities. Many of them are like myself, who do not belong to a 
Federally recognized tribe, and so therefore I am ineligible 
for a lot of services that go to Indian reservation 
communities. We run into a number of similar problems that you 
have on reservations. There is a very high rate of mental 
illness in the population, and I know the Chairman is very 
involved with some legislation regarding mental health issues. 
A lot of violence issues. I know the Chair is interested in the 
Violence Against Women Act, and things. And we really support 
the efforts that have been going on in Indian Country, but it 
really has missed the urban Indian population, which is a 
growing population, and the need for assistance in that area is 
quite grave, and we do our best to try to address it as best as 
we possibly can.
    Some of you are probably visual, so I would like to pass 
out, if I could, just some visuals to give you some indication 
of the changes that we have seen in the Native population over 
the last several decades. If you believe the Census, seven out 
of 10 Indian people are now living in cities around the 
country, but a lot of them are like the ones in Puyallup, where 
reservations are very close to large metropolitan areas, and so 
it is very difficult to be able to figure out which populations 
are which in this particular day and age, other than the issue 
of Federal recognition.
    The Indian Health Service itself has primarily served the 
tribal communities and the reservation communities, and the 
Federally recognized tribes. The Urban Indian Program has been 
getting less and less of the allocation for urban Indian 
programs. If you note, we are below one percent of the total 
Indian Health Service budget, which is something that we have 
tried to keep around that range as best as we possibly can.
    There is really a dearth of data around urban Indians 
because, again, the Indian Health Service has not really taken 
the initiative to look for and to guide the Urban Indian Health 
program. A good example of that is in the reauthorization of 
the Indian Healthcare Improvement Act that was just passed with 
the Affordable Care Act. There was a provision in there to 
require that there be a conferring policy with urban programs, 
so we had an opportunity to actually be involved in 
conversations about how urban Indian health would be 
administered in the country.
    We are now four years into the Affordable Care Act, and 
that policy has still not been enacted, and so we are really 
limited in our capacity, then, to be able to influence policy, 
as well as to provide feedback about changes that are being 
asked of us. And that is a frequent problem, in the fact that, 
in our reporting that we are trying to do to let people know 
how well we are doing with the resources that we have, 
oftentimes we are asked to report in an inappropriate fashion, 
as opposed to really reflecting on the programs that we do 
offer.
    I did want to really thank all of you, as members of the 
Congress, really, in general for your support for the extension 
of the special diabetes program for Indians. That program, I 
think, exemplifies just how well investment of resources in the 
urban Indian programs can be helpful. We get five percent of 
the special diabetes program for the urban Indian programs 
around the country. We serve a significant number of Indian 
people with diabetes and pre-diabetes through that program. It 
has been a remarkably successful program. I cannot tell you how 
much we have been able to save,
in terms of costs associated with complications associated with 
diabetes, and so I just wanted to make sure that I thanked the 
Committee, all of you, for supporting that particular 
initiative. Thank you.
    [The statement of Ralph Forquera follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank the gentleman for his testimony.
    Next, Mr. Andy Joseph, Junior, Chairman of the Northwest 
Portland Area Indian Health Board.
                              ----------                              

                                            Tuesday, April 8, 2014.

              NORTHWEST PORTLAND AREA INDIAN HEALTH BOARD


                                WITNESS

ANDY JOSEPH, JR.
    Mr. Joseph. Good afternoon, Chairman Calvert, and Members 
of the Committee. Badger is my name, Andy Joseph, Junior. I 
chair the Veterans and Health and Human Services Committee for 
the Confederated Tribes of the Colville Reservation, and also 
chair the Northwest Portland Area Indian Health Board, and sit 
on the Executive Committee for NIHB. My written testimony has 
been submitted to the Subcommittee for the record, and I will 
summarize my recommendations.
    I want to underscore that there is a Federal trust 
responsibility to provide healthcare to Indians, and that, due 
to the chronic underfunding of the Indian Health Service, our 
people have poor access to healthcare, and suffer high health 
disparities. For FY 2015 IHS budget, we recommend the 
following.
    First, we recommend the Subcommittee to provide adequate 
program increases to restore the 227 million that was 
sequestered from the IHS budget. Other Federal healthcare 
programs were protected to a two percent cut. It does not make 
sense to not have a similar protection for the health programs. 
IHS is just like Medicaid and the VA, and provides expensive 
and vital healthcare services.
    Second, the fundamental principle of the Northwest Tribes 
is that IHS programs must be preserved by the President and 
Congress in the budget process. You do this by funding and 
maintaining the current level of healthcare services. 
Otherwise, the program is eroded by inflation and population 
growth. If current services are not maintained, how can unmet 
needs ever be addressed? We recommend in the FY 2015, the 
Subcommittee provide at least 223 million to fund medical and 
general inflation and population growth.
    Third, I want to thank the Subcommittee for support on 
contract support cost issues. Contract support cost funding 
assists us to administer our health programs and provide jobs 
and services in our communities. When contract support costs 
are not funded, tribes are forced to absorb these costs by 
cutting services, or using their own resources to displace 
funding for other program purposes. I urge the Committee to 
make sure the Administration continues to obey the law and pay 
full contract support cost payments. We recommend the 
Subcommittee require the Administration to fully fund IHS 
contract support cost payments to tribes.
    Four, we recommend the Subcommittee halt funding for 
facilities construction, staffing packages as a deficit 
reduction strategy, or at least until IHS establishes a new and 
fair facilities construction program. It does not make sense to 
continue to fund new facilities when we cannot take care of the 
current programs. When new facilities are constructed, they 
carry a recurring liability for staffing at the expense of all 
other tribes. It is more effective to maintain current services 
by directing this funding to inflation and population growth 
for the benefit of all tribes. If the Committee elects to fund 
construction, we recommend funding joint venture and small 
ambulatory construction.
    Finally, we hope the Subcommittee does not agree to fund 
the 200 million as proposed under their Opportunity, Growth and 
Security initiative. We support additional funding for 
facilities related projects, but not the projects on the health 
facilities constructions priority list. The controversy and 
unfairness of the IHS facilities construction program are well 
documented by many tribes. If Congress provides the 200 million 
for facilities related projects, we recommend the funding be 
directed to reduce the backlog of essential maintenance, 
alteration, and repair, BEMAR. This need is currently estimated 
at over 462 million for all IHS and reported tribal facilities.
    I would be happy to answer any questions, and thank you for 
this opportunity.
    [The statement of Andy Joseph, Jr. follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you, Andy. I appreciate that.
    Next is Charles Norman, the American Dental Association.
                              ----------                              

                                            Tuesday, April 8, 2014.

                      AMERICAN DENTAL ASSOCIATION


                                WITNESS

CHARLES NORMAN
    Mr. Norman. Yes. Good afternoon, Chairman Calvert, Members 
of the Subcommittee. I am Dr. Charles Norman, President of the 
American Dental Association, and a private practicing dentist 
in Greensboro, North Carolina. The ADA appreciates the 
opportunity to testify on the oral health issues that affect 
American Indians, Native Alaskans, and the dentists who serve 
in the Indian Health Service and tribal programs.
    We are pleased that the Administration has recommended 
approximately $175 million for the Division of Oral Health, an 
increase of roughly $10 million over the last budget cycle. 
However, this increase will only allow the Division to maintain 
its current programs and staff its new facilities, leaving 
virtually nothing to address the increasing oral disease rates 
in this population.
    Tooth decay in Indian Country has reached epidemic 
proportions. According to data from the Navajo Tribe, tooth 
decay is present in 48 percent of one-year-olds, and up to 94 
percent of four-year-olds. The decay rate of preschool Navajo 
children is the highest in the nation.
    Several years ago the ADA organized the Native American 
Oral Healthcare Project to work with the tribes in Arizona, New 
Mexico, North Dakota, and South Dakota. The Dental Associations 
in those states have held many meetings with tribal leaders in 
order to hear their concerns regarding their needed dental 
care. As a result of the project, volunteer dentists in two 
states have treated over 1,300 patients, and provided $736,000 
in donated dental care. Additionally, the Arizona and New 
Mexico Dental Associations are working with the Navajo Nation 
to develop a 10 year oral health plan for incorporation within 
the tribe's health and wellness plan.
    We are also working to help tribes develop new oral 
healthcare professional, the Community Dental Health 
Coordinator. The CDHC focuses on oral health, education, 
prevention, early intervention, and connecting people for their 
dental care. They work in the communities to educate people 
about diet, dental hygiene, and how good oral health results in 
better overall health. Today eight American Indian CDHCs are 
serving in 15 sites.
    We could provide even more care through volunteers if IHS 
would streamline its credentialing process. Last year, 30 South 
Dakota dentists volunteered at IHS dental clinics for one to 
four days per year. All had valid state licenses. In the end, 
only two dentists actually were credentialed, and even then 
process delays prevented them from treating a maximum number of 
patients.
    The ADA thanks the Committee for including report language 
in the current Omnibus Bill urging IHS to establish a 
centralized credentialing system. Unfortunately, IHS has not 
heeded the Committee's directive. Therefore, we respectfully 
request that the Committee direct IHS to work with the ADA to 
develop a better credentialing system for volunteers.
    The ADA, and its States' chapters, are committed to 
improving oral healthcare for Native people, but the Division 
of Oral Health need additional resources. In 2012, dental care 
expenditures in the United States reached $111 billion, or $353 
per capita. The proposed 2015 budget for IHS dental programs 
allows only $83 for the 2.1 million people served by the IHS. 
That is each. That amount does not even cover one dental visit 
a year.
    To bring oral healthcare parity to Indian people, the 
budget for the Division of Oral Health would have to rise above 
$560 million. Now, we recognize that level of funding is not 
going to happen this year, and so we recommend that the 
committee include an additional $4 million for the Division, as 
we have detailed in our written report.
    Thank you for allowing the ADA to testify. We are committed 
to working with you, IHS, and the tribes to aggressively reduce 
the level of oral disease in Indian Country. Thank you.
    [The statement of Charles Norman follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you.
    Dr. Gray, you are recognized for five minutes.
                              ----------                              

                                            Tuesday, April 8, 2014.

                        FRIENDS OF INDIAN HEALTH


                                WITNESS

JACQUE GRAY
    Ms. Gray. Good afternoon, Chairman Calvert, and 
distinguished Committee Members. I am Dr. Jacque Gray, a 
psychologist, and a Choctaw and Cherokee descendant from 
Oklahoma, and for over 30 years I have worked to address mental 
health needs of American Indians. I am currently the director 
of the Seven Generations Center of Excellence and Native 
Behavioral Health, and the National Indigenous Elder Justice 
Initiative through the University of North Dakota.
    As a member of the American Psychological Association, I am 
testifying today for the Friends of Indian Health. I lead a 
team focused on elder abuse. Recently an elder from one of the 
tribes noticed that a woman who regularly attends events had 
not been seen for several days. Someone from the Elder 
Protection Team was dispatched to her home, where they 
discovered she had fallen days before, and could not get up, 
therefore, tend her fire to heat her home. Consequently, she 
had frozen to the floor. But because the team found her in 
time, and was able to get her to the hospital, she survived. A 
few hours later, and she would not have.
    The sequester last year had a dramatic impact on mental 
health services. Counselors are no longer available to provide 
on call service or respond to after-hours emergencies. Regular 
appointments for people who have attempted suicide have had to 
be cancelled so that providers can meet with patients who are 
needing to be assessed for suicide. The suicide rate for 
teenagers has reached epidemic levels. Poverty, loss of Native 
culture and language take a toll and erode the identity, 
creating a sense of helplessness and hopelessness. Often the 
breakup of a relationship can be the last straw that leads to a 
young person to take their own life.
    Friends supports the Administration's proposed 2015 funding 
level of 4.6 billion, an increase of over 199 million over 
current funding. However, the request fails to address health 
disparities and need for treatment in Indian Country. Over 154 
million of the request goes for medical inflation, pay costs, 
and additional staffing for new facilities, which merely 
maintain status quo. Additional funding goes to purchased and 
referred care, and contract support costs. When everything is 
taken into account, the request is only one percent.
    The greatest need of Indian people is purchased and 
referred care, PRC, that cannot be provided at IHS or tribal 
facilities. Last year the PRC program denied almost 147,000 
services, costing over $760 million. The increased demand for 
services is due to an aging population, a rise in the cost of 
healthcare and transportation services, and the fact that most 
IHS and tribal facilities are dependent upon the private sector 
for secondary and tertiary care. The situation is not going to 
change.
    The Administration's 2015 budget would increase the PRC 
amount by 50 million, leaving it short by $710 million. We know 
the committee cannot appropriate this amount in one year, but 
we urge you to propose a plan for fully funding the PRC program 
within five years. Having a sufficient healthcare workforce 
would help reduce the need for PRC funding. The IHS has over 
1,500 healthcare professional vacancies, yet, due to a lack of 
loan repayment funds, the Service denied 577 applicants' 
requests to work in IHS. An additional 29 million is needed to 
fund the outstanding requests.
    It is often said that Americans enjoy the best healthcare 
in the world, however, the President's budget request does not 
allow Native people to make the same statement. We urge the 
Committee to move beyond the Administration's proposal and 
provide the needed increases as we have outlined.
    In conclusion, the Friends thank the Committee for its 
continued support of IHS, and we look forward to working for 
you to decrease mortality and morbidity rates of American 
Indians and Alaskan Natives. Thank you.
    [The statement of Jacque Gray follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you for your testimony. Interest of 
time, I am going to hopefully just have some quick questions by 
our panel before we get to the last panel, and get to the vote.
    Ms. McCollum. Just really quick, thank you for your 
comments on urban Indian healthcare. It is something that we 
need to look at and do more consultative work on, but we have 
to fund up healthcare. We cannot take it out of tribal 
healthcare to fund urban healthcare, and that has been, I 
think, the biggest friction between moving forward. So thank 
you for your comments.
    Mr. Calvert. Thank you. Mr. Simpson?
    Mr. Simpson. Yeah. Thanks, Charles, for being here today, 
and testifying on behalf of the American Dental Association. I 
do not have any questions, but I do want to say we have with us 
today, and I want to recognize, Judy Sherman for her tireless 
efforts on behalf of the American Indian, Alaskan Natives' oral 
healthcare for the American Dental Association, and healthcare 
in general on behalf of Friends of Indian Health. She has been 
an invaluable resource to this Committee over the years, and I 
understand you are retiring. I hope I still have a chance to 
talk you out of it. Anyway, thank you for all your work.
    Mr. Calvert. Thank you. Any other Members? With that, I 
thank this panel for your testimony, and I will introduce the 
next panel. Thank you very much.
    We do not have a lot of time, but I would hate to have our 
last panel wait around for an hour while we vote, so I am going 
to ask them to come up right away. Mr. Mark LeBeau, the 
Executive Director of the California Rural Indian Health Board, 
Mr. Michael Garcia, Board of Directors Delegate, and Ms. Brandi 
Miranda, Vice President of the Board of Directors. I normally 
do not have to apologize for them actually being ahead of 
schedule on the floor today, but they are, and----
    Ms. McCollum. Mr. Chair, I might leave a few minutes early. 
It takes me a little longer to limp over.
    Mr. Calvert. I know.
    Mr. Simpson. I would get there and try to tell them to keep 
the vote open.
    Mr. Calvert. Okay, good. All right. I will be happy to 
recognize Mr. Mark LeBeau, and we are going to stick as close 
to possible this five minute rule here, so----
    Mr. LeBeau. Thank you.
    Mr. Calvert [continuing]. Recognized.
                              ----------                              

                                            Tuesday, April 8, 2014.

             THE CALIFORNIA RURAL INDIAN HEALTH BOARD, INC.


                                WITNESS

MARK LEBEAU
    Mr. LeBeau. Good afternoon, Chairman, and Committee 
Members. My name is Mark LeBeau, and I am California Rural 
Indian Health Board's Executive Director. I am also a citizen 
of the Pit River Nation from Northern California. Thank you for 
providing CRIHB the opportunity to testify about funding of the 
Indian Health Service.
    CRIHB provides healthcare services and technical assistance 
to 11 tribal health programs, and is supported by 30 Federally 
recognized tribes in California. There are a number of tribal 
clinic representatives that are here today, including Charlene 
Store, Fern Bates, Ruby Rawlings, Willie Carillo, Laura Borden, 
Larry Hendricks, Lisa Elgin, Jessica Stalato, Yolanda Lathin. 
CRIHB was founded in 1969 to bring back healthcare services to 
tribal communities in California. Since 1969, California tribes 
have built a network of 32 tribal clinics, which serve more 
than 80,000 users in California.
    The first request that we have is that this Committee fund 
the IHS programs and services at levels that equal and exceed 
pre-sequestration levels. We know that the proposed budget is 
4.6 billion for the Indian Health Service, which is a 200 
million increase from Fiscal Year 2014. This is not enough to 
meet all unmet needs throughout Indian Country, as it would 
literally take over 14 billion to fully fund the Indian Health 
Service system.
    Our second general request is to fully fund contract 
support costs. We thank the Committee, the leadership on this 
Committee, for increasing funding in the January 2014 Omnibus 
Appropriations Act to ensure more funding for contract support 
costs, and partially restore funds lost to sequestration. Going 
forward, full funding of contract support costs continues to be 
critically important to continuity of healthcare. Full funding 
must be achieved without reducing direct healthcare services, 
or important line items within the IHS director's budget, such 
as a special diabetes program for Indians.
    CRIHB has testified before about lack of fundamental 
fairness, and IHS allocation of contract health services, now 
referred to as purchased and referred care. This inequity has 
resulted in compromised care for our service population. It has 
been documented in numerous Government Accountability Office 
reports, the most recent from June of 2012. The foundation of 
the allocation method is the use of base funding. It is not 
tied to any measure of actual need. Instead, it is based on 
what a given program received the year before.
    After reviewing contract health service funding, the GAO 
wrote that, ``IHS's continued use of the base funding 
methodology undermines the equitable allocation of IHS funding 
to meet the healthcare needs of American Indians and Alaskan 
Natives.'' This inequality is compounded by a lack of access to 
the Catastrophic Health Emergency Fund within the IHS system. 
The CHEF fund may only be accessed when care for a single 
episode of care for a patient exceeds a threshold of $25,000. 
This threshold is not difficult for tribal health programs with 
access to an IHS funded hospital to meet.
    Unfortunately, because California tribal clinics are 
grossly underfunded and under facilitated to start with, it is 
almost impossible for California's tribal clinics to meet this 
spending threshold to access the fund. Today CRIHB asks this 
committee to require IHS to develop and use a new method to 
allocate all CHS program funds to account for variations across 
areas. We also agree with GAO that IHS should be required to 
use actual cost of CHS users and methods for allocating 
funding.
    We also ask that the Committee require IHS to re-evaluate 
its facilities priority system, which has not been 
substantially revised since 1991. The current list creates a $1 
billion backlog that will prevent applications for new 
facilities for the next 15 to 20 years. Most of the listed 
facilities would provide in-patient care that today is provided 
as out-patient care everywhere else. California does not have a 
single IHS facility, and there are no California facilities on 
the list. It is not for lack of trying. In the absence of IHS 
facilities, California tribal clinics have devoted significant 
resources of their own resources to obtaining clinic space.
    Unfortunately, this often diverts scarce resources from 
direct patient care. Today we ask you to require IHS to re-
evaluate the facilities priority criteria. We also request that 
the appropriation for facilities maintenance be significantly 
increased. The M and I funding is at its lowest level ever in 
the California IHS area. The current level is below the 
mandated Federal level of funds necessary to maintain real 
property assets.
    Lastly, we ask the Committee to fund the next phases of the 
southern and northern California YRTC centers. Culturally 
appropriate treatment that is close to home is critically 
important in treating American Indian youth. Thank you for the 
time.
    [The statement of Mark LeBeau follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank the gentleman for his testimony. I am 
sorry--Mr. Garcia, you are recognized.
                              ----------                              

                                            Tuesday, April 8, 2014.

                     SOUTHERN INDIAN HEALTH COUNCIL


                                WITNESS

MICHAEL GARCIA
    Mr. Garcia. Good afternoon. Thank you.
    Mr. Calvert. If you could make your powerful statement in 
less time, we would appreciate it.
    Mr. Garcia. Chairman Calvert, and Members of the Committee, 
I thank you for inviting me here to testify today. My name is 
Michael Garcia--I am sorry. Okay. There we go. My name is 
Michael Garcia, and I serve on the Board of Southern Indian 
Health Council, and as the Vice Chairman of the Ewiiaapaayp 
Band of Kumeyaay Indians, one of the seven member tribal 
governments which make up the council. It is truly an honor to 
be able to share with you some of the opportunities, the 
challenges facing the Southern Indian Health Council.
    We at Southern Indian Health Council are passionate about 
the work we do to help our people. Part of this work is direct 
services. We operate an out-patient medical clinic, a dental 
clinic, a community health program, a family services program, 
and a pharmacy. There are some services, however, that we 
cannot provide directly. For services such as emergency care, 
cancer treatments, and many others, we must refer our members 
to outside facilities. Since there are no IHS hospitals in 
California, this means that our members must either travel to 
an IHS facility in another state, or we must send them to 
private facilities. As you can imagine, both of these options 
can be very expensive.
    Over the past couple of years, this Committee, and 
Congress, has increased our funding for these referrals, called 
purchased and referred care, and for that we thank this 
committee. But I am here to tell you that, even with these 
increases, it is still not enough. Last year we received $1.3 
million for purchased and referred care. Of that 1.3 million, 
$300,000 was used to pay for the medical costs resulting from 
one accident, and that $300,000 did not cover all the medical 
costs from that accident. We had to deny medical care to two of 
the people involved because their injuries were not bad enough.
    Every year we must rate how important each person's needs 
are, and often we can only provide care to the ones that have 
the most dire needs. I know that the members of this Committee 
are often faced with tough choices. In fact, this Committee is 
considering many tough choices with this very budget, so I know 
the committee can imagine what it would be like to have to tell 
someone that they just are not sick enough, or hurt enough, so 
they will not be getting care.
    And even when making those tough judgments, and denying 
care to those who are not facing life threatening illnesses, we 
still have to supplement this care with our own tribal dollars. 
But when almost everything is going to pay for the most dire 
need, that leaves little or nothing to go to other kinds of 
care. Non-emergency medical care, mental health counseling, 
suicide prevention, and drug and alcohol abuse, to name a few. 
To be able to provide such services, we need your help. Please 
help us help our people by increasing the budget for purchased 
and referred care.
    The burden on this care was even more strained up until 
last year. This is because, until last year, we did not receive 
full contract support cost funding. But, thanks to this 
committee, we are set to receive full contract support costs 
for Fiscal Year 2014 and 2015. This will have a huge effect on 
our ability to provide services. For the first time ever, we 
will be able to fund our programs at the level intended by the 
Indian Self-Determination Act, the level the Secretary would 
have provided, because we know we will be receiving full 
contract support cost funding. Thank you again.
    However, we must acknowledge that this is not always the 
case. In fact, until this year, we never received full funding 
of these costs. We have had to hire lawyers and file claims 
against IHS to try to force it to pay what it promised it would 
pay at the beginning, and yet we still have not received what 
is due to us. IHS even knows how much it did not pay us because 
it calculated it every year, and put it in a report it gave to 
Congress. We cannot understand why IHS will not pay us what 
those reports say are owed.
    So we are asking you to tell IHS it must pay us what the 
reports say we are owed. We understand there might be mistakes 
in reports, and we are happy to work with IHS to correct any 
mistakes. Southern Indian Health Council is not asking for more 
than what it rightfully should have gotten, but it should not 
take years to do that, as it is taking now, and we ask for your 
help to speed up this process.
    And perhaps the prettiest words a Committee can hear, in 
closing, at Southern Indian Health Council, we are proud of the 
work that we do, and we know we can achieve more with your 
help. Thank you again for having me testify here today.
    [The statement of Michael Garcia follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. I thank the gentleman. Before I recognize 
Brandi, I am going to go ahead and miss this vote to get 
through this panel, so if the two of you need to go vote you 
still have a little bit of time. There are 200 left to vote--I 
am going to go ahead and recognize Brandi.
    Brandi, Vice President of the Board of Directors, 
Riverside-San Bernardino--my own area.
    Ms. Miranda. Yes.
    Mr. Calvert. I know you are squeezed as the last person, 
but you can always call me on the telephone----
    Ms. Miranda. Okay.
    Mr. Calvert [continuing]. If you ever--
    Ms. Miranda. Great.
    Mr. Calvert [continuing]. Want to. But, Brandi, you are 
recognized for five minutes.
                              ----------                              

                                            Tuesday, April 8, 2014.

        RIVERSIDE-SAN BERNARDINO COUNTY INDIAN HEALTH CONSORTIUM


                                WITNESS

BRANDI MIRANDA
    Ms. Miranda. Thank you, Chairman Calvert. And, quick 
correction, I am actually Treasurer. I appreciate the 
promotion, but our Vice President might kind of disagree a 
little bit. Chairman Calvert and Members of the Committee, 
thank you so much for the opportunity to be here today. My name 
is Brandi Miranda Greany, and I am a proud member of the 
Pechanga Band of Luiseno Indians, and the Treasurer of the 
Riverside-San Bernardino County Indian Health Board of 
Directors. I would like to thank this Committee for its efforts 
to ensure contracts are fully funded. Full funding is so 
important for our organization to continue to serve the ever 
expanding Native population in our area.
    As I mentioned in my written testimony, if not for our 
reserves, we would have had to cut our entire Outreach 
Department in 2013 due to the cuts caused by sequestration. 
These funding cuts have real impacts. As a part of this 
proposed cut, we had planned to eliminate a nursing director, 
five public health nurses, 10 patient escorts, and nine 
community health representatives.
    My mother, Carol, was a community health representative on 
our reservation for 10 years. She shared a story with me that I 
would like to share with you today. My mom and a public health 
nurse were doing a home visit on one of our tribal elders who 
was a diabetic patient. He lived alone, did not have much 
family to check on him regularly. As the public health nurse 
checked his vitals, my mom started asking him some basic 
questions, what his name was, if he knew what day it was. She 
noticed he was becoming very lethargic. She immediately went 
back to the clinic and grabbed the doctor and said, I really 
think you need to come and see this patient. The doctor left, 
checked on him. The patient was going into a diabetic coma.
    If it was not for my mom and that public health nurse going 
to check on that man, he quite possibly would have died. So, as 
you can see, a cut of that entire department is very, very 
difficult, and it is an important part of maintaining our 
patients' health.
    The sequester may have been a one-time occurrence, but IHS 
has been underpaying our contract support costs for a very long 
time. I would like to thank the Committee for eliminating the 
proposed appropriation caps on contract support costs, and 
fully funding these costs in 2014 and '15. However, our fight 
is far from over, as we are still fighting for the dollars we 
are owed from past underpayments, dollars we can use to hire 
doctors and specialists, and continue to build more clinics.
    As an example, our Board recently had to make the difficult 
decision as to whether or not we could afford to cover breast 
reconstructive surgery for a patient recently diagnosed with 
breast cancer. Unfortunately, we were unable to approve it due 
to being underfunded. And now that we filed a lawsuit, we have 
learned that IHS believed we were overpaid, even though our own 
books and the shortfall report submitted to Congress tell us 
otherwise. And even though IHS actually tried to cancel our 
settlement session last week, we came to D.C. anyway to meet 
with the government.
    Now, they seem to acknowledge that we were underpaid all 
those years, but their current approach to the settlement still 
resulted in an outcome that is truly laughable, and, quite 
honestly, a slap in the face. It is time the government does 
the right thing and settle these claims at once, using a method 
that is not based on guesses and presumptions that the tribe 
was acting improperly, but relies on a fair method, giving the 
benefit of the doubt to the tribe, as the Self-Indian 
Determination Act requires.
    Another issue that largely impacts the health of our 
organization is funding for contract health services, now 
called purchase and referred care dollars. First we ask that 
you continue prioritize funding in this area, because we do not 
have an IHS funded hospital, or specialists, so when our 
patients need complex or specialized care, we must send them to 
private facilities, and when we do so, we must pay the full 
amount charged by these private providers, so we need more 
funding to provide a comparable amount of care.
    Second, we ask that you extend Medicare-like rates for non-
hospital specialty services so that we can make our CHS dollars 
go further.
    Lastly, I must say a few words about the Special Diabetes 
Program for Indians. This program has allowed us to provide 
more specialized diabetic care, care that is vitally needed, as 
diabetes is the number one diagnosis in our community. For 
example, we were able to hire a podiatrist, Dr. Roli, who is 
able to properly address wound care in diabetic patients. He is 
working hard to reduce the number of patients that require 
amputation. However, for the patients that do still require 
amputation, we, unfortunately, cannot provide coverage for 
prosthetics, meaning these patients must live out their lives 
bound to wheelchairs. These diabetes programs are necessary, 
and should become permanent.
    Thank you once again for the opportunity to provide a 
glimpse into my community, and the health needs of our people.
    [The statement of Brandi Miranda follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you. And I apologize again for our 
having to expedite this panel. But one last thing I wanted to 
say, this contract services issue, from everything I have heard 
in the last two days, is probably number one on most people's 
list, and repayment for, obviously, money that you are due, and 
we are going to work to try to make that happen.
    I want to thank everybody for being here. I want to 
reiterate this is an ongoing dialogue, not just five minutes 
once a year, please stay in touch with us, and keep us updated. 
And say hi to Mark and Holly, and we are adjourned.
                                          Thursday, April 10, 2014.

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                            PUBLIC WITNESSES

    Mr. Calvert. The Committee will come to order.
    Good morning, and welcome to the first of two public 
witness hearings this morning and this afternoon. The 
Subcommittee will hear from a cross-section of individuals 
representing a wide variety of issues addressed by the 
Subcommittee.
    The Chair will call each panel of witnesses to the table, 
one panel at a time. Each witness will be provided with 5 
minutes to present their testimony. We will be using a timer to 
track the progress of each witness. When the button turns 
yellow, the witness will have 1 minute remaining to conclude 
his or her remarks. Witnesses who speak less than 5 minutes 
will score big brownie points with the Chairman and the Ranking 
Member. I think he probably feels the same way.
    Mr. Moran. Unless we have questions of them.
    Mr. Calvert. Okay. Well, then, that is different.
    Members will have an opportunity to ask questions of the 
witnesses, but in the interests of time, the Chair requests 
that we keep these things moving to stay on schedule. We have a 
lot of people here, and this is also a getaway day, so I am 
afraid a lot of people may disappear on us.
    The Chair also wants to remind those in the hearing room 
that the Committee Rules prohibit the use of outside cameras 
and audio equipment during these hearings.
    Mr. Calvert. I am now happy to yield to my good friend, Mr. 
Moran, for any remarks he may wish to make.
    Mr. Moran. Thank you, my good friend.
    This is a good hearing. I am here particularly to hear Mr. 
Reising, because I had known him when he was a college football 
player, and he actually became wholly paralyzed and he has 
struggled back from that and now he is doing some wonderful 
stuff, as I am sure the other folks are also doing here on the 
panel. So, I am anxious to hear from them. We appreciate you 
giving them the opportunity to speak.
    Thanks, Chairman.
    Mr. Calvert. Thank you.
    First I would like to recognize Mr. Trent Clark, Board 
Member of the Idaho Humanities Council, Federation of State 
Humanity Councils.
    Mr. Clark.
                                          Thursday, April 10, 2014.

                FEDERATION OF STATE HUMANITIES COUNCILS


                                WITNESS

TRENT CLARK, BOARD MEMBER, IDAHO HUMANITIES COUNCIL
    Mr. Clark. Thank you very much, Mr. Chairman.
    I do represent the Idaho Humanities Council. I live in a 
small mining community in Representative Simpson's district. I 
know the Congressman very well, and he is familiar with the 
situation of a small, rural mining town like I come from.
    I am here representing, as you mentioned, the Federation of 
State Councils, and we are here to support an appropriation of 
$154.5 million for the National Endowment, and as a critical 
component of that, the State-Federal Partnership portion of 
that, $46 million.
    To preface my remarks, I want to quickly reference some 
research that has been done. Dr. Vince Covello of Columbia 
University is kind of the well-established authority on public 
opinion formation. He did some research back in the 1990s. It 
became pretty much the basis of many of our federal 
communications manuals. You'll notice agencies ranging from EPA 
to the Fish and Wildlife Service cite the Covello principles of 
public opinion formation. His theory is sometimes described as 
the hit theory because he says the public forms their opinions 
based on hits of information that they receive and they process 
these hits and from those hits they form an opinion.
    What is sometimes not referenced much is a very excellent 
paper he wrote about how not all hits of information are equal, 
and he describes the most valuable hits of information, and 
these are the hits that would come to a person who is kind of 
in their comfort zone. They have their sources of information. 
They listen to their trade representatives or their company or 
a favorite news broadcast, and they are comfortable with that, 
and they go along through life with pretty much one source of 
information, and then all of a sudden comes along a hit of 
information that Dr. Covello described as surprise with 
insight, and these hits of information that are surprise with 
insight do an amazing thing in our modern American democracy. 
They cause a person to stop and reevaluate and want to become 
engaged.
    So when we talk about a populace that is engaged in their 
own government, there is nothing that can be done more valuable 
than to provide many of these hits of information that are 
filled with surprise and insight, and what I am here to tell 
you is that is what the National Endowment for the Humanities 
is designed to do. It is to offer up a platter of surprise and 
insight for the American people, and more specifically, the 
State-Federal Partnership would be kind of the doorstep 
delivery of that surprise with insight. We take surprise and 
insight out to the communities and offer them to neighborhoods, 
let people see in their own backyards some information that 
makes them stop, reevaluate, reassess, look and become engaged. 
They may show up at a town meeting or a forum and ask you 
questions, Congressman, because they have been surprised and 
they have seen some new insight.
    And I want to for the rest of my testimony give you some 
examples. The full written testimony has many, many of these 
examples but I wanted to cite just a few. One of the first ones 
is in the State of Idaho where the Humanities Council in Idaho 
chose to offer up a series of seminars and some discussions 
focused on public opinion leaders. Folks like the city council 
in my own little town of Soda Springs, Idaho, would show up at 
these meetings where we would discuss the concept of 
wilderness. It is very timely because 2014 is the 50th 
anniversary of the Wilderness Act of 1964, but a lot of folks, 
again, they fall into the mode of wilderness is the buzzphrase. 
You are either for wilderness or you are against wilderness, 
and they know the topic by the sound bite.
    What the Humanities Council did is, it came in and it said 
let's talk to you about why did Congress enact this Act in the 
first place and what does it do and how does an agency manage 
the land differently if it is wilderness versus if it is a 
national park or if it is a national monument. What that whole 
process has done is, it has listed the issue above the sound 
bite so that now city council members are actually discussing 
well, what really do we want to have happen. We want people to 
come and visit. Well, maybe setting the land aside where people 
don't visit is not the thing we want to do. And so the whole 
discussion about wilderness has become deeper and richer and 
more meaningful, and also I would point out, Congressman 
Simpson would verify this, it has become a lot more easy for 
him to explain the difficult subtleties of these issues that 
you here in Congress have to deal with, and sometimes if the 
public is not engaged, they miss those subtleties, and so it 
helps that process.
    Another council that has done some amazing work is in 
Oklahoma, and they have a program in Oklahoma that brings the 
American roots music to the communities there, and I would love 
to have that in Soda Springs. The little town of Frederick, 
Oklahoma, got that opportunity to experience, again, surprise 
and insight about where music traditions come from. It brings 
about understanding, and that is something that we need.
    Thank you very much.
    [The statement of Trent Clark follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you. Thank you for your testimony.
    Next, Peter Meineck, you are recognized for 5 minutes.
                              ----------                              

                                          Thursday, April 10, 2014.

                      NATIONAL HUMANITIES ALLIANCE


                                WITNESS

PETER MEINECK, CLINICAL ASSOCIATE PROFESSOR OF CLASSICS, NEW YORK 
    UNIVERSITY
    Mr. Meineck. Thank you. My name is Peter Meineck, and I am 
a Professor of Classics at New York University and the Founding 
Director of the Aquila Theatre Company and a proud member of 
the Bedford Fire Department in New York.
    As I came here this morning and I walked through the 
wonderful classical columns of George Stewart's Rayburn Office 
Building, I was reminded of the way of which our relationship 
to the classics and the cultures of ancient Greece and Rome has 
had a profound impact on so many facets of American identity 
and society. This classical influence is not a thing of the 
past but a vibrant, living, cultural force that is constantly 
developing, adapting and inspiring. So we can appreciate the 
plays of Sophocles or Shakespeare as classics just as we know 
that the dramas of Pittsburgh playwright August Wilson will one 
day also enter this ever-evolving canon.
    So Bedford, New York, where I live is the home of John Jay, 
the author of several of the Federalist Papers, signatory to 
the Declaration of Independence and our first Chief Justice. 
Like almost all the members of the Continental Congress, Jay 
received a classical education and could read both Greek and 
Latin. In fact, Thomas Jefferson was so enthusiastic about his 
knowledge of Greek and Latin, he exclaimed, ``I thank on my 
knees, him who directed my early education, for having put into 
my possession this rich source of delight, and I would not 
exchange it for anything. So John Jay well understood that 
knowledge was essential if the American experiment was to 
succeed, and in a letter to Pennsylvania delegate--and I was 
able to read these letters because of a great archive at 
Columbia University that is funded by the NEH. He wrote, 
``Knowledge is the soul of the Republic and the only way to 
diminish the weak and wicked,'' and he echoed this theme in 
1789, writing ``Knowledge is essential for the duration of 
liberty.'' He also said, ``There is more light and knowledge in 
America diffused through the mass of the people of this country 
than any other.''
    With this in mind and this idea of knowledge, which is, I 
think, what the NEH is all about, diffusing knowledge, creating 
liberty, I would like to brief the NEH-funded public program 
that I directed called Ancient Greeks' Modern Lives that used 
the works of Homer and the Greek tragedies to foster informed 
public discussions on the veteran in American society. So for 3 
years between 2010 and 2013, the program toured in 31 states, 
staging 244 live events, which was public readings, 
discussions, lectures, reading groups, film screenings and 
theatre workshops. We hired 62 classics professors and sent 
them out into the field where they worked with professional 
actors, librarians, museum curators, performing arts center 
staff and members of veteran organizations. All in all, 111,000 
people attended the live events, and an additional 678,000 
visited the Web site, which works out to a cost to the Federal 
Government of around one dollar per person, which I think is a 
pretty good deal.
    As the program progressed, we met more veterans from Iraq 
and Afghanistan, mostly keeping silent at first, who were 
perhaps even suspicious, and we noticed older veterans making 
contact with them, talking to them. One program participant, a 
U.S. Army Ranger sergeant who had served in several tours of 
Afghanistan and Iraq, said, ``I liked that the experiences were 
filtered through classical myths. This distance allows both 
performers and audience members to use their imaginations in an 
empathetic way, rather than merely evoking sympathy. This also 
helps free us from anachronistic terms such as PTSD or 
psychological wound, or whatever else they want to use to 
describe someone who has undergone a significant change due to 
military service. Classical myth places the emphasis back on 
character and story, and helps reject the laziness of labels. 
The abstract nature of myth also allows individuals to reflect 
on their own experiences with the subject at hand, and to flesh 
out the experience with some combination of memory and 
imagination,'' and those are his words, not mine.
    It was remarkable to see how the classical stories elicited 
so many different deeply personal and heartfelt responses. At 
one event in a military museum in Iowa, a long serving 
noncommissioned officer of the Iowa National Guard latched on 
to the tension inherent in the moment in Book 23 of Homer's 
Odyssey, when the hero is finally reunited with his wife, 
Penelope. This Iowan and his wife recognized the intimacy of 
something simple between them that could suddenly transcend the 
long separations of multiple deployments. Like Odysseus 
himself, who is moved to tears when he hears tales of the 
Trojan War sung by a bard, there were many sniffles in the 
audience at this beautifully simple and completely human moment 
that was captured and written down in a foreign land some 2750 
years ago, for the humanities constantly remind us what it 
means to be human.
    In Mississippi, a leather-clad member of Rolling Thunder, 
the veteran motorcycle group, responded quite differently to 
the same passage. After hearing the Homeric simile of how 
Odysseus felt like a drowning man, he stood up and said ``I 
have told nobody this, not even my wife here, but when I came 
home from Vietnam I threw my uniform in the trash at the 
airport and went home in disguise, just like Odysseus, and I 
too felt like a drowning man, all that death. I didn't think I 
could love anyone or be loved by anyone again. I felt like I 
was drowning, until my girlfriend, my wife here, gave me her 
hand and rescued this drowning man. How did Homer know this?''
    The aim of my testimony today has been to try to convince 
you of the continued power of the classics in American life and 
how the National Endowment of the Humanities has allowed a 
truly national program to flourish. Their prestigious awards 
help create media and institutional interest in the program and 
attracted additional funding from private foundations and 
individuals. Their selection process is highly rigorous, and 
the expert advice and tireless help of their program staff is 
not short of priceless.
    I want to just end--I have got 8 seconds--with one quote of 
someone far more articulate than me, Martin Luther King, in his 
last speech from the mountaintop who said, ``I would move on by 
Greece, and take my mind to Mount Olympus. And I would see 
Plato, Aristotle, Socrates, Euripides and Aristophanes 
assembled around the Parthenon as they discussed the great and 
eternal issues of reality.''
    So the NEH does this. It enables those discussions of great 
and eternal issues of reality via its excellent public 
programming and sends them out across the nation helping us to 
empower our democracy with that most valuable of human 
resources: knowledge.
    Thank you very much.
    [The statement of Peter Meineck follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you for your testimony.
    Next, Jesse Reising, you are recognized for 5 minutes.
                              ----------                              

                                          Thursday, April 10, 2014.

                        WARRIOR SCHOLAR PROJECT


                                WITNESS

JESSE REISING, COFOUNDER AND CHAIRMAN OF THE BOARD
    Mr. Reising. Thank you, Chairman Calvert, Members of the 
Subcommittee. It is an honor to be here today to express my 
support for the full funding of the National Endowment for the 
Humanities. I am the Chairman and Cofounder of the Warrior 
Scholar Project. With the support of the NEH and private 
resources, we host two-week-long humanities-based academic boot 
camps to facilitate veterans' transition from the military to 
college.
    The GI Bill and other forms of tuition assistance provide 
veterans with the resources to attend college but many 
transitioning veterans have not used academic skills since high 
school and must adjust to a fundamentally different social and 
cultural environment.
    Much like boot camp transforms civilians into soldiers, we 
use immersion in the humanities to transform soldiers into 
students. Instead of using pushups and pullups to condition the 
body, we use Thucydides and Herodotus to condition the mind.
    Consisting of 14 hours per day of intensive academic 
seminars, workshops, discussions, and one-on-one tutoring 
sessions, the Warrior Scholar Project is designed to unlock 
veterans' full potential to succeed in college and become 
leaders on campus. Engaging with veterans in an academic 
setting on a subject about which many of them have strong, 
visceral, patriotic feelings such as the foundations of 
democracy causes their intellectual curiosity to become 
insatiable, and in the process of evaluating how democracy has 
evolved, they develop critical thinking skills necessary for 
success in any field. They have learned how to frame their 
ideas in an academic context. They discover that they can 
access classical texts that they previously thought were 
impenetrable. They realize that despite the fact that they have 
been carrying a rifle around the Hindu Kush Mountains for the 
past decade, they have much to offer in an academic setting, 
and much of what they have learned in the military translates 
into being a successful student.
    They come to understand that their professor is not their 
drill instructor. Not only are you allowed to engage with your 
professor on the ideas, you are expected to, and no longer are 
they more intimidated by their four-page essay assignment than 
they were by their latest deployment.
    It is powerful to witness these battle-hardened veterans 
not engaging in the normal barracks banter during their smoke 
breaks but instead debating finer points of de Tocqueville with 
their traditional non-veteran peers with whom they previously 
thought it impossible to relate.
    Departure from the military, especially a premature 
departure, can leave a person feeling stripped of a sense of 
meaning and purpose. Study of the timeless values and 
principles that may have motivated many of them to serve in the 
first place reawakens their drive to search for that sense of 
purpose and helps them better understand their experiences as 
they try to make sense of a world in which they may have had to 
take the life of another to defend. They are forced to reflect 
upon what is important to them, what motivates them, why they 
chose to serve, to debate such questions as what is democracy 
and is democracy inherently good. It forces them to imagine new 
ways in which they can fulfill their sense of civic duty now 
that they are once again civilians.
    During our pilot year, we were surprised when one of our 
students suffering from post-traumatic stress told us on the 
third day that for the first time since he returned from Iraq, 
he had slept through the night without any nightmares. His mind 
was too consumed contemplating democracy and globalization. 
Other veterans have made similar claims, and we are currently 
working with psychologists at Yale to study the potential 
rehabilitative benefits of this kind of program.
    After completing the Warrior Scholar Project, veterans 
think of themselves not only as veterans but as student-
veterans, or, more aptly, as warrior-scholars, and they have 
the tools to find a new mission and build a new identity after 
life in the military.
    We have already received nearly three times as many 
applications as there are seats in this year's programs. We 
look forward to continuing to work closely with the NEH staff 
as we scale up to meet this demand. We hope to share what we 
have learned through this experiment as broadly as possible, 
and we are grateful that the NEH has used its network and the 
realm of higher education to serve as a conduit of information 
through which we are able to share best practices. Without the 
support of institutions like the NEH, the curriculum would not 
have traveled far beyond the desk of our Co-Founder and 
Executive Director, Chris Howell.
    The protection of freedom demands not just a strong 
military but an active and informed citizenry capable of 
distinguishing truth from mere sophistry. The humanities are an 
excellent vehicle through which to develop the skills essential 
for critical inquiry, and by promoting reflection on what it 
means to be a citizen, studying the humanities fosters a civic 
ethos and helps illuminate the path through a virtuous civilian 
life.
    With the withdrawal from Iraq and the drawdown in 
Afghanistan, we need the support of the NEH now more than ever 
to meet the growing needs of returning veterans. The strength 
of our democracy depends on it.
    Thank you, Mr. Chairman.
    [The statement of Jesse Reising follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Moran. A terrific program. Maybe we can put a word in 
for it when we talk about NEH in the report. This is the kind 
of thing we like to hear about. It is a great initiative. Thank 
you.
    Mr. Calvert. Next, Mr. Waddell Stillman, Historic Hudson 
Valley.
                              ----------                              

                                          Thursday, April 10, 2014.

                         HISTORIC HUDSON VALLEY


                                WITNESS

WADDELL STILLMAN, EXECUTIVE DIRECTOR
    Mr. Stillman. Good morning. My name is Waddell Stillman. I 
am the President of Historic Hudson Valley. We are a regional 
history museum founded in 1951. We operate a network of 
national historic landmarks in the Hudson River Valley of New 
York, a National Heritage Area. Each year, 250,000 visitors 
come to our sites for tours, school programs and cultural 
festivals, helping to create jobs and drive tourism.
    The NEH has underwritten pivotal projects and leveraged 
significant private funding in our organization since the 
1970s. Just recently, the NEH support leveraged the largest 
programmatic grant in Historic Hudson Valley's history, 
$643,000 from the New York Community Trust. Neither this grant 
nor the resulting program, which is called Pretends to Be Free: 
Imaging Runaway Slaves, would have transpired without the 
validation of previous NEH support.
    Some 14,000 New York City public schoolchildren will take 
away powerful lessons from this program including many from 
Congressman Josee Serrano's 15th District, the poorest 
Congressional District in the Nation.
    But before I go any further, let's turn to the 18th 
century, a time when slavery thrived in both South and North 
and newspaper ads like the one I am about to read from appeared 
routinely. These ads are primary documents from our past, and 
soon they will serve as tools for teaching young people about a 
painful chapter in our Nation's history. From the New York 
Gazette September 30, 1762, I quote: ``Runaway last evening 
from his master, in Orange County, Johannes Blauveldt, 
blacksmith, a Negro fellow. He is about 5 and a half feet high, 
full faced, black hair, about 20 or 22 years old. He had been 
whipped the day before he went off, which may be seen pretty 
much on his right side. He pretends to be free. Whoever takes 
up and secures the said fellow, so that his master may have him 
again, shall have three pounds reward, and all reasonable 
charges paid by Johannes Blauveldt.''
    Imagine seeing such an ad today in any context, let alone 
in a New York daily newspaper. Imagine sitting in a 7th-grade 
classroom in the Bronx and seeing these words for the first 
time. What would your reaction be?
    Let me read to you the words of two students who 
participated in our pilot of the Pretends to Be Free program in 
Ossining, New York. Here I will quote from a statement by 
Kahlilah L.: ``The biases contained in an ad written by a slave 
owner affected me greatly in part because I am an African 
American myself. The ways they describe slaves were that they 
were like lost dogs, not as humans. And from Kahlilah's 
classmate, Kirsten S., ``Slavery is always associated with the 
South. Many fail to recognize that New York, a northern state, 
used to be the largest slave-holding state of the North during 
the 18th century. The way African Americans were treated, born 
into cruelty and unjust realities, looked down upon and not 
even recognized as humans, were all results of one genetic 
trait: their skin color.'' This summer we will train the first 
group of teachers to present Pretends to Be Free in New York 
City classrooms.
    Long before our first African American President took 
office and 12 Years a Slave won the Academy Award for Best 
Picture, the NEH recognized the importance of illuminating the 
history of slavery in the colonial North. Pretends to Be Free 
is among a number of programs that resulted from the NEH's 
investment in our multiyear effort at Philipsburg Manor. That 
is our living history museum located in Congresswoman Nita 
Lowey's 17th Congressional District, about 30 miles north of 
Manhattan.
    In the 18th century, Philipsburg Manor served as a trading 
outpost of one of the wealthiest New York City businessmen of 
his day and one of the largest slaveholders in New York State. 
Before the NEH made planning and implementation grants, this 
history went untold at Philipsburg Manor. We at HHV have this 
powerful history in our hands and yet we had not grasped it. 
The NEH decided to invest in this material at a time when no 
other funder would. NEH recognized this as a uniquely American 
story.
    The NEH's investment in our work has been strategic, 
forward thinking and collaborative. Our colleagues at the NEH 
have been hands-on, insightful partners. They have provided 
unwavering guidance on what at times was a rocky journey in 
presenting the difficult subject of slavery. Our experience 
offers a prime example of how early NEH support can be used to 
leverage additional funds and deepen an organization's reach in 
the community.
    All of us at Historic Hudson Valley urge fiscal year 2015 
funding for the NEH at the Administration's requested level. 
Thank you.
    [The statement of Waddell Stillman follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you, and we certainly thank all of you 
for your testimony. Any questions?
    Mr. Moran. No. It is all powerful testimony, and I happen 
to know Mr. Reising, and he is one of my son's closest friends. 
It is a terrific initiative that he has taken, but all of you, 
thank you for what you do.
    Mr. Calvert. Thank you, and I think we all agree that the 
National Humanities is an important program, so we will give it 
consideration.
    Thank you for your attendance. You are excused.
    We will ask the next panel to come forward: Mr. Ford Bell, 
President of the American Alliance of Museums; Ms. Pamela 
Hogan, Executive Director of Fender Center of the Performing 
Arts and a constituent from my home town, Corona, California--
you came a long way--Americans for the Arts. Next, Ms. 
Elizabeth Hughes, Deputy Maryland State Historic Preservation 
Officer, Maryland Historic Trust, the National Conference of 
State Historic Preservation Officers, and Mr. Thomas Cassidy, 
Jr., Vice President for Government Relations and Policy, the 
National Trust for Historic Preservation.
    Welcome. If you did not hear my opening statement, we are 
under a 5-minute rule. We have a lot of witnesses here today, 
and a getaway day, so I am probably a little stronger on the 
gavel than I would normally be but it is just the environment 
we are in today, so I apologize for that.
    But we thank you, and I now recognize Mr. Bell for 5 
minutes.
                              ----------                              

                                          Thursday, April 10, 2014.

                      AMERICAN ALLIANCE OF MUSEUMS


                                WITNESS

FORD BELL, PRESIDENT
    Mr. Bell. Chairman Calvert, Ranking Member Moran and 
Members of the Subcommittee, and Congresswoman McCollum from my 
home state, thank you for the opportunity to testify this 
morning. My name is Ford Bell. I am President of the American 
Alliance of Museums, the world's largest museum organization. 
The Alliance is proud to represent the full range of our 
Nation's 17,500 museums, which employ 400,000 people and spend 
more than $2 billion annually on educational programming.
    My written testimony requests funding for a number of our 
field's priorities including support for the Smithsonian 
Institution and the Save America's Treasures and Preserve 
America programs. But I will focus my comments this morning on 
the National Endowment for the Arts and Humanities and the 
Historic Preservation Fund.
    The National Endowment for the Humanities awards grants to 
nonprofit institutions including museums for educational 
programming and the care of collections. Last year, it made 123 
awards to museums totaling over $11.5 million and supported our 
State Humanities Council in every state and U.S. territory. In 
2012, those Humanities Councils supported over 3,000 events in 
museums and reached an audience of over 13 million people. By 
supporting these activities, NEH helps advance museums' roles 
as institutions of lifelong community learning and keepers of 
our cultural historic and scientific heritages.
    The National Endowment for the Arts provides direct federal 
funding to states' arts agencies and makes competitive grants 
to nonprofit arts institutes including museums. Last year, NEA 
made more than 130 awards to museums totaling over $4.6 
million. These grants help museums undertake exhibitions, 
publications, conservation, public art works, public 
programming, and more.
    For example, the Fender Museum of the Arts Foundation in 
Corona, California, received a $10,000 grant last year for its 
Kids Rock Free Museum Education program. They are going to 
elaborate on that, as you will hear more. The museum's program 
provides professional-caliber instrumental classes to low-
income and underserved students.
    Receiving a grant from the NEA confers prestige on 
supported projects, strengthening museums' ability to attract 
matching funds from other public and private funders. On 
average, each dollar awarded by the NEA leverages $9 from other 
sources.
    We urge the Subcommittee to provide at least $154.5 million 
each for NEA and NEH.
    There is one additional request related to NEH that will 
not involve appropriating one cent of extra money, which should 
be good. Since 1975, the NEA's Arts and Artifacts Indemnity 
program has allowed museums to apply for federal indemnity on 
major exhibitions, saving them roughly $30 million in insurance 
costs every year. The program has separate caps per exhibition 
and an overall limit for both international and domestic 
exhibitions, and Congress has periodically raised those limits, 
most recently in 2007. Museums report that the current caps are 
making it difficult to obtain indemnity on objects that would 
have been covered in the past, exposing them to increased 
insurance costs. As this problem grows, it will force museum 
exhibitions to limit their scope or fail to go forward. We join 
the Association of Art Museum Directors in urging the 
Subcommittee to include language increasing the limits for this 
program, which operates at virtually no cost to the taxpayer, 
having paid out just two claims over almost 40 years of 
existence.
    The State and Tribal Historic Preservation Offices carry 
out the historic preservation work of the Federal Government on 
state and tribal lands. Historic preservation is critical, not 
just to protect our heritage but to enhance local economies. 
Funds invested in building rehabilitation have been shown to 
create more jobs and more retail activity than those spent on 
new construction. In order to continue this important work, we 
request $50 million for the State Historic Preservation Offices 
and $15 million for the tribal offices.
    Thank you once again for the opportunity to testify this 
morning on behalf of the vital work museums are undertaking in 
your districts and across the Nation.
    [The statement of Ford Bell follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you, Mr. Bell, for your testimony.
    Next, Pamela Hogan with the Fender Center for the 
Performing Arts. Welcome, Pamela, all the way from Corona. You 
get the long-distance award, I think, so far.
    Ms. Hogan. Well, it is my pleasure to be here, especially 
at cherry blossom time.
    Mr. Calvert. Get the microphone over there, and you are 
recognized.
                              ----------                              

                                          Thursday, April 10, 2014.

                         AMERICANS FOR THE ARTS


                                WITNESS

PAMELA HOGAN, EXECUTIVE DIRECTOR, FENDER CENTER FOR THE PERFORMING ARTS
    Ms. Hogan. Thank you. So again, I am very pleased to be 
here at cherry blossom time. I feel that because you have so 
many people speaking to you today, that it might be better if I 
just play music for my 5 minutes.
    I think that the people that asked you to join you today 
wanted me to share what is so important about the NEA Challenge 
Grant that we did receive for our Kids Rock Free School of 
Music. The Fender Museum was started about 16 years ago under a 
public-private partnership, and Mr. Calvert would know that 
Fender Musical Instruments Corporation has a factory in Corona. 
Between the city and the newly formed nonprofit and Fender, we 
had a vision, or the founders had a vision of bringing not only 
museum exhibits about the legacy of Leo Fender but also sharing 
music education, and so the Kids Rock Free School of Music was 
born. Fender and Roland Corporation filled the rooms with 
instruments for the children, and today we still have many 
children coming in. It is a very noisy, active place. We love 
it. And the NEA Challenge Grant that we received helps us to 
serve more children. A few of the ways that it does that, I 
would like to share with how it has an impact with us.
    The credibility of NEA is bestowed on us when we receive 
grant funding, and that endorsement is something that is 
meaningful to the community, to the parents in our program, and 
NEA drives new opportunities. It allows us to serve more of 
these children who are unable to pay for lessons and whose 
families were affected by the high foreclosure rate in our 
area, the low unemployment, and so now, though, they are taking 
lessons, and I would like to share with you a story about one 
of our fee waiver students. Tyler is a drum student, and he 
used to play like this, his head down. He was very shy. And 
after lessons, after support from his teachers and being able 
to be in those classes because of the NEA grant, he now plays 
with pride. He told me the other day how he is developing his 
portfolio for his college applications. He will be the first to 
attend college in his family. These are the types of children 
that are at our center and thriving every day.
    The NEA grant does leverage other funds for us. It helps us 
involve the rest of the community. Parents volunteer for us. 
Other corporations like the Lucas Oil and MAV-TV in Corona are 
supporters of ours, and they are very pleased to be able to put 
music into kids' lives as the NEA does.
    I would also like to talk about how the NEA helps us build 
communities. We are a proud member of the Americans for the 
Arts and these types of organizations help us build 
relationships with other organizations, other arts 
organizations, including Arts Alive, a newly formed cultural 
arts council in Corona, and these relationships help us to 
build on those organizations that help support the economy. We 
employ local people, we buy from local merchants, and we bring 
people to our events and where they are spending money in our 
local economies and bringing support for local and state 
revenue. So we are very pleased to be a part of that whole 
cycle of arts organizations, and we are working very hard to 
use the NEA grant and leverage support for it in our community.
    We support the $155 million of funding for National 
Endowment for the Arts for fiscal year 2015, and again, I thank 
you for allowing me to come, and I would entertain any 
questions.
    [The statement of Pamela Hogan follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Great job, Pamela. We live in a great city, do 
we not?
    Ms. Hogan. Yes, we do.
    Mr. Calvert. Thank you for your testimony. We will come 
back to you.
    Elizabeth Hughes. Elizabeth is with the National Conference 
of State Historic Preservation Officers. You are recognized.
                              ----------                              

                                          Thursday, April 10, 2014.

      NATIONAL CONFERENCE OF STATE HISTORIC PRESERVATION OFFICERS


                                WITNESS

ELIZABETH HUGHES, DEPUTY MARYLAND STATE HISTORIC PRESERVATION OFFICER, 
    MARYLAND HISTORICAL TRUST
    Ms. Hughes. On behalf of the 59 State Historic Preservation 
Offices, which includes both states and territories, and SHPOs, 
for short, I want to thank you and members of the Subcommittee 
for your support.
    SHPOs operate under a one-of-a-kind federal-state 
partnership where the National Historic Preservation Act sets 
the policy and the states through the SHPOs administer much of 
the program on behalf of the Department of the Interior and the 
Advisory Council in Historic Preservation.
    The Historic Preservation Fund was created to provide the 
resources to state and tribal preservation offices to implement 
the program with states providing a minimum of 40 percent 
matching funds.
    The National Historic Preservation Program differs greatly 
from other conservation programs in that it is primarily one of 
assistance, not acquisition. The Federal Government does not 
own, manage or maintain responsibility for most of our historic 
assets. Instead, this program through the SHPOs provides 
individuals, communities, local and state governments and 
federal agencies with the tools they need to identify, 
preserve, maintain and utilize the historic assets important to 
them.
    SHPO responsibilities are diverse, and I will highlight 
just a few. Identifying and documenting America's historic 
places is a key element of the preservation program and one 
that is lacking at the current level of appropriation. I want 
to share with you just one example of why this activity is so 
important. In 2010, Colorado experienced its worst ever 
wildfire at that point in time in the Four Mile Canyon historic 
mining communities just west of Boulder. The wildfire resulted 
in the loss of numerous and undocumented historic buildings, 
which led the Colorado SHPO working with the Boulder County 
certified local government to find a historical and 
architectural survey that identified and documented the 
historic buildings that were spared. The survey was then used 
as a resource by the county, state and federal agencies to 
determine where to direct future hazard mitigation and in-slope 
stabilization efforts. This information was also used to ensure 
that the historic character of the surviving areas was 
incorporated into the rebuilding program.
    When tragedy struck again last year, this time in the form 
of massive flooding, thanks to the survey information already 
collected, the county, state and federal agencies were able to 
quickly direct resources to protect, stabilize and rebuild in 
this area. This is just one brief example of why having 
accurate, up-to-date and easily accessible information is 
imperative. Doing so also increases the efficiency of nearly 
all other projects that we work on from working with private 
industry on development to state transportation planning 
projects to federal large-scale energy projects. Every single 
project and the American people benefit from having this 
information at hand.
    A recent survey found that states estimate only 35 percent 
of their land area has been surveyed for historic buildings and 
structures and less than 10 percent has been surveyed for 
archaeological sites. SHPOs also estimate that only half of 
their inventory documents are digitized, and 75 percent 
reported they have 10,000 or more resources that are indeed of 
resurvey since the original survey has been conducted 20 to 30 
years ago.
    With these needs in mind, we are asking that in addition to 
the $50 million for SHPOs for operating funds, the Committee 
also provide $6 million a year in each of the next 10 years to 
survey inventory and digitally record our Nation's historic 
resources. This information would help expedite the historic 
preservation review process, called Section 1 of 6, another 
essential responsibility for SHPOs. Each year we review over 
250,000 cases and meet a 30-day review deadline. However, at 
least 100,000 of these cases are now handled through 
subagreements that increase efficiency, exempt routine 
activities and allow for standard treatments without review.
    SHPOs also conduct 90 percent of the review work for the 
Historic Tax Credit program, which since inception has created 
$109 billion in private investment, nearly 2.4 million jobs, 
and rehabilitated over 39,000 historic buildings.
    I want to thank the Committee for providing $500,000 for a 
focused initiative to recognize historic sites associated with 
underrepresented populations, and I request that the Committee 
consider increasing the amount to $5 million for fiscal year 
2015.
    We also support the request of $15 million for Tribal 
Historic Preservation Offices, and the request of our partners 
at the NEA and the NEH, which you have heard from earlier 
today.
    Lastly, in the next few years we will celebrate the 50th 
anniversary of the National Historic Preservation Act and will 
seek to reauthorize the Historic Preservation Fund. We look 
forward to working with the Committee to recognize these 
landmark pieces of legislation, which create American jobs, 
revitalize Americans' rural and urban environments, and 
preserve irreplaceable pieces of American history.
    Thank you very much.
    [The statement of Elizabeth Hughes follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you for your testimony.
    Next, Mr. Thomas Cassidy, National Trust for Historic 
Preservation.
                              ----------                              

                                          Thursday, April 10, 2014.

                NATIONAL TRUST FOR HISTORIC PRESERVATION


                                WITNESS

THOMAS CASSIDY, JR., VICE PRESIDENT FOR GOVERNMENT RELATIONS AND POLICY
    Mr. Cassidy. Thank you, Mr. Chairman and Members of the 
Subcommittee. I appreciate the opportunity to present the 
National Trust testimony on fiscal year 2015 appropriations. My 
name is Tom Cassidy. I am the Vice President for Government 
Relations. The National Trust is a privately funded nonprofit 
organization chartered by Congress in 1949. We work to save 
America's historic places.
    Before I highlight just a few elements of my written 
testimony, I do want to express our appreciation for Mr. Moran, 
who is not here now, but in the 15 years that I have had the 
privilege of working with the Subcommittee, Mr. Moran has been 
the one constant. There have been changes of leadership, a lot 
of change of staff, but Mr. Moran has always been here, and he 
has been a good friend, and the Nation's natural and historic 
resources have benefited from his leadership and the Nation is 
a better place because of his service. So thank you, Mr. Moran, 
my Congressman too.
    Elizabeth described very well the significance of the 
Historic Preservation Fund and gave a full description of its 
funding needs and opportunities. I wanted to thank the 
Committee and highlight one program that you funded for the 
first time in the fiscal year 2014 Omnibus, and that is a 
program to provide competitive grants for underrepresented 
communities to secure listings on the National Register of 
Historic Places and National Historic Landmarks.
    The National Register is the official list of the Nation's 
historic places worthy of preservation. Currently, there are 
86,000 entries included on the National Register. However, 
current estimates place the combined representation of African 
American, American Latino, Asian American, American Indian, 
Native Alaskan and Native Hawaiian sites on the National 
Register and less than 8 percent of all total listings. We 
would support an increase in funding for this competitive 
grants program to $5 million, which would begin to correct this 
imbalance and ensure that the stories of all Americans and the 
full spectrum of the Nation's cultural heritage are preserved 
in our system of historic places.
    I also wanted to touch briefly on the profound maintenance 
backlog challenge of the National Park Service, which you all 
know far better than I. But of the nearly $12.3 billion in 
deferred maintenance, $4.5 billion is for the maintenance 
backlog of 27,000 properties that are on the National Register. 
Without funding, the condition of these properties will 
continue to deteriorate and become even more expensive to 
repair in the future. We support the President's request for 
the Park Service construction budget, NPS operations, and also 
the request for the Department's youth programs, and I would 
like to highlight two small programs that have the capacity to 
bring additional private investments into the parks that can 
help abate this backlog.
    First, as part of the trust commitment to advance the goals 
of the 21st Century Conservation Service Corps, we have 
recently launched what we call the HOPE Initiative, Hands-On 
Preservation Experience, where we are training youth in 
preservation skills while helping to protect historic sites 
within park units. The first project has just been launched up 
in Shenandoah National Park, where with funding not from the 
Park Service but in this instance, the concessionaire, Delaware 
North, we are rehabilitating the historic Skyland Stables. We 
hope to launch 100 of these projects by the Centennial of the 
Park Service.
    Second, I would like to thank the Committee for including 
not only in the fiscal year 2014 report language but in 
previous years as well, you have highlighted the opportunity to 
use historic leasing to abate the maintenance backlog, and I 
would just underscore the significance of that. We have had a 
number of conversations with the Park Service. They are making 
progress, but there are continued opportunities to expand the 
use of leasing and bring significant private investment into 
the parks and make these places available to the public, which 
many of them are not now.
    So I would urge continued attention and oversight and 
engagement in this issue because it really is making a change. 
It is slow, it is going to take a while, but your continued 
engagement is making a real difference, and as I see my time 
has elapsed, I will stop now.
    [The statement of Thomas Cassidy follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you, and thanks to this panel.
    Pamela, I am just curious. How many students do you have 
now?
    Ms. Hogan. We have about 400 students come in, taking one-
hour-a-week lessons, in guitar, keyboard, drums and voice.
    Mr. Calvert. Well, it is a great program. I know that Mr. 
Miller is involved in that, Eric Clapton and a lot of the----
    Ms. Hogan. Correct. Steve Miller has been a big supporter 
of ours.
    Mr. Calvert. The next generation of rock and roll.
    Ms. Hogan. That is right. That is right.
    Mr. Calvert. For all us old guys up here, it is very 
important.
    Ms. Hogan. You would love it. They also play classic rock 
music. We enjoy it a lot.
    Mr. Calvert. Any questions for this panel?
    Mr. Simpson. Yes.
    Mr. Calvert. Mr. Simpson.
    Mr. Simpson. I do have a question. How come we have this 
poster over here that just shows a certain district in 
California. I do not see a map for Idaho's second CD or Utah's, 
or others.
    Ms. Hogan. You would probably see just as many arts 
organizations in those areas.
    Mr. Simpson. I know. I appreciate that, and there really 
are, and a lot of people do not understand the importance of 
the arts and what it does, and historic preservation is very 
important. I will give you a brief example. Back when we used 
to do those Congressionally directed spending things that some 
people called earmarks, I did some for a variety of things in 
Idaho, and one of them was to restore the Wilson Theater in 
Rupert, Idaho. If you have ever been to Rupert, Idaho, it is a 
town of about 3,000 or 4,000 people. They have a beautiful 
little community that has a park in the middle. It is one of 
those communities that, you know, all the businesses are around 
the park and everything, and the Wilson Theater was there, and 
it was a historic part of this community and it had been run 
down. If you see the pictures of it, it has been abandoned and 
they went in with a small grant from the Federal Government to 
start it, and all of a sudden the community got behind it and 
it was almost all done by private donations and private work by 
people there, and they have rebuilt this building and it is 
going to be a community center, and it is absolutely beautiful 
and brings back the history of it, and the other businesses 
around this square went wow, they are starting to shape this 
up, maybe we ought to do something with the fronts of our 
businesses, and all of a sudden you saw a whole community 
revitalized because of a small federal grant that started it 
all. That is the kind of impact it can have besides preserving.
    As I went through it and they were in the middle of 
rebuilding, some of the old guys that were there when it was a 
theater and stuff told me the stories about, yeah, I met my 
wife right up there in that dark corner. I mean, it is history, 
and I will tell you briefly before we move on, the guy said to 
me, one day a bunch of kids snuck into this theater and it was 
during a scary movie. One guy had a chicken under his coat. 
They went up in the balcony and they threw that chicken off the 
balcony in the middle of a scary part, and of course, on the 
screen it is flapping around, people are screaming and stuff. 
He said do you know who that kid was? I said no. He said Lou 
Dobbs. He grew up in Rupert, Idaho.
    Mr. Calvert. That explains it all. Okay. Well, I thank this 
panel. Thank you for your attendance.
    Ms. Pingree. Mr. Chair, can I sneak in here?
    Mr. Calvert. Oh, I am sorry. I apologize.
    Ms. Pingree. No, no, it is okay. I am so quiet down here.
    I just wanted to reinforce, I really love my colleague from 
Idaho's story because I was going to stay something somewhat 
similar. I am lucky enough to represent the State of Maine, and 
between this panel and the last panel, NEA, NEH, Historic 
Preservation is exactly the same kind of thing. They are often 
small amounts of money to help communities that are in a time 
of transition. Historic Tax Credits have been a huge boon for 
us in trying to preserve buildings that would otherwise have a 
hard time finding the investment, particularly in the arts. I 
represent a lot of fishing communities, and a somewhat similar 
story of one is that when the last sardine packing factory 
closed, people really thought it was going to be the end, and 
because of, I think, NEA money helping with, a little bit of a 
gallery. Most of the brick buildings on the street got 
restored. Lots of galleries, lots of restaurants, lots of 
attractions, and also other substantial businesses that have 
been able to continue and balance between the arts.
    I have been supporting this issue for 20 years since I was 
a state legislator, and I think because of the efforts of so 
many of you and other people just like your programs, people 
have completely turned around in my state. Where they used to 
think that arts money was sort of this like why should we 
bother with that, it is not our core mission in this state, we 
are manufacturing, fishing, farming, and now virtually every 
community has a sense of, if you can get just that little piece 
or that credit or preserve this historic site, it can have a 
huge economic impact, and people think about it very 
differently.
    So these resources are critically important. What we do at 
the federal level is extremely important, and I know my state 
is always looking for more. So thank you for all that all of 
you to.
    Mr. Calvert. I thank the gentlelady.
    Next, we are going to have our next panel: Mr. John Garder, 
Director of the Budget and Appropriations for the National 
Parks Conservation Association; Mr. Daniel Rice, President and 
CEO of the Ohio and Erie Canal Coalition, and a member of the 
National Alliance of National Heritage Areas; Mr. Eric 
Eikenberg, CEO of the Everglades Foundation; Mr. James 
Lighthizer, President of the Civil War Trust; and Mr. Ian 
Glick, Chairman of the United States Park Police Fraternal 
Order of Police.
    We are having votes going on, so Mr. Simpson is going to go 
vote and then he will come back and I will vote, and we will 
just kind of go back and forth as we go along on this. So I 
apologize if you see all this commotion going on.
    If Mr. Garder will take the mic, turn on the button and the 
light comes on, and we are on a 5-minute rule but we appreciate 
your attendance. You are recognized for 5 minutes, Mr. Garder.
                                          Thursday, April 10, 2014.

                NATIONAL PARKS CONSERVATION ASSOCIATION


                                WITNESS

JOHN GARDER, DIRECTOR OF BUDGET AND APPROPRIATIONS
    Mr. Garder. Thank you, Chairman Calvert. I appreciate you 
having me here. Ms. Pingree, Congressman Stewart, it is a 
pleasure. I am John Garder, Director of Budget and 
Appropriations with the National Parks Conservation 
Association. For nearly 100 years, we have been looking out for 
our national parks and the people who love and enjoy them. We 
have long enjoyed a good relationship with this Subcommittee 
and have been encouraged by your bipartisan work, and 
congratulate you on your Chairmanship position. I also want to 
commend your staff, Dave and Rick and others, who have been 
very helpful over the years.
    Our request for this year is $2.6 billion for the National 
Park Service, which essentially mirrors the President's 
appropriated request but rejecting his $9 million request for 
reduction in the National Heritage Area program. We have been 
encouraged that members of this Subcommittee and its Senate 
counterpart have expressed concerns about that cut.
    In particular, we are prioritizing the $47 million proposed 
investment in park operations as well as $10 million to the 
Centennial Challenge program. We know and respect that it has 
been a challenging time for this Subcommittee over the last few 
years, and you all have had a constrained allocation. That is 
part of why our board and council in their visits to the Hill 
yesterday encouraged support for the Wildfire Funding Act. That 
is something we recognize as very important to address the 
budgetary concerns that that has caused to constrain this 
Subcommittee as well as of course the need to address fire 
suppression without borrowing from accounts within the 
Department of the Interior and the Forest Service as well.
    I will note that I am also the Lead Coordinator the 
Coalition of Conservation and Environmental Groups, and in that 
position have sought the support of other groups for that 
Wildfire Funding Act and also have sought robust participation 
in letters to the full Committee here and in the Senate in 
order to encourage more a robust 302(b) allocation.
    Mr. Calvert. All of what you are saying is going to make 
Mr. Simpson very happy, and I think most of us all support 
that.
    Mr. Garder. Yes. Thank you.
    The sequester, of course, has been very damaging as well as 
the government shutdown. That has had an impact to ranger 
levels, to visitor resources. That was a damaging time and had 
an impact of course on the economies of local communities. As 
Congresswoman Pingree knows well, that had an impact to, for 
example, communities around Acadia National Park, and then of 
course, when the government shutdown came, that enhanced those 
economic challenges of the community of Bar Harbor and other 
communities. And so we hope that in fiscal year 2016 the 
sequester will not be returning because that was so damaging to 
our national parks and to the visiting experience. We hope as 
well of course that a shutdown will not reoccur but are 
encouraged that really damaging development did outline to the 
American public and to Members of Congress the vast economic 
importance of national parks, which we have outlined to you on 
a number of occasions, and I need not take your time again 
except to say at least that every dollar invested in the Park 
Service yields $10 in economic activity, which is an 
extraordinary return on investment.
    We are concerned, as many Members of Congress are, about 
the deferred maintenance backlog, which has developed over the 
years due to a number of things including reductions in park 
operations, transportation, which addresses half of the 
deferred maintenance backlog, as well as the reductions in the 
construction account, a reduction in half over the 4 years in 
today's dollars. So it is important for us to see that 
addressed.
    Director Jarvis testified to this Subcommittee last week 
that ranger levels just are not what they use to be and that 
the modest investment in park operations proposed by the 
President would restore some of those rangers so critical to 
cyclical maintenance of course which prevents the backlog from 
growing as well as to those visitors' services that have a 
direct connection to the economies of surrounding communities 
because they are so important to the visiting public.
    So of course, that investment in park operations would 
address fixed costs. It would get some of those rangers back 
and would start putting parks back, sending them back to where 
they need to be as we approach the Centennial of the Park 
Service but, of course, would not restore those ranger levels 
to where they need to be.
    We are encouraged that the President has sought legislation 
to address the deferred maintenance backlog in a more robust 
way. That builds on the Bush Administration's proposal for 
legislation that would have mandatory funding to address the 
deferred maintenance backlog and also a robust investment in 
the Centennial Challenge, which would be a wise investment in 
leveraging private dollars. We are excited about the 
Centennial. We hope Congress can build on that.
    In my closing comments as well, we are supporters of Land 
and Water Conservation Fund. I hope that that can be supported 
through legislation that would make that fund mandatory so that 
the vision of $900 million per year can be recognized.
    And finally, the Federal Lands Recreation Enhancement Act, 
we have been encouraged that Members of Congress have 
recognized the importance of reauthorization of that bill. It 
needs to be done, at least temporarily, by the end of this 
calendar year so that the Park Service can continue retaining 
those fees that are so important.
    Thanks for having me.
    [The statement John Garder follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you. Thank you for your testimony. Mr. 
Rice, you are recognized for 5 minutes.
                              ----------                              

                                          Thursday, April 10, 2014.

                  ALLIANCE OF NATIONAL HERITAGE AREAS


                                WITNESS

DANIEL RICE, PRESIDENT AND CEO, OHIO & ERIE CANALWAY COALITION
    Mr. Rice. Thank you, Mr. Chairman, Members of the 
Subcommittee. My name is Dan Rice, and I am President and Chief 
Executive Officer of the Ohio & Erie Canalway Coalition and Co-
Executive Director of the Ohio & Erie Canalway National 
Heritage Area based in Akron, Ohio. I am privileged to be here 
today to represent the 49 Congressionally designated National 
Heritage Areas and to speak in support of the National Park 
Service's Heritage Partnership Program.
    Before I address the fiscal year 2015 budget request 
pending before the Subcommittee, I would like to thank you on 
behalf of all the National Heritage Areas for your steadfast 
support over the past several years as well as the Subcommittee 
staff, particularly Dave and Rick. You have just been 
outstanding friends and supporters.
    We fully appreciate that without the backing of each and 
every one of you, we simply could not go it alone and most, if 
not all of what has been accomplished over the past three 
decades, would have been impossible.
    As many of you know from firsthand experience, National 
Heritage Areas have come to personify the model of public-
private partnerships that are vital to accomplishing the 
mission of the National Park Service. Each National Heritage 
Area works to develop dynamic partnerships among local 
governments, nonprofit organizations, corporations, foundations 
and others interested in conservation, resource development and 
interpretation as a means to greater community and economic 
development, and the fact is, these model collaborations work.
    Recent studies undertaken by the National Park Service 
verify that National Heritage areas are effective in conserving 
nationally significant resources and they are implementing 
their management plans with a high level of public engagement 
and that they are leveraging their federal funding with 
private, local and state resources by as much as five to one.
    Consider for a moment that National Heritage Areas create 
an overall annual economic impact on our communities of $12.9 
billion, that they directly support 94,000 jobs while another 
54,000 jobs are indirectly supported, and that National 
Heritage Areas are responsible for generating $1.2 billion in 
revenue paid into the Treasury in the form of payroll taxes, 
income taxes and business taxes.
    By almost any measure, the returns and benefits to our 
Nation and communities far exceeds the modest federal 
investment made by this Committee, and it is not just dollars 
and cents that define the value of a National Heritage Area. 
Indeed, as National Park Service Director Jon Jarvis has 
stated, National Heritage Areas strengthen, complement and 
support units of the national park system and are a vital part 
of the National Park Service mission.
    Unfortunately, Mr. Chairman, despite the nearly universal 
support for National Heritage Areas, the Administration has 
suggested that funding for this important program be 
significantly reduced. On behalf of the Alliance of National 
Heritage Areas, we think that recommendation would be a 
shortsighted mistake and one that would severely undercut local 
community and economic and conservation initiatives for 
virtually no savings at all whatsoever.
    Consequently, we urge the members of the Subcommittee to 
follow the past practice and retain full funding for the 49 
National Heritage Areas. As Director Jarvis has stated, 
National Heritage Areas are places where small investments pay 
huge dividends, providing significant benefits in communities 
across the country and in partnership with our national park. 
Working in partnership and collaboration with private, local 
and state partners, we are stimulating community and economic 
development, generating jobs and creating legacies for future 
generations.
    Mr. Chairman, I again thank you for this opportunity to 
testify this morning, and this concludes my prepared remarks, 
and I would be happy to answer any questions you may have.
    [The statement of Daniel Rice follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you for your testimony.
    Next, Mr. Eric Eikenberg, CEO of the Everglades Foundation.
                              ----------                              

                                          Thursday, April 10, 2014.

                         EVERGLADES FOUNDATION


                                WITNESS

ERIC EIKENBERG, CEO
    Mr. Eikenberg. Thank you, Mr. Chairman.
    Chairman Calvert, Ranking Member Moran, Members of the 
Committee, good morning, and thank you for this opportunity to 
testify today. My name is Eric Eikenberg, and I am the CEO of 
the Everglades Foundation based in Miami. We are a science-
based and research organization working toward restoring and 
protecting America's Everglades.
    I had the great honor of serving as Chief of Staff to your 
late colleague, U.S. Representative Clay Shaw, during his 26-
year tenure in Congress. Congressman Shaw was a champion of the 
Everglades. He authored the comprehensive Everglades 
Restoration Plan, which is the blueprint for restoring and 
protecting this vital ecosystem.
    We are also pleased that the members of the Florida 
Congressional Delegation on both sides of the aisle remain 
steadfast in their commitment to America's Everglades.
    We also recognize the vital work of this Committee. The 
Everglades Foundation deeply appreciates this Committee's 
ongoing support of Everglades restoration. During the past 20 
years, this Committee in a bipartisan way has done more than 
any other to advance the effort to restore and protect this 
national treasure.
    America's Everglades is an enormous and unique watershed. 
This special place encompasses numerous federal interests 
including 14 National Wildlife Refuges, two national parks, a 
National Preserve and National Marine Sanctuary. Everglades 
National Park is a crown jewel of the National Park Service 
that draws more than 1 million visitors and generates more than 
$146 million in visitor spending annually.
    I am happy to report also, Mr. Chairman, that Everglades 
restoration is working. All authorized projects are underway. 
Several significant projects are in the final stages and we are 
seeing success. The endangered Florida panther is returning to 
the Picayune Strand. Scientists report that the C-111 Western 
Project is already exceeding expectations, restoring freshwater 
prey fish and habitat for the American Crocodile and Roseate 
Spoonbill, all in just 1 year.
    The 2013 completion of a 1-mile bridge along Tamiami Trail 
is already improving water flow into Everglades National Park, 
resulting in a more vibrant and healthier natural wonder.
    These examples remind us that nature will rebound when we 
take steps to undo the damage. With your sustained commitment, 
the largest ecosystem restoration project in the world is 
poised for success in protecting 67 endangered and threatened 
species.
    As you consider fiscal year 2015 appropriations for the 
Department of the Interior, we ask that you invest in restoring 
America's Everglades at the level included in the President's 
recommended budget of $62.4 million. This will be money well 
spent. An independent report by the Mathers Economics Group 
found that for every dollar spent on Everglades restoration, 
there is a $4 return. Restoration provides thousands of jobs 
from construction workers to engineers. As work is completed, 
jobs are increased in the fishing, hunting, boating, tourism, 
real estate and other industries.
    I am also pleased to report, Mr. Chairman, that with the 
leadership of Governor Rick Scott and the Florida legislature, 
our state-federal partnership has renewed strength. Recently, 
Governor Scott matched National Park Service Director Jon 
Jarvis's $90 million spending plan with $90 million from the 
State of Florida to pay for the next 2.6 miles of Tamiami Trail 
bridging. Director Jarvis and Governor Scott should be 
applauded for working together and demonstrating a willingness 
to remove obstacles and to get the job done.
    While we have made significant progress, the greater 
Everglades ecosystem continues to suffer from projects not yet 
completed. During last summer, billions of gallons of polluted 
water were dumped from Lake Okeechobee into the St. Lucie and 
Caloosahatchee estuaries, causing environmental and economic 
devastation. Children were told to stay out of the water. The 
solution is within the comprehensive Everglades Restoration 
Plan and the funding needed to complete it. Sustained funding 
to keep restoration projects on schedule is critical to 
avoiding collapse of the ecosystem, the economy and the 
drinking water supply for 7.5 million Floridians and millions 
of tourists.
    The Everglades Foundation appreciates your continued 
support in restoring and protecting America's Everglades, and 
Mr. Chairman, just in my closing comments, on behalf of the 
Everglades Foundation Board of Directors, I want to thank the 
Ranking Member for his dedication and his tireless efforts on 
this project as well as Chairman Simpson and his leadership as 
the most recent Chair, and we look forward to working with you, 
Mr. Chairman, as we go forward.
    Thank you very much.
    [The statement of Eric Eikenberg follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you. Clay Shaw was a good friend of all 
of us who knew him.
    Next, James Lighthizer with the Civil War Trust.
                              ----------                              

                                          Thursday, April 10, 2014.

                            CIVIL WAR TRUST


                                WITNESS

O. JAMES LIGHTHIZER, PRESIDENT
    Mr. Lighthizer. Thank you, Mr. Chairman. I am Jim 
Lighthizer, as you said. It is my privilege to be President of 
the Civil War Trust, which is a private sector Civil War 
battlefield preservation organization. We have 50,000 members 
in every state in the union, and we have been around for about 
14 years.
    I am here to speak in support of the Civil War Battlefield 
Protection program, which has been authorized and reauthorized 
all the way back to 2002, and with respect to this program, 
this Committee has been very kind to us over the years, so I am 
here to say thank you as well.
    This program is somewhat unique in that the American 
heritage land that we seek to save has been defined by a 
committee of historians that the Congress appointed so the land 
we are seeking to save and have been saving over the last 14-
plus years is land that your agents said we ought to save, and 
we have been able to save under this program over 16,000 acres.
    The other thing that is special about this program, in my 
opinion, is that the people asking for the money--us--have skin 
in the game. It is a one-to-one match. So it leverages federal 
money one to one but it also requires the other half to come 
from someplace other than the United States government, either 
state governments, local governments and predominantly the 
private sector, and in 14 years we have raised over $130 
million, and a lot of it has gone to match the money in this 
program and it has helped us raise that money because of this 
match. So it has worked both ways.
    It is an effective program. In the end, you do not own the 
land--you being the Federal Government--you do not have the 
maintenance costs; we have the maintenance costs. We pay the 
taxes, et cetera. It is only from willing sellers. But the most 
important thing, Mr. Chairman and members of the Committee, is 
that this is our American heritage. This is the story of 
America, and this is what we are trying to save, and with this 
program, we have been able to be pretty doggone successful, in 
my opinion.
    And let me just conclude, I mean, obviously we would like 
full funding, which is $10 million. I also recognize having 
been on your side of the table once upon a time as a recovering 
politician and having people with unlimited needs and you 
having limited resources, I know you all will do the best you 
can. We are grateful. It has been a great partnership.
    I would also like to thank the former Chairman, Mr. 
Simpson, and the Ranking Member, Mr. Moran, two great guys that 
have been real friends of preservation, and I want you guys to 
know I appreciate it. So thank you.
    [The statement of O. James Lighthizer follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. I thank the gentleman. I am going to turn this 
over to Mr. Simpson for a few minutes while I rush down to the 
Floor to vote, and I will be back right away.
    Mr. Simpson [presiding]. Mr. Glick, you are up.
                              ----------                              

                                          Thursday, April 10, 2014.

               U.S. PARK POLICE FRATERNAL ORDER OF POLICE


                                WITNESS

IAN GLICK, CHAIRMAN
    Mr. Glick. Good morning. Thank you, Chairman Calvert, 
Ranking Member Moran, both of whom have just left, and 
Subcommittee members. Thank you for the opportunity to testify 
today. My name is Ian Glick. I am a police officer with the 
United States Park Police. I am also the Chairman of the United 
States Park Police Fraternal Order of Police representing the 
rank-and-file members of the U.S. Park Police.
    I am here to advocate on behalf of that rank-and-file 
membership and on behalf of a very important albeit small 
federal law enforcement agency, United States Park Police. I 
need to speak to you today about the critical need to replace 
one of the U.S. Park Police Aviation Unit's aging helicopters 
maintained by the National Park Service and to advise the 
members of this Subcommittee what we have identified as an 
important financial issue within this great agency.
    As the oldest one of the oldest uniformed federal law 
enforcement agencies in the United States, the Park Police is 
one of the few full-service federal law enforcement agencies 
with both federal and state authority. We serve not only the 
Washington metropolitan area, but also have field offices in 
New York City protecting the Statue of Liberty and Ellis Island 
and San Francisco. While we do not have the Golden Gate Bridge, 
we have the land on both sides of it, so that is probably an 
important factor. We are also deployed quite frequently to 
recovery efforts, most recently in New Jersey after Tropical 
Storm Sandy as well as in Louisiana after Hurricane Katrina.
    One of the areas requiring timely action is in the Aviation 
Unit of the U.S. Park Police. This unit provides aerial support 
to U.S. Park Police operations and is located just over a mile 
away from the U.S. Capitol in Anacostia. The U.S. Park Police 
have three helicopters: Eagle 1, 2 and 3, Eagle 1, purchased in 
1999; Eagle 2, purchased in 1989; and Eagle 3, purchased in 
1983. All three U.S. Park Police helicopters have surpassed the 
DOI replacement benchmark of 5,000 hours by wide margins and 
their flight readiness and operating safety may soon be 
compromised, if not already. Eagle 1 has 6,400-plus flight 
hours; Eagle 2 has 9,000 flight hours and Eagle 3 has nearly 
10,000 flight hours. On average, the unit logs more than 700 
hours of flight time per year.
    The Aviation Unit is the only fully functional, multi-
jurisdictional, multi-mission law enforcement aviation unit in 
the District of Columbia. Nobody else replicates what we do in 
D.C. It supports the Metropolitan Police Department, the 
Maryland State Police, public safety agencies in northern 
Virginia, the U.S. Secret Service, the U.S. Marshals Service, 
U.S. Capitol Police, the Department of State and other local, 
state and federal agencies as well as being an integral part of 
the Maryland State med-evac system.
    The Aviation Unit performs multiple missions including 
criminal searches, surveillance, med-evacs, search and rescue, 
escorts for the President and the Vice President and other 
dignitaries, and any terrorism missions. Again, we are the only 
med-evac, SWAT and rescue-capable aircraft in the District of 
Columbia.
    The Aviation Unit also provides air support for 
demonstrations and public gatherings such as the annual Fourth 
of July celebrations on the National Mall and Presidential 
inauguration, to name just two of the most notable.
    In addition, the unit provides air support for law 
enforcement activities specific to the Nation's capital such as 
clearing Occupy D.C. from McPherson Square and most recently 
the horrific shooting at the Navy Yard. The Aviation Unit has a 
wide range of missions due to its unique flight authority 
within the most restricted air space in the world coupled with 
a seven-day-a-week, 24-hour-a-day, 365-days-a-year mission.
    To meet these standards along with the 24/7/365 mission 
readiness, the Aviation Unit depends on having at least two 
fully mission-capable helicopters at all times. Both Eagle 1 
and 2 are twin-engine helicopters, Bell 412, whereas Eagle 3 is 
a single-engine aircraft used primarily for in-house pilot 
training and to accrue flight hours in a more affordable 
manner.
    I want to highlight the importance of having two fully 
mission-capable aircraft available. These helicopters often 
undertake very precarious missions such as low-altitude rescues 
over water or difficult terrain. A single-engine helicopter is 
unsafe in these conditions and cannot provide the torque and 
lift necessary to hover in orbit for long periods of time. To 
underscore this, the tragedy at the Navy Yard last fall is an 
example of the hazardous missions performed by the U.S. Park 
Police.
    Some of the more prominent missions you may be familiar 
with--Air Florida, 1998 shooting here in the Capitol, 9/11 
where Eagles 1 and 2 both controlled the airspace and med-
evacked the wounded from the Pentagon. The shooting at the Navy 
Yard this past fall further demonstrates the complexity of the 
missions performed by the Aviation Unit, and we would ask 
respectfully that Congress include $14 million in the National 
Park Service fiscal year 2015 budget to replace Eagle 2 with a 
new twin-engine Bell 412 or comparable mission-appropriate 
helicopter. Further, we would strongly oppose the National Park 
Service replacing Eagle 2 with a less costly single-engine 
helicopter inappropriate to the unit's mission. That would 
render the unit's ability to perform all of its mission nearly 
impossible.
    Thank you for your time today.
    [The statement of Ian Glick follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Why would you replace Eagle II instead of 
Eagle III?
    Mr. Glick. Sir, Eagle III is a much smaller aircraft out of 
the three, and because it is smaller, it consumes fuel at a 
much lesser rate. So by having this older aircraft that is on 
hand, we can use it for accrual flight time for pilots who may 
not have met the flight time required for that particular 
month. It is also used for doing training that might encompass 
other officers, and honestly, taking the 412s up is more 
expensive. It is just much more costly.
    Mr. Simpson. Did the President request this in his budget? 
Do you know?
    Mr. Glick. No, he did not, sir.
    Mr. Simpson. Okay. The National Park Conservation 
Association--sorry I missed you and your testimony. I am here 
now. Unfortunately they make us do that voting thing 
occasionally and it just screws everything up. But an important 
date is coming up with the centennial of the Park Service and 
so forth. It is interesting that the debate between the 
Everglades--it is not debate but if you listen to both 
testimonies, it kind of shows the challenges that we face.
    Park Service dedicates $90 million to Tamiami Trail. The 
number one backlog maintenance problem with the parks is roads 
and bridges for the national parks. I am not sure how much the 
Park Service gets out of the gas tax. Do you know? I do not 
know what the total is they get but that is up for 
reauthorization and that needs to get done. And if there is a 
way that we could bump the percentage up that they get to 
address both the backlog and the challenges, I mean I suspect 
the $90 million--well, this is new. That probably would not be 
part of a backlog issue.
    But that is the challenge we face in trying to do it and I 
support what you are doing in the Everglades and look forward 
to working with you on that. But we also have this issue so 
there are a lot of challenges trying to address limited 
resources and we have to figure out how we do that in this 
coming year and we have to make sure that we get that in the 
transportation bill that is being debated. So appreciate it.
    Heritage areas, we always have challenges to heritage 
areas. The expiration date runs and we extend those sometimes 
through appropriations. We have done several of those in the 
last few years and we always get challenged by our Resources 
Committee. It sometimes does not want us to do that but yet 
will not take up the reauthorizations. Where are we with the 
reauthorization of these?
    Mr. Rice. Mr. Simpson, basically they are still pending. We 
have legislation that has been introduced in the Senate to 
reauthorize 12 of the National Heritage areas that are 
basically up for sunsetting, but there has been no action in 
either the House or the Senate.
    And really, your comment earlier about the theater in Idaho 
is really a great example of where a limited role of the 
Federal Government can leverage tremendous amounts of local and 
private and state investment and it really makes a tremendous 
impact on the community. So I really appreciated your story. 
Although I do not have something as colorful as loving a 
chicken going to theater, but we have countless examples of 
projects like that throughout the country where a limited 
investment by the Federal Government has just made a tremendous 
impact on local communities. And really, it is generating jobs.
    Mr. Simpson. Yes.
    Mr. Rice. I mean that is the bottom line. It is all about 
community and economic development. Our project in Northeast 
Ohio, the highway in Erie Canal, it was built to transport 
goods, and by revitalizing that, as Congressman Joyce did with 
his tremendous support, we have been able to document about 
$300 million of community and economic development impact 
because of the project. And that is private money and that is, 
you know, putting taxes into our local treasuries as well as 
generating jobs.
    Mr. Simpson. Thank you.
    Well, Dave just told me we extended 12 areas by 2 years in 
the fiscal year 2014 omnibus, but there are others that come up 
all the time and we need to have a more ordered process of 
making sure we get the reauthorizations done so that actually 
we do not have to do those things in the appropriation bills, 
which, you know, anytime we step out of our lanes, it causes 
controversy and the interior bill has enough controversy 
without that.
    But, Jim, you may be the only person I know that actually 
served with Ulysses S. Grant. I am just kidding.
    Mr. Lighthizer. That was a cheap shot.
    Mr. Simpson. That was a very cheap shot.
    Thanks for all you do in preserving these historic areas of 
the Civil War and we enjoy working with you on that.
    Mr. Lighthizer. Thank you, Mr. Chairman.
    Mr. Simpson. Questions?
    Mr. Joyce. No, thank you, Mr. Chairman. And Dan did a nice 
job of just answering the question I was going to ask him. I 
apologize for being late, I was on the floor voting. Chairman 
Simpson beat me here.
    Mr. Simpson. I am nimble on my feet.
    Mr. Joyce. You are very quick. I will give you that. I 
appreciate all of you being here, especially Mr. Dan Rice and 
the hard work you are doing for the Ohio & Erie Canalway & 
National Heritage Areas.
    Mr. Simpson. Next panel, Mr. Dick Pedersen, Environmental 
Council of the States; William Becker, Executive Director of 
the National Association of Clean Air Agencies; Marlene 
MacEwan, Cancer Survivors against Radon; and John Calkins, 
Association of State Drinking Water Administrators.
    Mr. Pedersen, you are up first.
                              ----------                              

                                          Thursday, April 10, 2014.

                  ENVIRONMENTAL COUNCIL OF THE STATES


                                WITNESS

DICK PEDERSEN, PRESIDENT
    Mr. Pedersen. Thank you, Mr. Simpson, Chair Calvert, and 
Ranking Member Moran, and Members of the Subcommittee. Good 
morning, sir, and thank you for the opportunity to appear 
before you today to discussed the proposed fiscal year 2015 
budget for the U.S. Environmental Protection Agency.
    I am Dick Pedersen, Director of Oregon's Department of 
Environmental Quality, testifying as president of and on behalf 
of the members of the Environmental Council of the States, 
including your state, sir.
    States are on the front line of implementing programs 
authorized by Congress and delegated by EPA. States take this 
responsibility seriously and do this by using a combination of 
federal and state funding. Federal funding is provided to 
states through grants from the Environmental Protection Agency. 
This grant funding is critically important. The proposed net 
change to the fiscal year 2015 funding for states is an 
increase of $20.1 million nationally. While modest and 
acknowledging that the needs exceed this proposed allocation, 
states encourage Congress to provide this critical funding.
    I want to call your attention to five specific areas in the 
budget. First, there is a need for increased state flexibility 
in the dollars provided. A number of the proposed funding 
increases are accompanied by budget justification language that 
appears to limit states' ability to use these funds to respond 
to state priorities and needs. Two examples are directions to 
strengthen nutrient management efforts and directions to 
develop approvable state plans for reducing carbon dioxide and 
supporting state and local greenhouse gas permitting.
    While states may agree and appreciate funding for specific 
EPA priority efforts, states must have increased flexibility to 
budget for and implement work activities. Directed funding 
undermines state flexibility and needed support for ongoing 
every day environmental program implementation.
    The second specific area is the states' opposition to the 
proposed shifting of funding for work related to air quality 
from Section 103 authority where no state match is required to 
Section 105 authority where a 40 percent state match is 
required. This shift effectively reduces the amount of federal 
funds available to states to deliver clean air to all 
Americans.
    The third area is the need for key investments in 
electronic permitting and reporting. Many states and EPA have 
taken proactive steps to invest in electronic permitting and 
reporting. These systems allow information to be received, 
reviewed, and acted upon more quickly, serve to facilitate job 
creation, and create a more efficient and transparent 
government system while helping industry comply. The modern age 
of electronic infrastructure is certainly upon us and the 
regulated community and the public we serve desperately want us 
to come of age. Therefore, states urge you to fund the request 
for $25.7 million for the Environmental Information Categorical 
Grants to invest in state e-enterprise activities.
    Fourth, we have concerns over the rescission of state grant 
funds. The fiscal year 2015 President's budget request includes 
a $5 million rescission of unobligated federal funds intended 
for states. States oppose such rescissions. Rather, states seek 
maximum flexibility to work with EPA to reallocate these 
valuable funds to support important state environmental work.
    Finally, I want to underscore the importance of state-
revolving funds. The fiscal year 2015 President's budget 
request is proposed at $580 million less than fiscal year 2014 
enacted levels for the Clean Water and Drinking Water State 
Revolving Fund. These monies are a significant and critical 
funding source to assist communities of all sizes in meeting 
compliance mandates and creating jobs. It is also important to 
note that Drinking Water State Revolving Fund cuts translate to 
a loss of state personnel that provide drinking water 
protection to citizens by helping communities, particularly 
those rural communities that rely on this help.
    Mr. Simpson, Chair Calvert, and Members of the 
Subcommittee, I thank you for considering my testimony today in 
support of critical funding for states. I am happy to answer 
any questions that you might have. Thank you.
    [The statement of Dick Pedersen follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you, Mr. Pedersen.
    Next, Mr. William Becker, Executive Director of the 
National Association of Clean Air Agencies.
                              ----------                              

                                          Thursday, April 10, 2014.

           NATIONAL ASSOCIATION OF CLEAN AIR AGENCIES (NACAA)


                                WITNESS

S. WILLIAM BECKER, EXECUTIVE DIRECTOR
    Mr. Becker. Good morning, Mr. Chairman, Mr. Simpson. My 
name is Bill Becker. I am the Executive Director of the 
National Association of Clean Air Agencies, or NACAA. We are an 
Association of air pollution control agencies in 42 states, 
D.C., four territories, and 160 major metropolitan areas across 
the country.
    The Clean Air Act gives our members primary responsibility 
for implementing our nation's clean air laws and regulations. 
We have three major recommendations on the President's fiscal 
year 2015 budget. 1) Grants to state and local agencies under 
the Clean Air Act be increased $35 million above the 
President's request; 2) States and localities be provided 
flexibility as to how they spend that money so it is not 
targeted; and 3) as Mr. Pedersen said, that grants for 
monitoring fine particulate remain in Section 103 authority 
rather than 105 authority because of the matching requirements.
    I would like to touch on these three issues very quickly. 
First, with respect to the amount of the grants, the 
President's budget calls for increased funds, a net of $15 
million over fiscal year 2014 levels, and within this request, 
they are proposing a $24.3 million increase for new greenhouse 
requirements but a cut of $9.3 million for our core programs. 
These are the foundation of our air pollution control efforts. 
We are pleased that the Congress recognizes the importance of 
laying the groundwork for implementing these greenhouse gas 
emissions standards. These requirements, these guidelines are 
going to be complex, they are going to be resource-intensive, 
and they are going to be expensive. And they are going to 
require states and localities to collect emissions data to 
implement permitting programs, to continue to meet with 
stakeholders to make sure the guidelines are fair and 
equitable, and to begin developing implementation strategies.
    At issue, however, is that the President proposes to fund 
those activities with cuts out of our core implementation 
efforts, our core programs. And as I mentioned, the President's 
budget proposes to cut these programs by over $9 million. These 
programs are critical to our effort. The sad fact is that more 
people die or get sick from air pollution than from almost any 
other environmental or even domestic problem facing this 
nation. There are literally tens of thousands of people who die 
prematurely each year from air pollution and millions of others 
who suffer disease as a result of exposure to air pollution.
    Our members are working tirelessly and without sufficient 
resources to implement the Clean Air Act. On a day-to-day basis 
as part of their core programs, they are collecting emissions 
inventories, they are carrying out complex modeling, they are 
analyzing extensive data, they are developing state 
implementation plans, they are operating monitoring networks, 
they are conducting inspections, they are taking enforcement 
actions against noncompliant facilities, and they are issuing 
permits to the covered facilities, including some of the minor 
sources.
    We have struggled with insufficient resources for many 
years and while the Clean Air Act envisioned that federal 
grants to state and local agencies would fund up to 60 percent 
of the cost of our air pollution programs, in reality, the 
Federal Government has funded not the 60 percent but 25 
percent, and states have been forced to assume the remaining 75 
percent.
    A study that we conducted a few years ago identified a 
shortfall of $550 million in federal grants for state and local 
programs, and while we understand that Congress is not able to 
provide increases of that kind, even the modest increases we 
are requesting would really, really help. So we are asking for 
$35 million above the President's request not only to fund the 
greenhouse gas obligations but also to fund the core program 
initiatives I mentioned.
    Second, with respect to flexibility, we strongly believe 
that any increases we need for greenhouse gases and the core 
programs not be targeted but be allowed to be spent flexibly so 
that state and local agencies can spend the money where it does 
the greatest good. We think this is really important. If the 
state wants to spend it entirely on greenhouse gases and the 
EPA is okay with that, fine, but if an agency wants to spend 
most of its money on core program elements, then they should be 
able to do that.
    And finally, as Mr. Pedersen said, with respect to 
particulate monitoring, our recommendation will not cost the 
Federal Government one penny. It is merely to ask again that 
Congress retain the funding of the monitoring for fine 
particulate under Section 103 where no match is required rather 
than Section 105 where there is a match. We are concerned that 
if it is shifted, as the President's budget allows, many areas 
will not be able to meet their obligations.
    So in conclusion, we are asking for $35 million increase 
above the President's request, we are asking for flexibility in 
how to spend the money, and we are asking that monitoring be 
retained in Section 103.
    And I thank you.
    [The statement of S. William Becker follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. I thank the gentleman for his testimony.
    Next, Ms. Marlene MacEwan, you are recognized for 5 
minutes. You are with the Cancer Survivors against Radon.
                              ----------                              

                                          Thursday, April 10, 2014.

                CANCER SURVIVORS AGAINST RADON (CANSAR)


                                WITNESS

MARLENE MACEWAN
    Ms. MacEwan. I am. Thank you, Chairman Calvert and Members 
of the Committee. My testimony concerns EPA funding for the 
Radon Categorical Grants known as SIRG and the radon program's 
Environmental Program Management and Science and Technology 
budgets. I testify today on behalf of my beloved late husband 
Bob, who is no longer alive to speak out about radon. I also 
submit this on behalf of Cancer Survivors against Radon, a 
nonprofit educational organization that has not received grants 
from the U.S. EPA.
    Bob lost his battle to radon-induced lung cancer more than 
9 years ago. We had never heard of radon and that is a big part 
of the problem with the radon threats in America. Bob was 
diagnosed with late-stage lung cancer on July 24, 2003. He was 
a healthy 48-year-old father of four. We were devastated. How 
could this happen to us? He was rarely ever ill. His doctor 
estimated that the cancer had been in his body for 2 years, 
which allowed the cancer to widely metastasize. We were 
baffled. Bob had never smoked. But with some research, we 
learned that radon exposure is the leading cause of lung cancer 
among non-smokers. We bought a test kit at Home Depot for $12, 
including the lab test, and we tested our home.
    I called the EPA to ask about radon. I was told that the 
average radon level in our area in Lake Oswego, Oregon, was 1.8 
picocuries per liter, which is below the action level of 4 
picocuries per liter. However, our home tested at 57.2, more 
than 14 times the EPA action level. We had no idea.
    Losing my husband has been devastating. Our future together 
and with our family was gone in a moment. Bob lost everything 
and everyone, an awful tragedy that has taken its toll on all 
of us and will be with us for the rest of our lives.
    More radon awareness would have saved Bob's life, so why is 
the EPA closing down state radon programs? Bob could have lived 
if we would have known about radon. When we bought our house in 
1991, we did all the necessary tests and inspections that go 
along with real estate. Unfortunately, radon testing was not 
one of them. In fact, in 1991 it was not even offered to us as 
a possibility. One out of every 15 homes in the U.S. is 
estimated to have radon levels at or above EPA action level 
standards of 4 picocuries per liter, which is 8 million in 
total. Today, because of radon awareness, radon testing is 
often recommended as an optional test during the inspection 
process. Even with these recommendations, most homes go 
untested. Mandatory testing and mitigation is necessary for our 
homes and places of work and education to be safe.
    Bob lived for 15 months and 10 days after diagnosis. His 
death has been a major loss for me, my children, Bob's parents, 
his brother, and our one grandchild and friends. I now have 7 
grandchildren, 6 of which Bob will never be able to hold or 
share their lives. This tragedy could have been avoided.
    Lung cancer kills more people than breast, prostate, colon, 
and pancreatic cancer combined. Radon alone kills more 
Americans, about 21,000, each year, more than AIDS at 17,000, 
drunk driving at 10,839, drowning at 3,650, home fires at 
3,500, secondhand smoke at 3,400. Radon kills 55 Americans each 
day, twice as many women as breast cancer and three times as 
many men as prostate cancer.
    Contrary to the EPA budget rationale, the State Indoor 
Radon Grant program is not a redundant program and it is not a 
duplicative program. Given the EPA's radon program voluntary 
nature, SIRG is the only infrastructure that exists in the 
United States of America to prevent further tragedies like the 
one that has affected my family. It impacts other Americans at 
a rate of 21,000 deaths every year. I note that this mortality 
statistic, as cold and hard as it is, is based on outdated 
census data of only 260 million Americans.
    Forty-five state radon programs and up to 12 tribal 
programs rely on SIRG to support radon awareness and education 
of our citizens. Many programs provide free or low-cost test 
kits to citizens in immediate need who cannot afford to test. 
Stay radon programs work with community-based university 
extension services, and they also partner with organizations 
like the American Lung Association and other health and 
education services provided to make sure that consumer 
awareness is high and that they are able to find and locate 
trained service providers. This will be lost if SIRG is not 
funded.
    And in the unregulated states such as Minnesota and 
Colorado, SIRG funding provides the mechanism for the state 
Departments of Health to do outreach to citizens and assist in 
training and update certified radon professionals and to 
provide consumers with listings of those certified 
professionals. With technical support and their own staff and 
the support of industry, Minnesota and Maine, a regulated 
state, have created innovative policies for radon-resistant new 
construction, addressing the problem before a home is built. 
Maine, Ohio, and Illinois have enacted specific requirements 
that work to address the proper testing and mitigation of 
multifamily homes that adhere to the best practices of up-to-
date American national standards. Illinois, Michigan, and Ohio 
have created specific requirements for testing and fixing 
daycare centers. There are many more success stories.
    On behalf of the members of CanSAR and their families, 
especially those who can no longer speak to this issue, I 
specifically asked for the following: Radon Categorical Grants. 
For fiscal year 2015, EPA has proposed zero. That is absolutely 
nothing. I am opposing this cut and recommending that $14.5 
million be allocated to adjust for inflation. This request 
mirrors other requests that you will receive from the groups 
active on radon issues.
    Additionally, the Regional 11.9 FTEs that oversee SIRG were 
cut by EPA in its fiscal year 2014 submittal to Congress. The 
FTEs need to be reinstated if the SIRG funding is to be 
properly managed. We learned yesterday, verified by EPA, that 
the FTE was not loaded into the regional budgets for fiscal 
year 2014. Without the FTE to administer the grants and 
restoration of the radon grant funding can have no impact. 
Therefore, we bring this to the committee's attention and ask 
that the committee address it to ensure the EPA will indeed 
load a requisite FTE into the regional budgets to administer 
the Radon Categorical Grants for fiscal year 2014 and fiscal 
year 2015.
    I support the Environmental Program Management budget for 
fiscal year 2015, page 531, as submitted by the agency. I am 
also requesting that $75,000 be reinstated under the state 
program Science and Technology budget to ensure grants to 
establish U.S. STAR radon chambers to inter-compare with 
international STAR chambers to maintain quality assurance of 
reference for the national radon standard.
    Our nation needs this program to keep citizens informed. 
Please reinstate the cuts to SIRG programming and the regional 
support staff so that the states and tribes participating can 
do their job. Together, we can save lives.
    I do want to point out that these are people that have been 
members of CanSAR that are no longer members of CanSAR because 
they pass away from radon-induced lung cancer. This is the 
president of CanSAR. She is the cofounder of CanSAR and she 
lost her 10-year fight with lung cancer due to radon exposure 
in November of last year and we miss her dearly.
    And I would be happy to answer any questions.
    [The statement of Marlene MacEwan follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Well, thank you for your testimony.
    Ms. MacEwan. Thank you.
    Mr. Calvert. Thank you for your testimony and we are sorry 
for your loss.
    Ms. MacEwan. Thank you.
    Mr. Calvert. Next, Mr. Calkins, you are recognized for 5 
minutes.
                              ----------                              

                                          Thursday, April 10, 2014.

       ASSOCIATION OF STATE DRINKING WATER ADMINISTRATORS (ASDWA)


                                WITNESS

JOHN CALKINS, PRESIDENT
    Mr. Calkins. Thank you, Mr. Chairman, Committee Members. I 
am John Calkins, President of the Association of State Drinking 
Water Administrators, or ASDWA, and Administrator of the 
Arizona Drinking Water Program. ASDWA represents the state 
drinking water programs in the 50 states, the five territories, 
D.C., and the Navajo Nation in their efforts to provide safe 
drinking water to more than 275 million Americans.
    We respectfully request that for fiscal year 2015, the 
Subcommittee appropriate funds for three key programs at levels 
that help to ensure appropriate health protection for 
Americans. The first two involve dedicated funding for states; 
the third, the Drinking Water State Revolving Fund, includes 
funding for both infrastructure and state programs.
    States are responsible for ensuring compliance with federal 
regulations covering over 90 regulated contaminants for over 
155,000 regulated public water systems, but state activities go 
well beyond simply ensuring compliance at the tap. They 
administer very challenging multifaceted source-to-tap 
programs.
    Why are more funds needed for the Public Water System 
Supervision Program? The number of federal regulations continue 
to grow while at the same time federal funding support has been 
basically flat. State drinking water programs are now engaging 
critical phases of implementing a series of new and risk-based 
challenging water rules. States have often been expected to do 
more with less and have always responded with commitment and 
ingenuity.
    But state drinking water programs are in crisis. Simply 
put, insufficient federal support increases the likelihood of 
contamination events that puts the public health at risk. The 
fiscal year 2014 appropriated level for the PWSS program was 
$102 million, or about $2 million per state, at a level that 
has not appreciably increased for about the past decade. States 
recently identified an annual shortfall nationally of about 
$240 million between available funds and funds needed to 
administer their programs. We therefore respectfully request 
that Congress appropriate $200 million for the Public Water 
System Supervision Program to more appropriately account for 
the enormity of the tasks that are facing the states.
    This is why I flew in from Arizona today for this 5-minute 
opportunity to present this, our main request of you today. 
There are no other groups that you will be hearing from about 
this other than me in an aggregate, but please do not allow 
this lone voice to be drowned out in all the other worthy 
requests you will be hearing today. There is no more critical 
need than this, a relatively small increase to help ensure safe 
drinking water for all Americans.
    The state drinking water security responsibilities since 
the events of September 2001, as well as more recent 
experiences of devastating floods, droughts, hurricanes, and 
wildfires, states have taken extraordinary measures to meet the 
security and emergency response-related needs of the drinking 
water community. States have provided assistance, training, 
information, and financial support to their water systems. 
After 7 years of supporting the state security programs through 
a small grant of approximately $5 million in EPA's 
appropriation, no funds have been provided for this purpose 
since fiscal year 2009 and none were by the Administration for 
fiscal year 2015. ASDWA respectfully requests $10 million in 
fiscal year 2015 funding for the state security initiatives.
    The Drinking Water SRF program, the primary purpose of the 
Drinking Water State Revolving Loan Fund or DWSRF is to improve 
public health protection by providing loans to improve drinking 
water infrastructure, thereby facilitating water system 
compliance with drinking water regulations. The payback on the 
investment in the program has been exceptional. $16 billion in 
grants and $2 billion in American Recovery and Reinvestment Act 
funds since 1997 have been leveraged by states into nearly $24 
billion in infrastructure loans for projects that have improved 
public health protection for millions of Americans.
    State drinking water programs have also used the DWSRF 
funds to support technical assistance and training needs of 
their drinking water systems. Up to 31 percent of these funds 
can be set aside for that purpose.
    More funds are needed for the Drinking Water SRF program. 
The Drinking Water SRF program request in the President's 
budget exhibited a downward trend. $750 million was requested 
for fiscal year 2015 versus $909 million appropriated by 
Congress in fiscal year 2013. At the same time, EPA's most 
recent need survey indicated that drinking water system needs 
totaled $384 billion over the next 20 years. ASDWA respectfully 
requests $1.3 billion in fiscal year 2015 funding for the 
Drinking Water State Revolving Fund program.
    In closing, a number of incidents in the U.S. over the past 
several years have led to illnesses or deaths from unsafe 
drinking water serve as stark reminders of the critical nature 
of the work that state drinking water programs do every day and 
the dangers of inadequately funded programs. Vibrant and 
sustainable communities are dependent on safe and adequate 
water supply of drinking water. A strong state drinking water 
program supported by the federal-state partnership will ensure 
that the quality of drinking water in this country will not 
deteriorate and will in fact continue to improve so that 
Americans can be assured that a glass of water is safe to drink 
no matter where they travel or live.
    Thank you.
    [The statement of John Calkins follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. I thank the gentleman for his testimony.
    There are questions, I am sure.
    One thing, Mr. Becker, my area in Southern California is 
probably the most regulated air in the country, I suspect, and 
rightfully so. We have had a significant air issue over the 
many years. Matter of fact, my close friend and colleague wrote 
to the South Coast air quality board, Jerry Lewis, back in the 
day, back in the 1960s. It has been a bipartisan effort over 
the years to clean up air in Southern California.
    But one of the more successful programs that is supported 
by Senator Feinstein, myself, and many others is the DERA 
program and it has remarkable results. You know, around here we 
spent a lot of money on the studies and endless reports and so 
forth, but when we have a real program that takes a dirty truck 
off the road and replaces it with a truck that has 90 percent 
less particulate, 2.5, and a significant improvement on ozone, 
why would EPA ask to eliminate or zero out the program?
    Mr. Becker. Is that a rhetorical question?
    Mr. Calvert. Rhetorical, yes. I am going to get a little 
feedback here.
    Mr. Becker. Okay. So if I had more than 5 minutes of 
testimony and more than 4 pages, we would have had probably 
half a page on DERA because we worked on legislation. We were 
very supportive. It leverages $1 for every $7 in benefits. It 
ameliorates much of the diesel particulate black carbon problem 
and it makes a lot of sense to fund. I can only guess that it 
is such a popular program and bipartisan that possibly EPA may 
just assume that there is a support here to fund it on top of 
everything else.
    Mr. Calvert. Yes. You are probably right.
    Mr. Simpson.
    Mr. Simpson. Could you tell me what the difference between 
Section 103 authority and Section 105 authority is other than 
the 40 percent match?
    Mr. Becker. There are a few differences. Section 105 
authority is meant for more the day-to-day implementation 
efforts. Section 103 is used in large part for monitoring for 
research, for development. They are very closely related and 
there is probably some intermingling, but the states get 
generally get funded out of 105, although the fine particulate 
monitoring network has always been in Section 103.
    Mr. Simpson. Okay. And the reason I ask that is because we 
have had tribes testifying the last few weeks and the issue of 
radon came up with the tribes and the fact that one of the 
challenges is that the 40 percent match and also in these very 
rural areas, the tribes can't come up with a 40 percent match 
to do anything about it. And they were wondering and I was 
wondering if there is some program that allows a reduced match 
rate in various areas depending on economics where we have done 
that with some other programs. And I do not know if there is or 
not but that is something that we will be looking into.
    And let me just say that, you know, the challenge is this. 
And I am sure you know this and you have probably all heard of 
it before. We talk about state revolving loan funds. I love 
them. I think they do a great job, but they are inadequate. 
They are inadequate if we put another $1 billion into it. They 
are inadequate if we put another $10 billion into it. The 
reality is we fund for drinking water and wastewater probably, 
what, $2 billion in our bill, something in that neighborhood, 
$2.5 billion in our bill matched by state, right, at some 
level. So if you took all of what local governments and states 
are putting in and what the Federal Government is putting in, 
what, a year, maybe 5, 6, $7 billion nationwide. We have got a 
$700 billion backlog. This means in 350 years we can address 
the backlog that exists today. And it might be even higher than 
that if you ask the American Society of Civil Engineers--who 
are going to testify next--it might even be higher than that.
    The problem is is it puts huge pressure on a budget with 
limited resources here and we talk about increasing it by $100 
million more or $300 million more. We can't do that. It puts a 
lot of pressure on the rest of the budget to do that and it 
does not fix the problem. And somehow we have got to come up 
with a better way to fund the infrastructure of this country 
and wastewater and water systems is one of them. And I do not 
know how we do that but it is going to take all of us putting 
our heads together and finding a different way to do it because 
we are not doing it now.
    Anyway, I appreciate you all being here today. I look 
forward to working with you on these challenging infrastructure 
issues that we face and we hope to address the radon issue 
across this country.
    Thank you.
    Mr. Calvert. Just one last comment on radon, we think that 
it is in particular areas and obviously sometimes it can be in 
particular houses in a neighborhood and no rhyme or reason to 
where that may be located. So we need to take a serious look at 
how we deal with this in the future. So we appreciate your 
testimony.
    Thank you for your attendance. You are excused.
    We will now introduce the next panel.
    Mr. Brian Pallasch, American Society of Civil Engineers; 
Ms. Ruth Hubbard, the National Rural Water Association; Mr. 
Chad Lord, the Healing Our Waters-Great Lakes Coalition--I 
figure Mr. Joyce and Ms. McCollum ought to be here for this--
and Dr. Robert Wiedenmann, former president of the 
Entomological Society of America.
    Are we all here? Okay.
    We are on the 5-minute rule. You have probably heard of 
that. We are trying to, because of time limitations today, 
enforce that. So we appreciate your indulgence.
    And with that, Brian, you are recognized for 5 minutes.
                              ----------                              

                                          Thursday, April 10, 2014.

               AMERICAN SOCIETY OF CIVIL ENGINEERS (ASCE)


                                WITNESS

BRIAN PALLASCH, MANAGING DIRECTOR, GOVERNMENT RELATIONS & 
    INFRASTRUCTURE INITIATIVES
    Mr. Pallasch. Thanks, Mr. Chairman. Mr. Simpson, good to 
see you.
    My name is Brian Pallasch. As was stated, I am the managing 
director of Government Relations and Infrastructure Initiatives 
for the American Society of Civil Engineers. I am pleased to be 
here today to talk to you about the EPA budget and the USGS 
budget.
    Unfortunately, the President's proposed budget for EPA 
continues the Administration's unfortunate trend of 
shortchanging critical public health infrastructure. As has 
already been stated I think a few times, the President proposes 
to reduce spending on drinking water and wastewater 
infrastructure from nearly $2.4 billion enacted in fiscal year 
2014 all the way down to $1.75 billion in this coming year. It 
is about a 25 percent cut in funding that we need for our aging 
water infrastructure, as you so eloquently put.
    ASC's 2013 report card, which we released last year, gave 
the nation's wastewater and drinking water system the identical 
grades of D, which is a slight improvement from a couple years 
ago when it was a D minus, and that would be near failing, so 
that is progress, not great progress but it is moving in the 
right direction.
    However, we know this has impacts on our nation's bottom 
line. In 2011 we actually released a comprehensive study on the 
potential economic cost to the nation if we do not start 
investing in our water infrastructure. The Failure to Act 
reports determined that current investment in water 
infrastructure systems are not able to keep up with the current 
need. We found that if current investment trends persist, by 
2020 the anticipated capital funding gap will grow to more than 
$84 billion. This investment gap may lead to $147 billion in 
extra costs for businesses and a further $59 billion cost for 
households. In the worst-case scenario in that year 2020 the 
U.S. can lose almost 700,000 jobs due to this bad water 
infrastructure.
    The average annual effect on the U.S. economy is expected 
to be $416 billion in lost GDP by 2020. Not investing in our 
water infrastructure ultimately means future cost to households 
and businesses. A water main break, of which there are nearly 
240,000 a year or about 700 a day--I did not break that down to 
the hour but it is quite a few--it not only disrupts traffic 
but shuts down businesses and commerce. A water main break can 
also impede emergency response and damage other critical 
infrastructure.
    Although America spends billions on water infrastructure 
investment every year, drinking water systems still face an 
annual shortfall of at least $11 million in funding every year, 
and that is needed to replace aging facilities that are near 
the end of their useful life and to comply with existing and 
future federal regulations.
    The investment shortfall for wastewater is similar and it 
has been estimated to be nearly $300 billion over the next 20 
years. These shortfalls actually do not account for any growth 
in demand for drinking water and wastewater over those next 20 
years, which is part of the troubling part of the equation 
here. Nevertheless, EPA's drinking water budget, as the 
gentleman said on the last panel, for fiscal year 2015 is only 
$757 million for the SRF program. That is a 16 percent decline.
    The clean water budget is even more dire. It is slated to 
get $1 billion next year for the clean water SRF, which is 
about a 30 percent cut from the fiscal year 2014 enacted 
amount. We recognize that Congress is dealing with fiscal 
issues if you will and a growing federal debt and deficits, but 
the remedies for these problems must not come at the expense of 
programs aimed at protecting our public health from the dangers 
of increased contamination in our rivers, lakes, and streams.
    We are recommending, although a little bit difficult, $2 
billion for the clean water SRF and $1.5 billion for the safe 
drinking water SRF in fiscal year 2015.
    For the U.S. Geological Survey, which is one of the 
nation's foremost science agencies, they produce scientific 
data that is essential for the protection of the quality of 
economically vital water resources, for the prediction and 
monitoring of natural hazards, and for dozens of other 
critically important technical needs.
    The Administration's budget is a little bit of an increase 
in this area. It is up about 4 percent from last year to 1.073 
billion to get you the last decimal there. We are encouraged 
that the fiscal year 2015 request includes $210 million for the 
agency's water programs. That includes some modest increases 
for stream gauges that would enhance our ability to monitor 
high priority sites sensitive to drought, flooding, and 
potential climate change impacts. The USGS operates 
approximately 7,000 gauges nationwide. These gauges provide 
real-time data which is used for flood and drought prediction, 
recreation, and infrastructure planning. Our members use those 
things every day and they give me interesting stories about how 
they use them for planning bridges and other things.
    The budget proposes $120 million for the agency's natural 
hazard programs that assess the nation's exposure to 
earthquakes, volcanoes, landslides, wildfires, and other 
hazards. We support the President's request in this area.
    And I will stop now and be happy to answer any questions.
    [The statement of Brian Pallasch follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Great. Thank you, Brian. I appreciate that.
    Next, Ms. Ruth Hubbard, Executive Director of the National 
Rural Water Association.
                              ----------                              

                                          Thursday, April 10, 2014.

                    NATIONAL RURAL WATER ASSOCIATION


                                WITNESS

RUTH HUBBARD, EXECUTIVE DIRECTOR, MINNESOTA WATER ASSOCIATION
    Ms. Hubbard. Chairman Calvert, Ranking Member Moran, Mr. 
Simpson, Members of the Subcommittee, thank you for the 
opportunity to discuss EPA funding directed by this 
Subcommittee to help small and rural communities comply with 
federal rules under the Safe Drinking Water Act and Clean Water 
Act. My name is Ruth Hubbard. I am the Executive Director of 
the Minnesota Rural Water Association representing over 950 
small and rural communities that must comply with all EPA 
regulations and have a very important primary responsibility 
for supplying the public with safe drinking water and 
sanitation every second of every day.
    My purpose in appearing before you is to explain the 
importance of providing small and rural water and sewer systems 
with training and technical assistance necessary to comply with 
the ever-expanding federal requirements. Of the billions of 
dollars provided to the EPA by this Subcommittee every year, 
small and rural communities will tell you that they see and 
feel the most benefit from the dollars provided to onsite 
technical assistance initiatives. We urge Congress and this 
Subcommittee specifically to ensure that EPA follows 
congressional intent by including the operative provisions of 
H.R. 654, the Grassroots Rural and Small Community Water 
Systems Assistance Act, in your 2015 bill and fully fund the 
authorized amount.
    Over 94 percent of the country's drinking water supply 
serves populations under 10,000 persons. These small 
communities want to ensure quality drinking water. Local water 
supplies are governed by people who are locally elected and 
operated by operation specialists whose family drinks the water 
every day.
    When it comes to providing safe water and compliance with 
federal standards, small and rural communities have a difficult 
time due to the limited customer base and lack of technical 
resources and staff. As a result, the cost of compliance is 
often dramatically higher per household. The smallest town in 
Minnesota has to comply with the same regulations as the Twin 
Cities or Los Angeles, both of which have entire engineering 
departments. My main point here is that communities do not need 
to be told they have to comply; they need to be shown how to 
comply in the most cost-effective manner.
    For example, in the city of Herman, Minnesota, with only 
117 homes, here is how this assistance works. The city was 
having problems with excess rainwater entering the collection 
lines and overloading the sewer system. The city was very close 
to being fined when a technician visited onsite, calibrated the 
lift station to get accurate flow readings, discussed the 
overloading problem, and gave the operator a plan to solve it. 
The city implemented the plan and avoided the fine, returning 
to compliance and was able to reduce the amount of wastewater 
entering the plants, thus saving them additional dollars in 
avoiding an expensive upgrade. This example is being repeated 
in hundreds of communities each week thanks to the funding 
provided by this Subcommittee.
    In closing, I will highlight the very positive policy 
provisions this Subcommittee has included in the EPA budget in 
the last few years. First, please continue to increase funding 
for the state revolving funds. These are critical to help meet 
the demand for water project funding in all communities, often 
created by compliance costs.
    Second, we are very appreciative of the Subcommittee's SRF 
policy on ``forgiveness of principle'' directed to disadvantage 
communities. This is a critical issue for the most burdened 
communities.
    And finally, we urge you to resist calls for the new water 
infrastructure programs and policies such as the proposed WIFIA 
legislation that will result in more public water subsidies 
being available for private profit-making corporations and more 
financially sound communities and will result in the EPA water 
infrastructure subsidies moving from the neediest communities 
to a handful of more financially strong communities.
    Thank you, Mr. Chairman and Members of the Subcommittee. I 
am eager to respond to any questions.
    [The statement of Ruth Hubbard follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thanks to the lady for her testimony.
    Chad Lord, you are recognized for 5 minutes.
                              ----------                              

                                          Thursday, April 10, 2014.

                HEALING OUR WATERS-GREAT LAKES COALITION


                                WITNESS

CHAD LORD, POLICY DIRECTOR
    Mr. Lord. Thank you, Mr. Chairman, Ranking Member, and 
Members of the Subcommittee. It is an honor to provide this 
testimony about our Great Lakes.
    My name is Chad Lord and I am the policy director for the 
Healing Our Waters-Great Lakes Coalition. Our coalition joins a 
bipartisan group of over 50 Members of Congress and Senators in 
asking you to support $300 million for the Great Lakes 
Restoration Initiative in fiscal year 2015. We deeply 
appreciate the trust that you have shown the region over the 
last 4 years and ask you to maintain this support.
    Thirty million people rely on the Great Lakes for their 
drinking water and the entire country benefits from the 
commerce that depends on these waters. We recognize that the 
Federal Government is our partner in an endeavor to help heal 
the lakes through undertaking one of the world's largest 
freshwater ecosystem restoration projects.
    Nongovernmental groups, industries, cities, and states are 
forging public-private partnerships to clean up toxic hotspots, 
restore fish and wildlife habitat, and combat invasive species. 
We do this work because cleaning up the Great Lakes is critical 
for the health and quality of life of the region. It also 
drives economic development in communities all around the 
basin.
    Our nation's efforts to clean up the Great Lakes also 
create jobs. These jobs include wetland scientists, 
electricians, engineers, landscape architects, plumbers, truck 
drivers, and many others. One hundred and twenty-five jobs were 
created for a project to restore fish and wildlife habitat in 
Michigan. One hundred and seventy-four jobs were created--some 
of which were filled by at-risk youth--to remove dams and other 
barriers in the Milwaukee River system.
    A more specific example is the story of Jim Nichols of 
Carry Manufacturing in Michigan. I met Jim last year. He told 
me how the GLRI projects were adding new orders for his 
manufacturing business. Their employees are being kept busy 
building submersible pumps for GLRI projects that flood duck 
habitat or drain areas to reestablish native habitat for sport 
fishing. The jobs go up when you begin counting the men and 
women at other companies who manufacture the pipes to the 
pumps, the control structures in which the pumps are housed, 
and the hunters and anglers and wildlife watchers that benefit 
from the improved environment the pumps helped create.
    And the job of restoring the lakes is producing results. A 
Pennsylvania area of concern was delisted last year, the first 
since 2006, and a second U.S. AOC since they were established 
in 1987. Between 2010 and 2013, 29 beneficial use impairments 
at 13 AOCs were removed, more than tripling the total number 
removed in the preceding 22 years.
    Based on Fish and Wildlife Service monitoring, GLRI-
sponsored actions are increasing self-sustaining populations of 
native species important to the Great Lakes. For example, 
efforts in the Saginaw River watershed have contributed to now 
self-sustaining quality populations in the Saginaw Bay, 
Michigan.
    Our coalition has documented more than 100 specific 
restoration success stories like these across the region, which 
you can find at our website at www.healthylakes.org.
    How the region is accomplishing this work is as impressive 
as what we are doing. The GLRI as a model for large landscape 
scale restoration. It ensures that the focus remains on the 
highest regional priorities that were identified through our 
1,500 person stakeholder process in 2005 that produced our 
restoration blueprint. It also provides an outlet for the U.S. 
to meet its obligations under the new Great Lakes Water Quality 
Agreement with Canada.
    Additionally, the GLRI sought to fix problems the 
Government Accountability Office identified in 2003 when it 
complained that there was inadequate coordination among federal 
agencies and between federal and nonfederal stakeholders. The 
GLRI lets federal agencies quickly convert their funding to 
supplement restoration activities through existing authorized 
programs. This allows for funds to move quickly through 
interagency agreements onto the ground. The GLRI provides an 
orchestra leader, accelerates progress, and avoids potential 
duplication of effort, all of which help save taxpayers money 
while focusing efforts on the highest consensus-based 
priorities.
    Unfortunately, the health of the Great Lakes continues to 
be seriously threatened by problems such as sewage overflows 
that close beaches, and while we have cleaned up 2 AOCs, there 
are still 27 more to go. Algal blooms in Lake Erie and other 
lakes still result in canceled charter boat tours, closed 
beaches, and threaten public health. Our work is not done.
    First, please maintain support for the Great Lakes 
Restoration Initiative. Second, please remove all doubt that 
the region is on the right path and pass legislation that 
specifically authorizes the GLRI. Currently, EPA is using 
existing authorities coupled with legislative language that you 
provide as a statutory basis for its coordinating role. 
Legislation like Representative David Joyce's will create 
greater certainty for the program and allow everyone to focus 
on getting the job done.
    And lastly, we feel we need a better coordinated effort 
around research monitoring and assessment. Please ensure that 
the region's scientists are engaged in producing and helping 
implement, coordinate, and better communicate all the federal 
and nonfederal research, monitoring, and assessment that is 
already ongoing and also required as necessary for future 
success.
    Thank you again for the opportunity to share our views with 
you. The GLRI is delivering results. More work remains to be 
done. Cutting funding now will only make projects harder and 
more expensive the longer we wait.
    I yield back.
    [The statement of Chad Lord follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson [presiding]. Thank you.
    Mr. Wiedenmann.
                              ----------                              

                                          Thursday, April 10, 2014.

                    ENTOMOLOGICAL SOCIETY OF AMERICA


                                WITNESS

ROBERT N. WIEDENMANN, FORMER PRESIDENT
    Mr. Wiedenmann. Thank you, Mr. Simpson, Mr. Stewart. Thank 
you for the opportunity to testify. Good morning to you.
    My name is Robert Wiedenmann. I am the head of the 
Department of Entomology at the University of Arkansas, and 
there I work on biological control of insects and weeds, 
invasive species.
    But I am here today in my role as past president of the 
Entomological Society of America, or ESA. With nearly 7,000 
members, ESA is the largest organization in the world that 
serves the scientific and professional needs of entomology. On 
their behalf, I am here to request robust fiscal year 2015 
appropriations for the U.S. Department of Agriculture Forest 
Service and the U.S. Environmental Protection Agency, which 
carry out critical entomological-related activities.
    Advances in forestry and environmental sciences, including 
the field of entomology, help protect against threats that 
impact our nation's economy, public health, and food security. 
The Forest Service forest and rangeland research budget 
supports the development and delivery of scientific data and 
innovative technologies to improve the health, use, and 
management of the nation's forests and rangeland. Within forest 
and rangeland research, the invasive species program area uses 
scientifically based approaches to prevent the introduction and 
reduce the spread of the impact of invasive insects and weeds, 
which have serious economic and environmental consequences for 
the nation. One species alone, the emerald ash borer, costs 
Americans nearly $5 billion a year in direct costs.
    ESA strongly opposes the proposed cuts to forest and 
rangeland research that are in the President's fiscal year 2015 
budget request, especially the 8 percent reduction of funding 
for invasive species research and development.
    ESA also requests continued investment in the Forest Health 
Management Program within the Forest Service, which conducts 
critical mapping and surveys on public and private lands to 
monitor and assess risks from potentially harmful insects, 
diseases, and invasive plants. The program also provides 
assistance to state and local partners to help prevent and 
control outbreaks that endanger forest health.
    For the Environmental Protection Agency, ESA requests full 
support for the pesticide licensing program area, which 
evaluates and regulates new pesticides to ensure safe and 
proper usage by consumers. Pesticides registered by EPA protect 
public health and the nation's food supply by controlling 
insects that act as disease vectors or invasive insects that 
endanger our environment. EPA's activities support the use of 
integrated pest management, or IPM, which uses entomological 
knowledge and other science-based knowledge to manage insect 
pests. The use of IPM often reduces costs and results in a more 
targeted use of pesticides.
    ESA also requests that the Subcommittee maintain support 
for the EPA State and Tribal Assistance Grant on pesticide 
program implementation.
    Finally, ESA supports a proposal in the President's fiscal 
year 2015 budget request to establish a $45 million multiagency 
initiative addressing pollinator health. As part of the 
initiative, EPA would examine the potential impact of 
pesticides on bees and ensure that pesticides represent 
unacceptable risk to pollinator health.
    Pesticides are an important part of safe production of 
crops that feed our nation. Equally, food production is reliant 
on healthy populations of bees and other pollinators. 
Pesticides represent just one of the many threats that bees 
have. Continued entomology research in these agencies is needed 
to understand the complexity of colony collapse disorder and 
tease apart the multiple stresses that threaten bee health. 
EPA's role in the pollinator initiative is critical to balance 
the risks that pesticides may pose to bees with the benefits 
that pesticides provide for crop production.
    I want to thank you for the opportunity to offer the 
Entomological Society of America's support for Forest Service 
and EPA programs and I am happy to answer any questions.
    [The statement of Robert N. Wiedenmann follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you all for your testimony. I went up 
one day to the Nez Perce reservation and they have a program 
that they are working with the University of Idaho on that does 
exactly what you are talking about. They bring in the natural 
bugs to kill some of the invasive species from other places and 
it is fascinating to watch because 3 or 4 years before I was up 
there in South Fork, there was a weed that had come in and had 
yellow flowers and the whole hillside was just yellow and they 
did not use any chemicals to kill it. They released some of 
these bugs and today it is gone, amazing stuff. But that is 
good work that you all do and your society does. I appreciate 
it.
    I am surprised that Joyce and Betty were not here to 
protect the Great Lakes because if Kim was still here he would 
tell you if they are not going to protect them, he is taking it 
to California because they have a severe drought there.
    But anyway, you both bring up very challenging problems we 
face with the infrastructure, not just water and wastewater 
infrastructure but infrastructure across the board in this 
country and it is something Congress is going to have to deal 
with. I think that our infrastructure needs are the second 
biggest problem next to the debt and deficit and getting it 
under control. Until we get the debt and deficit under control, 
we cannot do any of our other priorities. So I appreciate your 
testimony and thank you for being here today.
    The last panel this morning is Kathy DeCoster, Vice 
President and Director of Federal Affairs for the Trust for 
Public Land; Alan Rowsome, Senior Director of Government 
Relations for Lands for the Wilderness Society; and Reid is the 
president of the Wilderness Land Trust.
    And I am going to go vote.
    Mr. Calvert. I think Mike might have already mentioned we 
are operating under a 5-minute rule. We appreciate your 
attendance and we are anxious to listen to your testimony.
    And with that, Ms. DeCoster.
    Ms. DeCoster. Thank you.
    Mr. Calvert. You are recognized.
                              ----------                              

                                          Thursday, April 10, 2014.

                       THE TRUST FOR PUBLIC LAND


                                WITNESS

KATHY DECOSTER, VICE PRESIDENT AND DIRECTOR OF FEDERAL AFFAIRS
    Ms. DeCoster. I really appreciate the invitation to testify 
this morning and also just wanted to express gratitude to you 
and the other members of the Subcommittee for the time you 
spent listening to everyone, whether it is me or others. It is 
I think an unknown and underappreciated use of your time so we 
appreciate it.
    I am Kathy DeCoster, Vice President and Director of Federal 
Affairs for the Trust for Public Land. I am here to talk about 
a set of federal conservation programs that are under your 
jurisdiction that have a very significant impact at the local, 
state, and federal levels. These are programs that bring 
numerous public benefits. They enjoy wide community support. 
They leverage significant other dollars and they support local 
economies.
    In my written testimony I cover a number of those programs 
but I did want to focus in my 5 minutes today on the Land and 
Water Conservation Fund. We understand the many challenges you 
face in putting your bill together and appreciate your support 
for LWCF and the other programs in the last bill, in the fiscal 
year 2014 Omnibus bill. I know that was a challenging bill to 
put together so we really appreciate that.
    We do support the budget proposal for full funding for 
LWCF, and as it relates to your bill, we know that proposal is 
split between discretionary funds and mandatory funds. We hope 
that you will be able to find at least the $350 million that is 
budgeted in the discretionary side and the President's 
proposal. Those funds will support a number of specific 
conservation projects that we and others are working on in many 
states. It will also support grants to states and local 
communities through the other side of programs under LWCF.
    Our overall goal that we have been working on is to ensure 
that the $900 million that is deposited every year into the 
LWCF account is used to support conservation, outdoor 
recreation needs across that entire spectrum from local to the 
federal. And without that broader commitment on the way up to 
$900 million, we see a number of conservation opportunities 
that could be lost. We are working on a 22,000 acre forest in 
Maine that supplies 4 percent of the nation's maple sugar 
operations. We are working on trail access outside Salt Lake 
City. All those are in the broader, bigger ask but they are 
important projects to those communities.
    The bigger number will also help fund additional grants to 
states through the state and local program and would fund a 
UPARR program, which provides improvements to parks and 
playgrounds. And that is something that my organization works 
quite a lot on, making sure communities have a safe place to 
play and easy access to that.
    So we really appreciate the comments you have made recently 
about trying to work on a solution on that mandatory side. You 
and Mr. Simpson have very helpfully talked about that so we 
look forward to working with you on that. We know the mandatory 
side is not something that will occur in your bill but we hope 
we can work with you all on that.
    You will no doubt hear from others on this panel and 
elsewhere about specific conservation needs, national trails, 
forest conservation, historic sites, battlefields, park in-
holdings, habitat protection, and wilderness in-holdings. And 
LWCF supports all of these needs and more at the state and 
local level. You may know we are working with Riverside County 
to implement that Habitat Conservation Plan they were 
instrumental in putting together years ago and that helps with 
a balanced approach to endangered species protection and 
development and it is kind of a win-win solution so LWCF 
supports that.
    We are working with one of the major forest landowners in 
the country in Idaho on a project that would protect drinking 
water for about 500,000 people in northern Idaho. LWCF helps us 
and many others find those conservation solutions that matter 
to communities and leave a very important legacy for the 
future, for jobs, for the local economies, and for, you know, 
quality of life in those communities.
    On the federal acquisitions side, those agency acquisitions 
we see fill in some critical missing pieces of the public land. 
The suite of agencies that manage public lands, they protect 
important national resources. They help solve management 
problems if you think about the checkerboard--I do not even 
know what to call it--the situation that was left over from the 
railroad checkerboard agreement. That is a management challenge 
for most agencies. And it also opens up access to recreation 
when we protect those sites.
    And then the suite of state and local programs, so Forest 
Legacy, the State and Local Assistance Grants, the Battlefield 
Grants, Section 6, and the Urban Park Program, they all help 
states and local communities meet various needs, jobs in the 
woods, public access for hunting and fishing, close-to-home 
recreation, wildlife habitat protection, and safe places to 
play, and historic sites.
    And so we look at LWCF as an incredibly important program 
that is not one-size-fits-all and so one community may need one 
kind of program that is under LWCF and another may need a 
different type of program. But together, they allow 
conservation to be accomplished across the board, across the 
entire continuum from cities to wilderness.
    I just want to also mention we do support the set-aside 
under the Park Service state and local grant program that you 
included in the '14 bill and that is proposed in the budget for 
'15, the $3 million for a competitive grant program. We see 
that as leveraging significant other dollars in those 
communities that will apply for those grants, and we want to 
work with you on its successful implementation.
    So just in closing I wanted to reiterate that LWCF offers a 
flexible approach to conservation across that entire continuum 
to help meet some challenges and support community needs and we 
would urge you to fund it again understanding again the 
challenges that you have.
    So we value the role you all play in making sure that 
conservation is achieved in the most strategic way possible and 
we will work with you to figure that out. Thank you.
    [The statement of Kathy DeCoster follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Well, thank you. Thank you for your testimony.
    Next, Mr. Alan Rowsome, the Wilderness Society. You are 
recognized----
    Mr. Rowsome. I am sorry. I am battling a cold here so I 
think I can get through it----
    Mr. Calvert. Okay.
    Mr. Rowsome [continuing]. Just fine.
                              ----------                              

                                          Thursday, April 10, 2014.

                         THE WILDERNESS SOCIETY


                                WITNESS

ALAN ROWSOME, SENIOR DIRECTOR OF GOVERNMENT RELATIONS FOR LANDS
    Mr. Rowsome. Chairman Calvert, on behalf of the Wilderness 
Society and our 500,000 members and supporters, we thank you 
for the opportunity to testify before the Subcommittee today. 
We are excited and pleased by your ascension to the chair seat 
and we would also like to thank all of your staff around the 
room for their commitment to the many federal programs and 
projects that support our public lands.
    Before starting, it is important to acknowledge that the 
budget times we live in have and continue to demand creative 
and innovative problem-solving, but at the same time, we must 
be clear that the allocation for the fiscal year 2015 Interior 
Environment bill will not be sufficient to meet the needs we 
all know exist on our national parks, forests, wildlife 
refuges, and wilderness areas.
    2014 is the year when we should we celebrating two of the 
most important conservation achievements of our nation's 
history: the 50th anniversary of the Wilderness Act, and the 
Land and Water Conservation Fund Act. Instead, we continue to 
face chronic underfunding of both our National Wilderness 
Preservation System and a long-standing broken promise of the 
American people of offshore oil royalty revenues that are 
intended to fund the LWCF.
    Our 110 million acres of wilderness nationwide are severely 
underfunded despite providing the purest and often most sought-
after outdoor recreation experiences one can have. With a very 
small $5 million increase in fiscal year 2015 spread over all 
four agencies or a mere 45 cents per acre, wilderness managers 
could manage trails more effectively, hire more law enforcement 
agents, provide better education programs, and do baseline 
assessments necessary to understand the unique nature of these 
incredible wildlands. These dollars would easily pay for 
themselves with increased visitor experiences, less backlog of 
stewardship plans, better training for wilderness 
superintendents, improved interagency coordination, and less 
litigation risk due to management and consistency. We urge the 
committee to consider a $5 million increase for agency 
wilderness management to commemorate this, the 50th anniversary 
of the Wilderness Act.
    Mr. Chairman, your commitment to finding a long-term 
solution to the Land and Water Conservation Fund is welcome and 
much appreciated. The Wilderness Society looks forward to 
working with you to make it a reality. We support the 
President's proposal of $350 million in discretionary funding 
for LWCF, as well as the additional $550 million in mandatory 
dollars that is recommended to reach the fully funded level of 
$900 million.
    LWCF has increasingly become a toolbox of conservation 
utilized differently in local communities depending on their 
specific needs and opportunities. In California alone, the 
fiscal year 2015 LWCF request contains prudent acquisitions 
within all four land management agencies, several working 
forest projects within the Forest Legacy Program, significant 
cooperative endangered species dollars, and the highest 
allocation of local state park grant funding in the nation. 
These investments will provide critical access points to 
hunters and outdoor recreation enthusiasts across the state, 
allow farmers and ranchers to continue to make a living while 
placing their lands under conservation easement, protect 
habitat and species to ideally avoid ESA listings, and provide 
urban underserved youth with opportunities to experience the 
outdoors and live a more healthy life as they can better 
appreciate the amazing natural heritage of our country.
    Given that funding for these important conservation 
programs will be difficult to find, the Wilderness Society is 
also a strong proponent of the President's proposal to better 
manage wildfire funding. As you know, fire seasons are longer 
and more severe than ever, and the recommendation of $954 
million in new budget authority under the flame suppression cap 
will eliminate the need to pillage other conservation accounts 
to pay for the suppression of our worst fires. We hope that at 
the very least this proposal begins a true discussion about how 
the Federal Government pays for fire costs in the years ahead.
    TWS is also a very strong proponent of transitioning our 
country to a sustainable energy economy by developing our 
renewable energy resources quickly and responsibly. We believe 
renewable energy is an appropriate use of the public lands when 
sited in an area screened for habitat, resource, and cultural 
conflicts. Identifying and avoiding those conflicts early on is 
essential to ensure our local communities, counties, and the 
clean energy industry are allied around smart projects that 
grow our economy. For example, planning for renewable energy in 
places like Southern California where we have the Desert 
Renewable Energy Conservation Plan will help avoid costly 
conflict in delays and allow important public input.
    This budget should also include needed funding to designate 
transmission corridors and low-conflict places on public lands 
to ensure future lands can be sited with confidence in the West 
and allow for the expansion of renewable energy.
    In closing, I defer to my written testimony to highlight a 
number of other important conservation priorities worthy of 
support and strong funding. They are prudent investments that 
help local economies create jobs and provide livable, 
sustainable communities. The Wilderness Society appreciates 
your commitment to our public lands and wild places and we look 
forward to working with you now and in the future to ensure 
that we steward our nation's natural resources in a 
responsible, balanced way.
    Thanks for the opportunity to testify today and I would be 
happy to take any questions you might have.
    [The statement of Alan Rowsome follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Great. Thank you for your testimony.
    Next, Reid Haughey. Thank you for coming. You are with the 
Wilderness Land Trust. You are recognized for 5 minutes.
                              ----------                              

                                          Thursday, April 10, 2014.

                         WILDERNESS LAND TRUST


                                WITNESS

REID HAUGHEY, PRESIDENT
    Mr. Haughey. Thank you, Chairman Calvert. I appreciate the 
opportunity to speak with you today. And I would also like to 
acknowledge the patience and support of my wife who is willing 
to have me be several thousand miles away on her birthday. So I 
would like the record to reflect that.
    Mr. Calvert. So noted.
    Mr. Haughey. Yes. Thank you very much.
    My name is Reid Haughey and I have the distinct pleasure of 
working for the Wilderness Land Trust. We have been an 
organization around for 22 years focused solely on the 
acquisition and transfer of in-holdings within designated and 
proposed wilderness areas. And I am here today to both thank 
the committee for its long-standing and steadfast support for 
the in-holding accounts within the Land and Water Conservation 
Fund and to ask that continue to consider modest annual funding 
of about $3-$5 million per agency on into the future.
    These have been very helpful and effective in both 
completing our nation's wilderness areas and also being able to 
keep the promise to the private landowners that are within the 
wilderness areas that if they wish to sell, that the United 
States will be ready to buy their property.
    So why should we worry about this? The National Wilderness 
Preservation System, when established by Congress, also 
includes private lands that mostly are remnants of 19th century 
congressional expansion in the West within it. And many of 
those landowners are trying to figure out what to do with their 
lands that are within these now designated wilderness areas and 
oftentimes wish to sell and move their assets somewhere else. 
We as conservationists wish to acquire the property, complete 
the wilderness area so that it can serve the purpose that it 
was intended to serve when it was designated.
    So annual funding in our experience has been that only 
about 3 to 5 percent of these properties come on the market in 
any one year, about once a generation. And small modest annual 
funding, as Congress has been willing to do in the past and we 
hope will continue to do in the future, has been very effective 
at meeting that need when those landowners wish to sell.
    So we are not asking for a new program or an expansion of 
what Congress has historically been doing; we ask that it 
continue to fund those in-holding accounts.
    I should note that for the 50th anniversary of the 
Wilderness Act, the Land Trust undertook an inventory of all of 
the in-holdings within the National Wilderness Preservation 
System. When we started 22 years ago, we estimated that there 
were 400,000 acres of lands within the system, private lands. 
There are state lands, there are native corporations that are 
lands in Alaska and whatnot. But in the lower 48, there were 
400,000 acres of private in-holdings. That now is down to 
180,000 acres over that generation's worth of work. We think it 
has been a very effective and meaningful program over these 
last 20 years and hope that it will be continued.
    So we think consistent funding is vital to being able to 
complete this work, is vital to being able to secure the 
wilderness areas that Congress has worked to preserve and hope 
that you will consider that in this upcoming year.
    Thank you.
    [The statement of Reid Haughey follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Calvert. Thank you. I hear a common thread on the Land 
and Water Conservation Fund and, as you know, we have several 
challenges. Mr. Simpson is working on a wildfire bill, which I 
support, many people support, which we need to pass or we 
cannot put that in our bill under the budget rules subject to a 
point of order.
    On the Land and Water Conservation Fund we would like to 
resolve that, too, but we have another problem, PILT, Payment 
In Lieu of Taxes, which in these small rural areas that have a 
predominance of federal land is extremely important in how they 
fund their communities.
    And then on a side note we have this Secure Rural Schools 
issue with the small school districts in the rural communities 
that have struggled to pay for their children's education.
    So those are challenges that we have to do. We probably 
cannot get them all done this year unfortunately in this budget 
process, which is somewhat condensed, but it is something that 
we need to work on together to resolve. It is not just the 
Appropriations Committee that can resolve this. We pay the 
bills, obviously, but I would suggest that you work with the 
authorizing committees. I am sure you do. Mr. Bishop will be 
the incoming Chairman of that Committee. I think he has some 
ideas that would hopefully move the ball forward on this, too, 
and he understands that these are challenges that we all face 
as we move forward because it affects every part of the budget, 
not just wilderness and consistent funding. But it affects all 
of our budgeting processes as we move forward, so it is a big 
challenge.
    But we thank you for your testimony and we will recess 
until one o'clock. Thank you.
                                          Thursday, April 10, 2014.

                           AFTERNOON SESSION

    Mr.  Calvert. Committee will come to order. Good afternoon. 
Welcome to the Subcommittee's second public witness hearing. 
This afternoon the Subcommittee will be hearing from a cross-
section of individuals representing a wide variety of issues 
addressed by the Subcommittee.
    The Chair will call each panel of witnesses to the table, 
one panel at a time. Each witness will be provided up to 5 
minutes to present their testimony. We will be using this time 
to track the progress of each witness. When the button turns 
yellow, the witness will have one minute remaining to conclude 
his or her remarks. The witnesses who speak less than 5 minutes 
get Brownie points with the Chairman.
    Members have an opportunity to ask questions to the 
witnesses, but in the interest of time, we are going to try to 
stay right on schedule. Chair would also remind those in the 
hearing room the rules prohibit use of outside cameras and 
audio equipment during these hearings.
    So I would be happy to yield to my friend Mr. Moran, but he 
is not here, so we will just go ahead and go ahead with the 
hearing. First I would like to call Scott Steen, President and 
CEO of American Forests. You are recognized for 5 minutes.
                              ----------                              

                                          Thursday, April 10, 2014.

                            AMERICAN FORESTS


                                WITNESS

SCOTT STEEN, PRESIDENT AND CEO
    Mr.  Steen. Good afternoon, Mr. Chairman, Members of the 
Subcommittee. My name is Scott Steen. I am President and CEO of 
American Forests. I thank you for the opportunity to appear 
before you today to present our Fiscal Year 2015 Appropriations 
recommendations.
    Founded in 1875, American Forests is the oldest national 
non-profit conservation organization in the U.S. During the 
last 139 years American Forests has served as a catalyst for 
many of the most important milestones in the conservation 
movement, including the founding of the U.S. Forest Service, 
the Conservation Corps, the National Park System, and the 
growth of the urban forestry movement. Since 1990, American 
Forests has funded more than 1,000 forest restoration projects, 
and planted more than 46 million trees in all 50 States and 44 
countries.
    When most people think of forests, they think of rural 
wilderness areas, but the reality is that much of our Nation's 
populations live in urban forest and ecosystems. Urban forests 
make a significant contribution to the quality of life in 
communities across the country, and they are vital to creating 
and maintaining healthy, livable communities of all sizes. 
Urban forests enhance air and water quality, reduce energy use, 
increase property values, and provide quantifiable health and 
wellness benefits to our citizens. Creating and maintaining a 
healthy tree canopy also creates demands for green collar jobs 
in a sector poised for rapid growth.
    The U.S. Forest Service Urban and Community Forestry 
Program is the key Federal program to deliver technical, 
educational, and urban forest research assistance to 
communities nationwide. In 2013 UNCF's work benefitted 7,292 
communities, and nearly 198 million people, more than 60 
percent of the U.S. population. The program received its 
highest level of funding in FY 2012, and even at that level, it 
was an incredibly modest investment, when compared to the 
benefits the program provides. Funding has been decreasing ever 
since. Urban forests are integral to communities striving to 
create healthier and more sustainable environments with smart 
green infrastructure. We urge this committee to return UNCF to 
the FY 2012 amount of $31.3 million
    With regard to our Nation's broader conservation efforts, 
we have been encouraged by the Forest Service moves, most 
recently, their interest in accelerating the pace of forest 
restoration on our National forests. With 65 to 80 million 
acres in need of restoration, this is no small feat. The Forest 
Service's collaborative forest landscape restoration program is 
an important tool in furthering this work. This program was 
created in 2009 to promote job stability, reliable wood supply, 
and forest health, while reducing emergency wildfire costs and 
risks. In the first 4 years of the program, projects funded 
through CFLRP have reduced hazardous fuels on 580,000 acres to 
protect communities, generated 814 million board feet of 
timber, made nearly 2 million green tons of biomass available 
for bioenergy production, and enhanced habitat on 474 miles of 
streams.
    American Forests supports the Administration's request to 
increase the overall funding cap of CFLR to $80 million in 
their FY 2015 request of $60 million. We understand this 
requires legislative action, and encourage the Subcommittee to 
include such language in the FY 2015 Interior, Environment, and 
Related Agencies Appropriations Bill.
    Finally, funding wildfire suppression has been an ongoing 
struggle for the Forest Service and the Department of Interior. 
As wildfires become more frequent and more severe, Congress 
needs to find a better solution to provide dedicated funding to 
address this issue year after year. American Forests 
respectfully requests the committee address the wildfire 
suppression funding issue by including language from the 
bipartisan Wildfire Disaster Funding Act co-sponsored by Mr. 
Simpson in the FY 2015 Interior, Environment, and Related 
Agencies Appropriations Bill.
    This language provides the structure to fund a portion of 
the U.S. Forest Service and Department of Interior wildfire 
suppression costs through a budget cap adjustment under the 
Balanced Budget and Emergency Deficit Control Act of 1985, as 
amended. This would provide the U.S. Forest Service and the 
Department of Interior with a funding structure similar to that 
used by other agencies who respond to natural disaster 
emergencies.
    Thank you, and I appreciate your consideration of my 
testimony.
    [The statement of Scott Steen follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr.  Calvert. Thank the gentleman.
    Next, Mr. Bill Imbergamo, Executive Director, Federal 
Forest Resource Coalition.
                              ----------                              

                                          Thursday, April 10, 2014.

                   FEDERAL FOREST RESOURCE COALITION


                                WITNESS

BILL IMBERGAMO, EXECUTIVE DIRECTOR
    Mr.  Imbergamo. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here on behalf of the over 390,000 men and 
women who rely on National forest timber for their livelihood. 
And I want to thank you and this Subcommittee for your support 
for increased management of our National forests. As you know, 
up to 85 million acres of the National forests are in need of 
restoration, according to USDA's February 2012 report. However, 
irrational fire budgeting, complex and burdensome analysis 
requirements, and stalling tactics by groups who oppose forest 
management make it very difficult for the Forest Service to 
expand the pace and scale of management, and address this 
restoration backlog.
    These factors prevent the agency from reducing fire danger, 
protecting communities and watersheds, and supply badly needed 
raw materials to economically distressed rural communities. We 
are pleased to see the 3.1 billion board foot goal in the 
Administration's budget request. This would represent a 19 
percent increase in outputs from last fiscal year, and would be 
the highest level since 1998. It would, however, still not come 
close to capturing annual mortality, and represents less than 
half of the amount called for in current forest plans.
    A vital part of this effort is ending the destructive 
practice of fire borrowing. And as you know, this disrupts 
program delivery, and does nothing to ensure accountability. We 
strongly support the bipartisan approach of H.R. 3992, the 
Wildfire Disaster Funding Act, as do a majority of the members 
of the Subcommittee, and most of the other witnesses here 
today. As the chief mentioned to you 2 weeks ago, the Act will 
simply ensure that fire suppression expenses can be met in the 
year they are incurred, without disrupting the management 
needed to reduce fire danger over the long haul.
    Beyond this point, however, we differ with the 
Administration's approach to increasing the pace and scale of 
management on our forests. We suggest a more direct approach to 
protect our forests, stimulate the rural economy, and safeguard 
habitat. We recommend increases, and support active management 
and ensure accountability, including 15 percent increases each 
in National forest timber management, wild land hazardous 
fuels, and capital improvement and maintenance. These programs 
directly fund land management by taking advantage of new 
authorities in the Farm Bill.
    We believe the Forest Service can make substantial progress 
if Congress signals these programs as the highest priority. 
Increasing timber management and hazardous fuel funding will 
help manage forests, while generating receipts to due needed 
work elsewhere in the National forests. Whether the funds 
derive from commercial timber sales or stewardship contracts, 
the value of timber removed can help extend needed treatments 
across the landscape. Investing in capital improvement and 
maintenance is necessary in light of the massive $5.7 billion 
backlog in deferred maintenance.
    This backlog does not just impact the roads my members use 
to access raw material, but it directly impacts the 
recreational users of the entire National forest system. 
Campgrounds, roads, and visitors' centers are all in need of 
repair, and my members do not just live and work on the 
National forests, we recreate there as well.
    We are here to make these targeted investments, and set a 
target of 3.5 billion board feet, excluding personal use 
firewood, for Fiscal Year 2015. In doing so, we would urge the 
committee to put an end to the Integrated Resource Restoration 
pilot project in Regions 1, 3, and 4. These pilots, in place 
since 2010, have not resulted in lowered costs for the Forest 
Service, whether the metric is units of wood produced, or 
number of acres treated.
    The 3 pilot regions rely heavily on personal use firewood 
to meet their timber targets. Up to 40 percent of output in one 
of the regions is personal use firewood. And in Montana, since 
the region became an IRR pilot, timber outputs have declined by 
more than 58 percent. We can no longer support this program, 
even as a pilot, and urge you to end the experiment this year.
    We support continuation of the collaborative forest 
landscape restoration projects already underway, but we do not 
support the proposed expansion of CFLR in the President's 
budget. Current CFLR projects have struggled to increase 
outputs, and our members, in some cases, do not see reduced 
conflict as a result of these projects. For instance, a small 
2,000 acre project in Montana was enjoined for more than 2 
years, and the standing timber has lost most, if not all, of 
its value.
    Further, the Administration's proposed expansion would 
require reconvening the review panel, and going through the 
process of soliciting new projects, which would divert 
resources from implementing current projects, or simply 
investing more in needed management outside of project areas. 
More rapid results on the ground can come through existing line 
items and be implemented in Fiscal Year 2015.
    There is little debate about the need to increase 
management on the National forests. Strong wood markets, and 
the newly enacted Farm Bill provisions, provide an opportunity 
to expand management across the landscape. Only Congress can 
decide whether to prioritize management that can help pay for 
needed restoration, and whether we meet domestic and 
international wood demand using timber from our national 
forests, which must be milled domestically before it can be 
exported. To paraphrase our favorite bear, only you can decide 
to act now, or let the negative trends in forest health and 
rural economic distress continue. Thank you.
    [The statement of Bill Imbergamo follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr.  Calvert. I thank the gentleman.
    Next, John Barnwell, Director of Forest Policy, the Society 
of American Foresters.
                              ----------                              

                                          Thursday, April 10, 2014.

                  SOCIETY OF AMERICAN FORESTERS (SAF)


                                WITNESS

JOHN BARNWELL, DIRECTOR OF FOREST POLICY
    Mr.  Barnwell. Good afternoon, Mr. Chairman, and Members of 
the Subcommittee. My name is John Barnwell. I am Director of 
Forest Policy of the Society of American Foresters. I am 
pleased to share a few comments on behalf of the 12,000 forest 
professionals working across this country.
    SAF shares common interests with colleagues on these 
panels, including recognizing the importance of funding for 
forest pests and invasive species response, increasing the 
volume of timber harvested from Federal lands, and our 
reservations about expansion of the Integrated Resource 
Restoration line item beyond a pilot program, so I will use 
this time to focus on 3 key areas identified as priorities by 
our members.
    First, fixing the unacceptable cycle of fire borrowing that 
has hindered all forest management activities on Federal lands. 
Second, providing the necessary funding for U.S. Forest Service 
research and development in the Forest Inventory and Analysis 
Program. And third, extending the Bureau of Land Management 
Forest Ecosystems Recovery Fund.
    I will talk a little bit about fire. The conversion of 
persistent drought, infectious disease outbreaks, and 
urbanization creates a difficult and costly fire management 
situation that will continue to constrain Forest Service and 
Department of Interior resources for the foreseeable future. 
The Forest Service and Department of Interior were forced to 
transfer $636 million from non-fire accounts in Fiscal Year 
2013 to fund fire suppression. These transfers are now common 
practice, with the Forest Service reporting transfers of $3.4 
billion from non-fire accounts since 2002. Most of these funds 
were returned the next fiscal year, but with 65 to 82 million 
acres in the National Forest System in need of restoration, 
this approach to funding wildfire suppression must not 
continue.
    SAF appreciates the leadership of this Subcommittee on this 
issue in the past, and urges you to consider adding language in 
the Fiscal Year 2015 Appropriations Bill that changes how 
wildfire response and suppression costs are funded. Accounting 
for the small percentage of costly wildfires that escape 
containment by making disaster relief funds available in severe 
fire years would allow the agencies to invest in programs 
designed to reduce fire risks over time.
    Now I will talk a little bit about research and 
development. Successful companies finance research and 
development programs to build business advantage and stay on 
the cutting edge, but forestry research capacity in the United 
States continues to decline. University research budgets are 
shrinking, and grants available for forestry research have 
dwindled. Investments in forestry research are investments in 
the future health and sustainability of our Nation's forests. 
Ignoring research and development threatens U.S. 
competitiveness in emerging markets and the ability of forest 
managers to meet tomorrow's challenges with current science and 
technical information. SAF encourages this Subcommittee to 
consider a funding level of $231 million for Forest Service 
research and development, with particular emphasis on 
prioritizing research efforts and transferring knowledge to 
forestry professionals working in the field.
    The Forest Service Forest Inventory and Analysis Program is 
the backbone of U.S. forestry. It provides the only national 
census of forests across all ownerships. Through FYA, the 
Forest Service, partnering with State Forestry Agencies in the 
private sector, collects and analyzes forest data to assess 
trends on issues such as forest health and management, 
fragmentation, and forest carbon sequestration. This data helps 
to inform investment decisions, account for forest carbon 
stocks for climate negotiations, and support planning and 
management decisions made on private and public lands.
    SAF encourages this Subcommittee to reverse the trend of 
spending cuts and return FIA to the Fiscal Year 2010 funding 
level of $72 million. This $72 million funding level, which is 
approximately $5 million higher than the President's budget, 
was also endorsed by a diverse group of stakeholders. SAF asks 
that this letter to the Subcommittee dated March 24, 2014 be 
entered into the record.
    Mr.  Calvert. Without objection, all material will be 
entered into the record of this hearing.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr.  Barnwell. I will close with an issue that does not 
have a funding request attached. SAF members are troubled by 
the pending loss of the Bureau of Land Management Forest 
Ecosystem Health and Recovery Fund, commonly referred to as the 
5,900 Account. This fund allows the BLM to use a portion of 
receipts from sales of timber and wood products not returned to 
neighboring counties to fund management activities. The 5,900 
Account reduces budgeted dollars required to operate public 
demand forestry. This loss of revenue will leave few dollars in 
the tight PB budget for forest ecosystem restoration 
activities. SAF recommends that this account be reauthorized, 
and not allowed to expire at the end of Fiscal Year 2015.
    Thank you for this opportunity to speak with you today, and 
I welcome any questions you may have.
    [The statement of John Barnwell follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr.  Calvert. Thank you. Thank you, John, I appreciate 
that.
    Next, Jim Karels, Vice President of the National 
Association of State Foresters.
                              ----------                              

                                          Thursday, April 10, 2014.

             NATIONAL ASSOCIATION OF STATE FORESTERS (NASF)


                                WITNESS

JIM KARELS, VICE PRESIDENT
    Mr.  Karels. Thank you, Chairman Calvert, for the 
opportunity to testify before the Subcommittee this afternoon. 
My name is Jim Karels, and I am the Florida State Forester. I 
am also the current Fire Committee Chair, and Vice President 
for the National Association of State Foresters, NASF. Today I 
will highlight NASF's Fiscal Year 2015 appropriation request 
for State and private forestry programs, and for State fire 
assistance programs.
    As stewards of more than 2/3 of America's 751 million acres 
of forest land, State foresters deliver technical and financial 
assistance, along with forest health, with water, and with 
wildfire protection for responsibilities on our Nation's 
private forest lands. My written statement today includes a 
complete set of priorities, recommendations from NASF that deal 
with the Forest Stewardship Program, the Urban Community 
Forestry Program, Forest Health, and FI, Forest Inventory 
Analysis, which are partners we will talk more, and are talking 
about this afternoon.
    I will use the balance of my time to talk about State fire 
assistance and landscape scale restoration budget line items. 
State fire assistance addresses fuels and fire threat on non-
Federal lands, and is a critical tool to reduce the risk to the 
communities, to the residents, to property, and to our 
firefighters that help prepare for our wildfire events. State 
fire assistance is very important in 3 major areas. One, it 
provides funding assistance for non-Federal lands for hazardous 
fuel treatments at a minimum of one-to-one matching, sometimes 
much more from the private land or the State and local.
    It helps communities prepare for wild land fire events. 
There are 70,000 communities across this country at risk to 
wild land fire, and this program allows us to come in and 
develop community wildfire protection plans that helps those 
communities prepare for the fire threat that they know is 
there. It helps them be ready when and if the fire starts.
    And finally, a third one, and maybe the most important one 
of the State fire systems, is the ability to equip and train 
local fire departments and local firefighters, the volunteer 
fire departments, the State and local firefighters that respond 
as the first responders to all types of fires in all 
jurisdictions, both State, local, and Federal jurisdictions. 
And by training and equipping them, and making them efficient, 
and keeping them safe, this program helps to prevent some of 
those catastrophic million dollar fires that start both on 
Federal and State land.
    As you consider greater investments in hazardous fuel 
treatments on Federal lands, please remember State fire 
assistance is our primary Federal mechanism to help communities 
prepare for wildfire. We ask for your support of the State Fire 
Assistance Program in Fiscal Year 2015 at $86 million.
    This recommended funding level was also endorsed by a broad 
coalition of stakeholders, and we ask that this letter dated 
April 2, 2014 to the Subcommittee be entered into record.
    Mr.  Calvert. Without objection the full statement will be 
entered into the record, and other documents.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr.  Karels. And, Chairman, I would like to thank you both 
for the support, and the thoughtfulness of the Wildfire 
Disaster Funding Act. The process that we deal with in State 
fire assistance of being able to implement these programs, and 
then having to juggle through and do fund transfers, what we 
call fire transfers when that happens, because of the U.S. 
Forest Service's funding, and when the spending is so high that 
we have to transfer those funds, the same funds that we use to 
prevent and to mitigate these fires, now we are transferring 
back to the suppression, that work is not getting done, and the 
fire problem continues to grow. So this Act, the Wildfire 
Disaster Funding Act, is paramount to finally putting a stop to 
where we are going, and starting to get ahead of the fire 
problem across this Nation.
    I will shift gears a little bit and say we appreciate the 
support of the Subcommittee for our State forest action plans, 
and our landscape scale restoration budget line item. The LSR 
line item codifies the current competitive allocation which 
began under the direction of the Farm Bill. State foresters 
feel we can do more with the LSR, and the Fiscal Year 2012 
Appropriations Subcommittee directed the Forest Service to look 
at that flexible funding that allows the State Forestry 
agencies to, with accountability, reallocate based on the 
highest priority needs of the State forest action plans. We ask 
that, in support of this Landscape Scale Restoration Program, 
we ask for your support of this line item at 23.5 million in 
Fiscal Year 2015.
    We would like to work with the Subcommittee as well to 
direct that, in addition to the funding at competitive 
allocation, that competitive allocation process, also a portion 
of that LSR funding be made available to State Forestry 
agencies for further implementation of their State forest 
action plans.
    That concludes my testimony, and thank you for the 
opportunity.
    [The statement of Jim Karels follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr.  Calvert. I thank the gentleman. And a testament to Mr. 
Simpson, every member of the Interior Subcommittee, both 
Republican and Democrat, as I understand, are a co-sponsor of 
his fire legislation. So I think that you are probably going to 
hear from Mike and Betty both that we need your help in getting 
co-chairmen from all over the country, and all different kinds 
of political backgrounds, to get behind this legislation. But I 
will let Mike carry on from here, because I have got to----
    Mr.  Simpson. Well, I just appreciate you being here today, 
and for your support of this bill. It is very important, if we 
are going to be able to manage these accounts. And what a lot 
of people do not understand is, they think we are trying to 
spend more money on wildfire fighting. I actually want to spend 
a whole lot less money on wildfire fighting by trying to do the 
things that will prevent the catastrophic fires, or as many of 
them as possible.
    We are not trying to spend more money. We are trying to 
manage the account different so that, as you mentioned, we do 
not have to borrow out of every other account all year long. 
So, consequently, you cannot do timber sales, you cannot do 
trail maintenance, you cannot do hazardous fuels reduction, 
because all the money has been spent fighting wildfires.
    It just makes sense. There are members in this House that 
we have got to convince of that, but we have had good support 
on that, and anything you can do to help other members of 
Congress understand the importance of this, and what we are 
trying to do, would be very helpful. I appreciate you all being 
here today.
    Mr.  Calvert. CBO says it is budget neutral. Ms. McCollum.
    Ms.  McCollum. Thank you, Mr. Chair.
    Gentlemen, maybe you can help me understand a little bit 
about something we heard from the Forestry Department. I come 
from Minnesota. I notice that--St. Paul Campus grad, I bet?
    Mr.  Karels. Yes.
    Ms.  McCollum. Yes.
    Mr.  Karels. Yes.
    Ms.  McCollum. Same degree as my nieces have. We put in a 
Forestry Council, and it was very controversial. A lot of the 
environmentalists were really worried about it. I put my neck 
out on the chopping block and supported it. It was absolutely 
the right thing to do. So I come from this as a person who 
knows that forestry and timber is part of our economic engine 
in Minnesota, Wisconsin, and Michigan. I appreciate the work 
that Mr. Simpson has done, and all of you alluding to invasive 
species. This committee is really stepping up in a bipartisan 
way to address.
    But my question is, and Scott, you had mentioned it, the 
urban forestry account being zeroed out the way that it is. 
Here is my concern. I have nothing against State foresters, 
having 2 nieces who have graduated to do what you do, okay? So 
I do not hate State foresters, but, when we found out that was 
zeroed out. And the money was going to State foresters, what 
guarantee is it. The League of Cities was not involved in the 
discussion, and CSL, the counties, all the rest. I do not know 
if the large urban parks organizations were involved in it. I 
do not see the guarantee that some of it is going to go into 
urban areas. And railroads coming through St. Paul found out 
that that is how the ash boards come into the Twin Cities, and 
then those railroads sit there, and they go other places.
    So, either explain to me, or tell me how this needs to be 
fixed. I do not want to just trust me on this.
    Mr.  Steen. My understanding is urban was not zeroed out, 
but it was significantly reduced. And----
    Ms.  McCollum. Well, compared to what it was even 15 years 
ago, it is----
    Mr.  Steen. Absolutely.
    Ms.  McCollum [continuing]. Gone.
    Mr.  Steen. And, I mean, we believe that this is a fund 
that should be actually expanded. Urban forests have enormous 
value to communities all over America, and this pool of money 
was used in, I think, very responsible ways to fund all sorts 
of projects that benefitted 60 percent of the population of the 
country. So we absolutely support restoration of those funds to 
2012 level.
    Mr.  Karels. And same from our end. Urban and community 
forestry is very important. It is one of the programs, for 
example, in Florida that we oversee, and, from NASF, our 
support is at 31 million. So it is a critical program to us, so 
we are not part of that, where you said zeroing it out.
    Ms.  McCollum. Mr. Chair, I am going to learn more about 
this, because if this is just a block grant to State foresters. 
I have a problem with it, if it does not have something in it.
    And just to close, here in Washington, D.C. right now there 
is a person going through with a drill, drilling down into the 
base of the trunk of some of the most oldest, beautiful trees 
you can find, large drill, going in, going down to the roots. 
We are going to lose a lot of trees with that. The police 
department, it is not their top priority. It is not like health 
and safety, but those are the kinds of things that we face in 
urban areas that can take out a whole canopy really quick.
    Thank you, Mr. Chair.
    Mr.  Calvert. Thank you. And, if there are no further 
questions, I want to thank this board, and you are excused, and 
we will move on to the next panel. Thank you.
    Next, Mr. Tom Martin, President and CEO of the American 
Forest Foundation, Mr. Hank Kashdan, former Associate Chief of 
the United States Department of Agriculture Forest Service, 
partnered the caucus on fire suppression funding solutions, Mr. 
David Forsell, President of the Board of Directors of the 
Alliance for Community Trees, and Mr. Joel Holtrop, Board of 
Directors Chair, The Corps Network. Welcome.
    You probably heard our instruction about a 5 minute rule. 
We are going to be pretty strict on that because of time 
requirements today, but we appreciate your attendance, and we 
will start with Mr. Martin for 5 minutes.
                              ----------                              

                                          Thursday, April 10, 2014.

                       AMERICAN FOREST FOUNDATION


                                WITNESS

TOM MARTIN, PRESIDENT AND CEO
    Mr.  Martin. Thank you, Mr. Chairman, Members of the 
Committee. It is wonderful to be here. My name is Tom Martin. I 
am the President and CEO of the American Forest Foundation. We 
are a conservation group. Our mission is quite simple, to 
protect and enhance America's family forests for present and 
future generations, and do it in conjunction with our partners, 
many of whom will be before you today.
    So why are family forest owners important? Well, quite 
simply, they own the biggest segment of America's forests. It 
is not the Federal government, it is not the warehousers and 
the Plum Creeks of the world. It is folks like my family, that 
have a couple hundred acres in Wisconsin. Those folks hold the 
key to whether this mishmash of ownerships that make up 
America's forests are going to be healthy. I am here to talk a 
little bit about what this Committee and this Congress can do 
to help those folks who have an incredible love of their land, 
have the tools to be better stewards of that land.
    So, as you think about forests, why are they important to 
us? They are important because they produce clean water. Half 
of Americans get their drinking water off our forests. Clean 
air, forests sequester annually 12 to 15 percent of our carbon 
emissions. Hunting, migratory birds, all of those kinds of 
things, and yes, a million good paying jobs here in America. 
And as you think about, how do you keep those forests healthy? 
It means making sure that our Federal forests are healthy, that 
our large private landowners manage their land well, and that 
family forest owners have the tools they need to contribute to 
that health.
    Three things I would like to focus on that are before you 
today. The first is the Forest Stewardship Program, and that is 
the program that most directly works with private landowners in 
this country. We recommend a level of $29 million. That program 
has slipped in recent years, and with that the ability to reach 
out to land owners. These folks love their land, but they too 
often think if you let nature take its course you will get the 
results you want. And as you have heard and talked about this 
morning, there are enormous amounts of threats out there to the 
forests.
    Unfortunately, only 5 percent of these landowners have a 
written management plan, only 15 percent have ever talked to a 
natural resource professional. This program, the Forest 
Stewardship Program, works with State foresters, the Forest 
Service, and others to engage these landowners in good 
stewardship. They can make a contribution to our healthy 
forests. They need the tools to do it.
    Secondly, as you think about the patchwork of ownership, it 
is important to think about the landscapes that we have got out 
there that we can protect, and that we can restore. We 
recommend that the committee adopt the $23 million level that 
is in the President's budget. And I think about this, frankly, 
as a natural extension of what came out of the Bush 
Administration, with their cooperative conservation. They said, 
let's look at places on the landscape without the guard to 
ownership type, and let's make an ecological, social, and 
economic impact that is positive. I think measuring that is 
really important, so as you think about the investment, think 
about how we are going to measure the impact there as well.
    And, finally, I, like others, would like to raise my voice 
in support of all the work you are doing to fix the fire budget 
problem. And I think I would like, in my spoken remarks, to 
talk about a different impact that it has. Everybody has talked 
about the programmatic impact. We have enormous demands on our 
Forest Service from many different directions. And you ask a 
Forest Manager, what are you going to do to address these 
folks?
    And they start out, they are hard charging, and they have 
got good ideas, and they want to get out and get it done. And 
then they get to, well, wait a minute, you cannot implement 
that project yet because we have a fire, so you need to hold 
off on that. And that happens year, after year, after year. And 
what it does to the culture of any institution, that kind of 
uncertainty, is it has timidity in the face of real problems. 
And it strikes me that that cultural problem is just as 
important as the programmatic ones.
    So, as you debate and weigh how you are going to help 
protect America's forests, think about the family forest owner, 
who owns the biggest segment, and think about how they fit with 
the other forest ownership types so that this mosaic of 
ownership can keep producing all those benefits we rely. Mr. 
Chairman, I do have a letter for you, and hope I can offer it 
for the record. Thank you.
    Mr.  Calvert. Without objection.
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr.  Martin. Thank you very much, sir.
    [The statement of Tom Martin follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr.  Calvert. Thank you.
    And, next, Mr. Hank Kashdan, former Associate Chief of the 
USDA Forest Service, Partner for the Caucus on Fire Suppression 
Funding Solutions. Did you set the hearing schedule today?
                              ----------                              

                                          Thursday, April 10, 2014.

          PARTNER CAUCUS ON FIRE SUPPRESSION FUNDING SOLUTIONS


                                WITNESS

HANK KASHDAN
    Mr.  Kashdan. Well, Mr. Chairman, and Members of the 
Subcommittee, thank you for the invitation to be here. Mr. 
Simpson, thank you so much for being one of the original 
sponsors of the Wildfire Disaster Funding Act. You know, talk 
about being amongst friends here, this is one of the greatest 
opportunities of testifying I have ever had.
    I retired about 3-1/2 years ago as the Associate Chief of 
the Forest Service. I spent 37 years in the Forest Service. One 
of my later jobs was the agency's budget director, which I did 
for 6 years. One of those years I administered the largest 
transfer of fire funds to pay for suppression that ever 
occurred in the agency's history, about $990 million in one 
year. 4 of the 6 years we transferred funds out of other 
accounts to pay for wildfire suppression, so this is an issue 
that I have lived personally, and it is an issue that has been 
important to me for the past 15, 17 years.
    As a retiree group, we are very active amongst the Wildfire 
Funding Coalition. Many of the members you have heard from 
already I would imagine you will continue to hear from. You 
know, we represent a very broad spectrum of viewpoints on 
natural resource management, but we are 100 percent unified on 
the need to fix this fire funding problem.
    We are supporting this bill for 3 principal reasons, and a 
lot of it that you have already heard today. First of all, 
program disruption. These fire transfers occur at the height of 
the field season. July and August is when the decisions are 
made to make those transfers. That is when projects are being 
executed on the ground. It is incredibly disruptive to the 
agency.
    More and more, with budgets being tighter, the work on the 
ground, I think Mr. Martin here mentioned, work being done on 
the ground is by partners, and volunteers, and other third 
parties, who have scratched together the funds, scratched 
together the resources, carved time out of their schedules to 
perform this program of work, and then along comes the Forest 
Service and cancels the work in order to pay the costs of 
wildfire suppression. And then those projects get added on top 
of the next year's program of work. And, in fact, sometimes you 
have got 2 years' worth of cancelled projects added on to the 
next program of work, and it is an extremely wasteful and 
costly process.
    The second point, we are disrupting some of the very 
projects that will reduce the future expenditures on wildfire. 
I believe being released just today is a study in the McColony 
River Watershed (ph) of California that shows, by performing 
forest health treatments, you avoid two to three times the 
costs of wildfire suppression. It is a tremendous savings that 
all of us, as former managers in the Forest Service, felt 
fairly strongly that, when you proactively take forest health 
action, you reduce the long term cost of wildfire suppression. 
And sometimes science and studies take time to catch up to 
that, and what is happening is that that is being validated 
today by these studies.
    And I have personally seen the effect. I recall, on the 
Deschutes National Forest in Oregon, a wildfire raging across 
the landscape, coming up to an area that had been treated, the 
fire laid down, moved through the stand at a much cooler 
temperature, and, in fact, was probably somewhat helpful to the 
natural ecosystem.
    The third point is that wildfires are natural disasters, 
and this Act treats them as such. Mr. Chairman, I grew up in 
Claremont, about just a stone's throw from your district, and I 
grew up in the 1950s and 1960s, and I remember the fires across 
the landscape, but I also remember 2 or 3 months that you could 
count on there not being fires. That is not the case in 
Southern California. Fire season is all year long. Elsewhere in 
the country it is the same. Our fire seasons are getting 
longer. As people are ever expanding into the wild land urban 
interface, communities, and lives, and infrastructure are even 
greater at risk. And when you have a major wildfire, you have a 
natural disaster, and this Act treats it as such.
    So we are very grateful for the support. Some of the 
opponents to this are talking about, well, this does not change 
the actual costs of fires. Well, it does, over the long haul. 
The point that is so beneficial here is this is about program 
disruption, keeping the focus on investing to avoid future 
costs, and considering these fires as natural disasters.
    So let me close with that. Thank you very much for the 
invite here, and we really appreciate your support.
    [The statement of Hank Kashdan follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr.  Calvert. Thank you.
    David Forsell, you are with the Alliance for Community 
Trees.
    Mr.  Forsell. Yes. Thank you.
    Mr.  Calvert. Recognized for 5 minutes.
                              ----------                              

                                          Thursday, April 10, 2014.

                      ALLIANCE FOR COMMUNITY TREES


                                WITNESS

DAVID FORSELL, PRESIDENT OF BOARD OF DIRECTORS
    Mr.  Forsell. Dear Mr. Chairman, and Members of the 
Subcommittee, thank you so much for the opportunity to speak 
with you today. My name is David Forsell. I am actually 
President of Keep Indianapolis Beautiful, a non-profit 
organization whose mission is to help people and nature thrive 
in our community. We have about 30,000 volunteers each year. 
But I also serve as President of the Board of Directors of the 
Alliance for Community Trees, on whose behalf I am testifying 
today.
    Alliance for Community Trees is a national non-profit 
organization founded to establish a national voice for urban 
and community forestry. Through the efforts of 200 member and 
program partner organizations in 44 States, over 5 million 
volunteers have planted 15 million trees and assured their care 
in cities and towns across the country, where 83 percent of 
Americans live. My testimony will focus on 2 programs of the 
U.S. Forest Service, the Urban and Community Forestry Program, 
and urban forestry research. I will alter the flow of my 
written testimony a little bit here, starting with our 
recommendations for Fiscal Year '15, and following with a few 
comments about the importance of these programs.
    The President's Fiscal Year '15 proposal for the U.S. 
Forest Service Urban and Community Forestry Program is $23.7 
million. That is a 16 percent reduction from the Fiscal Year 
'14 enacted level. With extended drought, and severe storms, 
and invasive pests creating unusual stresses on our community 
forests, and also on municipal budgets over the past years, we 
argue that it is not the time for further reductions in this 
program. We urge the Subcommittee to provide to $31.3 million 
for this program in Fiscal Year '15, consistent with the level 
enacted in Fiscal Year '12.
    Federal urban and community forestry funding truly is an 
investment. It is leveraged by forestry professionals in many, 
many American cities and towns. In Indiana, more than 60 
communities, 2\1/2\ million people, are served by this program, 
and we all work very hard to leverage that money. The amazing 
benefits of urban trees, I am going to focus on research now, 
absolutely would be a mystery if it were not for the Federal 
government's research investments. Carbon capture, storm water 
interception, the psychological and physical benefits to green 
space to urban and community folks, avoided infrastructure 
costs.
    The knowledge gained through the research at a Federal 
level is absolutely fundamentally important to the work that we 
do. And, to that end, we urge the Subcommittee to provide 
funding for forest and range land research at $298 million for 
Fiscal Year 2015. This reflects funding for basic forest 
research at 226 million, consistent with Fiscal Year '14, and 
funding for forest inventory and analysis at $72 million.
    So, looking to the future, as reflected in the Forest 
Service's strategic assessments and plans, the Urban and 
Community Forestry Program, and urban forestry research, are 
uniquely positioned to help the Forest Service, and therefore 
the whole Federal government, address the growing urban 
environmental challenges and opportunities that people face 
across the country. No other Federal agency can match the 
expertise, nor the leadership capacity, to help our nation 
address these urban issues with trees in forests. The Forest 
Service's Urban and Community Forestry Program and urban 
forestry research are a model of integration, where program and 
research staff work together to develop the information, and 
the tools, and the advice that we all need in American 
communities.
    I wanted to give you 3 examples of our Alliance for 
Community Trees members' projects. Tree Pittsburgh received a 
grant from the U.S. Forest Service in 2011 to create the city's 
first urban forest master plan. A host of non-profits have 
joined the local government to activate this imaginative and 
comprehensive strategy. The Sacramento Tree Foundation is 
engaged in cooperative research, looking at human health 
impacts of urban trees with the U.S. Forest Service. And in my 
hometown, Indianapolis, working under an EPA consent decree, 
our local water utility, Citizens' Energy Group, is working 
over the next 10 years to eliminate all but 5 percent of 
combined sewer overflows into our river and streams.
    Keep Indianapolis Beautiful, my organization, is partnering 
with Citizens' Energy Group in one neighborhood on a 100 
percent natural system storm water/sewer separation project. 
10,000 functional native plants will be planted. 200 trees will 
further reduce storm water runoff, and the strategy will save 
the utility money, compared to a standard solution, and the 
work is creating jobs for young people, which is probably the 
most exciting thing of all.
    One young lady who works in tending and planting trees in 
Indianapolis of our 80 that we hire each year is off to study 
sustainability and chemical engineering at Overland College 
because of her experience with urban trees and community 
forests. Clean water, better, more beautiful neighborhoods, 
workforce development, these are just some of the returns that 
community and urban forestry and research funding bring, and I 
so appreciate the opportunity to tell the urban story and the 
community story to all of you. Thank you.
    [The statement of David Forsell follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr.  Calvert. Thank you.
    Next, Mr. Joel Holtrop, Board of Directors, The Corps 
Network.
                              ----------                              

                                          Thursday, April 10, 2014.

                           THE CORPS NETWORK


                                WITNESS

JOEL HOLTROP, BOARD OF DIRECTORS CHAIR
    Mr.  Holtrop. Chairman Calvert, and Members of the 
Community, my name is Joel Holtrop, and I am the Chair of the 
Board of Directors of The Corps Network. The Corps Network is 
the national association of service and conservation corps. 
These corps are comprehensive youth development programs that 
provide their participants with job training, academic 
programming, leadership skills, and additional support through 
a strategy of service that improves communities and the 
environment.
    I served over 3 decades with the United States Forest 
Service, retiring as Deputy Chief of the National Forest System 
2\1/2\ years ago. Much of the work that we do will be in vain 
if there are not people who appreciate how and why we protect 
America's treasured places and resources, and this is why I am 
proud and honored to serve as the Chair of The Corps Network's 
Board of Directors.
    The Corps Network requests the committee's support for 
Fiscal Year '15 programs that will allow public land and water 
management agencies to engage young adults and veterans to meet 
our Nation's backlogged maintenance needs, address youth 
unemployment, and prepare a diverse group of youth to be the 
next generation of leaders.
    I would like to tell you about Chris Thomas, a former Corps 
member with the California Conservation Corps, and a veteran, 
having served in the United States Marine Corps in Iraq and 
Afghanistan. Chris has faced many challenges in his life. 
During Chris's 4 years in the Marines, he was wounded twice. He 
received shrapnel in his chest, and was stabbed, leading to a 
medical discharge. Soon after his discharge, he joined the 
California Conservation Corps. Through the Conservation Corps, 
Chris learned how to accept and embrace diversity. As a crew 
leader with the Corps, Chris led others in planting trees, 
habitat restoration projects, and fire fuel reduction. Chris is 
not sure what his life would look like today without the 
California Conservation Corps.
    In 2013 alone, over 100 Corps programs across the country, 
through their collective efforts as members of the Corps 
network, maintained and improved 2,900 urban parks, built and 
maintained 8,000 miles of trails, and protected communities 
from the devastating effects of wildfire. At present our member 
Corps has enrolled 26,000 Corps members a year, the majority of 
whom come from disadvantaged backgrounds, and are looking for a 
second chance to succeed in life.
    Corps members received a wide range of personal and 
professional development opportunities and services, including 
the hard work, guidance from adult leaders who serve as mentors 
and role models, academic programming designed to lead to a 
high school diploma or GED, opportunities to pursue 
certificates and credentials with demonstrated value, and a 
modest stipend, all to prepare them for post-secondary 
education and labor market success.
    Each year Corps complete hundreds of high quality and often 
technical projects on public lands and waters. Project sponsors 
consistently express a high degree of satisfaction with the 
quality of work. By using Conservation Corps, Federal land and 
water management agencies achieve more with their operating 
budgets. Research conducted by the National Park Service 
indicates that hiring Conservation Corps to complete 
maintenance and trail projects resulted in a cost savings of 
over 50 percent.
    We respectfully request the Subcommittee fund the following 
accounts, operation of the National parks in the Centennial 
Challenge for the National Park Service, the Department of 
Interior Youth Programs Account, and increased funding for all 
the operational accounts of the DOI bureaus and the U.S. Forest 
Service.
    Beginning with the creation of the Civilian Conservation 
Corps during the Great Depression, and over 80 years, 
continuing to the recent launch of the 21st Century 
Conservation Service Corps initiative, organizations like 
California Conservation Corps and Minnesota Conservation Corps 
have helped millions of young Americans gain job training, 
further their education, and contribute to America's 
communities through service and the conservation of National 
and State parks, forests, and other treasured places.
    As a career public land manager, I understand how important 
Conservation Corps are to the missions of the land management 
agencies. I hope that you will provide the funding to put 
thousands of youth and returning veterans, like Chris Thomas, 
to work restoring some of America's greatest historical, 
cultural, and natural treasures. With the approaching National 
Park Service Centennial, with billions in backlogged 
maintenance across all the land management agencies, with 
record youth unemployment, and with the cost savings nature of 
public-private partnerships, this funding is an absolute win-
win for our country. Thank you.
    [The statement of Joel Holtrop follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr.  Calvert. Thank you. Mr. Kashdan, we come from the same 
area. I remember as a kid we used to have forest fires all the 
time--the National forest--burning right on down to the city 
line. But a lot of those fires too were purposely set, to clear 
out the underbrush, and they were done quite often, at a very 
strong management profile. This is before 1990, of course. And 
I remember in the National forests, of course, you had timber 
operations that would cut trees, and then that stopped.
    Do you see any correlation in how we manage the forests 
starting in 1990 to these catastrophic fires we have now? Do 
you think we maybe mismanaged, or maybe looked at science wrong 
at that time?
    Mr.  Kashdan. Well, let me----
    Mr.  Calvert. Is that a part of it?
    Mr.  Kashdan. Let me speak to that, and--I mean, the 
Coalition here, which is a very broad viewpoint. So what I do 
want to say is that clearly the buildup of hazardous fuels, for 
a variety of reasons, insect and disease, longer seasons of 
drought, and some hazardous fuels, and indeed some projects 
where some active management that should have taken place that 
did not, all those are causal factors for where we are today, 
as well as suppression strategies, so----
    Mr.  Calvert. I think we are all together on Mike's bill 
because the way we have to--does not matter what the reason is 
now, we have a catastrophic fire. But I just want to say that 
some of us in the West believe that it was not entirely an 
accident. I mean, there may be other factors involved, but we 
believe also, many of us, that we did not manage the forest 
like we used to.
    And the old timers, your predecessors, I have talked to, I 
am sure many of us have talked to, they say, well, if you do 
not take out those mature trees, and do it in the right way, 
and manage the underbrush, and do the things that we used to 
do, then these fires are entirely predictable.
    Mr.  Kashdan. Well, from the standpoint of the National 
Association of Forest Service Retirees, I mean, we are very 
much on board with the need for multiple use management, active 
management, as a key way of reducing that risk. And when we say 
forest health activities, that is very much included in that.
    Mr.  Calvert. Yeah. As we go forward, I think that should 
be into consideration.
    Ms. McCollum.
    Ms.  McCollum. Thank you, Mr. Chair. I just have to make a 
plug for what Joel was talking about with the youth 
conservation club. I could shamelessly, I had no idea this was 
going to happen this afternoon. Show you pictures of me----
    Mr.  Forsell. Right.
    Ms.  McCollum [continuing]. Outside of Voyager's National 
Park with Youth Conservation Corps. And let me tell you how the 
money came together for this project. It was to clean up the 
Root River. It was on private land. All the private landowners 
were excited about it. It was to clean up some damage that had 
been done by not great logging practices in the past to restore 
walleye habitat and fish habitat into the chain of Voyager's 
Lake. Nature Valley had money in there. There was a Root River 
Fishers' Club that raised money. The National parks were out 
there helping, volunteering on their own time.
    It was just such a compilation of so many people coming 
together. So that was good in and of itself, but talking to 
these kids from the Twin Cities area, many of them recent 
immigrants. They got forestry. They understood what it meant to 
cut timber. Where the wood from their houses came from, and 
wood for their paper, and all that. They had a better 
appreciation for our National Park system. They were talking 
about science in a way that they said they would not have been 
at the beginning of the summer.
    So I do not know how much--I am sure you can do the dollar 
leverage on it, but it is amazing. It is phenomenal. It is 
transformative, not only for the landscape and the communities, 
but for those young adults themselves. So I had my request in, 
and now you know why.
    Mr.  Calvert. Mr. Simpson.
    Mr.  Simpson. I just happen to have some pictures here of 
some wildfires--I am just kidding. I like to tease Betty. She 
likes to tease me too, so----
    Ms.  McCollum. I will show you my big fish.
    Mr.  Simpson. Anyway, thank you all for being here today, 
and I have got to tell you, urban forestry is something that we 
really do not think about as much here in the United States as 
they do in some other countries. I was over Ramstein Air Force 
Base in Germany, and I was going around with the Commander, and 
he was showing me different things. And they had a couple trees 
out there, you know, they had some forest lands on the air 
base, and a couple of red ribbons on--I said, what are those? 
He says, those have to come out. I said, well, why those? He 
says, you have got to go talk to the urban forester. We have to 
manage them according to the guy that does all that.
    It is in the town, beautiful green spaces within their 
communities, and they are managed, and they look beautiful. So 
some of them are a lot more active than we are here.
    Mr.  Forsell. Yeah.
    Mr.  Simpson. Yeah.
    Mr.  Forsell. Thank you. I often tell folks, if you care 
about jobs, care about the urban forest, if you care about 
environment, if you care about property value. There are so 
many reasons to invest in urban and community forests. Take 
your pick.
    Mr.  Simpson. Well, one of the challenges we have, 
obviously, is that our budget Forest Service spent, you guys 
know this better than anybody else, 14 percent of their budget 
was on fighting wildfires. Today it is roughly 48 percent, 50 
percent. And you mentioned 2 things that are very important. 
One is the fact that this urban/wild land interface is getting 
into places it was never meant to get into before.
    Everybody that builds a house out there in that wild land 
wants the boughs of the trees touching their roof. I understand 
that. That is what I would want. But it is very expensive to 
try to save those structures once a fire starts out there, and 
we have got to do something about it. We have to get people to 
understand fire-wise, prevention techniques when they do 
buildings around communities.
    But the other thing that was important, and people actually 
need to visually see this, I went up to see what it took to 
fight one of these wildfires when they had the Clear Creek fire 
up in Salmon. There were 5,000 people up there fighting this 
thing. And, I mean, it is a city that they built, essentially, 
to fight this fire, and the challenges they face. We went over 
it one day in a plane, and you could see where everything was 
just black. I mean, it was burnt to the ground.
    And then all of a sudden there is this green island out 
there, and then on the other side it is black again. I said, 
how did that happen? He said, we did a prescribed burn there 2 
years ago. And just as you said, it came down hot, and when it 
got down there, it just cooled down, crept through the forest, 
blew up on the other side. We need to actively manage a lot of 
these forests, and particularly around areas that have cost us 
a lot of money to fight them. So I appreciate your support for 
the bill that we are trying to do.
    As I said, we are not trying to spend more money. We are 
trying to manage an account better so that the Forest Service 
can do their job better. And it is not just if you live around 
someplace that has wildfires. If you have any interest in any 
part of the Interior bill, whether it is the Smithsonian, 
whether it is, the National Zoo, or whatever it is, you ought 
to care about this, because how much we are spending on 
wildfires is affecting our ability to fund other things in this 
bill. So I appreciate your support, and the more people you can 
talk to in Congress, to co-sponsor this bill, it will help us a 
great deal. So thanks for being here today.
    Mr.  Calvert. Thank you, and do not forget our friends in 
the United States Senate. I thank this panel. You are excused.
    We will call up our next panel, Dr. Brian Haggard, the 
National Institutes of Water Resources, Robert Gropp, Chairman 
of the United States Geological Survey Coalition, John 
Palatiello, Executive Director of MAPPS, the National 
Association of Mapping, Surveying, and Geospatial firms, and 
Mr. John Geissman, Professor of Geoscience, University of 
Texas, Geological Society of America. If you will please come 
up and take your seats? You probably heard that we are under 
the 5 minute rule. We are enforcing the 5 minute rule as close 
as possible.
    I will recognize Brian Haggard of the National Institute of 
Water Resources.
                              ----------                              

                                          Thursday, April 10, 2014.

             NATIONAL INSTITUTES FOR WATER RESOURCES (NIWR)


                                WITNESS

BRIAN HAGGARD, DIRECTOR, ARKANSAS WATER RESOURCES CENTER
    Mr.  Haggard. Chairman Calvert, Mr. Simpson, and Mrs. 
McCollum, who just stepped out----
    Mr.  Calvert. No, she is right here.
    Mr.  Haggard. There she is.
    Mr.  Calvert. She is showing her fish. She held it out.
    Ms.  McCollum. When you do the Conservation Corps separate, 
you can catch fish.
    Mr.  Calvert. We know how she--she holds the fish way out 
there. Looks like it is 5 feet tall. All right, Mr. Haggard, we 
will not take that from your time.
    Mr.  Haggard. I am Brian Haggard, Director of the Arkansas 
Water Resources Center at the University of Arkansas, and also 
President of the National Institutes for Water Resources. Thank 
you for this opportunity to testify in support of the Water 
Resources Research Act program. I want to thank you for your 
strong support of our program, especially because this marks 
our 50th anniversary.
    On July 12, 1964 President Johnson signed into law the bill 
that authorized the establishment of our program. Our program 
is funded as part of the USGS's budget, representing a State-
based network of institutes that links State and Federal water 
interests and the academic expertise within our universities. 
We are the only Federally authorized research network that 
focuses on applied water research, education, training, and 
outreach.
    Our program has two components. The first provides base 
funding for each institute, where each Federal dollar invested 
must be matched with $2 from a non-Federal source. The second 
is a nationally competitive grant program, requiring each 
Federal dollar to be matched from $1 from other sources. The 
matching requirements of our program ensure that each State 
invest in its water resources research program and student 
training, and we leverage this Federal investment at an 
astonishing ratio of about 16 to 1 across the institutes on 
average.
    It is our base funding in the Water Resources Research Act 
that holds all of this together. The institutes specialize in 
identifying water problems within their State, developing 
solutions to those problems, and engaging with our stakeholders 
to implement those solutions. My institute, the Arkansas Water 
Resources Center, has sponsored research on the potential 
formation of disinfection byproducts when treating drinking 
water. These complex chemicals are potential carcinogens, and 
are regulated under the Safe Drinking Water Act. The results of 
these studies provide critical information to our water 
treatment plants and districts, ensuring that safe drinking 
water is available for the citizens of Arkansas.
    Because of the drought and water shortages in arid regions, 
the California Water Center has sponsored research on citrus 
and avocado production problems using reclaimed municipal waste 
water. The use of reclaimed water can influence soils and crop 
production because it contains high amounts of dissolved salts 
and other elements, like Boron. The studies suggest that 
farmers might have to adjust their irrigation practices, or 
manage soils with gypsum or other amendments, to irrigate with 
reclaimed water and sustain crop production.
    Idaho Water Resources Research Institute has predicted how 
water demand and use in the Boise River influence communities, 
economics, and climate in the important Treasure Valley. The 
Minnesota Water Resources Center has helped regional resource 
managers consider how managing mining waters and habitat 
restorations influence mercury accumulation in fish in the 
important St. Louis River estuary.
    For 5 decades our institutes have addressed critical water 
problems, answered essential research questions, and trained 
over 25,000 students. Today our institutes continue to fill the 
roles assigned by Congress in 1964, as well as further USGS 
National Water Mission. We recommend that the Subcommittee 
provide $8.8 million to the USGS for the Water Resources 
Research Institute Program for Fiscal Year 2015. The Water 
Institute directors recognize the fiscal challenges facing our 
Nation and Congress, but we also want to support the USGS 
coalition request to appropriate $1.2 billion for the USGS in 
Fiscal Year 2015.
    Thank you, and on behalf of all 54 institute directors 
across the U.S. and its territories, I want to thank you for 
this opportunity to testify, and for the Subcommittee's strong 
support of the Water Resources Research Act program. It is 
greatly appreciated.
    [The statement of Brian Haggard follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr.  Calvert. Thank you, Mr. Haggard.
    And next, Mr. Robert Gropp.
                              ----------                              

                                          Thursday, April 10, 2014.

                             USGS COALITION


                                WITNESS

ROBERT GROPP, CHAIRMAN
    Mr.  Gropp. Thank you, Mr. Chairman, Members of the 
Committee, appreciate the opportunity to appear before you 
today. I also will do my best to earn my Brownie points that I 
heard you were offering earlier. I will try. Again, my name is 
Robert Gropp, and I am the Director of Public Policy for the 
American Institute of Biological Sciences, but I am appearing 
here today as Chairman of the U.S. Geological Survey Coalition, 
which is an alliance of more than 70 organizations spanning the 
breadth of the scientific and data use initiatives of the USGS. 
And it has sort of come together years ago around recognition 
of the important role that USGS science plays not just for 
Department of Interior initiatives, and things like fire 
suppression, but for the Nation as a whole. And so I have 
provided a full statement for the record. I would like to just 
highlight a couple of our general points.
    Mr.  Calvert. Your full statement, without objection, will 
be entered into the record.
    Mr.  Gropp. So, as you know, the USGS is a unique agency in 
that it has a full breadth of biological water, geospatial, 
geological sciences, which really affords a unique opportunity 
for the agency to come together around complex problems and 
challenges, whether it is water quality, resilience to 
environmental change, climate change, things like that, in 
performing wise management of natural resources, or energy and 
mineral assessments, and mitigating the ramifications of that. 
So it is a unique blend of scientific expertise that can be 
brought to bear on these hazards.
    First of all, we appreciate all of your efforts over the 
past years to, in a bipartisan fashion, provide strategic and 
important new investments in the USGS, and to stave off 
damaging cuts to the programs. As you know, scientific research 
is a unique thing that requires sort of a consistent and 
predictable funding trajectory to be able to prevent 
disruptions in data gathering and analysis that can sort of 
destroy long term data sets, which the USGS maintains a lot of. 
So we appreciate that effort.
    We recognize, as does everyone else, the constraints that 
you are under. But, given that, to the extent that you can, and 
that there is money you can find, we appreciate it. Ideally the 
Coalition would like to get as close to 1.2 billion as 
possible, which would involve the current budget, plus a 
restoration of the 41 million in cuts that largely come from 
staff reductions, as well as cuts to scientific and core 
science programs, administrative support functions, as well as 
a number of ongoing research projects, such as wildlife and 
fish assessments, water quality programs, and the like.
    And so, in addition to that, that number includes 75 
million for available research opportunities that have been 
identified by the agency in 5 areas, from energy and minerals, 
to climate resiliency, to land management, and ecosystem 
assessments, sort of across the board initiatives that could be 
tapped to move the agency and the science forward. So, to the 
extent possible, that would be wonderful. We would appreciate 
that.
    Really, other than that, I do not want to continue on too 
much, other than to say that, again, we are a bit concerned 
about some of the cuts that are proposed in there, in that when 
you start cutting some of the scientific core functions, of 
course, science functions that support things like the 
bioscience data initiatives and so on, it is maybe a short term 
savings, but there are long term ramifications.
    And the other thing that I would comment on, I think that 
the USGS has done a remarkable job in the last couple of years 
in trying to protect science through creative measures to 
contain costs by limiting travel, and participation in some 
conferences and things, and I know that they are trying to 
build that back into the budget. And, as a scientist, I would 
like to encourage as much support as possible for the USGS to 
be able to send its people to conferences. Scientific meetings 
are incredibly important for exchange of knowledge for 
advancing ideas, for professional development, morale of the 
scientists, just the general broader scientific community. And 
so, to the extent that the committee help support USGS making 
those efforts possible, re-engaging in some of the professional 
development and training initiatives that have sort of been 
stalled a little bit to meet budget conditions, that would be 
greatly appreciated.
    [The statement of Robert Gropp follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr.  Calvert. Thank you.
    Next, John Palatiello?
    Mr.  Palatiello. Palatiello.
    Mr.  Calvert. Palatiello? Well, you got it.
    Mr.  Palatiello. Thank you.
    Mr.  Calvert. You are recognized for 5 minutes. This has 
been a real tongue twister of a week.
    Mr.  Palatiello. Took me 4 years to learn how to--
    Mr.  Calvert. Okay.
                              ----------                              

                                          Thursday, April 10, 2014.

 MAPPS--THE NATIONAL ASSOCIATION OF MAPPING, SURVEYING AND GEOSPATIAL 
                                 FIRMS


                                WITNESS

JOHN PALATIELLO, EXECUTIVE DIRECTOR
    Mr.  Palatiello. Mr. Chairman, Members of the Subcommittee, 
I am John Palatiello, and I am the Executive Director of MAPPS, 
which is a trade association of private sector geospatial 
firms, and I am also a consultant to the National Society of 
Professional Surveyors, which represents licensed professionals 
in the surveying community, both in public practice and the 
private sector.
    This Subcommittee has a great success story that is not 
well known. The Subcommittee helped transform USGS, beginning 
in the mid-1990s, from being a source of competition for 
private mapping firms to a full cooperative partner, and a 
source of business for the private sector. And, as a result, 
the USGS now has a very modern, responsive, and cooperative 
geospatial program.
    There are 2 issues that we are here to discuss today. One 
is the 3DEP, or 3 dimensional elevation program, in USGS. Both 
MAPPS and NSPS enthusiastically support this program, and we 
respectfully urge the Subcommittee to try to fully fund the 
President's request, or, if possible, increase the 
appropriations level to meet an extraordinary demand for 
current accurate elevation data for the nation.
    3DEP will satisfy that demand with consistent high quality 
topographic data, and a wide range of other 3 dimensional 
representations of the Nation's natural and constructed 
features. The applications that will benefit from 3DEP include 
flood risk management, agriculture, water supply, homeland 
security, renewable energy, aviation safety, and many others. 
USGS conducted a very comprehensive study that shows that there 
are more than $13 billion in annual benefits to the program, 
and a benefit-cost ration of 4.71 to $1 invested.
    The National Academy of Public Administration recently 
published a study called ``FEMA Flood Mapping, Enhancing 
Coordination to Maximize Performance''. It was requested under 
the Biggert-Waters bill in 2012. The NAPA report just came out 
a few months ago, and it recommended that OMB should use the 
3DEP implementation plan for nationwide elevation data 
collection to guide the development of the President's annual 
budget request. In other words, this should not be funded 
entirely through FEMA, or not entirely funded through USGS, 
because there are a variety of agencies, Corps of Engineers, 
Bureau of Reclamation, variety of Federal agencies, as well as 
State, local, and private beneficiaries of this program. We 
think 3DEP represents a best practices model for coordination, 
interagency and intergovernmental cooperation, and a strong 
public/private partnership with the private sector.
    While 3DEP is a success story, there is one area where 
there is need for improvement that I would like to bring to 
your attention today, and that is the fact that the Federal 
government and Department of the Interior lacks a current 
accurate inventory of the land that it owns. This has been 
recognized by GAO and the National Academy of Sciences, and it 
is potentially costing us billions of dollars.
    On the other hand, the government inefficiently maintains a 
plethora of often single purpose, or non-interoperable land 
ownership databases. Secretary Norton, under the Bush 
Administration, testified before this Subcommittee in 2005 that 
in Interior Department alone they use over 100 different 
property management systems. Now, in our discussion with folks 
at the Interior Department, little has been done to reduce or 
consolidate this proliferation of land inventories.
    So we would urge the Subcommittee to include language 
requiring the Secretary to conduct an inventory of inventories. 
We think this will improve land management. It is a classic 
example, in today's GIS technology, of map it once, use it many 
times. Or, as Congressman Lamborn of Colorado said in a 
hearing, the mantra seems to be, map it many times, and hoard 
the data. That should not occur anymore. So we think this 
inventory of inventories will help us identify what can be 
eliminated. If you do it once and do it right, you can save 
money by eliminating these duplicative programs.
    So, 3 requests. One is we would love to see the full 146 
million for 3DEP, but there is 5 million in the President's 
request. There is 236,000 for Alaska mapping, 1.9 million for 
National map modernization, and the full 60.4 million for the 
National Geospatial Program. We would like to see the 
Subcommittee go back to language it had in the '90s that 
reaffirms the USGS use of the private sector, with a certain 
percentage, and, again, we would like to see some leadership on 
reforming our land inventory activities. Thank you very much, 
appreciate it.
    [The statement of John Palatiello follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr.  Calvert. I thank the gentleman.
    And next, Mr. John Geissman, Professor of Geosciences, 
University of Texas.
                              ----------                              

                                          Thursday, April 10, 2014.

                     GEOLOGICAL SOCIETY OF AMERICA


                                WITNESS

JOHN GEISSMAN, UNIVERSITY OF TEXAS AT DALLAS
    Mr.  Geissman. Thank you, Chairman Calvert, Members of the 
Committee. Thank you for the opportunity today to testify on 
behalf of the Fiscal Year 2015 budget for the U.S. Geological 
Survey. My name is John Geissman. I am the past President of 
the Geological Society of America. It is the oldest 
professional geoscience society in North America. We celebrated 
our 125th birthday last year. We are a society of over 25,000 
members, representing all States in the country. Our 
memberships comes from industry, academia, as well as 
government, and we also represent 90 countries throughout the 
world. We are also a member of the Coalition for the U.S. 
Geological Survey.
    Many of my comments in my oral testimony, and in my written 
testimony, copies of which are provided here for the record----
    Mr.  Calvert. The full statement will be entered into the 
record without objection.
    Mr.  Geissman. Thank you, sir. Really reiterate the 
wonderful comments made by my colleagues already, so let me 
just cut to the chase about a couple of issues related to the 
U.S. Geological Survey and its budget for the future.
    Most of the USGS budget is allocated for research and 
development, and, in addition to underpinning the activities of 
the Department of the Interior, this research is also used by 
communities across the Nation to assist in land use planning, 
emergency response, natural resource management, engineering, 
and education. All of these partnerships allow the U.S. 
Geological Survey to leverage a variety of different monetary 
sources, making the most out of Federal research dollars.
    And let me just highlight a few important research areas 
that the U.S. Geological Survey is, of course, presently 
involved with. One, first and foremost, is natural hazards. 
Maybe I should not say first and foremost, but of great 
importance is natural hazards. These remain an issue regarding 
fatalities and economic losses throughout the world. We know 
very, very well that several areas in our country are extremely 
vulnerable to natural disasters.
    And yes, I agree with you that many forest fires are indeed 
natural disasters in the comments made earlier. These include 
earthquakes, tsunamis, volcanoes, landslides, as evidenced by 
last month's major natural disaster in the Stillaguamish River 
Valley in Northwest Washington. And, as a matter of fact, U.S. 
Geological Survey maps had very, very nicely demonstrated that 
that area affected, and all of the homes destroyed, were 
sitting right on top of an older landslide. The survey has 
compiled a very detailed map throughout the country of 
potential landslide disasters, as well as potential earthquake 
and volcanic disasters.
    I would like to draw, in terms of not too ancient history, 
today is the first anniversary of the largest landslide in 
North America in historic time that is not related to a 
volcano. And that landslide is not associated with a single 
human calamity, nor any property destroyed, any. That landslide 
took place in the Bingham Canyon Mine, run by Kennecott Copper, 
and the reason that there were no effects from this landslide 
is it was so intensely monitored. We, the community, knew 
exactly when that landslide was going to happen. Warnings took 
place, and the area was evacuated, just a year ago.
    Through the U.S. Geological Survey, research improves our 
understanding of these geologic hazards, and allows for better 
planning and mitigation in these areas to reduce future losses. 
So we urge Congress to support USGS efforts to upgrade its 
natural hazards monitoring and warning systems to protect 
communities from the devastating personal and economic effects 
of natural disasters.
    My second example here is that energy and mineral resources 
are critical to the National security and economic growth of 
our country. Even commercials say so. The U.S. Geological 
Survey is the sole Federal information source on mineral 
potential production and consumption. USGS assessments of 
energy resources, such as shale oil, and gas, and geothermal 
resources, are essential for making informed decisions about 
the Nation's energy future. We are greatly concerned about 
potential cuts to mineral resources related programs and their 
effect on the ability of our Nation to safely develop new 
resources.
    And just finally, to close, current history, I believe, is 
demonstrating that we live in the century of the geosciences, 
the study of the solid earth, the atmosphere, and hydrosphere. 
The impact of cuts to the U.S. Geological Survey budget, and 
other Federal budgets related to the geosciences, or the next 
generation of geoscience professionals, will be huge. And on 
that note I conclude, and thanks very much for your attention.
    [The statement of John Geissman follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr.  Calvert. Thank you, and thank you for your comments. 
There has been discussion here about mapping, and especially 
from Robert and John, and we had BLM out here the other day 
testifying about completely remapping all of BLM's property, 
which is significant, obviously, in the United States. But it 
is interesting to note we have not done a good job of it, or of 
mapping U.S. property throughout the United States, and doing 
the overlays on that, what kind of resources it has, or what 
kind of natural problems or advantages it may have.
    Nowadays, with satellites, and other technical means, do 
you have any comments on how we can do this, does anybody have 
any idea what something like this would cost to do if we did it 
in an organized, efficient, using both the public and private 
sector to put together a good set of maps that is very 
accessible, and people can look up on, like, Google Earth and 
be able to zero in on any piece of property? Any comments? 
Yeah.
    Mr.  Geissman. I will just make a quick one, that is 
included in my formal testimony, and that is the preservation 
of the Landsat mission, I think, is essential to at least a 
part of the solution to this problem, regardless of how it is 
preserved, through the number of different government agencies 
that keep it going.
    Mr.  Palatiello. The question of the cost is difficult to 
answer, Mr. Chairman, because you mentioned several different 
layers, and each of those layers adds a cost. The level of 
detail and accuracy that you want in each of those is a factor 
of, at what altitude to you fly? Either the satellite imagery, 
or the aerial photography, or hopefully, in the not too distant 
future, the UAV, so you can get real low altitude and real high 
resolution data.
    The 3DEP program, which is the----
    Mr.  Calvert. Good luck on that, yeah.
    Mr.  Palatiello. Well, we are getting there. We are hoping 
to get there.
    Mr.  Geissman. Can't we use the NSA's?
    Mr.  Calvert. Yeah. They are also under our jurisdiction. 
We do not do that.
    Mr.  Palatiello. That is a subject for----
    Mr.  Calvert. I want to make everybody relax here. We are 
not doing that.
    Mr.  Palatiello. That is a subject for a whole other 
hearing. To do a 7 year repeat cycle on the elevation data, it 
is 147 million a year. To do the parcel layer for land 
ownership of the entire country, the National Academy estimates 
it being, I think 247 million. So the public lands are about a 
third of the country, so to do the parcel layer of the Federal 
land ownership would be about a third of that.
    I know that you all chuckled when I said we are looking for 
an inventory of inventories. We believe that we could pay for 
the parcel layer of the Federal land by eliminating the waste 
that is in duplication of stovepipe land inventories that are 
being conducted today. It truly is map it once, use it many 
times.
    I could get you a number for the record. There is an 
initiative called the National Spatial Data Infrastructure that 
has 7 framework layers of data that the Federal government is 
attempting to accomplish. I believe there is a dollar figure on 
what the estimated cost of that is, and I would be happy to try 
to provide that for the record.
    Mr.  Calvert. And there may be ways to pay for that----
    Mr.  Palatiello. Yes, sir.
    Mr.  Calvert [continuing]. So we can have a discussion?
    Mr.  Palatiello. Yes.
    Mr.  Calvert. Ms. McCollum.
    Ms.  McCollum. Just 2 points. I was laughing about the 
mapping and the inventory stuff because it sounds like what you 
really need is a good librarian. But I was going to say, there 
is a lot of information out there. I am sure there are ways to 
collect it. But with climate change, what is going to happen in 
the coastal areas. What is going to happen in some of the 
lakes? With lake shore property having a good database to work 
off of will be very important. Several States I know have 
shoreline, and depth of water, and everything else for 
boundaries, and that possibly changing.
    And then with USGS, I will just speak to what is happening 
in the Twin Cities. We are finding we are going through our 
water much faster than we thought we did. What is happening to 
our reservoirs, our artesian systems and everything, is really 
quite frightening. So I think there is going to be another 
layer that USGS is going to be asked to be involved in, which 
is going to make managing our water resources, and how we treat 
our water, what chemicals we allow to put in our water, going 
to be even more important for future generations.
    So I think you described--there is a lot of work to do, and 
very little resources, so thank you.
    Mr.  Palatiello. Could I comment?
    Mr.  Calvert. Very quickly.
    Mr.  Palatiello. Ms. McCollum, number one, on the 
librarian, the USGS is a wonderful custodian and archive of 
geospatial data. And to Mr. Simpson's point about accessibility 
to this data, they do a very good job of making that data 
accessible, so I really give them credit on that, number one.
    Number two, the National, what is it, hydrologic data set 
is one of the more robust that USGS and the Water Resources 
Division does maintain. With regard to coastal and lakes, we 
will be happy to talk to you. There is a bill that Mr. 
Ruppersburger and Mr. Young of Alaska have to create, actually, 
through NOAA, a digital coast framework of digital geospatial 
data for both the coastal areas and the Great Lakes of the 
United States to build exactly the kind of data set for sea 
level rise, lake level rise, and the inland impacts of that as 
well.
    Ms.  Simpson. Thank you all for being here. Thanks for the 
work that the Water Resources Institute is doing across the 
country. I know they do important work in Idaho, and I suspect 
everywhere else, but nobody has mentioned stream gauges. Make 
sure you keep stream gauges going out there. It seems like a 
minor thing, but it is a big thing. And once you interrupt the 
science of that, by taking stream gauges out, all of a sudden 
you have interrupted that science. Appreciate all you guys do.
    Mr.  Palatiello. Thank you.
    Mr.  Calvert. Appreciate you coming out. You are excused. 
Thank you for your attendance. Excuse me.
    Our next panel, Mr. James Ogsbury, Executive Director of 
the Western Governors' Association, Mr. Terry Mansfield, Board 
of Directors, Partners for Conservation, Mr. Hildy----
    Ms.  Angius. Miss.
    Mr.  Calvert. What is that? Okay. Hildy Anguis----
    Ms.  Angius. Angius----
    Mr.  Calvert. Angius----
    Ms.  Angius [continuing]. Like the cow.
    Mr.  Calvert [continuing]. Like the cow----
    Ms.  Angius. Like the cow.
    Mr.  Calvert [continuing]. Mojave County Arizona Board of 
Supervisors. Okay--close. And Mr. Mark--is it Mustoe?
    Mr.  Mustoe. Mustoe, yes.
    Mr.  Calvert. Mustoe, Co-Owner and Manager of the 
Clearwater Seed Company, former Chair, Environment and 
Conservation Seed Division, American Seed Trade Association. 
Welcome. You have probably heard my talk about 5 minute rule. 
We appreciate your being here. We want to hear from each one of 
you. And, James, you are recognized for 5 minutes.
                              ----------                              

                                          Thursday, April 10, 2014.

                     WESTERN GOVERNORS' ASSOCIATION


                                WITNESS

JAMES OGSBURY, EXECUTIVE DIRECTOR
    Mr.  Ogsbury. Mr. Chairman, and Members of the 
Subcommittee, my name is James D. Ogsbury. I am the Executive 
Director of the Western Governors' Association. WGA is a 
bipartisan organization that represents the governors of the 19 
westernmost States and 3 U.S. flag islands. The governors very 
much appreciate this opportunity to testify before you today.
    As you know, an overwhelming majority of Federally owned 
and managed land is contained within the boundary of Western 
States. The West has vast tracts of forestlands and rangelands 
that are susceptible to fires and invasive species infestation. 
The West is home to countless species of plants and animals, 
many of which are the subjects of litigation and regulatory 
processes under the Endangered Species Act. And the West faces 
serious challenges with respect to drought and water 
management.
    For all of these reasons, and many others, the Western 
governors recognize the importance of your work, the importance 
of this particular Subcommittee, and the regional impacts of 
your recommendations. They appreciate the enormity of your job, 
and are prepared to help you help them as they endeavor to 
bring their resources, expertise, and leadership to bear on the 
problems and opportunities confronted by Western States.
    With respect to many Federal efforts, States are more than 
stakeholders. They are co-regulators. They have Constitutional 
responsibilities. They are a level of government that is close 
to the people, with specialized competencies and knowledge that 
should be deployed for the more efficient administration of 
government programs. Western governors are anxious to partner 
with Federal agencies in ways that promote efficiencies and 
cost-effectiveness.
    On that point, Western governors believe that it would be 
beneficial if States were to assume a greater role in the 
design and execution of Federal policies, programs, and 
regulatory decisions, the impacts of which are localized and 
dramatic within Western States. Many Federal statutes 
explicitly outline a strong role for States. Many others 
delegate authority to States for their execution. This 
Subcommittee can play a central role in building upon the 
statutory model to create a new paradigm for an authentically 
cooperative Federal-State relationship.
    I know that you are just as concerned with how scarce 
taxpayer dollars are spent as you are with the allocation of 
budget authority and outlays. As you provide oversight and 
direction to the agencies within your jurisdiction, we 
encourage you to think about productive engagement of State 
resources. To this end, WGA offers a number of specific 
recommendations, which are outlined in greater detail in my 
written testimony. I will briefly summarize those suggestions.
    Last year the Subcommittee included language in its report 
directing Federal land managers to use State fish and wildlife 
data and analyses as principal sources to inform land use and 
land planning decisions. We thank you, and encourage you to 
reiterate and strengthen this language for Fiscal Year 2015.
    Western Governors believe that States should be full and 
equal partners in the implementation of the Endangered Species 
Act, and should have the opportunity to participate in pre-
listing and post-list ESA decisions in the establishment of 
quantifiable species recovery goals, in the design and 
implementation of recovery plans, and as parties in 
administrative and judicial actions involving ESA.
    Several Federal statutes, including the Clean Water Act, 
Clean Air Act, and Resource Conservation and Recovery Act vest 
the States with the role of co-regulator with the EPA. That 
role would be significantly enhanced by greater State 
representation on the Science Advisory Board. The Subcommittee 
is urged to ensure that EPA achieves more balanced SAB 
representation, to include State participation that constitutes 
no less than 10 percent of the membership of SAB Subcommittees 
and subject matter panels.
    On March 25 the Administration unveiled a proposed rule of 
the EPA and U.S. Army Corps of Engineers intended to clarify 
the jurisdictional reach of the Clean Water Act. WGA is 
concerned that States were insufficiently consulted in the 
development of this proposal, and encourages Congressional 
direction to EPA to more meaningfully engage the States in the 
creation of rulemaking such as this, which had the potential to 
fundamentally redefine the roles and jurisdiction of States.
    With respect to funding levels of jurisdictional programs, 
WGA recommends full funding of a permanent mechanism for the 
Payment In Lieu of Taxes Program, as well as continued funding 
of the Secure Rural Schools Program. Because State 
responsibilities for species conservation are increasing in 
number and complexity, the Subcommittee is urged to reject the 
$8.7 million to the State and Tribal Wildlife grant program 
proposed by the Administration.
    This Subcommittee is well informed regarding the pressing 
problem of fire borrowing. You have heard a lot about that 
today. WGA supports legislation that would solve this budgetary 
issue by creating a funding structure similar to that used by 
FEMA in response to natural disasters. During last year's 
government shutdown, certain National Parks were kept open 
through the initiative and efforts of Western States. The 
Subcommittee is encouraged to compensate those States for the 
cost they incurred in shouldering a Federal obligation.
    Does red mean stop? We offer these recommendations in the 
spirit of cooperation and respect, and we are prepared to 
assist you in any way as you discharge your very important 
obligations and responsibilities.
    [The statement of James Ogsbury follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr.  Calvert. Red means stop.
    Okay, next we have Terry Mansfield with the Partners for 
Conservation.
                              ----------                              

                                          Thursday, April 10, 2014.

                       PARTNERS FOR CONSERVATION


                                WITNESS

TERRY MANSFIELD, BOARD OF DIRECTORS
    Mr.  Mansfield. Thank you, Chairman Calvert.
     Voice. And that light means your mike is on.
    Mr.  Mansfield. Chairman Calvert, Members, thank you very 
much. My name is Terry Mansfield, I am a landowner from Cheney, 
Washington, and a Board member of an organization, Partners for 
Conservation. On behalf of Partners for Conservation, thank you 
for the opportunity to provide comments on the 2015 Interior 
Appropriations Bill.
    I am a rancher, consulting wildlife biologist from eastern 
Washington, is my background. Partners for Conservation is a 
landowner-led nonprofit organization, working cooperatively 
with the U.S. Fish and Wildlife Service.
    We respectfully request that the Subcommittee support the 
following funding allocations: Funding of $75 million for the 
Partners for Fish and Wildlife Program; funding of $55 million 
for the North American Wetlands Conservation Act; funding of 
$14 million for the Joint--for the Habitat Joint Ventures 
within the North American Waterfowl Management Plan Program; 
funding of $900 million for land and water conservation, and 
funding of $58.7 million for state and tribal wildlife grants.
    As a member of Partners for Conservation, I just briefly 
provide a little background. Our principles, we belief firmly 
that collaboration gets work done, local lessons have national 
impact, voluntary incentive-based programs create trust and 
foster success, and sustainability is achieved by balancing 
ecological and economic means.
    We are a growing organization. We are seeking to have a 
goal of representation in 50 states. We currently have a 
membership extending from Montana to New Mexico, and California 
to Florida.
    Just a little bit of background. I live and work in eastern 
Washington. My wife and I own a ranch. We raise cattle and 
sheep. We--our goal is to maintain a sustainable livestock 
operation, and also enhance fish and wildlife habitat values on 
our property. We entered into a voluntary conservation easement 
for wetland restoration in our area.
    Just briefly, I would like to touch on what motivates me to 
be involved with Partners for Conservation, and why I am in 
support of the Partners for Fish and Wildlife Program. The 
simple answer is public and private partnerships need to work 
cooperatively to focus our energy and available funding on 
cost-effective programs, to sustain agriculture while 
conserving our natural resources. It is my firm belief that 
there is a sweet spot in which we can focus our collective 
efforts to leverage financial resources to sustain working 
agricultural lands while conserving those valuable resources.
    In my area, roughly 75 percent of the area is privately 
owned. The Federal Government agencies can't do the 
conservation all alone. They need the support and cooperation 
of private landowners.
    In my particular case, on our ranch, we entered into a 
Department of Agriculture conservation easement, but we 
partnered that, we had Ducks Unlimited doing engineering, we 
had partners for Fish and Wildlife advising on our technical 
assistance on restoration, we also worked with the Washington 
Department of Fish and Wildlife, the state agency. I would 
submit that the Partners Program is a core group that allows 
for this partnership to work. It is extremely successful. It 
produces results through voluntary partnerships.
    I just touch on national. In the last 25 years, the 
Partners Program has assisted 45,000 landowners in conserving 
over 1 million acres of wetlands, 3 million acres of upland 
habitat, and restored 11,000 miles of streams. They end up 
leveraging, for each dollar appropriated, approximately $8 in 
project spending and over $15 in overall economic returns. The 
program is highly supported by landowners.
    I want to also touch on the other programs and how they 
fit. Why should PFC and me as a rancher be in support of those 
programs? Well, land and water conservation, state wildlife 
grants, the joint ventures and the North American Waterfowl 
Conservation Act, they all fit together, they are all tools to 
be used by the Partners for Fish and Wildlife, and the state 
wildlife agencies, and delivering effective programs on private 
lands.
    The land and water conservation funds are a classic example 
of flexibility. Flexibility that can be used for local 
solutions to leverage dollars, and one of the most effective 
tools that we have seen, and firsthand examples by our Board 
members from California to Florida, South Dakota to Kansas, 
involves that fund source for acquiring conservation easements 
in high priority areas.
    Finally, I request the $58.7 million for state and tribal 
wildlife grants. That is the local connection with the state 
priorities, they tend to serve to keep common species common, 
and get ahead of the federal listing requirements that happen 
when we don't act proactively and collaboratively.
    We also recognize the value of--in the face of the budget 
challenges you are--you and your colleagues are looking at, we 
certainly realize tough decisions need to be made. We also 
realize though the value of sharing with you the on-the-ground 
experience from landowners.
    Mr. Chairman, I greatly appreciate the opportunity. PFC, 
Partners for Conservation, invites you to come visit any of our 
ranches to see firsthand how we put it on the ground.
    Thank you, Mr. Chairman.
    [The statement of Terry Mansfield follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr.  Calvert. Thank you for the invitation and thank you 
for your testimony.
    Next, Hildy Angius, Chairman, Mohave County Arizona Board 
of Supervisors. Welcome.
                              ----------                              

                                          Thursday, April 10, 2014.

               MOHAVE COUNTY ARIZONA BOARD OF SUPERVISORS


                                WITNESS

HILDY ANGIUS, CHAIRMAN
    Ms.  Angius. Thank you. Thank you, Mr. Chairman, and 
Members of the Subcommittee, and thank you for the opportunity 
to provide this testimony.
    My name is Hildy Angius. I am the Chairman of Mohave County 
Arizona Board of Supervisors. I have traveled here today to 
inform you about a recent U.S. Fish and Wildlife Services 
decision to end a 52-year-old rainbow trout-stocking program at 
the Willow Beach National Fish Hatchery. The Service's decision 
will have a severe economic impact on Mohave County, the 
nation's fifth largest county in square miles, because the 
program helped support a multimillion dollar recreational 
fishing and tourist industry in the region, an industry that 
makes up over 30 percent of Mohave County's economy. We believe 
that the Service is acting contrary to law, public policy and 
science, and is doing so without sufficient public 
participation and transparency.
    I ask this Subcommittee to prioritize resources to help 
restore the Willow Beach rainbow trout-stocking program, and 
the economic stimulus it provides to my region.
    The Willow Beach Hatchery is located along the Colorado 
River near the border of Nevada and Arizona, within Mohave 
County and the Lake Mead recreation area. The hatchery was 
established in 1962 to raise rainbow trout for release into the 
Lower Colorado River system, to help mitigate for impacts to 
that system from the construction and operation of the Hoover 
and Davis Dams. The hatchery was established pursuant to the 
Fish and Wildlife Coordination Act, and the 1959 Memorandum of 
Understanding between the Bureau of Reclamation, National Park 
Service, and the Fish and Wildlife Service. That 1959 MOU is 
still in effect today.
    According to a study prepared for the Arizona Department of 
Fish and Game, recreational fishing within Mohave County in 
2001 alone contributed $74.5 million to the local economy, and 
supported approximately 1,682 jobs. It would be hard to imagine 
a more effective federal stimulus program for our region, yet, 
on November 24, 2013, Mohave County learned that the Service 
was terminating the Rainbow Trout Propagation Program at the 
Willow Beach Hatchery. The Service claims that it lacks 
sufficient funds to repair a broken waterline that delivers 
water from Lake Mohave to the trout ponds at the hatchery. The 
Service has known since 2010 that its water delivery system was 
in need of maintenance, but failed to take corrective measures. 
My county is now suffering because of that failure. In fact, 
the Service's incompetence in managing the water delivery 
system resulted in the death of over 60,000 fish last year. The 
tragedy was completely avoidable.
    Now the Service is claiming that it has no choice but to 
eliminate the entire trout program because it can't afford to 
fix a pipe. We believe the estimates to fix that pipe are 
greatly exaggerated. The Service will tell you that they aren't 
shutting down the Willow Beach Hatchery. Well, that is true, 
but going forward, they will spend all available funding on 
raising endangered bony tail chubs and razorback suckers using 
an alternative water supply. While endangered species recovery 
efforts are obviously worthwhile, Mohave County has been 
struggling to understand where the Service gets its authority 
to unilaterally alter the fundamental purpose of this critical 
mitigation hatchery.
    David Hoskins, Assistant Director for Fish and Aquatic 
Conservation, has told me personally that it was a 2002 
Congressional policy change that altered the focus of the 
nation's mitigation fish hatcheries. Although I have requested 
it, I have not been provided, nor have I seen any evidence of 
that being true. Instead, we fear the Service is attempting to 
shift the blame for the economic crisis currently threatening 
my county onto Congress.
    We also fear that the Service is ignoring its legal 
obligations to evaluate potentially serious environment effects 
associated with terminating trout operations. Rainbow trout are 
a food source for the striped bass, or stripers as we call them 
locally. If that food source is taken away, the stripers are 
likely to prey on bony tail chub or other endangered species. 
This probability was confirmed by a senior Fish and Wildlife 
Service official in February.
    Federal agencies are required by law to evaluate the 
environmental, economic and socioeconomic consequences of their 
actions before taking action. We are not aware of any--analysis 
that has been performed by the Service to support its decision. 
Any decision to shut down the program requires careful 
evaluation and study, and certainly a lot more public and 
stakeholder engagement than what has been provided to date, 
which has been zero.
    In closing, I am here to ask your help on behalf of Mohave 
County. We respectfully request that immediate steps be taken 
to prioritize the use of existing resources, to fix the pipe 
and resume the trout-stocking program. Please take action to 
ensure that the Service can't unilaterally circumvent Congress 
by prioritizing suckers over trout. Please fulfill the 
mitigation commitments that were made to communities along the 
Colorado River over 52 years ago.
    Thank you for your time.
    [The statement of Hildy Angius follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr.  Calvert. Thank you, Ms. Angius. Thank you for your 
testimony.
    Next we have Mr. Mark Mustoe, you are with the American 
Seed Trade Association.
                              ----------                              

                                          Thursday, April 10, 2014.

                    AMERICAN SEED TRADE ASSOCIATION


                                WITNESS

MARK MUSTOE, CLEARWATER SEED LLC
    Mr.  Mustoe. Yes. Thank you. Chairman Calvert and members 
of the Committee, thanks for the opportunity today to testify 
before you.
    My name is Mark Mustoe. I am co-owner and manager of 
Clearwater Seed Company in Spokane, Washington. We are a grow-
our-own company, producing high quality native grass and forb 
seed for restoration. My farm is located in north central Idaho 
near Kendrick.
    I am honored to be here today representing the American 
Seed Trade Association. Founded in 1883, ASTA represents over 
700 companies involved in seed production, distribution and 
plant breeding. My testimony includes recommendations for the 
U.S. Department of Interior, Bureau of Land Management, 
regarding native seed development and procurement. And I would 
just like to present my written copy for the record.
    Mr.  Calvert. Without objection, that will be put into the 
record.
    Mr.  Mustoe. The Environmental and Conservation Seed 
Committee of ASTA represents approximately 80 percent of the 
companies that sell seed to the U.S. Government for 
restoration, reclamation and conservation projects by the 
Bureau of Land Management. The vast majority of these companies 
are small, but many have been in the seed production business 
for decades. We appreciate the work of the BLM, but we are 
concerned that their policies and directions in regard to site-
specific native seeds are not practical in the existing budget 
climate.
    We recommend that the BLM revisit its current practices, 
and allow more known and introduced and tested native species 
to be used in fire reclamation and restoration projects. We 
also recommend that they recognize the work of USDA's 
Agriculture Research Service, and Natural Resource Conservation 
Service, plant material centers on appropriate species for BLM 
projects.
    Our comments today are grounded in both seed science and 
practical seed production. We support the use of tested and 
proven native seeds that can be successfully grown for seed 
production. The assumption that we can restore a changing range 
lane site simply by using only site-specific natives or 
indigenous seed is unproven at best.
    The ecosystems that the BLM wishes to restore function 
differently today than they did historically. Ecological damage 
to western rangelands due to fire and invasive weeds is 
accelerating, making it harder for unproven species to grow and 
thrive. The BLM is downplaying the significance of general 
adaptation, of varieties for successful restoration, and 
placing primary importance on the geographical origin of the 
seed.
    Since 2001, the BLM has spent over $70 million on native 
plant material development efforts. The BLM has stated that its 
plan is to develop 1,000 native restoration workhorse species, 
250 of which would have new specific guidelines for restricting 
the transfer of seed from one location to another. The 
development of new plan materials is duplicating work already 
being done by USDA. Instead, those funds could have been used 
by the BLM to secure millions of pounds of already available 
seed to successfully restore thousands of acres. Furthermore, 
it is not feasible or scientifically justified to have seed 
companies produce and store small quantities of 1,000 different 
local ecotypes of seed. Before any of these new plant materials 
are recommended by BLM, field testing to provide evidence of 
their potential to succeed needs to be conducted. Our records 
document that the BLM frequently seeks to develop and procure 
seeds from unproven species which are deemed local ecotypes. 
This dramatically increases the cost of seed, and also puts in 
jeopardy the land that will be left open to erosion and 
invasive plants should that planting fail.
    The fiscal year 2014 Omnibus Appropriations Bill included 
the following language to express the need for greater 
transparency for BLM procurement, and I quote, ``The Committee 
is concerned that seed procurement procedures and priorities 
are duplicative and add unnecessary costs to Bureau programs. 
The Committee instructs the Bureau to establish a system to 
publicly communicate its yearly estimated seed needs by 
variety. The BLM must implement the fiscal year 2014 
appropriation language. In addition, we recommend the following 
instructions be added this year: 1, that the Bureau should give 
a higher priority to the most cost-effective and readily 
available seed varieties in its purchasing decisions, where 
appropriate, and 2, that the Bureau should coordinate with the 
plant material centers at the USDA's Natural Resource 
Conservation Service, and the Agricultural Research Service in 
making such determinations. ASCA wholeheartedly supports 
ongoing funding for proactive restoration and reclamation 
projects. Our goal is no different than the BLM's. Restoration 
of more public lands, with a real commonsense approach for a 
better environment for all.''
    I thank you for the opportunity today to testify, and will 
certainly answer questions.
    [The statement of Mark Mustoe follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr.  Calvert. Thank you very much for your testimony.
    Mr. Ogsbury, a very--a couple of issues. The Western 
Governors' Association is a bipartisan group. I think your co-
chairman is--now is the Governor of Colorado and the Governor 
of Nevada, is that correct?
    Mr.  Ogsbury. That is correct, sir.
    Mr.  Calvert. Is it also true, recently, that the Western 
Governors' Association came out against a new rule that EPA is 
proposing on the waters of the United States?
    Mr.  Ogsbury. First of all, I should clarify, the chairman 
of WGA is Governor Hickenlooper of Colorado, and the vice 
chairman is Governor Sandoval of Nevada.
    And it is not technically correct to say that we oppose the 
rule. We expressed concerns about the procedures associated 
with its development. We think the states were insufficiently 
consulted at the front end of the rule-making process.
    Mr.  Calvert. The Science panel has not concluded its 
results.
    I would hope that the Western Governors would stay in 
communication with the committee as we move forward on this 
issue. It is gaining a lot of interest.
    Mr.  Ogsbury. We appreciate that----
    Mr.  Calvert. And----
    Mr.  Ogsbury. [continuing]. And we have developed, I think, 
a very cooperative relationship with the Subcommittee and with 
the staff, and we appreciate your----
    Mr.  Calvert. And did the Western Governors' Association 
come out yet in favor of Mr. Simpson's Bill? I will be----
    Mr.  Ogsbury. We have come out in favor of the principles 
behind the Bill.
    Mr.  Calvert. Okay. And one last issue regarding the sage 
grouse, you mentioned endangered species, that is probably on 
top of your list I suspect?
    Mr.  Ogsbury. Very much so, sir.
    Mr.  Calvert. And we are going to work very closely with 
Fish and Wildlife and with the BLM and others, to hopefully 
make sure that it isn't listed. And Dan Ashe the other day 
indicated to us very strongly that nothing will occur before 
September 2015, giving us time to do the necessary things. I 
hope that the Governors participate to make sure that we don't 
have such a listing.
    Mr.  Ogsbury. Well, if I might, sir, the Governors are very 
much involved in the Sage Grouse Task Force, which was 
established originally by then-Secretary of the Interior 
Salazar and Governor Hickenlooper and Governor Mead of Wyoming. 
They have invested untold time and resources and manpower to 
avoid a listing, and to protect the species. And those efforts 
continue, and will commend your attention to the sage grouse 
inventory that was published by the Western Governors' 
Association, that is a--that represents a compendium of the 
efforts of the various states to protect the----
    Mr.  Calvert. And we appreciate your ongoing interest in 
that.
    Mr.  Ogsbury. Thank you, sir.
    Mr.  Calvert. One comment and then I will turn it to Ms. 
McCollum.
    Ms. Angius, you are not alone on the many voices we have 
heard lately from people across the country who love fishing 
and the National Fish Hatchery System. I can assure you that 
this Subcommittee will act aggressively to sure-up the 
Fisheries Program. We like fisheries here.
    Ms.  Angius. Thank you very much.
    I just want to add that Willow Beach is an anomaly. It has 
to do with this pipe that Fish and Wildlife is saying that they 
cannot find the money anywhere----
    Mr.  Calvert. How much are we talking about?
    Ms.  Angius. They are saying anywhere between $1.5 to $9 
million. It is quite a swing. Our engineers have----
    Mr.  Calvert. That's enough for government work.
    Ms.  Angius. Yeah. I have----
     Voice. Yeah.
    Ms.  Angius. Our engineers have assessed it and we believe 
it is under $\1/2\ million, if that much, and we are prepared 
to even help along if even asked.
    Mr.  Calvert. Okay. We appreciate that.
    Ms.  Angius. Happily.
    Mr.  Calvert. We appreciate all the help we can get.
    With that, Ms. McCollum.
    Ms.  McCollum. Thank you, Mr. Chair.
    Mr. Mustoe, I am a little confused. I don't want to leave 
here confused about what your goals are.
    On page 2, you say the BLM's native plant material 
development and procurement efforts are unrealistic and 
unsustainable goals for the Federal Government. But then at the 
end you say the Bureau should give a higher priority to the 
most cost-effective and readily seed available varieties in 
purchasing decisions, where appropriate.
    I am taking this from your testimony that you don't support 
anything the BLM is doing with seeds.
    Mr.  Mustoe. No, no, no. I----
    Ms.  McCollum. That is why I wanted to give you a chance.
    Mr.  Mustoe. Yeah, no, thank you. No, as stated, we wholly 
support restoration, wholly support the use of sound science, 
use native species and introduced species. What is happening 
though is the BLM is pouring millions of dollars into what I 
would call recreating the wheel of plant development. There are 
already dozens of species of plant material available that were 
growing, that have come out of plant material centers, and they 
are going and collecting and they are reinventing the wheel, 
and while all this time and money are being spent, I would say, 
in trying to develop hundreds of plant materials. It doesn't 
make sense--
    Ms. McCollum. How?
    Mr. Mustoe. [continuing]. When they are already there and 
available.
    Ms. McCollum. I understand the tension. I went through this 
with the nurseries in Minnesota when we were reintroducing some 
native species. I know there can be sweet spots to be found.
    Mr. Mustoe. Um-hum.
    Ms. McCollum. Because we don't want to necessarily just 
lose the potential of having native seed together, so I just 
wanted to be clear.
    Mr. Mustoe. And----
    Ms. McCollum. [continuing]. Where you were. Thank you.
    Mr. Mustoe. [continuing]. Supporters of native seed and 
what we have been doing.
    Ms. McCollum. Thank you.
    Mr. Mustoe. Thanks very much.
    Mr. Calvert. Mr. Simpson.
    Mr. Simpson. Along those same lines. Are you aware of any 
delays in BLM efforts to reseed burned over areas because of 
new genetic requirements for seeds that are too localized to be 
commercially viable?
    Mr. Mustoe. We have seen it in the forest service 
especially, that sites that have not been seeded, period, 
because they are asking for a specific, site-specific seed from 
that fire, and, quite frankly, unless we knew 5 years ago there 
was going to be a fire there, and we collected it and then put 
it in a breeding program, we wouldn't have it. So they are 
choosing to not seed at all with natives that are perfectly 
native. Bluebunch wheatgrass is bluebunch wheatgrass, but when 
you are put in a box and you can't move it more than 30 miles, 
and this has been moving and transferring with animals and 
birds for thousands of years.
    Mr. Simpson. Okay, thank you.
    Mr. Mustoe. Yeah, thank you.
    Mr. Simpson. Hildy, the Chairman of the Mohave County Board 
of Supervisors, I have a feeling the Fish and Wildlife Service 
has got their hands filled with you.
    Ms. Angius. Well, we, you know, we have our ongoing issues, 
and, you know, we had a public hearing about this, and anything 
you guys can do to help us, we would appreciate it.
    Mr. Simpson. I guarantee you we will look into it.
    Ms. Angius. Thank you very much.
    Mr. Simpson. Mr. Mansfield, beyond the Fish and Wildlife 
Service's programs that you mentioned, how else can the Fish 
and Wildlife Service work better with private landowners such 
as in their refuges or endangered species programs?
    Mr. Mansfield. Mr. Simpson and Mr. Chairman, I think there 
are a number of ways, and I think open communication, 
collaboration, just that mindset. I think the Partners for Fish 
and Wildlife Program is the only program with the Service that 
is dedicated to cooperative relation, to working with private 
landowners. I think there are some great successes out there, 
and I think emulating that and moving it out. I think the 
refuge system has made some positive steps, in some cases, 
partners biologists to work on the private lands are actually 
stationed on the refuges. Turnbull National Wildlife Refuge 
near my ranch is one example. And I think that tends to, quite 
frankly, broaden the role. I think the local community 
appreciates the Service and their program. I think it is a two-
way street on communications.
    Mr. Simpson. Yeah.
    Mr. Mansfield. Build trust, build relationships. Government 
agencies can't do it alone. I think there are outstanding 
models through the Partners for Fish and Wildlife Program to 
essentially put a wider hat on the Service in some of those 
rural landscapes where conservation needs are contentious, and 
we can make progress.
    Mr. Simpson. I think we are going to be more successful in 
the future working with private landowners, and I have worked 
with the birds of prey representatives in the Peregrine Fund, 
with the falcon in Texas and working with local landowners and 
ranchers. You find out when you work together, you can actually 
solve some problems. I think you are going to see more of that, 
and hopefully we will be more successful in stopping the 
extinction of some of these species, and getting them delisted.
    So I appreciate all you do. Thanks for being here from the 
Western Governors' Association. We will work on a lot of things 
together. Governor Otter is always very supportive of the 
Western Governors. Thank you.
    Mr. Calvert. Thank you, and we thank the panel. You are 
excused.
    Introduce the next panel. And at this point, Mr. Simpson is 
going to take over so I can catch an airplane. So I will leave 
it to you.
    Mr. Simpson. [presiding] Okay, are there any names you 
can't pronounce there? No?
    Voice. Plumer.
    Mr. Simpson. Ms. Christy Plumer, Director of Federal Land 
Programs and U.S. Government Relations for The Nature 
Conservancy; Mr. Gary Werner, Executive Director, Partnership 
for the National Trails System, and John Calvelli. Calvelli. 
John. The executive vice president for public affairs of the 
Wildlife Conservation Fund.
    We are under the 5-minute rule, as you all know.
    Ms. Plumer, you are first. Go ahead.
                              ----------                              

                                          Thursday, April 10, 2014.

                         THE NATURE CONSERVANCY


                                WITNESS

CHRISTY PLUMER
    Ms.  Plumer. Thank you. Thank you, Congressman Simpson, 
Ranking Member Moran, and Members of the Subcommittee.
    My name is Christy Plumer, I am director of federal land 
programs with The Nature Conservancy's U.S. Government 
Relations Department.
    The Nature Conservancy is an international, nonprofit 
conservation organization, working in all 50 states and around 
the world to protect ecologically important lands and waters 
for nature and people. Our mission is to conserve the lands and 
waters upon which all life depends.
    As we enter the fiscal 2015 budget cycle on another year of 
a challenging fiscal environment, the Conservancy continues to 
recognize the need for fiscal austerity. Our budget 
recommendations this year reflect a balanced approach, with 
funding levels consistent with the President's budget. Requests 
are in rare instances such as wild land fire or funding for the 
states reflect specific program needs.
    Of particular note, we wish to work with the Subcommittee 
and the authorizing committees on identifying permanent funding 
solutions for wildfire funding, the Land and Water Conservation 
Fund, and payment in lieu of taxes. And wish to thank you, 
Congressman Simpson, and Ranking Member Moran for all of your 
work on this front, both the competitive stateside program of 
Land and Water Conservation Fund as well as making this linkage 
between LWCF--so we really appreciate your efforts on those 
fronts.
    The Conservancy is concerned about the increasing impact of 
wildfire suppression funding on interior funding levels, and 
urge Congress to support efforts to enact the Wildfire Disaster 
Funding Act. I know you have heard a lot about this today, but 
again, thank you. All Members of this Subcommittee are now 
cosponsors of that legislation, and we really appreciate your 
support for that.
    The process of funding suppression for the Department of 
Interior and USDA Forest Service will create budgetary 
stability and accountability, while liberating critically 
needed appropriations funds within the Interior allocation. For 
the Land and Water Conservation Fund, the fiscal year 2015 
present budget proposes establishment of a dedicated long-term 
funding for the Land and Water Conservation Fund, both a split 
of mandatory funding as well as current appropriated funding at 
the $350 million level for appropriated, $550 for the 
permanent.
    Obviously, this is going to be a huge lift, and something 
that we want to work with the Subcommittee and members of the 
authorizing committees to move forward. Obviously, other 
important programs funded by LWCF, the Forest Legacy Program, 
Section 6 Program, both housed under that LWCF framework are 
also very important to the Conservancy, and ones we want to see 
continue to remain in there, as well as stateside LWCF Program. 
So we look forward to working with you there.
    On other fronts, the Conservancy supports the Western 
Governors' Association's request for the Subcommittee to 
consider issuing a recommendation for land management agencies 
within its jurisdiction, to utilize State Fish and Wildlife 
data and analyses to inform the land use, land planning and 
related natural resource decisions of those agencies.
    We have significant concerns about the reduced funding in 
the State and Tribal Wildlife Grant Program, and obviously I 
know that is of import to the Subcommittee, and something that 
members have expressed interest in raising that funding level 
this year.
    And finally, I cannot speak about appropriates without 
mentioning the increasing cost of wildfire suppression, and the 
impacts of all agencies and programs funded by the 
Subcommittee. In the last 2 years, over $1 billion were 
transferred from non-suppression programs at the Forest 
Service, Department of Interior, when annual suppression funds 
were exhausted. This places incredible strain on the budgets of 
already constrained agencies that are forced to stop their 
other land management responsibilities, including the very ones 
like restoration, that have the ability to reduce the risks and 
costs of wildfires. Additionally, the last 2 years of transfers 
were repaid, not from emergency supplementals, but from the 
next fiscal year's Interior Bill, further reducing levels going 
to other programs funded through the Interior Bill.
    Suppression predictions are not getting any better for the 
current fiscal year, or the next, and this is neither 
sustainable nor an efficient method of running a budget, as we 
all know. Congress currently holds the solution, and that is 
the Wildfire Disaster Funding Act. Through its enactment, first 
responders will be provided with the upfront resources and 
agencies and programs funded by the Subcommittee will be 
provided with that needed stability. Just as important as 
appropriately funding suppressing is funding those activities 
that reduce the cost and risk of fire. Conservancy recommends 
investing in forest restoration activities like hazardous 
fuels, and the collaborative Forest Landscape Restoration 
Program. The Conservancy's additional recommendations are 
included in our written testimony for the record.
    Thank you for this opportunity to testify.
    [The statement of Christy Plumer follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr.  Simpson. Thank you, Christy.
    Gary? You always give me one of those trail maps and it 
makes me want to go hiking on a trail.
                              ----------                              

                                          Thursday, April 10, 2014.

               PARTNERSHIP FOR THE NATIONAL TRAILS SYSTEM


                                WITNESS

GARY WERNER, EXECUTIVE DIRECTOR
    Mr.  Werner. Wonderful. Thank you, Congressman Simpson, and 
Congresswoman McCollum. I am Gary Werner. I am the executive 
director of the Partnership for the National Trails System. I 
am here today representing the citizen stewards of the 30 
national scenic and historic trails, to thank you, your 
predecessors and your staff on this Committee for over 2 
decades of continuous funding support and oftentimes very 
critical guidance being given to the 3 agencies that administer 
and manage these trails.
    I want to gladly report to you and assure you that our 
commitment as your partners continues to grow. It is as strong 
as ever. In 2013, we are--organizations volunteers who recorded 
more than 1.1 million hours of volunteer labor, the fourth year 
in a row at that level, amounting to, with the financial 
contributions, about $36 million worth of support for the 
trails. Congress was able to provide $24 million that year to 
the Park Service, the Forest Service and the Bureau of Land 
Management for these trails. So the public-private partnership 
here is strong. We are hoping it could be a bit stronger.
    The first request I have is that these trails, although 
that map looks like they are all there on the ground, none of 
them is really fully complete or finished, and so we are 
requesting that you appropriate for 2015 a little over $16 
million to the Park Service, a little over--about $8.7 million 
to the Bureau of Land Management, and about $9.1 million to the 
Forest Service to operate these trails. That amounts to about a 
$9 million increase over what the President's budget is 
requesting for the trails, but you need to consider them, as I 
say, works in progress that continue to need investment, both 
on the public side and on the private side.
    Like the Nature Conservancy and the organizations this 
morning supporting the Land and Water Conservation Fund, we 
fully support the President's budget request for the full $900 
million, and we also support the efforts to find a way to get 
to that by the mandatory funding, and if that includes linkages 
with payment in lieu of taxes and other vital services, we 
encourage you to be creative in all of that.
    In particular, we want to ask you to full fund, at $57.7 
million, the National Trail System Collaborative Landscape 
Planning Proposal included within the President's budget. That 
will fund the purchase of 53 parcels of land along 15 national 
scenic and historic trails, including several in Idaho on the 
Nezperce, and California national historic trails, and on the 
North Country National Scenic Trail in Michigan.
    We also ask you to substantially increase funding for the 
Challenge Cost Share Programs of the Park Service, the Forest 
Service and the Bureau of Land Management. For the Park Service 
in particular, $4 1/2 million, for the Bureau of Land 
Management, $5 billion--million, and as you have done in the 
past, we would ask that you provide the guidance that the Park 
Service, about a third of that money should come for the 
National Scenic and Historic Trails. We have successfully 
leveraged the money in the past at a 3 to 1 ratio, and 
oftentimes as much as a 10 to 1 ratio.
    The other assistance we would ask you for is in the Bureau 
of Land Management's budget, which, as you know, is faced--it 
is a programmatic budget with subactivity accounts, the 
National Scenic and Historic Trails are units of the National 
Landscape Conservation System, but they do have no line budget 
in that budget, no subactivity account. Rather, they are 
currently funded out of 8 or 9 separate subactivity accounts, 
whereas the other units of that National Landscape Conservation 
System, the wilderness areas, the national monuments and 
conservation areas, do have individual subactivity accounts. 
This puts the Bureau's involvement with the Park Service and 
the Forest Service at a disadvantage in administering and 
managing those trails, when they have the bulk of the 
responsibility on the ground.
    Last thing I would ask you for, and this is in regard to 
the Forest Service's budget with the trail maintenance backlog, 
we support what I think was mentioned this morning by the 
Wilderness Society, at least $85 million for--per year for the 
Trail's account in the Forest Service, if there is any chance 
of getting the backlog built down. We are perfectly happy and 
willing and able, without volunteers, to play a major role in 
that effort, but the $77 million level that is being requested 
by the President this year just is not enough to address with 
that.
    And so again, I thank you very much for not only the 
funding, but the guidance and support you have given over the 
years in this experiment in public-private citizen stewardship 
of public resources.
    [The statement of Gary Werner follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr.  Simpson. Thank you, Gary.
    John.
                              ----------                              

                                          Thursday, April 10, 2014.

                     WILDLIFE CONSERVATION SOCIETY


                                WITNESS

JOHN CALVELLI, EXECUTIVE VP FOR PUBLIC AFFAIRS
    Mr.  Calvelli. Good afternoon, Congressman Simpson, 
Congresswoman McCollum. Thank you for the opportunity to offer 
testimony on fiscal year 2015 Interior Appropriates Bill.
    I am the executive vice president of public affairs for the 
Wildlife Conservation Society, which was founded in 1985 with 
the help of Teddy Roosevelt, with the mission of saving 
wildlife and wild places worldwide. Today, WCS manages the 
largest network of urban wildlife parks in the United States, 
led by the flagship Bronx Zoo, and globally we work in more 
than 60 countries to protect 25 percent of the world's 
biodiversity.
    Internationally, we have reached a crisis with regard to 
the international trafficking of wildlife. U.S. Government 
estimates compiled by the Congressional Research Service last 
summer showed that illegal trade in endangered wildlife 
products, including elephant ivory, rhino horns and turtle 
shells, is worth at least an estimated $7 to $10 billion 
annually, and because of the lucrative nature of this 
enterprise, there is increasing evidence that transnational 
criminal organizations and terrorist groups that are involved. 
Groups like Al Shabab, Lord's Resistance Army, The Genguide. 
And in other major trafficking operations such as drugs, humans 
and weapons, they are also now getting engaged in wildlife 
trafficking as well.
    On the ground in African and elsewhere, WCS scientists are 
seeing firsthand the devastating impact poaching is having. In 
2012 alone, we estimated that 35,000 African elephants were 
poached for their ivory. That is an average of 96 elephants per 
day, or 1 killed every 15 minutes. The subspecies of African 
forest elephants has seen a decline of 76 percent since 2002. 
Continued poaching at these rates may mean the extinction of 
forest elephants within a decade.
    The Federal Government recently announced a national 
strategy for combatting wildlife trafficking, which is designed 
to provide a framework for a whole government approach to 
addressing wildlife trafficking. Several programs within the 
Bill form the foundation upon which the strategy is built. The 
Multinational Species Conservation Fund, managed by the U.S. 
Fish and Wildlife Service, provides funding to conserve a 
number of global priority species. WCS has used money from MSCF 
programs to help sustain wildlife populations by stopping 
poaching, reducing human-wildlife conflict, and protecting 
essential habitat. These programs are highly efficient, 
granting them an outsized impact because they consistently 
leverage 2 or 3 times as much in matching funds from 
corporations, conservation groups and national governments.
    WCS requests that $10 million be appropriated for the MSCF 
for fiscal year 2015, equal to the fiscal year 2009 funding 
level.
    Similarly, the Wildlife Without Borders global and regional 
programs are a great investment in addressing cross cutting 
threats to ecosystems and wildlife such as disease outbreaks, 
human-wildlife conflict and the bush meat trade. In fiscal year 
2015, WCS recommends funding the Wildlife Without Borders 
Program equal to the President's request of $7.2 million.
    Within the Wildlife Without Border Program is the 
Critically Endangered Animals Fund. This is a fund actually 
that is less than $1 million, which was created in 2010 to 
provide grants to protect the most imperiled species on the 
planet.
    Also within Fish and Wildlife Service, I would like to 
highlight the Office of Law Enforcement. Many of the new 
responsibilities placed on Fish and Wildlife Service by the 
National Strategy will be enforced by OLE, and WCS supports the 
President's request for $67-$66.7 million.
    We would also encourage the Committee to support the OLE's 
effort to deploy personnel at key embassies overseas to 
facilitate investigations involving species that are victimized 
by illegal trade.
    I would like to encourage the Committee to support an 
appropriation of $58.7 million, equal to fiscal year 2014 
levels, for the State and Tribal Wildlife Grants Program, which 
gives states and tribes funding to implement conservation plans 
to protect declining wildlife and habitats before protection 
under the ESA is necessary.
    And finally, WCS supports an appropriation of $8 million, 
equal to last year's funding level, for the U.S. Forest 
Service's International Programs, which helps to improve the 
sustainability and legality of timber management processes 
overseas. This translates to less underpriced timber, 
undercutting U.S. producers, which in last estimate, I believe, 
was approximately costing America about $1 billion.
    I appreciate the opportunity to share WCS's perspectives, 
and make a case for continued investment in conservation, which 
reaffirms our global position as a conservation leader, 
improves our national security, and builds capacity and good 
governance in developing countries.
    Thank you.
    [The statement of John Calvelli follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you.
    Ms. McCollum.
    Ms. McCollum. John, you didn't--because you were focused on 
the poaching.
    Mr. Calvelli. Yes.
    Ms. McCollum. I appreciate what you said, and the comment 
about the embassies. I have brought the groups that do 
international work whether it is Smithsonian, U.S. Fish and 
Wildlife, USGS, Parks, all together. The embassy continuity is 
a concern of embassies changing over. U.S. Fish and Wildlife 
or, if we even have the Park Service go in and do some of the 
training. This will create the continuity that we don't have in 
the embassies. I am hearing from the ambassadors that they 
wouldn't mind having the continuity.
    Mr. Calvelli. Um-hum.
    Ms. McCollum. Have you heard that too?
    Mr. Calvelli. Yes, we have heard the same thing, and I 
apologize, I was watching the clock because I know you have had 
a long day, and----
    Mr. Simpson. Appreciate it.
    Mr. Calvelli [continuing]. I worked here for 12 years so I 
know your time is valuable, and I left some of that out. The 
fact is the continuity issue is very important, but more than 
that, just trying to get Fish and Wildlife Service employees 
into these embassies has been somewhat daunting at times, just 
because of logistics. And we can go into some specific details 
on a one-on-one, but we just feel that getting people on the 
ground to help with some of this, especially in places like 
Tanzania, would be very, very helpful.
    Ms. McCollum. Thank you.
    Mr. Chair, I think our challenge is going to be for some of 
our colleagues on the floor to explain why we would have Park 
Service and U.S. Fish and Wildlife expending funds 
internationally because you and I both heard the rhetoric, but 
I think we have an opportunity with briefings in that, 
especially around with the poaching to maybe change some minds.
    Mr. Calvelli. I just wanted to share one kind of incredible 
statistics. We are headquartered in New York. New York, 
according to one study that was done, has as large an ivory 
market as Beijing. We are part of the problem, not part of the 
solution, number one. Number two, based on whatever studies you 
want to look at, it is anywhere from 25 percent to 1/3 of all 
ivory in the U.S. is illegal, which basically means it is being 
poached by these organizations. So fundamentally, if you are 
buying a piece of ivory, you may be funding terroristic 
activities.
    This is not about--this is--forget morality for a moment, 
we are being foolish if we don't do something, and we can stop 
this on the ground. We have to change. We have a three-part 
strategy which is stop the killing, stop the trafficking and 
stop the demand. At the end of the day, we need to be making 
sure that we have people on the ground, helping to stop that 
trafficking from going on because if we don't, there won't be 
any elephants left to save in the wild.
    Ms. McCollum. And the cost of ivory was equivalent to the 
cost of gold, and rhino was----
    Mr. Calvelli. Rhino to heroin. So we are at real--at this 
point because if we don't do something, especially rhino horn, 
there is a belief that it has certain medicinal properties, but 
when you look at ivory, this is only for ornament. It is 
ornamental in nature. We actually can do something about that.
    Mr. Simpson. So as you know, the Fish and Wildlife Service 
is talking about a rule to clamp down on the legal sale of 
ivory, ivory that is sold by people for a variety of different, 
ornamental reasons, firearm, and many other purposes.
    Mr. Calvelli. Um-hum.
    Mr. Simpson. It is completely legal.
    Mr. Calvelli. And----
    Mr. Simpson. And I realize that it is sometimes difficult 
to distinguish between what is legal and what is illegal.
    Mr. Calvelli. Yes. Yes. That is exactly----
    Mr. Simpson. Are we taking value from someone by saying 
essentially that you can no longer trade the legal product that 
you own?
    Mr. Calvelli. So I think first of all, there are ways of 
working around some of those issues, and we have actually been 
having very, very good conversations with the bow makers of the 
United States of America----
    Mr. Simpson. Sure.
    Mr. Calvelli [continuing]. And there are 50 of them that 
are making bows for violins, et cetera. These small----
    Mr. Simpson. Sure.
    Mr. Calvelli [continuing]. Entities, and we need to kind of 
figure out a commonsense solution. I would just pause at one 
different perspective, which is Tanzania and Kenya and many of 
the poorest countries in the world have destroyed their ivory 
stocks, which ostensibly could be worth tens of millions of 
dollars, to send a message that we need to do something.
    I would ask, could we as a government and as a country make 
that same kind of commitment so that we can help save this 
species from extinction.
    Mr. Simpson. It is easy to make that commitment as a 
government, but as an individual that owns something that is of 
a certain value.
    Mr.  Calvelli. Um-hum.
    Mr.  Simpson. The government by its activities, is going to 
make it worthless.
    Mr.  Calvelli. I completely understand the problem.
    Mr.  Simpson. That is a challenge. We have to deal with it.
    Mr.  Calvelli. Yeah. Yeah.
    Mr.  Simpson. Okay.
    Mr.  Calvelli. And I--we need to deal with it----
    Mr.  Simpson. And I am not suggesting there is not a way to 
do it, and I am not suggesting that I don't want to stop all 
the poaching of elephants either.
    Mr.  Calvelli. Yeah, exactly.
    Mr.  Simpson. I appreciate that. I appreciate you are 
willing to work on that.
    Mr. Werner, if the Subcommittee can increase trail 
maintenance activities, how do we do so in a way that shares 
the cost with those who would benefit by it? Do you want to 
answer that for the record?
    Mr.  Werner. I don't know. I mean it would be obviously 
fees that would be collected by the agencies that administer 
the land. There are----
    Mr.  Simpson. Are there any fees that would go into effect 
on the trails that are out there now? If you are going to go 
hike one of these trails that you have on your map, are there 
any fees that the hiker pays along the way?
    Mr.  Werner. There would be fees, you know, a number of 
them go through national parks, and there would be entrance 
fees for the parks, I think. On the national forests in 
general, no. On the Bureau of Land Management land, generally 
no.
    Mr.  Simpson. There are rec fees on a lot of our national 
forests when you go park at a certain place.
    Mr.  Werner. Right.
    Mr.  Simpson. Sometimes you have to have certain----
    Ms.  McCollum. Honor boxes.
    Mr.  Simpson. Right.
    Mr.  Werner. Right.
    Mr.  Simpson. No, they are actually more than honor boxes.
    Ms.  McCollum. Well----
    Mr.  Simpson. You have to have a permit that is kind of 
like a snow machine tag or something similar.
    Mr.  Werner. Right.
    Mr.  Simpson. Or they will get you to come back to your 
parking place and there will be a ticket on your car.
    Mr.  Werner. Right.
    Mr.  Simpson. And it is usually 50 bucks or something like 
that. Those are some of the things that have been implemented, 
and there has been opposition to it, there has been support of 
it, and the money stays in the region to help those forests and 
to help. I don't have a problem with it because it helps 
maintain the parking lots and bathrooms.
    Mr.  Werner. Right.
    Mr.  Simpson. Is there anything similar to that on any of 
the trails?
    Mr.  Werner. There----
    Mr.  Simpson. I am not suggesting for the public that we do 
it.
    Mr.  Werner. Right.
    Mr.  Simpson.
    Mr.  Werner. No.
    Mr.  Simpson. I am just inquiring.
    Mr.  Werner. As you can well imagine, one of the challenges 
with trails that are thousands of miles long is that a lot of 
the access points to them are not on public land, and so----
    Mr.  Simpson. So you wouldn't suggest we put a snow machine 
sticker on our forehead when they go?
    Mr.  Werner. No. I am just saying----
    Mr.  Simpson. But is it something to think about?
    Mr.  Werner [continuing]. It would be difficult.
    Mr.  Simpson. How are we going to maintain these things and 
declining resources and trying to find the funding to do these 
things. We are trying to find creative ways to mend some of 
these things, and I appreciate that.
    Mr.  Werner. I understand that, and I know that--I 
mentioned the volunteer hours and we have been tracking them 
for close to 20 years, and they keep increasing----
    Mr.  Simpson. Yeah.
    Mr.  Werner [continuing]. And I think there is----
    Mr.  Simpson. Yeah.
    Mr.  Werner [continuing]. And I won't say it is a 
limitless, but I think there is a much larger pool of people 
out there, you heard all of the Service Corps testimony earlier 
today, of sources of help outside the government to do the 
physical work----
    Mr.  Simpson. Yeah.
    Mr.  Werner [continuing]. On the ground. The part of it 
that I would caution from my experience, and ask you to keep in 
mind, is there is no free lunch, meaning you still need enough 
money supporting to programs and the agencies that they can 
have the right personnel out there to be able to coordinate and 
guide the, whether they are volunteers or they are Service 
Corps or whatever, in the work. And there has been a tendency 
with the tightening budgets in the Park Service, Forest 
Service, and Bureau of Land Management, to look at volunteer 
and outside labor as essentially like a free labor source, 
meaning----
    Mr.  Simpson. Yeah.
    Mr.  Werner [continuing]. We don't need the staff to----
    Mr.  Simpson. Right.
    Mr.  Werner [continuing]. You know, to help with that, and 
that just doesn't work.
    Mr.  Simpson. Yeah.
    Christy, a lot of work the Conservancy does, and you 
brought up a really important thing.
    Ms.  McCollum. Your bill?
    Mr.  Simpson. Not the only thing, but that was the really 
important thing. The second really important thing is the other 
issue I am working on, and that is trying to tie SRS, PILT, and 
LWCF together, and get them mandatorily funded and out of the 
budget. And while we haven't been, it will fall on us if the 
mandatory funding that runs out after this year that was in the 
Farm Bill goes away. All of a sudden, there is another $400 
million hit on our Bill. That affects everything else we do in 
the interior bill.
    So trying to find the vehicle to tie these together and to 
pay do it, it would be nice not to have these uncertainties 
that exist with the Land and Water Conservation Fund, PILT, and 
SRS where you are doing things over a long period of time, and 
landowners need to have some certainty that it is going to be 
there. So it is an important thing we all need to keep working 
on, so I appreciate you mentioning that.
    Ms.  Plumer. Thank you.
    Mr.  Simpson. Yeah.
    Mr.  Werner. Could I respond?
    Mr.  Simpson. Sure.
    Mr.  Werner. As you are well aware, the, you know, 50 years 
ago the, what would you call it, the trade-off of taking non-
renewable resources, i.e., oil and gas, off the continental 
shelf and reinvesting that in this important heritage of the 
country in the Land and Water Conservation Fund, maybe is the 
model, and maybe the model should be looking at other fees 
coming off of energy production in the country, not just non-
renewable but maybe even renewable resources as a way of 
reinvesting.
    And so I--because I--I mean one approach would be the 
offshore oil and gas leases are huge now, okay, but that is not 
going to go on forever, but maybe if you--if the basic concept 
of we are using up some resource, let us reinvest some of that 
in resources that are priceless for all of us, forever. And 
certainly, the, you know, the combination of the 3 programs 
that you are talking about, that solution would be--I think 
would be marvelous. So--and thank you for your efforts.
    Mr.  Simpson. We will continue working on it until we find 
a solution, but we have people--we have groups that have 
different interests in different parts of it that are all of a 
sudden starting to talk and work together, and see if they can 
find a common solution. So that is very important.
    Thank you all for being here today.
    Mr.  Werner. Thank you.
    Mr.  Simpson. We appreciate it very much.
    Okay, next, Byron Williams, the executive director of the 
Wildlife Society; Joshua Saks, the legislative director of the 
national Wildlife Federation, and Will Gartshore.
    Mr.  Gartshore. That is it.
    Mr.  Simpson. Is that it?
    Mr.  Gartshore. That is it.
    Mr.  Simpson. That was pretty good, I thought. Yeah. U.S. 
Government relations for the World Wildlife Fund.
    Byron, you are up first.
                              ----------                              

                                          Thursday, April 10, 2014.

                          THE WILDLIFE SOCIETY


                                WITNESS

BYRON (KEN) WILLIAMS, EXECUTIVE DIRECTOR
    Mr.  Williams. Well, thank you, Congressman Simpson and 
Congresswoman McCollum. I appreciate the opportunity to be here 
and to provide some recommendations for you.
    I am Ken Williams--Byron K. Williams, with the--I am the 
executive director of the Wildlife Society. The Society is a 
nonprofit scientific and educational association that was 
founded in 1937. We've been around for a while. We have about 
10,000 professional wildlife scientists and managers and 
another 10,000 or so affiliates dedicated to excellence in 
wildlife stewardship through science and education.
    There are a number of programs that TWS--for which you have 
oversight that TWS actively supports. We've identified many of 
those in our written testimony. I'll highlight just a few of 
those here today for three agencies.
    The first one of those agencies is the U.S. Fish and 
Wildlife Service, which oversees State and tribal wildlife 
grants--the grants program, which is the only Federal program 
that supports states in preventing wildlife from becoming 
endangered. It is a primary program supporting implementation 
of the State Fish and Wildlife action grants, which detail 
conservation actions needed on the ground in every state to 
keep common species common and avoid this nightmare of the 
Endangered Species Act.
    The--it supports the economy by providing 28 jobs for every 
one million dollars that are--that is spent, double the number 
of jobs supported by road and bridge construction, so it is a 
good buy. We recommend Congress sustain this year's funding at 
58.7 million dollars for the State Wildlife Grants Program.
    The Wildlife Society is a member of the Cooperative 
Alliance for Refuge Enhancement. The society supports the 
presidential quest for the National Wildlife Refuge Program's 
operations and maintenance accounts at 476.4 million. Refuge 
system is an exceptionally good investment in that it actually 
pays for itself several times over by generating 4.87 dollars 
in economic activity for every 1 dollar appropriated by 
Congress, yet in recent years appropriations have not only 
failed to account for rising costs, but have declined steadily, 
resulting in the loss of 324 employees in 2011, equivalent to 9 
percent of the staff. We support O&M funding for the National 
Wildlife Refuge System for 476.4 million dollars.
    The second agency that I would like to make recommendations 
for is the Bureau of Land Management. With lands that support 
3,000 species of wildlife, including more than 300 federally 
proposed or listed species. Historically the Wildlife and 
Fisheries management and threatened endangered species 
management programs within BLM have been forced to pay for the 
compliance activities of BLM's energy grazing and other non-
wildlife related programs, eroding their ability to conduct 
pro-active conservation activities and their efforts to recover 
listed species. We recommend that Congress appropriate the 
president's request of 52.6 million for BLM wildlife management 
and 52 million for BLM's endangered species program.
    The Wildlife Society is part of the National horse and 
Burrow rangeland management coalition that promotes science-
based range land management. We support the requested increase 
of 2.8 million dollars for BLM's wild horse and burrow 
management program to implement the National Academy of 
Science's recommendations and to continue research and 
development on contraception and population control. There are 
more than 12,000 horses above the appropriate management levels 
on the range right now, and there are another 50,000 horses 
that are off sight--in off-sight loading facilities. TWS is 
very concerned about BLM's emphasis on fertility control alone 
as a way to deal with this very large overpopulation problem.
    So the requested 80.2 million dollars for the BLMs Horse 
and Burrow Program should be provided if--on the proviso that 
they continue removing excess non-native horses from the range 
at a reasonable rate and focus on additional resources for 
habitat restoration. The current report language limiting the 
use of humane euthanasia for unwanted and unadopted horses 
should be removed to enable BLM to have all the necessary 
management tools allowed within the free--within the wild free 
roaming horse and burrow Act to bring populations within 
manageable numbers for the benefit of native ranges and the 
welfare of the horses.
    The third agency I would have a recommendation for is the 
U.S. Geological Survey, home to the Cooperative Fish and 
Wildlife research units which conduct research for renewable 
natural resource questions, participate in the education of 
graduate students, provide technical assistance and 
consultation to states on natural resource issues, provide 
continuing education for national resource professionals. The 
Wildlife Society is a member of the National Cooperators 
Coalition representing some 84 organizations supporting the 
work of the cooperative research units which are located in 38 
states, including the great state of Idaho, the great state of 
Minnesota, and every other state on this committee except one.
    In order to fill current vacancies and enhance national 
program coordination the National Cooperators Coalition and the 
wildlife Society strongly support an increase in the--the 
increase in the president's budget to 18.5 million for the 
cooperative research units for fiscal year 2015.
    The U.S.G.S. National Climate Change and Wildlife Science 
Center plays a pivotal role in addressing the impacts of 
climate change. We recommend that Congress fund the National 
Climate Change and Wildlife Science Center at the requested 35 
million in fiscal year 2015.
    Thank you for considering these recommendations. We would 
be happy to answer any questions you might have concerning our 
request.
    [The statement of Byron ``Ken'' Williams follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Mr.  Simpson. Thank you, Byron. Joshua.
                              ----------                              

                                          Thursday, April 10, 2014.

                      NATIONAL WILDLIFE FEDERATION


                                WITNESS

JOSHUA SAKS, LEGISLATIVE DIRECTOR
    Mr.  Saks. Thank you, Congressman Simpson. I am Joshua 
Saks. I serve as the legislative director for the National 
Wildlife Federation, the nation's largest member-based 
conservation and advocacy organization. And for the past 77 
years, NWF has represented a broad coalition counting nearly 4 
million members and supporters in that coalition that includes 
outdoor enthusiasts, birders, hikers, hunters, and anglers, and 
more.
    And this diverse coalition of members and supporters are 
united by a passion for common sense, balanced approaches to 
managing wilderness and protecting our environment. Funding 
levels detailed in my written statement represent those values 
and smart conservation choices our members believe in. And it 
is on their behalf I would like to share two key points about 
the fiscal year 2015 Interior and EPA Appropriations bill.
    The first point is simple. Conservation funding supports a 
key American value that encourages economic growth and provides 
an array of additional ecosystem benefits, and we need more of 
it. Therefore funding for conservation programs, which, by the 
way, account for less than 1 percent of the federal budget, are 
one of the most effective investments we can make as a nation.
    And first, it is a good investment because it is an 
investment that we really believe it. Whether it is elk hunting 
in Idaho or canoeing the boundary waters or sailing on the 
Chesapeake, these are things that are near and dear to 
Americans, and that is probably why in 2013 a Pew Research poll 
found 65 percent of Americans said they support increasing or 
maintaining spending on conservation and environmental 
protection.
    In addition, protecting something that is so engrained in 
the American spirit, we know it is a blue chip investment. It 
is an investment that pays off. A recent study found outdoor 
recreation, nature conservation, and historic preservation 
account for $1.6 trillion in overall economic activity. They 
support 9.4 million jobs a year. Outdoor recreation generates 
more than $40 billion in annual revenue, and millions of 
hunters and anglers in America spend nearly $90 billion a year 
on wildlife-related recreation. To invest in conservation and 
protecting the environment is to help continue these 
industries.
    Also, conservation spending is an investment in a 
sustainable future. As sea levels rise and storms increase in 
strength and frequency, our cities and towns and economies are 
at risk. And in 2012, for example, the U.S. faced 11 disasters, 
each of which cost more than $1 billion. That is the second 
costliest year on record. It is only going to get worse. And 
tools like land acquisition and ecosystem restoration, the 
things that this Subcommittee pays for, are the things that are 
going to protect us from those coming storms.
    It is also for these reasons that we request that you 
ensure a bus funding for the Department of the Interior and EPA 
to fund key programs like Land and Water Conservation Fund, 
State and Tribal Wildlife grants, funding for ecosystem 
restoration like the Chesapeake, and protection for great 
waters and cherished landscapes.
    And now let me make my second point, and that is that 
funding alone will not protect and restore the environment. We 
need strong laws to ensure the quality of the air we breathe 
and the water we drink and ecosystems are protected. And 
conservation funding is only one side of that two-sided coin.
    The Obama Administration certainly understands this, and 
recently they have taken steps, administrative steps, to 
protect the environment. Of particular note, they have 
promulgated rules to reduce carbon pollution from power plants 
and mobile sources, and just the other week, they did announce 
a long overdue rule making to clarify the scope of the Clean 
Water Act. That rule is 20 years in the--or, pardon me. It is 8 
years in the making. It protects 20 million acres of wetlands 
and 2 million miles of streams.
    And in recent years, this Committee has used riders to 
challenge some of these landmark environmental laws and these 
initiatives by the Administration. And certainly it is the 
purview of Congress to think about these things, but they 
should be given their due. They should have hearings in the 
authorizing committees and certainly shouldn't be cut off by 
riders on the floor.
    So in closing, we urge you to provide robust funding for 
conservation and wildlife and ensure that these bills are free 
of policy riders. Thank you for your time.
    [The statement of Joshua Saks follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr.  Simpson. Thank you. Will.
                              ----------                              

                                          Thursday, April 10, 2014.

                          WORLD WILDLIFE FUND


                                WITNESS

WILL GARTSHORE
    Mr.  Gartshore. Thank you, Vice Chairman and Ranking Member 
Moran and the Subcommittee for the opportunity to testify 
today. I am Will Gartshore. I am a senior policy officer for 
U.S. Government Relations at World Wildlife Fund. WWF is the 
largest private conservation organization working 
internationally to conserve wildlife and nature. We currently 
sponsor conservation programs in over 100 countries with the 
support of 1.2 million members in U.S. and more than 5 million 
worldwide.
    One of our top priorities is supporting efforts to combat 
global wildlife trafficking and the current global poaching 
crisis, which you have already heard John Calvelli from WCS 
talk about a bit. I will try to add and not repeat. We work 
closely together with WCS and other organizations on this 
issue.
    In 2012, WWF launched our Stop Wildlife Crime campaign to 
help galvanize interest and support globally including by the 
U.S. government to address this issue. So we are extremely 
gratified this past year, just a couple months ago, to see the 
administration release the new national strategy on combating 
wildlife trafficking and also very gratified to see that in the 
fiscal year 2014 congressional appropriations, there was 
significant additional funding to implement actions related to 
that strategy and to addressing this crisis, and we would love 
to see that momentum continue in fiscal year 2015.
    Most relevant for this Subcommittee are a number of 
important conservation and law enforcement programs in the 
Department of Interior, specifically U.S. Fish and Wildlife 
Service, which have essential roles to play in executing that 
strategy and in combating the crisis.
    So WWF respectfully requests that this Subcommittee fund 
the U.S. Fish and Wildlife Service Office of Law Enforcement at 
no less than the administration's request of $66.7 million in 
fiscal year 2015 including additional funding to support the 
national strategy and at least $4.8 million for the Lacey Act 
Enforcement, which includes one of the wildlife trafficking 
actions that the law enforcement office is taking. Also to fund 
the U.S. Fish and Wildlife Service Office of International 
Affairs at the administration's request of $14.6 million. That 
includes the wildlife without borders programs that Mr. 
Calvelli was speaking about, but also there are scientific and 
management authorities which support U.S. efforts are cities 
and permitting of legal wildlife here in the U.S. And to fund 
the U.S. Fish and Wildlife Service Multinational Species 
Conservation Funds at $10 million, which is about $900,000 
above the administration's request but consistent with the FY09 
number.
    The global legal trade and wildlife is worth about $8 to 
$10 billion annually. If you include the legal trade in timber 
and fish, it goes up to about $20 billion. So it is huge. It is 
one of the top five transnational organized crimes globally and 
strongly linked to other criminal activities including arms and 
drug trafficking and a lot of bad actors in places like central 
Africa, east Africa. The U.S. government released--the 
intelligence agencies of the U.S. government released an 
assessment last September that showed there was significant 
evidence linking these activities to even to terrorist-linked 
groups.
    The numbers, John mentioned the central Africa numbers on 
forest elephants, about a two-thirds drop since--in the past 
decade. In east Africa, the Tanzania government just released 
numbers back in January showing that their Selous Game Reserve 
which had been the second largest concentration of elephants in 
Africa, the numbers there, they have fallen 66 percent in just 
four years, which is devastating. And then rhinos, which was 
initially caused us to get our campaign rolling. In South 
Africa, which you have about 85 percent of the world's 
remaining rhinos, and since 2007 when 13 animals were killed, 
last year it was 1,004. That is a 7,000 percent increase since 
2007. So it is crazy. And then there are about 3,200 tigers 
remaining in the wild, and they are still poached and traded 
for their body parts and their bones and their skins.
    So the Office of Law Enforcement investigates wildlife 
crimes, enforces regulation of wildlife trade, and helps 
citizens to comply with the law, also works with other 
international and U.S. government entities to carry out its 
mission. Its agents and investigators have a central role in 
implementing the strategy, as I said, and they are on the front 
lines in the fight against wildlife trafficking, working in 
nearly 40 designated and nondesignated ports of entry around 
the country.
    One example of the work they are doing is Operation Crash, 
which is breaking up rhino horn smuggling rings here in the 
U.S., and there have been about 15 convictions under that 
operation already, which has been going for about two years. 
Since FY10, the reductions in the agency's budget have caused 
the cancellation of plans to hire 24 more special agents and 
prevent the vacancies from being filled for 14 frontline 
inspectors as well as 3 forensics experts for the Clark R. 
Bavin National Fish and Wildlife Forensic Laboratory in 
Ashland, Oregon, which is the only laboratory in the world 
dedicated to solving wildlife crimes, a unique asset in the 
fight against ivory and rhino horn smuggling.
    I would note that while we support the Administration's 
request, since I submitted this testimony, it came to my 
attention that John Calvelli mentioned the stationing of the 
attaches around the globe, and there is money in the request 
for five of those. They have gotten four times as many requests 
from countries for those attaches. So in order to double that 
number and meet at least part of that request, additional 
funding would be required above and beyond the Administration's 
request.
    And also between 2018 and 2021, they are set to lose about 
60 percent of their 208 agents to mandatory retirement, and 
they have not requested additional funding to compensate for 
that. So it would need to be over and above the 
Administration's request.
    In just noting the time, I will say we support the 
Multinational Species funds as well as the International 
Affairs Office, but I want to just note some success under the 
funding provided through Multinational Species. WWF announced--
the government of Nepal announced in March of 2013 that they 
had a year of zero poaching, which is the first time that has 
happened since 2011. Not a single rhino, tiger, or elephant was 
poached in that country for the entire year. And we work 
closely with the government of Nepal with help from the Fish 
and Wildlife Service, USAid, working with communities, the 
government, and the armed forces there patrolling some of those 
parks. And it is the combination of the U.S. government 
supports, NGO support, and country action that has led to that 
success, and it is a great counterbalance to what we are seeing 
in a lot of other countries. So thank you very much.
    [The statement of Will Gartshore follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. Thank you to all. Jim.
    Mr. Moran. All three groups are doing great work. We have 
come across this in our Defense Appropriations hearings, the 
amount of money that is going into terrorist groups that is 
gotten through the illegal trade, exotic animals and tusks and 
ivory, and devastating populations of elephants, rhinos, and 
tigers.
    So it is important stuff that the Wildlife Fund is doing 
and as is the other related groups, and I appreciate the fact 
that you are all collaborating. It is--the National Wildlife 
Federation, Wildlife Society, and the related groups, you are 
all trying to accomplish the same objective. And that is what 
we should be doing, and we are trying. I wish we could get--
provide more resources to you, but we appreciate the people 
whose generosity is--continues to fund you.
    I don't have any questions so they are doing good work.
    Mr. Simpson. Thank you, and thanks for all the work you do. 
And Joshua, we will have to have a conversation one day. There 
are no riders in our bill. They are policy decisions that go 
into our bill, and usually those deal with funding. And some of 
them are restrictions of funding and other are directions of 
funding. But that is what we do. So we appreciate your comments 
and look forward to working with you all as we put this bill 
together.
    Mr. Saks. Thank you.
    Mr. Simpson. You bet. Next is Mr. Michael Mace, curator of 
birds at San Diego Zoo Safari. Mr. Peter Jenny, president of 
the Peregrine Fund. Mr. Bobby Williamson, and Mr. Randy 
Streufert. Is that close?
    Mr. Streufert. Right on.
    Mr. Simpson. All right, I am doing good. Now that we are 
getting to the end, I kind of got the hang of it, you know. 
Michael, you are first.
                              ----------                              

                                          Thursday, April 10, 2014.

    THE 5 NONPROFIT PARTNERS CURRENTLY WORKING ON CALIFORNIA CONDOR 
                                RECOVERY


                                WITNESS

MICHAEL MACE, SAN DIEGO ZOO SAFARI PARK
    Mr.  Mace. Okay, thank you. We want to thank you and the 
committee for allowing us to come and talk to you about the 
importance of the California Condor Recovery Program. My name 
is Michael Mace. I worked for San Diego Zoo Global. I am a 
curator there for birds, and we have been involved with the 
condor program since its inception for more than 30 years. Our 
organization is also working in 40 other countries with many 
other endangered species around the world.
    This is my colleague, Pete Jenny, from the Peregrine Fund, 
CEO and president of the Peregrine Fund, one of our partners. 
We are here representing three other organizations: Los Angeles 
Zoo, Oregon Zoo, and Ventana Wildlife Society.
    The condor is an iconic North American species, an 
endangered and dangered species, and it is the largest flying 
bird in North America with a nine-and-a-half-foot wingspan. And 
it serves a key ecological role in North America, and that is 
it is a scavenger, and what that means is it cleans up animals 
that have died. What is important to us is that in those 
carcasses are toxins that grow like botulism and anthrax. And 
by doing this service protects not only wildlife but humans as 
well.
    Also, as I see this picture on the wall, there is a strong 
cultural tie with condors to Native Americans. Even today, 
feathers that are molted by condors are used in ceremonies and 
rituals.
    The condor hit its all time low, almost went instinct, 
within only 22 birds left in the world, and that was in 1982. 
And U.S. Fish and Wildlife came to San Diego Zoo, the Peregrine 
Fund and Los Angeles Zoo and asked us to help them save the 
condor, and we did. We went from 22 birds to now more than 400. 
There are 412 in the world, of which 230 of those now fly free 
in California, Arizona, Utah, and Baja, Mexico.
    Through that time, we have been able to produce birds for 
release back into the wild. Unfortunately have to intensely 
manage them because some of the very threats that caused the 
decline are still there. We also applied various sciences like 
genetics management, research for spatial ecology and such, and 
including canary service and pathology science to help preserve 
the species. But those, as I mentioned, those challenges are 
still out there in the wild.
    All this work has not been without significant burden and 
cost to the five partners. We collectively invested more than 
$40 million of our own privately-earned money to support this 
program. Our annual budget is $3.3 million of which the 
partners contribute 82 percent, and U.S. Fish and Wildlife 
Service, who oversees the program, provides 18 percent support.
    So recently U.S. Fish and Wildlife came to us and said we 
acknowledge the fact that the five partners without your 
support and scientific endeavors, most likely the condor would 
be extinct today, and they acknowledged that. So we remain 
committed to the program. We have for more than 30 years, but 
without additional federal support, it would be unrealistic for 
us to maintain this type of program at this level forever, and 
we are asking for that support. Otherwise, we will have lost 30 
years of investment to try to save the condor.
    Mr.  Simpson. Thank you. Peter.
                              ----------                              

                                          Thursday, April 10, 2014.

    THE 5 NONPROFIT PARTNERS CURRENTLY WORKING ON CALIFORNIA CONDOR 
                                RECOVERY


                                WITNESS

J. PETER JENNY, PEREGRINE FUND
    Mr.  Jenny. Thank you. Thank you for this opportunity. My 
name is Peter Jenny. I am president and CEO of the Peregrine 
fund. We are best known probably for leading the successful 
recovery of the endangered peregrine falcon, which was arguably 
the largest and most successful endangered species recovery 
effort in history. We are now also working with the California 
condor, and in our facilities in Idaho, we have the most 
productive and largest collection of captive breeding condors 
in the world. We also manage a wild population of 75 
individuals.
    The beauty of this program, and Michael covered some of the 
problems, but the beauty of this program is that all of the 
difficult R and D has been done. We know how to breed them in 
captivity. We know that the condors can make it in the wild. 
They are breeding on their own. They are dispersing. They are 
foraging on their own. The one single problem that stands 
between us and total recovery of this endangered species is 
lead exposure, and I brought--can I do this? I brought some 
visual aids. If we could get hunters to utilize these solid 
copper alternative bullets, we would be talking to Fish and 
Wildlife Service right now about delisting this species. It is 
that simple.
    And this is the solution. We have developed a very 
effective voluntary program in the state of Arizona to 
encourage hunters to voluntarily use these non-lead 
alternatives. We have an 80 percent voluntary compliance rate 
in the state of Arizona. Our modeling indicates that if we can 
duplicate that effort in neighboring Utah, that the lead levels 
will be low enough that we will enable the California condor to 
be effectively recovered.
    I am really hitting the high points here, but this is a 
wonderful opportunity for us to demonstrate a private and 
public cooperative venture here. This is a doable project, and 
if we get together with your support, this can be like the 
peregrine falcon, yet another endangered species success story. 
We are so close.
    [The statement of Michael Mace/Peter Jenny follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr.  Simpson. Thank you. Welcome to D.C., and I mentioned 
the birds of prey and the Peregrine Fund earlier when we had 
another panel up here, and your work with landowners in Texas 
on the aplomado falcon and how that has turned out and stuff. 
So I appreciate you being here.
    Mr.  Jenny. Well, thank you.
    Mr.  Simpson. Bobby.
                              ----------                              

                                          Thursday, April 10, 2014.

                   FRIENDS OF THE WICHITAS SECRETARY


                                WITNESS

BOBBY WILLIAMSON
    Mr.  Williamson. On behalf of the Friends of the Wichitas, 
thank you for inviting me to talk about our refuge, and thank 
you for the support you have shown over the years.
    My name is Bobby Williamson. I live in southwest Oklahoma 
near the Wichita Mountains Wildlife Refuge. When I was born, I 
lived on the refuge. My father worked there. I have continued 
to stay at the refuge for over 50 years. My career has been 
with Goodyear, but when I am not at work, that is where I am 
at.
    The friends I work with, they help remove invasive plants, 
do fence repair, lead hikes. We are mostly interpreters trying 
to share what we know with as many of today's youth who may 
someday be tomorrow's refuge staff or just a future friend who 
might get the chance to speak at a Subcommittee hearing 
someday.
    I volunteer with others to support the effort of the 
refuge. We work side by side, giving time, money to support the 
efforts. My friends are poor, well-to-do, black, white, 
Republican, Democrat. Some are religious. Some are not. But for 
all of our diversity, we have a common ground: we love the 
refuge. This is true in all of our refuges in America. Where 
else could you find a government-run organization where manning 
is more than 20 percent by volunteers?
    To come out and volunteer, our members show that they 
really care about something. I donate to many causes, but my 
time is given to the refuge. It is what I love and am willing 
to stand here and defend. I am an interpreter, a hike leader. I 
inherited this from my parents and plan on caring for my refuge 
until the next generation takes up where I leave off.
    This is something we have inherited and have been asked to 
protect for future generations. When you visit a refuge like 
ours, you only need to look around, see the bison or the elk 
moving across the open prairie, watch a sunset over a mountain 
or just watch the stars at night while the coyotes howl back 
and forth among themselves to understand what these places 
meant to previous caretakers.
    It is amazing to think that the early settlers had time to 
even imagine leaving these places for future generations. And 
in doing so, we expect the same from us, keep it safe, keep it 
pure. I have hiked most of the AT, done rim to rim to rim the 
Grand Canyon. I have half of the national parks in the country, 
a lot of the trail systems that Mr. Warner talked about. But 
when I come and I tell my wife about these places, she just 
smiles because she knows that I will always be at the Wichitas, 
and she is right.
    We have been given a treasure to protect. During the Great 
Depression, our refuges and parks were there for the CCC and 
the WPA. Americans were provided work during a difficult time 
in our history building many wonderful treasures. These 
treasures are in disrepair and falling down. The Jed Johnson 
Tower burned, and the rope has never been replaced. The buffalo 
lodge where Teddy Roosevelt stayed was damaged by broken water 
lines and has not been repaired.
    The Ferguson House burned by a controlled fire on a 
military base next door and has never been repaired. This one 
is dear to me because when I was born, this was my home. These 
are all on the register of historical sites and have not been 
repaired. This is wrong. We are not maintaining what we were 
given to protect. They gave us so much. What is to be our 
legacy?
    I can only talk firsthand about the Fish and Wildlife 
Service employees at the Wichitas. These people take the time 
to explain things to visitors every day. They bend over 
backwards to make every visitor feel special. They are a wealth 
of knowledge and love to share with others. I would like to 
take this time to invite each and every one of you to my 
refuge, any refuge, and spend a day, see what it is that we 
love so much. See where so many millions have found a place to 
go and recharge, explore, or just get away from everyday 
stress, a refuge. President Johnson made a statement at the 
signing of the Wilderness Act 50 years ago that I think 
applies. ``If future generations are to remember us with 
gratitude rather than contempt, we must leave them a glimpse of 
the world as it was in the beginning, not just after we got 
through with it.''
    Gentlemen, the $480.4 million for Fiscal Year 2015 is not a 
lot on the grand scale of things. It merely maintains the 
status quo for a refuge that earns $44.47 for every dollar 
appropriated. I urge you to make a statement and protect our 
treasures. Make it a jobs package. There is work to be done. 
Thank you.
    [The statement of Bobby Williamson follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr.  Simpson. Thank you, Bobby. Randy.
                              ----------                              

                                          Thursday, April 10, 2014.

                 FRIENDS OF THE POTOMAC RIVER REFUGEES


                                WITNESS

RANDY STREUFERT, DIRECTOR
    Mr.  Streufert. I assume this is on. Vice Chair Simpson, 
Mr. Moran, thank you for the opportunity to comment on the 
fiscal year 2015 Appropriation for the National Wildlife Refuge 
System. My name is Randy Streufert. I am now a nature 
photographer. In 2012, I retired after 39 years in the public 
service as a federal employee. I held a senior management 
position for over 20 years with the last 4 in the senior 
executive service. I am also a veteran, having served with the 
U.S. Army. In the last year, I frequently served as a volunteer 
on the refuges.
    Today I am speaking on behalf of the Friends of the Potomac 
River Refuges. Ours is a nonprofit organization promoting 
appreciation of the wildlife and habitats on the three refuges 
in northern Virginia. Those refuges are Elizabeth Hartwell 
Mason Neck and Morton, Occoquan Bay, and Featherstone in 
Woodbridge, Virginia. These refuges serve a population of about 
3.4 million in northern Virginia and the District of Columbia. 
This area includes, as you know, a large military contingent at 
Fort Meyer, Fort Belvoir, Walter Reed National Medical Center, 
and Quantico Marine Base.
    Refuges, so much more so than parks, are places set aside 
permanently for wildlife. They are places of quiet where one is 
surrounded by nature. Although encircled by an urban landscape, 
the three Virginia refuges offer solitude and peace of mind 
interrupted only by sounds of bald eagles heard overhead, 
songbirds in the trees, and frogs in the marsh.
    It is precisely this type of environment that is critical 
to the healing process for wounded warriors. Secretary of 
Interior Jewell recently announced an action plan to benefit 
our military members, their families, and those veterans 
returning as wounded warriors. The plan would increase services 
that support the needs of military families relative to 
psychological health, and physical rehabilitation on refuges 
and other public land; increase the accessibility of refuges, 
parks, and other public lands where active duty military 
personnel who have been injured or who are in rehabilitation 
resulting of injuries related to military service including 
PTSD.
    Our veterans and their families have earned the best of 
what our government can provide, but there is a problem. The 
refuges we support in northern Virginia are unfortunately 
representative of many in the national system. They are 
underfunded and understaffed. They are ill-equipped to provide 
additional services. In the national wildlife refuge system, 
over 38,000 volunteers perform 20 percent of all the work as 
you have heard before. And there is already at least a 20 
percent understaffing level.
    The situation for the three Potomac River refuges is 
typical. They have a staffing plan approved for 16. They can 
only fill 7. They have one law enforcement, one business 
services, and one maintenance officer. The plan calls for three 
of each. When the maintenance officer was out last month, it 
snowed. With no one to plow the roads, the refuge just closed.
    I worked with refuge staff. They are all highly dedicated 
and represent the highest standards of what we expect of public 
servants. As a former manager, I know being one staff member 
deep per any activity is a problem waiting to happen. Criminals 
know that one law enforcement officer cannot adequately cover 
three separate refuges.
    The president's budget request for the National Wildlife 
Refuge System is $476.4 million. That is less than a 1 percent 
increase over this year. Our position is that the level should 
be no lower than $480.4 million just to maintain the current 
underfunded status. We join the National Wildlife Refuge 
Association and the Care Group, a diverse coalition of hunting, 
fishing, and conservation, and scientific organizations in 
calling for a $900 million annual budget for the refuge systems 
operations and maintenance.
    Now, without applying basic economic rules, asking for an 
additional $425 million during a time when deficits must be 
reduced could be a non-starter. But by applying economics with 
the findings of the Banking on Nature Study, refuges generate 
an average of $4.87 in total economic output for every dollar 
appropriated. In economic terms, funding for refuges is an 
investment with a guaranteed profit. It is not an increase to 
the deficit.
    To put that additional $25 million in perspective, please 
keep in mind the following. On April 9, 2013, the Government 
Accountability Office issued its third annual report exposing 
unnecessary duplication and overlapping programs throughout the 
federal government. GAO's report outlined more than $95 billion 
in potential savings from duplicate programs and inefficient 
practices.
    In 1982, President Reagan's head of OMB, David Stockman, 
announced his engagement to be married. A reporter asked him 
who would maintain the family checkbook. He responded quickly 
that his wife would since he rounded off figures to the closest 
billion.
    Providing $900 million to the refuge system will help 
wounded warriors and the refuges to be maintained and provide 
much needed programs to our citizens. In a $3.9 trillion budget 
that includes $95 billion in waste, a $900 million budget is 
just a rounding exercise. Thank you for considering our 
request, and I hope all of you will visit one of our northern 
Virginia refuges.
    [The statement of Randy Streufert follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you. Mr. Moran.
    Mr. Moran. Tim Aiken, my legislative director, just 
reminded me that MS13, the violent drug and sex trafficking 
gang in northern Virginia was actually operating out of the 
refuge in Prince William County because there was so little 
capacity for law enforcement and monitoring of the refuge. So 
it does need, our refuges, need more care given to them, and it 
would be nice if we could expand some of the Potomac River 
refuges. But there is no point in doing it if we don't have the 
personnel to maintain what we have. Chairman has made that 
point before.
    So thanks for your efforts, Randy. I'll let you handle the 
Boise, Idaho organization, sir.
    Mr. Simpson. Well, thank you all for being here and for 
your testimony and making all the trip out here from Boise. And 
actually Boise is not too bad. You don't have to ride a horse 
or anything to get around, like you do the other parts of 
Idaho. Just kidding. We actually have paved parts where planes 
land and stuff. But you guys do some incredible work.
    And, you know, Jim, before you retire from Congress, I have 
to get you out to Idaho and visit. We could do a trip and visit 
NFC, the National Fire Center in Boise. And while we are there, 
it is only, what, 10 minutes to get to the Birds of Prey. And 
it is incredible the stuff that they have----
    Mr. Moran. I would like to do that. You have already got me 
rooting for Boise State so----
    Mr. Simpson. Anytime I can do that, I have done my job.
    Mr. Jenny. Congressman, I can't believe I neglected to say 
this, but I neglected to make my ask of members somehow. What 
we are fervently supporting is the Fish and Wildlife Service 
request for recovery--the request, which is just shy this year 
of $88 million. And we certainly support that.
    Mr. Moran. Appreciate the one in the President's budget.
    Mr. Jenny. Exactly.
    Mr. Simpson. And, of course, San Diego Zoo speaks for 
itself. You don't have to say a heck of a lot more than that. 
They do great work, and the refuges are obviously very 
important, and we will do what we can to make sure in these 
limited budget times that we have the resources to do what is 
necessary.
    But before I dismiss this panel, I will tell you a little 
story. Before Norm Dicks retired from Congress, in his last 
Subcommittee hearing at this table, Norm told us to take care 
of the refuge system. And, you know, Mr. Moran has done a 
wonderful job of doing that as he became Chairman. He has been 
a strong leader for not only the refuge system but so many 
other programs in this bill.
    And this is the last public hearing that Jim will be at 
from this Subcommittee. I have been his ranking member when he 
was chairman, and he has been my ranking member when I have 
been chairman. And I just wanted to personally thank Jim for 
his work on this bill, and we have agreed and disagreed on 
issues. But we have always done so amicably, and we have tried 
to understand where each other is coming from on certain 
issues.
    And I really want to thank Jim for the great work he has 
done. I hate to see him leaving Congress, but he has been a 
valuable partner on this Subcommittee for many, many years. And 
as I have tried to help him understand what grazing in Idaho is 
like, he has tried to help me understand what the fish in the 
Potomac are like.
    And so he has been a truly important member of this 
Subcommittee, and not only that, just a dear friend. So I thank 
you, Jim.
    Mr. Moran. I deeply value our friendship, Mike. I really 
do. It has been a pleasure to work with you.
    Mr. Simpson. Thank you. Okay, next panel. We have Mary Beth 
Beetham, director of legislative affairs, Defenders of 
Wildlife. Rosalyn Morrison, legislative assistant to Animal 
Welfare Institute. And Nancy Perry, senior vice president, 
governmental relations, American Society for the Prevention of 
Cruelty of Animals.
    Mary, you are first.
                              ----------                              

                                          Thursday, April 10, 2014.

                         DEFENDERS OF WILDLIFE


                                WITNESS

MARY BETH BEETHAM, DIRECTOR OF LEGISLATIVE AFFAIRS
    Ms. Beetham. Chairman Simpson, Ranking Member Moran, thank 
you for the opportunity to testify. Mr. Simpson, it is an honor 
and a pleasure to see you here again today even though you are 
no longer the actual chairman, and I am happy to be able to 
speak to you today, Mr. Moran, on your last public witness day.
    So thank you for the opportunity. I am Mary Beth Beetham, 
legislative director for Defenders of Wildlife. Founded in 
1947, Defenders has more than 1 million members and supporters, 
and we are dedicated to the conversation of wild animals and 
plants in their natural communities.
    North America is fortunate to have some of the most 
abundant and diverse wildlife on earth, more than 200,000 known 
species in the U.S. alone. This unique and irreplaceable 
heritage is treasured by all Americans both for its aesthetic 
value as well as for the very tangible benefits it brings as a 
resource.
    For example, a third of our food is pollinated by birds, 
bats, and insects. Cuts since 2010 to federal programs that 
conserve wildlife and habitat have severely undermined sound 
management. For example, the Fish and Wildlife Services told us 
that funding decreases in the endangered species program 
actually delayed the recovery of the endangered Florida manatee 
by preventing crucial habitat restoration work. Continued cuts 
will likely lead to irreversible harm to vulnerable species and 
their habitats. Our nation's wildlife is a treasure and well 
worth the investment to properly care for it.
    We thank the Subcommittee for working during a final 
conference on the omnibus appropriations bill to reverse the 
sequestration cuts for many programs, and we hope the 
Subcommittee will continue its efforts and provide important 
increases for high priority wildlife conservation needs in the 
2015 bill.
    While our written testimony highlights all of the programs 
that we are concerned about, I will just touch on some today. 
Of course, it is still a number of them because Defenders 
supports many activities. Under the Fish and Wildlife Service, 
the President's request proposes a restructuring of the 
ecological services activity which includes the endangered 
species program.
    We are concerned about whether the new structure will allow 
for adequate transparency and accountability, particularly in 
the large general program activities program elements. Unless 
the agency can show that it has adequate controls in place to 
ensure the strategic use of this funding and a transparent 
prioritization and reporting process, we support maintaining 
the current budget structure, and we would support the 
increases that are in the request for the endangered species 
portion of ecological services to help protect and recover our 
nation's most vulnerable plants and animals.
    Also under Fish and Wildlife Service, we support the 
following increases: $2.5 million that will help to ensure 
citing of renewable energy projects in a way that prevents harm 
to vulnerable species, $1.8 million for the Innovative 
Cooperative Recovery Initiative which is doing a good job 
supporting more efficient efforts across landscapes to recover 
listed species or national wildlife refuges and surrounding 
lands, $3.3 million for cooperative landscape conservation and 
$14.4 million for science support that will help to implement 
the National Fish, Wildlife and Plants Climate Adaptation 
Strategy and meet other priority science needs.
    In the Forest Service, we were concerned to see that the 
Administration has again proposed merging a number of accounts 
including Wildlife and Fish Habitat Management into the 
integrated Resource Restoration Account. At this time, we 
support continuing IRR as a pilot as directed by Congress so 
the agency can demonstrate whether it can adequately protect 
habitat for fish and wildlife in a consolidated program.
    We are also opposed to the nearly $18 million cut proposed 
for Forest Service R and D. We are surprised at that. In the 
Bureau of Land Management Budget, we support continued full 
funding for the National Greater Sage Grouse Planting Strategy. 
However we are concerned that the current draft plans will not 
be adequate to conserve the sage grouse. We urge the 
Subcommittee to work with the agency to ensure that the plans 
are improved.
    Also in the BLM budget for the Threatened and Endangered 
Species Management Program, we support a $1 million increase 
over the President's request that would simply restore funding 
to the 2010 level. According to BLM staff reports, the agency 
has funding to implement only about 10 percent of the work it 
is required to do in recovery plans each year for listed 
species on its lands.
    No matter where stakeholders stand on all various sides of 
the ESA debate, everyone wants to see listed species move 
toward recovery. And at the current level of funding, this is a 
goal not likely to occur for listed species on BLM lands. We 
really ask the Subcommittee to pay attention to that 
respectfully.
    Finally for the U.S.G.S. we support the $11.6 million 
increase for the National Climate Change and Wildlife Science 
Center that will support research on the impacts of climate 
change on fish, wildlife, and other natural resources. Again 
thank you very much for the opportunity to testify. Been a 
pleasure to speak before both of you.
    [The statement of Mary Beth Beetham follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thanks, Mary Beth. Rosalyn.
                              ----------                              

                                          Thursday, April 10, 2014.

                        ANIMAL WELFARE INSTITUTE


                                WITNESS

ROSALYN MORRISON, LEGISLATIVE ASSISTANT
    Ms.  Morrison. Hello, on behalf of the Animal Welfare 
Institute, I want to thank you for this opportunity to testify. 
My name is Rosalyn Morrison, and I work for the Animal Welfare 
Institute. Our statement details the funding needs of the 
agencies involved in white nose syndrome research and 
management and of the U.S. Fish and Wildlife Service's Office 
of Law Enforcement as well as funding redirections needed in 
the Bureau of Land Management's wild horse and burro program, 
in the National Park Service Program, the management of native 
wildlife. For now I intend to focus on white nose syndrome and 
wild horses and burros.
    We ask Congress to support the Administration's request for 
$2.5 million for the white nose syndrome activities of the U.S. 
Fish and Wildlife Service, which is the primary funder of our 
efforts to prevent, halt, and remediate white nose syndrome and 
to support our request for modest funding for these efforts in 
the U.S.G.S, the National Park Service, and the U.S. Forest 
Service and the BLM.
    Fish and Wildlife Service estimates that white nose 
syndrome has killed at least 5.7 million bats so far, and the 
disease or the causative fungus is present in 26 states and 5 
Canadian provinces. The Members of this Subcommittee are well 
aware of the serious economic and ecological consequences of 
this loss. Thanks to the support Congress has provided, these 
agencies and their partners have made progress in understanding 
both the nature and dynamics of remnant bat pollution and white 
nose syndrome affected areas, and the nature and dynamics of 
pseudogymnoascus destructans infectivity and barilons factors. 
In exploring----
    Mr.  Moran. I am glad she said that.
    Ms.  Morrison. And in exploring other questions such as 
biological control for white nose syndrome.
    Another positive development is the creation of the North 
American bat monitoring program, which will be pilot tested 
this summer. Until now, no coordinated or standard system for 
monitoring bat populations has existed within North America. As 
a result, wildlife managers and researchers have lacked 
accurate data on which to base appropriate bat management 
actions.
    Money spent on white nose syndrome is a wise investment. 
Preventing the spread of white nose syndrome will lend their 
assistance to regulatory and other impacts of massive bat die-
offs. The experience gained will aid in responding to future 
fungal outbreaks that may affect human health.
    Finally, fighting white nose syndrome now will reduce 
future harm to the economy for insect-related losses to 
agriculture and forestry and the cost of species recovery. An 
ounce of prevention truly is worth a pound of cure.
    Now I am going to talk about the Wild Free Running Horses 
and Burros Act. The wild horses, as much a symbol of our 
American heritage, as the image of Uncle Sam and baseball. 
Currently, America's wild horses are subjected to gross 
mismanagement and mistreatment by the Bureau of Land 
Management, which uses a significant portion of its budget to 
round up and warehouse wild horses and burros without credible 
evidence supporting the need for such removals as recently 
documented by a National Academy of Science study.
    Furthermore, since 2004, wild horses have been at risk of 
being sold to killer buyers who make a profit by sending these 
horses to slaughter for human consumption. In fact, in recent 
years, hundreds of wild horses have been sold to at least one 
known killer buyer. For the last few years, the Committee has 
also called on the BLM to find humane solutions to ensure wild 
horses remain on the range, but the agency wildly ignores 
available options and fails to act responsibly.
    It is now Congress to act decisively to ensure that these 
animals are neither sent into holding facilities nor sent in to 
slaughter. BLM's proposed budget includes a program increase of 
$2.8 million for wild horse and burro management. These funds 
are to be used for population control research including 
ongoing studies that focus on developing more effective and 
longer-lasting fertility control agents.
    We support these efforts, and we request that any increase 
in appropriations under the Wild Free Running Horses and Burros 
Act be used solely for the implementation of humane, on-the-
range management methods such as immunocontraception and not 
unnecessary roundup.
    Finally, we strongly support the continued inclusion of the 
no kill language to ensure that BLM does not kill healthy wild 
horses and burros. Thank you so much for allowing me this 
opportunity.
    [The statement of Rosalyn Morrison follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr.  Simpson. Thank you, Rosalyn. Nancy, you are the last 
public witness.
                              ----------                              

                                          Thursday, April 10, 2014.

   AMERICAN SOCIETY FOR THE PREVENTION OF CRUELTY TO ANIMALS (ASPCA)


                                WITNESS

NANCY PERRY
    Ms.  Perry. I feel some pressure.
    Mr.  Simpson. You know why that is, don't you?
    Ms.  Perry. Best for last?
    Mr.  Simpson. We saved the best for last, but they put you 
at the last because I hate your commercials. I have to turn the 
channel. I am a dog lover, and when I see abused dogs, I want 
to go somewhere else.
    Ms.  Perry. I am not allowed to do our commercial.
    Mr.  Simpson. That is not the reason. I was just kidding.
    Ms.  Perry. No, I hear that from literally everyone.
    Mr.  Simpson. I bet.
    Ms.  Perry. I am glad to tell you I have no video today.
    Mr.  Simpson. I think they accomplish what they are 
supposed to do.
    Ms.  Perry. They do. They are effective, and they 
demonstrate to all of us that people really do care about 
animals in crisis. And so in that vein, I want to thank you for 
this opportunity to come and talk about some issues that are of 
great importance to the ASPCA. We are the first humane 
organization established on this continent. In fact, I sit here 
today with you on our 148th birthday today. So I am very 
excited to have the opportunity to talk to you about some 
issues of great importance to me and to our 2.5 million 
supporters. So imagine them behind me on the rim and know that 
we are very grateful for this opportunity.
    Our mission is to prevent cruelty and to intervene whenever 
it is occurring. But our birthright really was in horse 
protection because during the day of our birth, horses were in 
great trouble in the cities. And now that extends beyond the 
cities, and we are very deeply concerned about the treatment of 
horses out on the range whether it is on BLM land or on Fish 
and Wildlife Service land. We also have a note for you today on 
the wolf issue.
    So proceeding along with horses first. Obviously these are, 
as Rosalyn said, historical icons, and they are revered by the 
American public to this day as strongly as ever as when the act 
originally passed more than 40 years ago.
    And we believe, of course, that they should be treated 
humanely and fairly and all management practices should reflect 
that. Unfortunately the 40-year program has devolved into a 
cycle of roundups and removals that has led to a situation 
where the horses are not being treated humanely, not managed 
fairly, and available options are not being exercised 
appropriately that could prevent that.
    BLM recognizes that need for reform now, and the NAS study 
that came out recently has been very helpful in pointing out 
some options. So we are very encouraged by that. We applaud 
BLM's efforts to articulate some possible reforms. We have a 
question of moving from intention to action for this agency, 
and your Committee, your Subcommittee is critically important 
in motivating that change.
    So I would outline for you four ways that the ASPCA urges 
the Subcommittee to influence BLM in the right direction on 
this issue. First of all, including that language that AWI 
mentioned just now, the ASPCA supports that and included it in 
our testimony. So I won't repeat it for you now, but it 
basically would ensure that the agency couldn't proceed with 
sales that would lead to the slaughter of these historical 
icons.
    Also it would ensure no mass euthanasia would take place as 
a shortcut to trying to address what has been a human-caused 
problem for these animals. And that has been continuously 
included over the years, and we believe it needs to be included 
now more than ever. Just to point up why we need that, in 
September 2012, some published reports showed that BLM sold 
more than 1,700 captured mustangs which is more than 70 percent 
of all the horses sold under the Burns Rider going back many 
years, to a single known kill buyer. And so that is what is 
happening with the sales, and that is why we need that language 
to be included.
    Secondly, we would urge the notion of equilibrium, that we 
not remove more horses than we can adopt out. At this point, we 
can't afford to take in any more into holding facilities. It is 
not fair to the taxpayers, and it is not fair to the horses.
    We believe that that can be achieved through the use of the 
third item we would urge the Subcommittee to pressure BLM to 
include, and that is the notion of much more prioritized on-
the-range management. This is certainly one of the principles 
outlined under the Wild and Free Roaming Horse and Burro Act, 
that priority should be given to on-the-range management. And 
when I say that, I am talking about the PZP immunocontraceptive 
technology that we believe has been used highly effectively for 
many decades now. Many populations of horses, ponies, even deer 
have shown the efficacy of this technique. It is something that 
BLM is doing in fits and spurts and only in small amounts, and 
they really need to accelerate the percentage of horses that 
they treat with this--it is a vaccine delivered by dart. And 
they would be able to, over some time, suppress the growth and 
even slow or even stop the growth of the wild horse herds where 
necessary. And we support that. We think that that is a 
pragmatic and humane approach to population control.
    So we request that the Subcommittee direct BLM to use that 
humane and reversible fertility control method.
    We also point out to the Subcommittee that more than 19 
million acres have been zeroed out of any wild horses. These 
were acres originally identified as habitat for these animals. 
Those might provide very fruitful opportunities for rereleasing 
horses that are in holding, alleviating tax dollars from being 
spent in that way, providing horses with habitat they 
originally were supposed to have. Not all of those acres are 
available probably due to drought and other reasons. But 
certainly out of 19 million, there should be a very thorough 
survey conducted to look for a rerelease option.
    Finally, we would argue that any roundups that need to take 
place obviously should be done humanely and transparently. And 
we would ask that BLM institute protocols, and the Subcommittee 
could encourage them to do that, that would ensure that 
helicopter skids aren't making contact with horses during long 
roundup procedures. And that indeed happened, and a U.S. 
district court had to warn BLM to ensure that it wouldn't 
happen again. So I am not hypothetically speaking 
unfortunately. It has occurred.
    So that is our final request on the wild horses covered 
under the Wild Free Roaming Horse and Burro Act.
    Finally, I would just mention there are horses under Fish 
and Wildlife Service lands, the Sheldon Wildlife Refuge Area. 
Some of those horses have been under a conservation plan to be 
rounded up now. In fact, Fish and Wildlife Service has moved so 
quickly with that, that they paid one contractor, an adoptions 
contractor, $1 million to take several hundreds of those 
horses. And now Fish and Wildlife Service cannot confirm the 
whereabouts of a single one of those horses. And we suspect 
unfortunately many, if not all of them, wound up at slaughter.
    So we would urge you to ask BLM to ensure that no horses 
under its care, whether they are rounded up on public land of 
any sort, would wind up as slaughter.
    The final point which is mentioned in our testimony relates 
to wolf management, and I just point the Committee to the 
recent report that came out that indicated that the science 
used to come to a decision to delist wolves was unfortunately 
flawed and very, very dated. And we would urge the Subcommittee 
simply ensure that Fish and Wildlife Service use the best 
available science in moving forward with any such decision 
making.
    Thank you so much for this opportunity. We really 
appreciate your efforts.
    [The statement of Nancy Perry follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr.  Simpson. Thank you, and thank you all for being here 
today. Jim.
    Mr.  Moran. Yeah, thank you, Mike. The kill buyers, what 
they are doing is transporting them to Mexico or Canada?
    Ms.  Perry. Both. In fact, there was a--there were a group 
of 41 mustangs. They are not, again, not covered under the Wild 
Free Roaming Horse and Burro Act. They were actually long, many 
generations ago, abandoned in Wyoming, the Big Horn Basin Herd. 
And BLM went with--forward with a roundup of those horses, and 
then they were given to the Wyoming Livestock Board and sold at 
auction. And all 41 went to slaughter. This was just released. 
It has just been in the press in the last week, and I would 
like to submit some documents to the committee's record that 
articulates some of those concerns. So really both countries 
take many horses from us for slaughter.
    Mr.  Moran. And BLM is not being sufficiently aggressive in 
terms of sterilizing the mares?
    Ms.  Perry. That is correct.
    Mr.  Moran. And why?
    Ms.  Perry. I would love to answer that question, and I 
don't honestly know because going back 15 years, 20 years, 
there have been studies for National Academy of Science, GAO. 
All of the humane organizations as long as I have been working 
on this issue for the last 13 years, we have been submitting 
letters, begging the agency to please be more aggressive about 
it because we could foresee this day coming. And I am not sure. 
I don't know that they have complete faith in the PZP approach 
as aggressive enough, but I think we can't let the perfect be 
the enemy of the good in this case. And I think seeking out new 
technologies that might take decades to develop is not a 
sustainable approach when we have something that we have found 
very efficacious in many, many very substantial studies, the 
PZP approach.
    Mr.  Moran. It is strange that they are not more aggressive 
in applying the--when it just takes a dart. You would think 
they would be able to. Mr. Simpson, Mr. Calvert, myself, and 
many who are on Natural Resources Committee hear all the time 
from people who are complaining that there is a drought in the 
West and so horses are being abandoned. You know, they show up 
in rivers and stuff. You are saying that there was 19 million 
acres that had been available for horses and burros for that 
matter. And they are not available now because they're being 
used for what?
    Ms.  Perry. A whole variety of things. I mean some of them 
are part of the checkerboard system of public lands under BLM, 
and some are unavailable because of land trades and sales that 
have occurred because of the checkerboard system. So not all 19 
million would be readily available, but when asked about the 
possible availability in some percentage of those lands, BLM 
has not been able to come up with any survey of that land that 
has been zeroed out. In some cases there were periodic--there 
were, you know, transitional uses of the land that would 
require zeroing out a herd. But now that land may be perfectly 
available.
    One example, I was just out at Red Rocks right outside of 
Las Vegas, and there used to a free roaming herd of horses 
there, and a lot of tourists like to go to there because it is 
very close to Las Vegas. And so they could get out and see the 
horses easily. Those horses were zeroed out and not rereleased. 
No horses are out there now even though I saw a perfectly ample 
graze available.
    So there are all kinds of examples like that. I don't think 
I know the answer to how many acres are available, but I 
believe there are a substantial number if we looked.
    Mr.  Moran. So they were rounded up, sold at auction 
primarily for horse meat?
    Ms.  Perry. Probably not sold at auction because much of 
that zeroing out occurred prior to the Burns language being 
added to the 2004 omnibus Appropriations bill. Some since have 
been sold and may likely have been slaughtered, but many of 
them would have been put into either short-term holding and 
then gone to long-term holding or gone through the adoption 
program. So it is hard to say what their fate exactly has been.
    Mr.  Moran. Yeah. Mr. Healy has informed me that with 
regard to white nose syndrome, which is a serious disease that 
it has been found now in Michigan and Wisconsin. So we have 25 
states with--where that is occurring, white nose syndrome. Very 
serious, and it does affect agriculture in all of those states 
traumatically.
    I don't want to take up your time. You probably have 
questions, Mr. Chairman.
    Mr.  Simpson. No, go ahead if you have questions.
    Mr.  Moran. The grey wolf issue as an endangered species 
has been a tough one because we have been--the Committee was 
trying to work with the states, and it seemed as though the 
grey wolf was coming back and was sustainable. But I understand 
now that the population has been dramatically reduced again. Is 
that true or----
    Ms.  Perry. Well, I will just say it. I mean I think our 
concern is related to this report that was released that shows 
that some of the taxonomy concepts that were relied on for the 
delisting have proven to be very dated and are no longer relied 
upon in the current thinking about wolf populations. And so it 
is the very base assumptions for the delisting are very shaky 
according to this report. And what that tells us is there is a 
need for Fish and Wildlife Service to be much more rigorous in 
choosing the data it would rely on moving forward with 
decisions like that.
    Mr.  Moran. But you don't argue with the--apparently what 
we are told is that there are--I don't have the numbers in 
front of me. But there are a substantial number of pairs of 
wolves now in the states such as Wyoming, Montana, and I guess 
Idaho where they have been delisted. And, you know, so we hear 
from the farmers, you know, and they are very much concerned 
about the cattle, particularly the sheep.
    Ms.  Perry. Yeah.
    Mr.  Moran. So it has been an ongoing struggle. We lose on 
the floor as you know.
    Ms.  Perry. I know. I understand the dynamic, and it is not 
a simple problem to address. It is one of those that balances 
federal and state interest. At the same time, I would say that 
there are some states that have moved forward very aggressively 
with programs that, according to federal scientists, might 
appear unsustainable for the wolf populations. I think time 
will tell how well we have done for the wolf.
    Ms.  Beetham. Yeah, if I could just comment, Mr. Moran. I 
am actually not the person at Defenders who is up on all of the 
statistics, but I can say, and I know Mr. Simpson will disagree 
with this, that Defenders has issues and concerns about how the 
wolves are being managed currently in the northern Rockies. We 
have concerns about the delisting, but also concerns about how 
wolves are being managed in the northern Rockies under state 
management. And we are watching it very closely.
    We are concerned that, like I said I am not the one who is 
following the details day to day, but it is my understand that 
under the state plan for Idaho, under which wolves were 
delisted, Idaho had agreed to manage for 520 wolves. And now 
Idaho is saying that they want to manage down to the 150 number 
that is basically supposed to be the floor.
    Like I said, I am not the one who is following the 
statistics day to day. I could be incorrect on the number that 
was agreed to in the Idaho plan. But I know Defenders folks 
that are following this believe that Idaho is not following the 
state plan that they agreed to, but I know----
    Mr.  Simpson. Well, let me just say in response to--and I 
will talk to Jim about this. There are some groups. There are 
some organizations that I don't care if there were a million 
wolves in Idaho, they would not want them delisted because they 
are going to be hunted. And they don't like hunting. I actually 
don't hunt myself. I don't like killing animals, but anybody 
believed we were going to reintroduce wolves into Idaho, 
Montana, and Wyoming in a state where they hadn't existed for a 
while and so consequently they were going to boom, and they 
did, that we were going to reintroduce them and there were not 
going to be management plans as we have with other species, was 
living in a fantasy world.
    But when they came in as a nonessential, experimental 
population, remember that is what they were brought in as, a 
nonessential, experimental population. They were brought into 
Idaho, Montana, Wyoming. They said as soon as you have 10 
breeding pair, 30 total, but 10 breeding pair, we can delist 
these because that is enough to sustain itself.
    Let me just read you what it says here today. ``The grey 
wolf population in the northern Rocky Mountains remains stable 
in 2013 in spite of increasingly aggressive hunting and 
trapping regimes in Montana and Idaho that have drawn fire from 
wildlife advocates. There are at least 1,691 wolves in 320 
packs at the end of the year in Wyoming, Montana, Idaho, 
Washington, Oregon, virtually unchanged from the 1,674 wolves 
in 321 packs the year before according to the interagency 
report released today by Fish and Wildlife Service. The 
population remains well above the levels identified in wolf 
recovery plans which set minimum management targets at 450 
wolves and 45 breeding pairs across the six states. That also 
include northern Utah.'' They are doing very well. And how do I 
know that? Because they are killing sheep everywhere. They are 
killing cattle everywhere.
    As I told Jim the other day in a hearing, I will bring you 
a picture. We will put it on the back wall, and we can all 
throw up every day when we come in here and look at it, of 200 
sheep that were killed one night by a wolf and five dogs and a 
horse. You talk about cruelty to animals, that fits there too. 
There has to be some management. That is all we are asking for, 
and believe me the state will do a good job of management. They 
know that if the numbers get down to a certain level, it goes 
back on the list and the feds take over. And they are very 
cognizant of that fact.
    Are there people in Idaho, in the Idaho legislature would 
say let's kill them all? Sure there are, but that is not going 
to happen. So what I would like is for everybody to take a step 
back and take a deep breath. We have wolves in Idaho. Wolves 
are going to stay in Idaho in spite of the rhetoric you hear 
from some people. But we are going to manage them. That is kind 
of where I come from. Sorry.
    Mr.  Moran. No, it is understandable, and, you know, Norm 
Dicks was very good on this issue. And I tried to, you know, 
sustain that advocacy. But the situation does evolve, and we 
have to maintain our credibility particularly if we want to 
protect the wolves in areas where they are far more endangered 
than they are in a state like Idaho, for example.
    So it is an ongoing issue, and we have----
    Mr.  Simpson. Well, Jim, I will be flexible when it merits 
it. I tell you how much of a wolf advocate I was. When I first 
came here, I had a piece of legislations called PAW, called 
Protect American Wolves. And we were going to reintroduce the 
eastern timber wolf into the Adirondacks in New York.
    Mr.  Moran. Really?
    Mr.  Simpson. They are truly endangered there. There are no 
more because they used to go across the Saint Lawrence Seaway 
up into Canada and back and forth. Well, we keep the Saint 
Lawrence Seaway open now, and they used to travel in the winter 
across the ice. They don't do that. So there are none in 
northern New York, but guess what. They don't want them. And 
all those supporters, all the wolf supporters in Idaho, 
Montana, and Wyoming, that supported wolves out there, they 
don't want anything to do with introducing wolves back in New 
York.
    Mr.  Moran. There is a legitimate--I mean there are 
several. One of them that I have heard that--and it seemed to 
be supported by evidence was that when you do have wolves, they 
do balance the deer and elk population. And when you have 
balance it helps the trout and salmon by improving conditions 
for spawning because you have more vegetation along the 
streambeds and riverbeds. It's not eaten by out-of-control deer 
and elk population who have no natural predators.
    So we are trying to maintain the ecology, and you can see 
Mr. Simpson really is reasonable. He is a lot more reasonable 
than a lot of his constituents would like him to be. So we are 
going to--and he is a good person. So we are going to continue 
to work on these issues, and, you know, just as we need an 
ecological balance, sometimes we need a political balance too. 
And we will do what we can.
    Ms.  Beetham. Mr. Simpson, yeah, and if I could just say, 
just to clarify, Defenders is not opposed to management through 
hunting either. So just to be clear on our position. And also I 
did want to mention too that, you know, we have supported and 
worked to create the wolf livestock lost demonstration program 
which they did not fund in the President's budget and we feel 
that the work that we have done with coexistence to help 
ranchers who coexist with wildlife, Defenders has pioneered a 
lot of that work. And so we really hope that that livestock 
lost program will be funded in the bill and could even use more 
money because the nonlethal work is very important to work to 
stabilize situations on the ground where you might have--
instead of having a pack that comes in and kills a number of 
sheep, you can work with the nonlethal approaches because what 
is going to happen is if a pack is removed, then another pack 
is just going to come in.
    And so, you know, if you can work to stabilize the 
situation so the--I just want to take this opportunity to say 
that the nonlethal funding as well as the compensation funding 
is very important.
    Mr.  Simpson. This will be my last comment on it. You got 
me going when you brought up wolves. Is that when I was in the 
state legislature is when the, decided to reintroduce the 
wolves over the objections of Idaho and Wyoming and Montana, 
and they brought them in. We actually passed a bill in the 
legislature that I thought was a bad idea. But it was that we 
were so upset that they were bringing them in that the state 
could not work with Fish and Wildlife. Our state fish and game 
commission, couldn't do anything because they were imposing 
these on us.
    But I can remember testimony one day in the state 
legislature. A wolf expert, and this is why the science always 
gets me, and that is why I am a little subject to, you know, 
skepticism about the science.
    Ms.  Perry. Why we need the best science, yeah.
    Mr.  Simpson. Yeah, your best science might not be my best 
science and vice versa. But the wolf expert testified, and we 
did have an overpopulation of deer at the time. And he said 
what we are really trying to protect is the elk populations and 
maintain those because that is what people like.
    But he said you don't have to worry about the elk 
populations. These wolves go after deer, and they will help 
maintain your deer populations. And, they might go after elk if 
they run out of deer. Guess what. Come to find out elk are like 
prime rib to these wolves. That is what they go after, and that 
is what they go after first. In our elk population, the calf-
to-cow ratios dropped through the floor. Maintaining an elk 
population is very tough when you have so many of these wolves 
running around.
    A few years later when I was in Congress, this same guy 
came out and was talking to me about grizzly bears and some 
things about potentially reintroducing grizzly bears. And I 
said aren't you the same guy that testified in the Idaho 
legislature about the fact that wolves wouldn't go after elk? 
And he actually looked at me and said you know, we really 
didn't know much about it then. And you are the expert. I am 
not one who denies science. But I fear that we can make science 
for whatever outcome we want, and we shouldn't do that. But I 
agree with you. We need to look at all of the science on it and 
make sure that it makes sense.
    Mr.  Moran. And I agree with you on hunting too, Mike. I 
just can't bring myself to shoot other, you know, innocent 
living species, but particularly a beautiful elk, you know. But 
I know that is not any issue we are ever going to win. And we, 
you know, we have to respect the right of hunters particularly 
when there is a surplus. So the only thing we can do is to 
determine when there truly is an endangered species, and we are 
going to work on this issue of wolves.
    It is a tough one, but, you know, we have to work with 
consistent data. And we have to work with people who have more 
credibility than I do with a lot of these constituency groups 
such as Mr. Simpson so----
    Mr.  Simpson. I noticed we didn't technically delist. What 
we did is reinstate Fish and Wildlife Services, or divesting of 
them to overturn the court order.
    Mr.  Moran. Yeah.
    Mr.  Simpson. We only did that for Montana and Idaho. 
Wyoming wanted us to do it for Wyoming, but Wyoming didn't have 
an approved state management plan. Arizona wanted me to do it 
for Mexican wolves, and I said no, they are far from recovered, 
and you don't have a state management plan there.
    So I mean we were looking at what the science had done or 
supposedly done, the Fish and Wildlife had done, and why they 
had delisted in Montana and Idaho.
    Ms.  Perry. Yeah, we appreciate that.
    Mr.  Moran. Mike was very thoughtful on the issue.
    Mr.  Simpson. I am always thoughtful.
    Mr.  Moran. He doesn't get a whole lot of credit, you know, 
from the conservation groups, but he really was extraordinarily 
reasonable to deal with. And you know, I am retiring. 
Fortunately Mike is not, and he is going to be around for a 
while. And he is the kind of person we need to work with 
because he does have credibility. And he is a very reasonable 
and good person. But thank you for your testimony, and we 
appreciate all that you do, not just testifying but what you do 
day-in and day-out on behalf of wildlife and the ecology of our 
natural resources. Thank you.
    Ms.  Perry. Thank you.
    Ms.  Beetham. Thanks.
    Mr.  Simpson. Thank you all for what you do, and could you 
make an announcement so that I know when those commercials are 
going to come on.
    Ms.  Perry. I will get the schedule from my colleague. 
Thank you so much.
    Mr.  Simpson. I appreciate it. Thank you all very much. 
Hearing is adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                               I N D E X

                              ----------                              

             American Indian/Alaska Native Public Witnesses
                         Day One--April 7, 2014
                             ORGANIZATIONS

                                                                   Page
Omaha Tribe of Nebraska..........................................     2
Rosebud Sioux Tribe..............................................     7
Tribal Education Departments National Assembly (TEDNA)...........    13
Oglala Sioux Tribe...............................................    22
Inter Tribal Buffalo Council.....................................    29
Mandan, Hidatsa & Arikara Nation.................................    37
The Assiniboine & Sioux Tribes of the Fort Peck Reservation......    44
United Tribes Technical College..................................    50
National Alliance to Save Native Languages.......................    56
Navajo Nation....................................................    81
Navajo Hopi Land Commission......................................    88
Santa Clara Pueblo...............................................    96
Acoma Pueblo.....................................................   102
Dine Bi Olta School Board Association............................   111
Association of Navajo Community Controlled School Boards.........   117
Pinon Community School (Navajo Indian Reservation)...............   122
Rough Rock Community Schools.....................................   128
Lukachukai Community School (Navajo Nation)......................   136
Dzilth-Na-O-Dith-Hle Community Grant School......................   143
Ramah Navajo School Board (Ramah-Navajo Indian Reservation)......   149
National Indian Education Association............................   155
Ramah Navajo Chapter.............................................   164
Catawba Indian Nation............................................   171
Miccosukee Tribe of Indians of Florida...........................   176
Passamaquoddy Tribal Government..................................   182
United South and Eastern Tribes..................................   191
Fort Hall Business Council (Shoshone-Bannock Tribal Governing 
  Body)..........................................................   198
Nez Perce Tribal Executive Committee.............................   204
Columbia River Inter-Tribal Fish Commission......................   211
Shoshone-Paiute Tribal Business Council..........................   220
Pacific Salmon Commission........................................   228
Southeast Alaska Regional Health Consortium......................   233
Alaska Native Tribal Health Consortium...........................   240
Southcentral Foundation..........................................   248
Chugach Regional Resources Commission............................   253
Arctic Slope Native Association..................................   259
Norton Sound Health Corporation..................................   265
Aleutian Pribilof Islands Association............................   275
Tanana Chiefs Conference.........................................   282

                               WITNESSES

Vernon Miller....................................................     2
Cyril Scott......................................................     7
Quinton Roman Nose...............................................    13
Bryan Brewer.....................................................    22
Ervin Carlson....................................................    29
Tex Hall.........................................................    37
Dana ``Sam'' Buckles.............................................    44
David Gipp.......................................................    50
Ryan Wilson......................................................    56
Ben Shelly.......................................................    81
Walter Phelps....................................................    88
Michael Chavarria................................................    96
Fred Vallo, Sr...................................................   102
Angela Barney Nez................................................   111
Earl Apachito....................................................   117
Jeffrey Mike.....................................................   122
Ronald Gishey....................................................   128
Arthur Ben.......................................................   136
Faye BlueEyes....................................................   143
Darnell Maria....................................................   149
Pam Agoyo........................................................   155
Nancy Martine-Alonzo.............................................   164
Joseph Socobasin.................................................   182
William Harris...................................................   171
Colley Billie....................................................   176
Kitcki Carroll...................................................   191
Nathan Small.....................................................   198
Joel Moffett...................................................204, 211
Dennis Smith, Sr.................................................   220
McCoy Oatman.....................................................   228
Charles Clement..................................................   233
Andy Teuber......................................................   240
Donna Galbreath..................................................   248
Patty Brown-Schwalenberg.........................................   253
Angela Cox.......................................................   259
Elsie Sampson Vaden..............................................   265
Jessica Mata-Rukovishnikoff......................................   275
Victor Joseph....................................................   282

             American Indian/Alaska Native Public Witnesses
                         Day Two--April 8, 2014
                             ORGANIZATIONS

Little River Band of Ottawa Indians..............................   292
Chippewa Ottawa Resource Authority...............................   298
Lac du Flambeau Band of Lake Superior Chippewa...................   303
Great Lakes Indian Fish and Wildlife Commission..................   310
Leech Lake Band of Ojibwe of Minnesota...........................   318
National Indian Health Board.....................................   325
National Indian Child Welfare Association........................   331
Mille Lacs Band of Ojibwe........................................   337
Prairie Band Potawatomi Nation...................................   346
Sac & Fox Nation.................................................   353
Cherokee Nation..................................................   359
Choctaw Nation of Oklahoma.......................................   372
Hickory Ground Tribal Town of the Muscogee Creek Nation of 
  Oklahoma.......................................................   378
Ute Tribe of Fort Duchesne.......................................   384
Institute of American Indian Arts................................   392
American Indian Higher Education Consortium......................   398
The National Association of Tribal Historic Preservation Officers   404
National Tribal Contract Support Cost Coalition..................   410
Lummi Nation.....................................................   423
Confederated Tribes of the Colville Reservation..................   429
Quinault Indian Nation...........................................   434
Skokomish Tribal Nation..........................................   441
Puyallup Tribe of Washington.....................................   447
Cowlitz Indian Tribe.............................................   453
Spokane Tribal Natural Resources.................................   459
National Congress of American Indians............................   467
Tribal Interior Budget Council...................................   474
Northwest Indian Fisheries Commission............................   480
Intertribal Timber Council.......................................   486
Seattle Indian Health Board......................................   493
Northwest Portland Area Indian Health Board......................   500
American Dental Association......................................   506
Friends of Indian Health.........................................   512
The California Rural Indian Health Board, Inc....................   518
Southern Indian Health Council...................................   525
Riverside-San Bernardino County Indian Health Consortium.........   531

                               WITNESSES

Jessica Burger...................................................   292
Levi Carrick Sr..................................................   298
Eric Chapman, Sr.................................................   303
James Zorn.......................................................   310
Crystal Redgrave.................................................   318
Cathy Abramson...................................................   325
Aurene Martin....................................................   331
Melanie Benjamin.................................................   337
Thomas Wabnum....................................................   346
George Thurman...................................................   353
Bill John Baker..................................................   359
Mickey Peercy....................................................   372
George Thompson..................................................   378
Gordon Howell....................................................   384
Robert Martin....................................................   392
Carrie Billy.....................................................   398
D. Bambi Kraus...................................................   405
Lloyd B. Miller..................................................   410
Tim Ballew II....................................................   423
Mel Tonasket.....................................................   429
Gina James.......................................................   434
Joseph Pavel.....................................................   441
David Bean.......................................................   447
Taylor Aalvik....................................................   453
Twa-le Abrahamson-Swan...........................................   459
Aaron A Payment..................................................   467
Tex Hall.........................................................   474
Billy Frank......................................................   480
Edward Johnstone.................................................   480
Phil Rigdon......................................................   486
Ralph Forquera...................................................   493
Andy Joseph, Jr..................................................   500
Charles Norman...................................................   506
Jacque Gray......................................................   512
Mark LeBeau......................................................   518
Michael Garcia...................................................   525
Brandi Miranda...................................................   531

                            Public Witnesses
                             April 10, 2014
                             ORGANIZATIONS

Federation of State Humanities Councils..........................   540
National Humanities Alliance.....................................   546
Warrior Scholar Project..........................................   553
Historic Hudson Valley...........................................   559
American Alliance of Museums.....................................   565
Americans for the Arts...........................................   571
National Conference of State Historic Preservation officers 
  (NCSHPO).......................................................   577
National Trust for Historic Preservation.........................   583
National Parks Conservation Association..........................   591
Alliance of National Heritage Areas and the Ohio & Erie Canalway 
  National Heritage Area.........................................   597
Everglades Foundation............................................   603
Civil War Trust..................................................   607
U.S. Park Police Fraternal Order of Police.......................   611
Environmental Council of the States..............................   618
The National Association of Clean Air Agencies (NACAA)...........   625
Cancer Survivors Against Radon (CanSAR)..........................   631
Association of State Drinking Water Administrators (ASDWA).......   638
American Society of Civil Engineers (ASCE).......................   645
National Rural Water Association.................................   652
Healing Our Waters-Great Lakes Coalition.........................   658
Entomological Society of America.................................   665
The Trust for Public Land........................................   671
The Wilderness Society...........................................   678
Wilderness Land Trust............................................   685
American Forests.................................................   692
Federal Forest Resource Coalition................................   698
Society of American Foresters (SAF)..............................   704
National Association of State Foresters (NASF)...................   713
American Forest Foundation.......................................   724
Partner Caucus on Fire Suppression Funding Solutions.............   734
Alliance for Community Trees.....................................   740
The Corps Network................................................   746
National Institutes for Water Resources (NIWR)...................   754
USGS Coalition...................................................   761
MAPPS............................................................   767
Geological Society of America....................................   773
Western Governors' Association...................................   780
Partners for Conservation........................................   787
Mohave County Arizona Board of Supervisors.......................   793
American Seed Trade Association (ASTA)...........................   799
National Fish and Wildlife Foundation............................  1219
The Nature Conservancy...........................................   808
Partnership for the National Trails System.......................   815
Wildlife Conservation Society....................................   821
The Wildlife Society.............................................   831
National Wildlife Federation (NWF)...............................   838
World Wildlife Fund..............................................   844
San Diego Zoo Global.............................................   851
The Peregrine Fund...............................................   851
Oregon Zoo.......................................................   851
Ventana Wildlife Society.........................................   851
Los Angeles Zoo..................................................   851
Friends of the Wichitas Secretary................................   857
Friends of the Potomac River Refuges.............................   863
Defenders of Wildlife............................................   870
Animal Welfare Institute.........................................   876
American Society for the Prevention of Cruelty to Animals (ASPCA)   882

                               WITNESSES

Trent Clark......................................................   540
Peter Meineck....................................................   546
Jesse Reising....................................................   553
Waddell Stillman.................................................   559
Ford Bell........................................................   565
Pamela Hogan.....................................................   571
Elizabeth Hughes.................................................   577
Thomas Cassidy, Jr...............................................   583
John Garder......................................................   591
Daniel Rice......................................................   597
Eric Eikenberg...................................................   603
O. James Lighthizer..............................................   607
Ian Glick........................................................   611
Dick Pedersen....................................................   618
S. William Becker................................................   625
Marlene MacEwan..................................................   631
John Calkins.....................................................   638
Brian Pallasch...................................................   645
Ruth Hubbard.....................................................   652
Chad Lord........................................................   658
Robert N. Wiedenmann.............................................   665
Kathy DeCoster...................................................   671
Alan Rowsome.....................................................   678
Reid Haughey.....................................................   685
Scott Steen......................................................   692
Bill Imbergamo...................................................   698
John Barnwell....................................................   704
Jim Karels.......................................................   713
Tom Martin.......................................................   724
Hank Kashdan.....................................................   734
David Forsell....................................................   740
Joel Holtrop.....................................................   746
Brian Haggard....................................................   754
Robert Gropp.....................................................   761
John Palatiello..................................................   767
John Geissman....................................................   773
James Ogsbury....................................................   780
Terry Mansfield..................................................   787
Hildy Angius.....................................................   793
Mark Mustoe......................................................   799
Christy Plumer...................................................   808
Gary Werner......................................................   815
John Calvelli....................................................   821
Byron (Ken) Williams.............................................   831
Joshua Saks......................................................   838
Will Gartshore...................................................   844
Michael Mace.....................................................   851
J. Peter Jenny...................................................   852
Bobby Williamson.................................................   857
Randy Streufert..................................................   863
Mary Beth Beetham................................................   870
Rosalyn Morrison.................................................   876
Nancy Perry......................................................   882

   Written Testimony From Individuals and Organizations on Behalf of 
                  Native American/Alaska Native Issues

American Foundation for Suicide Prevention.......................   896
American Indians for Health Quality..............................   899
Bristol Bay Area Health Corporation..............................   902
Central Council of Tlingit & Haida Indian Tribes of Alaska.......   906
Confederated Tribes of the Umatilla Indian Reservation (CTUIR) 
  Tribal Health Commission.......................................   910
Council of Athabascan Tribal Governments.........................   912
Fond Du Lac Band of Lake Superior Chippewa.......................   916
Hopi Tribe.......................................................   920
Independent Tribal Courts Review Team............................   921
Jamestown S'Klallam Tribe........................................   925
Jicarilla Apache Nation..........................................   929
Maniilaq Association.............................................   931
National Council of Urban Indian Health..........................   935
Native Village of Barrow.........................................   938
Native Village of Kotzebue (Tribe)...............................   941
Navajo Nation....................................................   945
Pala Tribal Historic Preservation Office.........................   947
Puyallup Tribe...................................................   949
Red Cliff Band of Lake Superior Chippewa Indians.................   953
Red Lake Band of Chippewa Indians................................   956
Santee Sioux Nation..............................................   960
Shoalwater Bay Tribe.............................................   964
Soboba Band of Luiseno Indians...................................   967
Southern Ute Indian Tribe........................................   970
Squaxin Island Tribe.............................................   972
St. Regis Mohawk Tribe...........................................   976
Standing Rock Sioux Tribe........................................   979
Suquamish Tribe..................................................   983
Ute Mountain Ute Tribe...........................................   985
Yakama Nation....................................................   987
Yankton Sioux Tribe..............................................   991
Zuni Tribe.......................................................   995

   Written Testimony From Individuals and Organizations--Other Issues

``Ding'' Darling Wildlife Society................................  1106
Alliance of National Heritage Areas..............................  1000
American Association of Petroleum Geologists.....................  1004
American Association of Radon Scientists and Technologists, Inc..  1007
American Bird Conservancy........................................  1011
American Cultural Resources Association..........................  1014
American Eel Sustainability Association..........................  1016
American Fly Fishing Trade Association...........................  1019
American Sportfishing Association................................  1019
Bass Anglers Sportsman Society...................................  1019
Berkley Conservation Institute...................................  1019
Congressional Sportsmen's Foundation.............................  1019
Northwest Sportfishing Industry Association......................  1019
Shimano American Corporation.....................................  1019
Theodore Roosevelt Conservation Partnership......................  1019
American Water Works Association.................................  1033
Association of Clean Water Administrators........................  1033
Association of Metropolitan Water Agencies.......................  1033
Association of State Drinking Water Administrators...............  1033
Council on Infrastructure Financing Authorities..................  1033
National Association of Clean Water Agencies.....................  1033
National Association of Water Companies..........................  1033
Water Environment Federation.....................................  1033
American Forest and Paper Association............................  1021
American Geosciences Institute...................................  1025
American Institute of Biological Sciences........................  1029
American Public Works Association................................  1033
Amy Jordan.......................................................  1036
Appalachian Mountain Club........................................  1038
Appalachian Trail Conservancy....................................  1040
APS Four Corners Power Plant.....................................  1044
Association of Art Museum Directors..............................  1046
Association of Fish and Wildlife Agencies....................1019, 1050
Association of Public and Land-Grant Universities................  1054
Association of Zoos and Aquariums................................  1057
Aurora Water.....................................................  1059
BHP Billiton Limited New Mexico Coal.............................  1061
Blue Ridge Traditional Arts......................................  1063
California Institute of Technology...............................  1064
Center for Biological Diversity..................................  1066
Central Arizona Water Conservation District......................  1070
Central Utah Water Conservancy District..........................  1073
Children's Environmental Health Network..........................  1075
City of Farmington...............................................  1079
Coalition Against Forest Pests...................................  1081
Colorado River Basin Salinity Control Forum......................  1084
Colorado River Board of California...............................  1087
Colorado River Water Conservation District.......................  1091
Colorado Springs Utilities.......................................  1093
Congressional Fire Services Institute............................  1228
Cooperative Alliance for Refuge Enhancement (CARE)...............  1095
Dance/USA........................................................  1099
Denver Water.....................................................  1103
Diana Briggs.....................................................  1105
Edison Electric Institute........................................  1107
Friends of Balcones Canyonlands National Wildlife Refuge.........  1111
Friends of Bon Secour National Wildlife Refuge...................  1115
Friends of California Condors Wild and Free......................  1118
Friends of Horicon National Wildlife Refuge......................  1120
Friends of Maine's Seabird Islands (FOMSI).......................  1122
Friends of Ridgefield National Wildlife Refuge...................  1126
Friends of Salmon River Division of Silvio O. Conte National Fish 
  & Wildlife Refuge..............................................  1129
Friends of the Florida Panther Refuge............................  1130
Friends of the Little Pend Oreille National Wildlife Refuge......  1134
Friends of the Lower Suwannee & Cedar Keys National Wildlife 
  Refuges........................................................  1138
Friends of the Rachel Carson National Wildlife Refuge............  1141
Friends of the Silvio O. Conte Fish and Wildlife Refuge..........  1143
Friends of the Tampa Bay National Wildlife Refuges, Inc..........  1145
Friends of White River National Wildlife Refuge..................  1149
Friends of Willapa National Wildlife Refuge......................  1152
Geoffrey Mason...................................................  1154
Gloria Linnertz..................................................  1155
Grand Valley Water Users' Association............................  1159
Hardwood Federation..............................................  1161
Humane Society of the United States..............................  1163
Humane Society Legislative Fund (HSLF)...........................  1163
Doris Day Animal League..........................................  1163
International Association of Fire Chiefs.........................  1228
International Fund for Animal Welfare............................  1167
Interstate Mining Compact Commission.............................  1169
Izaak Walton League of America...................................  1173
Jeffrey R. Walters...............................................  1177
Katy Clune.......................................................  1180
Lauren Kritzer...................................................  1181
League of American Orchestras....................................  1183
M.A. Folklore....................................................  1187
Margie Lynch.....................................................  1190
Metropolitan Water District of Southern California...............  1191
Middlesex Land Trust.............................................  1194
Minneapolis Park and Recreation Board............................  1196
National Assembly of State Arts Agencies.........................  1199
National Association of Abandoned Mine Land Programs.............  1203
National Association of Forest Service Retirees..................  1207
National Association of State Energy Officials...................  1211
National Federation of Federal Employees--Local 5300.............  1215
National Fish and Wildlife Foundation............................  1219
National Radon Safety Board......................................  1223
National Taxpayers Union.........................................  1224
National Volunteer Fire Council..................................  1228
National Wildlife Refuge Association.............................  1230
New England Forest Policy Group..................................  1234
New Mexico Interstate Stream Commission..........................  1238
Northern Water...................................................  1241
OPERA America....................................................  1243
Oregon Water Resources Congress..................................  1247
Outdoor Alliance.................................................  1251
Patricia Sawin...................................................  1255
Performing Arts Alliance.........................................  1257
Peter Hendrick...................................................  1261
Preservation Action..............................................  1264
Public Lands Foundation..........................................  1268
Public Service Company of New Mexico (PNM).......................  1272
Punk Life Zine...................................................  1274
Restore America's Estuaries......................................  1278
San Juan Water Commission........................................  1282
Save the Smithsonian Folklife Festival...........................  1284
Southwestern Water Conservation District.........................  1286
State of New Mexico Office of the State Engineer.................  1288
Stephen R. Rickerson.............................................  1290
Subsurface Technologies, Inc.....................................  1292
Sustainable Urban Forests Coalition..............................  1295
The Conservation Fund............................................  1298
Theatre Communications Group.....................................  1302
Tri-County Water Conservancy District............................  1305
Uni-Bell PVC Pipe Association....................................  1306
Utah Water Users Association.....................................  1309
Whitney Brown....................................................  1311

                                  [all]
</pre></body></html>
